                        C
                   INSPE TOR GEN
              AL                E
           CI




                                           RA
       E
     SP




                                               L
                                               M
    TRO




                                           RA
          LE
      UB




                                      OG

               DA                          R
                    S S E T R E LI E F P




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement



                                                                     Quarterly Report to Congress
                                                                                    July 30, 2014
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                                                                                                                                       C
                                                                                                                                  INSPE TOR GEN
                                                                                                                             AL                E
                                                                                                                        CI




                                                                                                                                                         RA
                                                                                                                    E
                                                                                                                  SP




                                                                                                                                                             L
Message from the Special Inspector General




                                                                                                                                                             M
                                                                                                                  TRO




                                                                                                                                                         RA
                                                                                                                        LE




                                                                                                                   UB




                                                                                                                                                    OG
                                                                                                                             DA                          R
                                                                                                                                  S S E T R E LI E F P

Already 196 defendants have been charged with crimes investigated by the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”). Of these, 136 were convicted (others await trial) – 85 already
sentenced to prison (others await sentencing). In the first criminal case of the President’s RMBS Working Group,
trader Jesse Litvak was sentenced to prison and fined $1.75 million after SIGTARP’s investigation of fraud against
the Government in his sale of RMBS to 6 of 8 TARP money managers. We also investigated SunTrust Mortgage’s
false representations to homeowners about TARP’s housing program HAMP. SunTrust failed to process HAMP
applications timely – their floor buckled from unopened applications. SunTrust mass denied homeowners without
reviewing their application and lied to Treasury about the reasons. SunTrust kept some homeowners in a trial
period for up to two years, later denying some and foreclosing. DOJ entered into a non-prosecution agreement with
SunTrust Bank (not a civil settlement), requiring corporate changes, $320 million, and victim relief. SIGTARP’s
investigations return real money, with court orders of payment of $5.11 billion. We have already assisted in the
recovery of $431.8 million of this money, and we will continue to fight for the return of all illegal proceeds.

SIGTARP also discusses lessons learned in TARP to protect taxpayers in the future. TARP resulted from the
dangerous interconnections of Too Big To Fail financial institutions to each other and our entire economy. A high
level analysis shows that 6 of the largest TARP banks remained as interconnected in 2013 as they were in 2008. Some
levels of exposure have decreased, whereas, others, such as short term funding in commercial paper and the repo market
have remained consistent or increased. A deeper dive is required by these companies and regulators that will help
determine whether these interconnections pose risk that could potentially threaten the system. Despite statements
by two former Treasury Secretaries about the difficulty in predicting the next crisis, we cannot allow the causes of
this crisis to continue unabated. We also highlight that although Treasury extended HAMP, more change is needed,
including many SIGTARP recommendations that are unimplemented. We raise the issue that servicers are not
timely processing HAMP applications, with more than 221,000 homeowners who await a decision. We also raise
the issue that Treasury, servicers, and states in the Hardest Hit Fund can do more to have HAMP and HHF work
together to help homeowners.


                                                Respectfully,




                                                CHRISTY L. ROMERO
                                                Special Inspector General
CONTENTS
Executive Summary	3
  Indicators of Interconnectedness	                              8

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                  33
  SIGTARP Creation and Statutory Authority	                     35
  SIGTARP Oversight Activities 	                                35
  The SIGTARP Organization	                                     63


Section 2
TARP OVERVIEW	                                                  65
  TARP Funds Update	                                            67
  TARP Programs Update	                                         70
  Cost Estimates	                                               71
  TARP Programs	                                                74
  Housing Support Programs	                                     81
  Financial Institution Support Programs	                      186
  Automotive Industry Support Programs	                        250
  Asset Support Programs	                                      258

Section 3
TREASURY SHOULD USE HAMP AND HHF TOGETHER TO HELP
AS MANY HOMEOWNERS AS POSSIBLE AVOID FORECLOSURE 	              277
  Introduction	279
  HHF Can Be A Bridge To More Permanent Foreclosure Relief
  For Homeowners Through HAMP	                                  282
  HHF And HAMP Coordination Opportunities	                      283
  Previous SIGTARP Recommendations To Treasury For Improvements
  In TARP Housing Programs	                                     289
  Treasury Should Ensure That Homeowners Get All The Help
  Available To Them Under TARP	                                 289

Section 4
TARP OPERATIONS AND ADMINISTRATION	                            291
  TARP Administrative and Program Operating Expenditures	      293
  Financial Agents	                                            294


Section 5
SIGTARP RECOMMENDATIONS	                                       305
  Update On Unimplemented Recommendations Concerning HAMP	     307

  Endnotes	337
APPENDICES
  A.	 Glossary	365
  B.	 Acronyms and Abbreviations	                                         369
  C.	 Reporting Requirements	                                             372
  D.	Transaction Detail	                                                  376
  E.	 Debt Agreements, Equity Agreements, and Dividend/Interest Payments	 526
  F.	 HAMP Modification Statistics	                                       530
  G.	Cross-Reference of Report to the Inspector General Act of 1978	      532
  H.	Public Announcements of Audits	                                      533
  I.	 Key Oversight Reports and Testimony	                                534
  J.	 Peer Review Results	                                                536
  K.	 Organizational Chart 	                                              537
  L.	 Indicators of Interconnectedness	                                   538
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   5




Taxpayers were called upon to shoulder the more than $420 billion TARP bailout
because the financial stability of our country was threatened by the dangerously
interconnected nature of large financial institutions. These firms were tied as
creditors and counterparties to each other so that if one went down, it would
not just pull the others down with it, it would pull our entire economy down. As
then-Chairman of the Federal Reserve Ben Bernanke testified when asking for
TARP authority, the too big to fail problem was “much worse than we thought it
was coming into this crisis.” The greatest lesson learned from the financial crisis
is the power that these too big to fail institutions had over not just each other, but
over our entire economy – the fates of Wall Street and Main Street are tied. Then-
Chairman Bernanke testified, “people on Main Street who think that Wall Street
is somewhere far away and whatever happens there has no implications for their
lives are just misinformed.” The types and levels of interconnectedness of these
largest financial institutions must be constantly monitored to protect hardworking
Americans.
    Taxpayers who funded TARP made a long-term investment to restore financial
stability now and for the future. They placed their money, confidence, and
trust in the hands of regulators and policy makers to first reestablish financial
stability, and then to begin the long and arduous task to uncover, unmask, and
understand the root causes of the financial crisis, to prevent similar threats and
future bailouts. Improved financial stability gives institutions and their regulators
time and breathing space to strengthen and correct mistakes of the past. Future
crises could still come in unexpected forms. Former Treasury Secretary Henry
Paulson testified before the Financial Crisis Inquiry Commission that when the
President asked him, “what will cause the crisis?,” he said, “I wish I knew.” Former
Treasury Secretary Timothy Geithner told SIGTARP in December 2010, “The size
of the shock that hit our financial system was larger than what caused the Great
Depression. In the future we may have to do exceptional things again if we face a
shock that large. You just don’t know what’s systemic and what’s not until you know
the nature of the shock. It depends on the state of the world.” Even if regulators
may not be able to predict the nature of a future crisis, they know the causes of this
financial crisis, which they cannot allow to continue unabated or to repeat.
    The interconnections of the largest financial institutions, which can threaten
the economy, require constant monitoring. An important part of SIGTARP’s
mission is to protect taxpayers by bringing transparency to Government decisions
made in the wake of the financial crisis because there are important implications
for the future. By examining the past, we can take advantage of lessons learned
to protect taxpayers in the future, and that is certainly the case with the systemic
nature of the largest banks. As former Secretary Paulson testified before Congress
when requesting Congressional authority for TARP, “the taxpayer is already on
the hook.” Former Secretary Geithner testified, “ultimately, it is the taxpayers’’
burden if the Government fails to get this balance of moral hazard and safeguards
right.” The institutions themselves, and their regulators, must continue to assess
how interconnectedness caused the crisis, whether those same connections exist
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           today, and whether they pose risk. For these reasons, SIGTARP explored these
                                           interconnections further, as detailed below.
                                               Wall Street and its financial regulators were caught woefully unprepared for
                                           the storm created by the interconnections of the largest financial institutions that
                                           quickly overtook whatever corporate and regulatory barriers were in place, flooding
                                           our economy with the threat of collapse. Financial institutions themselves did
                                           not fully understand all of the risks of its interconnections, including complex
                                           and difficult to value securities, relying instead on a false sense of security that
                                           their hedging strategies covered their risks. Many later realized that a hedge is
                                           only as strong as the strength of its counterparty. Regulators were “largely blind
                                           to emerging dangers” as described by former Treasury Secretary Geithner. In a
                                           January 2013 speech, then-Vice Chair of the Federal Reserve, Janet Yellen said
                                           that understanding interconnectedness and systemic risk is “of great importance to
                                           understanding the causes and implications of the financial crisis.”
                                               SIGTARP previously reported that the Government selected the first nine
                                           TARP recipients (Bank of America, Citigroup, Wells Fargo, JPMorgan Chase,
                                           Goldman Sachs, Morgan Stanley, Merrill Lynch, State Street Corporation,
                                           and the Bank of New York Mellon) because Federal regulators viewed them
                                           as systemically important given the types of services they provide, their size,
                                           and their interdependence with each other and the broader economy. Various
                                           Federal officials and bank executives noted that these nine systemically important
                                           institutions were highly interdependent and interconnected with each other.
                                           Some were counterparties to each other, such that a risk of one institution failing
                                           to live up to its contractual obligations would cause financial problems, if not
                                           failure, for another. In 2009, then-Chairman Bernanke, told SIGTARP that the
                                           differences among the first nine TARP recipients with regard to their health were
                                           less important than the fact that all the banks were systemically important and
                                           interconnected. He further explained to SIGTARP that the Federal Reserve was
                                           concerned that the failure of a systemically significant institution could rapidly
                                           cause the failure of others due to the high degree of interconnectedness of the
                                           systemically significant institutions.
                                               Taxpayers also bailed out AIG, with Federal Reserve funds and $68 billion in
                                           TARP funds, because, as former Treasury Secretary Paulson recalled in his book
                                           On the Brink: Inside the Race to Stop the Collapse of the Global Financial System,
                                           “More than almost any financial firm I could think of, AIG was entwined in every
                                           part of the global system, touching businesses and consumers alike in many
                                           different and critical ways.” In 2012, then-Chairman Bernanke also explained in
                                           a lecture, “Because AIG was interconnected with many other parts of the global
                                           financial system, its failure would have had a massive effect on other firms and
                                           markets. We were quite concerned that if AIG went bankrupt, we would not be
                                           able to control the crisis any further.”
                                               The financial crisis exposed how dangerously interconnected Main Street
                                           was to Wall Street. Because our banking system was so entangled, the impact
                                           of the crisis was felt by banks of all sizes, all over the country. In September
                                           2008, while requesting Congressional authorization for TARP, then-Chairman
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   7




Bernanke testified that small banks were feeling stress, and that small banks were
very dependent on commercial real estate, an area that had become extremely
stressed. Then-Chairman Bernanke and then-Secretary Paulson testified how
interconnected Main Street and Wall Street were, with Chairman Bernanke
testifying, “People are saying, ‘Wall Street, what does it have to do with me?’ That
is the way they are thinking about it. Unfortunately, it has a lot to do with them. It
will affect their company, it will affect their job, it will affect their economy. That
affects their own lives, affects their ability to borrow and to save and to save for
retirement and so on.”
    The freezing of credit markets in September 2008 had an immediate impact on
Americans. Then-Chairman Bernanke testified before Congress on September 23,
2008, that the firms were not necessary failing; they were pulling back, unwilling
to make credit available in those market conditions. He explained to Congress the
following day about the implications, “Credit is the life blood of the economy. If the
credit system isn’t working, then firms cannot finance themselves, people cannot
borrow to buy a car, to send a student to college, to buy a house.”
    In order to address too big to fail, regulators must understand, monitor, and
regulate any interconnection that could spiral one institution’s troubles into a
threat to the entire country. Then-Chairman Bernanke testified, “I think what we
have learned here though…we have to take a look at the fire code. We have to
come back and see why it happened. Are there regulatory issues and gaps, overlaps,
deficiencies; are there problems in the way our markets are structured that can be
improved? So I think what we want to do is come out of this with a much stronger,
more resilient market-based financial system. That is really critical to do.” Because
not all interconnections pose a dangerous threat, regulators should take advantage
of the opportunity now to use data they already collect from interconnected
financial institutions to assess whether the interconnections existing today pose a
threat to financial stability. The time to act is now, while the waters are relatively
calm, not when the wind starts to blow and the flood levels start to creep up.
    SIGTARP conducted a high level analysis of some of the interconnections
between six of the largest TARP recipients (JPMorgan, Bank of America, Citigroup,
Wells Fargo, Goldman Sachs, and Morgan Stanley) in 2008 through 2013 from
publicly available balance sheet information for bank holding companies collected
by the Federal Reserve to see what has changed and what has stayed the same.
Because Goldman Sachs and Morgan Stanley did not report 2008 data, SIGTARP
used their data starting in 2009.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           INDICATORS OF INTERCONNECTEDNESS
                                           SIZE AND ASSETS

                                           Total Assets
                                           What does this indicator demonstrate? This is a measure of a bank’s overall size.
                                           When a bank acquires cash, securities (for example, bonds), loans, or other
                                           investments as a result of its financial activities, it records them as assets on its
                                           balance sheet; the sum of all a bank’s assets are its total assets.

                                           How does it connect firms to each other? The largest banks engage in a broad
                                           range of financial activities, and account for a sizeable share of the overall activity
                                           in many financial markets. Given this, the largest banks developed a network
                                           of contractual links to each other as creditors and counterparties in these
                                           transactions. If one of these large banks experiences distress or fails, it can spread
                                           consequences to the other large banks via these links.

                                           How could it threaten financial stability? Because the largest banks share a network
                                           of contractual links, uncertainty about the financial condition of one institution
                                           can cause market participants to question the financial condition of other large
                                           banks, called contagion. This can undermine confidence in these institutions and
                                           the financial system as a whole, given the significant role the largest banks play in
                                           financial activities.

                                           How did it contribute to the financial crisis and TARP? As SIGTARP previously
                                           reported, the first nine TARP institutions were selected in part because of their
                                           size, as they held more than $11 trillion in banking assets – approximately 75% of
                                           all assets held by U.S. owned banks as of June 30, 2008. Former Treasury Secretary
                                           Paulson testified before the Financial Crisis Inquiry Commission in May of 2010,
                                           “the level of concentration where we have 10 big institutions with 60% of the
                                           financial assets, you know, this is a dangerous risk.”
                                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   9




What does this currently indicate about interconnectedness?

             FIGURE ES.1
             TOTAL CONSOLIDATED ASSETS ($ TRILLIONS)
             $3.0




              2.5




              2.0




              1.5




              1.0




              0.5




               0
                        2008          2009           2010          2011          2012       2013


                       Bank of America                JPMorgan                      Morgan Stanley
                       Citigroup                      Goldman Sachs                 Wells Fargo

                    Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


    Since 2008, Wells Fargo (17%), Bank of America (16%), and JPMorgan (11%)
have all grown in asset size, due in part to acquisitions. Wells Fargo acquired
Wachovia, Bank of America acquired Merrill Lynch and JPMorgan acquired
Bear Stearns. Goldman Sachs and Morgan Stanley are smaller institutions, but
since 2009, Goldman Sachs (7%) and Morgan Stanley (8%) have grown larger, as
well. Only Citigroup is smaller than in 2008, but only slightly (3%) smaller. The
combined assets of these banks, as of year-end 2013, totaled $9.7 trillion, totaling
more than half of the total assets held by the largest 100 bank holding companies
in the U.S.

Trading & Available-For-Sale Securities
What does this indicator demonstrate? When a bank invests in a bond or another
financial security to profit from the short-term changes in its price, the bank holds
that security on its balance sheet as a trading asset. Similar financial securities that
are not actively traded, but that the bank intends to resell before that asset reaches
maturity are categorized as available-for-sale. On a balance sheet these assets can
include the following: U.S Treasuries, loans, asset-backed securities, mortgage-
backed securities, and derivatives with positive fair value.

How does it connect firms to each other? Mark to market accounting rules require
a bank to value trading assets and available-for-sale securities on its balance sheet
at the price the bank would receive from selling that asset in an orderly market.
Because the largest banks hold similar securities on their balance sheets (as shown
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            in Figure ES.2 below) and the prices of these assets fluctuate in unison, distress at
                                            one of the largest banks can cause the values of these assets to drop precipitously.

                                            How could it threaten financial stability? If a large bank experiences financial
                                            distress, it could be forced to reduce its risk by selling assets at fire sale prices. This
                                            requires other large banks to revalue their similar assets to these lower fire sale
                                            prices, potentially causing their own financial distress and forcing their own sale at
                                            fire sale prices. The resulting downward spiral in asset prices erodes bank capital
                                            levels, reduces earnings, and triggers the requirement that banks post additional
                                            collateral (including cash collateral), which leaves banks more vulnerable to
                                            additional stress.

                                            How did it contribute to the financial crisis and TARP? In 2007 and 2008, rating
                                            agencies downgraded mortgage-backed securities (“MBS”) and collateralized
                                            debt obligations (“CDOs”) reflecting the higher probability that the underlying
                                            mortgages would default. As the crisis unfolded, the value of mortgage assets (like
                                            MBS) that banks held, and had borrowed against, plunged. Concerns about banks’
                                            financial condition mounted and investors grew increasingly reluctant to extend
                                            credit to firms thought to have a high exposure to mortgage assets. In cases where
                                            the banks pledged MBS and CDOs to secure short-term borrowings or other
                                            transactions, these write-downs triggered collateral calls, requiring banks to provide
                                            additional collateral to compensate for the increased risk. Investors panicked,
                                            fearing more losses and that banks could not sell these troubled mortgage-related
                                            assets in an illiquid market. Both the direct losses and the market-wide contagion
                                            that ensued, risked leading to the failure or near failure of many large financial
                                            firms across the system.
                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   11




What does this currently indicate about interconnectedness?

             FIGURE ES.2
             TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES
             COMBINED (AS A PERCENTAGE OF TOTAL ASSETS)
             50%


              45


              40


              35


              30


              25


              20


              15


              10


               5


               0
                       2008          2009          2010           2011          2012       2013


                      Bank of America                JPMorgan                      Morgan Stanley
                      Citigroup                      Goldman Sachs                 Wells Fargo

                   Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


    As of 2013, only Goldman Sachs (37.3%) and Morgan Stanley (38.7%)
had more than one-third of their assets in trading assets and available-for-sale
securities, at the same relative levels that existed in 2009. Within these categories,
Morgan Stanley significantly increased its holdings of safer U.S. Treasuries from
5.1% in 2009 to 17.5% in 2013, and remained at relatively constant levels of
holdings of mortgage-backed securities, asset-backed securities, and other debt
securities. Goldman Sachs increased its holdings in trading assets and
available-for-sale securities from 38.9% in 2009 to 44.8% in 2012, decreasing to
37.3% in 2013. Citigroup and Wells Fargo increased their levels of trading assets
and available-for-sale securities from 2008 to 2013. Citigroup demonstrated a
slight increase from 28.3% as a percentage of total assets in 2008 to 30.4% in
2013. The largest percentage of these assets held by Citigroup is in asset-backed
and other debt securities at 39%, which has remained at relatively the same levels
since 2008. Citigroup significantly increased its levels of safer U.S. Treasuries
from 2% in 2008 to 14.5% in 2013, which is slightly higher than its 14% holdings
in mortgage-backed securities. Wells Fargo increased assets in trading assets and
available-for-sale securities from 15.8% in 2008 to 20.7% in 2013, with the largest
increase in municipal securities, followed by structured financial products. Bank of
America overall decreased its trading assets and available-for-sale securities from
27.1% in 2008 to 24.5% in 2013. For Bank of America, the largest portion of assets
in these categories is in mortgage-backed securities, which has decreased from
12              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                              53.5% in 2008, but has remained relatively the same at around 45% since, from
                                                              2009 to 2013. Bank of America increased the level of its asset-backed and other
                                                              debt securities from 13.8% in 2008 to 17.7% in 2013.
     FIGURE ES.3

      COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES (BY BANK)
       BANK OF AMERICA                                         CITIGROUP                                                  JPMORGAN
       100%                                                    100%                                                       100%



         90                                                      90                                                         90



         80                                                      80                                                         80



         70                                                      70                                                         70



         60                                                      60                                                         60



         50                                                      50                                                         50



         40                                                      40                                                         40



         30                                                      30                                                         30



         20                                                      20                                                         20



         10                                                      10                                                         10



          0                                                       0                                                          0
              2008    2009    2010    2011    2012     2013            2008    2009    2010    2011    2012    2013              2008   2009   2010   2011    2012    2013




       GOLDMAN SACHS                                           MORGAN STANLEY                                             WELLS FARGO
       100%                                                    100%                                                       100%



         90                                                      90                                                         90



         80                                                      80                                                         80



         70                                                      70                                                         70



         60                                                      60                                                         60



         50                                                      50                                                         50



         40                                                      40                                                         40



         30                                                      30                                                         30



         20                                                      20                                                         20



         10                                                      10                                                         10



          0                                                       0                                                          0
              2008    2009    2010    2011    2012     2013            2008    2009    2010    2011    2012    2013              2008   2009   2010   2011    2012    2013




              Derivatives with positive fair value                    Structured financial products                              U.S. Government Agency Obligations
              Other trading assets                                    Asset-backed securities and other debt securities          U.S. Treasuries
              Loans                                                   Mortgage-backed securities
              Investments in equity securities/funds                  Municipal obligations
                                                                                                                                      QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   13




Level 3 Assets
What does this indicator demonstrate? Assets that are illiquid and difficult to value
are deemed “Level 3 assets”i because their fair value cannot be determined using
observable measures, such as market prices. Rather, banks calculate prices for
these securities using their own best estimates derived from internal models.
On a balance sheet these assets are included in the following categories:
available-for-sale securities, loans and leases held for sale or held for investment,
and trading assets, and can include asset-backed securities, mortgage-backed
securities, or derivatives with positive fair value. A derivative might be considered
a Level 1 asset if it trades through a clearing house where there is an observable
price. However, the pricing becomes more opaque if a derivative does not trade
through a clearing house. Then the derivative might be valued according to internal
corporate models and considered a Level 3 asset.

How does it connect firms to each other? Level 3 asset values rely on internal
corporate models. As then-Chairman Bernanke testified before Congress in
requesting TARP, “because nobody knows what the true hold to maturity price
is, without a market to determine that price, investors would have to trust the
internal estimate of banks.” If a bank with a high proportion of Level 3 assets on
its balance sheet faces severe problems, market confidence in the bank and its
internal estimates could rapidly decrease, which can spread to its creditors and
counterparties.

How could it threaten financial stability? Uncertainty about the value of a bank’s
assets can deter investors and lenders from providing capital or credit. Potential
write-downs on these assets reduce earnings and capital, and can trigger collateral
calls, which can further drain liquidity. The loss of funding can force fire sales and
heightens counterparty credit risk as the troubled bank may be unable to pay its
contractual promises to other banks, putting those institutions at risk of losses and
eroding market confidence.

How did it contribute to the financial crisis and TARP? In requesting TARP
authority, then-Treasury Secretary Paulson testified before Congress on September
24, 2008, “if there are failing institutions, we can address those individually. But
more broadly, the problem is that with the complexity of these securities and the
difficulty of valuation, nobody knows what the banks are worth, and therefore it is
very difficult for private capital to come in to create more balance sheet capacity
so banks can make loans.” The largest banks had to write-down billions in mark-
to-market losses for these securities that they owned. In many of the largest banks,
the value of Level 3 assets substantially exceeded their capital. At Bear Stearns,
for example, Level 3 assets more than doubled its tangible common equity – an
important measure of capital adequacy to investors – at the end of 2007; meaning
i F inancial accounting standards establish a three level hierarchy for companies to value assets. Financial assets are classified as “Level
 1” if their value is observable in an active market. Financial assets classified as “Level 2” have been valued using models whose inputs
 are observable in an active market. Financial assets are classified as “Level 3” if their valuation incorporates significant inputs that are
 not based on observable market data (unobservable inputs).
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            further write downs of these illiquid assets would strain the bank’s already weak
                                            capital levels. In addition, mortgage-related securities often served as collateral for
                                            Bear Stearns’ borrowings, which included a significant amount of Level 3 assets.
                                            Given the uncertainty of Bear Stearns’ assets, lenders and customers became more
                                            and more reluctant to do business with the company, and derivatives counterparties
                                            became increasingly reluctant to be exposed to the firm. In some cases,
                                            counterparties unwound trades with Bear Stearns, and others made collateral
                                            calls. As a result, Bear Stearns effectively lost its ability to borrow in the short term
                                            (repurchase agreement) markets, and its liquidity quickly plummeted. Using its
                                            emergency powers, the Federal Reserve bought nearly $30 billion of Bear Stearns’
                                            assets to get them off the firm’s books and aid in the firm’s sale to JPMorgan, which
                                            later received $25 billion under TARP.

                                            What does this currently indicate about interconnectedness?

                                                          FIGURE ES.4
                                                          LEVEL 3 ASSETS
                                                          (AS A PERCENTAGE OF TOTAL ASSETS)
                                                           8%



                                                            7



                                                            6



                                                            5



                                                            4



                                                            3



                                                            2



                                                            1



                                                            0
                                                                      2009              2010             2011             2012           2013


                                                                    Bank of America                JPMorgan                      Morgan Stanley
                                                                    Citigroup                      Goldman Sachs                 Wells Fargo

                                                                 Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


                                               Since 2009, each of these large banks has decreased their Level 3 assets as a
                                            percentage of total assets, most of them cutting the levels in half or more.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   15




LIABILITIES

Borrowing
What does this indicator demonstrate? When a bank borrows money, it records these
transactions as liabilities on its balance sheet, although off-balance sheet leverage
can also be significant and not easily detected. Banks typically engage in leverage
by borrowing to acquire more assets, with the aim of increasing their profits.

How does it connect firms to each other? Leverage amplifies the impact of a bank’s
distress on other banks, both directly, by increasing the amount of exposure that
other banks have as creditors, and indirectly, by increasing the size of any asset
liquidation that a bank is forced to undertake as it comes under financial pressure.

How could it threaten financial stability? Leverage allows a bank to increase its
potential gains or losses on an investment beyond what would be possible through
a direct investment of its own funds. Therefore, if a bank experiences losses, having
used financial leverage, it will sustain larger losses. By increasing its exposure
relative to capital, leverage raises the likelihood that a bank will suffer losses
exceeding its capital. Leverage also increases a bank’s dependence on its creditors’
willingness and ability to fund its balance sheet.

How did it contribute to the financial crisis and TARP? Excessive leverage by banks
was a major contributor to the financial crisis. As then-Treasury Secretary Paulson
testified before the Financial Inquiry Commission, “we are living beyond our means
on borrowed money and borrowed time….Our financial institutions, including
commercial and investment banks, were notable examples of this overleveraging.
In general, these institutions did not maintain sufficient high-quality capital, which
left them unable to absorb the significant losses they incurred as the housing
bubble burst. Many of them did not understand their liquidity positions fully.”
In the years before the crisis, many of the largest banks borrowed to the hilt, on
dangerously weak capital levels, leaving them more exposed to financial distress or
collapse if their investments declined in value. Former Treasury Secretary Geithner
testified before Congress on financial reforms on September 23, 2009, “The
biggest part of the failure of our system was to allow very large institutions to take
on leverage without constraint. And that is what really causes crises, what makes
them so powerful. And that is why a centerpiece of any reform effort has to be the
establishment of more conservative constraints on leverage applied to institutions
whose future could be critical to the economy as a whole.”

Other Borrowed Money & Subordinated Notes
What does this indicator demonstrate? Banks with a large amount of outstanding
debt are generally more interconnected with the broader financial system, in part
because financial institutions hold a large proportion of outstanding debt.
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            What does this currently indicate about interconnectedness?

                                                          FIGURE ES.5
                                                          OTHER BORROWED MONEY & SUBORDINATED NOTES
                                                          (AS A PERCENTAGE OF TOTAL LIABILITIES)
                                                          35%



                                                           30



                                                           25



                                                           20



                                                           15



                                                           10



                                                            5



                                                            0
                                                                     2008          2009          2010           2011          2012       2013


                                                                    Bank of America                JPMorgan                      Morgan Stanley
                                                                    Citigroup                      Goldman Sachs                 Wells Fargo

                                                                 Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


                                                Each of these large banks decreased their levels of other borrowed money
                                            and subordinated notes as a percentage of total liabilities from 2008 (2009 for
                                            Goldman Sachs and Morgan Stanley) to 2013. Goldman Sachs has the highest
                                            levels of other borrowed money and subordinated notes of the six financial
                                            institutions at 27.4% of total liabilities in 2013, (a decrease from 31.7% in 2009).
                                            Morgan Stanley has the next highest levels at 22.3% of total liabilities (down from
                                            27.3% in 2009). The largest reduction came from Wells Fargo who decreased their
                                            percentage of other borrowed money and subordinated notes from 29.7% of total
                                            liabilities in 2008 to 12.6% in 2013 (a change of 17.1%). Bank of America also
                                            reduced its levels from 25.9% of liabilities in 2008 to 15.8% in 2013. Citigroup
                                            reduced its levels from 27.1% in 2008 to 16.7% in 2013.

                                            Derivatives
                                            Firms can be interconnected to each other in many ways related to derivatives. For
                                            example, as SIGTARP previously reported, according to a Federal Reserve Board
                                            memorandum assessing Citigroup’s systemic risk, Citigroup was a major player
                                            in a wide range of derivatives markets, both as a counterparty to over-the-counter
                                            trades, and as a broker and clearing firm for trades on exchanges. Derivatives can
                                            be held as assets or liabilities. Derivatives can be used as a form of leverage. They
                                            can be used to hedge risk.
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   17




Derivative Liabilities
What does this indicator demonstrate? Derivatives can come in the form of liabilities
in the cost that the bank would incur to exit its interest, foreign exchange,
commodity, equity, and credit derivative contracts held for trading.

How does it connect firms to each other? A bank that has a greater level of derivative
liabilities poses higher counterparty risk throughout the financial system.

How could it threaten financial stability? Counterparty risk is the risk that a
counterparty to a transaction could default before the final settlement of the
contract. Counterparty risk of derivatives financial instruments arises when the
derivatives position held by a firm is “in the money” and there is the risk of non-
payment from the associated counterparty.

How did it contribute to the financial crisis and TARP? Then-Treasury Secretary
Paulson testified before the Financial Crisis Inquiry Commission, “Derivative
contracts, including excessively complex financial products, exacerbated the
problems. These instruments embedded leverage in the institutions’ balance
sheets, along with risks which were so obscured that at times they were not fully
understood by investors, creditors, rating agencies, regulators, or the managements
themselves.”

     As SIGTARP previously reported, at the end of the third quarter 2008, the
notional principal value of Citigroup’s derivative positions was more than $35
trillion, the bulk of which was held by its Citibank, N.A. subsidiary. A failure of
Citigroup would have left many of its derivatives counterparties scrambling to
replace contracts they had with Citigroup. Citigroup’s derivatives positions were
fairly well balanced, so in more normal conditions, counterparties might have been
able to replace Citigroup’s derivatives contracts relatively easily, according to a
Federal Reserve Board memorandum. However, given concerns about counterparty
credit risk and strains in derivatives markets at that time, those contracts might
have proven difficult to replace.
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            What does this currently indicate about interconnectedness?

                                                          FIGURE ES.6
                                                          DERIVATIVE LIABILITIES
                                                          (AS A PERCENTAGE OF TOTAL LIABILITIES)
                                                           8%



                                                            7



                                                            6


                                                            5



                                                            4



                                                            3



                                                            2



                                                            1



                                                            0
                                                                     2008          2009          2010           2011          2012       2013


                                                                    Bank of America                JPMorgan                      Morgan Stanley
                                                                    Citigroup                      Goldman Sachs                 Wells Fargo

                                                                 Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


                                                Wells Fargo has the smallest amount of derivatives liabilities, historically at or
                                            less than 1% of total liabilities. By far, Goldman Sachs and Morgan Stanley have
                                            the highest levels of derivative liabilities as a percentage of total liabilities, and these
                                            have decreased from 7.2% for Goldman Sachs in 2009 to 6% in 2013, and 5.3% in
                                            2009 for Morgan Stanley to 4.4% in 2013. Citigroup and JPMorgan had significant
                                            drops in their derivatives as a percentage of total liabilities. Citigroup went from
                                            6.5% in 2008, down more than half to 2.8% in 2013, with most of that reduction
                                            coming at the time of Citigroup’s second TARP bailout in 2009. JPMorgan also cut
                                            their derivative liability as a percentage of total liabilities in half from 6.1% in 2008
                                            to 2.6% in 2013, most of the reduction taking place in 2009. Bank of America has
                                            a smaller percentage of derivative liabilities, but that percentage rose from 1.9%
                                            as a percentage of total liabilities in 2008 to 2.8% in 2010 and 2.9% in 2011, then
                                            dropped back to 1.9% in 2013, the same level as in 2008.
                                                Derivative holdings may not fully expose dangerous risk. As then-Treasury
                                            Secretary Geithner testified before Congress on financial reforms about derivatives,
                                            “the people who provide that protection, write those commitments, whatever
                                            the form is, they need to hold margin and capital so it allows them to meet those
                                            commitments. And that was the big failure in the system.”
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   19




Credit Derivatives
A credit derivative is an agreement that shifts credit risk from one party to
another. The party selling protection (acting as a guarantor) takes on the risk that
a “reference entity” (which can be a security, such as a bond, or an individual
company, such as a bank) will default from the protection buyer (acting as a
beneficiary). Most of the credit derivatives held by the largest banks are credit
default swaps. A credit default swap (“CDS”) is an insurance-like contract where
the protection buyer pays a periodic fee to the protection seller in return for
compensation if a reference entity defaults.

Credit Derivatives Sold
What does this indicator demonstrate? After a financial company sells credit
protection, it is obligated to make an insurance-like payment if a specified credit
event occurs.

How did it contribute to the financial crisis and TARP? Beginning in 2007,
insurance giant AIG began experiencing a significant drain on its finances when,
among other things, the company began paying increasing amounts of cash
collateral to counterparties that had purchased CDS from AIG’s Financial Products
group. AIG sold CDS that offered loss protection on assets such as multi-sector
CDOs. Under the terms of the contracts, the counterparties purchasing the
CDS paid AIG insurance-like premiums and were entitled to require AIG to post
collateral when certain events occurred relating to the underlying CDOs, including
a decline in the market value of the CDO. In addition, if the credit rating on the
underlying CDOs were downgraded, or if AIG’s credit rating was downgraded,
AIG could also be required to post collateral. The problem according to then-
Chairman Bernanke in testimony to Congress on March 24, 2009, was that AIG
was essentially using these swaps to sell insurance against which they neither had
capital against nor had hedged.

    By September 2008, bankruptcy loomed for AIG, in part because AIG was
unlikely to be able to raise the capital needed to meet additional calls for large
collateral payments in the case of an anticipated downgrade in its credit rating.
On September 15, 2008, the three largest credit rating agencies – Standard and
Poor’s, Moody’s, and Fitch – downgraded AIG. On September 16, 2008, because of
concerns that an AIG bankruptcy could cause systemic risk to the entire financial
system, the Federal Reserve, with the support of Treasury, authorized The Federal
Reserve Bank of New York to lend up to $85 billion to the firm under its emergency
powers. Including $68 billion in TARP, AIG’s total Government bailout package
ultimately totaled $182 billion.
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            What does this currently indicate about interconnectedness?

                                                          FIGURE ES.7
                                                          CREDIT DERIVATIVES SOLD ($ TRILLIONS)

                                                          $4.5


                                                           4.0


                                                           3.5


                                                           3.0


                                                           2.5


                                                           2.0


                                                           1.5


                                                           1.0


                                                           0.5


                                                           0.0
                                                                     2008          2009          2010           2011          2012       2013


                                                                    Bank of America                JPMorgan                      Morgan Stanley
                                                                    Citigroup                      Goldman Sachs                 Wells Fargo

                                                                 Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


                                                 As the seller of derivatives, the bank effectively serves as a guarantor, requiring
                                            the bank to make a significant payment if a triggering event occurs. Wells Fargo,
                                            who had the lowest levels of credit derivatives sold in 2008 at $137.6 billion,
                                            decreased that to $19.5 billion by 2013. JPMorgan had by far the highest levels of
                                            credit derivatives sold at more than $4.1 trillion in 2008. While it remains at much
                                            higher levels than the other banks, it has reduced its levels to $2.7 trillion by 2013.
                                            The next highest levels of credit derivatives sold were Bank of America (at $2.8
                                            trillion in 2009), followed by Goldman Sachs (at $2.5 trillion in 2009) and Morgan
                                            Stanley (at $2.45 trillion in 2009). Both Goldman Sachs and Morgan Stanley have
                                            reduced credit derivatives sold since 2013 to $1.4 trillion. Bank of America had a
                                            spike in the amount of credit derivatives in 2009 after purchasing Merrill Lynch,
                                            which later decreased, but still left them higher in 2013 at $1.3 trillion than they
                                            were in 2008 at just over $1 trillion. In 2008, Citigroup had $1.4 trillion in credit
                                            derivatives sold, which decreased to $1.1 trillion in 2013.

                                            Credit Derivatives Bought
                                            What does this indicator demonstrate? The buyer of a credit default swap pays
                                            premiums for credit protection that their counterparty will perform. By purchasing
                                            a swap, the buyer is transferring the risk that a reference entity will default. The
                                            buyer receives a significant payment upon a triggering event.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   21




How did it contribute to the financial crisis and TARP? Each of the largest banks
included in this analysis, or a company they acquired, were counterparties to AIG,
having bought CDS protection leading up to the crisis. They soon learned that the
protection they bought was only as good as the strength of their counterparty.

What does this currently indicate about interconnectedness?

            FIGURE ES.8
            CREDIT DERIVATIVES BOUGHT ($ TRILLIONS)

             $4.5


              4.0


              3.5


              3.0


              2.5


              2.0


              1.5


              1.0


              0.5


              0.0
                        2008          2009          2010           2011          2012       2013


                       Bank of America                JPMorgan                      Morgan Stanley
                       Citigroup                      Goldman Sachs                 Wells Fargo

                    Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


     Of the six banks, JPMorgan has had the highest levels of credit derivatives
bought since 2008. JPMorgan has significantly brought down its credit derivatives
bought from $4.3 trillion in 2008 to $2.7 trillion in 2013. However, this amount is
still more than $1 trillion above what the other largest banks have. Bank of America
had a spike in credit derivatives bought from slightly more than $1 trillion in 2008
to $2.8 trillion in 2009 after acquiring Merrill Lynch, which it has reduced each
year, but in 2013 at $1.3 trillion was still higher than in 2008. Although Goldman
Sachs and Morgan Stanley did not report 2008 data, both reduced the amount
of credit derivatives bought from $2.7 trillion (Goldman Sachs) and $2.5 trillion
(Morgan Stanley) in 2009 to $1.5 trillion (Goldman Sachs) and $1.4 trillion
(Morgan Stanley) in 2013. Citigroup has remained relatively constant in its credit
derivatives bought, initially starting off smaller than some of the banks at $1.6
trillion in 2008 to $1.2 trillion in 2013 (close to 2013 levels for Bank of America,
Goldman Sachs, and Morgan Stanley). Wells Fargo had a significantly smaller
amount of credit derivatives compared to the other big banks in 2008 ($148.9
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            billion in 2008), and the bank has reduced down significantly to $23.3 billion
                                            in 2013.

                                            CDS Outstanding for which the Bank is a Reference Entity
                                            What does this indicator demonstrate? One of the components involved in a credit
                                            derivative contract is the reference entity. The reference entity is not a counterparty
                                            to a credit default swap – it is neither the protection buyer nor seller. Rather, a
                                            default by the reference entity triggers a payment from the seller to the buyer. The
                                            amount of CDS written on a bank identifies the scale of contracts that would be
                                            triggered if the bank defaults.

                                            How does it connect firms to each other? If a credit event, such as a default, occurs
                                            and the reference entity is unable to satisfy the conditions of the bond, the buyer
                                            of the credit default swap receives payment from the seller. If the amount of CDS
                                            sold on a particular bank is high, this indicates that a large number of institutions
                                            may be exposed to that bank and that if the bank defaults on its bonds or fails, a
                                            significant number of financial market participants may be affected.

                                            What does this currently indicate about interconnectedness?

                                                          FIGURE ES.9
                                                          GROSS NOTIONAL VALUE OF CDS WRITTEN ON THE
                                                          BANK ($ BILLIONS)
                                                          $100


                                                            90


                                                            80


                                                            70


                                                            60


                                                            50


                                                            40

                                                            30


                                                            20


                                                            10


                                                             0
                                                                     2008            2009           2010           2011            2012           2013


                                                                    Bank of America                   JPMorgan                        Morgan Stanley
                                                                    Citigroup                         Goldman Sachs                   Wells Fargo

                                                                 Source: This data is publically available in DTCC’s trade information warehouse. It can be
                                                                 accessed at www.dtcc.com/repository-otc-data.aspx. See Appendix L for more
                                                                 information.


                                                In these transactions, two independent parties are betting on whether the bank
                                            will fulfill its obligations to its creditors. A default by the bank triggers payment
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   23




from the protection seller to the protection buyer. In 2009, JPMorgan, Bank of
America, and Wells Fargo had increases in CDS protection where they were the
referenced entity, which later reduced. Since 2008, counterparties have reduced
the amount of CDS outstanding where the bank serves as a reference entity.
However, not all of these reductions were significant. For example, after spiking as
the reference entity on CDS protection from $47.4 billion in 2008 to more than
$80 billion in 2009 and 2010, after its acquisitions, Bank of America had a further
reduction to $47.2 billion in 2013, very close to the amount in 2008. In 2013,
market participants were less exposed than in 2008, but still significantly exposed,
ranging from a gross notional $34.1 billion to $49.7 billion, on whether these
banks will fulfill their obligations.

Leverage (Short Term Funding)
Regulators were caught unaware of how much the largest banks had leveraged
themselves using short-term borrowing (like commercial paper and repurchase
agreements (repos)) and derivatives. Even a modest drop in the value of a bank’s
assets would severely deplete its capital. When uncertainty led to disruptions in the
short-term funding markets, some institutions that relied on these channels to fund
their operations faced liquidity challenges, and later failed or had to be rescued.
These markets and other interconnections, like derivatives, created contagion, as
the crisis spread even to markets and companies with little or no direct exposure to
the mortgage market.
   As former Chairman Bernanke testified on September 24, 2008, when
requesting TARP from Congress,

           While perhaps manageable in itself, Lehman’s default was
       combined with the unexpectedly rapid collapse of AIG, which
       together contributed to the development last week of extraordinarily
       turbulent conditions in global financial markets. These conditions
       caused equity prices to fall sharply, the cost of short-term credit,
       where available, to spike upward, and the liquidity to dry up in
       many markets. Losses at a large money market mutual fund sparked
       extensive withdrawals from a number of such funds. A marked
       increase in the demand for safe assets, a flight to quality, sent the
       yield on Treasury bills down to a few hundredths of a percent. By
       further reducing asset values and potentially restricting the flow
       of credit to households and businesses, these developments pose a
       direct threat to economic growth.

   Former Treasury Secretary Geithner testified before Congress in September
2009, that systemic risk included “the extent to which we are reliant on very short-
term funding that can flee in a heartbeat. And that is what brought the system
crashing down.” He further explained, “How you are funded is as important to how
much risk you take. In fact, they are totally and completely related. And it is this
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            mismatch between very short-term liabilities that can run and long-term assets that
                                            are liquid that allow the risk in them that creates the inherent vulnerability to crisis.

                                            Commercial Paper
                                            What does this indicator demonstrate? Commercial paper is a form of short-term
                                            debt issued by large banks and corporations that matures in 270 days or less. It
                                            may be backed by other financial assets or unsecured. Companies with strong
                                            credit may issue unsecured commercial paper that is not backed by collateral.
                                            Commercial paper can avoid the Securities and Exchange Commission’s
                                            registration requirements, making it an attractive and cost-efficient form of
                                            financing. Firms generally “roll over” outstanding issues of commercial paper,
                                            selling new commercial paper to pay off previously issued, maturing paper.

                                            How does it connect firms to each other? A bank’s ability to borrow from other
                                            institutions in the commercial paper market expands its available funding beyond
                                            traditional channels, like deposits, allowing that bank to leverage up its balance
                                            sheets. Banks can use their borrowings to acquire riskier assets that earn higher
                                            profits.

                                            How could it threaten financial stability? Commercial paper is also considered “hot
                                            money” because borrowers repeatedly roll them over when the loan comes due.
                                            Banks that are overly reliant on “wholesale” funding (including commercial paper,
                                            repos, and brokered deposits, rather than traditional deposits) using short-term
                                            liabilities to fund long-term assets, are exposed to wholesale funding markets that
                                            are subject to runs, and liquidity freezes, requiring banks to either raise capital or
                                            sell assets to meet short-term debt requirements.

                                            How did it contribute to the financial crisis and TARP? Money market funds are
                                            the largest buyers of commercial paper. As then-Treasury Secretary Paulson
                                            testified before Congress in requesting TARP authorization, “There is $1.7 trillion
                                            of commercial paper even in the money markets. Commercial paper is short-
                                            term lending for businesses and businesses need this money to flow, to fund daily
                                            operations. If they can’t use that, it all goes back on the banks and it creates a big
                                            problem.”

                                                When Lehman Brothers failed, the Reserve Primary Fund – a prime money
                                            market mutual fund that had $785 million in exposure to Lehman Brothers –
                                            “broke the buck” when its net asset value (“NAV”) fell below $1, to 97 cents per
                                            share. Although Lehman Brother’s commercial paper represented only a small
                                            portion of the Reserve Fund’s total assets (about 1.2%), investors were concerned
                                            about the value of the fund’s other holdings. Fearing for the value of their
                                            investments, worried investors pulled their money out of the fund, which saw its
                                            assets decline by nearly two thirds in about 24 hours. Disruptions quickly spread
                                            to other parts of the money market. In a flight to quality, investors dumped their
                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   25




commercial paper holdings and increased their holdings in seemingly safer money
market funds and Treasury bonds.
    After Lehman Brothers failed, investors lost the appetite to hold unsecured
commercial paper from any large financial institution. Then-Chairman Bernanke
testified to Congress about AIG’s bailout, “Money market mutual funds and others
that held AIG’s roughly $20 billion of commercial paper would also have taken
losses…[AIG’s] failure would have exacerbated the problems of the money market
mutual funds.”
    An unprecedented increase in the rates on commercial paper soon followed,
creating problems for borrowers, particularly for financial companies, such as CIT
(which received $2.3 billion in TARP funds in 2008, only to file for bankruptcy
months later), as well as for nonfinancial corporations that used commercial
paper to pay their immediate expenses such as payroll. The broad-based run on
commercial paper markets raised the prospect of some of the largest companies
in the United States losing the capacity to fund and access commercial paper
markets.

What does this currently indicate about interconnectedness?

             FIGURE ES.10
             COMMERCIAL PAPER
             (AS A PERCENTAGE OF TOTAL LIABILITIES)
              4%




               3




               2




               1




               0

                       2008          2009          2010           2011          2012       2013


                      Bank of America                JPMorgan                      Morgan Stanley
                      Citigroup                      Goldman Sachs                 Wells Fargo

                   Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


    JPMorgan has significantly higher commercial paper outstanding than the
other banks, a level that has spiked from 1.9% of liabilities in 2008 to 3.3% of
liabilities in 2013. In 2008, Bank of America’s commercial paper outstanding was
higher than the other banks at 2.3% of liabilities, but it reduced it to virtually zero
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            in 2013. The bank with the next highest level of commercial paper outstanding in
                                            2008 was Citigroup at 1.6%, which it has reduced to 1.1% in 2013, but remains as
                                            the second highest of these banks. Wells Fargo has increased its commercial paper
                                            outstanding from 0.2% in 2008 to 0.4% in 2013. Morgan Stanley and Goldman
                                            Sachs have historically had very low levels of commercial paper outstanding, and in
                                            2013 had reduced levels to virtually zero, respectively.

                                            Securities Sold Under Agreements To Repurchase — Repo Borrowing
                                            (As a Liability)
                                            What does this indicator demonstrate? Used to borrow cash short-term, in this
                                            transaction (also called a repurchase agreement, or “repo”), the borrowing
                                            bank agrees to “sell” securities temporarily and to “repurchase” the securities,
                                            or equivalent ones, from the lender at a later date. Under the agreement, the
                                            borrowing bank hands over securities as collateral and a fee to the lender. The
                                            bank selling the security, agreeing to repurchase it in the future, considers this
                                            transaction a repo; the other party buying the security, agreeing to sell it in the
                                            future, deems it a reverse repo.

                                            How does it connect firms to each other? A bank’s ability to borrow from other
                                            institutions in the short-term repo market expands its available funding beyond
                                            traditional channels, like deposits, allowing that bank to leverage up its balance
                                            sheet. Banks can use these borrowings to acquire riskier assets that earn higher
                                            profits.

                                            How could it threaten financial stability? Repos are renewed, or “rolled over,”
                                            frequently and, for that reason, can be considered “hot money” because lenders can
                                            quickly move in and out of these investments on short-notice. When a bank relies
                                            on short-term funding (such as overnight) to finance its longer-term positions, a
                                            sudden loss of funding can force the bank to sell assets at low market prices (fire
                                            sales), or potentially suffer through collateral pressure.

                                            How did it contribute to the financial crisis and TARP? Banks often used mortgage-
                                            related securities as collateral to obtain repo loans. When the market value of
                                            the collateral fell, the repo lenders demanded more collateral from the borrower
                                            to back the repo loan. As the quality of mortgage-related assets deteriorated and
                                            confidence in these financial products plummeted, repo lenders became less and
                                            less willing to accept any collateral with potential subprime exposure, or to extend
                                            credit to banks that appeared to be exposed to the mortgage market. Repo lenders
                                            cared just as much about the health of the repo borrower as about the quality of
                                            the collateral. Repo lenders also insisted on ever-shorter maturities, eventually of
                                            just one day – an inherently destabilizing stipulation, because it gave lenders the
                                            option to quickly pull their funding if they lost confidence in the borrower. Former
                                            Treasury Secretary Paulson explained to the Financial Crisis Inquiry Commission
                                            in May 2010, “the lending practices were very sloppy and borrowing practices….
                                            If I’m repoing a mortgage security, and you’re giving me 100% of the value lending
                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   27




on that, and not asking for a haircut, that’s sloppy. And so, what happened was,
there was an assumption you could keep borrowing at ‘full value’ on these securities
when they were dropping in value.”

What does this currently indicate about interconnectedness?

             FIGURE ES.11
             REPO BORROWING
             (AS A PERCENTAGE OF TOTAL LIABILITIES)
             30%




              25




              20




              15




              10




               5




               0
                       2008          2009          2010           2011          2012       2013


                      Bank of America                JPMorgan                      Morgan Stanley
                      Citigroup                      Goldman Sachs                 Wells Fargo

                   Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


    In 2012, all of the banks had an increase in repo borrowing. Morgan Stanley
and Goldman Sachs have continued with the highest levels of repo borrowings.
Morgan Stanley started off by far the highest of the banks with 25.9% of liabilities
in repo borrowing, had a sharp decrease in 2011 to 19.9%, which increased to
23.4% in 2013. Goldman Sachs increased its repo borrowing over these years from
18.5% of total liabilities in 2009 to 22% in 2013. Citigroup’s repo borrowing has
increased to 12.1% of liabilities in 2013 from 11.1% in 2008. Bank of America’s
repo borrowing spiked in 2012, but overall has slightly decreased from 11.7% of
liabilities in 2008 to 10.6% in 2013. JPMorgan has had the most fluctuations over
these years, but has slightly reduced its use from 9% of liabilities in 2008 to 8.2% in
2013. Wells Fargo does not have as much repo borrowing as the other five banks.

Securities Purchased Under Agreements To Resell — Repo Lending
(As an Asset)
What does this indicator demonstrate? Used as a way to lend cash short-term, in
this transaction (also called a reverse repurchase agreement or reverse repo), the
lending bank agrees to “purchase” securities temporarily from the borrower and
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            to resell the securities, or equivalent ones, back to the borrower at a later date. In
                                            exchange, the lending bank receives both securities as collateral and a fee from the
                                            borrower.

                                            How does it connect firms to each other? A repo agreement effectively creates a
                                            secured loan with the securities as collateral. A repo borrower can use the cash
                                            it obtains to buy higher yielding securities, while the repo lender can sell the
                                            collateral if the borrower fails to pay. Experience has shown, however, that the
                                            collateral securities may not serve as sufficient protection to the repo lender if the
                                            repo borrower becomes insolvent or fails.

                                            How could it threaten financial stability? Repos are typically undertaken on the
                                            basis that the repo lender will sell collateral securities immediately following a
                                            borrower’s default in order to be able to recover its cash. Collateral fire sales may
                                            lead to market turmoil, especially if the defaulting repo borrower’s pool of collateral
                                            assets is large relative to the market and concentrated in less liquid asset classes.
                                            The sudden influx of collateral assets for sale puts downward pressure on prices,
                                            with contagion to other financial institutions that have used similar securities as
                                            collateral or hold them in their trading portfolios.

                                            How did it contribute to the financial crisis and TARP? The $2.8 trillion “tri-party”
                                            repo market started to break down as short-term lenders began demanding more
                                            collateral. This made it increasingly difficult for some banks to finance themselves
                                            and created more and more liquidity pressure on them. Regulators arranged
                                            support to Bear Stearns because they believed the bank’s collapse threatened to
                                            freeze the tri-party repo market, leaving short-term lenders with collateral they
                                            would try to dump on the market causing a significant drop in asset prices. As
                                            Former Chairman Bernanke explained to the Financial Crisis Inquiry Commission,
                                            “Another element…that comes up a lot is interconnectedness. Which means,
                                            for example, Bear Stearns, which is not that big a firm, our view on why it was
                                            important to save it—you may disagree—but our view was that because it was so
                                            essentially involved in this critical repo financing market, that its failure would have
                                            brought down that market, which would have had implications for other firms.”
                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   29




What does this currently indicate about interconnectedness?

             FIGURE ES.12
             REVERSE REPOS
             (AS A PERCENTAGE OF TOTAL ASSETS)
             45%


              40


              35


              30


              25


              20


              15


              10


               5


               0
                       2008          2009          2010           2011          2012       2013


                      Bank of America                JPMorgan                      Morgan Stanley
                      Citigroup                      Goldman Sachs                 Wells Fargo

                   Source: FR Y-9C data, 2008-2013. See Appendix L for more information.


    Morgan Stanley and Goldman Sachs have consistently had higher levels of repo
lending than the other banks. Goldman Sachs was by far the highest with repo
lending at 37.1% of total assets in 2013. Goldman Sachs repo lending stayed near
40% of total assets between 2009 and 2011, dropping in 2012, before increasing
again in 2013. Morgan Stanley’s repo lending dropped more than 10% between
2009 and 2013 to 29.8% of total assets. Citigroup’s levels of repo lending spiked
from 9.5% in 2008 to 14.7% of total assets in 2011, before decreasing during the
next two years to 13.7% in 2013. Bank of America’s repo lending spiked in 2009
to 9.1% from 4.5% in 2008, and then increased to 10.6% of assets in 2012, before
decreasing to 9.6% in 2013, still above 2009 levels. JPMorgan’s repo lending
fluctuated, increasing from 2008 to 2012, before it decreased in 2013, bringing
2013 repo lending in line with 2008 repo lending at 14.9% of assets. Wells Fargo
has not engaged in a significant amount of repo lending compared to the other
banks and was at 1.9% of total assets in 2013.

   Taxpayers are entitled to a financial regulatory system that gives the best protection
against future crisis, keeps up-to-date with evolving credit markets, and mitigates
harm to taxpayers in the event of a future crisis.

   Based on this publicly available high-level data submitted by these banks to the
Federal Reserve (in quarterly Consolidated Financial Statements known as
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            “FR Y-9C” reports), these six institutions remain interconnected to each in 2013, as
                                            they were in 2008.ii Some of the levels of exposure posed by these interconnections
                                            have decreased, whereas, others, such as short term funding in commercial paper
                                            and to the repo market, have remained consistent or increased. As Federal Reserve
                                            Governor Daniel Tarullo and Federal Reserve Bank of New York President William
                                            Dudley have repeatedly stressed, regulators have still not adequately addressed the
                                            risks posed by short-term funding markets. More work is needed.
                                                Despite the increased stability in our financial system, financial institutions
                                            and regulators must continue to be on high alert and must not allow themselves
                                            to get complacent. The financial crisis is filled with anecdotes of concerns raised
                                            by corporate officials or regulators that were not given the full weight needed to
                                            stem disastrous results. Good financial times breed complacency. Regulators must
                                            not put all their faith in “in case-of-emergency” measures to wind down firms
                                            trusting they will prove sufficient barricades to hold back future financial storms.
                                            Interconnections in and of themselves may or may not present significant risks
                                            to the financial system in the future. A deeper dive is required by regulators with
                                            access to significantly more data (including off-balance sheet holdings) that will
                                            help determine whether these interconnections pose risk that could potentially
                                            threaten the financial system. There must be a united front by financial institutions
                                            and regulators to act swiftly to understand and curb dangerous interconnections
                                            that could threaten our nation in the future.
                                                As long as these interconnections exist within our financial system, regulators
                                            must detect, analyze, and monitor the risks they pose and develop ways to
                                            prevent them from again harming financial stability or leading to more taxpayer
                                            bailouts. As Federal Reserve Chair Janet Yellen emphasized again this month,
                                            “the stability of the financial system can be enhanced through measures that
                                            address interconnectedness between financial firms…a regulatory umbrella wide
                                            enough to cover previous gaps in the regulation and supervision of systemically
                                            important firms and markets can help prevent risks from migrating to areas
                                            where they are difficult to detect or address.” Like individual sandbags together
                                            forming a barricade against rising waters, The Dodd-Frank Wall Street Reform and
                                            Consumer Protection Act’s (“Dodd-Frank”) rules were meant to act together along
                                            with prudential action by the financial institutions themselves to decrease risk.
                                                Regulators must focus not only on the safety and soundness of an institution,
                                            but the safety and soundness of the financial system as a whole. Along with
                                            implementing Dodd Frank’s rules, regulators should continue to explore ways to
                                            prevent dangerous risk in short term debt financing, and put adequate sandbags
                                            in place to protect the banks in a time of runs on the repo and commercial paper
                                            markets.
                                                The financial institutions themselves, and their financial regulators, must
                                            continually monitor and reassess risks in an ever-changing environment. Former
                                            Treasury Secretary Geithner testified before Congress on financial reforms on
                                            September 23, 2009, “You can’t have a fixed list. It is going to have to evolve
                                            ii B
                                                ecause Goldman Sachs and Morgan Stanley did not submit FR Y-9C reports in 2008, SIGTARP’s analysis does not include data for
                                             those firms for that year.
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   31




over time. It is going to require a careful judgment to who poses the most risk to
the system.” In her January 2013 speech, then-Vice Chair Yellen, explained, “An
important ongoing agenda for research and policy is the design and implementation
of data-based measures of interconnectedness to ensure that our understanding
of financial system interconnections evolves in tandem with financial innovation.”
Due to Wall Street’s creativity, innovation, efforts to evade regulatory reform,
and sheer greed, the types, levels, and dangers of interconnected activities will
constantly evolve. As Federal Reserve Vice Chair Stanley Fischer said in a speech
this month on the progress of financial sector reform, “At the same time, we need
always be aware that the next crisis – and there will be one – will not be identical to
the last one, and that we need to be vigilant in both trying to foresee it and seeking
to prevent it.” Regulators must be just as flexible, constantly evaluating whether
examinations and regulations adequately assess systemic risks.
    Regulators may not be able to foresee the next area of a potential crisis, but if
they work towards deeply understanding the interconnections of the largest firms
that put our financial system in jeopardy in the financial crisis and monitoring
these interconnections, they will be much farther ahead in ensuring that a similar
crisis does not repeat itself. The financial institutions themselves and regulators
were caught unaware in the financial crisis. As former Treasury Secretary Paulson
testified before the Financial Crisis Inquiry Commission, “I knew there was a
problem. I underestimated the magnitude and the scale of what we’re dealing
with. It was just so big, really, almost every step of the way.” With the benefit of
hindsight, no one should underestimate the risk that the interconnections of the
largest institutions pose to themselves, each other, and our nation.
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
34   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   35




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”) as amended by the Special Inspector General for the
Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA and the
SIGTARP Act, SIGTARP has the responsibility, among other things, to conduct,
supervise, and coordinate audits and investigations of the purchase, management,
and sale of assets under the Troubled Asset Relief Program (“TARP”) or as deemed
appropriate by the Special Inspector General. SIGTARP is required to report
quarterly to Congress in order to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 22 published audits and evaluations, and 130 recommendations as of June
30, 2014, and promoting transparency in TARP and the Government’s response to
the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of July 3, 2014, SIGTARP
had more than 150 ongoing criminal and civil investigations, many in partnership
with other agencies in order to leverage resources. SIGTARP takes its law
enforcement mandate seriously, working hard to deliver the accountability the
American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal chargesi against 196 individuals, including 125 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 136 defendants (others are awaiting trial)
•	 prison sentences for 85 defendants (others are awaiting sentencing)

i Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
36              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 1.1                                        •	 civil cases and other actions against 66 individuals (including 52 senior officers)
                                                          and 56 entities (in some instances an individual will face both criminal and civil
     CRIMINAL CHARGES FROM
     SIGTARP INVESTIGATIONS                               charges)
     RESULTING IN PRISON                               •	 orders temporarily suspending or permanently banning 86ii individuals from
     SENTENCES                                            working in the banking or financial industry, working as a contractor with the
                      2%
                       2%
                                                          Federal Government, or working as a licensed attorney
           3%
                                                       •	 orders of restitution and forfeiture and civil judgments and other orders
       4%               7%                                entered for $5.11 billion. This includes restitution orders entered for $4.2
            7%                                            billion, forfeiture orders entered for $241.6 million, and civil judgments and
                                 34%                      other orders entered for $680.5 million. Although the ultimate recovery of
           7%
                                                          these amounts is not known, SIGTARP has already assisted in the recovery
             14%
                                                          of $431.8 million. These orders happen only after conviction and sentencing
                       20%
                                                          or civil resolution and many SIGTARP cases have not yet reached that stage;
                                                          accordingly, any recoveries that may come in these cases would serve to increase
        Wire and Mail Fraud                               the $431.8 million
        Conspiracy to Commit Fraud
        Bank Fraud
                                                       •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
        State Charges (Conspiracy to collect              the now-failed Colonial Bank
        upfront fees/commit grand theft)
        False Statements and Entries
                                                           SIGTARP’s investigations concern a wide range of possible violations of the
        Loan Fraud
        Money Laundering                               law, and result in charges including: bank fraud, conspiracy to commit fraud or to
        Bankruptcy Fraud                               defraud the United States, wire fraud, mail fraud, making false statements to the
        Alteration of records                          Government (including to SIGTARP agents), securities fraud, money laundering,
        Other
                                                       and bankruptcy fraud, among others.iii These investigations have resulted in charges
     Note: Numbers may not total due to rounding.      against defendants holding a variety of jobs, including 125 senior executives.
     FIGURE 1.2                                            Figure 1.1 represents a breakdown of criminal charges from SIGTARP
                                                       investigations resulting in prison sentences. Figure 1.2 represents a breakdown
     DEFENDANTS CONVICTED
     IN CASES FILED AS A                               of defendants convicted in cases filed as a result of SIGTARP investigations, by
     RESULT OF SIGTARP                                 employment or position of the individual. Although the majority of SIGTARP’s
     INVESTIGATIONS, BY                                investigative activity remains confidential, over the past quarter there have been
     EMPLOYEE TYPE
                                                       significant public developments in several SIGTARP investigations, described
                 4%          2%                        below.
            6%                2%
        7%
                                                       TARP-Related Investigations Activity Since the April 2014
      8%                                               Quarterly Report

                                                       $320 Million Non-Prosecution Agreement Reached with TARP Recipient SunTrust
                             71%                       Bank – SunTrust Mortgage, Inc.
                                                       On July 3, 2014, SunTrust Mortgage, Inc., a subsidiary of TARP recipient and
        Senior Executive                               mortgage servicer, SunTrust Banks, Inc. (collectively, “SunTrust”), entered into a
        MMS/MHA Scam                                   non-prosecution agreement with the U.S. Attorney’s Office for the Western District
        Bank Employee                                  of Virginia, resolving a criminal investigation, by SIGTARP and the U.S. Attorney’s
        Individual
                                                       Office, of SunTrust’s administration of the Home Affordable Modification Program
        Straw Borrower/Investor
        Attorney
        Other
                                                       ii As of July 3, 2014, SIGTARP issued 94 suspension or debarment actions against 84 individuals.
     Note: Numbers may not total due to rounding.      iii The prosecutors partnered with SIGTARP ultimately decide which criminal charges to bring resulting from SIGTARP’s investigations.
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   37




(“HAMP”), a foreclosure assistance program created and funded by the Federal
Government during the financial crisis. SunTrust agreed to pay $320 million
to resolve allegations of mail fraud, wire fraud and false statements to the U.S.
Treasury in connection with its HAMP program. To date, SunTrust has paid $195
million and has reserved $95 million for additional victim restitution.
    As detailed in the agreement, from March 2009 to at least December 2010,
SunTrust misled numerous mortgage servicing customers who sought mortgage
relief through HAMP. Specifically, SunTrust made material misrepresentations and
omissions to borrowers in HAMP solicitations and regarding how long SunTrust
would take to make a decision on whether borrowers qualified for HAMP. SunTrust
also failed to process HAMP applications in a timely manner. So significant was
SunTrust’s failure in this regard, that the floor of the room in which the bank
dumped the voluminous unopened HAMP applications actually buckled under
the packages’ sheer weight. SunTrust admitted that it did not clean up its HAMP
program until its regulators and the U.S. Government, through SIGTARP and its
partners, intervened through the criminal investigation.
    As a result of SunTrust’s significant mismanagement of HAMP, thousands of
homeowners who applied for a HAMP modification with SunTrust suffered serious
financial harms, including, among other things:

•	 SunTrust mass deceived borrowers for HAMP, without reviewing their
   applications SunTrust provided false and inaccurate information regarding some
   of its HAMP denials to Treasury.
•	 Some HAMP applications never received a decision from SunTrust on whether
   they qualified for a HAMP modification.
•	 Damage to borrowers’ credit scores through SunTrust’s improper reporting of
   borrowers as delinquent: SunTrust improperly reported as many as 75% of its
   customers who were current on their mortgages as being delinquent during the
   trial period and reported some borrowers as being in greater delinquency than
   they actually were;
•	 Excessive amounts of accumulated mortgage interest which was contrary to
   HAMP guidelines which required SunTrust to apply the reduced interest rate
   received through the HAMP modification; and
•	 Borrowers were regularly on trial periods for close to, if not more than, a year
   and in some cases two years; reduced availability of alternative options such as
   renting or selling one’s home.
•	 SunTrust improperly began foreclosure proceedings against certain borrowers
   while on HAMP trials and improperly foreclosed on some homes while the
   borrower was in a HAMP trial.

    The $320 million SunTrust agreed to pay, to resolve the criminal investigation,
is to be paid as follows:

•	 Restitution – SunTrust will pay $179 million in restitution to compensate
   borrowers for damage caused by its mismanagement of HAMP. That money
38   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               will be distributed to borrowers in eight pre-determined categories of harm. If
                                               more than $179 million is needed, the bank will also guarantee an additional
                                               $95 million for additional restitution. SunTrust will also pay $10 million in
                                               restitution directly to Fannie Mae and Freddie Mac.
                                            •	 Forfeiture – SunTrust will pay $16 million in forfeiture to the Treasury
                                               Department forfeiture fund. This money will be available to law enforcement
                                               agencies working on mortgage fraud and other matters related to the misuse of
                                               TARP funds.
                                            •	 Prevention – SunTrust will pay $20 million to establish a fund for distribution
                                               to organizations which provide counseling and other services to distressed
                                               homeowners. Specifically, SunTrust will pay this amount to a grant
                                               administrator selected by the Government. The funds, in turn, will be awarded
                                               to housing counseling agencies and other legitimate non-profits devoted to
                                               consumer counseling and advocacy.

                                                Furthermore, SunTrust also agreed to implement corporate remedial measures,
                                            including changes to its corporate policy, procedures and organization, such
                                            as designating employees to oversee and conduct assessment of, its mortgage
                                            modification, loss mitigation, and servicing functions to prevent similar conduct
                                            from recurring in the future.
                                                In November and December 2008, SunTrust Banks, Inc., of Atlanta, Georgia,
                                            the parent company of SunTrust, received $4.85 billion in Federal taxpayer funds
                                            through TARP. The bank repaid the TARP investment in March 2011.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Western District of Virginia, the Federal Housing Finance Agency Office of
                                            Inspector General, and the U.S. Postal Inspection Service.

                                            Former RMBS Trader Sentenced to Two Years in Federal Prison, Ordered to Pay
                                            $1.75 Million Fine for Defrauding TARP – Jesse C. Litvakiv
                                            On July 23, 2014, Jesse C. Litvak, a former senior trader and managing director at
                                            the global securities and investment banking firm Jefferies, LLC (“Jefferies”), was
                                            sentenced by Chief U.S. District Judge Janet C. Hall to two years in Federal prison,
                                            followed by three years of supervised release as well as a $1.75 million fine for
                                            defrauding TARP and customers trading in residential mortgage-backed securities
                                            (“RMBS”). After a three-week trial in U.S. District Court for the District of
                                            Connecticut, a Federal jury convicted Litvak on all 15 counts related to his scheme,
                                            including ten counts of securities fraud, one count of defrauding TARP, and four
                                            counts of making false statements in a matter within the jurisdiction of the U.S.
                                            Government. Victim-customers included funds that were established by the U.S.
                                            Department of the Treasury’s Public-Private Investment Program (“PPIP”). Litvak
                                            was arrested by SIGTARP agents on January 28, 2013.
                                                PPIP was intended to purchase certain troubled real estate-related securities,
                                            including types of RMBS from financial institutions in order to allow those

                                            iv Statistics to support the Jesse Litvak sentencing will be reflected in the October 2014 Quarterly Report.
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   39




financial institutions to free up capital and extend new credit. Beginning in late
2009, as part of PPIP, the Federal Government used more than $20 billion in
TARP money to fund the Public-Private Investment Funds (“PPIF”) that would
purchase the troubled securities. To participate in the PPIP program, PPIF
managers agreed to buy or sell only certain types of RMBS, including those in
which Litvak specialized. RMBS are bonds that comprise large pools of residential
mortgage loans created by banks and other financial institutions. RMBS bonds are
sold through broker-dealers, who execute individually negotiated transactions.
    As a broker-dealer in this market, only Litvak – not the bond seller or buyer
– knew the sell and buy prices of RMBS bonds. As part of his scheme, Litvak
exploited this lack of transparency by misrepresenting the seller’s asking price to
the buyer as well as the buyer’s asking price to the seller. Having manufactured the
fraudulent buy and sell prices, Litvak illegally increased commissions and kept the
profits for Jefferies and, ultimately, himself. Litvak also created fictitious third-
party sellers to sell bonds actually held in Jefferies’ inventory. This allowed Litvak
to charge the buyer an extra broker commission that Jefferies was not entitled to
as Jefferies was the true owner. Through these schemes, Litvak stole more than $2
million from numerous PPIP funds and multiple private investment funds.
    In addition, as previously reported, on January 29, 2014, Jefferies entered into
a non-prosecution agreement with the U.S. Attorney’s Office for the District of
Connecticut relating to its role in the purchase and sale of RMBS. Specifically,
as part of the agreement, Jefferies agreed to pay $25 million: up to $11 million
to customers harmed in the fraudulent trades, at least $10 million to the U.S.
Treasury, and $4 million to the U.S. Securities and Exchange Commission.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Connecticut, and the Federal Bureau of Investigation as part of the
Residential Mortgage-Backed Securities Working Group.

Former CFO of Bank of America Barred from Industry for 18 Months & Will
Pay $7.5 Million in Settlement with the New York Attorney General over
Misrepresentations to Shareholders and the Federal Government – Joe L. Price
On April 17, 2014, Joe L. Price, former CFO of Bank of America Corporation
(“Bank of America”), agreed to settle a lawsuit filed by the New York Attorney
General for his role in the bank’s actions as it sought to merge with Merrill Lynch
& Co. in 2008. As part of the settlement, Price is barred from serving as an officer
or director of a public company for 18 months and will pay $7.5 million.
    Despite its top executives’ specific knowledge of mounting losses at Merrill
Lynch – forecasted to exceed $9 billion for its 2008 fourth quarter – Bank of
America fraudulently withheld the information from shareholders prior to their
vote on the proposed merger, and also misrepresented the impact the merger
would have on Bank of America’s future earnings. Immediately after concealing
these forecasted losses from investors, Bank of America sought massive financial
assistance from the Federal Government in the form of $20 billion in TARP funds
claiming that there had been a “material adverse change” in Merrill’s financial
condition over the previous three months. Bank of America continued to conceal
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Merrill’s forecasted losses until mid-January 2009, when disclosure of Merrill’s
                                            multibillion dollar fourth quarter loss led to a $50 billion sell-off in Bank of
                                            America shares.
                                                As previously reported, on March 26, 2014, the New York Attorney General
                                            announced a settlement with Bank of America and its former Chairman and Chief
                                            Executive Officer, Kenneth D. Lewis, with respect to the same allegations regarding
                                            the bank’s merger with Merrill Lynch. As part of that settlement, Lewis was barred
                                            from serving as an officer or director of a public company for three years and will
                                            pay $10 million. In addition, the settlement requires Bank of America to implement
                                            numerous corporate reforms such as those involving its audit, disclosure, risk, and
                                            corporate governance functions, and incentive compensation principles, and will
                                            also pay $15 million.
                                                Bank of America received $15 billion in Federal funds through TARP on
                                            October 28, 2008; an additional $10 billion on January 9, 2009; and $20 billion on
                                            January 16, 2009. It repaid taxpayers’ combined $45 billion TARP investment on
                                            December 9, 2009.
                                                This case was investigated by SIGTARP and the Office of the Attorney General
                                            for the State of New York.

                                            Senior Vice President & Loan Officer of TARP Bank Admits to Conspiracy to
                                            Commit Loan Fraud – Michael W. Yancey, Farmers Bank & Trust, N.A.
                                            On June 25, 2014, Michael W. Yancey, former Senior Vice President and loan
                                            officer of Farmers Bank & Trust, N.A. (“Farmers”) pled guilty in the U.S. District
                                            Court for the District of Kansas to one count of conspiracy to make a false
                                            statement on a loan application. At sentencing, Yancey faces up to five years
                                            imprisonment. Farmers Enterprises, Inc. (“Farmers Enterprises”), the holding
                                            company for Farmers, received $12 million in TARP funds in June 2009. In
                                            November 2012, Farmers Enterprises partially repaid the U.S. Treasury to redeem
                                            the original TARP funding, resulting in a shortfall of more than $500,000.
                                                According to court documents, beginning in March 2007, Yancey conspired
                                            with a borrower to obtain an $825,000 commercial loan from Farmers for
                                            the purchase of real estate in Basehor, Kansas. As part of the borrower’s loan
                                            application, Yancey accepted a contract for the purchase of the underlying property
                                            falsely stating that the purchase price for the property was $1.1 million, when, as
                                            Yancey knew, the actual purchase price was $850,000. Yancey and the borrower
                                            claimed that the purchase price was $1.1 million in order to make it appear
                                            that the borrower had injected more equity so that the loan would conform to a
                                            maximum 75 percent loan-to-value ratio and would be approved by the bank’s loan
                                            committee. In reality, however, the $825,000 loan from Farmers accounted for
                                            around 97 percent of the actual $850,000 purchase price.
                                                Additionally, according to court documents, Yancey created a fictitious loan
                                            application which he submitted to the Farmers’ loan committee for approval,
                                            including the fake purchase price information and false statements that the loan
                                            involved an equity injection of $125,000 from the borrower and a $150,000 seller
                                            carryback amount. In each of the following three years, through 2010, Yancey
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   41




recommended the renewal of the loan without correcting the false statements
contained in the file.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office
for the District of Kansas, the Federal Bureau of Investigation, and the U.S.
Department of Labor Office of Inspector General and Employee Benefits Security
Administration.

Loan Officer of TARP recipient Broadway Federal Bank Pleads Guilty to
Accepting Bribe – Paul Ryan
On July 7, 2014 Paul Ryan, a loan officer at TARP-recipient Broadway Federal
Bank (“Broadway Federal”) pled guilty to one count of bank bribery in the U.S.
District Court for the Central District of California for demanding and accepting
more than $350,000 in illicit payments from brokers in connection with his review
of various churches’ loan applications. At sentencing, Ryan faces a maximum of 30
years in Federal prison.
    According to the plea agreement, between February 2007 and March 2010,
Ryan served as Broadway Federal’s loan officer for applications submitted on behalf
of numerous churches, predominantly African-American congregations, in the Los
Angeles area. Broadway Federal would pay rebates to brokers who brought such
loans to the bank and, unbeknownst to Broadway Federal, Ryan abused his position
of trust by demanding and accepting the rebate payments from brokers for himself
and receiving a kickback to a company he controlled. Ryan also conceded that the
rebates and kickback influenced his processing of the churches’ loan applications,
which he accepted knowing the financial information had been inflated. In
addition, Ryan admitted that he tried to obstruct the investigation into the bribes
by telling another individual to lie about the reason the individual provided money
to Ryan. As a result of the scheme, Broadway Federal suffered significant losses on
loans processed and approved by Ryan.
    In November 2008, Broadway Financial Corporation, the holding company for
Broadway Federal, received $9 million in TARP funds, and, in December 2009, it
received another $6 million. As of June 30, 2014, the entire $15 million remained
outstanding.
    This case is being investigated by SIGTARP, the United States Attorney’s Office
for the Central District of California, the Internal Revenue Service – Criminal
Investigation, Federal Deposit Insurance Corporation Office of the Inspector
General, and the Federal Bureau of Investigation.

Former Loan Officer Pleads Guilty in Multi-Million Dollar Mortgage Fraud
Scheme – Delio Coutinho
On April 22, 2014, Delio Coutinho, a former loan officer at a northern New Jersey
mortgage brokerage company, pled guilty in the U.S. District Court in Newark,
New Jersey to a criminal information charging him with conspiracy to commit wire
fraud for his role in a large-scale mortgage fraud scheme that caused millions of
dollars of losses. As part of his plea, Coutinho also agreed to make full restitution
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            for the losses resulting from the conspiracy. At sentencing, Coutinho faces up to 30
                                            years in Federal prison.
                                                According to court documents, from March 2008 through June 2012,
                                            Coutinho and his co-defendants conspired to release liens on encumbered
                                            properties via fraudulently arranged short sale transactions by concealing the
                                            identity of the buyer who was actually a co-conspirator and the source of funds. A
                                            few months after completing the fake short sales, Coutinho and his co-defendants
                                            submitted false loan applications, including fake employment records and altered
                                            bank account statements, to other mortgage lenders, including TARP banks, in
                                            order to obtain new mortgages on the same properties. Coutinho and his co-
                                            defendants profited from the scheme—in all, approximately $2 million in illegal
                                            mortgage proceeds—by disbursing the new mortgage proceeds to themselves.
                                                This case is being investigated by SIGTARP, the Federal Bureau of
                                            Investigation, the U.S. Postal Inspection Service, the U.S. Department of Housing
                                            and Urban Development Office of Inspector General, the Federal Housing Finance
                                            Agency Office of Inspector General, the Internal Revenue Service – Criminal
                                            Investigation, and the Prosecutor’s Office for Hudson County, New Jersey.

                                            Mortgage Modification Fraudster Sentenced to Prison for Defrauding
                                            Homeowners in Nationwide $4 Million Fraud Scheme – Brian M. Kelly, Home
                                            Owners Protection Economics (“HOPE”)
                                            On April 24, 2014, Brian M. Kelly, a chief telemarketer and trainer of other
                                            telemarketers at Home Owners Protection Economics (“HOPE”) was sentenced to
                                            one year and one day in Federal prison to be followed by three years of supervised
                                            release, and a $1,900 penalty after pleading guilty to one count of conspiracy,
                                            nine counts of wire fraud, and nine counts of mail fraud, for his role in defrauding
                                            thousands of homeowners in a nationwide $4 million mortgage modification scam.
                                                As previously reported, in August 2011, SIGTARP agents, and their law
                                            enforcement partners, arrested Kelly along with Christopher S. Godfrey, Dennis
                                            Fischer, and Vernell Burris, Jr., HOPE’s president, vice president and primary
                                            telemarketer trainer, respectively. On November 14, 2013, after a two-week trial,
                                            a Federal jury in Massachusetts convicted Godfrey and Fischer of all eighteen
                                            counts, including one count of conspiracy, eight counts of wire fraud, eight
                                            counts of mail fraud, and one count of misuse of a Government seal. On February
                                            20, 2014, Godfrey and Fischer were each sentenced to seven years in Federal
                                            prison, followed by three years of supervised release, for their leading roles in the
                                            $4 million mortgage modification scheme. On February 25, 2014, Burris was
                                            sentenced to one year and one day in Federal prison, followed by two years of
                                            supervised release, after pleading guilty to conspiracy and wire fraud for his role in
                                            the mortgage modification scam.
                                                Through a series of misrepresentations, the defendants induced thousands
                                            of financially distressed homeowners to pay up-front fees of up to $2,000 each
                                            in exchange for home loan modifications, modification services, and “software
                                            licenses.” In exchange for the fee, HOPE sent homeowners a “do-it-yourself”
                                            application package that was nearly identical to the U.S. Government’s free
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   43




application through the Home Affordable Modification Program (“HAMP”), a
Federally funded mortgage assistance program implemented under TARP. HOPE
falsely represented to homeowners that, with HOPE’s assistance, the homeowners
were virtually guaranteed to receive a loan modification under HAMP. For
example, the defendants lulled these distressed homeowners by routinely telling
homeowners that they had already been approved for a loan modification, that the
defendants were “underwriters” or were otherwise affiliated with the homeowners’
mortgage companies, and that HOPE had an almost perfect record of obtaining
home loan modifications. HOPE customers had no advantage in the applications
process; however, and, in fact, most of their applications were denied. Through
these misrepresentations, HOPE was able to persuade thousands of homeowners
collectively to pay more than $4 million in fees to HOPE. Victims of HOPE lived in
all 50 states and Washington, DC.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Massachusetts, and the Computer Crime and Intellectual Property
Section of the U.S. Department of Justice’s Criminal Division.

Perpetrator of Mortgage Lending Scheme Sentenced to 51 Months in Federal
Prison for Defrauding TARP Recipient, Ally Financial, & Ordered to Pay $3.2
Million in Restitution – Steven Pitchersky
On May 21, 2014, Steven Pitchersky was sentenced to 51 months in Federal
prison, to be followed by five years of supervised release after having pled
guilty to wire fraud for his role in a fraudulent lending scheme that resulted
in approximately $5.3 million in losses to TARP recipient, GMAC Inc. (since
rebranded as Ally Financial Inc. (“Ally”). In addition, the U.S. District Court for the
Eastern District of Pennsylvania ordered Pitchersky to pay restitution of more than
$3.2 million to Ally.
    In total, $17.2 billion in Federal taxpayer bailout funds were invested in Ally
through TARP. As of June 30, 2014, Treasury owned 15.6% of Ally Financial and
$4 billion of the TARP investment remained outstanding.
    Pitchersky operated Nationwide Mortgage Concepts (“NMC”), a California
mortgage lender licensed in more than 40 states to originate and refinance
mortgages. Between August 2009 and January 2011, NMC borrowed from a
$10 million line of credit with Ally, NMC’s “warehouse lender” for thousands of
mortgage loans, as interim financing so that NMC could refinance home mortgages
held by other financial institutions. As part of the agreement to provide the line of
credit, Ally retained a security interest in the mortgage loans until the loans were
repaid. In most cases, Ally also purchased the NMC refinanced mortgages.
    Pitchersky made misrepresentations to Ally both in his application for approval
to sell NMC-originated loans to Ally and secure the warehouse line of credit,
including that NMC already had a $10 million warehouse line of credit with a
company called “MPL.” Pitchersky provided Ally with contact information for
MPL. In reality, however, the phone number was actually Pitchersky’s cell phone,
and MPL was the name of another business entity that Pitchersky himself ran.
44   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Over the next three years, on multiple occasions, Pitchersky falsely represented to
                                            Ally that he had a warehouse relationship with this company, MPL.
                                                Pitchersky also repeatedly lied to Ally about how he was using the $10 million
                                            warehouse line. Under its warehouse line of credit agreement with Pitchersky,
                                            funds provided to NMC were required to go through a third-party title company
                                            that would then disburse the funds for each NMC loan financed by Ally. Pitchersky
                                            used a company called “Hanover” as the title company on his transactions which,
                                            unbeknownst to Ally, Pitchersky himself had created. Then, Pitchersky covertly
                                            instructed Hanover to forward to NMC all money it received from Ally, which gave
                                            Pitchersky complete control over money from Ally’s warehouse line. As a result,
                                            from December 2010 to January 2011, Pitchersky misdirected approximately $5.3
                                            million intended to pay off 23 first mortgages for NMC clients and instead used
                                            the money to pay off first mortgages for other customers, allowing him to originate
                                            more mortgages and earn more fees for himself.
                                                At the end of January 2011, Ally discovered that Pitchersky and NMC had not
                                            used this money to pay off the 23 loans and ended the warehouse agreement with
                                            NMC.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Pennsylvania, the Federal Bureau of Investigation, and the
                                            Department of Veterans Affairs Office of Inspector General.

                                            Businessman Admits to Bank Fraud and Bribing TARP Bank Loan Officer in
                                            Exchange for more than $950,000 in Loans – Brian Headle, Colorado East Bank
                                            and Trust
                                            On June 26, 2014, Brian Headle, a Colorado business man, pled guilty in U.S.
                                            District Court for the District of Colorado, to one count of bank bribery in
                                            connection with his scheme to obtain approximately $950,000 in loans from
                                            Colorado East Bank and Trust (“CEBT”). Headle used a portion of the loan
                                            proceeds to bribe a CEBT loan officer, co-defendant Chris Tumbaga, Headle’s
                                            high school friend, to approve the loan applications. At sentencing, Headle faces a
                                            maximum of 30 years in Federal prison and a $1 million fine, followed by up to five
                                            years of supervised release. Headle also agreed to forfeit $952,079 as a result of his
                                            scheme.
                                                In February 2009, ColoEast Bankshares, Inc., the parent company of CEBT,
                                            received $10 million through the TARP Capital Purchase Program. The bank was
                                            later unable to pay more than $1 million in dividends it owed to taxpayers. In July
                                            2013, the U.S. Department of the Treasury sold its stake in the company at auction
                                            for approximately $9 million. In sum, approximately $2 million owed to Federal
                                            taxpayers was lost on the investment.
                                                Headle admitted that in March 2009, he contacted Tumbaga to secure an
                                            initial $250,000 loan from CEBT. In September 2009, Headle began bribing
                                            Tumbaga in exchange for additional loans to which Headle was not entitled.
                                            Indeed, when interviewed by law enforcement, Headle admitted that he could not
                                            have obtained the loans anywhere else, and had to pay Tumbaga a portion of the
                                            loan proceeds as a result. To help disguise that the loans were actually for Headle’s
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   45




benefit and circumvent the bank’s limits on loans to one person, Headle obtained
loans in several different names, including four in his wife’s name and the name
of her purported company; as well as the name of his limited liability corporation.
Later, Headle and Tumbaga concluded that they could not continue obtaining
loans in the same names, but needed to obtain additional loans in part to make
payments on the fraudulent earlier ones. Accordingly, Headle began to apply for,
and Tumbaga processed, still more loans in the names of Headle’s parents and
step-parents. Although it appeared as if the loans were benefitting the parents’
business or the parents, the money went to Headle himself. In all, Headle bribed
Tumbaga with over $60,000 in kickbacks from fraudulently obtained loan proceeds
in exchange for loans totaling $952,079.
    As previously reported, Headle and Tumbaga were charged jointly on
September 25, 2013. Tumbaga pleaded guilty on March 24, 2014, to one count of
bank fraud and one count of illegally receiving kickbacks for fraudulently procuring
loans for Headle. As part of his plea agreement, Tumbaga also agreed to a ban from
future involvement in banking activities. Tumbaga’s sentencing is set for September
30, 2014.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for
the District of Colorado, the Federal Deposit Insurance Corporation Office of
Inspector General, and the Federal Bureau of Investigation.

Owner of Florida Debt Collection Firm Charged in $76 Million Fraud Scheme
involving TARP Banks and Bribing a TARP Bank Official – Leonard G. Potillo, III
On June 4, 2014, Leonard G. Potillo, III, was charged in a 33-count indictment
with seven counts of wire fraud, ten counts of bribing a bank official and sixteen
counts of money laundering in an alleged $76 million fraud scheme in the U.S.
District Court for the Middle District of Florida. The scheme allegedly involved
Potillo’s purchase and sale of delinquent debt portfolios from multiple TARP and
other banks, and falsification of the quality of the debt to resell it at higher prices.
If convicted, Potillo faces up to 30 years in Federal prison for the most serious
offense of bank bribery.
    According to the indictment, Potillo owns and manages United Credit
Recovery, LLC (“UCR”), of Seminole County, Florida. Since at least as early as
January 2008, Potillo and UCR allegedly sold charged-off consumer overdraft debt
portfolios to third parties falsely representing the number of times a debt collection
agency attempted to collect the debt, and therefore inflating its value. To conceal
the quality of the debt accounts, Potillo also allegedly created, on a mass scale,
fictitious “Affidavits of Correctness/Assignments” purportedly signed by bank
officials and presented on letterhead with a bank’s official trademarked logo.
    Furthermore, in exchange for inside information relating to TARP-recipient
U.S. Bank’s auction of the overdraft debt portfolios, Potillo allegedly bribed a U.S.
Bank officer on at least ten occasions totaling more than $1 million, which enabled
Potillo to purchase 11 portfolios of overdraft debt worth $820 million for $31
million, or less than four cents on the dollar. In November 2008, U.S. Bancorp of
Minneapolis, Minnesota, the parent company of U.S. Bank, received approximately
46   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            $6.6 billion in Federal taxpayer funds through TARP. The bank repaid the funds in
                                            full in June 2009.
                                                This case is being investigated by SIGTARP, the United States Attorney’s
                                            Office for the Middle District of Florida, the Internal Revenue Service – Criminal
                                            Investigation, and the United States Secret Service.

                                            Missouri Businessman Sentenced to Four Years in Federal Prison for Defrauding
                                            TARP Bank – Michael E. Filmore
                                            On May 22, 2014, Michael Edward Filmore, who operated a medical equipment
                                            sales firm, was sentenced to four years in Federal prison to be followed by three
                                            years of supervised release for carrying out a multi-year fraud scheme against TARP
                                            recipient, Pulaski Bank (“Pulaski”), of Creve Coeur, Missouri. Filmore also was
                                            ordered to pay more than $6.3 million in restitution to Pulaski and currently owes
                                            Pulaski more than $5 million. On December 20, 2013, Filmore pled guilty in the
                                            United States District Court for the Eastern District of Missouri to one felony
                                            count of bank fraud as a result of his scheme.
                                                Filmore, a long-time customer of Pulaski, defrauded Pulaski in a multi-year
                                            scheme involving at least 15 loans and more than $6 million. Filmore brokered
                                            medical equipment and needed to finance his acquisition of the equipment, which
                                            he later sold and leased to customers. To obtain financing from Pulaski, Filmore
                                            fabricated and altered brokerage account records which purportedly showed that
                                            he had millions of dollars in securities he had agreed to pledge as collateral for
                                            outstanding loans, including a $1 million line of credit. However, in reality, none of
                                            the collateral – in the form of securities or valuable medical equipment – existed.
                                            In November 2013, Pulaski discovered that Filmore had provided a fictitious
                                            purchase order for medical equipment with wiring instructions to a company
                                            Filmore controlled.
                                                In January 2009, Pulaski Financial Corp., Pulaski Bank’s parent company,
                                            received approximately $32.5 million in Federal taxpayer funds throughTARP.
                                            Treasury sold its stake in Pulaski at auction in July 2012, realizing a loss of
                                            approximately $3.6 million on taxpayers’ principal investment.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Missouri , the Federal Bureau of Investigation, and the U.S.
                                            Postal Inspection Service.

                                            Former Chief Financial Officer Charged with Defrauding TARP Recipient Bank of
                                            Blue Valley – Timothy P. Fitzgerald
                                            On May 13, 2014, Timothy P. Fitzgerald, a former Chief Financial Officer of KC
                                            United, LLC, (“KC United”), a construction company in Kansas City, Kansas,
                                            was charged in the U.S. District Court for the District of Kansas on one count of
                                            conspiracy to commit bank fraud for his scheme to defraud TARP recipient Bank
                                            of Blue Valley (“Blue Valley”) of Overland Park, Kansas. Fitzgerald faces up to 30
                                            years in Federal prison when sentenced.
                                                According to court documents, in 2008, knowing KC United was in financial
                                            trouble, Fitzgerald and another KC United executive manipulated the quarterly
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   47




financial statements to make it appear that KC United was operating at a profit
rather than a loss. In November 2008, in accordance with KC United’s loan
agreements with Blue Valley, Fitzgerald delivered quarterly financial statements
containing the falsified information to the bank in order to renew and increase KC
United’s line of credit. In December 2008, knowing that its outside accounting firm
would easily discover the fake financial statements, Fitzgerald prepared an annual
financial statement incorporating the false quarterly profits, as well as a fake cover
letter – to be placed on the letterhead of the outside accounting firm – stating
that the accounting firm had reviewed the financial statement. In March 2009,
Fitzgerald purportedly delivered to Blue Valley the falsified financial statement and
fake letter and letterhead, which, in reality, the outside accounting firm had never
seen. Then, each fiscal quarter between August 2009 and March 2011, Fitzgerald
prepared falsified quarterly financial statements and delivered them to Blue Valley.
In May 2009 and May 2010, Blue Valley relied on the falsified financials to renew
KC United’s outstanding loans. In July 2010, Fitzgerald helped prepare and deliver
to Blue Valley fake 2009 year-end financial statements which contained another
cover letter from the outside accounting firm falsified by Fitzgerald.
    In April 2011, three of KC United’s companies entered bankruptcy and, in
March 2012, Blue Valley sold its remaining outstanding loan to KC United,
suffering a loss of over $875,000.
    In December 2008, Blue Valley Ban Corp., the holding company for Blue
Valley, received $21,750,000 in TARP funds. Between December 2008 and
September 2013, Blue Valley BanCorp. failed to make 18 required quarterly
dividend payments to the U.S. Treasury, totaling over $4.8 million, and, in October
2013, Treasury sold its stake in the bank for a loss of over $480,000.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Kansas, the Internal Revenue Service – Criminal Investigation, and the
U.S. Department of Labor – Office of the Inspector General.

Two Insurance Agents Face Additional Charges for their Roles in Insurance Fraud
Scheme against Elderly Citizens – Daniel Carpenter and Wayne Bursey
On May 14, 2014, Daniel Carpenter and Wayne Bursey, senior executives of
several companies that marketed, sold, and administered employee welfare benefit
plans, were charged by a grand jury in Hartford, Connecticut, in a 57-count
indictment with conspiracy, fraud, and money laundering stemming from a
scheme to defraud insurance companies into issuing policies on the lives of elderly
people for the benefit of defendants and other third-party investors, also known as
a stranger-originated life insurance (“STOLI”) scheme. If convicted, Carpenter and
Bursey face a maximum of 20 years in Federal prison.
    As previously reported, on December 9, 2013, Joseph Edward Waesche, IV, an
insurance agent licensed by the State of Connecticut and charged separately, pled
guilty in Federal court in Hartford, Connecticut, for his participation in the fraud
scheme and faces up to five years in Federal prison.
    Carpenter and Bursey allegedly defrauded, among other insurance providers,
Lincoln National Life Insurance Company (“Lincoln”), a subsidiary of Lincoln
48   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            National Corporation, a holding company that received $950 million in TARP
                                            funds in July 2009.
                                                According to the May 2014 indictment, Carpenter and Bursey ran a series of
                                            companies in Simsbury and Stamford, Connecticut, that developed an employee
                                            welfare benefit plan and trust (the “Trust”). The Trust’s primary objective was to
                                            secure insurance policies on the lives of elderly individuals that could be held by
                                            defendants as other investments, or re-sold on the life settlement market, a third-
                                            party market for life insurance policies. Typically, insurance agents working with,
                                            for, or on behalf of the defendants, would approach individuals over the age of 70
                                            and promise to provide free life insurance for two years (the “Straw Insureds”). At
                                            the end of the two-year period, the agents would try to sell the policies in the life
                                            settlement market. In most cases, agents promised the Straw Insureds that they
                                            would receive a portion of any sale proceeds. In other cases, the Straw Insureds
                                            were offered cash up front to participate.
                                                As the trustee, Bursey signed all life insurance applications on behalf of the
                                            Trust, which would “own” all of the policies. Working with insurance agents,
                                            Carpenter and Bursey allegedly caused the submission of insurance applications
                                            containing material misrepresentations, including applications falsely: (a) denying
                                            that third-parties were paying premiums, (b) denying discussions about policy
                                            resale, (c) inflating the insured’s net worth or income, and (d) claiming that the
                                            insurance was for legitimate estate-planning needs. However, as the indictment
                                            alleges, premiums were in fact funded by loans, typically from another entity owned
                                            and/or run by Carpenter and Bursey, and each policy was obtained with the primary
                                            intent to resell it. These arrangements were withheld from the insurance providers
                                            which likely would not have issued policies had they known the truth.
                                                In addition, as Carpenter and Bursey well knew, the applications falsely
                                            claimed that the Trust was a bona fide welfare benefit trust under the Internal
                                            Revenue Code, where employers would make contributions to the Trust to fund life
                                            insurance policies for certain employees.
                                                In all, Carpenter and Bursey’s alleged lies caused eighty-four policies on
                                            the lives of seventy-six different Straw Insureds to be issued. According to the
                                            indictment, one such individual unexpectedly died within the first two years of two
                                            insurance policies having been issued on his life. The policies were issued in 2006
                                            and 2007 based on some of the same misrepresentations including that they were
                                            not funded by a third party loan and not for resale. In May 2009, the insurer paid
                                            to the Trust the policies’ combined death benefit of $30 million in part based on
                                            additional misrepresentations by Carpenter and Bursey. The trust failed to pay the
                                            $30 million to the beneficiary’s family, however, instead, as directed by Carpenter
                                            and Bursey, the Trust funneled the funds to pay for various expenses including
                                            other fraudulent insurance premiums and to purchase a home in Rhode Island.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for
                                            the District of Connecticut, and the Department of Labor – Office of Inspector
                                            General.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   49




Perpetrator of Various Investor Fraud Schemes Sentenced to 27 months in
Federal Prison – Marvin Solis
On June 11, 2014, Marvin Solis was sentenced in the U.S. District Court for the
Northern District of California, to 27 months in Federal prison and ordered to pay
restitution for his role in an investment fraud scheme he perpetrated against his
family members. In addition, as a special condition of his three-year supervised
release, Solis is prohibited from acting in any fiduciary position.
    As previously reported, Solis was indicted on September 5, 2013, by a Federal
grand jury on two counts of wire fraud as a result of the scheme, and was arrested
by SIGTARP agents and our law enforcement partners on September 11, 2013.
Solis pled guilty to both wire fraud counts on January 29, 2014.
    According to the plea agreement, Solis admitted to defrauding his then-wife’s
family members out of approximately $244,000 from September 2008 through
March 2009. The fraud consisted of three parts: First, Solis solicited approximately
$207,000 from several of his wife’s relatives promising them he would invest in
real estate on their behalf. In reality, however, Solis never invested in real estate,
rather, Solis used the funds to pay his own expenses and make risky commodities
trades running the funds through accounts held at a TARP recipient bank. Second,
he encouraged his victims to use their good credit scores and open credit card
accounts to fund renovations to the properties he had promised them. Instead,
he ran up approximately $10,000 in charges – not related to renovations – on
these credit cards at different banks, including a TARP bank. Finally, Solis used
the personal information of one of his victims without the victim’s knowledge to
open a credit card account in the name of Solis’s company and, again without
authorization, charged approximately $26,700 on the card.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of California, and the Federal Bureau of Investigation.

Florida Man Pleads Guilty in Fraud Scheme – Leigh Farrington Fiske
On June 11, 2014, Leigh Farrington Fiske pled guilty in U.S. District Court for
the Northern District of California, to five counts of wire fraud in connection
with a $433,000 fraud scheme that funneled proceeds through a TARP bank. At
sentencing, Fiske faces up to 20 years in Federal prison, a fine of up to $866,000,
and three years of supervised release.
    In pleading guilty, Fiske admitted that he and his partner, Michael P. Ramdat,
operated a business called “Corporate Funding Solutions,” which purportedly
sought to obtain business lines of credit for customers in exchange for a fee. Fiske’s
role was to solicit customers, which he generally did over the internet and by word-
of-mouth. In reality, however, neither Fiske nor Ramdat ever intended to provide
any services to their customers. Instead, they accepted approximately $433,000
from at least 30 victims and never in fact helped any of the victims obtain credit.
Fiske admitted that he kept $102,000 of the payments for himself and that he
passed the remainder to Ramdat.
    As previously reported, on September 16, 2013, and December 2, 2013,
respectively, Fiske and Ramdat were arrested by SIGTARP agents and their law
50   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            enforcement partners. Fiske and Ramdat were indicted by a Federal grand jury
                                            on November 21, 2013, and Ramdat pled guilty on February 26, 2014, and is
                                            pending sentencing in U.S. District Court for the Northern District of California to
                                            conspiracy and multiple counts of wire fraud in connection with the same scheme.
                                               This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of California, and the Federal Bureau of Investigation.

                                            Missouri Businessmen Admit to Defrauding TARP Recipient Excel Bank – James
                                            Crews and Michael Hilbert
                                            On April 7, 2014, business executives James Crews and Michael Hilbert pled guilty
                                            in U.S. District Court for the Eastern District of Missouri to bank fraud for their
                                            roles in defrauding TARP recipient Excel Bank. For each count of bank fraud, the
                                            defendants face a maximum penalty of 30 years in Federal prison when sentenced.
                                                According to court documents, Crews and Hilbert, who jointly operated a real
                                            estate rental business in Missouri, admitted to making several large fraudulent
                                            construction draw requests with respect to “rehab” or “fix funds” specifically set
                                            aside in escrow for repairs to rental homes. The bank disbursed the “fix funds”
                                            in reliance on multiple false claims that work had been done on various rental
                                            properties. In reality, however, inspections by the bank revealed that the work was
                                            not performed and Crews and Hilbert used the funds for other purposes. Shortly
                                            after the funds were disbursed in 2010, the loans—totaling over $2.6 million lent
                                            by Excel Bank—went into default.
                                                In May 2009, Investors Financial Corporation, the parent company of Excel
                                            Bank, received $4 million in TARP funds. On October 19, 2012, Excel Bank failed
                                            and was closed by state and Federal regulators. As a result of the failure, the entire
                                            $4 million TARP investment was lost as was more than $900,000 in TARP-related
                                            missed dividend and interest payments the bank owed Treasury. The FDIC, which
                                            became Excel Bank’s receiver when it closed, also lost $40.9 million.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Missouri and the Federal Bureau of Investigation.

                                            Four Face Additional Charges in TARP-related Scheme to Sell Properties from
                                            Federal Government’s HomePath Program – Greenfield Advisors, LLC
                                            On May 21, 2014, an indictment in the U.S. District Court for the Western
                                            District of Texas, charged Mark Steven Thompson and his cohorts, Xue Heu,
                                            Thomas Dickey Price, and Carla Lee Miller with conspiracy to commit wire fraud
                                            and aiding and abetting wire fraud for their alleged participation in a fraud scheme
                                            to sell properties allegedly owned by the Government as official “TARP partners.”
                                            Thompson was arrested on January 24, 2014. Chan and Price were arrested on
                                            May 28, 2014 and, at the time of the indictment, Miller was in county jail in
                                            Modesto, California.
                                                According to court documents, from August 2013 through February 2014,
                                            Thompson, Heu, Price and Miller allegedly created fake identities in order
                                            to contact real estate investment firms and misrepresent that their affiliated
                                            companies, Greenfield Advisors, LLC, and Escrow Professionals, Inc., were
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   51




authorized by TARP to sell U.S. Government-held properties through a legitimate
Federal Government program called HomePath. Court documents allege that,
through Greenfield Advisors, defendants entered into contracts with individuals
purporting to purchase properties from the HomePath program when, in fact,
defendants had no authority to enter into such contracts.
    As alleged, Price and Miller directed investors to funnel the money – intended
as earnest money and property payments – through Escrow Professionals, Inc., the
escrow company for the sale, and into bank accounts controlled by Thompson and
ultimately used by all of the defendants for their own personal benefit. To further
the scheme, a real estate closing would purportedly occur, and, if pressed, Hue
would create documents falsely purporting to be the deeds. In reality, however, no
actual transfer of properties took place because none of the defendants had the
actual authority to sell the property.
    Defendants are accused of defrauding victims out of more than $900,000. If
convicted, each faces up to 20 years in Federal prison.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Western District of Texas, and the Federal Bureau of Investigation.

Car Dealership Owner Sentenced for Defrauding TARP Bank – Tariq Khan
On June 24, 2014, in the United States District Court for the Northern District of
Illinois, and, as previously reported, following his September 3, 2013, guilty plea
to one count of bank fraud, Tariq Khan was sentenced to one year of confinement
(six months’ each of community and home confinement) followed by five years of
supervised release for defrauding Old Second National Bank (“Old Second”) out of
more than $340,069. Khan also was ordered to make full restitution of $340,069
to Old Second.
     Khan, the owner of Urban Motors Corporation (“Urban Motors”), a car and
motorcycle dealership with three locations in Illinois, secured a line of credit
through Old Second. Under the agreement with Old Second, the proceeds of the
line of credit were to be used to purchase used vehicles for resale. The proceeds
from the sale of each vehicle were then to be applied against the outstanding loan
balance. Additionally, Urban Motors was to provide the bank with the titles of
the vehicles it acquired for resale. Khan also agreed to update this information as
necessary and provide the bank with certain financial reports that would be true
and accurate, and Old Second relied on these reports when making decisions
regarding the line of credit.
     According to court documents, Khan admitted that from December 2008
through November 2009, he failed to notify Old Second that Urban Motors sold
specific vehicles, failed to pay the loan amounts corresponding to those vehicles,
and caused reports to be prepared that contained misrepresentations about the
status of those vehicles. Khan also failed to provide Old Second with the titles of
certain vehicles so that Urban Motors could sell those vehicles without notifying
the bank of the sales. These actions allowed Khan to avoid paying off the principal
balance of the specific vehicle sold and instead keep the sales proceeds for himself.
As a result of the scheme, Khan obtained $357,268 in funds that he was required
52   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            to — but did not — apply to the amounts owned on the Old Second line of credit.
                                            Khan also admitted that, on more than one occasion, he lied to bank auditors about
                                            the status of particular vehicles so that the bank would continue to permit Urban
                                            Motors to access its line of credit.
                                               In January 2009, Old Second Bancorp, Inc., of Aurora, Illinois, the parent
                                            company of Old Second National Bank, received $73 million in Federal taxpayer
                                            funds through the U.S. Department of the Treasury Troubled Asset Relief Program
                                            (“TARP”). The bank was subsequently unable to make required TARP dividend
                                            and interest payments totaling approximately $9.1 million, and in March 2013,
                                            Treasury sold its stake in the bank at auction for approximately $25.5 million,
                                            resulting in a combined principal and dividend loss of approximately $56.5 million.
                                               This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of Illinois, and the Federal Bureau of Investigation.

                                            Identity Theft Perpetrator charged with Defrauding TARP Recipient Bank of
                                            America, N.A., in connection with False Application for Federal Assistance under
                                            TARP – Eduardo Garcia Sabag
                                            On April 29, 2014, Eduardo Garcia Sabag, of Wichita, Kansas, was charged in U.S.
                                            District Court for the District of Kansas on one count of submitting false mortgage
                                            and mortgage modification applications to a Federally insured bank, one count of
                                            misusing a social security number, and one count of aggravated identity theft for
                                            his scheme to defraud TARP recipient Bank of America when applying for the U.S.
                                            Treasury’s housing assistance program, the Home Affordable Modification Program
                                            (“HAMP”), which is funded by TARP. Sabag faces up to 30 years in Federal prison
                                            as well as a separate two year prison term that may be served consecutively for
                                            identity theft.
                                                According to the indictment, in 2002, Sabag submitted a loan application
                                            in order to purchase a home in Wichita, Kansas, and intentionally provided
                                            another person’s social security number. Using this false information, Sabag
                                            obtained a mortgage on the home from TARP recipient Bank of America, N.A.
                                            Later, in August 2010, Sabag applied for—and ultimately received—a mortgage
                                            modification through the U.S. Treasury’s HAMP program, a Federally-funded
                                            mortgage assistance program designed to reduce struggling homeowners’ mortgage
                                            payments primarily by lowering their interest rates or extending the repayment
                                            period for the loan. To qualify for assistance through HAMP, a homeowner must
                                            complete and return to the mortgage servicer a Request for Modification and
                                            Affidavit (“RMA”), which is a three-page application. The RMA requires identifying
                                            information as well as details about the applicant’s income and assets; it also
                                            includes a certification, signed by the homeowner, that all information submitted
                                            on the application is truthful and an acknowledgement that knowingly submitting
                                            false information may be a violation of Federal law. Despite this, Sabag completed
                                            an RMA application and, once again, provided false identifying information by
                                            misusing the same social security number from his original mortgage application.
                                                Bank of America received $15 billion in Federal funds through TARP on
                                            October 28, 2008; an additional $10 billion on January 9, 2009; and $20 billion on
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   53




January 16, 2009. It repaid taxpayers’ combined $45 billion TARP investment on
December 9, 2009.
   This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Kansas, the Social Security Administration’s Office of the Inspector
General, and The Department of Homeland Security’s Immigration and Customs
Enforcement.

Ohio Real Estate Agent Charged in more than $300,000 Money Laundering
Scheme Using a TARP Recipient Bank – Jason L. Gunsorek
On June 10, 2014, Jason L. Gunsorek was charged in U.S. District Court for the
Southern District of Ohio with two counts of money laundering in connection with
an alleged scheme involving false bank entries in which Gunsorek routed the illicit
funds through an account held at TARP-recipient, CF Bank. The case is scheduled
for trial on August 12, 2014 and, if convicted, Gunsorek faces up to ten years in
Federal prison.
    In December 2008, the parent company of CF Bank, Central Federal
Corporation (“Central Federal”), of Fairlawn, Ohio, received $7,225,000 in TARP
funds. The bank was later unable to pay $722,500 in TARP-related dividends.
In September 2012, the U.S. Department of the Treasury sold its stake in the
company for approximately $4 million, resulting in a total loss of approximately
$4.2 million, or more than half of the money owed to Federal taxpayers.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for
the Southern District of Ohio, and the Internal Revenue Service – Criminal
Investigation.

Sentences Resulting from TARP-Related Crimes
Of the 136 defendants convicted as a result of a SIGTARP investigation, 85
defendants have already been sentenced to prison for TARP-related crimes, 19
were sentenced to probation, and the remainder await sentencing.
    The consequences for TARP-related crime are severe. The average prison
sentence imposed by courts for TARP-related crime investigated by SIGTARP is
66 months, which is nearly double the national average length of prison sentences
involving white collar fraud of 35 months.v Fourteen defendants investigated
by SIGTARP were sentenced to 10 years or more in Federal prison, including
Lee Farkas, former chairman of mortgage company Taylor, Bean and Whitaker
Mortgage Corporation LLC (“TBW”), who is serving a 30-year prison sentence,
and Edward Woodard, former chairman of the Bank of the Commonwealth, who
is serving a 23-year prison sentence. Many of the criminal schemes uncovered
by SIGTARP had been ongoing for years, and involved millions of dollars and
complicated conspiracies with multiple co-conspirators. On average, as a result
of SIGTARP investigations, criminals convicted of crimes related to TARP’s
banking programs have been sentenced to serve 77 months in prison. Criminals
convicted for mortgage modification fraud schemes or other mortgage fraud related

v See the U.S. Sentencing Commission’s 2012 Sourcebook of Federal Sentencing Statistics for additional information.
54                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                          investigations by SIGTARP were sentenced to serve an average of 39 months in
                                                                          prison. Criminals investigated by SIGTARP and convicted of investment schemes
                                                                          such as Ponzi schemes and sales of fake TARP-backed securities were sentenced to
                                                                          serve an average of 88 months in prison. Figure 1.3 shows the people sentenced to
                                                                          prison, the sentences they received, and their affiliations.
     FIGURE 1.3

     INDIVIDUALS SENTENCED TO PRISON




      Lee Bentley Farkas           Edward Woodard               Stephen Fields               David McMaster               Mark Anthony McBride         Delroy Davy                    George Hranowskyj
      360 months                   276 months                   204 months                   188 months                   [deceased]                   168 months                     168 months
      3 years supervised release   5 years supervised release   5 years supervised release   5 years supervised release   170 months                   5 years supervised release     3 years supervised release
      Chairman                     President & CEO              Executive Vice President     Vice President               5 years supervised release   Omni National Bank             Owner/Operator
      Taylor, Bean and Whitaker    Bank of the Commonwealth     Bank of the Commonwealth     American Mortgage            Omni National Bank                                          345 Granby, LLC
                                                                                             Specialists Inc.




      Mark A. Conner               Eric Menden                  Robert Egan                  Mark Farhood                 Glen Alan Ward               John Farahi                    Gordon Grigg
      144 months                   138 months                   132 months                   132 months                   132 months                   120 months                     120 months
      5 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release     3 years supervised release
      President                    Owner/Operator               President                    Owner                        Partner                      Investment Fund Manager        Financial Advisor and Owner
      FirstCity Bank               345 Granby, LLC              Mount Vernon Money Center    Home Advocate Trustees       Timelender                   and Operator                   ProTrust Management, Inc.
                                                                                                                                                       New Point Financial
                                                                                                                                                       Services, Inc.




      Isaak Khafizov               Scott Powers                 Robin Bruhjell Brass         Catherine Kissick            Troy Brandon Woodard         Howard Shmuckler               Clayton A. Coe
      108 months                   96 months                    96 months                    96 months                    96 months                    90 months                      87 months
      3 years supervised release   5 years supervised release   3 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release     5 years supervised release
      Principal                    CEO                          Owner/Operator               Senior Vice President        Vice President               Owner/Operator                 Vice President
      American Home Recovery       American Mortgage            BBR Group, LLC               Colonial Bank                Bank of the Commonwealth     The Shmuckler Group, LLC       Senior Commercial Loan
                                   Specialists Inc.                                                                       Subsidiary                                                  Officer
                                                                                                                                                                                      FirstCity Bank




      David Tamman                 Christopher Godfrey          Dennis Fischer               Lawrence Allen Wright        Lori Macakanja               Jerry J. Williams              Desiree Brown
      84 months                    84 months                    84 months                    75 months                    72 months                    72 months                      72 months
      3 years supervised release   3 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release   3 years supervised release     3 years supervised release
      Attorney                     President                    Vice President               Owner                        Housing Counselor            President, CEO, and Chairman   Treasurer
      Nixon Peabody LLP            H.O.P.E.                     H.O.P.E.                     Wright & Associates          Home Front, Inc.             Orion Bank                     Taylor, Bean and Whitaker
                                                                                                                          (a HUD-approved company)
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                     55




Jason Sant                      Edward Shannon Polen           Adam Teague                  Francesco Mileto             Glenn Steven Rosofsky          Frederic Gladle              William Cody
72 months                       71 months                      70 months                    65 months                    [deceased]                     61 months                    60 months
2 years supervised release      5 years supervised release     5 years supervised release   5 years supervised release   63 months                      3 years supervised release   5 years supervised release
Co-owner                        Owner                          Vice President                                            3 years supervised release     Operator                     Owner/Operator
Home Advocate Trustees          Polen Lawn Care and            Appalachian Community Bank                                Owner                          Timelender                   C&C Holdings, LLC
                                Maintenance/F&M                                                                          Federal Housing Modification
                                                                                                                         Department




Delton de Armas                 Jeffrey Levine                 Bernard McGarry              Richard Pinto [deceased]     Steven Pitchersky              Dwight Etheridge             Peter Pinto
60 months                       60 months                      60 months                    60 months                    51 months                      50 months                    48 months
3 years supervised release      5 years supervised release     3 years supervised release   5 years supervised release   5 years supervised release     5 years supervised release   3 years supervised release
CFO                             Executive Vice President       Chief Operatiing Officer     Chairman                     Owner/Operator                 President                    President/COO
Taylor, Bean and Whitaker       Omni National Bank             Mount Vernon Money Center    Oxford Collection Agency     Nationwide Mortgage Concepts   Tivest Development &         Oxford Collection Agency
                                                                                                                                                        Construction, LLC




Winston Shillingford            Michael Edward Filmore         Julius Blackwelder           Paul Allen                   Brent Merriell                 Robert E. Maloney, Jr.       Cheri Fu
48 months                       48 months                      46 months                    40 months                    39 months                      39 months                    36 months
3 years supervised release      3 years supervised release     3 years supervised release   2 years supervised release   5 years supervised release     3 years supervised release   5 years supervised release
Co-owner                        Straw Borrower                 Manager                      CEO                                                         In-house Counsel             Owner/President
Waikele Properties Corp.                                       Friends Investment Group     Taylor, Bean and Whitaker                                   FirstCity Bank               Galleria USA




Marleen Shillingford            Roger Jones                    Raymond Bowman               Thomas Hebble                Michael Trap                   Tommy Arney                  Marvin Solis
36 months                       33 months                      30 months                    30 months                    30 months                      27 months                    27 months
3 years supervised release      3 years supervised release     2 years supervised release   3 years supervised release   3 years supervised release     3 years supervised release   3 years supervised release
Co-owner                        Federal Housing Modification   President                    Executive Vice President     Owner                          Owner                        Owner
Waikele Properties Corp.        Department                     Taylor, Bean and Whitaker    Orion Bank                   Federal Housing Modification   Residential Development      Hawk Ridge Investments, LLC
                                                                                                                         Department                     Company




Joseph D. Wheliss, Jr.          Clint Dukes                    Angel Guerzon                Reginald Harper              Thomas Fu                      Karim Lawrence               Ziad Nabil Mohammed
24 months                       24 months                      24 months                    24 months                    21 months                      21 months                    Al Saffar
5 years supervised release      5 years supervised release     3 years supervised release   3 years supervised release   5 years supervised release     5 years supervised release   21 months
Owner/Operator                  Owner                          Senior Vice President        President and CEO            Owner/CFO                      Officer                      3 years supervised release
National Embroidery Works Inc   Dukes Auto Collision Repair    Orion Bank                   First Community Bank         Galleria USA, Inc.             Omni National Bank           Operator
                                                                                                                                                                                     Compliance Audit
                                                                                                                                                                                     Solutions, Inc.
56                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     Matthew Amento               Christopher Woods            Troy A. Fouquet              Robert Ilunga                Vernell Burris               Brian M. Kelly                  Gregory Flahive
     18 months                    18 months                    18 months                    18 months                    12 months                    12 months                       12 months
     3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   2 years supervised release   3 years supervised release      3 years probation
     Owner                        Owner                        Owner                        Manager                      Employee                     Employee                        Owner/Attorney
     Blue and White Management,   Blue and White Management,   Team Management, LLC         Waikele Properties Corp.     H.O.P.E.                     H.O.P.E.                        Flahive Law Corporation
     Ameridream                   Ameridream                   TRISA, LLC




     Lynn Nunes                   Carlos Peralta               Andrew M. Phalen             Sara Beth Bushore            Walter Bruce Harrell         Justin D. Koelle                Jacob J. Cunningham
     12 months                    12 months                    12 months                    Rosengrant                   10 months                    9 months                        8 months
     5 years supervised release   3 years supervised release   5 years probation            12 months                    3 years supervised release   5 years probation               5 years probation
     Owner                        Park Avenue Bank             Operator                     3 years supervised release   Owner                        CEO                             CEO
     Network Funding                                           CSFA Home Solutions          Operator                                                  CSFA Home Solutions             CSFA Home Solutions
                                                                                            Compliance Audit
                                                                                            Solutions, Inc.




     John D. Silva                Daniel Al Saffar             Dominic A. Nolan             Teresa Kelly                 Sean Ragland                 Mark W. Shoemaker               Michael Bradley Bowen
     8 months                     6 months                     6 months                     3 months                     3 months                     1 day                           1 day
     5 years probation            3 years supervised release   5 years probation            3 years supervised release   3 years supervised release   (with credit for time served)   (with credit for time served)
     Senior Official              Sales Representative         Owner                        Operations Supervisor        Senior Financial Analyst     5 years supervised release      5 years supervised release
     CSFA Home Solutions          Compliance Audit             CSFA Home Solutions          Colonial Bank                Taylor, Bean and Whitaker
                                  Solutions, Inc.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   57




Location of TARP-Related Crimes
SIGTARP has found, investigated, and supported the prosecution of TARP-related
crime throughout the nation. Our investigations have led to criminal charges
against 196 defendants (136 of whom have been convicted as of June 30, 2014,
while others await trial).vi These defendants were charged in courts in 25 states and
Washington, DC. SIGTARP investigations have identified victims of TARP-related
crimes in all 50 states and Washington, DC. Victims of TARP-related crimes
include taxpayers, the Federal Government, including Treasury and FDIC, TARP
recipient banks, and homeowners targeted by mortgage modification scams. Figure
1.4 shows locations of U.S. Attorney’s Offices and state prosecutorial offices where
criminal charges were filed as a result of SIGTARP investigations.vii




vi Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
vii The
       prosecutors partnered with SIGTARP ultimately decide the venue in which to bring criminal charges resulting from SIGTARP’s
  investigations.
58   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            FIGURE 1.4

                                            LOCATIONS WHERE CRIMINAL CHARGES WERE FILED AS A RESULT OF
                                            SIGTARP INVESTIGATIONS



                                                                                            Fargo
                                                                                                                                                                  Concord
                                                                                                                                                                    Boston
                                                                                                                                       Buffalo      Brooklyn
                                                                                                             Madison                              New York       New Haven
                                                                                                                           Chicago                             Newark
                                              Sacramento                                                                                                Philadelphia
                                                                                                                                 Columbus Wilmington
                                                                                                                                                    Upper Marlboro
                                                San Francisco                                                                                      District of Columbia
                                                                                Denver                                                       Alexandria
                                                                                                          Kansas City
                                                                                                                                                       Norfolk
                                                                                                                    St. Louis
                                                    Las Vegas                            Wichita
                                                                                                    Jefferson City
                                                                                                                                Nashville
                                            Los Angeles
                                                                                                                 Little Rock
                                                           San Diego                                                                   Atlanta
                                                                                                                  Birmingham
                                                                                                                                         Macon


                                                                                                                                        Tallahassee
                                                                                                                         New Orleans
                                                                                               San Antonio
                                                                                                                                                 Tampa




                                            Birmingham, Alabama                 Atlanta, Georgia                                Newark, New Jersey
                                            Northern District of Alabama        Northern District of Georgia                    District of New Jersey
                                            Little Rock, Arkansas               Chicago, Illinois                               Las Vegas, Nevada
                                            Eastern District of Arkansas        Northern District of Illinois                   District of Nevada
                                            Los Angeles, California             Chicago, Illinois                               Brooklyn, New York
                                            Central District of California      Circuit Court of Cook County, Illinois          Eastern District of New York
                                            Sacramento, California              Kansas City, Kansas                             Buffalo, New York
                                            Eastern District of California      District of Kansas                              Western District of New York
                                            Sacramento, California              Wichita, Kansas                                 New York, New York
                                            Superior Court of California        District of Kansas                              Southern District of New York
                                            San Francisco, California           New Orleans, Louisiana                          Columbus, Ohio
                                            Northern District of California     Eastern District of Louisiana                   Southern District of Ohio
                                            San Diego, California               Boston, Massachusetts                           Philadelphia, Pennsylvania
                                            Southern District of California     District of Massachusetts                       Eastern District of Pennsylvania
                                            Denver, Colorado                    Upper Marlboro, Maryland                        Nashville, Tennessee
                                            District of Colorado                Prince George’s District Court                  Middle District of Tennessee
                                            New Haven, Connecticut              St. Louis, Missouri                             San Antonio, Texas
                                            District of Connecticut             Eastern District of Missouri                    Western District of Texas
                                            Wilmington, Delaware                Kansas City, Missouri                           Alexandria, Virginia
                                            District of Delaware                Western District of Missouri                    Eastern District of Virginia
                                            Tampa, Florida                      Jefferson City, Missouri                        Madison, Wisconsin
                                            Middle District of Florida          Western District of Missouri                    Western District of Wisconsin
                                            Tallahassee, Florida                Fargo, North Dakota                             Washington, DC
                                            Northern District of Florida        District of North Dakota                        U.S. Department of Justice
                                            Macon, Georgia                      Concord, New Hampshire
                                            Middle District of Georgia          District of New Hampshire


                                            Note: Italics denote state cases.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   59




Restitution and Forfeiture from TARP-Related Crimes
As of July 3, 2014, investigations conducted by SIGTARP have resulted in more
than $5.11 billion in court orders for the return of money to victims or the
Government. These orders happen only after conviction and sentencing or civil
resolution and many SIGTARP cases have not yet reached that stage; therefore,
any additional court orders would serve to increase this amount.
    Two cases in particular that SIGTARP investigated have resulted in not
only lengthy prison sentences for a number of individuals in each case but also
significant orders of forfeiture and restitution. In the Colonial Bank/Taylor, Bean
and Whitaker Mortgage Corporation LLC (“TBW”) case, former TBW chairman
Lee Bentley Farkas spearheaded a $2.9 billion fraud scheme that contributed to
the failure of Colonial Bank, the sixth largest bank failure in U.S. history. The case
resulted in not only prison time for eight people including Farkas but also court-
ordered restitution of $3.5 billion and forfeiture of $38.5 million. In the Bank of
the Commonwealth case (“BOC”), where former chairman Edward J. Woodard led
a $41 million bank fraud scheme that masked non-performing assets at BOC and
contributed to the failure of BOC in 2011, the court entered a restitution order of
$333 million and a forfeiture order of $65 million against nine defendants, each
responsible for at least a portion.
    Overall in SIGTARP cases, orders of restitution and forfeiture to victims and
the Government of numerous assets as well as seized assets pending final order
include dozens of vehicles, more than 30 properties (including businesses and
waterfront homes), more than 30 bank accounts (including a bank account located
in the Cayman Islands), bags of silver, U.S. currency, antique and collector coins
(including gold, silver, and copper coins), artwork, antique furniture, Civil War
memorabilia, NetSpend Visa and CashPass MasterCard debit cards, Western
Union money orders with the “Pay To” line blank, and the entry of money
judgments by courts against more than 20 defendants.
    Of the vehicles ordered to be forfeited (including automobiles, a tractor, water
craft, recreational and commercial vehicles) several are antique and expensive cars,
including a 1969 Shelby Mustang, a 1932 Ford Model A, a 1954 Cadillac Eldorado
convertible, a 1963 Rolls Royce, and a 1965 Shelby Cobra.
    As part of the Bank of the Commonwealth case, Thomas Arney, who pled guilty
for his role in the bank fraud scheme, agreed to forfeit the proceeds from the sale
of two antique cars to the Government: a 1948 Pontiac Silver Streak and a 1957
Cadillac Coup de Ville. Figure 1.5 includes pictures of the forfeited cars, as well as
other examples of assets seized by the Government in SIGTARP investigations.
60   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            FIGURE 1.5




                                            1957 Cadillac Coupe de Ville.                    1948 Pontiac Silver Streak.




                                            2010 Mercedes-Benz GLK 350 4Matic.               2005 Hummer H2. Estimated value in 2013:
                                            Estimated value in 2013: $29,000. (Source        $24,000. (Source Kelley Blue Book)
                                            Kelley Blue Book)




                                            Property located in Norfolk, Virginia. (Photo    1958 Mercedes-Benz Cabriolet 220. Estimated
                                            courtesy of Bill Tiernan, The Virginian-Pilot)   value in 2013: $185,000. (Source Hagerty.com)




                                                                                             19th century English painting of
                                                                                             “Royal Family,” oil on canvas.
                                                                                             Estimated appraised value:
                                                                                             $6,000.
                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   61




Property located in Chesapeake, Virginia. (Photo   French-style gilt, bronze, and green malachite
courtesy of Bill Tiernan, The Virginian-Pilot)     columnar 16-light torchères with bronze
                                                   candelabra arms. Estimated appraised value:
                                                   $8,000.




2005 Scout Dorado. (Sold for $1,800)               Cash seized from safe, $158,000.




Alabama property ordered forfeited.                Kubota tractor.


TARP-Related Prohibitions from Working in Banking and Financial
Services; as a Government Contractor; or as a Licensed Attorney
SIGTARP investigations not only have led to lengthy prison terms, restitution
and forfeiture orders and civil judgments for TARP-related offenses, but also
have resulted in senior executives being suspended or permanently banned from
working in banking and financial services, as a Government contractor, or as a
licensed attorney. As of July 3, 2014, SIGTARP investigations have resulted in
orders temporarily suspending or permanently banning 86 individuals from working
in the banking or financial industry, working as a contractor with the Federal
Government, or working as a licensed attorney. Many of these people were at
the highest levels of companies that applied for or received a TARP bailout. They
were trusted to exercise good judgment and make sound decisions. However, they
abused that trust, many times for personal benefit. The suspensions and bans
62   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            remove these senior executives from the banking and financial industries in which
                                            many practiced for years. A violation of the removal, in some instances, could
                                            be a basis for further prosecution. These high-level executives, some of whom
                                            were chief executive officers, chief financial officers, or licensed attorneys, have
                                            been sanctioned in a variety of ways, many by more than one authority: (i) by a
                                            sentencing court as part of the terms of supervised release after a prison term has
                                            been served; (ii) by the executive branch of the Federal Government as a bar from
                                            engaging in a Government contract; (iii) by a Federal banking regulator, which has
                                            the authority to ban an individual from working in the banking industry; (iv) by the
                                            Securities and Exchange Commission (“SEC”), which has the authority to issue
                                            certain bans relating to working in the securities industry; (v) by a Federal court
                                            in enforcing a Federal Trade Commission (“FTC”) request to order a ban against
                                            advertising, marketing, promoting, or selling mortgage assistance or mortgage relief;
                                            and (vi) by a state bar association, which has the authority to suspend or disbar a
                                            licensed attorney.
                                                Of the 86 individuals, 46 were heads or owners of companies, including
                                            those who were chairmen, chief executive officers, and presidents of financial
                                            institutions. Most of the remaining 40 individuals were chief financial officers,
                                            senior vice presidents, chief operating officers, chief credit officers, licensed
                                            attorneys, and other senior executives.
                                                This quarter SIGTARP investigations resulted in two significant industry
                                            prohibitions that are part of a settlement agreement or a condition of a guilty
                                            plea. Former Bank of America Chief Financial Officer, Joe L. Price, agreed to an
                                            18-month ban from serving as an officer or director of a public company in order to
                                            settle a lawsuit with the New York Attorney General concerning misrepresentations
                                            to shareholders and the Federal Government. As part of his guilty plea, Marvin
                                            Solis, who perpetrated investment schemes and bilked his own family members
                                            out of more than $230,000, including running up unauthorized charges on credit
                                            cards issued by TARP banks, agreed to a three-year prohibition from serving in any
                                            fiduciary position.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated 30 audits and six evaluations since its inception. As of June
                                            30, 2014, SIGTARP has issued 22 reports on audits and evaluations. Among the
                                            ongoing audits and evaluations in process are reviews of: (i) Treasury’s decision to
                                            waive Internal Revenue Code Section 382 for Treasury’s sales of securities in TARP
                                            institutions; (ii) Treasury’s and the state housing finance agencies’ implementation
                                            and execution of the Hardest Hit Fund; and (iii) the Special Master’s 2013
                                            executive compensation determinations at General Motors Company and Ally
                                            Financial Inc.

                                            SIGTARP Hotline
                                            As a criminal law enforcement agency, SIGTARP created its Hotline as a crime tip
                                            hotline for the American public to report and offer leads on criminal investigations
                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014           63




and suspected violations of criminal and civil laws in connection with TARP.                     SIGTARP’s Consumer Fraud Alert and
As of June 30, 2014, the SIGTARP Hotline has received and analyzed 33,931                        its Armed Services Mortgage Fraud Alert
Hotline contacts. These contacts run the gamut from expressions of concern                       are reproduced inside the back cover of
over the economy to serious allegations of fraud involving TARP, and a number                    this report.
of SIGTARP’s investigations were generated in connection with Hotline tips. The
                                                                                                 For more about SIGTARP’s Hotline,
SIGTARP Hotline can receive information anonymously. SIGTARP honors all
                                                                                                 see SIGTARP’s January 2014 Quarterly
applicable whistleblower protections and will provide confidentiality to the fullest
                                                                                                 Report, pages 255-270.
extent possible. SIGTARP urges anyone aware of fraud, waste, or abuse involving
TARP programs or funds, whether it involves the Federal Government, state and
local entities, private firms, or individuals, to contact its representatives at 877-SIG-
2009 or www.sigtarp.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives
and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
General and her staff meet regularly with and brief members of Congress and
Congressional staff. Additionally, in April, SIGTARP’s Deputy Chief of Staff, Chuck
Jones, and Senior Policy Advisor, Brian Sano, provided a briefing to Congressional
staff on SIGTARP’s April 2014 Quarterly Report. In April, June, and July, the
Special Inspector General also submitted written Congressional testimony to the
U.S. Senate Homeland Security and Governmental Affairs Committee and the
U.S. Senate Banking Committee on the role of oversight of small agencies and the
impact of high speed trading on our economy.
    Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.




THE SIGTARP ORGANIZATION
SIGTARP leverages the resources of other agencies, and, where appropriate and
cost-effective, obtains services through SIGTARP’s authority to contract.

Staffing and Infrastructure
SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
City, Los Angeles, San Francisco, and Atlanta. As of June 30, 2014, SIGTARP had
165 employees, plus one detailee from the Federal Housing Finance Agency Office
of Inspector General. The SIGTARP organization chart as of July 17, 2014, can
be found in Appendix K, “Organizational Chart.” SIGTARP posts all of its reports,
testimony, audits, and contracts on its website, www.sigtarp.gov.
    From its inception through June 30, 2014, SIGTARP’s website has had more
than 61.1 million web “hits,” and there have been more than 5.4 million downloads
of SIGTARP’s quarterly reports. The site was redesigned in May 2012. From
64   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            May 10, 2012, through June 30, 2014, there have been 236,290 page views.viii
                                            From July 1, 2012, through June 30, 2014, there have been 15,010 downloads of
                                            SIGTARP’s quarterly reports.ix

                                            Budget
                                            Figure 1.6 provides a detailed breakdown of SIGTARP’s fiscal year 2014 budget,
                                            which reflects a total operating budget of $43.1 million. The Consolidated
                                            Appropriations Act, 2014 (P.L. 113-76) provided $34.9 million in annual
                                            appropriations. The operating budget includes $34.9 million in annual
                                            appropriation and portions of SIGTARP’s initial funding that have not yet been
                                            spent.
                                               Figure 1.7 provides a detailed breakdown of SIGTARP’s fiscal year 2015
                                            proposed budget, which reflects a total operating plan of $46.1 million. This
                                            would include $34.2 million in requested annual appropriations and portions of
                                            SIGTARP’s initial funding.

                                             FIGURE 1.6                                                          FIGURE 1.7

                                             SIGTARP FY 2014                                                     SIGTARP FY 2015
                                             OPERATING PLAN                                                      PROPOSED BUDGET
                                             ($ MILLIONS, PERCENTAGE OF $43.1 MILLION)                           ($ MILLIONS, PERCENTAGE OF $46.1 MILLION)


                                                                                                                              Other Services
                                                     Other Services                                                                 $2.3, 5%
                                                           $1.6, 4%
                                                                                                                  Advisory Services
                                             Advisory Services                                                                $3.2
                                                         $2.6                                                                           7%
                                                                  6%
                                                                                                                  Interagency
                                              Interagency                                       Salaries          Agreements 18%                                    Salaries
                                              Agreements 25%                          63%       and                     $8.2                              68%       and
                                                     $10.9
                                                                                                $27.1                                                               $31.3
                                                                                                                            Travel
                                                              Travel                                                     $1.1, 2%
                                                           $0.9, 2%




                                            viii In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
                                               system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

                                               • Numbers reported to SIGTARP as of September 30, 2009
                                               • Archived numbers provided by Treasury for the period of October through December 2009
                                               • Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

                                                Starting April 1, 2012, another tracking system has been introduced that tracks a different metric, “page views,” which are different
                                                than “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.
                                            ix Measurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
SECT IO N 2   TARP OVERVIEW
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014           67




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.6
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                 Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.         that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                 Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds, reducing obligations to $455.7 billion as of June 30,                 Deobligations: An agency’s cancellation
2014.7 Of that amount, $424.5 billion had been spent.8 Taxpayers are owed $38.6              or downward adjustment of previously
billion as of June 30, 2014. According to Treasury, as of June 30, 2014, it had              incurred obligations.
$34.3 billion in write-offs and realized losses, leaving $4.3 billion in TARP funds
outstanding.9 Treasury’s write-offs and realized losses are money that taxpayers will
never get back. These amounts do not include $12.8 billion in TARP funds spent
on housing support programs, which are designed as a Government subsidy, with
no repayments to taxpayers expected.10 In the quarter ended June 30, 2014, funds
that were obligated but unspent remained available to be spent on only TARP’s
housing support programs. According to Treasury, in the quarter ended June 30,
2014, $1.1 billion of TARP funds were spent on housing programs, leaving $25.7
billion obligated and available to be spent.11
     Table 2.1 provides a breakdown of program obligations, changes in obligations,
expenditures, principal repaid, principal refinanced, amounts still owed to taxpayers
under TARP, and obligations available to be spent as of June 30, 2014. Table 2.1
lists 10 TARP sub-programs, instead of all 13, because it excludes the Capital
Assistance Program (“CAP”), which was never funded, and summarizes three
programs under “Automotive Industry Support Programs.” Table 2.2 details write-
offs and realized losses in TARP as of June 30, 2014.
 68                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



TABLE 2.1
 OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, PRINCIPAL REFINANCED, AMOUNTS STILL OWED TO TAXPAYERS, AND
 OBLIGATIONS AVAILABLE TO BE SPENT ($ BILLIONS)
                                            Obligation                                                                                                  Principal               Still Owed to
                                           After Dodd-                    Current                                              Principal              Refinanced                  Taxpayers                    Available
                                                 Frank                  Obligation              Expenditure                      Repaid                into SBLF                 under TARP                 to Be Spent
 Program                               (As of 10/3/2010)          (As of 6/30/2014)         (As of 6/30/2014)          (As of 6/30/2014)         (As of 6/30/2014)          (As of 6/30/2014)a          (As of 6/30/2014)

 Housing Support
                                                   $45.6                      $38.5c                    $12.8                           NA                     $0.0                           NA                    $25.7
 Programsb
 Capital Purchase
                                                   204.9                      204.9                     204.9                    $196.1d                         2.2                      $6.6                         0.0
 Program
 Community
 Development Capital                                   0.6                       0.6                        0.2                        0.1                       0.0                        0.5                        0.0
 Initiativee
 Systemically Significant
                                                     69.8                       67.8f                     67.8                       54.4                        0.0                      13.5                         0.0
 Failing Institutions
 Targeted Investment
                                                     40.0                       40.0                      40.0                       40.0                        0.0                        0.0                        0.0
 Program
 Asset Guarantee
                                                       5.0                       5.0                        0.0                        0.0                       0.0                        0.0                        0.0
 Program
 Automotive Industry
                                                     81.8g                      79.7h                     79.7                       61.6i                       0.0                      18.0                         0.0
 Support Programs
 Term Asset-Backed
                                                       4.3                       0.1j                       0.1                        0.1                       0.0                        0.0                        0.0
 Securities Loan Facility
 Public-Private
                                                     22.4                       18.8                      18.6                       18.6k                       0.0                        0.0                        0.0l
 Investment Program
 Unlocking Credit for
                                                       0.4                       0.4                        0.4                        0.4                       0.0                        0.0                        0.0
 Small Businesses
 Total                                           $474.8                    $455.7                    $424.5m                    $371.2                         $2.2                    $38.6                       $25.7
 Notes: Numbers may not total due to rounding. NA=Not applicable.
 a
        Amount taxpayers still owed includes amounts disbursed and still outstanding, plus $34.3 billion in write-offs and realized losses. It does not include $12.8 billion in TARP dollars spent on housing programs.
         These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
            Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 c
         On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
           Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $371.2 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include $2.2
            billion refinanced from CPP into the Small Business Lending Fund.
 e
          CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
           expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the total
           obligation, only $106 million went to non-CPP institutions.
 f
      Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 g
             Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 h
        Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 i
   $61.6 billion includes both payments toward principal and proceeds recovered from common stock sales.
 j
    On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to $0.1
     billion.
 k
       On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That $958
        million is included in this repayment total.
 l
     PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6 billion for
      PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of $18.8 billion results
      because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn equity was not as of June 30,
      2014, except for Invesco.
 m
               The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Daily TARP Update, 7/1/2014; Treasury, response to SIGTARP data call, 7/8/2014.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                         69



TABLE 2.2
 TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 6/30/2014                                                                                  ($ MILLIONS)
                                                         Total TARP                                                            Realized Lossa,
 TARP Program               Institution                  Investment                                                              Write-Offsb,c                                                     Description
 Autos
                                                                                                                                                          Sold 98,461 shares and equity stake in the
                            Chrysler                                                                                                      $1,328a
                                                                                                                                                                UAW Retiree trust for $560,000,000
                                                                                                                                                           Accepted $1.9 billion as full repayment for
                            Chrysler                                                                                                        1,600b
                                                                                                                                                                               the debt of $3.5 billion
                            Chrysler Total                  $10,465                                                                       $2,928
                            GM                                                                                                              3,203a                           Treasury sold to GM at a loss
                            GM                                                                                                              7,130a                       Treasury sold to public at a loss
                                                                                                                                                                          Loss due to bankruptcy plan of
                            GM                                                                                                                 826a
                                                                                                                                                                                           restructuring
                            GM Total                        $49,500                                                                     $11,159
                                                                                                                                                          Sold 219,079 common shares in a private
                                                                                                                                                          offering, 95,000,000 common shares and
                            Ally Financial                                                                                                  1,824a
                                                                                                                                                         7,245,670 common shares in two separate
                                                                                                                                                                        public offerings, all for a loss
                            Ally Financial
                                                            $17,174                                                                       $1,824
                            Total
                            Total Investment               $79,693c Total Realized Loss, Write-Offs                                     $15,911
 CDCI
                            Premier Bancorp,
                                                                                                                                                 $7a                               Liquidation of failed bank
                            Inc.
                            Total Investment                     $570       Total Realized Loss, Write-Offs                                      $7
 CPP
                            184 CPP Banks                                                                                                $1,648a,b                                      Sales and exchanges
                            27 CPP Banks in                                                                                                                                    Bankruptcy in process, loss
                                                                                                                                             $797b
                            Bankruptcy                                                                                                                                             written off by Treasury
                            Pacific Coast                                                                                                                                Bankruptcy process completed,
                                                                                                                                                   4b
                            National Bancorp                                                                                                                                 loss written off by Treasury
                            Anchor Bancorp                                                                                                                               Bankruptcy process completed,
                                                                                                                                               104a
                            Wisconsin, Inc.                                                                                                                                    loss realized by Treasury
                                                                                                                                                                         Bankruptcy process completed,
                            CIT Group Inc.                                                                                                  2,330b
                                                                                                                                                                             loss written off by Treasury
                            Total Investment              $204,895          Total Realized Loss, Write-Offs                               $4,884
 SSFI
                            AIGd                                                                                                        $13,485a                 Sale of TARP common stock at a loss
                            Total Investment                $67,835         Total Realized Loss, Write-Offs                             $13,485
 Total Realized Loss               $28,488                            Total Write-Offs            $5,799
 Total TARP Investment                 $350,439                                                                                                     Total Realized Loss, Write-Offs                    $34,287
 Notes: Numbers may not total due to rounding.
 a
   Includes investments reported by Treasury as realized losses. Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer
    included in calculating realized losses.
 b
      Includes investments reported by Treasury as write-offs. According to Treasury, in the time since some transactions were classified as write-offs, Treasury has changed its practices and now classifies sales
       of preferred stock at a loss as realized losses.
 c
    Includes $1.5 billion investment in Chrysler Financial, $413 million ASSP investment, and $641 million AWCP investment.
 d
     Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and 562,868,096 non-TARP shares based upon the
      Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank of New York for the benefit of the Treasury. Receipts for non-TARP
      common stock totaled $17.55 billion and are not included in TARP collections. The realized loss reflects the price at which Treasury sold common shares in AIG and TARP’s cost basis of $43.53 per common
      share.

 Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Section 105(a) Report, 7/10/2014; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group
 LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 7/7/2014; Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Daily TARP Update, 6/3/2013,
 6/13/2013, and 7/1/2014.
70            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TARP PROGRAMS UPDATE
                                                     As of June 30, 2014, 157 institutions remain in TARP: 54 banks with remaining
                                                     CPP principal investments; 34 CPP banks for which Treasury now holds only
                                                     warrants to purchase stock; 68 banks and credit unions in CDCI; and Ally
                                                     Financial.12 Treasury does not consider the 34 CPP institutions in which it holds
                                                     only warrants to be in TARP, however Treasury applies all proceeds from the sale of
                                                     warrants in these banks to recovery amounts in TARP’s CPP program.13 Treasury
                                                     (and therefore the taxpayer) remains a shareholder in companies that have not
                                                     repaid the Government. Treasury’s equity ownership is largely in two forms —
     Common Stock: Equity ownership                  common and preferred stock — although it also has received debt in the form of
     entitling an individual to share in             senior subordinated debentures.
     corporate earnings and voting rights.               According to Treasury, as of June 30, 2014, 277 TARP recipients (including 264
                                                     banks and credit unions, three auto companies, nine PPIP managers, and AIG) had
     Preferred Stock: Equity ownership that          paid back all of their principal or repurchased shares, although GM, Chrysler, and
     usually pays a fixed dividend before            AIG did so at a loss to Treasury. Another 137 CPP banks refinanced into the Small
     distributions for common stock owners           Business Lending Fund (“SBLF”). In addition, five TARP recipients (including four
     but only after payments due to debt             banks and credit unions, and Ally Financial) had partially repaid their principal or
     holders. It typically confers no voting         repurchased their shares but remained in TARP.14 According to Treasury, as of June
     rights. Preferred stock also has priority       30, 2014, 221 banks and credit unions have exited CPP or CDCI with less than a
     over common stock in the distribution           full repayment, including institutions whose shares have been sold for less than par
     of assets when a bankrupt company is            value (29), or at a loss at auction (161), and institutions that are in various stages
     liquidated.                                     of bankruptcy or receivership (31).15 Fifteen banks have been sold at a profit at
                                                     auction.16 Four CPP banks merged with other CPP banks.17
     Senior Subordinated Debentures:                     Figure 2.1 provides a snapshot of the cumulative expenditures, repayments,
     Debt instrument ranking below senior            and amount owed as of June 30, 2014. Taxpayers also are entitled to dividend
     debt but above equity with regard to            payments, interest, and warrants for taking on the risk of TARP investments.
     investors’ claims on company assets             According to Treasury, as of June 30, 2014, Treasury had collected $48 billion in
     or earnings.                                    interest, dividends, and other income, including $9.5 billion in proceeds from the
                                                     sale of warrants and stock received as a result of exercised warrants.18
                                                         Some TARP programs are scheduled to last as late as 2022. Other TARP
                                                     programs have no scheduled ending date; TARP money will remain invested
                                                     until recipients pay Treasury back or until Treasury sells its investments in the
                                                     companies. Table 2.3 provides details of exit dates and remaining Treasury
                                                     investments.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                               71




TABLE 2.3                                                                                                                            FIGURE 2.1
 STATUS OF CONTINUING TARP PROGRAMS                                                                                                  CURRENT TARP EXPENDITURES,
 Program                                                          Investment status as of 6/30/2014                                  REPAYMENTS, AND AMOUNT
                                                                                                                                     OWED ($ BILLIONS)
 Home Affordable Modification Program                             2022 to pay incentives on modifications
 Hardest Hit Fund                                                 2017 for states to use TARP funds                                   $500

 FHA Short Refinance Program                                      2020 for TARP-funded letter of credit
                                                                                                                                       400
                                                                                                                                                $424.5
                                                                  Remaining principal investments in 54 banks;
 Capital Purchase Program                                                                                                                                       $371.2
                                                                  warrants for stock in an additional 34 banks                         300

                                                                  Remaining principal investments in 68 banks/
 Community Development Capital Initiative                                                                                              200
                                                                  credit unions
 Automotive Industry Financing Program                            Remaining investment: 15.6% stake in Ally                            100

 Term Asset-Backed Securities Loan Facility                       2014 maturity of last loan                                                                                    $38.6
                                                                                                                                         0
 Notes: Treasury’s Ally Financial stake as of 5/14/2014.
                                                                                                                                              TARP            TARP            Amount
 Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Daily TARP Update, 7/1/2014; Treasury, response to SIGTARP data                 Expenditures    Repaymentsa     Owedb
 call, 7/8/2014; and FRBNY, response to SIGTARP data call, 7/3/2014.

                                                                                                                                      Notes: As of 6/30/2014. Numbers may not total due
                                                                                                                                      to rounding.
                                                                                                                                      a
                                                                                                                                        Repayments include $196.1 billion for CPP, $40 billion
                                                                                                                                        for TIP, $61.6 billion for Auto Programs, $18.6 billion
                                                                                                                                        for PPIP, $54.4 billion for SSFI, and $0.4 billion for
                                                                                                                                        UCSB. The $196.1 billion for CPP repayments includes

COST ESTIMATES                                                                                                                          $363.3 million in non-cash conversion from CPP to
                                                                                                                                        CDCI, which is not included in the $371.2 billion in TARP
                                                                                                                                        repayments because it is still owed to TARP from CDCI.
Several Government agencies are responsible under EESA for generating cost                                                              Additionally, $2.2 billion was refinanced into SBLF.
                                                                                                                                      b
                                                                                                                                        Amount taxpayers still owed includes amounts
estimates for TARP, including the Congressional Budget Office (“CBO”), the                                                              disbursed and still outstanding, plus $34.3 billion in
Office of Management and Budget (“OMB”), and Treasury, whose estimated costs                                                            write-offs, realized losses, and investments currently
                                                                                                                                        not collectible because of pending bankruptcies or
are audited each year by the Government Accountability Office (“GAO”). Cost                                                             receiverships. It does not include $12.8 billion in TARP
                                                                                                                                        dollars spent on housing programs. These programs
estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion                                                          are designed as Government subsidies, with no
                                                                                                                                        repayment to taxpayers expected.
loss and OMB’s August 2009 cost estimate of a $341 billion loss.19
                                                                                                                                      Sources: Treasury, Transactions Report, 6/30/2014;
     On March 4, 2014, OMB issued the Administration’s fiscal year 2015 budget,                                                       Treasury, Daily TARP Update, 7/1/2014.
which included a TARP lifetime cost estimate of $39 billion, based largely on
figures from November 30, 2013.20 This was a decrease from its estimate of $47.5
billion based on December 31, 2012, data.21 According to OMB, this decrease
came largely from a smaller projected loss on the auto program, as well as from a
technical adjustment to interest income that affects the overall Federal deficit, but
has no direct affect on TARP program costs.22 The estimate also assumes principal
repayments and revenue from dividends, warrants, interest, and fees for PPIP of
$2.4 billion and for CPP of $8.3 billion.
     On April 17, 2014, CBO issued a TARP cost estimate based on its evaluation
of data as of March 12, 2014. CBO estimated the ultimate cost of TARP would be
$27 billion, up $6 billion from its estimate of $21 billion in May 2013.23 According
to CBO, the increase is due primarily to an increase in projected mortgage program
spending, offset by a decrease in the estimated costs associated with the automotive
program. CBO estimates that TARP’s largest loss will come from the mortgage
programs. CBO estimated that only $26 billion of obligated funds for housing will
be spent.
     On December 11, 2013, Treasury issued its September 30, 2013, fiscal year
audited agency financial statements for TARP, which contained a cost estimate
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            of $40.3 billion.24 This estimate is a decrease from Treasury’s estimate of a $59.7
                                            billion loss as of September 30, 2012. According to Treasury, “These costs for the
                                            non-housing programs fluctuate in large part due to changes in the market prices
                                            of common stock for AIG and GM and the estimated value of the Ally stock.”25
                                            According to Treasury, the largest costs from TARP are expected to come from
                                            housing programs and from assistance to AIG and the automotive industry.26 This
                                            estimate assumes that all of the funds obligated for housing support programs will
                                            be spent.
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.4.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   73




TABLE 2.4
 COST (GAIN) OF TARP PROGRAMS                              ($ BILLIONS)

                                                                                                        Treasury Estimate,
                                                                                                      TARP Audited Agency
 Program Name                                   CBO Estimate                  OMB Estimate             Financial Statement
     Report issued:                                4/17/2014                     3/4/2014                          12/11/2013
     Data as of:                                   3/12/2014                   11/30/2013                           9/30/2013
 Housing Support Programs                                      $26                        $37.5                              $37.7a
 Capital Purchase Program                                      (17)                         (8.3)                             (16.1)
 Systemically Significant
                                                                 15                         17.4                                15.2
 Failing Institutions
 Targeted Investment Program
                                                                 (8)                        (7.5)                               (8.0)
 and Asset Guarantee Program
 Automotive Industry Support
                                                                 14                            20                               14.7
 Programsb
 Term Asset-Backed Securities
                                                                 (1)                        (0.5)                               (0.6)
 Loan Facility
 Public-Private Investment
                                                                 (3)                        (2.4)                               (2.7)
 Program
 Otherc                                                            *                             *                                   *
 Total                                                       $27   d
                                                                                          $56.3                              $40.3e
 Interest on Reestimatesf                                                                  (17.2)                                     
 Adjusted Total                                                                          $39.0e                                       
 Notes: Numbers may not total due to rounding.
 a
    According to Treasury, “The estimated lifetime cost for Treasury Housing Programs under TARP represent the total commitment
     except for the FHA Refinance Program, which is accounted for under credit reform. The estimated lifetime cost of the FHA Refinance
     Program represents the total estimated subsidy cost associated with total obligated amount.”
 b
     Includes AIFP, ASSP, and AWCP.
 c
     Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
 d
     The estimate is before administrative costs and interest effects.
 e
     The estimate includes interest on reestimates but excludes administrative costs.
 f
   Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
    estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

 Sources: OMB Estimate – OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014,
 www.whitehouse.gov/sites/default/files/omb/budget/fy2015/assets/spec.pdf, accessed 7/7/2014; CBO Estimate - CBO, “Report
 on the Troubled Asset Relief Program—April 2014,” www.cbo.gov/sites/default/files/cbofiles/attachments/45260-TARP.pdf,
 accessed 7/7/2014; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset Relief Program Agency Financial
 Report Fiscal Year 2013,” 12/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-
 11-13_Final.pdf, accessed 7/7/2014.
74   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP PROGRAMS
                                            TARP programs fall into four categories: housing support programs, financial
                                            institution support programs, automotive industry support programs, and asset
                                            support programs.

                                            Housing Support Programs
                                            The stated purpose of TARP’s housing support programs is to help homeowners
                                            and financial institutions that hold troubled housing-related assets. Although
                                            Treasury originally committed to use $50 billion in TARP funds for these programs,
                                            it subsequently obligated only $45.6 billion, then in March 2013, reduced its
                                            obligation to $38.5 billion.27 As of June 30, 2014, $12.8 billion (33% of obligated
                                            funds) has been expended.28 However, some of these expended funds have
                                            been used for administrative expenses by the state Housing Finance Agencies
                                            participating in the Hardest Hit Fund program or remain with them as cash on
                                            hand.

                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                               “help bring relief to responsible homeowners struggling to make their mortgage
                                               payments, while preventing neighborhoods and communities from suffering the
                                               negative spillover effects of foreclosure, such as lower housing prices, increased
                                               crime, and higher taxes.”29 MHA, for which Treasury has obligated $29.8
                                               billion of TARP funds, consists of the Home Affordable Modification Program
                                               (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which both modify
                                               first-lien mortgages to reduce payments; the Federal Housing Administration
                                               (“FHA”) HAMP loan modification option for FHA-insured mortgages
                                               (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office of Rural
                                               Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable Foreclosure
                                               Alternatives (“HAFA”) program; the Second Lien Modification Program
                                               (“2MP”); and the U.S. Department of Veterans Affairs (“VA”) HAMP (“VA
                                               HAMP”), which TARP does not fund.30 HAMP in turn encompasses various
                                               initiatives in addition to the modification of first-lien mortgages, including
                                               Home Price Decline Protection (“HPDP”), the Principal Reduction Alternative
                                               (“PRA”), and the Home Affordable Unemployment Program (“UP”).31
                                               Additionally, the overall MHA obligation of $29.8 billion includes $2.7 billion to
                                               support the Treasury/FHA Second-Lien Program (“FHA2LP”), which expired as
                                               of December 31, 2013. FHA2LP was to complement the FHA Short Refinance
                                               program (discussed later) and was intended to support the extinguishment
                                               of second-lien loans, but no second liens had been partially written down or
                                               extinguished under the program before it expired.32
                                                    As of June 30, 2014, MHA had expended $8.5 billion of TARP money
                                               (29% of $29.8 billion).33 Of that amount, $7 billion was expended on
                                               HAMP, which includes $1.3 billion expended on homeowners’ HAMP
                                               permanent modifications that later redefaulted.34 In addition, $804 million
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               75




   was expended on HAFA and $612.2 million on 2MP.35 As of June 30, 2014,
   there were 473,634 active Tier 1 and 55,318 active Tier 2 permanent first-lien
   modifications under the TARP-funded portion of HAMP, an increase of 4,344
   Tier 1 and 10,462 Tier 2 active permanent modifications over the past quarter.36
   For more information, including participation numbers for each of the MHA
   programs and subprograms, see the “Housing Support Programs” discussion in
   this section.
•	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
   purpose of this program is to provide TARP funding for “innovative measures
   to help families in the states that have been hit the hardest by the aftermath of
   the housing bubble.”37 Treasury obligated $7.6 billion for this program.38 As of
   June 30, 2014, $4.2 billion had been drawn down by the states from HHF.39
   However, as of March 31, 2014, the latest data available, only $2.8 billion had
   been spent assisting 178,797 homeowners, with the remaining $402.5 million
   funds used for administrative expenses and $651.4 million as unspent cash-on-
   hand.40,i For more information, see the “Housing Support Programs” discussion
   in this section.41
•	 FHA Short Refinance Program — Treasury has provided a TARP-funded
   letter of credit for up to $1 billion in loss protection on refinanced first liens.42
   As of June 30, 2014, there have been 4,624 refinancings under the FHA Short
   Refinance program, an increase of 386 refinancings during the past quarter.43
   For more information, see the “Housing Support Programs” discussion in this
   section.

Financial Institution Support Programs                                                                                                          Systemically Significant Institutions:
Treasury primarily invested capital directly into financial institutions including                                                              Term referring to any financial
banks, bank holding companies, and, if deemed by Treasury critical to the financial                                                             institution whose failure would impose
system, some systemically significant institutions.44                                                                                           significant losses on creditors and
                                                                                                                                                counterparties, call into question the
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                                                                              financial strength of similar institutions,
   purchased preferred stock or subordinated debentures in qualifying financial                                                                 disrupt financial markets, raise
   institutions.45 CPP was intended to provide funds to “stabilize and strengthen                                                               borrowing costs for households and
   the U.S. financial system by increasing the capital base of an array of healthy,                                                             businesses, and reduce household
   viable institutions, enabling them [to] lend to consumers and business[es].”46                                                               wealth.
   Treasury invested $204.9 billion in 707 institutions through CPP, which closed
   to new funding on December 29, 2009.47 As of June 30, 2014, 88 of those
   institutions remained in TARP; in 34 of them, Treasury holds only warrants to
   purchase stock. Treasury does not consider these 34 institutions to be in TARP,
   however Treasury applies all proceeds from the sale of warrants in these banks
   to recovery amounts in TARP’s CPP program. As of June 30, 2014, 54 of the
   88 institutions had outstanding CPP principal investments.48 Of the 707 banks

i Beginning
           this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles each type
 of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements. Additionally,
 cash-on-hand may include lien recoveries and borrower remittances. Treasury provides these reports in their response to SIGTARP’s
 data call.
76             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         that received CPP investments, 653 banks no longer have outstanding principal
                                                         investments in CPP. Nearly a quarter of the 707 banks, or 165, refinanced into
                                                         other Government programs — 28 of them into TARP’s CDCI and 137 into
                                                         SBLF, a non-TARP program.49 Only 249 of the banks, or 35% of the original
                                                         707, fully repaid CPP otherwise.50 Of the other banks that have exited CPP,
                                                         four CPP banks merged with other CPP banks, Treasury sold its investments in
                                                         29 banks for less than par and its investments in 176 banks at auction (161 of
                                                         those investments sold at a loss), and 30 institutions or their subsidiary banks
                                                         failed, meaning Treasury lost its entire investment in those banks.51 As of June
                                                         30, 2014, taxpayers were still owed $6.6 billion related to CPP. According to
                                                         Treasury, it had write-offs and realized losses of $4.9 billion in the program,
                                                         leaving $1.7 billion in TARP funds outstanding.52 According to Treasury, $196.1
                                                         billion of the CPP principal (or 96%) had been repaid as of June 30, 2014.
                                                         The repayment amount includes $363.3 million in preferred stock that was
                                                         converted from CPP investments into CDCI and therefore still represents
                                                         outstanding obligations to TARP. Additionally, $2.2 billion was refinanced in
                                                         2011 into SBLF, a non-TARP Government program.53
                                                              Treasury continues to manage its portfolio of CPP investments, including,
                                                         for certain struggling institutions, converting its preferred equity ownership into
                                                         a more junior form of equity ownership, often at a discount to par value (which
                                                         may result in a loss) in an attempt to preserve some value that might be lost if
                                                         these institutions were to fail. As of June 30, 2014, Treasury has held 25 sets of
                                                         auctions to sell all of its preferred stock investments in 176 banks, selling all but
                                                         15 investments at a discounted price resulting in a loss to Treasury.54 Treasury
                                                         lost a total of $1 billion in the auctions, including $779.3 million from discounts
                                                         on principal investments in the institutions and $228.8 million in forfeited
                                                         unpaid dividends and interest owed by the institutions.55 For more information,
                                                         see the “Capital Purchase Program” discussion in this section.
     Community Development Financial                  •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
     Institutions (“CDFIs”): Financial                   Treasury used TARP money to buy preferred stock in or subordinated debt from
     institutions eligible for Treasury funding          Community Development Financial Institutions (“CDFIs”). Treasury intended
     to serve urban and rural low-income                 for CDCI to “improve access to credit for small businesses in the country’s
     communities through the CDFI Fund.                  hardest-hit communities.”56 Under CDCI, TARP made capital investments
     CDFIs were created in 1994 by the                   in the preferred stock or subordinated debt of eligible banks, bank holding
     Riegle Community Development and                    companies, thrifts, and credit unions.57 Eighty-four institutions received $570.1
     Regulatory Improvement Act.                         million in funding under CDCI.58 However, 28 of these institutions converted
                                                         their existing CPP investment into CDCI ($363.3 million of the $570.1 million)
                                                         and 10 of those that converted received combined additional funding of $100.7
                                                         million under CDCI.59 Only $106 million of CDCI money went to institutions
                                                         that were not already TARP recipients. As of June 30, 2014, 68 institutions
                                                         remained in CDCI.60 As of June 30, 2014, one remaining CDCI institutions
                                                         had unpaid dividend or interest payments.61 For more information, see the
                                                         “Community Development Capital Initiative” discussion in this report.
                                                      •	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
                                                         enabled Treasury to invest in systemically significant institutions to prevent
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014          77




   them from failing.62 Only one firm received SSFI assistance: American
   International Group, Inc. (“AIG”).
        The Government’s rescue of AIG involved several different funding facilities
   provided by the Federal Reserve Bank of New York (“FRBNY”) and Treasury,
   with various changes to the transactions over time. Combined, Treasury and
   FRBNY committed $182 billion to bail out AIG, of which $161 billion was
   disbursed.63 That included $67.8 billion in TARP funds. Treasury’s investment
   in AIG ended on March 1, 2013.
        As reflected on Treasury’s books and records, taxpayers recouped $54.4
   billion of the $67.8 billion in TARP funds and realized losses from an
   accounting standpoint of $13.5 billion on Treasury’s sale of AIG stock.64 Due to
   a January 2011 restructuring of the FRBNY and Treasury investments, Treasury
   held common stock from both the TARP and FRBNY assistance, and, according
   to Treasury, the Government overall has made a $4.1 billion gain on the stock
   sales, and $959 million has been paid in dividends, interest, and other income.65
        On July 9, 2013, the Financial Stability Oversight Council (“FSOC”)
   announced that it had designated AIG as a systemically important nonbank
   financial company under Dodd-Frank, thereby subjecting AIG to consolidated
   supervision by the Board of Governors of the Federal Reserve System (“Federal
   Reserve”) and to enhanced prudential standards.66
        For more information, see the “Systemically Significant Failing Institutions
   Program” discussion in this section.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
   financial institutions it deemed critical to the financial system.67 There were two
   expenditures under this program, totaling $40 billion — the purchases of $20
                                                                                              Senior Preferred Stock: Shares that
   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
                                                                                              give the stockholder priority dividend
   of America Corp. (“Bank of America”).68 Treasury also accepted common stock
                                                                                              and liquidation claims over junior
   warrants from each, as required by EESA. Both banks fully repaid Treasury
                                                                                              preferred and common stockholders.
   for its TIP investments.69 Treasury auctioned its Bank of America warrants on
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.70 For
                                                                                              Illiquid Assets: Assets that cannot be
   more information on these transactions, see the “Targeted Investment Program
                                                                                              quickly converted to cash.
   and Asset Guarantee Program” discussion in this section.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
                                                                                              Trust Preferred Securities (“TRUPS”):
   insurance-like protection for a select pool of mortgage-related or similar assets
                                                                                              Securities that have both equity and
   held by participants whose portfolios of distressed or illiquid assets threatened
                                                                                              debt characteristics, created by
   market confidence.71 Treasury, the Federal Deposit Insurance Corporation
                                                                                              establishing a trust and issuing debt
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection
                                                                                              to it.
   with $301 billion in troubled Citigroup assets.72 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”), and FDIC received
   $3 billion.73 On December 23, 2009, in connection with Citigroup’s TIP
   repayment, Citigroup and the Government terminated the AGP agreement and
   the Government suffered no loss. On December 28, 2012, FDIC transferred
   $800 million of Citigroup TRUPS to Treasury, as a result of Citigroup’s
   participation in FDIC’s Temporary Liquidity Guarantee Program having closed
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               without a loss.74 Treasury converted the TRUPS it received from FDIC into
                                               Citigroup subordinated notes and subsequently sold them for $894 million.75
                                               For more information, see the “Targeted Investment Program and Asset
                                               Guarantee Program” discussion in this section.

                                            Automotive Industry Support Programs
                                            TARP’s automotive industry support through the Automotive Industry Financing
                                            Program (“AIFP”) aimed to “prevent a significant disruption of the American
                                            automotive industry, which would pose a systemic risk to financial market stability
                                            and have a negative effect on the economy of the United States.”76 As of June
                                            30, 2014, Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc., remains
                                            the only auto-related company whose stock is owned by Treasury. As of June 30,
                                            2014, taxpayers are owed $4.1 billion for TARP’s investment in Ally Financial. In
                                            return for its investment, as of June 30, 2014, Treasury held approximately 15.6%
                                            of Ally Financial’s common stock, following its sale of 95 million shares as part of
                                            Ally’s IPO. Prior to the IPO, on January 23, 2014, Treasury sold 410,000 shares of
                                            Ally Financial common stock for approximately $3 billion in a private placement,
                                            after which it owned 37% of the company’s stock.77 Treasury sold its last shares in
                                            General Motors Company (“GM”) on December 9, 2013. Separately, on March 20,
                                            2014, Treasury wrote off an $826 million administrative claim in the company’s
                                            2009 bankruptcy, ending all taxpayer involvement with GM.78
                                                 As of June 30, 2014, taxpayers have lost $11.2 billion on the principal
                                            TARP investment in GM. Taxpayers had also lost $1.8 billion on the sale of Ally
                                            Financial’s common stock, as well as $2.9 billion on the principal TARP investment
                                            in Chrysler Holding LLC (“Chrysler”). Chrysler Financial Services Americas LLC
                                            (“Chrysler Financial”) fully repaid its TARP investment.79
                                                 Through AIFP, Treasury made emergency loans to Chrysler, Chrysler Financial,
                                            and GM. Additionally, Treasury bought senior preferred stock from Ally Financial
                                            and assisted Chrysler and GM during their bankruptcy restructurings. As of June
                                            30, 2014, $79.7 billion had been disbursed through AIFP and its subprograms,
                                            and Treasury had received $61.6 billion in principal repayments, preferred stock
                                            redemption proceeds, and stock sale proceeds. As of June 30, 2014, Treasury had
                                            received approximately $38.9 billion related to its GM investment, $13.2 billion
                                            related to its Ally Financial/GMAC investment, $8 billion related to its Chrysler
                                            investment, and $1.5 billion related to its Chrysler Financial investment.80 As of
                                            June 30, 2014, Treasury had also received approximately $5.6 billion in dividends
                                            and interest under AIFP and its two subprograms, ASSP and AWCP.81
                                                 In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
                                            billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
                                            in preferred stock and a 61% common equity stake.82 Through a series of stock
                                            sales, Treasury has divested its preferred stock and all of its common stock as of
                                            December 9, 2013. Because the common stock sales all took place below Treasury’s
                                            break-even price, Treasury has booked a loss of $10.3 billion on the sales as of June
                                            30, 2014.83
                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             79




     Treasury invested a total of $17.2 billion in Ally Financial, and $4 billion of that
remained outstanding as of June 30, 2014. On December 30, 2010, Treasury’s
investment was restructured to provide for a 74% common equity stake, $2.7
billion in TRUPS (including amounts received in warrants that were immediately
converted into additional securities), and $5.9 billion in mandatorily convertible
preferred shares (“MCP”).84 Treasury sold the $2.7 billion in TRUPS on March 2,
2011, resulting in a $2.5 billion principal repayment to Treasury.85 On November
20, 2013, Ally paid Treasury $5.2 billion to repurchase the $5.9 billion par value
of MCP, plus a payment of $725 million to terminate the share adjustment right
(reducing Treasury’s ownership stake from 74% to 63%).86 The November 20,
2013 repurchase represented a $5.6 billion repayment of principal, bringing total
Ally principal repayments to $8.2 billion.87 Treasury’s sale of 410,000 shares of
Ally common stock on January 23, 2014, for approximately $3 billion, brings the
repayment to $10.7 billion.88 In addition, Treasury’s share sales in the April 10,
2014, IPO are reported at $2.4 billion.89
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
of which $2.1 billion was never drawn down.90 On July 21, 2011, Treasury sold to
Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.91
Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
an agreement with the United Auto Workers (“UAW”) retiree trust. Treasury’s
books reflect a $2.9 billion loss to taxpayers on their principal investment in
Chrysler.92 In addition, Treasury provided a $1.5 billion loan to Chrysler Financial,
which was fully repaid with interest in July 2009.93
     For more information, see the “Automotive Industry Support Programs”
discussion in this section.
     AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — On March 19, 2009, Treasury
   committed $5 billion to ASSP to “help stabilize the automotive supply base and
   restore credit flows” with loans to GM ($290 million) and Chrysler ($123.1
   million) that were fully repaid in April 2010.94
•	 Auto Warranty Commitment Program (“AWCP”) — This program
   guaranteed Chrysler and GM vehicle warranties during the companies’
   bankruptcy with Treasury obligating $640.8 million —$360.6 million for GM
   and $280.1 million for Chrysler — both fully repaid to Treasury.95

Asset Support Programs
The stated purpose of these programs was to support the liquidity and market value               Asset-Backed Securities (“ABS”): Bonds
of assets owned by financial institutions to free capital so that these firms could              backed by a portfolio of consumer
extend more credit to support the economy. These assets included various classes                 or corporate loans (e.g., credit card,
of asset-backed securities (“ABS”) and several types of loans.                                   auto, or small-business loans). Financial
                                                                                                 companies typically issue ABS backed
•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was                                by existing loans in order to fund new
   originally designed to increase credit availability for consumers and small                   loans for their customers.
   businesses through a $200 billion Federal Reserve loan program. TALF provided
80             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         investors with non-recourse loans secured by certain types of ABS, including
     Servicing Advances: If borrowers’                   credit card receivables, auto loans, equipment loans, student loans, floor
     payments are not made promptly                      plan loans, insurance-premium finance loans, loans guaranteed by the Small
     and in full, mortgage servicers are                 Business Administration (“SBA”), residential mortgage servicing advances, and
     contractually obligated to advance the              commercial mortgage-backed securities (“CMBS”).96 TALF closed to new loans
     required monthly payment amount in                  in June 2010.97 TALF ultimately provided $71.1 billion in Federal Reserve
     full to the investor. Once a borrower               financing — $59 billion with non-mortgage related ABS as collateral and $12.1
     becomes current or the property is                  billion with CMBS as collateral.98 Of that amount, $49.5 million remained
     sold or acquired through foreclosure,               outstanding as of June 30, 2014.99 As of early 2013, the TALF program collected
     the servicer is repaid all advanced                 fees totaling more than the amount of loans still outstanding.100 As of June 30,
     funds.                                              2014, there had been no surrender of collateral related to these loans.101 For
                                                         more information, see the “TALF” discussion in this section.
     Commercial Mortgage-Backed                       •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
     Securities (“CMBS”): Bonds backed by                credit markets by using a combination of private equity, matching Government
     one or more mortgages on commercial                 equity, and Government debt to purchase legacy securities, i.e., CMBS and
     real estate (e.g., office buildings, rental         non-agency residential mortgage-backed securities (“non-agency RMBS”).102
     apartments, hotels).                                Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
                                                         by private asset managers invested in non-agency RMBS and CMBS. Treasury
     Legacy Securities: Real estate-related              originally obligated $22.4 billion in TARP funds to the program and reduced the
     securities originally issued before                 amount over time to $18.8 billion as of June 30, 2014. Together, all nine PPIFs
     2009 that remained on the balance                   drew down $18.6 billion in debt and equity financing from Treasury funding
     sheets of financial institutions because            out of the total obligation, and repaid all of it.103 As of June 30, 2014, the entire
     of pricing difficulties that resulted from          PPIP portfolio had been liquidated, and seven PPIP funds were legally dissolved
     market disruption.                                  while the other one was winding down operations.104 For more information, see
                                                         the “Public-Private Investment Program” discussion in this section.
     Non-Agency Residential Mortgage-                 •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
     Backed Securities (“non-agency                      Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
     RMBS”): Financial instrument backed                 officials announced that Treasury would buy up to $15 billion in securities
     by a group of residential real estate               backed by SBA loans under UCSB.105 Treasury obligated a total of $400 million
     mortgages (i.e., home mortgages for                 for UCSB and made purchases of $368.1 million in 31 securities under the
     residences with up to four dwelling                 program. Treasury sold the last of its UCSB securities on January 24, 2012,
     units) not guaranteed or owned by                   ending the program with a net investment gain of about $9 million.106 For more
     a Government-sponsored enterprise                   information, see the “Unlocking Credit for Small Businesses/Small Business
     (“GSE”) or a Government agency.                     Administration Loan Support” discussion in this section.
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             81




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella
program for the Administration’s homeowner assistance and foreclosure prevention            Government-Sponsored Enterprises
efforts.107 MHA initially consisted of the Home Affordable Modification Program             (“GSEs”): Private corporations created
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                 and chartered by the Government to
mortgage servicers to modify eligible first-lien mortgages, and two initiatives at          reduce borrowing costs and provide
the Government-sponsored enterprises (“GSEs”) that use non-TARP funds.108                   liquidity in the market, the liabilities
HAMP was originally intended “to help as many as three to four million financially          of which are not officially considered
struggling homeowners avoid foreclosure by modifying loans to a level that is               direct taxpayer obligations. On
affordable for borrowers now and sustainable over the long term.”109 On June 1,             September 7, 2008, the two largest
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted              GSEs, the Federal National Mortgage
through the launch of HAMP Tier 2; however, Treasury has not estimated the                  Association (“Fannie Mae”) and
number of homeowners that HAMP Tier 2 is intended to assist.110 On June 13,                 the Federal Home Loan Mortgage
2013, Treasury generally extended MHA programs for an additional two years,                 Corporation (“Freddie Mac”), were
from December 31, 2013, to December 31, 2015.111 On June 26, 2014 it further                placed into Federal conservatorship.
extended MHA programs for another year, through December 31, 2016.112                       They are currently being financially
    Treasury over time expanded MHA to include sub-programs. Treasury also                  supported by the Government.
allocated TARP funds to support two additional housing support efforts: TARP
funding for 19 state housing finance agencies, called the Housing Finance                   Loan Servicers: Companies that
Agency Hardest Hit Fund (“Hardest Hit Fund” or “HHF”) and a Federal Housing                 perform administrative tasks on
Administration (“FHA”) refinancing program. The HHF program is scheduled                    monthly mortgage payments until the
to expire on December 31, 2017. The FHA refinancing program, known as FHA                   loan is repaid. These tasks include
Short Refinance, is scheduled to expire on December 31, 2014.113                            billing, tracking, and collecting monthly
    Not all housing support programs are funded, or completely funded, by TARP.             payments; maintaining records of
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be               payments and balances; allocating
funded by TARP, with the remainder funded by the GSEs.114 Although Treasury                 and distributing payment collections
originally committed to use $50 billion in TARP funds for these programs,                   to investors in accordance with
it subsequently obligated only $45.6 billion, and in March 2013, reduced its                each mortgage loan’s governing
obligation to $38.5 billion, which includes $29.8 billion for MHA incentive                 documentation; following up
payments, $7.6 billion for the Hardest Hit Fund, and $1 billion for FHA Short               on delinquencies; and initiating
Refinance.115                                                                               foreclosures.
    Housing support programs include the following initiatives:
                                                                                            Investors: Owners of mortgage loans
•	 Home Affordable Modification Program (“HAMP” or “HAMP Tier 1”)                           or bonds backed by mortgage loans
   — HAMP is intended to use incentive payments to encourage loan servicers                 who receive interest and principal
   (“servicers”) and investors to modify eligible first-lien mortgages so that the          payments from monthly mortgage
   monthly payments of homeowners who are currently in default or generally at              payments. Servicers manage the
   imminent risk of default will be reduced to affordable and sustainable levels.116        cash flow from homeowners’ monthly
   Incentive payments for modifications to loans owned or guaranteed by the GSEs            payments and distribute them to
   are paid by the GSEs, not TARP.117 As of June 30, 2014, there were 903,231               investors according to Pooling and
   active permanent HAMP Tier 1 modifications, 473,634 of which were under                  Servicing Agreements (“PSAs”).
   TARP, with the remainder under the GSE portion of the program.118 While
   HAMP generally refers to the first-lien mortgage modification program, it also
   includes the following subprograms:
82            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                              the use of principal reduction in modifications for eligible homeowners
                                                              whose homes are worth significantly less than the remaining outstanding
                                                              balances of their first-lien mortgage loans. It provides TARP-funded
                                                              incentives to offset a portion of the principal reduction provided by the
                                                              investor.119 As of June 30, 2014, there were 126,790 (Tier 1 and Tier 2)
                                                              active permanent modifications through PRA.120
                                                          çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
                                                              encourage additional investor participation and HAMP modifications in
                                                              areas with recent price declines by providing TARP-funded incentives to
                                                              offset potential losses in home values.121 As of June 30, 2014, 217,747
                                                              (Tier 1 and Tier 2) loan modifications had been started under HPDP, and
                                                              147,643 remained active.122
                                                          çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                              offer assistance to unemployed homeowners through temporary forbearance
                                                              of all or a portion of their payments.123 As of May 31, 2014, which according
                                                              to Treasury is the most recent data available, 5,226 homeowners were
                                                              actively participating in UP.124
                                                     •	   Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                          Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
                                                          occupied “rental” properties, and to allow homeowners with a wider range of
                                                          debt-to-income ratios to receive modifications.125 As of June 30, 2014, 61,335
                                                          HAMP Tier 2 modifications had become permanent, of which 55,318 remained
                                                          active.126 Of Tier 2 permanent modifications started, 9,072 were previously
                                                          HAMP Tier 1 permanent modifications of which 7,601 remained active.
     Short Sale: Sale of a home for less             •	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     than the unpaid mortgage balance. A                  to provide incentives to servicers, investors, and homeowners to pursue short
     homeowner sells the home and the                     sales and deeds-in-lieu of foreclosure for homeowners in cases in which the
     investor accepts the proceeds as full                homeowner is unable or unwilling to enter or sustain a modification. Under
     or partial satisfaction of the unpaid                this program, the servicer releases the lien against the property and the investor
     mortgage balance, thus avoiding the                  waives all rights to seek a deficiency judgment against a homeowner who uses a
     foreclosure process.                                 short sale or deed-in-lieu when the property is worth less than the outstanding
                                                          amount of the mortgage.127 As of June 30, 2014, there were 160,950 short sales
     Deed-in-Lieu of Foreclosure: Instead                 or deeds-in-lieu under HAFA.128
     of going through foreclosure, the               •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     homeowner voluntarily surrenders the                 second-lien mortgages when a corresponding first lien is modified under HAMP
     deed to the home to the investor, as                 by a participating servicer.129 As of June 30, 2014, 16 servicers are participating
     satisfaction of the unpaid mortgage                  in 2MP.130 These servicers represent approximately 55–60% of the second-lien
     balance.                                             servicing market.131 As of June 30, 2014, there were 83,185 active permanently
                                                          modified second liens in 2MP.132
                                                     •	   Agency-Insured Programs — These programs are similar in structure to
                                                          HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
                                                          by the Department of Agriculture’s Office of Rural Development (“RD”) and
                                                          the Department of Veterans Affairs (“VA”).133 Treasury provides TARP-funded
                                                          incentives to encourage modifications under the FHA and RD modification
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014          83




   programs, but not for the VA modification program. As of June 30, 2014,
   there were 140 RD-HAMP active permanent modifications, 33,634 FHA-
   HAMP active permanent modifications, and 368 VA-HAMP active permanent
   modifications.134
•	 Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
   uses TARP funds to provide incentives to servicers and investors who agree to
   principal reduction or extinguishment of second liens associated with an FHA
   refinance.135 According to Treasury, as of December 31, 2013, the program had
   expired and no second liens had been partially written down or extinguished
   under the program.136
•	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
   program, HHF is intended to fund foreclosure prevention programs run by state
   housing finance agencies in states hit hardest by the decrease in home prices
   and in states with high unemployment rates. Eighteen states and Washington,
   DC, received approval for aid through the program.137 As of March 31, 2014,
   the latest data available, 178,797 homeowners had received assistance under
                                                                                            Underwater Mortgage: Mortgage loan
   HHF.138
                                                                                            on which a homeowner owes more
•	 FHA Short Refinance Program — This program, which is partially supported
                                                                                            than the home is worth, typically as
   by TARP funds, is intended to provide homeowners who are current on their
                                                                                            a result of a decline in the home’s
   mortgage an opportunity to refinance existing underwater mortgage loans that
                                                                                            value. Underwater mortgages also are
   are not currently insured by FHA into FHA-insured mortgages with lower
                                                                                            referred to as having negative equity.
   principal balances. Treasury has provided a TARP-funded letter of credit for up
   to $1 billion in loss coverage on these newly originated FHA loans.139 As of June
   30, 2014, 4,624 loans had been refinanced under FHA Short Refinance.140

Status of TARP Funds Obligated to Housing Support
Programs
Treasury initially obligated $45.6 billion to housing support programs, which
was reduced to $38.5 billion, of which $12.8 billion, or 33%, has been expended
as of June 30, 2014.141 Of that, $1.1 billion was expended in the quarter ended
June 30, 2014. However, some of the expended funds remain as cash-on-hand
or paid for administrative expenses at state housing finance agencies (“HFAs”)
participating in the Hardest Hit Fund program. Treasury has capped the aggregate
amount available to pay servicer, homeowner, and investor incentives under MHA
programs at $29.8 billion, of which $8.5 billion (29%), has been spent as of June
30, 2014.142 Treasury allocated $7.6 billion to the Hardest Hit Fund. As of June 30,
2014, of the $7.6 billion in TARP funds available for HHF, states had drawn down
$4.2 billion.143 As of March 31, 2014, the latest date for which spending analysis
is available, the states had drawn down $3.8 billion.144 As of March 31, 2014,
states had spent $2.8 billion (36%) of those funds to assist 178,797 homeowners,
spent $402.5 million (5%) for administrative expenses, and held $651.4 million
84   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            (9%) as unspent cash-on-hand.145,i,ii Treasury originally allocated $8.1 billion for
                                            FHA Short Refinance, but deobligated $7.1 billion in March 2013.146 Of the $1
                                            billion currently allocated for FHA Short Refinance, $59.5 million has been spent,
                                            which includes $50 million held in a pre-funded reserve account to pay future
                                            claims, $9.5 million spent on administrative expenses, and $47,840 spent on one
                                            refinanced mortgage that later redefaulted.147
                                                 Table 2.5 shows the breakdown in expenditures and estimated funding
                                            allocations for these housing support programs. Figure 2.2 also shows these
                                            expenditures, as a percentage of allocations.

                                            TABLE 2.5
                                             TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
                                             AS OF 6/30/2014 ($ BILLIONS)
                                                                                                                        ALLOCATIONS                            EXPENDITURES
                                             MHA
                                                  HAMPa
                                                       First Lien Modification                                          $19.1                                       $5.8
                                                       PRA Modification                                                    2.0                                        0.8
                                                       HPDP                                                                1.6                                        0.4
                                                       UP                                                                    —   b
                                                                                                                                                                        —
                                                                                 HAMP Total                            $22.7                                       $7.0
                                                  HAFA                                                                     4.2                                        0.8
                                                  2MP                                                                      0.1                                        0.6
                                                  Treasury FHA-HAMP                                                        0.2                                          —c
                                                  RD-HAMP                                                                    —d                                         —d
                                                  FHA2LP                                                                   2.7                                          —
                                                                                   MHA Total                                         $29.8                                    $8.5
                                             HHF (Drawdown by States)                e
                                                                                                                                      $7.6                                    $4.2
                                             FHA Short Refinance                                                                      $1.0  f
                                                                                                                                                                              $0.1
                                                                                   Total                                             $38.5                                   $12.8
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                               Includes HAMP Tier 1 and HAMP Tier 2.
                                             b
                                                Treasury does not allocate TARP funds to UP.
                                             c
                                               Treasury has expended $.07 billion for the Treasury FHA-HAMP program.
                                             d
                                                Treasury has allocated $0.02 billion to the RD-HAMP program. As of June 30, 2014, $201,862 has been expended for RD-HAMP.
                                             e
                                               Not all of the funds drawn down by states have been used to assist homeowners. As of March 31, 2014, HFAs had drawn down
                                                approximately $3.8 billion, and, according to the latest data available, only $2.8 billion (36%) of TARP funds allocated for HHF have
                                                gone to help 178,797 homeowners.
                                             f
                                               This amount includes up to $25 million in fees Treasury will incur for the availability and usage of the $1 billion letter of credit.

                                             Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, and 7/8/2014; Treasury, Transactions Report-Housing Programs,
                                             6/26/2014; Treasury, Daily TARP Update 7/1/2014.




                                            i According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                              HHF programs that are anticipated to be disbursed over the duration of their participation; HFAs [states] vary as to when and how
                                              they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                              assistance, cash-on-hand, or undrawn funds.
                                            ii Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles each type
                                                of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements. Additionally,
                                                cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   85




FIGURE 2.2

                        TARP HOUSING SUPPORT FUNDS ALLOCATED AND SPENT,
                        AS OF 6/30/2014 ($ BILLIONS)
              HAMP                                                                                                 31% spent
        $22.7 billion                                                                                              ($7.0 billion)

   Hardest Hit Fund                                        55% spenta
        $7.6 billion                                       ($4.2 billion)

              HAFA                            19% spent
         $4.2 billion                         ($0.8 billion)
                                                                                                     Funds Allocated
            FHA2LP                                                                                   Funds Spent
                                      None spent
         $2.7 billion

FHA Short Refinance            6% spent
          $1 billion           ($0.1 billion)

Treasury FHA–HAMP           34% spent
         $0.2 billion       ($0.07 billion)

                        0                  $5                    $10             $15                 $20                 $25
                                          billion               billion         billion             billion             billion

                        Notes: Numbers may not total due to rounding. HAMP includes HAMP Tier 1, HAMP Tier 2, HPDP, and PRA.
                        TARP funds are not used to support the UP program, which provides forbearance of a portion of the
                        homeowner’s mortgage payment. RD-HAMP expenditures equal $201,862 as of June 30, 2014. Treasury
                        has allocated $0.1 billion for the 2MP program. As of June 30, 2014, $0.6 billion has been expended for
                        2MP. As of December 31, 2013, the FHA2LP program had expired.
                        a
                          In this figure, Hardest Hit Funds “spent” represents the amount of funds states had drawn down as of
                          June 30, 2014. Treasury requires states to return any HHF funds drawn down but unspent after
                          December 31, 2017. According to Treasury, committed program funds are funds committed to
                          homeowners who have been approved to participate in HHF programs that are anticipated to be disbursed
                          over the duration of their participation; states vary as to when and how they capture and report
                          funds as committed. HHF funds committed for homeowner assistance are recorded variously as
                          homeowner assistance, cash-on-hand, or undrawn funds.

                        Sources: Treasury, response to SIGTARP data call, 7/8/2014.



     As of June 30, 2014, Treasury had active agreements with 84 servicers.148 That
compares with 145 servicers that had agreed to participate in MHA as of October
3, 2010.149 According to Treasury, of the $29.8 billion obligated to participating
servicers under their Servicer Participation Agreements (“SPAs”), as of June 30,
2014, only $8.5 billion (29%) has been spent, broken down as follows: $7.0 billion
had been spent on completing permanent modifications of first liens, including
HAMP Tier 1, HAMP Tier 2, PRA, and HPDP, (528,952 of which remain active);
$612.2 million had been spent under 2MP; and $804 million had been spent on
incentives for short sales or deeds-in-lieu of foreclosure under HAFA.150 Of the
combined amount of incentive payments, according to Treasury, approximately $4.5
billion went to pay investor or lender incentives, $2.4 billion went to pay servicer
incentives, and $1.7 billion went to pay homeowner incentives.151 As of June 30,
2014, of the $7.6 billion in TARP funds available for HHF, states had drawn down
$4.2 billion.152 As of March 31, 2014, states had drawn down $3.8 billion and,
according to the latest data available, had spent $2.8 billion (36%) of those funds to
assist 178,797 homeowners, spent $402.5 million (5%) for administrative expenses,
86   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            and held $651.4 million (9%) as unspent cash-on-hand.153,iii There remains $3.8
                                            billion in HHF in undrawn funds. The remaining $1 billion of TARP housing funds
                                            has been obligated under FHA Short Refinance to purchase a letter of credit to
                                            provide up to $1 billion in first loss coverage and to pay $25 million in fees for the
                                            letter of credit.154 According to Treasury, it has paid only one claim for one default
                                            on the 4,624 loans refinanced under FHA Short Refinance. However, Treasury
                                            has pre-funded a reserve account with $50 million to pay future claims and has
                                            spent $9.5 million on administrative expenses.155 Table 2.6 shows the breakdown of
                                            TARP-funded expenditures related to housing support programs (not including the
                                            GSE-funded portion of HAMP).




                                            iii B
                                                 eginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which
                                             reconciles each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on
                                             actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   87




TABLE 2.6
 BREAKDOWN OF TARP EXPENDITURES, AS OF 6/30/2014 ($ MILLIONS)
 MHA                                                                             TARP Expenditures
     HAMP
          HAMP First Lien Modification Incentives
               Servicer Incentive Payment                                            $692.6
               Servicer Current Borrower Incentive Payment                            $16.8
               Annual Servicer Incentive Payment                                  $1,210.3
               Investor Current Borrower Incentive Payment                            $69.5
               Investor Monthly Reduction Cost Share                              $2,527.9
               Annual Borrower Incentive Payment                                  $1,233.1
               Tier 2 Incentive Payments                                              $99.0
          HAMP First Lien Modification Incentives Total                                     $5,849.2
          PRA                                                                                  $832.5
          HPDP                                                                                 $362.7
          UP                                                                                          $—a
          HAMP Program Incentives Total                                                                     $7,044.4
     HAFA Incentives
          Servicer Incentive Payment                                                                      $236.5
          Investor Reimbursement                                                                          $174.3
          Borrower Relocation                                                                             $393.3
     HAFA Incentives Total                                                                                     $804.0
     Second-Lien Modification Program Incentives
          2MP Servicer Incentive Payment                                                                    $66.4
          2MP Annual Servicer Incentive Payment                                                             $37.3
          2MP Annual Borrower Incentive Payment                                                             $34.5
          2MP Investor Cost Share                                                                         $188.2
          2MP Investor Incentive                                                                          $285.8
     Second-Lien Modification Program Incentives Total                                                         $612.2
     Treasury/FHA-HAMP Incentives
               Annual Servicer Incentive Payment                                                            $35.3
               Annual Borrower Incentive Payment                                                            $33.2
     Treasury/FHA-HAMP Incentives Total                                                                          $68.6
     RD-HAMP                                                                                                           $—b
     FHA2LP                                                                                                            $—
 MHA Incentives Total                                                                                            $8,529.4
 HHF Disbursements (Drawdowns by State HFAs)                                                                     $4,180.7
 FHA Short Refinance (Loss-Coverage)                                                                                  $59.5
 Total Expenditures                                                                                             $12,769.6
 Notes: Numbers may not total due to rounding.
 a
   TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
    payment.
 b
    RD-HAMP expenditures equal $201,862 as of June 30, 2014.

 Sources: Treasury, response to SIGTARP data call, 7/8/2014.
88             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                            HAMP
                                                            According to Treasury, HAMP was intended “to help as many as three to four
                                                            million financially struggling homeowners avoid foreclosure by modifying loans to
                                                            a level that is affordable for borrowers now and sustainable over the long term.”156
                                                            Although HAMP contains several subprograms, the term “HAMP” is most often
                                                            used to refer to the HAMP First-Lien Modification Program, described below.

                                                            HAMP First-Lien Modification Program
                                                            The HAMP First-Lien Modification Program, which went into effect on April
     Trial Modification: Under HAMP, a                      6, 2009, modifies the terms of first-lien mortgages to provide homeowners with
     period of at least three months in                     lower monthly payments. A HAMP modification consists of two phases: a trial
     which a homeowner is given a chance                    modification that was designed to last three months, followed by a permanent
     to establish that he or she can make                   modification. Treasury pays incentives for active TARP (non-GSE) HAMP
     lower monthly mortgage payments and                    permanent modifications for five years.157 In designing HAMP, the Administration
     qualify for a permanent modification.                  envisioned a “shared partnership” between the Government and investors to bring
                                                            distressed homeowners’ first lien monthly payments down to an “affordable and
                                                            sustainable” level.158 The program description immediately below refers only to the
     For additional information about                       original HAMP program, which was renamed “HAMP Tier 1,” after the launch of
     what happens to HAMP permanent                         HAMP Tier 2.
     modifications after five years, please see
     the discussion, “Payment Increases on                  HAMP Modification Statistics
     HAMP-Modified Mortgages to Begin in                    As of June 30, 2014, a total of 903,231 mortgages were in active HAMP Tier
     2014,” in this section.
                                                            1 (“HAMP”) permanent modifications under both TARP (non-GSE) and GSE
                                                            HAMP. Some 27,191 were in active trial modifications. As of June 30, 2014, for
                                                            homeowners receiving permanent modifications, 94.8% received an interest rate
                                                            reduction, 64.6% received a term extension, 34.3% received principal forbearance,
                                                            and 17.2% received principal forgiveness.159 Table 2.7 shows HAMP modification
                                                            activity, broken out by TARP and GSE loans. For more detail on redefaulted
                                                            modifications over the life of HAMP, see Table 2.10 and Figure 2.4. For more
                                                            detail on HAMP modification activity, broken out by TARP and GSE loans, see
                                                            Table F.1 in Appendix F.
                                        TABLE 2.7
                                         CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY BY TARP/GSE, AS OF 6/30/2014
                                                                                                                   Trials
                                                           Trials           Trials              Trials      Converted to          Permanents          Permanents       Permanents
                                                         Started        Cancelled              Active        Permanent            Redefaulted            Paid Off          Active
                                         TARP        1,069,245            352,333             18,107               698,805             217,098                 8,073      473,634
                                         GSE         1,065,696            429,431               9,084              627,181             175,403                22,181      429,597
                                         Total      2,134,941             781,764            27,191            1,325,986              392,501                 30,254     903,231
                                         Sources: Treasury, response to SIGTARP data call, 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   89




     During the most recent quarter 18,672 homeowners started new trials and
  21,771 homeowners were able to convert their trials to permanent modifications.
  As 15,697 homeowners re-defaulted in HAMP and another 3,810 paid off their
  modified loan, the number of active HAMP permanent modifications increased
  by only 2,264.160
     As shown in Figure 2.3, which shows TARP and GSE HAMP permanent
  modifications started, by quarter, the number of new HAMP modifications
  continues to decline quarter over quarter.

FIGURE 2.3

HAMP TIER 1 PERMANENT MODIFICATIONS STARTED, BY QUARTER, 2009-2014
180,000

160,000

140,000

120,000

100,000
                                                                                               21,771 HAMP permanent
 80,000                                                                                        modifications were started in
                                                                                               the quarter ended 6/30/2014.
 60,000

 40,000

 20,000

     0
           Q1   Q2    Q3   Q4   Q1    Q2   Q3   Q4   Q1    Q2    Q3   Q4   Q1   Q2   Q3   Q4    Q1    Q2   Q3   Q4   Q1    Q2
                  2009                 2010                 2011                 2012                  2013            2014

          Note: Includes TARP and GSE permanent modifications.

          Sources: Treasury, “Making Home Affordable Program Performance Report,” 1/19/2010, 4/20/2010, 7/19/2010,
          10/25/2010, 1/31/2011, 5/6/2011, 8/5/2011, 11/3/2011, 2/6/2012, 5/4/2012, 8/3/2012, 11/9/2012, 2/8/2013,
          5/10/2013, 8/9/2013, and 11/8/2013; Treasury, responses to SIGTARP data calls, 2/28/2013, 1/23/2014,
          1/24/2014, and 7/24/2014; Fannie Mae, responses to SIGTARP data calls, 1/23/2014, 4/24/2014, and 7/24/2014.


   During this quarter there were 5,172 fewer loans modified under HAMP than
the previous quarter and 145,449 fewer than the second quarter of 2010, the
quarter when the most HAMP permanent modifications were started.161

Payment Increases on HAMP–Modified Mortgages to Begin in 2014
Most homeowners who received HAMP permanent mortgage modifications saw
the interest rates on their loans cut in order to reduce their monthly payments and
make their mortgages more affordable and sustainable over the long term.162 Those
that received modifications in 2009 will see their interest rates rise and monthly
mortgage payments go up this year, and continue to increase for up to another
three years. Some homeowners may eventually see their monthly payment increase
by as much as $1,724 per month.163
    Homeowners that received HAMP permanent mortgage modifications had
their monthly mortgage payments reduced to 31% of their gross monthly income
through a series of steps including extending the term of the mortgage, reducing
the principal owed, or cutting the interest rate to as low as 2%.164 The terms of
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            HAMP permanent modifications remain fixed for five years.165 However, after five
                                            years, a homeowner’s mortgage interest rate can increase if the modified interest
                                            rate had been reduced below where the national average rate was for a 30-year
                                            conforming fixed-rate mortgage on the date of the modification.166 The average
                                            interest rate over the last five years has generally been between 3.5% and 5.4%,
                                            and most modifications cut rates well below that benchmark.167 After five years, the
                                            interest rate on the modified loan can step up incrementally by up to 1% per year
                                            until it reaches that benchmark.168
                                                Table 2.8 shows before-modification, after-modification, and after all
                                            modification increases, median interest rates, interest rate increases, payments, and
                                            payment increases for homeowners who face interest rate and payment increases
                                            on HAMP mortgage modifications, by year. For more detail, see Table F.2 in
                                            Appendix F.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 30, 2014       91




TABLE 2.8
 HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES BY YEAR, AS OF
 5/31/2014
                                                Permanent                                                      Interest Ratea                    Monthly Paymenta
                                               Modifications
                                                        with
                         Total Active            Scheduled
   Year                   Permanent                Payment                                                                      Median                              Median
  Modified              Modifications             Increases               Modification Status                Median           Increase            Median          Increase
                                                                             Before Modification               6.50%                   —          $1,437               $—
    2009                         33,754                 31,510                 After Modification              2.00%                   —               768              —
                                                                              After All Increases             4.94%              2.78%             1,029               244
                                                                             Before Modification               6.50%                   —            1,451               —
    2010                        305,662                283,948                 After Modification              2.00%                  -—               787              —
                                                                              After All Increases             4.98%              2.58%             1,042               238
                                                                             Before Modification               6.38%                   —            1,437               —
    2011                        234,673                208,247                 After Modification              2.00%                   —               807              —
                                                                              After All Increases             4.60%              2.36%             1,041               218
                                                                             Before Modification               6.25%                   —            1,422               —
    2012                        156,839                126,706                 After Modification              2.00%                   —               746              —
                                                                              After All Increases             3.66%              1.59%                897              140
                                                                             Before Modification               6.05%                   —            1,351               —
    2013                        130,087                107,027                 After Modification              2.00%                   —               715              —
                                                                              After All Increases             3.81%              1.57%                878              148
                                                                             Before Modification               6.12%                                1,283                 
    2014                         41,698                 35,594                 After Modification              2.00%                                   710                
                                                                              After All Increases             4.37%              2.32%                905              181
                                                                             Before Modification               6.38%                                1,420               —
  All Years                     902,713                793,032                 After Modification              2.00%                                   771              —
                                                                              After All Increases             4.51%              2.23%                988              197
 Notes:
 a
   Analysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 69,575 HAMP permanent modifications with incomplete records.

 Source: SIGTARP analysis of Treasury HAMP data.
92   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As shown in Table 2.8, 793,032 of the 902,713 (88%) homeowners who had
                                            active HAMP Tier 1 permanent modifications as of May 31, 2014 are scheduled
                                            for these eventual interest rate and payment increases.169 That means just
                                            109,681 homeowners, or 12%, will not experience payment increases.170 Among
                                            homeowners scheduled to have mortgage interest rate and payment increases, the
                                            median interest rate for these loans was 6.38% before modification; the median
                                            monthly payment was $1,420.171 HAMP permanent modifications reduced the
                                            median interest rate for these homeowners’ loans to 2% and their median monthly
                                            payment to $771.172 The scheduled payment increases will cause their median
                                            interest rate to rise to 4.51% and their median payment to increase to $988.173
                                            Their median rate increase will be 2.23% and their median payment increase will
                                            be $197.174 Some homeowners could eventually see their mortgage interest rates
                                            increase to as much as 5.4%; for some, payments eventually could increase by
                                            $1,724 per month; and after all payment increases, the highest mortgage payment
                                            any homeowner would pay per month would be $8,265.86.175 (SIGTARP’s rate
                                            and payment analysis excludes 69,575 HAMP permanent modifications that are
                                            scheduled to adjust but for which records are incomplete.)

                                            Homeowners in All States Will Be Affected by Payment Increases
                                            Table 2.9 shows, as of May 31, 2014, all active HAMP permanent modifications
                                            with scheduled monthly mortgage payment increases, by state.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   93




TABLE 2.9
 HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
 AS OF 5/31/2014
                                                                     Percentage             Median
                                  Total Active Permanent    of Active Permanent           Payment            Maximum
                   Total Active        Modifications With     Modifications With          Increase            Payment
                    Permanent        Scheduled Payment      Scheduled Payment              After All   Increase After
 State            Modifications                 Increases               Increase        Increasesa      All Increasesa
 Alabama                 4,788                     3,616                    76%                $95              $928
 Alaska                    402                       327                    81%                170                809
 Arizona                33,083                    29,220                    88%                185              1,208
 Arkansas                1,838                     1,488                    81%                  97               789
 California            235,922                  215,407                     91%                299              1,724
 Colorado               12,511                    10,841                    87%                171              1,094
 Connecticut            11,748                    10,337                    88%                190              1,237
 Delaware                2,614                     2,220                    85%                170                834
 Florida               112,998                    99,032                    88%                162              1,168
 Georgia                31,638                    26,441                    84%                133              1,061
 Guam                        7                         7                  100%                   53               173
 Hawaii                  3,592                     3,301                    92%                356              1,230
 Idaho                   3,326                     2,816                    85%                159                894
 Illinois               46,280                    41,002                    89%                174              1,072
 Indiana                 8,109                     6,346                    78%                  93             1,022
 Iowa                    1,976                     1,615                    82%                  91               626
 Kansas                  2,052                     1,678                    82%                103              1,042
 Kentucky                3,193                     2,568                    80%                  91               865
 Louisiana               4,858                     3,814                    79%                101                793
 Maine                   2,468                     2,170                    88%                142                750
 Maryland               28,374                    24,864                    88%                242              1,174
 Massachusetts          21,269                    19,239                    90%                233              1,064
 Michigan               25,511                    21,755                    85%                121              1,273
 Minnesota              13,452                    11,835                    88%                172              1,117
 Mississippi             2,939                     2,174                    74%                  86               730
 Missouri                8,419                     6,746                    80%                104                878
 Montana                 1,026                       860                    84%                169              1,074
 Nebraska                1,136                       917                    81%                  88               632
 Nevada                 19,174                    17,146                    89%                212              1,042
 New Hampshire           3,866                     3,378                    87%                180                806
 New Jersey             29,582                    26,823                    91%                235              1,100
 New Mexico              3,080                     2,549                    83%                140                913
 New York               48,196                    44,576                    92%                290              1,507
                                                                                              Continued on next page
94   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                HAMP  TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
                AS OF 5/31/2014 (CONTINUED)
                                                                                                                        Percentage                     Median
                                                                           Total Active Permanent              of Active Permanent                   Payment                Maximum
                                                      Total Active              Modifications With               Modifications With                  Increase                Payment
                                                       Permanent              Scheduled Payment                Scheduled Payment                      After All       Increase After
                State                                Modifications                       Increases                         Increase                Increasesa          All Increasesa
                North Carolina                                15,782                              13,035                              83%                  $115                 $1,060
                North Dakota                                      134                                 111                             83%                    109                     560
                Ohio                                          18,256                              15,167                              83%                     97                     886
                Oklahoma                                        2,003                              1,556                              78%                     83                     784
                Oregon                                        10,147                               9,062                              89%                    192                  1,052
                Pennsylvania                                  18,606                              15,467                              83%                    129                     890
                Puerto Rico                                     3,188                              2,981                              94%                     94                     982
                Rhode Island                                    4,313                              3,878                              90%                    192                     905
                South Carolina                                  8,034                              6,514                              81%                    116                  1,105
                South Dakota                                      294                                 244                             83%                    121                     836
                Tennessee                                       8,636                              6,751                              78%                     95                  1,075
                Texas                                         23,878                              18,882                              79%                     96                  1,169
                Utah                                            7,659                              6,625                              86%                    198                  1,023
                Vermont                                           801                                 695                             87%                    149                     853
                Virgin Islands                                        7                                  7                          100%                     183                     549
                Virginia                                      20,949                              18,236                              87%                    227                  1,118
                Washington                                    19,388                              17,318                              89%                    221                  1,155
                District of Columbia                            1,549                              1,377                              89%                    254                  1,096
                West Virginia                                   1,166                                 950                             81%                    122                     626
                Wisconsin                                       8,101                              6,760                              83%                    124                     968
                Wyoming                                           395                                 308                             78%                    163                     829
                Total                                      902,713                             793,032                               88%                  $197                 $1,724
                a
                    Analysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 69,575 HAMP permanent modifications with incomplete records.

                Source: SIGTARP analysis of Treasury HAMP data.
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               95




    As shown in Table 2.9 above, homeowners in four states account for more
than half of the HAMP permanent modifications scheduled for interest rate and
payment increases: California, Florida, New York, and Illinois.176 Homeowners
in 11 jurisdictions face mortgage payment increases that are more than the $197
national median: California, Hawaii, Maryland, Massachusetts, Nevada, New
Jersey, New York, Virginia, Utah, Washington, and Washington, DC.177 While 88%
of homeowners nationally with HAMP-modified mortgages face scheduled interest
rate and payment increases, that percentage is even higher in 18 jurisdictions:
Arizona, California, Connecticut, Guam, Hawaii, Illinois, Maine, Massachusetts,
Minnesota, Nevada, New Jersey, New York, Oregon, Puerto Rico, Rhode Island, the
Virgin Islands, Washington, and Washington, DC.178

Homeowners Who Have Redefaulted on HAMP Permanent
Modifications or Are at Risk of Redefaultingiv
As of June 30, 2014, HAMP has helped more than 903,231 homeowners avoid
foreclosure through permanent mortgage modifications, but another 392,501                                                                      Cumulative Redefault Rate: The
homeowners (or 30%) fell three months behind in payments and, thus, redefaulted                                                                total number of HAMP permanent
out of the program – often into a less advantageous private sector modification                                                                modifications that have redefaulted
or even worse, into foreclosure.179 This percentage (cumulative redefault rate)                                                                (as of a specific date) divided by the
includes all homeowners who received HAMP permanent modifications since the                                                                    total number of HAMP permanent
start of the program. As of June 30, 2014, taxpayers lost $1.3 billion in TARP funds                                                           modifications started (as of the same
paid to servicers and investors as incentives for 217,098 homeowners who received                                                              specific date).
TARP (non-GSE) HAMP permanent modifications and later redefaulted.180
Also, as of May 31, 2014, the latest data available, 90,687 (10% of active HAMP
permanent modifications) had missed one to two monthly mortgage payments and,                                                                  For more on homeowners who have
thus, are at risk of redefaulting out of the program.181                                                                                       redefaulted on HAMP permanent
    The longer a homeowner remains in HAMP, the more likely he or she is to                                                                    mortgages or are at risk of defaulting, see
redefault out of the program, with homeowners redefaulting on the oldest HAMP                                                                  SIGTARP’s July 2013 Quarterly Report,
permanent modifications at a rate of 51.7%.v As of May 31, 2014, the latest data                                                               pages 161-184.
provided by Treasury, the likelihood of homeowners redefaulting on their HAMP
modifications increase as their modifications age. Nearly half of all homeowners
who received a HAMP permanent modification received it in 2009 and 2010.182 As
of May 31, 2014, homeowners who received HAMP permanent modifications in
2009 redefaulted at rates ranging from 45.5% to 51.7%, homeowners who received
HAMP permanent modifications in 2010 redefaulted at rates ranging from 36.7%
to 44.1%.183
    Homeowners who redefaulted fell out of the HAMP program, and their
HAMP permanent modification was not sustainable. Once again, they risked
losing their homes and some may have lost their homes. Treasury reported that
of the homeowners with redefaulted loans reported by twenty-one servicers that
participated in a survey, as of May 31, 2014, the latest data provided by Treasury,
24% of homeowners moved into the foreclosure process, 12% of homeowners lost


iv In this section, “HAMP” refers to the original HAMP First-Lien Modification Program, which Treasury later named HAMP Tier 1.
v Treasury’s calculation of redefault rates may exclude some modifications due to missing or invalid data.
96   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            their home via a short sale or deed-in-lieu of foreclosure, and 26% of homeowners
                                            who redefaulted received an alternative modification, usually a private sector
                                            modification.184
                                               Table 2.10 provides detail on the annual and cumulative number and
                                            percentage of homeowners who received HAMP permanent modifications and
                                            have redefaulted over the life of HAMP.

                                            TABLE 2.10
                                             HAMP TIER 1 PERMANENT MODIFICATION REDEFAULT ACTIVITY, AS OF
                                             6/30/2014
                                                                             Permanents Started                          Permanents Redefaulted
                                                                                                                                                  Redefault Rate
                                                                                Annual      Cumulative              Annual      Cumulative           Cumulative
                                                              2009              23,633            23,633                129               129                     1%
                                                              2010            243,262           266,895             29,015            29,144                    11%
                                                              2011            185,254           452,149             59,080            88,224                    20%
                                             TARP             2012            114,745           566,894             58,860          147,084                     26%
                                                              2013              98,423          665,317             49,413          196,497                     30%
                                                              2014              33,488          698,805             20,601          217,098                     31%
                                                              Total           698,805                   —        217,098                    —
                                                              2009              43,305            43,305                339               339                     1%
                                                              2010            269,450           312,755             27,730            28,069                      9%
                                                              2011            168,423           481,178             51,287            79,356                    16%
                                             GSE              2012              87,280          568,458             49,229          128,585                     23%
                                                              2013              43,497          611,955             33,990          162,575                     27%
                                                              2014              15,226          627,181             12,828          175,403                     28%
                                                              Total           627,181                   —        175,403                    —
                                                              2009              66,938            66,938                468               468                     1%
                                                              2010            512,712           579,650             56,745            57,213                    10%
                                                              2011            353,677           933,327           110,367           167,580                     18%
                                             Total            2012            202,025         1,135,352           108,089           275,669                     24%
                                                              2013            141,920         1,277,272             83,403          359,072                     28%
                                                              2014              48,714        1,325,986             33,429          392,501                     30%
                                                              Total        1,325,986                    —        392,501                    —
                                             Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2011; December 31, 2012; December 31, 2013
                                             and June 30, 2014.

                                             Sources: Treasury responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 7/19/2013, 10/21/2013,
                                             10/23/2013, 1/23/2014, 1/24/2014 and 7/24/2014; Fannie Mae, responses to SIGTARP data calls 10/21/2013, 1/23/2014
                                             and 7/24/2014; SIGTARP Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP
                                             Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   97




    Since HAMP’s inception in 2009, the cumulative redefault rate for
homeowners who received permanent modifications has risen each year—from
1% at the end of 2009 to 30% through June 30,2014. As shown, there is little
difference in the rate at which homeowners in TARP funded HAMP modifications
redefault (31%) and the rate at which homeowners in GSE HAMP modifications
redefault (28%).
    Figure 2.4 provides detail on the status (active and redefaulted) over time of
homeowners’ HAMP permanent modifications by the year they originated.
FIGURE 2.4

ACTIVE AND REDEFAULTED HAMP MODIFICATIONS BY YEAR OF MODIFICATION,
AS OF 6/30/2014
600,000


500,000


400,000


300,000


200,000


100,000


     0
                 2009                2010               2011            2012   2013   2014


             Modifications Redefaulted
             Modifications Active

          Source: Treasury, response to SIGTARP data call, 7/24/2014.


   As illustrated in Figure 2.4, over time the rate at which homeowners redefault
on their HAMP modifications increase. More than 40% of the homeowners that
obtained permanent modifications in 2009 and 2010 have since redefaulted,
compared to only 10% of the homeowners that received HAMP modifications in
2013 and 2014.185

Servicer Redefault Rates
As of June 30, 2014, of 1,208,135 homeowners’ HAMP permanent modifications
currently serviced by 10 of the largest servicers, 339,441, or 28%, subsequently
redefaulted. Table 2.11 provides data on homeowners’ HAMP permanent
modifications by servicers participating in HAMP and currently servicing the
modifications listed.
98   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.11
                                             HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS AND REDEFAULTS
                                             CURRENTLY WITHIN SERVICERS’ PORTFOLIOS, BY SERVICER, AS OF
                                             6/30/2014
                                                                                                                                                             Percentage
                                                                                                                              Permanent                    of Permanent
                                                                                                 Permanent                  Modifications                  Modifications
                                                                                                Modifications                Redefaulted                    Redefaulted
                                             Ocwen Loan Servicing, LLCa                                 283,589                       88,553                             31%
                                             Wells Fargo Bank, N.A.       b
                                                                                                        196,377                       48,862                             25%
                                             JPMorgan Chase Bank, N.A.c                                 189,047                       44,383                             23%
                                             Nationstar Mortgage LLC                                    136,837                       35,677                             26%
                                             Bank of America, N.A.       d
                                                                                                        105,218                       33,265                             32%
                                             Select Portfolio Servicing, Inc.                             73,373                      30,864                             42%
                                             Green Tree Servicing LLC                                     76,138                      17,879                             23%
                                             Seterus Incorporated                                         60,353                      17,824                             30%
                                             CitiMortgage Inc                                             65,221                      15,897                             24%
                                             U.S. Bank National Association                               21,982                       6,237                             28%
                                             Other                                                      179,186                       58,781                             33%
                                             Total                                                  1,387,321                      398,222                              29%
                                             Notes: HAMP include HAMP Tier 1 and Tier 2 modifications, including those that received assistance under the Home Price Decline
                                             Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs. Includes both TARP and GSE modifications. Includes
                                             modifications listed by the current servicer of the loan.
                                             a
                                               Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
                                             b
                                               Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
                                             c
                                               JPMorgan Chase Bank, N.A. includes EMC Mortgage Corporation.
                                             d
                                               Bank of America includes the former BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.

                                             Sources: Treasury, response to SIGTARP data call, 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.



                                               As shown in Table 2.11, four servicers account for more than half of these
                                            homeowners’ HAMP permanent modifications that redefaulted: Ocwen Loan
                                            Servicing, LLC, with 88,553 homeowners’ permanent modifications redefaulted;
                                            Wells Fargo Bank, N.A., with 48,862 homeowners’ permanent modifications
                                            redefaulted, JPMorgan Chase Bank, NA, with 44,383 homeowners’ permanent
                                            modifications redefaulted and Nationstar Mortgage LLC with 35,677 homeowners’
                                            permanent modifications redefaulted.186 Of these 10 servicers participating in
                                            HAMP, the three servicers with the highest percentage of homeowners’ HAMP
                                            permanent modifications made that redefaulted were Select Portfolio Servicing,
                                            Inc. with 42.1% of homeowners’ permanent modifications redefaulted; Bank of
                                            America, N.A., with 31.6% of homeowners’ permanent modifications redefaulted;
                                            and Ocwen Loan Servicing, LLC, with 31.2% of homeowners’ permanent
                                            modifications redefaulted, as compared with the average for the 10 of 28%.187

                                            Redefaults: Impact on Taxpayers Funding TARP
                                            Taxpayers have lost about $1.3 billion in TARP funds paid to servicers and investors
                                            as incentives for 217,098 homeowners’ non-GSE, HAMP (Tier 1) permanent
                                            mortgage modifications that redefaulted.188 As of June 30, 2014, Treasury has
                                                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014          99




distributed $6.9 billion in TARP funds for 698,805 homeowners’ non-GSE,
HAMP (Tier 1) permanent modifications.189 According to Treasury, $3.7 billion
of that was designated for investor incentives, $1.9 billion for servicer incentives,
and $1.2 billion for homeowner incentives.190 (Homeowner incentives are paid to
servicers that, in turn, apply the payment to a homeowner’s mortgage). According
to Treasury, 19% of those funds were paid for incentives on homeowners’ HAMP
permanent modifications that later redefaulted.191
    Table 2.12 shows payments for homeowners’ HAMP permanent modifications
(active, redefaulted, and paid off mortgages) that are currently within servicers’
portfolios.

TABLE 2.12
 TARP INCENTIVE PAYMENTS ON HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS CURRENTLY WITHIN
 SERVICERS’ PORTFOLIOS, AS OF 6/30/2014
                                                                                                              TARP                                         Percentage of Total
                                            TARP Incentive                TARP Incentive                  Incentive                 Total TARP                 TARP Incentive
                                             Payments for                  Payments for               Payments for                    Incentive                 Payments for
                                              Permanents                    Permanents                 Permanents                Payments for                     Permanents
 Servicer Name                                      Active                  Redefaulted                    Paid Off             Permanents All                    Redefaulted 
 Ocwen Loan Servicing,
                                            $1,614,231,486                  $404,627,605               $12,474,115              $2,031,333,206                                    20%
 LLC
 Select Portfolio Servicing,
                                                369,481,963                  178,461,083                   3,476,410                 551,419,457                                  32%
 Inc.
 Wells Fargo Bank, N.A.                         922,450,822                  163,018,240                 11,816,923               1,097,285,986                                   15%
 JPMorgan Chase Bank, NA                        950,830,599                  132,139,204                   9,242,941              1,092,212,744                                   12%
 Bank of America, N.A.                          534,171,128                    94,333,433                  7,098,240                 635,602,801                                  15%
 Nationstar Mortgage LLC                        411,221,697                    80,370,288                  3,445,859                 495,037,845                                  16%
 CitiMortgage Inc                               201,060,153                    38,541,216                  4,270,376                 243,871,746                                  16%
 Specialized Loan Servicing
                                                  38,520,435                   26,882,234                     619,174                 66,021,843                                  41%
 LLC
 Bayview Loan Servicing
                                                  86,652,773                   21,409,296                  1,676,836                 109,738,905                                  20%
 LLC
 Carrington Mortgage
                                                  47,644,548                   21,084,250                     655,121                 69,383,919                                  30%
 Services, LLC.
 Other                                          360,171,516                  125,546,502                 16,222,823                  501,940,841                                  25%
 Total                                    $5,536,437,120               $1,286,413,352                 $70,998,820             $6,893,849,293                                      19%
 Notes: Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table by the current servicer of the loan.
 The incentive payment totals may not tie to the actual amount paid to the servicer as servicing transfers are not taken into account when the current servicer on the loan is used.
 Totals shown here exclude payments and/or drafts performed for modifications that are not currently Permanent Modifications. Totals shown here include payments under the
 HAMP Tier 1, Home Price Decline Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs tied to these loans.

 Sources: Treasury, response to SIGTARP data call, 7/9/2014.
100   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 As shown in Table 2.12, more than half of TARP funds that Treasury spent for
                                             HAMP permanent modifications that redefaulted were for mortgages currently
                                             serviced by three servicers, Ocwen Loan Servicing, LLC, Wells Fargo Bank, N.A.,
                                             and Select Portfolio Servicing, Inc. (listed in Table 2.12).192,vi Almost all (90%) of
                                             TARP funds Treasury spent for HAMP permanent modifications that redefaulted
                                             were for mortgages currently serviced by 10 servicers (listed in Table 2.12).193

                                             Redefaults: Impact on States
                                             Homeowners are redefaulting throughout the nation. In most states at least 30%
                                             of homeowners in the HAMP program have redefaulted on their modifications.194
                                             Tables 2.13–2.19 and Figure 2.5 show regional and state breakdowns of the
                                             number of homeowners with HAMP permanent modifications, the number
                                             of homeowners with active permanent modifications, the number who have
                                             redefaulted on modifications, and the redefault rates.




                                             vi Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table
                                               by the current servicer of the loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing
                                               transfers are not taken into account when the current servicer on the loan is used.
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   101




TABLE 2.13
 REDEFAULTED HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS, BY
 REGION, CUMULATIVE AS OF 6/30/2014
                                       Permanent                         Active                Redefaulted
                                      Modifications               Modifications               Modifications           Redefault Rate
 West                                         362,552                   269,456                         85,933                    24%
 Mountain West/Plains                              72,108                   47,638                      21,948                    30%
 Southwest/South Central                      107,796                       68,741                      35,639                    33%
 Midwest                                      206,749                   133,134                         68,438                    33%
 Mid-Atlantic/Northeast                       294,558                   195,952                         92,479                    31%
 Southeast                                    282,223                   188,310                         88,064                    31%
 TOTAL                                    1,325,986                    903,231                      392,501                       30%
 Notes: Includes GSE and non-GSE modifications. Of HAMP permanent modifications, 30,254 loans have been paid off.

 Source: Treasury, response to SIGTARP data call, 7/23/2014.


FIGURE 2.5
REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY REGION, CUMULATIVE
AS OF 6/30/2014

     AK
                                         MOUNTAIN WEST/
                                             PLAINS
                                             21,948                                      MIDWEST                           MID-ATLANTIC/
                            WA                                                            68,438                            NORTHEAST
                                                                                                                VT    ME
                                              MT        ND                                                                    92,479
                       OR                                              MN                                                 NH
                                                                                  WI                           NY
     WEST                           ID                      SD                                                             MA
                                                                                          MI
    85,933
                                              WY
                                                                        IA                                               CT RI
                                                                                               OH         PA            NJ
                                                            NE
                              NV                                                   IL    IN                            DE
                      CA                 UT                                                             WV VA        MD
                                                   CO                   MO
                                                                 KS                           KY                    DC
               HI                                                                                        NC
                                                                                         TN
                                     AZ                           OK        AR                           SC
                                                   NM
     GU                                                                                MS AL       GA           SOUTHEAST
                                                             TX              LA                                   88,064

                                                                                                         FL           PR    VI
                                     SOUTHWEST/
                                    SOUTH CENTRAL
                                        35,639

                WEST                                                              MIDWEST
                MOUNTAIN WEST/PLAINS                                              MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                           SOUTHEAST
102   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




       West
       TABLE 2.14
        REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 6/30/2014
                                                                           Permanent                        Active                Redefaulted
                                                                          Modifications              Modifications               Modifications           Redefault Rate
                                                  WA         AK                        631                         402                         185                 29%
                                                             CA                  314,162                     235,878                      72,423                   23%
                   AK
                                             OR              GU                          10                           7                           2                20%
                                                             HI                      4,996                      3,621                       1,222                  24%
                                                             OR                    14,589                     10,132                        4,028                  28%
                                                             WA                    28,164                     19,416                        8,073                  29%
                         GU
                                             CA              Total              362,552                     269,456                       85,933                  24%
                                                             Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                              HI                             Source: Treasury, response to SIGTARP data call, 7/23/2014.



              WEST                                >27%
              Percentage of Redefaults            25-27%
              on HAMP Permanent                   <25%
              Modifications


       Mountain West/Plains
       TABLE 2.15
        REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 6/30/2014
                                                                           Permanent                        Active                Redefaulted
                                                                          Modifications              Modifications               Modifications           Redefault Rate

                                   MT                        CO                    17,785                     12,509                        4,456                  25%
                                              ND
                                                             ID                      4,909                      3,323                       1,412                  29%
                    ID                        SD             KS                      3,333                      2,041                       1,149                  34%
                                    WY
                                                             MT                      1,487                      1,019                          383                 26%
                                                  NE
              NV                                             ND                        217                         137                           59                27%
                         UT
                                        CO                   NE                      1,931                      1,129                          692                 36%
                                                       KS
                                                             NV                    30,057                     19,163                      10,345                   34%
                                                             SD                        489                         288                         159                 33%
             MOUNTAIN WEST/                         >27%
                                                    25-27%
             PLAINS                                 <25%
                                                             UT                    11,259                       7,634                       3,101                  28%
             Percentage of Redefaults on
             HAMP Permanent Modifications
                                                             WY                        641                         395                         192                 30%
                                                             Total                72,108                      47,638                      21,948                  30%
                                                             Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                             Source: Treasury, response to SIGTARP data call, 7/23/2014.
                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014           103




Southwest/South Central
TABLE 2.16
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 6/30/2014
                                                                       Permanent                        Active                Redefaulted
                                                                      Modifications              Modifications               Modifications           Redefault Rate

     AZ                               OK                 AR                      3,070                      1,850                       1,085                  35%
               NM                                  AR
                                                         AZ                    51,266                     33,062                      16,749                   33%
                                                   LA    LA                      8,160                      4,827                       3,102                  38%
                                 TX
                                                         NM                      4,573                      3,088                       1,345                  29%
                                                         OK                      3,352                      1,994                       1,212                  36%
                                                         TX                    37,375                     23,920                      12,146                   32%
      SOUTHWEST/                                >27%     Total              107,796                       68,741                      35,639                  33%
                                                25-27%
      SOUTH CENTRAL                             <25%     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
      Percentage of Redefaults
      on HAMP Permanent                                  Source: Treasury, response to SIGTARP data call, 7/23/2014.
      Modifications



Midwest
TABLE 2.17
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 6/30/2014
                                                                       Permanent                        Active                Redefaulted
                                                                      Modifications              Modifications               Modifications           Redefault Rate
                                                         IA                      3,399                      1,965                       1,261                  37%
             MN
                       WI                                IL                    70,471                     46,282                      23,134                   33%
                                      MI                 IN                    13,000                       8,086                       4,520                  35%
               IA
                                                         KY                      5,255                      3,192                       1,873                  36%
                            IL   IN        OH
                                                         MI                    38,329                     25,494                      11,633                   30%
                  MO
                                       KY                MN                    20,708                     13,418                        6,666                  32%
                                                         MO                    13,951                       8,393                       5,128                  37%
       MIDWEST                              >27%
                                                         OH                    28,455                     18,230                        9,517                  33%
       Percentage of Redefaults             25-27%
       on HAMP Permanent                    <25%         WI                    13,181                       8,074                       4,706                  36%
       Modifications
                                                         Total              206,749                     133,134                       68,438                  33%
                                                         Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                         Source: Treasury, response to SIGTARP data call, 7/23/2014.
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




       Mid-Atlantic/Northeast
       TABLE 2.18
        REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 6/30/2014
                                                                              Permanent                        Active                Redefaulted
                                                                             Modifications              Modifications               Modifications           Redefault Rate
                                     VT    ME                   CT                    18,077                     11,774                        5,986                  33%

                                                NH              DC                      2,303                      1,545                          682                 30%
                                NY               MA             DE                      4,289                      2,618                       1,586                  37%
                                                      RI
                                           CT
                           PA             NJ                    MA                    32,206                     21,446                        9,952                  31%
                                         DE                     MD                    43,024                     28,404                      13,770                   32%
                     WV VA
                     WV                MD
                                      DC                        ME                      3,992                      2,470                       1,401                  35%
                                                                NH                      6,140                      3,854                       2,077                  34%
                                                                NJ                    46,411                     29,628                      15,990                   34%
              MID-ATLANTIC/                       >27%
                                                  25-27%        NY                    67,858                     48,362                      18,456                   27%
              NORTHEAST                           <25%
              Percentage of                                     PA                    30,044                     18,654                      10,653                   35%
              Redefaults on HAMP
              Permanent Modifications                           RI                      6,636                      4,300                       2,207                  33%
                                                                VA                    30,506                     20,937                        8,726                  29%
                                                                VT                      1,219                         798                         365                 30%
                                                                WV                      1,853                      1,162                          628                 34%
                                                                Total              294,558                     195,952                       92,479                  31%
                                                                Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                                Source: Treasury, response to SIGTARP data call, 7/23/2014.



       Southeast
       TABLE 2.19
        REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 6/30/2014
                                                                              Permanent                        Active                Redefaulted
                                                                             Modifications              Modifications               Modifications           Redefault Rate
                                          NC                    AL                      8,075                      4,779                       3,039                  38%
                     TN
                                      SC                        FL                  163,803                     113,377                      47,669                   29%
                MS    AL        GA                              GA                    48,600                     31,576                      16,009                   33%
                                                      PR
                                                                MS                      5,107                      2,924                       2,042                  40%
                                                           VI
                                                                NC                    25,132                     15,774                        8,596                  34%
                                          FL
                                                                PR                      4,147                      3,201                          864                 21%
                                                                SC                    12,822                       8,042                       4,403                  34%
               SOUTHEAST                         >27%
               Percentage of                     25-27%         TN                    14,530                       8,630                       5,442                  37%
               Redefaults on HAMP                <25%
                                                                VI                            7                          7                          —                  0%
               Permanent Modifications
                                                                Total              282,223                     188,310                       88,064                  31%
                                                                Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                                Source: Treasury, response to SIGTARP data call, 7/23/2014.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014            105




    As shown in the preceding tables, only 24% of homeowners in the West Coast
have redefaulted in HAMP, this relatively low redefault rate is driven primarily
by California, where only 23% of homeowners have redefaulted (only Guam,
Puerto Rico, and the Virgin Islands have lower rates of redefault). Conversely,
homeowners in the Midwest and Deep South have fared the worst in HAMP. At
least 30% of participating homeowners in each Midwestern state have redefaulted
on their HAMP modification. In the Deep South, 40% of Mississippi homeowners
participating in HAMP have redefaulted, the highest redefault rate in the nation,
while 38% of homeowners in Louisiana and Alabama and 37% of homeowners in
Tennessee have redefaulted.
    California has the highest number of homeowners who redefaulted on HAMP
permanent modifications with 72,423, followed by Florida, Illinois, and New York
with 47,669, 23,134, and 18,456, respectively. Homeowners in each of these states
have redefaulted at rates lower than their regional average, but these states have
significantly more homeowners in HAMP modifications than any others.

Starting a HAMP Tier 1 Modification
Homeowners may request participation in HAMP.195 Homeowners who have
missed two or more payments must be solicited for participation by their
servicers.196 Before offering the homeowner a trial modification, also known as a
trial period plan (“TPP”), the servicer must verify the accuracy of the homeowner’s
income and other eligibility criteria. In order to verify the homeowner’s eligibility
for a modification under the program, homeowners must submit the following
documents as part of an “initial package.”197

•	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the                  For more information on the RMA
   servicer with the homeowner’s financial information, including the cause of the            form and what constitutes hardship,
                                                                                              see SIGTARP’s April 2011 Quarterly
   homeowner’s hardship;
                                                                                              Report, page 62.
•	 signed and completed requests for Federal tax return transcripts or the most
   recent Federal income tax return, including all schedules and forms;
                                                                                              For more information on the Verification
•	 income verification documentation, such as recent pay stubs or evidence of                 Policy, see SIGTARP’s April 2011
   other sources of income; and                                                               Quarterly Report, page 63.
•	 Dodd-Frank certification (either as part of the RMA form or as a standalone
   document) that the homeowner has not been convicted in the past 10 years of                For more about the HAMP NPV test,
   any of the following in connection with a mortgage or real estate transaction:             see the June 18, 2012, SIGTARP audit
   felony larceny, theft, fraud, or forgery; money laundering, or tax evasion.                report “The NPV Test’s Impact on
                                                                                              HAMP.”
    In order for a loan to be eligible for a HAMP modification, the homeowner’s
initial package, consisting of the four documents described above, must be
submitted by the homeowner on or before December 31, 2015. Additionally, in
order to be eligible for incentive payments, the permanent modification must be
effective on or before September 2016.198
    Participating servicers verify monthly gross income for the homeowner and the
homeowner’s household, as well as other eligibility criteria.199 Then, in the case of
HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
106            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      by HAMP guidelines to calculate the reduction in the homeowner’s monthly
                                                      mortgage payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a
                                                      payment equal to 31% of his or her monthly gross income.200
                                                          In the first step of that waterfall, the servicer capitalizes any unpaid interest and
                                                      fees (i.e., adds them to the outstanding principal balance). Second, the servicer
                                                      reduces the interest rate in incremental steps to as low as 2%. If the 31% DTI ratio
                                                      threshold still has not been reached, in the third step the servicer extends the term
                                                      of the mortgage to a maximum of 40 years from the modification date. If these
                                                      steps are still insufficient to reach the 31% threshold, the servicer may forbear
                                                      principal (defer its due date), subject to certain limits.201 The forbearance amount
                                                      is not interest bearing and results in a lump-sum payment due upon the earliest
                                                      of the sale date of the property, the payoff date of the interest-bearing mortgage
                                                      balance, or the maturity date of the mortgage. 202
                                                          Servicers are not required to forgive principal under HAMP. However, servicers
                                                      may forgive principal in order to lower the homeowner’s monthly payment to
                                                      achieve the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any
                                                      point in the HAMP waterfall described above, or as part of PRA.203
                                                          After completing these modification calculations, all loans that meet HAMP
                                                      eligibility criteria and are either deemed generally to be in imminent default or
      Net Present Value (“NPV”) Test:
                                                      delinquent by two or more payments must be evaluated using a standardized net
      Compares the money generated by
                                                      present value (“NPV”) test that compares the NPV result for a modification to
      modifying the terms of the mortgage
                                                      the NPV result for no modification.204 The NPV test compares the expected cash
      with the amount an investor can
                                                      flow from a modified loan with the expected cash flow from the same loan with
      reasonably expect to recover in a
                                                      no modifications to determine which option will be more valuable to the mortgage
      foreclosure sale.
                                                      investor. A positive NPV test result indicates that a modified loan is more valuable
                                                      to the investor than the existing loan. In that case, under HAMP rules, the servicer
      Loan-to-Value (“LTV”) Ratio: Lending
                                                      must offer the homeowner a mortgage modification. If the test generates a negative
      risk assessment ratio that mortgage
                                                      result, modification is optional.205 Servicers cannot refuse to evaluate a homeowner
      lenders examine before approving a
                                                      for a modification simply because the outstanding loan currently has a low loan-to-
      mortgage; calculated by dividing the
                                                      value (“LTV”) ratio, meaning the homeowner owes less than the value of the home.
      outstanding amount of the loan by
                                                      The lower the LTV ratio is, the higher the probability that a foreclosure will be
      the value of the collateral backing the
                                                      more profitable to an investor than a modification.
      loan. Loans with high LTV ratios are
                                                          Since September 1, 2011, most of the largest mortgage servicers participating
      generally seen as higher risk because
                                                      in MHA have been required to assign a single point of contact to homeowners
      the homeowner has less of an equity
                                                      potentially eligible for evaluation under HAMP, HAFA, or UP.206 The single point
      stake in the property.
                                                      of contact has the primary responsibility for communicating with the homeowner
                                                      about options to avoid foreclosure, his/her status in the process, coordination
                                                      of receipt of documents, and coordination with other servicer personnel to
                                                      promote compliance with MHA timelines and requirements throughout the entire
                                                      delinquency, imminent default resolution process, or foreclosure.207

                                                      How HAMP Tier 1 First-Lien Modifications Work
                                                      Treasury intended that HAMP trial modifications would last three months.
                                                      Historically, many trial modifications have lasted longer. According to Treasury, as
                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 30, 2014         107




of June 30, 2014, of a combined total of 27,191 active trials under both GSE and
TARP (non-GSE) HAMP, 5,327 (20%) had lasted more than six months.208
    Homeowners in trial modifications may qualify for conversion to a permanent
modification as long as they make the required modified payments on time and
provide proper documentation, including a signed modification agreement.209
The terms of permanent modifications under HAMP Tier 1 remain fixed for five
years.210 After five years, the loan’s interest rate can increase if the modified interest
rate had been reduced below the 30-year conforming fixed interest rate on the date
of the initial modification. The interest rate can rise incrementally by up to 1%
per year until it reaches that rate.211 Otherwise, the modified interest rate remains
permanent.
    If the homeowner misses a payment during the trial or is denied a permanent
modification for any other reason, the homeowner is, in effect, left with the original
terms of the mortgage. The homeowner is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
made during the trial. In addition, the homeowner may be liable for late fees that
were generated during the trial. In other words, a homeowner can be assessed late
fees for failing to make the original pre-modification scheduled payments during
the trial period, even though under the trial modification the homeowner is not
required to make these payments. Late fees are waived only for homeowners who
receive a permanent modification.212

What Happens When a HAMP Modification Is Denied: Servicer Obligations and
Homeowner Rights
Treasury has issued guidance governing both the obligations of servicers and the
rights of homeowners in connection with the denial of loan modification requests.
Homeowners must receive a Non-Approval Notice if they are rejected for a HAMP
modification. A homeowner who is not approved for HAMP Tier 1 is automatically
considered for HAMP Tier 2. If the servicer offers the homeowner a HAMP Tier 2
trial, no Non-Approval Notice would be issued on the HAMP Tier 1. The Non-
Approval Notice is sent only if the HAMP Tier 2 is not offered. Homeowners can
request reconsideration or re-evaluation if they believe one or more NPV analysis
inputs is incorrect or if they experience a change in circumstance. Servicers
are obligated to have written procedures and personnel in place to respond to
homeowner inquiries and disputes that constitute “escalated cases” in a timely
manner.213
    Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be used                         For more information on HAMP servicer
by homeowners prior to applying for a HAMP modification or after a denial of                      obligations and homeowner rights,
a HAMP modification. Homeowners can enter the NPV input values listed in                          see SIGTARP’s April 2011 Quarterly
                                                                                                  Report, pages 67-76.
the HAMP Non-Approval Notice received from their servicer, or substitute with
estimated NPV input values, to compare the estimated outcome provided by
CheckMyNPV.com against that on the Non-Approval Notice.
108   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Modification Incentives
                                             For new HAMP trials on or after October 1, 2011, Treasury changed the one-
                                             time flat $1,000 incentive payment to a sliding scale based on the length of time
                                             the loan was delinquent as of the effective date of the TPP. For loans less than
                                             or equal to 120 days delinquent, servicers receive $1,600.214 For loans 121-
                                             210 days delinquent, servicers receive $1,200. For loans more than 210 days
                                             delinquent, servicers receive only $400. Starting on March 1, 2014, each of these
                                             incentive payments for servicers increased by $400.215 For homeowners whose
                                             monthly mortgage payment was reduced through HAMP by 6% or more, servicers
                                             also receive incentive payments of up to $1,000 annually for three years if the
                                             homeowner remains in good standing (defined as less than three full monthly
                                             payments delinquent).216
                                                 For HAMP Tier 1, homeowners whose monthly mortgage payment is reduced
                                             through HAMP by 6% or more and who make monthly payments on time earn
                                             an annual principal reduction of up to $1,000.217 The principal reduction accrues
                                             monthly and is payable for each of the first five years as long as the homeowner
                                             remains in good standing.218 Under both HAMP Tier 1 and HAMP Tier 2, the
                                             investor is entitled to five years of incentives that make up part of the difference
                                             between the homeowner’s new monthly payment and the old one.
                                                 As of June 30, 2014, of the $29.8 billion in TARP funds allocated to the 84
                                             servicers participating in MHA, 92% was allocated to 10 servicers.219 Table 2.20
                                             shows incentive payments made to these servicers.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   109




TABLE 2.20
 TARP INCENTIVE PAYMENTS BY 10 SERVICERS, AS OF 6/30/2014
                                                                     Incentive                    Incentive                  Incentive
                                                                    Payments                     Payments                   Payments               Total Incentive
                                   SPA Cap Limit                 to Borrowers                  to Investors               to Servicers                  Payments
 Ocwen Loan
                                 $6,465,933,268                 $327,918,728             $1,031,560,559                 $492,745,540             $1,852,224,827
 Servicing, LLCa
 JPMorgan Chase
                                   3,338,445,943                 328,618,235                  885,814,804                 434,502,819              1,648,935,859
 Bank, NAb
 Bank of America,
                                   7,072,769,727                 333,305,804                  700,394,072                 410,338,584              1,444,038,461
 N.A.c
 Wells Fargo Bank,
                                   5,068,111,226                 271,682,596                  709,855,304                 378,655,710              1,360,193,609
 N.A.d
 CitiMortgage Inc                    882,009,540                   76,576,707                 256,012,600                 117,673,164                 450,262,472
 Select Portfolio
                                   1,406,911,724                   94,974,156                 194,657,468                 124,863,766                 414,495,390
 Servicing, Inc.
 Nationstar
                                   1,240,653,531                   74,787,013                 196,482,762                 110,910,874                 382,180,650
 Mortgage LLCe
 OneWest Bank                      1,513,969,153                   62,344,015                 210,824,093                   86,735,741                359,903,849
 Saxon Mortgage
                                     100,807,086                   19,655,075                  41,738,413                   39,413,598                100,807,086
 Services Inc
 U.S. Bank National
                                     180,878,332                   15,199,880                  34,523,115                   24,300,673                  74,023,668
 Association
 Total                       $27,270,489,530               $1,605,062,209              $4,261,863,191              $2,220,140,470               $8,087,065,871
 Notes: Numbers may not total due to rounding. On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and
 transferring the subservicing relationships to third-party servicers. The remaining SPA Cap Limit stated above represents the amount previously paid to Saxon Mortgage
 Services, Inc. prior to ceasing servicing operations.
 a
   Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
 b
   JPMorgan Chase Bank, NA includes EMC Mortgage Corporation.
 c
   Bank of America N.A. includes the former Countrywide Home Loans Servicing, BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.
 d
   Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
 e
   Nationstar Mortgage LLC includes MorEquity, Inc and the former Aurora Loan Services LLC.

 Source: Treasury, Transactions Report-Housing Programs, 6/26/2014.



    As shown in Table 2.20, Ocwen Loan Servicing, LLC, received $1,852,224,827
in total incentive payments, the most of any servicer. The four largest HAMP
servicers (Ocwen Loan Servicing, LLC; JPMorgan Chase Bank, NA; Bank of
America, N.A.; and Wells Fargo Bank, N.A.) received 74% of all incentives paid
out. Only 18% of the incentives paid to Ocwen Loan Servicing, LLC went to
homeowners, least among the four largest servicers. Conversely, 23% of incentives
paid to Bank of America, N.A. went to homeowners, the highest among the four
largest servicers. Of the $7.4 billion in total incentives paid to all servicers, 20%
went to homeowners, 53% went to investors, and the remaining 28% went to the
servicers.
110   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             HOMEOWNERS MAY NOT BE GETTING INTO
                                             HAMP IN A TIMELY MANNER BECAUSE SERVICERS
                                             ARE SLOW IN REVIEWING HAMP APPLICATIONS
                                             LEAVING THE HOMEOWNER IN LIMBO AND AT RISK
                                             FOR FORECLOSURE
                                                                                                 i,ii




                                             Not enough homeowners have received the help they need from TARP’s
                                             signature housing program HAMP. On several occasions SIGTARP has
                                             reported problems with servicers’ treatment of homeowners, including
                                             confusing communications with homeowners, lost paperwork, trial mortgage
                                             modification periods that last well past the three to fourth months specified,
                                             homeowners who have received a permanent mortgage modification falling
                                             out of the program at alarming rates, and concern that after five years,
                                             many homeowners will see their mortgage payments rise while they are
                                             still struggling. These problems relate to the treatment of homeowners that
                                             have already entered the program. This report highlights a new problem
                                             that SIGTARP has uncovered in analyzing Treasury’s HAMP data: one of the
                                             reasons homeowners may not be accepted into the HAMP program in a
                                             timely manner is that servicers are slow in reviewing homeowners’ HAMP
                                             applications.

                                             Treasury’s data over the last six months has shown an alarming trend of
                                             homeowners who are not getting a timely review of their applications to enter
                                             the HAMP program. It is homeowners who suffer the consequences of their
                                             mortgage servicers’ failure to timely process HAMP applications. According
                                             to Treasury’s data, as of May 2014, more than 221,000 homeowners who
                                             had applied for HAMP assistance were still waiting for a decision from their
                                             servicer. Approximately 10,000 new homeowners enter into the HAMP
                                             program through a trial mortgage modification each month. The reality is that
                                             it could be a very long time before these homeowners know for sure whether
                                             they can get help from HAMP. Ultimately, servicers will deny assistance to
                                             some of these homeowners. Without a timely review of their eligibility to even
                                             get into a HAMP trial modification, struggling homeowners left in limbo hoping
                                             to get help from TARP’s HAMP program may not pursue other foreclosure


                                             i Analysis performed as of May 31, 2014, as this was the latest data available when SIGTARP completed this analysis on July 18, 2014.
                                             ii U
                                                 nless otherwise noted, all information used in this analysis was obtained from Treasury’s “HAMP Application Activity by Servicer
                                              Report,” – November 2013 – May 2014, www.treasury.gov/initiatives/financial-stability/reports/Pages/HAMP-Servicer.aspx.
                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   111




alternatives and, with options narrowing over time, may be at risk for
foreclosure.

Some of the largest HAMP servicers have tens of thousands of unprocessed
applications, causing a severe backlog. These servicers with massive
backlogs, which may also have slower than average processing speeds,
continue to receive new applications each month, adding to the growing
number of homeowners who are not getting the help they need from HAMP.


The Number of Homeowners Stuck in Limbo with their HAMP
Application Has Nearly Doubled over the Last Six Months and
Homeowners Could Wait a Very Long Time for a Decision
According to Treasury’s data, as of November 30, 2013, 133,649
homeowners were stuck in limbo, having applied for HAMP but not having
received a decision from their mortgage servicer. Just six months later in
May 2014, the number of homeowners who had applied for HAMP but had
not received a decision from their mortgage servicer had nearly doubled to
221,516 homeowners. Table 2.21 shows how the number of homeowners
who have applied for HAMP but have not received a decision has increased,
and how long it may take some of these servicers to make a decision.
112   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                        TABLE 2.21
                                         HOMEOWNERS WHO APPLIED FOR HAMP WITH NO DECISION BY SERVICER,
                                         AS OF 5/31/2014
                                                                                                                  Average                                         Months to
                                                                                            Average                Monthly                                      Process the
                                                                    Average                 Monthly            Increase in                   Total          Homeowners who
                                         Servicer                    Monthly            Applications          Unprocessed            Unprocessed               have already
                                         Name                   Applicationsa            Processeda           Applicationsb          Applicationsc                 appliedd
                                         Ocwen Loan
                                                                         30,630                 16,134                 14,496                 60,812                             3.8
                                         Servicing, LLC
                                         Select
                                         Portfolio                         8,348                  3,524                  4,824                36,921                           10.5
                                         Servicing, Inc.
                                         Bank of
                                                                           9,440                  7,163                  2,277                26,248                             3.7
                                         America, N.A.
                                         JPMorgan
                                         Chase Bank,                       9,738                  3,452                  6,287                26,067                             7.6
                                         NA
                                         Nationstar
                                                                           7,935                  8,739                   (804)               21,536                             2.5
                                         Mortgage LLC
                                         Wells Fargo
                                                                           8,694                  8,289                     406               20,063                             2.4
                                         Bank, N.A.
                                         CitiMortgage
                                                                             250                    642                   (392)                 7,735                          12.0
                                         Inc
                                         U.S. Bank
                                         National                          1,991                  2,254                   (264)                 5,823                            2.6
                                         Association
                                         Green Tree
                                                                           1,652                  1,469                     183                 3,946                            2.7
                                         Servicing LLC
                                         Bayview Loan
                                                                           1,577                  1,371                     206                 2,698                            2.0
                                         Servicing, LLC
                                         Other
                                                                           8,416                  8,398                       18                9,667                            1.2
                                         Servicers
                                         TOTAL                          88,670                 61,434                 27,236                221,516                              3.6
                                         Notes:
                                         a
                                           Average of corresponding data from Treasury’s “HAMP Application Activity by Servicer”, December 2013 – May 2014. SIGTARP noted
                                            that monthly requests processed did not always agree to the difference in cumulative requests processed between the current and
                                            previous months. According to Treasury, such variances “may be due to servicing transfers or servicer corrections to prior reporting.”
                                            As such, SIGTARP used the monthly requests processed, rather than the difference between cumulative requests processed to calculate
                                            average monthly applications processed.
                                         b
                                             Average Monthly Applications less Average Monthly Applications Processed.
                                         c
                                            Cumulative applications received less cumulative requests from Treasury, “HAMP Application Activity by Servicer”, May 2014.
                                         d
                                            Total Unprocessed Applications divided by Average Monthly Applications Processed. This calculation doesn’t take into consideration new
                                             applications received, if it did many of the backlogs would be indefinite.

                                         Source: Treasury, “HAMP Application Activity by Servicer”, December 2013 through May 2014.
                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   113




As shown in Table 2.21, Ocwen Loan Servicing, LLC (“Ocwen”) is the servicer
with the largest number of homeowners who have applied for HAMP but
have not received a decision. Although Ocwen has improved its application
processing speed, it will face significant challenges in making decisions on
the 60,812 homeowners who have already applied for HAMP. Adding to this
challenge are the new homeowners who apply for HAMP, increasing Ocwen’s
massive backlog in unprocessed HAMP applications. Over the last six months,
a monthly average of 30,630 homeowners whose mortgages are serviced by
Ocwen applied for HAMP.

Just as concerning are those servicers who take an extended period of time
to decide whether a homeowner gets into HAMP or not. CitiMortgage has
7,735 homeowners who have applied for HAMP and are awaiting a decision,
but CitiMortgage only processes on average 642 homeowners’ HAMP
applications each month. At the current processing speed, it would take
one year to make decisions on all of those homeowners’ applications, if no
additional homeowners applied for HAMP. But with new applications coming
in, and such a slow application processing speed, it would take Citi almost
two years to make decisions on the 7,735 homeowners left in limbo,
if something does not change.

It would take Select Portfolio Services (“SPS”) more than 10 months to
make decisions on the HAMP applications of the 36,921 homeowners at
its current processing speed, if no additional homeowners were to apply
for HAMP. However, given new homeowner applications, it would take far
longer than that, because over the last six months, a monthly average of
8,348 homeowners serviced by SPS applied for HAMP, and on average
SPS processed less than half of those each month. Similarly, it would take
JP Morgan Chase (“Chase”) more than seven months to make decisions on
the HAMP applications of the 26,067 homeowners at its current processing
speed, if no additional homeowners applied for HAMP. However, given new
homeowner applications, it would take far longer than that because Chase
114   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             only processes about one-third of the average 9,738 new applications it
                                             receives each month.

                                             During the most recent six months, Chase and SPS stood out as the least
                                             effective large servicers in keeping up with demand for HAMP, as they were
                                             the only servicers to make decisions on less than half of the homeowner
                                             HAMP applications they received. During this period Chase processed
                                             an average of 35% of the applications it received each month, while SPS
                                             processed an average of 42% of the applications it received. During this
                                             period Chase added an average of 6,287 applications to its backlog each
                                             month, while SPS added 4,824. Additionally, 36,921 (19%) of the 194,048
                                             HAMP applications SPS received remain unprocessed, while the average of
                                             unprocessed HAMP applications for all other servicers combined is only 2.2%.


                                             Treasury Can and Must Do More to Protect Homeowners
                                             from Waiting Such a Long Time for a Decision on Their HAMP
                                             Application
                                             SIGTARP uncovered this alarming trend of homeowners caught in limbo, but
                                             it should have been Treasury who uncovered it because it is Treasury’s data.
                                             SIGTARP is issuing this report to make Treasury aware of its own data. Now
                                             warned, it is up to Treasury to take strong action to ensure that servicers
                                             improve their time to process HAMP applications to protect homeowners and
                                             the integrity of the HAMP program. Treasury’s one page report containing this
                                             data, entitled “HAMP Application by Servicer,” contains the following footnote:
                                             “This report is sourced from the Monthly Servicer Survey of select servicers
                                             participating in MHA under a Servicer Participation Agreement. All data
                                             present in this report reflects what is provided by servicers participating in the
                                             survey, and is not separately validated by Treasury.” This begs the question
                                             of why Treasury is not validating this information. What is Treasury doing with
                                             this powerful information to protect homeowners?

                                             SIGTARP has reported on many occasions that Treasury can and should
                                             do more to hold servicers accountable, and this is just one more example.
                                                                            QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   115




Although Treasury generally requires servicers to complete their application
review within 30 days of receiving a complete application package, the review
may be extended indefinitely if a homeowner sends an incomplete application
package or the servicer can’t obtain documentation from a third party.220 Even
if the homeowner has not turned in all the information, it may be because
the homeowner mistakenly believes that they have turned in a complete
application package and they need additional help from the servicer.221 Even
worse, it may be because of problems with the servicer, problems that
Treasury cannot allow to continue unchecked.

From Treasury’s one page document, SIGTARP is able to conclude that some
servicers are taking far longer than other servicers to give homeowners a
decision on whether they have been accepted into the program. Citi, SPS,
Chase, and Ocwen are having major problems with unprocessed applications,
while other large HAMP servicers have much smaller backlogs. For example,
Wells Fargo’s backlog is just 2.4 months and Nationstar Mortgage LLC’s is
2.5 months. This cannot all be the fault of homeowners in not completing
their applications.

Treasury must dig into this problem further by first analyzing why these
servicers are so slow in getting back to homeowners and then taking strong
action, including withholding TARP dollars permanently, to send a strong
deterrent message that Treasury will not stand for homeowner mistreatment.
HAMP has been in existence for five years. At this point Treasury should
not accept any excuses for large or growing application backlogs and slow
processing speeds.


Some Homeowners are at Risk of Losing Their Homes Due to
HAMP Application Processing Delays
If Treasury does not take strong action to stop this growing trend immediately,
it will be homeowners who suffer the consequences. Massive backlogs
and slowness by servicers in processing HAMP applications have a very
real negative impact on homeowners and in some cases can lead to the
116   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             homeowner losing their home. While homeowners wait to see if they get into
                                             HAMP, they may accrue past due balances that will increase their loan-to-value
                                             ratios. This stripping away of home equity may increase the likelihood that the
                                             homeowner will be rejected for HAMP due to insufficient income or negative
                                             net present value, add years to the mortgage payoff period, and generally
                                             increase the likelihood of redefault (due to a higher loan-to-value ratio).
                                             Homeowners hopeful for help from HAMP may not pursue other available
                                             foreclosure alternatives, alternatives that may narrow and eventually cease
                                             being available over time. At a minimum, these delays extend the financial
                                             hardships of struggling homeowners. At this point, with so much TARP money
                                             unspent that is earmarked for HAMP, and with Treasury’s recognition that they
                                             need to get more homeowners help from HAMP, Treasury should be pulling
                                             out all the stops to ensure that eligible homeowners get into HAMP. Treasury
                                             needs to stop these delays in getting homeowners into HAMP with every tool
                                             in their arsenal. Struggling homeowners deserve nothing less.
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014      117




HAMP Tier 2
Effective June 1, 2012, HAMP Tier 2 expanded HAMP.222 As in HAMP Tier 1,
HAMP Tier 2 permits HAMP modifications on mortgages of owner-occupied
properties, but unlike HAMP Tier 1, HAMP Tier 2 also permits HAMP
modifications on mortgages of non-owner-occupied “rental” properties that are
tenant-occupied or vacant.223 Under the original HAMP (now HAMP Tier 1),
mortgage modifications for “rental” properties had been expressly excluded; HAMP
Tier 2 also allows homeowners with a wider range of debt-to-income situations to
receive modifications.224 Treasury’s stated policy objectives for HAMP Tier 2 are
that it “will provide critical relief to both renters and those who rent their homes,
while further stabilizing communities from the blight of vacant and foreclosed
properties.”225 A homeowner may have up to five loans with HAMP Tier 2
modifications, as well as a single HAMP Tier 1 modification on the mortgage for
his or her primary residence.226 If a homeowner loses “good standing” on a HAMP
Tier 1 modification and it has either been at least one year since the effective date
of that modification or there has been a “change in circumstance,” he or she is
eligible for a HAMP Tier 2 remodification.227 Approximately 7,601 of homeowners
in active HAMP Tier 2 permanent modifications were previously in HAMP Tier 1
permanent modifications.228
    According to Treasury, as of June 30, 2014, a total of 61 of the 84 servicers
with active MHA servicer agreements had fully implemented HAMP Tier 2.229 The
remaining 23 of those servicers will not implement HAMP Tier 2 because they are
in the process of terminating their servicer participation agreement, they have gone
out of business, their servicer participation agreement was signed to participate
only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding down their
non-GSE servicing operations.230 All 10 of the largest servicers have reported that
they had implemented HAMP Tier 2.231 According to Treasury, as of June 30, 2014,             For SIGTARP’s recommendations for
it had paid $150.5 million in incentives in connection with 61,335 HAMP Tier 2               the improvement of HAMP Tier 2,
permanent modifications, 55,318 of which remain active.232                                   see SIGTARP’s April 2012 Quarterly
    HAMP Tier 2 mortgage modification activity and property occupancy status is              Report, pages 185-189.
shown in Table 2.22.233
118   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                              TABLE 2.22
                               HAMP TIER 2 FIRST LIEN MODIFICATION ACTIVITY AND OCCUPANCY STATUS,
                               AS OF 6/30/2014
                                                                                                       Trials
                                                          Trials         Trials           Trials   Converted    Permanents     Permanents    Permanents
                               Property Type            Started      Cancelled           Active    Permanent    Disqualified      Paid-Off       Active
                               Borrower
                                                        74,476             4,329        12,759        57,388          5,361           277        51,750
                               Occupied
                               Tenant Occupied            4,409               253            634       3,522            321            17         3,184
                               Vacant                        561                48           88          425             39             2          384
                               Total                    79,446             4,630       13,481         61,335         5,721            296       55,318
                               Source: Treasury, response to SIGTARP data call, 7/24/2014.



                                                     As shown in Table 2.22, of the 79,446 HAMP Tier 2 trial mortgage
                                                 modifications started, 74,476 (94%), were for owner-occupied properties;
                                                 4,409 (6%), were for tenant-occupied properties, and 561 (1%) were for vacant
                                                 properties.234 Of owner-occupied properties that received a HAMP Tier 2 trial
                                                 modification, 12,759 trial modifications (17%) were active and 57,388 (77%) were
                                                 converted to permanent modifications, of which 51,750 (90%) were active.235 Of
                                                 owner-occupied properties that received a HAMP Tier 2 trial modification, 4,329
                                                 (6%) were cancelled, and of those that received a permanent modification, 5,361
                                                 (9%) redefaulted.236 Around 87% of tenant-occupied properties that received either
                                                 a trial or permanent HAMP Tier 2 mortgage modification have remained active,
                                                 as of June 30, 2014.237 Of vacant properties that received a HAMP Tier 2 trial
                                                 modification, 88 (16%) were in active trial modifications, 384 (68%) were in active
                                                 permanent modifications, and 87 (16%) had their trial or permanent modification
                                                 cancelled.238

                                                 HAMP Tier 2 Eligibility
                                                 HAMP Tier 2 expands the eligibility criteria related to a homeowner’s debt-to-
                                                 income ratio and also allows modifications on loans secured by “rental” properties.
                                                 Owner-occupied loans that are ineligible for a HAMP Tier 1 modification due to
                                                 excessive forbearance or negative NPV also may be eligible for Tier 2. Vacant rental
                                                 properties are permitted in the program, as are those occupied by legal dependents,
                                                 parents, or grandparents, even if no rent is charged. The program is not, however,
                                                 according to Treasury, intended for vacation homes, second homes, or properties
                                                 that are rented only seasonally. Additionally, loans on rental properties must be at
                                                 least two payments delinquent – those in imminent default are not eligible.239
                                                     However, Treasury does not require that the property be rented. Treasury
                                                 requires only that a homeowner certify intent to rent the property to a tenant on a
                                                 year-round basis for at least five years, or make “reasonable efforts” to do so; and
                                                 does not intend to use the property as a second residence for at least five years.240
                                                 According to Treasury, servicers are not typically required to obtain third-party
                                                 verifications of the homeowner’s rental property certification when evaluating a
                                                 homeowner for HAMP.241
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   119




    To be considered for HAMP Tier 2, homeowners must satisfy several basic
HAMP requirements: the loan origination date must be on or before January
1, 2009; the homeowner must have a documented hardship; the property must
conform to the MHA definition of a “single-family residence” (1-4 dwelling units,
including condominiums, co-ops, and manufactured housing); the property must
not be condemned; and the loan must fall within HAMP’s unpaid principal balance
limitations.242 If a homeowner satisfies these requirements, and in addition, the
loan has never been previously modified under HAMP (except for the exceptions
discussed above), the servicer is required to solicit the homeowner for HAMP Tier
2. In certain other cases, the homeowner may still be eligible for HAMP Tier 2, but
the servicer is not required to solicit the homeowner.243

How HAMP Tier 2 Modifications Work
As with HAMP Tier 1, HAMP Tier 2 evaluates homeowners using an NPV test
that considers the value of the loan to the investor before and after a modification.
Owner-occupant homeowners are evaluated for both HAMP Tier 1 and Tier 2 in
a single process. If a homeowner is eligible for both modifications, he or she will
receive a HAMP Tier 1 modification.244
    As discussed above, HAMP Tier 1 modifications are structured using a waterfall
of incremental steps that may stop as soon as the 31% post-modification DTI ratio
target is reached. In HAMP Tier 2, the proposed permanent modification must
meet two affordability requirements: (1) a post-modification DTI ratio of not less
than 25% or greater than 42% and (2) a reduction of the monthly principal and
interest payment by at least 10%. The post-modification DTI ratio range increased
in February 2013 to not less than 10% or greater than 55%. If the homeowner was
previously in a HAMP Tier 1 modification (either trial or permanent), then the new
payment must be at least 10% below the previously modified payment. Because
HAMP Tier 2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not
a series of incremental steps, but a consistent set of actions that are applied to the
loan. After these actions are applied, if the result of the NPV test is positive and the
modification also achieves the DTI and payment reduction goals, the servicer must
offer the homeowner a HAMP Tier 2 modification. If the result of the HAMP Tier
2 NPV test is negative, modification is optional.245
    As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
modification is to capitalize any unpaid interest and fees. The second step changes
the interest rate to the “Tier 2 rate,” which is the 30-year conforming fixed interest
rate on the date of the initial modification, plus a 0.5% risk adjustment. The third
step extends the term of the loan by up to 40 years from the modification effective
date. Finally, if the loan’s pre-modification mark-to-market LTV ratio is greater
than 115%, the servicer forbears principal in an amount equal to the lesser of (1)
an amount that would create a post-modification LTV ratio of 115%, or (2) an
amount equal to 30% of the post-modification principal balance. Unlike HAMP
Tier 1, there is no excessive forbearance limit in HAMP Tier 2. The HAMP Tier
2 guidelines also include several exceptions to this waterfall to allow for investor
restrictions on certain types of modifications.246
120   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
                                             modification waterfall” in addition to the one described here. This waterfall uses
                                             principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
                                             reduction is optional. Servicers may also reduce principal on HAMP Tier 2
                                             modifications using PRA.247
                                                 HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
                                             exceptions, notably that HAMP Tier 2 modifications do not pay annual homeowner
                                             or servicer incentives.248

                                             MHA Outreach and Borrower Intake Project
                                             On February 14, 2013, Treasury entered into an agreement with the Neighborhood
                                             Reinvestment Corporation, also called NeighborWorks America (“NeighborWorks”),
                                             to launch a nationwide MHA initiative with housing counselors “in an effort to
                                             increase the number of homeowners that successfully request assistance under
                                             MHA.”249 NeighborWorks is a Congressionally chartered corporation that through
                                             a national network of non-profit organizations administers housing programs,
                                             including housing counseling.250 The initiative, called the MHA Outreach and
                                             Borrower Intake Project, will pay $450 to housing counseling agencies for each
                                             homeowner they worked with to submit complete applications for HAMP to
                                             servicers.251 Treasury allocated $18.3 million in TARP funds for the project.252
                                             As of June 30, 2014, housing counselors have initiated HAMP application work
                                             for 9,678 homeowners, of whom 3,135 have had their completed applications
                                             submitted to an MHA servicer and accepted by that MHA servicer, whether or
                                             not the homeowner eventually receives a mortgage modification.253 According
                                             to Treasury, housing counseling agencies are due $1,410,750 for those accepted
                                             applications.254 NeighborWorks has, as of June 30, 2014, requested $6 million in
                                             total funds, mostly for outreach, oversight, and administration, as well as for the
                                             counseling agency payments. Of the $6 million in total funds committed to this
                                             program only 23 percent of the committed funds are used for agency counseling
                                             payments. The remaining 77 percent are designated for administration, marketing
                                             and outreach.255
                                                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 30, 2014     121




TABLE 2.23                                                             FIGURE 2.6
 MHA BORROWER OUTREACH AND INTAKE                                      MHA BORROWER OUTREACH
 PROJECT, AS OF 6/30/2014                                              AND INTAKE PROJECT, AS
 Agency Counseling Fees                               $1,380,150       OF 6/30/2014
 Administrative Expenses
   Intermediary Oversight Fees                          $254,907
   Administration (NWA)                                 1,145,308                                  23%
   Quality Control & Compliance                           185,000
                                                                               77%
   Technology Build                                       470,069
   Counselor Training                                     219,693
 Outreach Expenses
                                                                          Administration, Marketing, and
   Agency Outreach Fees                               $1,527,400          Outreach Fees
                                                                          Agency Counseling Fees
   Supplemental Outreach Fees                             497,329
                                                                       Note: Administrative Expenses Includes
   Virtual Outreach Events                                    59,168   intermediary oversight fees, agency outreach
                                                                       fees, supplemental outreach fees, administration
   Traditional Outreach Events                            243,372      (nwa), quality control & compliance, technology
                                                                       build, and counselor training.
 Total Expenses                                      $5,982,396        Source: Treasury, Response to SIGTARP Data
                                                                       Call, 7/8/2014.
 Source: Treasury, Response to SIGTARP Data Call, 7/8/2014.



Additional TARP-Funded MHA Housing Support Programs
From April 2009 until September 2010, Treasury announced a number of
additional MHA support programs for homeowners with non-GSE mortgages.
TARP funds have been allocated to most but not all of these additional programs.
Three of these programs fall under the umbrella of the HAMP program: the Home
Price Decline Protection (“HPDP”) program, the Home Affordable Unemployment
                                                                                                                                   For more information on these
Program (“UP”), and the Principal Reduction Alternative (“PRA”). The remaining
                                                                                                                                   additional housing programs, see
additional MHA programs include collaborations with other Federal agencies,                                                        SIGTARP’s October 2013 Quarterly
programs that aim to extinguish homeowners’ second mortgages (second liens), and                                                   Report, pages 93-99.
programs that offer alternatives to foreclosure. Table 2.24 provides more detail on
these programs.
122             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



TABLE 2.24
 ADDITIONAL MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS, AS OF 6/30/2014
                                                                                                Homeowners Assisted          Estimated
                                                                             Estimated Number                                      TARP              TARP
                         Date           Date                              of Homeowners to be Permanents Permanents          Allocation     Expenditures
 Program            Announced        Started   Purpose                                 Assisted   Started      Active      (In Billions)a     (In Billions)
                                            To provide incentives
 Principal                                  to investors to
 Reduction                                  modify homeowners’
                      6/3/2010    10/1/2010                                                    —     156,071c   126,790c          $2.00             $0.83
 Alternative                                mortgages under HAMP
 (“PRA”)b                                   by reducing the principal
                                            amount owed.
                                            To provide additional
                                            TARP-funded incentives
 Home Price                                 to investors to modify
 Decline                                    mortgages through
                     7/31/2009     9/1/2009                                                    —     217,747c   147,643c           1.55               0.36
 Protection                                 HAMP by partially
 (“HPDP”)b                                  offsetting possible
                                            losses from home price
                                            declines.
                                               To temporarily -- fully
 Home
                                               or partially -- suspend
 Affordable
                    3/26/2010d    7/1/2010e    mortgage payments                               —      40,360      5,226f            —g                 —g
 Unemployment
                                               for unemployed
 Program (“UP”)b
                                               homeowners.
                                               To provide TARP-
                                               funded incentives to
                                               servicers, investors,
 Home
                                               and homeowners to
 Affordable
                                               complete short sales
 Foreclosure       11/30/2009     4/5/2010h                                                    —     160,950          —            4.15               0.80
                                               and deeds-in-lieu to
 Alternatives
                                               avoid foreclosure and
 (“HAFA”)
                                               relocate homeowners
                                               unable to sustain a
                                               modified mortgage.
                                            To provide incentives
                                            to servicers, investors,
                                            and borrowers to
                                                                         “A Second Lien Program
                                            modify second
                                                                          to Reach up to 1 to 1.5
                                            mortgages (second
 Second Lien                                                                Million Homeowners,”
                                            liens) -- with a partial
 Modification                                                              according to Treasury,
                     4/28/2009    8/13/2009 or full extinguishment                                   137,039     83,185            0.13               0.61
 Program                                                                            “Making Home
                                            of the loan balance
 (“2MP”)                                                                     Affordable, Program
                                            -- for homeowners with
                                                                             Update, Fact Sheet,”
                                            a corresponding first
                                                                                      4/28/2009.
                                            mortgage (first lien)
                                            that was modified under
                                            HAMP.
                                                                               “Tens of thousands
                                                                            of FHA borrowers will
                                                                           now be able to modify
                                                                           their mortgages in the
                                                                              same manner as so
 Treasury/
                                                                             many others who are
 Federal Housing
                                            To provide TARP-funded,           taking advantage of
 Administration-
                                            HAMP-like incentives              the Administration’s
 Home
                                            to servicers and             Making Home Affordable
 Affordable         7/30/2009i    8/15/2009                                                           41,175     33,634            0.23               0.07
                                            homeowners to modify          program,” according to
 Modification
                                            mortgages insured by            HUD Secretary Shaun
 Program
                                            the FHA.                         Donovan, HUD Press
 (“Treasury/FHA-
                                                                         Release, “HUD Secretary
 HAMP”)
                                                                             Donovan Announces
                                                                                 New FHA-Making
                                                                           Home Affordable Loan
                                                                         Modification Guidelines,”
                                                                                     7/30/2009.
                                                                                                                                  Continued on next page
                                                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                   123




ADDITIONAL TARP-FUNDED MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS,
AS OF 6/30/2014 (CONTINUED)
                                                                                                                          Homeowners Assisted                                   Estimated
                                                                                                       Estimated Number                                                               TARP                  TARP
                              Date                  Date                                            of Homeowners to be Permanents Permanents                                   Allocation         Expenditures
Program                  Announced               Started       Purpose                                           Assisted   Started      Active                               (In Billions)a         (In Billions)
Department
of Agriculture
                                                       To provide TARP-funded,
Rural
                                                       HAMP-like incentives to
Development-
                                                       servicers and borrowers
Home                     9/17/2010i          9/24/2010                                                                          —                 166                140                 0.02                     —j
                                                       for modifications of
Affordable
                                                       mortgages insured by
Modification
                                                       RD.
Program (“RD-
HAMP”)
                                                       To provide TARP-funded
Treasury/
                                                       incentives to servicers
Federal Housing
                                                       and investors to partially
Administration
                                                       or fully extinguish
Second Lien              3/26/2010i           8/6/2010                                                                          —                    0                  0                2.69                   0.00
                                                       second mortgages
Program
                                                       (second liens) for
(“Treasury/FHA-
                                                       mortgages modified and
2LP”) l
                                                       insured by the FHA.
Department                                             To provide non-TARP-
of Veterans                                            funded, HAMP-like
Affairs-Home                                           incentives to servicers
Affordable                 1/8/2010i          2/1/2010 and borrowers for                                                        —                 483                368                  —k                     —k
Modification                                           modifications of
Program (“VA                                           mortgages insured by
HAMP”)                                                 the VA.
Notes:
a
    Estimated TARP allocations are as of January 5, 2012.
b
    Program is a subprogram of the Home Affordable Modification Program (“HAMP”).
c
    Includes HAMP Tier 1 and Tier 2 modifications.
d
    In a 3/26/2010 press release, Treasury announced the concept of what was later named the “UP” program in Treasury’s May 11, 2010 Supplemental Directive.
e
    Treasury announced that servicers could implement UP before July 1, 2010.
f
   Data is as of 5/31/2014. As of 5/31/2014, 6,532 homeowners who received UP assistance subsequently received HAMP modifications.
g
    Treasury does not allocate TARP funds to UP.
h
    Treasury announced that some servicers could implement HAFA before April 5, 2010.
i
  In its April 6, 2009 Supplemental Directive, Treasury announced that “Mortgage loans insured, guaranteed or held by a Federal Government agency (e.g., FHA, HUD, VA and Rural Development) may be eligible for the
   HAMP, subject to guidance issued by the relevant agency. Further details regarding inclusion of these loans in the HAMP will be provided in a subsequent Supplemental Directive.”
j
   As of June 30, 2014, $201,862 has been expended for RD-HAMP.
k
    Treasury does not provide incentive compensation related to VA-HAMP.
l
   As of March 31, 2013, the FHA2LP program had expired.

Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, 1/8/2014, 1/24/2014, 4/9/2014, 4/25/2014, 7/8/2014 and 7/24/2014; VA, responses to SIGTARP data calls, 1/8/2014, 4/3/2014 and
7/7/2014; Treasury, Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3, 9/16/2013; Treasury, press releases, 4/28/2013, 7/31/2009, 11/30/2009, and 3/26/2010;
Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009; Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program -- Home Price
Decline Protection Incentives,” 7/31/2009; Treasury, “Supplemental Directive 09-09: Introduction of Home Affordable Foreclosure Alternatives -- Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009; Treasury,
“Supplemental Directive 09-09 Revised: Introduction of Home Affordable Foreclosure Alternatives -- Short Sale and Deed in Lieu of Foreclosure Update,” 3/26/2010; Treasury, “Supplemental Directive 09-05 Revised:
Update to the Second Lien Modification Program (2MP),” 3/26/2010; Treasury, “Fact Sheet: FHA Program Adjustments to Support Refinancings for Underwater Homeowners,” 3/26/2010; Treasury, “HAMP
Improvements Fact Sheet: Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010; Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,”
5/11/2010; Treasury, “Supplemental Directive 10-05: Home Affordable Modification Program - Modification of Loans with Principal Reduction Alternative,” 6/3/2010; Treasury, Supplemental Directive 10-10: Home
Affordable Modification Program – Modifications of Loans Guaranteed by the Rural Housing Service,” 9/17/2010; HUD, press release, 7/30/2009; VA, Circular 26-10-2, 1/8/2010; and VA, Circular 26-10-6,
5/24/2010.
124   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Housing Finance Agency Hardest Hit Fund (“HHF”)
                                             More than four years ago, in February 2010, in an attempt to help families in
                                             places hurt the most by the housing crisis, the Administration launched the TARP-
                                             funded Housing Finance Agency Innovation Fund for the Hardest Hit Housing
                                             Markets (“Hardest Hit Fund” or “HHF”).256 The Administration announced that
                                             TARP funds would be used for “innovative measures to help families in the states
                                             that have been hit the hardest by the aftermath of the housing bubble.”257 This
                                             TARP-funded housing support program was to be developed and administered by
                                             state housing finance agencies (“HFAs”) with Treasury’s approval and oversight.258,vii
                                             Treasury allocated $7.6 billion in TARP funds for the HHF program and, through
                                             four rounds of funding in 2010, obligated these TARP funds to 18 states and
                                             the District of Columbia (“states”) – those states that Treasury deemed to have
                                             significant home price declines and high unemployment rates.259 Treasury approved
                                             each of the 19 states’ initial program proposals and approves any proposed changes
                                             to programs.260 These proposals include estimates of the number of homeowners to
                                             be helped through each program (some states have more than one program).261
                                                  The first round of HHF allocated $1.5 billion of the amount initially allocated
                                             for MHA initiatives. According to Treasury, these funds were designated for five
                                             states where the average home price had decreased more than 20% from its peak.
                                             The five states were Arizona, California, Florida, Michigan, and Nevada.262 Plans to
                                             use these funds were approved by Treasury on June 23, 2010.263
                                                  On March 29, 2010, Treasury expanded HHF to include five additional states
                                             and increased the program’s potential funding by $600 million, bringing total
                                             funding to $2.1 billion. The additional $600 million was designated for North
                                             Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
                                             these states were selected because of their high concentrations of people living in
                                             economically distressed areas, defined as counties in which the unemployment rate
                                             exceeded 12%, on average, in 2009.264 Plans to use these funds were approved by
                                             Treasury on August 3, 2010.265
                                                  On August 11, 2010, Treasury pledged a third round of HHF funding of $2
                                             billion to states with unemployment rates at or above the national average.266
                                             The states designated to receive funding were Alabama, California, Florida,
                                             Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
                                             North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
                                             Washington, DC.267 Treasury approved third round proposals on September 23,
                                             2010.268 On September 29, 2010, a fourth round of HHF funding of an additional
                                             $3.5 billion was made available to existing HHF participants.269
                                                  Treasury allocated the $7.6 billion in TARP funds to 18 states and the District
                                             of Columbia and has over time approved HHF programs in several categories:270



                                             vii Participating HFAs in HHF are from: Alabama, Arizona, California, Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi,
                                               Nevada, New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and Washington, DC. As of June 30,
                                               2014, there were 70 active HHF programs run by the 19 state HFAs. According to Treasury, six states: Illinois, New Jersey, Rhode
                                               Island, Washington, DC, Ohio and Oregon are no longer accepting applications for assistance from homeowners because they
                                               determined that their allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                                                      QUARTERLY REPORT TO CONGRESS I JULY 30, 2014            125




•	   Unemployment assistance, including past-due payment assistance
•	   Mortgage modification, including principal reduction assistance
•	   Second-lien reduction assistance
•	   Transition assistance, including short sale and deed-in-lieu of foreclosure
•	   Demolition

    According to Treasury, states can reallocate funds between programs and
modify existing programs as needed, with Treasury approval, until December 31,
2017.271 According to Treasury, between March 31, 2014 and June 30, 2014,
six states have reallocated funds, modified or eliminated existing programs, or                                                                    For more information on HHF, see:
established new HHF programs with Treasury approval, increasing the total                                                                          SIGTARP’s April 12, 2012, audit report,
number of HHF programs in 18 states and Washington, DC, as of June 30, 2014,                                                                       “Factors Affecting Implementation of the
to 70, up from 68 programs as of March 31, 2014.272 According to Treasury,                                                                         Hardest Hit Fund Program,” SIGTARP’s
three states made changes to their HHF programs in June, 2014: Oregon,                                                                             October 2013 Quarterly Report, pages
Tennessee and Nevada. To make additional funds available to new applicants,                                                                        189-255, SIGTARP’s January 2014
Tennessee reallocated administrative funds to its program allocation. Oregon                                                                       Quarterly Report, pages 97-154, and
stopped accepting new applications on June 30, 2014, but will continue reviewing                                                                   SIGTARP’s April 2014 Quarterly
existing applicants for assistance until all program funds have been committed.                                                                    Report, pages 97-156.
Nevada made clarifying changes to its mortgage payment assistance program and
introduced a new Recast, Refinance and Modification Program (“NRRM”), which
provides principal reduction assistance to significantly underwater homeowners
with non-GSE mortgages.273
    Separately, on May 7 and 8, Treasury held its Fifth Annual HHF Summit
in Washington, D.C. to strengthen cooperation and promote positive working
relationships among key HHF stakeholders. The Summit focused on program
evolution, foreclosure prevention models, operational challenges and best practices
in servicer and state outreach efforts.274

States’ TARP Allocations and Spending for HHF
Of the $7.6 billion in TARP funds available for HHF, states collectively had
drawn down $4.2 billion (55%) as of June 30, 2014.275 As of March 31, 2014,
the latest date for which spending analysis is available, states had drawn down
$3.8 billion (50%).276 However, not all of that has been spent on direct assistance
to homeowners. States have spent $2.8 billion (36% of the $7.6 billion) to assist
178,797 individual homeowners. States have spent the rest of the funds on
administrative expenses or hold the money as cash-on-hand. States have spent
$402.5 million (5%) on administrative expenses; and held $651.4 million (9%) as
unspent cash-on-hand, as of March 31, 2014, the latest data available.277,viii There
remains $3.8 billion (50%) in undrawn funds available for HHF, as of March 31,
2014.278
    As of March 31, 2014, the latest data available, in aggregate, after more than
three and a half years, states had spent 36% ($2.8 billion) of the $7.6 billion in

viii Beginning
     
               this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
  each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
  Additionally, cash-on-hand may include lien recoveries and borrower remittances.
126   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TARP funds that Treasury allocated for the HHF program to provide assistance
                                             to 209,878 program participants (which translates to 178,797 individual
                                             homeowners), or 38% of the number of homeowners the states anticipated helping
                                             with HHF in 2011.279,ix
                                                 As of March 31, 2014, 82.3% of the HHF assistance received by homeowners
                                             was for unemployment assistance, including past-due payment assistance.280 As
                                             SIGTARP found in its April 2012 audit, these were the only types of assistance
                                             for which the Government-sponsored enterprises (“GSE”s) previously directed
                                             servicers to participate. The remaining assistance can be broken down to 17% for
                                             mortgage modification, including principal reduction assistance, 0.4% for second-
                                             lien reduction assistance, and 0.2% for transition assistance.281 As of March 31,
                                             2014, Michigan is the only state to have spent funds ($1.2 million) on its blight
                                             elimination program; removing and greening 125 properties.282
                                                 Figure 2.7 shows state uses of TARP funds obligated for HHF by percent, as of
                                             March 31, 2014, the most recent figures available.




                                             ix A
                                                 ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                               programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                               and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                               cash-on-hand, or undrawn funds.
                                                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   127



FIGURE 2.7

STATE USES OF $7.6 BILLION OF TARP FUNDS AVAILABLE
FOR HHF, BY PERCENT, AS OF 3/31/2014

Alabama
$162.5 million
allocated
Arizona
$267.8 million
allocated
California
$1,975.3 million
allocated
Florida
$1,057.8 million
allocated
Georgia
$339.3 million
allocated
Illinois
$445.6 million
allocated
Indiana
$221.7 million
allocated
Kentucky
$148.9 million
allocated
Michigan
$498.6 million
allocated
Mississippi
$101.9 million
allocated
Nevada
$194.0 million
allocated
New Jersey
$300.5 million
allocated
North Carolina
$482.8 million
allocated
Ohio
$570.4 million
allocated
Oregon
$220.0 million
allocated
Rhode Island
$79.4 million
allocated
South Carolina
$295.4 million
allocated
Tennessee
$217.3 million
allocated
Washington D.C.
$20.7 million
allocated
TOTAL
$7.6 billion


                   0                         20                       40                        60                        80                           100

                        Homeowner Assistance                             Cash-on-Hand
                        Administrative Expenses                          Undrawn Funds

                   Notes: According to Treasury, committed program funds are funds committed to homeowners who have been approved to
                   participate in HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when
                   and how they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously
                   as homeowner assistance, cash-on-hand, or undrawn funds. Beginning this period, SIGTARP will be reporting spending figures
                   using each states Quarterly Financial Report, which reconciles each type of cash disbursements to funds drawn from Treasury.
                   As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                   borrower remittances. State spending figures as of March 31,2014, are the most recent available; Treasury has separately
                   published June 30, 2014, figures for amounts drawn down; as ofJune 30, 2014, states have drawn down $4.2 billion.

                   Sources: Treasury, Transactions Report-Housing Programs, 3/27/2014; Treasury, responses to SIGTARP data calls,
                   7/5/2013, 10/3/2013, 10/7/2013, 10/17/2013, 1/17/2014, 1/22/2014, 1/23/2014, 4/9/2014, and 7/8/2014.
128   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             State Estimates of Homeowner Participation in HHF
                                             According to Treasury, as of March 31, 2014, states had spent $2.8 billion to help
                                             178,797 homeowners; in the quarter ended March 31, 2014, states had spent
                                             $418.1 million to help 17,014 homeowners.283 Each state estimates the number
                                             of homeowners to be helped in its programs. In the beginning of 2011, states
                                             collectively estimated that they would help 546,562 homeowners with HHF.284
                                             Since then, with Treasury’s approval, states have changed their programs (including
                                             reducing the estimated number of homeowners to be helped), cancelled programs,
                                             and started new programs.285 As of March 31, 2014, the states estimated helping
                                             303,775 homeowners with HHF, which is 242,787 fewer homeowners than the
                                             states estimated helping with HHF in 2011, a decline of 44%.
                                                 Importantly, the states collectively estimate that HHF will help 303,775
                                             homeowners but fail to take into account that when states report program
                                             participation numbers, homeowners may be counted more than once when they
                                             receive assistance from multiple HHF programs offered in their state (as of March
                                             31, 2014, 14 states have more than one program). For example, a homeowner may
                                             have lost his job, missed three months of mortgage payments, and then sought
                                             help from his state. This homeowner might be qualified to receive assistance from
                                             two HHF programs offered by his state, one that could help him make up missed
                                             mortgage payments, and a second that could help him pay his future mortgage
                                             payments while he seeks new employment. Treasury requires states to estimate the
                                             number of people who will participate in each of their programs, and then report
                                             the number who actually participate in each program.286 It also requires them to
                                             report the total number of individual homeowners assisted, which is lower than the
                                             reported program participation numbers when homeowners have participated in
                                             more than one program offered by their state.287
                                                 As of March 31, 2014, the states reported that 209,878 homeowners
                                             participated in HHF programs.288 However, because homeowners may participate
                                             in more than one program, the reported program participation numbers are higher
                                             than the total number of individual homeowners assisted. According to Treasury,
                                             178,797 individual homeowners participated in HHF programs.289
                                                 Table 2.25 provides each state’s estimate of the number of homeowners it
                                             projects it will help and the actual number of homeowners helped as of March 31,
                                             2014.x




                                             x Program participation and homeowners assisted data does not take into account the status of the mortgage (i.e., active, delinquent, in
                                              foreclosure, foreclosed, or sold) of homeowners who received TARP-funded HHF assistance.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   129




TABLE 2.25
 HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND
 ASSISTANCE PROVIDED BY STATE AS OF 3/31/2014
                                  Estimated Number
                                     of Participating
                                       Households to                 Actual Borrowers
                                      be Assisted by             Receiving Assistance                 Assistance Provided
 Recipient                            12/31/2017*                 as of 3/31/2014**                   as of 3/31/2014**
 Alabama                                             5,800                              3,297                    $26,322,546
 Arizona                                             7,606                              2,860                      62,180,822
 California                                        65,624                             37,275                     632,937,740
 Florida                                           39,000                             16,025                     292,350,948
 Georgia                                           15,100                               4,770                      71,046,563
 Illinois                                          13,500                             12,762                     260,357,116
 Indiana                                           10,150                               3,116                      35,302,778
 Kentucky                                            5,960                              5,368                      59,089,636
 Michigan                                          11,477                             19,318                     146,320,749
 Mississippi                                         3,500                              2,221                      28,687,115
 Nevada                                              6,854                              5,202                      82,032,888
 New Jersey                                          6,500                              5,473                    151,525,709
 North Carolina                                    21,310                             15,973                     238,171,534
 Ohio                                              41,201                             18,094                     264,656,521
 Oregon                                            15,280                               9,856                    139,063,798
 Rhode Island                                        3,413                              3,070                      56,708,539
 South Carolina                                    19,400                               7,425                    101,683,797
 Tennessee                                         11,300                               6,023                      92,437,207
 Washington, DC                                        800                                 669                     11,973,309
 Total                                          303,775                            178,797                 $2,752,849,314
 Note: Estimated includes highest estimate of a range. Beginning this period, SIGTARP will be reporting the program expenses above
 using each state’s Quarterly Financial Report, which reconciles each type of cash disbursements to funds drawn from Treasury. As
 such, all expenses are based on actual cash disbursements.

 *Source: Estimates are from the latest HFA Participation Agreements as of 3/31/2014. Later amendments are not included for
 consistency with Quarterly Performance reporting.

 States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
 the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
 translate into the number of unique households that the states expect to assist because some households may participate in more
 than one HHF program.

 **Sources: Treasury, response to SIGTARP data call, 7/8/2014; First Quarter 2014 HFA Performance Data quarterly reports and
 First Quarter 2014 HFA Aggregate Quarterly Report.
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             State by State Updates
                                             Of the 19 states participating in HHF, over time 18 have reduced their estimates
                                             of how many homeowners will participate in HHF, most of them significantly
                                             since their peak estimates. One state, Oregon, increased its estimate. Collectively,
                                             since the peak in early 2011, the 19 states have reduced their estimates of how
                                             many people they would help by 44%. Seven states have reduced their estimates by
                                             more than 50%: Alabama (57% reduction), Florida (63% reduction), Illinois (53%
                                             reduction), Kentucky (60% reduction), Michigan (77% reduction), Nevada (71%
                                             reduction), and Rhode Island (74% reduction).
                                                 Collectively, as of March 31, 2014, the states have spent $2.8 billion on direct
                                             assistance to homeowners, or 36% of the $7.6 billion in TARP funds obligated to
                                             HHF.290,xi Of the 19 HHF states, Rhode Island has spent the highest percentage,
                                             71%, of its obligated funds on homeowner assistance. Indiana has spent the lowest
                                             percentage, 16%. In addition to Indiana, three other states have spent less than
                                             26% of their obligated funds on assistance to homeowners: Alabama, Arizona, and
                                             Georgia. For each of the states, the following pages review estimates of program
                                             participation and reported numbers of homeowners who have been assisted, as well
                                             as expenditures compared with obligated funds.
                                                  According to Treasury, six states are no longer accepting applications for
                                             assistance from homeowners because they determined that their allocated HHF
                                             funds would be spent on homeowners who already have been approved for HHF
                                             assistance.291,xii They include Rhode Island, Illinois, New Jersey, Oregon, Ohio and
                                             Washington, DC. Rhode Island stopped accepting applications after January 31,
                                             2013.292 Illinois stopped accepting applications after September 30, 2013.293 New
                                             Jersey stopped accepting applications after November 30, 2013.294 Washington, DC
                                             stopped accepting applications after November 22, 2013. Ohio stopped accepting
                                             new applications after April 30, 2014 and Oregon Homeownership Stabilization
                                             Initiative stopped accepting new applications after June 30, 2014.295




                                             xi A
                                                 ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                             xii According to Treasury, Illinois and Rhode Island are no longer accepting applications for assistance from homeowners because they
                                                  determined that their allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   131




Alabama’s HHF Programs
Even though Treasury obligated $162,521,345 of HHF funds to Alabama, Alabama
is not getting a significant amount of these funds out the door to help homeowners
with HHF.296 As of March 31, 2014, the state had drawn down $34 million (21%)
of those funds.297,xiii As of March 31, 2014, the most recent data available, Alabama
had spent $26.3 million (16% of its obligated funds) to help 3,297 individual
homeowners with its HHF programs.298,xiv The remaining $6.5 million (4%) was
spent on administrative expenses, and $1.4 million (1%) is held as cash-on-
hand.299,xv As of March 31, 2014, the state had three active HHF programs, one to
provide unemployment assistance to homeowners, a second to modify homeowners’
mortgages, and a third to provide HHF transition assistance. At the end of 2010,
Alabama estimated that it would help as many as 13,500 homeowners with HHF
but, as of March 31, 2014, reduced that peak estimate by 57%, to 5,800. Figure
2.8 shows, in aggregate, the number of homeowners estimated to participate in
Alabama’s programs (estimated program participation), the reported number of
homeowners who participated in one or more programs (program participation),
and the total number of individual homeowners assisted, as of March 31, 2014.
Figure 2.9 shows the number of homeowners estimated to participate in each of
Alabama’s programs (estimated program participation) and the reported number
of homeowners who participated in each of Alabama’s programs (program
participation), as of March 31, 2014.




xiii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Alabama had drawn down
    $40 million.
xiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xv Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
    each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
    Additionally, cash-on-hand may include lien recoveries and borrower remittances.
132   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.8

                                                 ALABAMA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                 PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                 HHF PROGRAMS, AS OF 3/31/2014
                                                 15,000

                                                                                                         Peak estimate: 13,500
                                                                                                         3/31/2014 estimate: 5,800
                                                 12,000                                                  3/31/2014 program participation: 3,297
                                                                                                         Homeowners assisted: 3,297



                                                  9,000




                                                  6,000




                                                  3,000




                                                     0
                                                          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14


                                                             State Estimated Program Participation                 Homeowners Assisted
                                                             Program Participation

                                                          Notes: Estimated includes highest estimate of a range.

                                                          Sources: States provide estimates for program participation and report program participation and
                                                          homeowners assisted numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury
                                                          and Alabama Housing Finance Authority, Commitment to Purchase Financial Instrument and HFA
                                                          Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh
                                                          Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011,
                                                          6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly
                                                          Performance Reports Q1 2011 - Q1 2014, no date.
                                                                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               133




FIGURE 2.9

 ALABAMA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 3/31/2014

      HARDEST HIT FOR ALABAMA'S UNEMPLOYED                                                                               SHORT SALE ASSISTANCE PROGRAM
      HOMEOWNERS (UNEMPLOYMENT)                                                                                          (TRANSITION)
       15,000                                                 Peak estimate: 13,500                                      2,000                      Peak estimate: 1,500
                                                              3/31/14 estimate: 3,100                                                               3/31/14 estimate: 1,500
       12,000
                                                              3/31/14 program participation: 3,294                       1,500                      3/31/14 program participation: 0
        9,000
                                                                                                                         1,000
         6,000

         3,000
                                                                                                                          500

             0                                                                                                               0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                      Program Participation                                State Estimated Program Participation                      Program Participation




      LOAN MODIFICATION ASSISTANCE PROGRAM
      (MODIFICATION)
        2,000                                       Peak estimate: 1,200
                                                    3/31/14 estimate: 1,200
        1,500                                       3/31/14 program participation: 3
        1,000

          500

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                      Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury and Alabama Housing
 Finance Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],
 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance Reports Q1 2011 - Q1
 2014, no date.
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Arizona’s HHF Programs
                                             Even though Treasury obligated $267,766,006 of HHF funds to Arizona, Arizona
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.300 As of March 31, 2014, the state had drawn down $127 million (47%)
                                             of those funds.301,xvi As of March 31, 2014, the most recent data available, Arizona
                                             had spent $62.2 million (23% of its obligated funds) to help 2,860 individual
                                             homeowners with its HHF programs.302,xvii The remaining $12.7 million (5%)
                                             was spent on administrative expenses, and $24.2 million (9%) is held as cash-on-
                                             hand.303,xviii As of March 31, 2014, the state had four active HHF programs: one to
                                             modify homeowners’ mortgages with principal reduction assistance, a second to
                                             provide HHF second-lien reduction assistance to homeowners, a third to provide
                                             unemployment assistance to homeowners, and a fourth to provide transition
                                             assistance to homeowners. At the end of 2010, Arizona estimated that it would help
                                             as many as 11,959 homeowners with HHF but, as of March 31 2014, had reduced
                                             that peak estimate by 36%, to 7,606.
                                                 Figure 2.10 shows, in aggregate, the number of homeowners estimated to
                                             participate in Arizona’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             March 31, 2014. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 2.11 shows the number of homeowners
                                             estimated to participate in each of Arizona’s programs (estimated program
                                             participation) and the reported number of homeowners who participated in each of
                                             Arizona’s programs (program participation), as of March 31, 2014.




                                             xvi Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Arizona had drawn down
                                                 $127 million.
                                             xvii A
                                                   ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xviii Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                    each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                    Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   135




FIGURE 2.10

ARIZONA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 3/31/2014

12,000



10,000



 8,000



 6,000
                                   Peak estimate: 11,959
                                   3/31/2014 estimate: 7,606
 4,000                             3/31/2014 program participation: 3,073
                                   Homeowners assisted: 2,860


 2,000



    0
         Q110 Q2’10
         Q1’10 Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114


            State Estimated Program Participation            Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Arizona (Home) Foreclosure Prevention Funding Corporation,
         Proposal, no date; Treasury and Arizona (Home) Foreclosure Prevention Funding Corporation,
         Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona
         (Home) Foreclosure Prevention Funding Corporation, first through thirteenth Amendment[s] to
         Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011,
         8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012, 6/6/2013, 10/30/2013, and 2/27/2014;
         Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly
         performance reports), Quarterly Performance Reports Q3 2010 - Q1 2014, no date; Treasury,
         responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
136              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.11

       ARIZONA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 3/31/2014

            PRINCIPAL REDUCTION ASSISTANCE                                                                                     SECOND MORTGAGE ASSISTANCE COMPONENT
            (MODIFICATION)                                                                                                     (SECOND-LIEN REDUCTION)
                                                                      Peak estimate: 7,227
                                                                                                                                                                                           Peak estimate: 1,875
                                                                      3/31/14 estimate: 1,849
             10,000                                                                                                             2,000                                                      3/31/14 estimate: 1,279
                                                                      3/31/14 program participation: 677
                                                                                                                                                                                           3/31/14 program participation: 168
               8,000
                                                                                                                                1,500
               6,000
                                                                                                                                1,000
               4,000
                                                                                                                                 500
               2,000

                  0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                               State Estimated Program Participation                      Program Participation                                 State Estimated Program Participation                      Program Participation




            UNEMPLOYMENT/UNDEREMPLOYMENT MORTGAGE                                                                              SHORT SALE ASSISTANCE COMPONENT
            ASSISTANCE COMPONENT (UNEMPLOYMENT)                                                                                (TRANSITION)
                                                                    Peak estimate: 4,140
               6,000
                                                                    3/31/14 estimate: 4,140                                     2,000                                                     Peak estimate: 1,200
               5,000                                                3/31/14 program participation: 2,140                                                                                  3/31/14 estimate: 338
                                                                                                                                1,500                                                     3/31/14 program participation: 88
               4,000
               3,000                                                                                                            1,000
               2,000
                                                                                                                                 500
               1,000
                  0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                               State Estimated Program Participation                      Program Participation                                 State Estimated Program Participation                      Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Arizona (Home) Foreclosure Prevention Funding Corporation, Proposal, no date; Treasury and
       Arizona (Home) Foreclosure Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding
       Corporation, first through thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012,
       6/6/2013, 10/30/2013, and 2/27/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly Performance Reports Q3
       2010 - Q1 2014, no date; Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   137




California’s HHF Programs
Even though Treasury obligated $1,975,334,096 of HHF funds to California,
California is not getting a significant amount of these funds out the door to help
homeowners with HHF.304 As of March 31, 2014, the state had drawn down
$967.5 million (49%) of those funds.305,xix As of March 31, 2014, the most recent
data available, California had spent $632.9 (32% of its obligated funds) to help
37,275 individual homeowners with its HHF programs.306,xx The remaining $74.9
million (4%) was spent on administrative expenses, and $269.7 million (14%) is
held as cash-on-hand.307,xxi As of March 31, 2014, the state had five active HHF
programs: one to provide unemployment assistance to homeowners, a second
to modify homeowners’ mortgages with principal reduction assistance, a third
to provide HHF transition assistance to homeowners, a fourth to provide past-
due payment assistance to homeowners, and a fifth to provide HHF second-lien,
principal reduction assistance to homeowners.
    At the end of 2010, California estimated that it would help as many as 101,337
homeowners with HHF but, as of March 31, 2014, had reduced that peak estimate
by 35%, to 65,624.
    Figure 2.12 shows, in aggregate, the number of homeowners estimated to
participate in California’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
March 31, 2014. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 2.13 shows the number of homeowners
estimated to participate in each of California’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
California’s programs (program participation), as of March 31, 2014.




xix Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, California had drawn down
    $967.5 million.
xx According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
   programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
   and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
   cash-on-hand, or undrawn funds.
xxi Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
     each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
     Additionally, cash-on-hand may include lien recoveries and borrower remittances.
138   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.12

                                                 CALIFORNIA ESTIMATED PROGRAM PARTICIPATION,
                                                 PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                 ASSISTED, IN ALL HHF PROGRAMS, AS OF 3/31/2014

                                                 120,000



                                                 100,000



                                                  80,000



                                                  60,000

                                                                                       Peak estimate: 101,337
                                                                                       3/31/2014 estimate: 65,624
                                                  40,000                               3/31/2014 program participation: 39,930
                                                                                       Homeowners assisted: 37,275


                                                  20,000



                                                      0
                                                           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14


                                                            State Estimated Program Participation              Homeowners Assisted
                                                            Program Participation

                                                       Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                       double-counted individual homeowners who received assistance from more than one program in states
                                                       that have more than one program.

                                                       Sources: States provide estimates for program participation and report program participation and
                                                       homeowners assisted numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury
                                                       and CalHFA Mortgage Assistance Corporation, Commitment to Purchase Financial Instrument and HFA
                                                       Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through twelfth
                                                       Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011,
                                                       10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, 9/20/2013, and 2/27/2014; CalHFA
                                                       Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly
                                                       Reports,” Quarterly Performance Reports Q4 2010 - Q1 2014, no date.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               139



FIGURE 2.13

 CALIFORNIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 3/31/2014

      UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                                           MORTGAGE REINSTATEMENT ASSISTANCE PROGRAM
      (UNEMPLOYMENT)                                                                                                     (PAST-DUE PAYMENT)
                                                            Peak estimate: 60,531
      100,000                                               3/31/14 estimate: 41,202                                     25,000                                               Peak estimate: 17,293
                                                            3/31/14 program participation: 30,342                                                                             3/31/14 estimate: 9,190
       80,000                                                                                                            20,000                                               3/31/14 program participation: 5,542
       60,000                                                                                                            15,000

       40,000                                                                                                            10,000

       20,000                                                                                                             5,000

            0                                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                                         TRANSITION ASSISTANCE PROGRAM
                                                                                                                         (TRANSITION)
                                                             Peak estimate: 25,135                                                                                               Peak estimate: 6,471
       50,000                                                                                                            10,000                                                  3/31/14 estimate: 1,000
                                                             3/31/14 estimate: 13,862
       40,000                                                3/31/14 program participation: 3,450                         8,000
                                                                                                                                                                                 3/31/14 program participation: 563

       30,000                                                                                                             6,000

       20,000                                                                                                             4,000

       10,000                                                                                                             2,000

             0                                                                                                                0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      COMMUNITY SECOND MORTGAGE PRINCIPAL                                                                                LOS ANGELES HOUSING DEPARTMENT PRINCIPAL
      REDUCTION PROGRAM (SECOND-LIEN REDUCTION)                                                                          REDUCTION PROGRAM (MODIFICATION)

          500                                                                                                              200

          375                                                                                                              150

          250                                                                                                              100        Peak estimate: 166
                     Peak estimate: 370
                                                                                                                                      3/31/14 estimate: 0
                     3/31/14 estimate: 370
          125                                                                                                               50        3/31/14 program participation: 0
                     3/31/14 program participation: 33
            0                                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      NEIGHBORWORKS SACRAMENTO SHORT SALE
      GATEWAY PROGRAM (TRANSITION)

          200                                                      Peak estimate: 91
                                                                   3/31/14 estimate: 0
          150                                                      3/31/14 program participation: 0

          100

           50

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury and CalHFA Mortgage
 Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through twelfth Amendment[s]
 to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, 9/20/2013, and 2/27/2014; CalHFA Mortgage
 Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” Quarterly Performance Reports Q4 2010 - Q1 2014, no date; Treasury, response to SIGTARP data call,
 10/3/2013.
140   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Florida’s HHF Programs
                                             Even though Treasury obligated $1,057,839,136 of HHF funds to Florida, Florida
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.308 As of March 31, 2014, the state had drawn down $411.3 million
                                             (39%) of those funds.309,xxii As of March 31, 2014, the most recent data available,
                                             Florida had spent $292.4 million (28% of its obligated funds) to help 16,025
                                             individual homeowners with its HHF programs.310,xxiii The remaining $38.3 million
                                             (4%) was spent on administrative expenses, and $81.5 million (8%) is held as cash-
                                             on-hand.311,xxiv As of March 31, 2014, the state had five active HHF programs: one
                                             to provide unemployment assistance to homeowners, a second and third to provide
                                             past-due payment assistance to homeowners, and a fourth and fifth to modify
                                             homeowners’ mortgages. At the start of 2011, Florida estimated that it would
                                             help as many as 106,000 homeowners with HHF but, as of March 31, 2014, had
                                             reduced that peak estimate by 63%, to 39,000.
                                                 Figure 2.14 shows, in aggregate, the number of homeowners estimated to
                                             participate in Florida’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             March 31, 2014. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 2.15 shows the number of homeowners
                                             estimated to participate in each of Florida’s programs (estimated program
                                             participation) and the reported number of homeowners who participated in each of
                                             Florida’s programs (program participation), as of March 31, 2014.




                                             xxii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Florida had drawn down
                                                  $476.3 million.
                                             xxiii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xxiv B
                                                   eginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                  each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                  Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   141




FIGURE 2.14

FLORIDA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 3/31/2014

120,000



100,000



 80,000



 60,000                                Peak estimate: 106,000
                                       3/31/2014 estimate: 39,000
                                       3/31/2014 program participation: 26,118
                                       Homeowners assisted: 16,025
 40,000



 20,000



     0
          Q110 Q2’10
          Q1’10 Q210 Q3’10
                     Q310 Q4’10
                           Q410 Q1’11
                                Q111 Q2’11
                                      Q211 Q3’11
                                           Q311 Q4’11
                                                 Q411 Q1’12
                                                      Q112 Q2’12
                                                            Q212 Q3’12
                                                                 Q312 Q4’12
                                                                       Q412 Q1’13
                                                                            Q113 Q2’13
                                                                                  Q213 Q3’13
                                                                                       Q313 Q4’13
                                                                                             Q413 Q1’14
                                                                                                  Q114


             State Estimated Program Participation            Homeowners Assisted
             Program Participation

          Notes: Estimated includes highest estimate of a range. Program participation numbers may have
          double-counted individual homeowners who received assistance from more than one program in states
          that have more than one program.

          Sources: States provide estimates for program participation and report program participation and
          homeowners assisted numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and
          Florida Housing Finance Corporation, Commitment to Purchase Financial Instrument and HFA
          Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth
          Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012,
          9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit
          Fund (HHF) Information, Quarterly Reports, Quarterly Performance Reports Q3 2010 - Q1 2014, no
          date; Treasury, response to SIGTARP data call, 10/3/2013.
142              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.15

       FLORIDA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 3/31/2014

            UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                                           MORTGAGE LOAN REINSTATEMENT PROGRAM
            (UNEMPLOYMENT)                                                                                                     (PAST-DUE PAYMENT)
             100,000                                               Peak estimate: 53,000                                       100,000
                                                                                                                                                                                      Peak estimate: 53,000
              80,000
                                                                   3/31/14 estimate: 25,000                                     80,000                                                3/31/14 estimate: 25,000
                                                                   3/31/14 program participation: 12,634                                                                              3/31/14 program participation: 11,685
              60,000                                                                                                            60,000

              40,000                                                                                                            40,000

              20,000                                                                                                            20,000

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                 State Estimated Program Participation                       Program Participation




            MODIFICATION ENABLING PILOT PROGRAM                                                                                PRINCIPAL REDUCTION PROGRAM (MODIFICATION)
            (MODIFICATION)
               2,000                                                                                                           50,000                                                Peak estimate: 10,000
                                                                                                                               40,000                                                3/31/14 estimate: 10,000
               1,500                          Peak estimate: 1,500                                                                                                                   3/31/14 program participation: 1,756
                                              3/31/14 estimate: 1,500                                                          30,000
               1,000                          3/31/14 program participation: 8
                                                                                                                               20,000
                500
                                                                                                                               10,000

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                 State Estimated Program Participation                       Program Participation




            ELDERLY MORTGAGE ASSISTANCE PROGRAM
            (PAST-DUE PAYMENT)
             10,000                                                 Peak estimate: 2,500
               8,000
                                                                    3/31/14 estimate: 2,500
                                                                    3/31/14 program participation: 35
               6,000

               4,000

               2,000

                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. Florida estimates that it will serve approximately 25,000 homeowners in the
       aggregate between its Unemployment Mortgage Assistance Program and its Mortgage Loan Reinstatement Program.

       Sources: States provide estimates for program participation and report program participation numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and Florida Housing Finance
       Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],
       9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit Fund (HHF) Information, Quarterly
       Reports, Quarterly Performance Reports Q3 2010 - Q1 2014, no date; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   143




Georgia’s HHF Program
Even though Treasury obligated $339,255,819 of HHF funds to Georgia, Georgia
is not getting a significant amount of these funds out the door to help homeowners
with HHF.312 As of March 31, 2014, the state had drawn down $144.4 million
(43%) of those funds.313,xxv As of March 31, 2014, the most recent data available,
Georgia had spent $71 million (21% of its obligated funds) to help 4,770 individual
homeowners with its HHF program.314,xxvi The remaining $14.8 million (4%) was
spent on administrative expenses, and $58.8 million (17%) is held as cash-on-
hand.315,xxvii As of March 31, 2014, the state had three active HHF programs: one
to provide unemployment assistance to homeowners, a second to provide past-due
payment assistance to homeowners, and a third to modify homeowners’ mortgages.
At the end of 2010, Georgia estimated that it would help as many as 18,300
homeowners with HHF but, as of March 31, 2014, had reduced that peak estimate
by 17%, to 15,100.316
    Figure 2.16 shows the number of homeowners estimated to participate in
Georgia’s program and the number of homeowners who have been assisted, as
of March 31, 2014. Figure 2.17 shows the number of homeowners estimated to
participate in each of Georgia’s programs (estimated program participation) and the
reported number of homeowners who participated in each of Georgia’s programs
(program participation), as of March 31, 2014.




xxv Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Georgia had drawn down
    $144.4 million.
xxvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
xxvii B
       eginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
      each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
      Additionally, cash-on-hand may include lien recoveries and borrower remittances.
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       FIGURE 2.16

                                                       GEORGIA’S ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                       PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                       HHF PROGRAMS, AS OF 3/31/2014

                                                       20,000




                                                       15,000




                                                                                                     Peak estimate: 18,300
                                                       10,000                                        3/31/2014 estimate: 15,100
                                                                                                     3/31/2014 program participation: 4,770
                                                                                                     Homeowners assisted: 4,770



                                                        5,000




                                                           0
                                                                Q110 Q2’10
                                                                Q1’10 Q210 Q3’10
                                                                           Q310 Q4’10
                                                                                 Q410 Q1’11
                                                                                      Q111 Q2’11
                                                                                            Q211 Q3’11
                                                                                                 Q311 Q4’11
                                                                                                       Q411 Q1’12
                                                                                                            Q112 Q2’12
                                                                                                                  Q212 Q3’12
                                                                                                                       Q312 Q4’12
                                                                                                                             Q412 Q1’13
                                                                                                                                  Q113 Q2’13
                                                                                                                                        Q213 Q3’13
                                                                                                                                             Q313 Q4’13
                                                                                                                                                   Q413 Q1’14
                                                                                                                                                        Q114


                                                                   State Estimated Program Participation                 Homeowners Assisted
                                                                   Program Participation

                                                                Notes: Estimated includes highest estimate of a range.

                                                                Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                                GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA Affordable Housing Inc.,
                                                                Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; GHFA
                                                                Affordable Housing Inc., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
                                                                12/16/2010, 6/28/2011, 5/3/2012, 12/12/2013, and 1/31/2014; GHFA Affordable Housing Inc.,
                                                                HomeSafe Georgia, US Treasury Reports, Quarterly Performance Reports Q4 2010 - Q1 2014, no
                                                                date.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               145




FIGURE 2.17

 GEORGIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 3/31/2014

      MORTGAGE PAYMENT ASSISTANCE                                                                                        MORTGAGE REINSTATEMENT PROGRAM
      (UNEMPLOYMENT)      Peak estimate: 18,300
                                                                                                                         (PAST-DUE PAYMENT)
       25,000                                                 3/31/14 estimate: 9,100                                    10,000
                                                              3/31/14 program participation: 4,770
       20,000
                                                                                                                          7,500                             Peak estimate: 5,000
       15,000                                                                                                                                               3/31/14 estimate: 5,000
                                                                                                                          5,000                             3/31/14 program participation: 0
       10,000

         5,000
                                                                                                                          2,500

             0                                                                                                                0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                      Program Participation                                 State Estimated Program Participation                      Program Participation




      RECAST/MODIFICATION (MODIFICATION)

        2,000

        1,500                              Peak estimate: 1,000
                                           3/31/14 estimate: 1,000
        1,000                              3/31/14 program participation: 0

          500

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                      Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and homeowners assisted numbers. GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA Affordable Housing Inc.,
 Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; GHFA Affordable Housing Inc., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
 12/16/2010, 6/28/2011, 5/3/2012, 12/12/2013, and 1/31/2014; GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports, Quarterly Performance Reports Q4 2010 - Q1 2014, no
 date.
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Illinois’s HHF Programs
                                             Treasury obligated $445,603,557 of HHF funds to Illinois.317 As of March 31,
                                             2014, the state had drawn down $310 million (70%) of those funds.318,xxviii As of
                                             March 31, 2014, the most recent data available, Illinois had spent $260.4 million
                                             (58% of its obligated funds) to help 12,762 individual homeowners.319,xxix The
                                             remaining $25.2 million (6%) was spent on administrative expenses, and $27.1
                                             million (6%) is held as cash-on-hand.320,xxx As of March 31, 2014, the state had
                                             three HHF programs: one to provide unemployment assistance to homeowners and
                                             a second and third to modify homeowners’ mortgages. Illinois stopped accepting
                                             new applications from struggling homeowners seeking help from their HHF
                                             programs submitted after September 30, 2013.321,xxxi In mid-2011, Illinois estimated
                                             that it would help as many as 29,000 homeowners with HHF but, as of March 31,
                                             2014, reduced that peak estimate by 53%, to 13,500.
                                                  Figure 2.18 shows, in aggregate, the number of homeowners estimated to
                                             participate in Illinois’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             March 31, 2014. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 2.19 shows the number of homeowners
                                             estimated to participate in each of Illinois’s programs (estimated program
                                             participation) and the reported number of homeowners who participated in each of
                                             Illinois’s programs (program participation), as of March 31, 2014.




                                             xxviii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Illinois had drawn down
                                                   $360 million.
                                             xxix A
                                                   ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xxx Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                  each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                  Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                             xxxi A
                                                   ccording to Treasury, Illinois is no longer accepting applications for assistance from homeowners because it determined that its
                                                  allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                            QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   147




FIGURE 2.18

ILLINOIS ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 3/31/2014

30,000



25,000



20,000



15,000


                              Peak estimate: 29,000
10,000                        3/31/2014 estimate: 13,500
                              3/31/2014 program participation: 12,777
                              Homeowners assisted: 12,762

 5,000



    0
         Q1’10
         Q110 Q2’10
               Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114


            State Estimated Program Participation             Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in
         states that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Illinois Housing Development Authority, Proposal, no date; Treasury
         and Illinois Housing Development Authority, Commitment to Purchase Financial Instrument and HFA
         Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through ninth
         Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012,
         8/2/2012, 9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois
         Hardest Hit Program, Reporting, Quarterly Performance Reports Q1 2011 - Q1 2014,
         no date.
148              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.19

       ILLINOIS ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 3/31/2014

            HARDEST HIT FUND HOMEOWNER EMERGENCY                                                                               MORTGAGE RESOLUTION FUND PROGRAM
            LOAN PROGRAM (UNEMPLOYMENT)                                                                                        (MODIFICATION)

             50,000                                                Peak estimate: 27,000                                        2,000
                                                                   3/31/14 estimate: 12,000
             40,000                                                3/31/14 program participation: 12,375                        1,500
                                                                                                                                                                Peak estimate: 2,000
             30,000
                                                                                                                                1,000                           3/31/14 estimate: 1,000
             20,000                                                                                                                                             3/31/14 program participation: 173
                                                                                                                                 500
             10,000

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




            HOME PRESERVATION PROGRAM (MODIFICATION)


                500

                375                      Peak estimate: 500
                                         3/31/14 estimate: 500
                250                      3/31/14 program participation: 229
                125

                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Illinois Housing Development Authority, Proposal, no date; Treasury and Illinois Housing
       Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through ninth Amendment[s] to
       Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012, 9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois Hardest Hit Program,
       Reporting, Quarterly Performance Reports Q1 2011 - Q1 2014, no date.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   149




Indiana’s HHF Programs
Even though Treasury obligated $221,694,139 of HHF funds to Indiana, Indiana
is not getting a significant amount of these funds out the door to help homeowners
with HHF.322 As of March 31, 2014, the state had drawn down $66.3 million (30%)
of those funds.323,xxxii As of March 31, 2014, the most recent data available Indiana
had spent $35.3 million (16% of its obligated funds) to help 3,116 individual
homeowners with its HHF programs.324,xxxiii The remaining $12.6 million (6%)
was spent on administrative expenses, and $18.6 million (8%) is held as cash-on-
hand.325,xxxiv As of March 31, 2014, the state had four active HHF programs: one to
provide unemployment assistance to homeowners, a second to modify homeowners’
mortgages, a third to provide transition assistance to homeowners, and a fourth
to demolish vacant properties. At the start of 2011, Indiana estimated helping as
many as 16,257 homeowners with HHF but, as of March 31, 2014, reduced that
peak estimate by 38%, to 10,150.
    Figure 2.20 shows, in aggregate, the number of homeowners estimated to
participate in Indiana’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
March 31, 2014. Figure 2.21 shows the number of homeowners estimated to
participate in each of Indiana’s programs (estimated program participation) and the
reported number of homeowners who participated in each of Indiana’s programs
(program participation), as of March 31, 2014.




xxxii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Indiana had drawn down
      $66.3 million.
xxxiii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xxxiv B
       eginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
      each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
      Additionally, cash-on-hand may include lien recoveries and borrower remittances.
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.20

                                                 INDIANA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                 PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                 HHF PROGRAMS, AS OF 3/31/2014

                                                 20,000




                                                 15,000




                                                 10,000


                                                                                                Peak estimate: 16,257
                                                                                                3/31/2014 estimate: 10,150
                                                  5,000                                         3/31/2014 program participation: 3,116
                                                                                                Homeowners assisted: 3,116




                                                     0
                                                          Q110 Q2’10
                                                          Q1’10 Q210 Q3’10
                                                                     Q310 Q4’10
                                                                           Q410 Q1’11
                                                                                Q111 Q2’11
                                                                                      Q211 Q3’11
                                                                                           Q311 Q4’11
                                                                                                 Q411 Q1’12
                                                                                                      Q112 Q2’12
                                                                                                            Q212 Q3’12
                                                                                                                 Q312 Q4’12
                                                                                                                       Q412 Q1’13
                                                                                                                            Q113 Q2’13
                                                                                                                                  Q213 Q3’13
                                                                                                                                       Q313 Q4’13
                                                                                                                                             Q413 Q1’14
                                                                                                                                                  Q114


                                                             State Estimated Program Participation              Homeowners Assisted
                                                             Program Participation

                                                          Notes: Estimated includes highest estimate of a range. For its “Blight Elimination Program”
                                                          (Demolition), Indiana neither estimated the number of homeowners it would serve nor reported the
                                                          number of homeowners this program has served.

                                                          Sources: States provide estimates for program participation and report program participation and
                                                          homeowners assisted numbers. Indiana Housing and Community Development Authority, Proposal,
                                                          9/1/2010 and (amended) 2/14/2011; Treasury and Indiana Housing and Community Development
                                                          Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement,
                                                          9/23/2010; Indiana Housing and Community Development Authority, first through eighth
                                                          Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012,
                                                          7/17/2012, 9/28/2012, 3/8/2013, and 12/12/2013; Indiana Housing and Community Development
                                                          Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance
                                                          Reports Q2 2011 - Q1 2014, no date.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               151




FIGURE 2.21

 INDIANA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 3/31/2014

      HARDEST HIT FUND UNEMPLOYMENT BRIDGE                                                                               HARDEST HIT FUND RECAST/MODIFICATION
      PROGRAM (UNEMPLOYMENT)                                                                                             PROGRAM (MODIFICATION)
       25,000                                                 Peak estimate: 16,257                                       2,000

       20,000                                                 3/31/14 estimate: 8,000
                                                              3/31/14 program participation: 3,092                        1,500
                                                                                                                                                                   Peak estimate: 2,000
       15,000                                                                                                                                                      3/31/14 estimate: 2,000
                                                                                                                          1,000
       10,000                                                                                                                                                      3/31/14 program participation: 22
                                                                                                                           500
         5,000

             0                                                                                                               0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      HARDEST HIT FUND TRANSITION ASSISTANCE                                                                             HARDEST HIT FUND BLIGHT ELIMINATION PROGRAM
      PROGRAM (TRANSITION)                                                                                               (DEMOLITION)
          200                                                                                                              100

          150                                                                                                               75
                                      Peak estimate: 150                                                                                                   Peak estimate: 0
                                      3/31/14 estimate: 150                                                                                                3/31/14 estimate: 0
          100                                                                                                               50
                                      3/31/14 program participation: 2                                                                                     3/31/14 program participation: 0
           50                                                                                                               25

             0                                                                                                               0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Indiana neither estimated the
 number of homeowners it would serve nor reported the number of homeowners this program has served.

 Sources: States provide estimates for program participation and report program participation numbers. Indiana Housing and Community Development Authority, Proposal, 9/1/2010 and (amended)
 2/14/2011; Treasury and Indiana Housing and Community Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and
 Community Development Authority, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012, 9/28/2012, 3/8/2013, and
 12/12/2013; Indiana Housing and Community Development Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q1 2014, no date.
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Kentucky’s HHF Program
                                             Even though Treasury obligated $148,901,875 of HHF funds to Kentucky,
                                             Kentucky is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.326 As of March 31, 2014, the state had drawn down $84
                                             million (56%) of those funds.327,xxxv As of March 31, 2014, the most recent data
                                             available, Kentucky had spent $59.1 million (40% of its obligated funds) to help
                                             5,368 individual homeowners with its HHF program.328,xxxvi The remaining $9.9
                                             million (7%) was spent on administrative expenses, and $15.4 million (10%) is
                                             held as cash-on-hand.329,xxxvii As of March 31, 2014, the state had one active HHF
                                             program, to provide unemployment assistance to homeowners. At the end of
                                             2010, Kentucky estimated that it would provide HHF unemployment assistance
                                             to as many as 15,000 homeowners but, as of March 31, 2014, reduced that peak
                                             estimate by 60%, to 5,960. As of March 31, 2014, Kentucky had helped 5,368
                                             homeowners with HHF unemployment assistance.
                                                 Figure 2.22 shows the number of homeowners estimated to participate in
                                             Kentucky’s program and the number of homeowners who have been assisted, as of
                                             March 31, 2014.




                                             xxxv Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Kentucky had drawn
                                                  down $84 million.
                                             xxxvi A
                                                    ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             xxxvii Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                     each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                     Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   153




FIGURE 2.22

KENTUCKY’S UNEMPLOYMENT BRIDGE PROGRAM
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION AND
HOMEOWNERS ASSISTED, AS OF 3/31/2014

15,000




12,000




 9,000




 6,000

                Peak estimate: 15,000
                3/31/2014 estimate: 5,960
 3,000          3/31/2014 program participation: 5,368
                Homeowners assisted: 5,368



    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’12 Q4’13 Q1’14


            State Estimated Program Participation                 Homeowners Assisted


         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and homeowners assisted numbers.
         Kentucky Housing Corporation, Proposal, 8/31/2010; Treasury and Kentucky Housing Corporation,
         Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010;
         Kentucky Housing Corporation, first through sixth Amendment[s] to Agreement[s], 9/29/2010,
         12/16/2010, 3/31/2011, 9/28/2011, 3/3/2012, and 12/14/2012; Kentucky Housing Corporation,
         American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemploy-
         ment Bridge Program, Quarterly Performance Reports Q4 2010 - Q1 2014, no date.
154   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Michigan’s HHF Programs
                                             Even though Treasury obligated $498,605,738 of HHF funds to Michigan,
                                             Michigan is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.330 As of March 31, 2014, the state had drawn down
                                             $180.3 million (36%) of those funds.331,xxxviii As of March 31, 2014, the most recent
                                             data available, Michigan had spent $146.3 million (29% of its obligated funds)
                                             to help 19,318 individual homeowners with HHF programs.332,xxxix As of March
                                             31, 2014, Michigan had spent $1.2 million to demolish vacant properties. The
                                             remaining $20.1 million (4%) was spent on administrative expenses, and $14.8
                                             million (3%) is held as cash-on-hand.333,xl As of March 31, 2014, the state had
                                             five HHF programs: one to modify homeowners mortgage, a second to modify
                                             homeowners’ mortgages with principal reduction assistance, a third to provide
                                             past-due payment assistance to homeowners, a fourth to unemployment assistance
                                             to homeowners, and a fifth to demolish vacant properties. At the end of 2010,
                                             Michigan estimated that it would help as many as 49,422 homeowners with HHF,
                                             but, as of March 31, 2014, had reduced that peak estimate by 77%, to 11,477.
                                                 Figure 2.23 shows, in aggregate, the number of homeowners estimated to
                                             participate in Michigan’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             March 31, 2014. Figure 2.24 shows the number of homeowners estimated to
                                             participate in each of Michigan’s programs (estimated program participation)
                                             and the reported number of homeowners who participated in each of Michigan’s
                                             programs (program participation), as of March 31, 2014.




                                             xxxviii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Michigan had drawn
                                                    down $204.4 million.
                                             xxxix A
                                                    ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                     assistance, cash-on-hand, or undrawn funds.
                                             xl Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles each type
                                                 of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements. Additionally,
                                                 cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   155




FIGURE 2.23

MICHIGAN ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 3/31/2014

50,000




40,000




30,000




20,000

                Peak estimate: 49,422
                3/31/2014 estimate: 11,477
10,000          3/31/2014 program participation: 19,318
                Homeowners assisted: 19,318



    0
         Q110 Q2’10
         Q1’10 Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. For its “Blight Elimination Program”
         (Demolition), Michigan neither estimated the number of homeowners it would serve nor reported the
         number of homeowners this program has served.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation,
         Proposal, 10/15/2010; Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation,
         Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan
         Homeowner Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to
         Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012,
         6/6/2013, and 12/12/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation,
         Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q1 2014, no date;
         Treasury, response to SIGTARP data call, 10/7/2013.
156              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.24

       MICHIGAN ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 3/31/2014

            PRINCIPAL CURTAILMENT PROGRAM (MODIFICATION)                                                                       LOAN RESCUE PROGRAM (PAST-DUE PAYMENT)
                                                                      Peak estimate: 3,044                                                                                           Peak estimate: 21,760
               6,000                                                                                                           25,000
                                                                      3/31/14 estimate: 300                                                                                          3/31/14 estimate: 6,600
               5,000                                                  3/31/14 program participation: 299                       20,000                                                3/31/14 program participation: 12,846
               4,000
                                                                                                                               15,000
               3,000
                                                                                                                               10,000
               2,000
               1,000                                                                                                            5,000

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




            UNEMPLOYMENT MORTGAGE SUBSIDY PROGRAM                                                                              MODIFICATION PLAN PROGRAM (MODIFICATION)
            (UNEMPLOYMENT)
             25,000                                                                                                             1,000

             20,000
                                                                                                                                 750
             15,000
                          Peak estimate: 24,618                                                                                  500             Peak estimate: 825
             10,000                                                                                                                              3/31/14 estimate: 295
                          3/31/14 estimate: 4,282
                5000      3/31/14 program participation: 6,107                                                                   250             3/31/14 program participation: 66

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




            BLIGHT ELIMINATION PROGRAM (DEMOLITION)

                200

                150                    Peak estimate: 0
                                       3/31/14 estimate: 0
                100
                                       3/31/14 program participation: 0
                 50

                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Michigan neither estimated
       the number of homeowners it would serve nor reported the number of homeowners this program has served. As of March 31, 2014, Michigan is the only state to have spent funds ($1.2 million) on
       demolition programs; removing and greening 125 properties.

       Sources: States provide estimates for program participation and report program participation numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation, Proposal, 10/15/2010;
       Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner
       Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012, 6/6/2013, and
       12/12/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q1 2014, no date; Treasury, response to
       SIGTARP data calls, 10/7/2013 and 7/8/2014.
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   157




Mississippi’s HHF Program
Even though Treasury obligated $101,888,323 of HHF funds to Mississippi,
Mississippi is not getting a significant amount of these funds out the door to help
homeowners with HHF.334 As of March 31, 2014, the state had drawn down $44.3
million (44%) of those funds.335,xli As of March 31, 2014, the most recent data
available, Mississippi had spent $28.7 million (28% of its obligated funds) to help
2,221 individual homeowners with its HHF program.336,xlii The remaining $6.7
million (7%) was spent on administrative expenses, and $9 million (9%) is held
as cash-on-hand.337,xliii As of March 31, 2014, the state had one HHF program, to
provide unemployment assistance to homeowners. At the end of 2010, Mississippi
estimated that it would provide HHF unemployment assistance to as many as
3,800 homeowners, but as of March 31, 2014, reduced that peak estimate by 8%,
to 3,500. As of March 31, 2014, Mississippi had provided HHF unemployment
assistance to 2,221 homeowners.
    Figure 2.25 shows the number of homeowners estimated to participate in
Mississippi’s program and the number of homeowners who have been assisted, as
of March 31, 2014.




xli Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Mississippi had drawn
    down $44.3 million.
xlii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
     programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
     and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
     cash-on-hand, or undrawn funds.
xliii B
       eginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
      each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
      Additionally, cash-on-hand may include lien recoveries and borrower remittances.
158   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.25

                                                 MISSISSIPPI’S HOME SAVER PROGRAM (UNEMPLOYMENT)
                                                 ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
                                                 ASSISTED, AS OF 3/31/2014

                                                 4,000


                                                 3,500


                                                 3,000


                                                 2,500                                     Peak estimate: 3,800
                                                                                           3/31/2014 estimate: 3,500
                                                                                           3/31/2014 program participation: 2,221
                                                 2,000
                                                                                           Homeowners assisted: 2,221

                                                 1,500


                                                 1,000


                                                   500


                                                     0
                                                         Q110 Q2’10
                                                         Q1’10 Q210 Q3’10
                                                                    Q310 Q4’10
                                                                          Q410 Q1’11
                                                                               Q111 Q2’11
                                                                                     Q211 Q3’11
                                                                                          Q311 Q4’11
                                                                                                Q411 Q1’12
                                                                                                     Q112 Q2’12
                                                                                                           Q212 Q3’12
                                                                                                                Q312 Q4’12
                                                                                                                      Q412 Q1’13
                                                                                                                           Q113 Q2’13
                                                                                                                                 Q213 Q3’13
                                                                                                                                      Q313 Q4’13
                                                                                                                                            Q413 Q1’14
                                                                                                                                                 Q114


                                                            State Estimated Program Participation                 Homeowners Assisted


                                                         Notes: Estimated includes highest estimate of a range.

                                                         Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                         Mississippi Home Corporation, Proposal, 9/1/2010; Treasury and Mississippi Home Corporation,
                                                         Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010;
                                                         Mississippi Home Corporation, first through seventh Amendment[s] to Agreement[s], 9/29/2010,
                                                         12/16/2010, 12/8/2011, 9/28/2011, 1/25/2012, 9/28/2012, 4/25/2013, and 9/20/2013;
                                                         Mississippi Home Corporation, Financial Disclosures, Hardest Hit Fund, HFA Performance Data
                                                         Report[s], Quarterly Performance Reports Q4 2010 - Q1 2014, no date.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   159




Nevada’s HHF Programs
Even though Treasury obligated $194,026,240 of HHF funds to Nevada, Nevada
is not getting a significant amount of these funds out the door to help homeowners
with HHF.338 As of March 31, 2014, the state had drawn down $98.8 million
(51%) of those funds.339,xliv As of March 31, 2014, the most recent data available,
Nevada had spent $82 million (42% of its obligated funds) to help 5,202 individual
homeowners with its HHF programs.340,xlv The remaining $11.9 million (6%)
was spent on administrative expenses, and $5.1 million (3%) is held as cash-on-
hand.341,xlvi As of March 31, 2014, the state had six active HHF programs: two to
provide unemployment assistance to homeowners, a third and fourth to modify
homeowners’ mortgages with principal reduction assistance, a fifth for second-lien
reduction assistance to homeowners, and a sixth to provide transition assistance to
homeowners. In mid-2011, Nevada estimated that it would help as many as 23,556
homeowners with HHF but, as of March 31, 2014, reduced that peak estimate by
71%, to 6,854.
    Figure 2.26 shows, in aggregate, the number of homeowners estimated to
participate in Nevada’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
March 31, 2014. Figure 2.27 shows the number of homeowners estimated to
participate in each of Nevada’s programs (estimated program participation) and the
reported number of homeowners who participated in each of Nevada’s programs
(program participation), as of March 31, 2014.




xliv Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Nevada had drawn down
     $112 million.
xlv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xlvi Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
      each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
      Additionally, cash-on-hand may include lien recoveries and borrower remittances.
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.26

                                                 NEVADA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                 PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                 HHF PROGRAMS, AS OF 3/31/2014

                                                 25,000

                                                                                                           Peak estimate: 23,556
                                                                                                           3/31/2014 estimate: 6,854
                                                                                                           3/31/2014 program participation: 5,202
                                                 20,000                                                    Homeowners assisted: 5,202




                                                 15,000




                                                 10,000




                                                  5,000




                                                     0
                                                          Q110 Q2’10
                                                          Q1’10 Q210 Q3’10
                                                                     Q310 Q4’10
                                                                           Q410 Q1’11
                                                                                Q111 Q2’11
                                                                                      Q211 Q3’11
                                                                                           Q311 Q4’11
                                                                                                 Q411 Q1’12
                                                                                                      Q112 Q2’12
                                                                                                            Q212 Q3’12
                                                                                                                 Q312 Q4’12
                                                                                                                       Q412 Q1’13
                                                                                                                            Q113 Q2’13
                                                                                                                                  Q213 Q3’13
                                                                                                                                       Q313 Q4’13
                                                                                                                                             Q413 Q1’14
                                                                                                                                                  Q114


                                                             State Estimated Program Participation            Homeowners Assisted
                                                             Program Participation

                                                          Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                          double-counted individual homeowners who received assistance from more than one program in states
                                                          that have more than one program.

                                                          Sources: States provide estimates for program participation and report program participation and
                                                          homeowners assisted numbers. Nevada Affordable Housing Assistance Corporation, Proposal,
                                                          6/14/2010; Treasury and Nevada Affordable Housing Assistance Corporation, Commitment to
                                                          Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable
                                                          Housing Assistance Corporation, first through eleventh Amendment[s] to Agreement[s], 9/23/2010,
                                                          9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012,
                                                          6/28/2012, 9/28/2012, and 8/28/2013; Nevada Affordable Housing Assistance Corporation,
                                                          Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q1 2014,
                                                          no date.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               161




FIGURE 2.27

 NEVADA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 3/31/2014

      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                                         SECOND MORTGAGE REDUCTION PLAN
                                                                                                                         (SECOND-LIEN REDUCTION)
                                                              Peak estimate: 3,016
         6,000                                                3/31/14 estimate: 1,040                                     6,000                                                   Peak estimate: 2,200
         5,000                                                3/31/14 program participation: 1,210                        5,000                                                   3/31/14 estimate: 500
         4,000                                                                                                            4,000
                                                                                                                                                                                  3/31/14 program participation: 406

         3,000                                                                                                            3,000
         2,000                                                                                                            2,000
         1,000                                                                                                            1,000
            0                                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      SHORT-SALE ACCELERATION PROGRAM                                                                                    MORTGAGE ASSISTANCE PROGRAM
      (TRANSITION)                                                                                                       (UNEMPLOYMENT)
         2,000                                                                                                           25,000                                                   Peak estimate: 16,969
                                                                                                                         20,000
                                                                                                                                                                                  3/31/14 estimate: 4,033
         1,500                                                                                                                                                                    3/31/14 program participation: 3,268
                                                                                                                         15,000
         1,000
                    Peak estimate: 1,713                                                                                 10,000
                    3/31/14 estimate: 60
          500
                    3/31/14 program participation: 100                                                                    5,000

             0                                                                                                                0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                         State Estimated Program Participation                      Program Participation                                State Estimated Program Participation                       Program Participation




      MORTGAGE ASSISTANCE PROGRAM ALTERNATIVE                                                                            HOME RETENTION PROGRAM (MODIFICATION)
      (UNEMPLOYMENT)
          500                                                                                                             2,000

          375                                                                                                             1,500                Peak estimate: 1,150
                     Peak estimate: 416                                                                                                        3/31/14 estimate: 1,150
          250                                                                                                             1,000
                     3/31/14 estimate: 71                                                                                                      3/31/14 program participation: 0
          125        3/31/14 program participation: 218                                                                    500

             0                                                                                                                0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                         State Estimated Program Participation                      Program Participation                                State Estimated Program Participation                       Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Nevada Affordable Housing Assistance Corporation, Proposal, 6/14/2010; Treasury and Nevada
 Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first
 through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012, 6/28/2012, 9/28/2012, and 8/28/2013;
 Nevada Affordable Housing Assistance Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q1 2014, no date.
162   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             New Jersey’s HHF Program
                                             Even though Treasury obligated $300,548,144 of HHF funds to New Jersey,
                                             New Jersey is not getting a significant amount of these funds out the door to
                                             help homeowners with HHF.342 As of March 31, 2014, the state had drawn down
                                             $190.5 million (63%) of those funds.343,xlvii As of March 31, 2014, the most recent
                                             data available, New Jersey had spent $151.5 million (50% of its obligated funds)
                                             to help 5,473 individual homeowners with its HHF program.344,xlviii The remaining
                                             $20.3 million (7%) was spent on administrative expenses, and $19.3 million (6%)
                                             is held as cash-on-hand.345,xlix As of March 31, 2014, the state had one active
                                             HHF program, to provide unemployment assistance to homeowners. Since the
                                             end of 2010, New Jersey estimated helping 6,900 homeowners with HHF but,
                                             as of March 31, 2014, reduced that peak estimate by 6%, to 6,500. According
                                             to Treasury, New Jersey stopped accepting new applications from struggling
                                             homeowners seeking help from their HHF programs submitted after November 30,
                                             2013.346,l
                                                 Figure 2.28 shows the number of homeowners estimated to participate in New
                                             Jersey’s program and the number of homeowners who have been assisted, as of
                                             March 31, 2014.




                                             xlvii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, New Jersey had drawn
                                                   down $245.5 million.
                                             xlviii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                    HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                    capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                    assistance, cash-on-hand, or undrawn funds.
                                             xlix Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                   each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                   Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                             l According to Treasury, New Jersey is no longer accepting applications for assistance from homeowners because it determined that its
                                                allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   163




FIGURE 2.28

NEW JERSEY’S HOMEKEEPER PROGRAM (UNEMPLOYMENT)
ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
ASSISTED, AS OF 3/31/2014

8,000


7,000


6,000


5,000                                    Peak estimate: 6,900
                                         3/31/2014 estimate: 6,500
                                         3/31/2014 program participation: 5,473
4,000                                    Homeowners assisted: 5,473

3,000


2,000


1,000


   0
        Q110 Q2’10
        Q1’10 Q210 Q3’10
                   Q310 Q4’10
                         Q410 Q1’11
                              Q111 Q2’11
                                    Q211 Q3’11
                                         Q311 Q4’11
                                               Q411 Q1’12
                                                    Q112 Q2’12
                                                          Q212 Q3’12
                                                               Q312 Q4’12
                                                                     Q412 Q1’13
                                                                          Q113 Q2’13
                                                                                Q213 Q3’13
                                                                                     Q313 Q4’13
                                                                                           Q413 Q1’14
                                                                                                Q114


           State Estimated Program Participation                 Homeowners Assisted


        Notes: Estimated includes highest estimate of a range.

        Sources: States provide estimates for program participation and homeowners assisted numbers. New
        Jersey Housing and Mortgage Finance Agency, Proposal, 9/1/2010; Treasury and New Jersey
        Housing and Mortgage Finance Agency, Commitment to Purchase Financial Instrument and HFA
        Participation Agreement, 9/23/2010; New Jersey Housing and Mortgage Finance Agency, first
        through sixth Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 8/31/2011, 1/25/2012,
        8/24/2012, and 10/30/2013; New Jersey Housing and Mortgage Finance Agency, The New Jersey
        HomeKeeper Program, About the Program, Performance Reports, Quarterly Performance Reports Q3
        2011 - Q1 2014, no date.
164   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             North Carolina’s HHF Programs
                                             Even though Treasury obligated $482,781,786 of HHF funds to North Carolina,
                                             North Carolina is not getting a significant amount of these funds out the door to
                                             help homeowners with HHF.347 As of March 31, 2014, the state had drawn down
                                             $313.7 million (65%) of those funds.348,li As of March 31, 2014, the most recent
                                             data available, North Carolina had spent $238.2 million (49% of its obligated
                                             funds) to help 15,973 individual homeowners with its HHF programs.349,lii The
                                             remaining $42.2 million (9%) was spent on administrative expenses, and $35.4
                                             million (7%) is held as cash-on-hand.350,liii As of March 31, 2014, the state had four
                                             active HHF programs: two to provide unemployment assistance to homeowners, a
                                             third to provide second-lien reduction assistance to homeowners, and a fourth to
                                             modify homeowners’ mortgages with principal reduction. From mid-2011 to mid-
                                             2013, North Carolina estimated that it would help as many as 22,290 homeowners
                                             with HHF, but as of March 31, 2014, reduced that peak estimate to 21,310.
                                                 Figure 2.29 shows, in aggregate, the number of homeowners estimated to
                                             participate in North Carolina’s programs (estimated program participation), the
                                             reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,
                                             as of March 31, 2014. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.30 shows the number
                                             of homeowners estimated to participate in each of North Carolina’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of North Carolina’s programs (program participation), as of
                                             March 31, 2014.




                                             li T
                                                 reasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, North Carolina had drawn
                                                down $352.9 million.
                                             lii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             liii B
                                                   eginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                  each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                  Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   165




FIGURE 2.29

NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 3/31/2014

25,000




20,000

                                          Peak estimate: 22,290
                                          3/31/2014 estimate: 21,310
15,000                                    3/31/2014 program participation: 16,055
                                          Homeowners assisted: 15,973



10,000




 5,000




    0
         Q110 Q2’10
         Q1’10 Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114


            State Estimated Program Participation            Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010;
         Treasury and North Carolina Housing Finance Agency, Commitment to Purchase Financial Instrument
         and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through
         seventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011,
         1/25/2012, 8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund
         & Performance Reporting, Quarterly Performance Reports Q3 2010 - Q1 2014, no date; Treasury,
         response to SIGTARP data call, 10/7/2013.
166              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.30

       NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
       BY PROGRAM, AS OF 3/31/2014

            MORTGAGE PAYMENT PROGRAM-1                                                                                         MORTGAGE PAYMENT PROGRAM-2
            (UNEMPLOYMENT)                                                                                                     (UNEMPLOYMENT)
              6,000                                                                                                            15,000
              5,000                                                                                                            12,000
              4,000                                                                                                                                            Peak estimate: 14,100
                                                                                                                                9,000                          3/31/14 estimate: 14,100
              3,000
                                                                                                                                6,000                          3/31/14 program participation: 11,776
              2,000                                                     Peak estimate: 5,750
                                                                        3/31/14 estimate: 5,410                                 3,000
              1,000
                                                                        3/31/14 program participation: 4,179
                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




            SECOND MORTGAGE REFINANCE PROGRAM                                                                                  PERMANENT LOAN MODIFICATION PROGRAM
            (SECOND-LIEN REDUCTION)                                                                                            (MODIFICATION)
              2,000                                                                                                              500

              1,500                                                                                                              375

              1,000                                     Peak estimate: 2,000                                                     250                                                      Peak estimate: 440
                                                        3/31/14 estimate: 1,000                                                                                                           3/31/14 estimate: 0
                500                                     3/31/14 program participation: 100                                       125                                                      3/31/14 program participation: 0

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




            PRINCIPAL REDUCTION RECAST PROGRAM                                                                                 MODIFICATION ENABLING PILOT PROJECT
            (MODIFICATION)                                                                                                     (MODIFICATION)
              2,000                                                                                                             1,000

              1,500                                                                                                              750
                                                                                                                                                                     Peak estimate: 800
              1,000                                       Peak estimate: 680                                                     500                                 3/31/14 estimate: 800
                                                          3/31/14 estimate: 0                                                                                        3/31/14 program participation: 0
                500                                       3/31/14 program participation: 0                                       250

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010; Treasury and North Carolina
       Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through seventh Amendment[s] to
       Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance Reporting,
       Quarterly Performance Reports Q3 2010 - Q1 2014, no date; Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   167




Ohio’s HHF Programs
Even though Treasury obligated $570,395,099 of HHF funds to Ohio, Ohio is not
getting a significant amount of these funds out the door to help homeowners with
HHF.351 As of March 31, 2014, the state had drawn down $321.6 million (56%)
of those funds.352,liv As of March 31, 2014, the most recent data available, Ohio
had spent $264.7 million (46% of its obligated funds) to help 18,094 individual
homeowners with its HHF programs.353,lv The remaining $34.3 million (6%) was
spent on administrative expenses, and $23.6 million (4%) is held as cash-on-
hand.354,lvi As of March 31, 2014, the state had eight active HHF programs: four
to modify homeowners’ mortgages, a fifth to provide past-due payment assistance
to homeowners, a sixth to provide unemployment assistance to homeowners, a
seventh to provide transition assistance to homeowners and an eighth to demolish
vacant properties. Ohio’s HFA stopped accepting new applications after April 30,
2014.355 At the end of 2010, Ohio estimated that it would help as many as 63,485
homeowners with HHF but, as of March 31, 2014, reduced that peak estimate by
35%, to 41,201.
    Figure 2.31 shows, in aggregate, the number of homeowners estimated to
participate in Ohio’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
March 31, 2014. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 2.32 shows the number of homeowners
estimated to participate in each of Ohio’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
Ohio’s programs (program participation), as of March 31, 2014.




liv Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Ohio had drawn down
    $404.9 million.
lv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
   programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
   and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
   cash-on-hand, or undrawn funds.
lvi Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
     each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
     Additionally, cash-on-hand may include lien recoveries and borrower remittances.
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.31

                                                 OHIO ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                 PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                 HHF PROGRAMS, AS OF 3/31/2014

                                                 80,000                                            Peak estimate: 63,485
                                                                                                   3/31/2014 estimate: 41,201
                                                                                                   3/31/2014 program participation: 29,002
                                                 70,000                                            Homeowners assisted: 18,094

                                                 60,000


                                                 50,000


                                                 40,000


                                                 30,000


                                                 20,000


                                                 10,000


                                                     0
                                                          Q110
                                                          Q1’10 Q210
                                                                Q2’10 Q310
                                                                      Q3’10 Q410
                                                                            Q4’10 Q111
                                                                                  Q1’11 Q211
                                                                                        Q2’11 Q311
                                                                                              Q3’11 Q411
                                                                                                    Q4’11 Q112
                                                                                                          Q1’12 Q212
                                                                                                                Q2’12 Q312
                                                                                                                      Q3’12 Q412
                                                                                                                            Q4’12 Q113
                                                                                                                                  Q1’13 Q213
                                                                                                                                        Q2’13 Q313
                                                                                                                                              Q3’13 Q413
                                                                                                                                                    Q4’13 Q114
                                                                                                                                                          Q1’14


                                                             State Estimated Program Participation              Homeowners Assisted
                                                             Program Participation

                                                          Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                          double-counted individual homeowners who received assistance from more than one program in states
                                                          that have more than one program. For its “Blight Elimination Program” (Demolition), Ohio neither
                                                          estimated the number of homeowners it would serve nor reported the number of homeowners this
                                                          program has served.

                                                          Sources: States provide estimates for program participation and report program participation and
                                                          homeowners assisted numbers. Ohio Homeowner Assistance LLC, Proposal [revised], 4/11/2011;
                                                          Treasury and Ohio Homeowner Assistance LLC, Commitment to Purchase Financial Instrument and
                                                          HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through tenth
                                                          Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011,
                                                          12/14/2012, 3/22/2013, 8/28/2013, 12/12/2013, and 2/27/2014; Ohio Homeowner Assistance
                                                          LLC, Save the Dream Ohio: Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q1 2014, no
                                                          date; Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               169




FIGURE 2.32

 OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 3/31/2014

     RESCUE PAYMENT ASSISTANCE PROGRAM                                                                                 MORTGAGE PAYMENT ASSISTANCE PROGRAM
     (PAST-DUE PAYMENT)  Peak estimate: 21,000                                                                         (UNEMPLOYMENT)
                                                          3/31/14 estimate: 21,000                                                                                           Peak estimate: 31,900
      25,000                                              3/31/14 program participation: 15,272                        50,000                                                3/31/14 estimate: 15,500
      20,000                                                                                                           40,000                                                3/31/14 program participation: 11,113

      15,000                                                                                                           30,000

      10,000                                                                                                           20,000

       5,000                                                                                                           10,000

           0                                                                                                               0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                      State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




     MODIFICATION WITH CONTRIBUTION ASSISTANCE                                                                         LIEN ELIMINATION ASSISTANCE (MODIFICATION)
     PROGRAM (MODIFICATION)
                                                                                                                                                                             Peak estimate: 2,350
       7,500                                                                                                            6,000                                                3/31/14 estimate: 1,150
       6,000                                                                                                            5,000                                                3/31/14 program participation: 714
                                                                                                                        4,000
       4,500
                     Peak estimate: 6,400                                                                               3,000
       3,000         3/31/14 estimate: 1,300                                                                            2,000
       1,500         3/31/14 program participation: 723
                                                                                                                        1,000
           0                                                                                                               0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                      State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




     TRANSITION ASSISTANCE PROGRAM                                                                                     HOMEOWNERSHIP RETENTION ASSISTANCE
     (TRANSITION)                                                                                                      (MODIFICATION)
                                                                  Peak estimate: 4,900                                                                                       Peak estimate: 3,100
        6000                                                      3/31/14 estimate: 63                                  6,000                                                3/31/14 estimate: 1,738
        5000                                                      3/31/14 program participation: 49                     5,000                                                3/31/14 program participation: 941
        4000                                                                                                            4,000
        3000                                                                                                            3,000
        2000                                                                                                            2,000
        1000                                                                                                            1,000
           0                                                                                                               0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                      State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation
170           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
      PROGRAM, AS OF 3/31/2014 (CONTINUED)

         HOMEOWNER STABILIZATION ASSISTANCE                                                                                 SHORT REFINANCE PROGRAM
         PROGRAM (MODIFICATION)                                                                                             (TRANSITION)
                                                                                                                                                                                       Peak estimate: 6,500
            6,000                                                                                                           10,000                                                     3/31/14 estimate: 0
            5,000                                                                                                            8,000                                                     3/31/14 program participation: 0
            4,000                           Peak estimate: 900
                                            3/31/14 estimate: 450                                                            6,000
            3,000
                                            3/31/14 program participation: 190                                               4,000
            2,000
            1,000                                                                                                            2,000

                0                                                                                                                0
                    Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                           State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




         NEIGHBORHOOD INITIATIVE PROGRAM
         (DEMOLITION)
                                                                      Peak estimate: 0
          10,000                                                      3/31/14 estimate: 0
           8,000                                                      3/31/14 program participation: 0

            6,000

            4,000

            2,000

                0
                    Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                           State Estimated Program Participation                       Program Participation



      Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Ohio neither estimated the
      number of homeowners it would serve nor reported the number of homeowners this program has served.

      Sources: States provide estimates for program participation and report program participation numbers. Ohio Homeowner Assistance LLC, Proposal, 8/3/2010; Treasury and Ohio Homeowner
      Assistance LLC, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through tenth Amendment[s] to Agreement[s],
      9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011, 12/14/2012, 3/22/2013, 8/28/2013, 12/12/2013, and 2/27/2014; Ohio Homeowner Assistance LLC, Save the Dream Ohio:
      Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q1 2014, no date; Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   171




Oregon’s HHF Programs
Treasury obligated $220,042,786 of HHF funds to Oregon.356 As of March 31,
2014, the state had drawn down $188.7 million (86%) of those funds.357,lvii As
of March 31, 2014, the most recent data available, Oregon had spent $139.1
million (63% of its obligated funds) to help 9,856 individual homeowners.358,lviii
The remaining $30.1 million (14%) was spent on administrative expenses, and
$29.8 million (14%) is held as cash-on-hand.359,lix As of March 31, 2014, the state
had four active HHF programs: two to modify homeowners’ mortgages, a third to
provide unemployment assistance to homeowners, and a fourth to provide past-due
payment assistance to homeowners. Oregon stopped accepting new applications
after June 30, 2014.360 As of mid-2010, Oregon estimated that it would help as
many as 9,400 homeowners with HHF but, as of March 31, 2014, had increased
that estimate to 15,280.361
    Figure 2.33 shows, in aggregate, the number of homeowners estimated to
participate in Oregon’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
March 31, 2014. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 2.34 shows the number of homeowners
estimated to participate in each of Oregon’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
Oregon’s programs (program participation), as of March 31, 2014.




lvii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Oregon had drawn down
     $188.7 million.
lviii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
lix Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
     each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
     Additionally, cash-on-hand may include lien recoveries and borrower remittances.
172   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.33

                                                 OREGON ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                 PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                 HHF PROGRAMS, AS OF 3/31/2014

                                                 20,000                                Peak estimate: 15,280
                                                                                       3/31/2014 estimate: 15,280
                                                                                       3/31/2014 program participation: 12,719
                                                                                       Homeowners assisted: 9,856

                                                 15,000




                                                 10,000




                                                  5,000




                                                     0
                                                          Q110 Q2’10
                                                          Q1’10 Q210 Q3’10
                                                                     Q310 Q4’10
                                                                           Q410 Q1’11
                                                                                Q111 Q2’11
                                                                                      Q211 Q3’11
                                                                                           Q311 Q4’11
                                                                                                 Q411 Q1’12
                                                                                                      Q112 Q2’12
                                                                                                            Q212 Q3’12
                                                                                                                 Q312 Q4’12
                                                                                                                       Q412 Q1’13
                                                                                                                            Q113 Q2’13
                                                                                                                                  Q213 Q3’13
                                                                                                                                       Q310 Q4’13
                                                                                                                                             Q413 Q1’14
                                                                                                                                                  Q114


                                                             State Estimated Program Participation              Homeowners Assisted
                                                             Program Participation

                                                          Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                          double-counted individual homeowners who received assistance from more than one program in states
                                                          that have more than one program.

                                                          Sources: States provide estimates for program participation and report program participation and
                                                          homeowners assisted numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no
                                                          date; Treasury and Oregon Affordable Housing Assistance Corporation, Commitment to Purchase
                                                          Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing
                                                          Assistance Corporation, first through fourteenth Amendment[s] to Agreement[s], 9/23/2010,
                                                          9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012,
                                                          7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013, 8/28/2013, and 2/27/2014; Oregon Affordable
                                                          Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly
                                                          Performance Reports Q2 2011 - Q1 2014, no date.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               173




FIGURE 2.34

 OREGON ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 3/31/2014

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                                               MORTGAGE PAYMENT ASSISTANCE PROGRAM
      (MODIFICATION)                                                                                                     (UNEMPLOYMENT)
         6,000                                                     Peak estimate: 2,600                                  15,000                       Peak estimate: 11,000
         5,000                                                     3/31/14 estimate: 0                                                                3/31/14 estimate: 11,000
                                                                                                                         12,000
                                                                   3/31/14 program participation: 0                                                   3/31/14 program participation: 9,410
         4,000
                                                                                                                          9,000
         3,000
                                                                                                                          6,000
         2,000
         1,000                                                                                                            3,000

            0                                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      LOAN REFINANCE ASSISTANCE PROGRAM                                                                                  TRANSITION ASSISTANCE PROGRAM
      (MODIFICATION)                                                                                                     (TRANSITION)
                                                                  Peak estimate: 330
          500
                                                                  3/31/14 estimate: 330                                   6,000                                                      Peak estimate: 2,515
                                                                  3/31/14 program participation: 118                      5,000                                                      3/31/14 estimate: 0
          375                                                                                                                                                                        3/31/14 program participation: 0
                                                                                                                          4,000
          250                                                                                                             3,000
                                                                                                                          2,000
          125
                                                                                                                          1,000
            0                                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      LOAN PRESERVATION ASSISTANCE PROGRAM                                                                               REBUILDING AMERICAN HOMEOWNERSHIP
      (PAST-DUE PAYMENT)                                                                                                 ASSISTANCE PILOT PROJECT (MODIFICATION)
                                                          Peak estimate: 4,000
         6,000                                            3/31/14 estimate: 3,900                                          200                                                     Peak estimate: 50
         5,000                                            3/31/14 program participation: 3,174                                                                                     3/31/14 estimate: 50
                                                                                                                           150                                                     3/31/14 program participation: 17
         4,000
         3,000                                                                                                             100
         2,000
                                                                                                                            50
         1,000
            0                                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no date; Treasury and Oregon
 Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through
 fourteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013,
 8/28/2013, and 2/27/2014; Oregon Affordable Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly Performance Reports Q2 2011 - Q1 2014, no
 date.
174   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Rhode Island’s HHF Program
                                             Treasury obligated $79,351,573 of HHF funds to Rhode Island.362 As of March
                                             31, 2014, the state had drawn down $66.5 million (84%) of those funds.363,lx As of
                                             March 31, 2014, the most recent data available, Rhode Island had spent $56.7
                                             million (71% of its obligated funds) to help 3,070 individual homeowners with its
                                             HHF programs.364,lxi The remaining $7.6 million (10%) was spent on administrative
                                             expenses, and $2.5 million (3%) is held as cash-on-hand.365,lxii As of March 31,
                                             2014, the state had five HHF programs: two to modify homeowners’ mortgages
                                             (one of which includes principal reduction assistance), a third to provide past-due
                                             payment assistance to homeowners, a fourth to provide transition assistance to
                                             homeowners, and a fifth to provide unemployment assistance to homeowners.
                                             According to Treasury, Rhode Island stopped accepting new applications from
                                             struggling homeowners seeking help from their HHF programs submitted after
                                             January 31, 2013.366,lxiii At the end of 2010, Rhode Island estimated that it would
                                             help as many as 13,125 homeowners with HHF but, as of March 31, 2014,
                                             reduced that peak estimate by 74%, to 3,413.
                                                 Figure 2.35 shows, in aggregate, the number of homeowners estimated to
                                             participate in Rhode Island’s programs (estimated program participation), the
                                             reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,
                                             as of March 31, 2014. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.36 shows the number
                                             of homeowners estimated to participate in each of Rhode Island’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of Rhode Island’s programs (program participation), as of
                                             March 31, 2014.




                                             lx T
                                                 reasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Rhode Island had drawn
                                                down $79.4 million.
                                             lxi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             lxii B
                                                   eginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                  each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                  Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                             lxiii According to Treasury, Rhode Island is no longer accepting applications for assistance from homeowners because it determined that
                                                    its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   175




FIGURE 2.35

RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 3/31/2014

15,000


                                                  Peak estimate: 13,125
                                                  3/31/2014 estimate: 3,413
12,000
                                                  3/31/2014 program participation: 3,314
                                                  Homeowners assisted: 3,070


 9,000




 6,000




 3,000




    0
         Q110 Q2’10
         Q1’10 Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114


            State Estimated Program Participation             Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers
         may have double-counted individual homeowners who received assistance from more
         than one program in states that have more than one program.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. Rhode Island Housing and Mortgage
         Finance Corporation, Proposal, 5/27/2010 and (amended) 7/22/2010; Treasury and
         Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase
         Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
         and Mortgage Finance Corporation, first through ninth Amendment[s] to Agreement[s],
         9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012,
         12/14/2012, 7/17/2013, and 1/31/2014; Rhode Island Housing and Mortgage Finance
         Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly
         Performance Reports Q4 2010 - Q1 2014, no date; Treasury, response to SIGTARP data
         call, 10/7/2013.
176              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.36

       RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 3/31/2014

            LOAN MODIFICATION ASSISTANCE PROGRAM                                                                              TEMPORARY AND IMMEDIATE HOMEOWNER
            (MODIFICATION)                                                                                                    ASSISTANCE (PAST-DUE PAYMENT)
              3,500                                                                                                           3,000
                                                                     Peak estimate: 3,500                                                                                             Peak estimate: 2,750
              3,000                                                                                                           2,500
                                                                     3/31/14 estimate: 477                                                                                            3/31/14 estimate: 681
              2,500                                                  3/31/14 program participation: 447                       2,000                                                   3/31/14 program participation: 662
              2,000                                                                                                           1,500
              1,500
                                                                                                                              1,000
              1,000
                                                                                                                               500
               500
                  0                                                                                                               0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                             State Estimated Program Participation                       Program Participation                               State Estimated Program Participation                       Program Participation




            MOVING FORWARD ASSISTANCE (TRANSITION)                                                                            MORTGAGE PAYMENT ASSISTANCE –
                                                                                                                              UNEMPLOYMENT (UNEMPLOYMENT)
              1,000                                                       Peak estimate: 875                                  6,000
                                                                          3/31/14 estimate: 70                                                                                     Peak estimate: 6,000
                                                                                                                              5,000                                                3/31/14 estimate: 2,153
               750                                                        3/31/14 program participation: 65
                                                                                                                              4,000                                                3/31/14 program participation: 2,112
               500                                                                                                            3,000
                                                                                                                              2,000
               250
                                                                                                                              1,000
                  0                                                                                                              0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                             State Estimated Program Participation                       Program Participation                               State Estimated Program Participation                       Program Participation




            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)

               200                                                       Peak estimate: 100
                                                                         3/31/14 estimate: 32
               150
                                                                         3/31/14 program participation: 28
               100

                50

                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                             State Estimated Program Participation                       Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Rhode Island Housing and Mortgage Finance Corporation, Proposal, 5/27/2010 and (amended)
       7/22/2010; Treasury and Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
       and Mortgage Finance Corporation, first through ninth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012, 12/14/2012, 7/17/2013, and
       1/31/2014; Rhode Island Housing and Mortgage Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports Q4 2010 - Q1 2014, no date; Treasury,
       response to SIGTARP data call, 10/7/2013.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   177




South Carolina’s HHF Programs
Even though Treasury obligated $295,431,547 of HHF funds to South Carolina,
South Carolina is not getting a significant amount of these funds out the door to
help homeowners with HHF.367 As of March 31, 2014, the state had drawn down
$125 million (42%) of those funds.368,lxiv As of March 31, 2014, the most recent
data available, South Carolina had spent $101.7 million (34% of its obligated
funds) to help 7,425 individual homeowners with its HHF programs.369,lxv The
remaining $18.8 million (6%) was spent on administrative expenses, and $4.9
million (2 %) is held as cash-on-hand.370,lxvi As of March 31, 2014, the state
had four active HHF programs: one to provide unemployment assistance to
homeowners, a second to provide past-due payment assistance to homeowners,
a third to modify homeowners’ mortgages, and a fourth to provide transition
assistance to homeowners. South Carolina ended its program to provide second-
lien reduction assistance to homeowners. At the end of 2010, South Carolina
estimated that it would help as many as 34,100 homeowners with HHF but, as of
March 31, 2014, reduced that peak estimate by 43%, to 19,400.
    Figure 2.37 shows, in aggregate, the number of homeowners estimated to
participate in South Carolina’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of March 31, 2014. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 2.38 shows the number
of homeowners estimated to participate in each of South Carolina’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of South Carolina’s programs (program participation), as of
March 31, 2014.




lxiv Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, South Carolina had drawn
     down $137.5 million.
lxv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
lxvi Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
      each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
      Additionally, cash-on-hand may include lien recoveries and borrower remittances.
178   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 FIGURE 2.37

                                                 SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
                                                 PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                 ASSISTED, IN ALL HHF PROGRAMS, AS OF 3/31/2014

                                                35,000


                                                30,000


                                                25,000


                                                20,000


                                                15,000
                                                                                 Peak estimate: 34,100
                                                                                 3/31/2014 estimate: 19,400
                                                                                 3/31/2014 program participation: 11,433
                                                10,000                           Homeowners assisted: 7,425


                                                 5,000


                                                     0
                                                         Q110 Q2’10
                                                         Q1’10 Q210 Q3’10
                                                                    Q310 Q4’10
                                                                          Q410 Q1’11
                                                                               Q111 Q2’11
                                                                                     Q211 Q3’11
                                                                                          Q311 Q4’11
                                                                                                Q411 Q1’12
                                                                                                     Q112 Q2’12
                                                                                                           Q212 Q3’12
                                                                                                                Q312 Q4’12
                                                                                                                      Q412 Q1’13
                                                                                                                           Q113 Q2’13
                                                                                                                                 Q213 Q3’13
                                                                                                                                      Q313 Q4’13
                                                                                                                                            Q413 Q1’14
                                                                                                                                                 Q114


                                                            State Estimated Program Participation            Homeowners Assisted
                                                            Program Participation

                                                         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                         double-counted individual homeowners who received assistance from more than one program in states
                                                         that have more than one program.

                                                         Sources: States provide estimates for program participation and report program participation and
                                                         homeowners assisted numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing
                                                         Corp., Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC
                                                         Housing Corp., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
                                                         12/16/2010, 8/31/2011, 11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports,
                                                         Quarterly Performance Reports Q1 2011 - Q1 2014, no date.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                               179




FIGURE 2.38

 SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 3/31/2014

      MONTHLY PAYMENT ASSISTANCE PROGRAM                                                                                 DIRECT LOAN ASSISTANCE PROGRAM
      (UNEMPLOYMENT)                                                                                                     (PAST-DUE PAYMENT)
                                                                                                                                                                              Peak estimate: 11,000
       15,000                                                                                                            15,000                                               3/31/14 estimate: 9,500
       12,000                                                                                                            12,000                                               3/31/14 program participation: 7,175

         9,000                                                                                                            9,000

         6,000      Peak estimate: 14,000                                                                                 6,000

         3,000
                    3/31/14 estimate: 6,000                                                                               3,000
                    3/31/14 program participation: 4,114
             0                                                                                                                0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      HAMP ASSISTANCE PROGRAM                                                                                            PROPERTY DISPOSITION ASSISTANCE PROGRAM
      (MODIFICATION)                                                                                                     (TRANSITION)
                                                                                                                                                                                   Peak estimate: 6,000
         6,000                                                                                                            6,000
                                                                                                                                                                                   3/31/14 estimate: 400
         5,000                                                                                                            5,000                                                    3/31/14 program participation: 144
                         Peak estimate: 6,000
         4,000           3/31/14 estimate: 0                                                                              4,000
         3,000           3/31/14 program participation: 0                                                                 3,000
         2,000                                                                                                            2,000
         1,000                                                                                                            1,000
             0                                                                                                                0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




      SECOND MORTGAGE ASSISTANCE PROGRAM                                                                                 MODIFICATION ASSISTANCE PROGRAM
      (SECOND-LIEN REDUCTION)                                                                                            (MODIFICATION)
         6,000                                                     Peak estimate: 2,600                                   6,000
         5,000                                                     3/31/14 estimate: 0                                    5,000
                                                                   3/31/14 program participation: 0                                                               Peak estimate: 3,500
         4,000                                                                                                            4,000
                                                                                                                                                                  3/31/14 estimate: 3,500
         3,000                                                                                                            3,000
                                                                                                                                                                  3/31/14 program participation: 0
         2,000                                                                                                            2,000
         1,000                                                                                                            1,000
             0                                                                                                                0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                        State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing Corp., Commitment to
 Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp, first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/31/2011,
 11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports, Quarterly Performance Reports Q1 2011 - Q1 2014, no date.
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Tennessee’s HHF Program
                                             Even though Treasury obligated $217,315,593 of HHF funds to Tennessee,
                                             Tennessee is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.371 As of March 31, 2014, the state had drawn down
                                             $111.3 million (51%) of those funds.372,lxvii As of March 31, 2014, the most
                                             recent data available Tennessee had spent $92.4 million (43% of its obligated
                                             funds) to help 6,023 individual homeowners.373,lxviii The remaining $12.7 million
                                             (6%) was spent on administrative expenses, and $6.3 million (3%) is held as
                                             cash-on-hand.374,lxix As of March 31, 2014, the state had one HHF program, to
                                             provide unemployment assistance to homeowners. At the end of 2011, Tennessee
                                             estimated that it would provide HHF unemployment assistance to as many as
                                             13,500 homeowners with HHF but, as of March 31, 2014, reduced that peak
                                             estimate by 16%, to 11,300. As of March 31, 2014, Tennessee had provided HHF
                                             unemployment assistance to 6,023 homeowners.
                                                 Figure 2.39 shows the number of homeowners estimated to participate in
                                             Tennessee’s program and the number of homeowners who have been assisted, as of
                                             March 31, 2014.




                                             lxvii Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Tennessee had drawn
                                                   down $127.3 million.
                                             lxviii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                    HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                    capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                    assistance, cash-on-hand, or undrawn funds.
                                             lxix Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                   each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                   Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                            QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   181




FIGURE 2.39

TENNESSEE’S HARDEST HIT FUND PROGRAM (UNEMPLOYMENT)
ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
ASSISTED, AS OF 3/31/2014

15,000




12,000




 9,000

                                            Peak estimate: 13,500
                                            3/31/2014 estimate: 11,300
                                            3/31/2014 program participation: 6,023
 6,000
                                            Homeowners assisted: 6,023



 3,000




    0
         Q110 Q2’10
         Q1’10 Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114


            State Estimated Program Participation                 Homeowners Assisted


         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and homeowners assisted numbers.
         Tennessee Housing Development Agency, Proposal, 9/1/2010; Treasury and Tennessee Housing
         Development Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement,
         9/23/2010; Tennessee Housing Development Agency, first through seventh Amendment[s] to
         Agreement[s], 9/29/2010, 12/16/2010, 5/25/2011, 9/28/2011, 12/8/2011, 5/3/2012, and
         11/15/2012; Tennessee Housing Development Agency, Keep My Tennessee Home, Reports, Quarterly
         Performance Reports Q1 2011 - Q1 2014, no date.
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Washington, DC’s HHF Program
                                             Treasury obligated $20,697,198 of HHF funds to Washington, DC.375 As of
                                             March 31, 2014, Washington, DC had drawn down $18.2 million (88%) of those
                                             funds.376,lxx As of March 31, 2014, the most recent data available, Washington,
                                             DC had spent $12 million (58% of its obligated funds) to help 669 individual
                                             homeowners.377,lxxi The remaining $2.8 million (14%) was spent on administrative
                                             expenses and $3.8 million (18%) is held as cash-on-hand.378,lxxii As of March
                                             31, 2014, Washington, DC had one HHF program, to provide unemployment
                                             assistance to homeowners. At the end of 2010, Washington, DC estimated that it
                                             would provide HHF unemployment assistance to as many as 1,000 homeowners
                                             with HHF but, as of March 31, 2014, reduced that peak estimate by 20%, to
                                             800. As of March 31, 2014, Washington, DC had provided HHF unemployment
                                             assistance to 669 homeowners. Washington, DC stopped accepting new
                                             applications after November 22, 2013.379
                                                 Figure 2.40 shows the number of homeowners estimated to participate in
                                             Washington, DC’s program and the number of homeowners who have been
                                             assisted, as of March 31, 2014.




                                             lxx Treasury has separately published June 30, 2014, figures for amounts drawn down; as of June 30, 2014, Washington, DC had drawn
                                                 down $18.2 million.
                                             lxxi A
                                                   ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             lxxii Beginning this period, SIGTARP will be reporting these figures using each state’s Quarterly Financial Report, which reconciles
                                                    each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual cash disbursements.
                                                    Additionally, cash-on-hand may include lien recoveries and borrower remittances.
                                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   183




FIGURE 2.40

WASHINGTON, DC’S HOMESAVER PROGRAM (UNEMPLOYMENT)
ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
ASSISTED, AS OF 3/31/2014

1,000




  800

                                           Peak estimate: 1,000
                                           3/31/2014 estimate: 800
  600                                      3/31/2014 program participation: 669
                                           Homeowners assisted: 669



  400




  200




    0
        Q110 Q2’10
        Q1’10 Q210 Q3’10
                   Q310 Q4’10
                         Q410 Q1’11
                              Q111 Q2’11
                                    Q211 Q3’11
                                         Q311 Q4’11
                                               Q411 Q1’12
                                                    Q112 Q2’12
                                                          Q212 Q3’12
                                                               Q312 Q4’12
                                                                     Q412 Q1’13
                                                                          Q113 Q2’13
                                                                                Q213 Q3’13
                                                                                     Q313 Q4’13
                                                                                           Q413 Q1’14
                                                                                                Q114


           State Estimated Program Participation                 Homeowners Assisted


        Notes: Estimated includes highest estimate of a range.

        Sources: States provide estimates for program participation and homeowners assisted numbers.
        District of Columbia Housing Finance Agency, Proposal, 9/1/2010; Treasury and District of Columbia
        Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation
        Agreement, 9/23/2010; District of Columbia Housing Finance Agency, first through eighth
        Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 10/28/2011,
        3/29/2012, 12/14/2012, and 9/20/2013; District of Columbia Housing Finance Agency,
        HomeSaver – A Foreclosure Prevention Program, Quarterly Performance Reports Q1 2011 - Q1
        2014, no date.
184            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      FHA Short Refinance Program
                                                      On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                                      program, which gives homeowners the option of refinancing an underwater, non-
                                                      FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                      value. At that time, Treasury had allocated $8.1 billion to the program, but in
                                                      March 2013, because of what it characterized as low participation rates, Treasury
                                                      reduced TARP funds allocated for the FHA Short Refinance program to $1 billion
                                                      to provide loss protection to FHA through a letter of credit, plus up to $25 million
      For more information concerning                 in fees for the letter of credit.380 FHA Short Refinance is voluntary for servicers.
      FHA Short Refinance eligibility, see            Therefore, not all underwater homeowners who qualify may be able to participate
      SIGTARP’s April 2011 Quarterly                  in the program.381 As of June 30, 2014, according to Treasury, 4,624 loans had
      Report, pages 85-87.                            been refinanced under the program.382 As of June 30, 2014, Treasury has paid
                                                      $47,840 on one claim for one default under the program. According to Treasury,
                                                      only one FHA Short Refinance loan has defaulted; however, it is possible that more
                                                      loans have defaulted but FHA has not yet evaluated the claims.383 Treasury has
                                                      deposited $50 million into a reserve account for future claims.384 It has also spent
                                                      approximately $9.5 million on administrative expenses associated with the letter of
                                                      credit.385

                                                      Who Is Eligible
                                                      To be eligible for FHA Short Refinance, a homeowner must be current on the
                                                      existing first-lien mortgage or have made three successful trial period payments; be
                                                      in a negative equity position; occupy the home as a primary residence; qualify for
                                                      the new loan under standard FHA underwriting and credit score requirements; and
                                                      have an existing loan that is not insured by FHA.386 According to the Department
                                                      of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
                                                      loans.387

                                                      How FHA Short Refinance Works
                                                      Servicers must first determine the current value of the home using a third-party
                                                      appraisal by a HUD-approved appraiser. The homeowner is then reviewed for credit
                                                      risk and, if necessary, referred for a review to confirm that the homeowner’s total
                                                      monthly mortgage payments on all liens after the refinance is not greater than 31%
                                                      of the homeowner’s monthly gross income and the homeowner’s total household
                                                      debt is not greater than 50%.388 Next, the lien holders must forgive principal that is
                                                      more than 115% of the value of the home. In addition, the original first-lien lender
                                                      must forgive at least 10% of the unpaid principal balance of the first-lien loan,
                                                      in exchange for a cash payment for 97.75% of the current home value from the
                                                      proceeds of the refinance. The lender may maintain a subordinate second lien for
                                                      up to 17.25% of that value (for a total balance of 115% of the home’s value).389
                                                          If a homeowner defaults, the letter of credit purchased by Treasury
                                                      compensates the investor for a first percentage of losses, up to specified
                                                      amounts.390 For mortgages originated between October 1, 2012, and May 31,
                                                      2013, the letter of credit would cover approximately 4.38% – 18.85% of the unpaid
                                                      principal balance at default.391 FHA is responsible for the remaining losses on each
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   185




mortgage. Funds may be paid from the FHA Short Refinance letter of credit until
the earlier of either (1) the time that the $1 billion letter of credit is exhausted,
or (2) 10 years from the issuance of the letter of credit (October 2020), at which
point FHA will bear all of the remaining losses.392 Treasury’s letter of credit ended
on June 1, 2013. This leaves FHA solely responsible for covering any losses for
mortgages originated on or after June 1, 2013, through September 30, 2014.
According to Treasury, Treasury and FHA are in discussions about Treasury’s letter
of credit covering losses from September 30, 2014, through December 30, 2014.393
186            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                                      Treasury created six TARP programs through which it made capital investments
                                                      or asset guarantees in exchange for equity in participating financial institutions.
                                                      Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                      Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                      (“CAP”), were open to all qualifying financial institutions. The other three, the
                                                      Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
                                                      Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
                                                      available on a case-by-case basis to institutions that needed assistance beyond that
                                                      available through CPP. With the expiration of TARP funding authorization, no new
                                                      investments can be made through these six programs.

                                                      Capital Purchase Program
                                                      Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
                                                      way to promote financial stability, maintain confidence in the financial system, and
                                                      enable lenders to meet the nation’s credit needs.394 CPP was a voluntary program
      Subchapter S Corporations (“S                   open by application to qualifying financial institutions, including U.S.-controlled
      corporations”): Corporate form that             banks, savings associations, and certain bank and savings and loan holding
      passes corporate income, losses,                companies.395
      deductions, and credit through to                   Under CPP, Treasury used TARP funds predominantly to purchase preferred
      shareholders for Federal tax purposes.          equity interests in the financial institutions. The institutions issued Treasury senior
      Shareholders of S corporations report           preferred shares that pay a 5% annual dividend for the first five years and a 9%
      the flow-through of income and losses           annual dividend thereafter. Subchapter S corporations (“S corporations”) paid an
      on their personal tax returns and are           initial rate of 7.7%, that increases to 13.8%. Rate increases began in the quarter
      taxed at their individual income tax            ended December 31, 2013.
      rates.                                              In addition to the senior preferred shares, publicly traded institutions issued
                                                      Treasury warrants to purchase common stock with an aggregate market price equal
      Subordinated Debentures: Form of debt           to 15% of the senior preferred share investment.396 Privately held institutions issued
      security that ranks below other loans           warrants to Treasury to purchase additional senior preferred stock worth 5% of
      or securities with regard to claims on          Treasury’s initial preferred stock investment.397 According to Treasury, through CPP,
      assets or earnings.                             in total Treasury purchased $204.9 billion in preferred stock and subordinated
                                                      debentures from 707 institutions in 48 states, the District of Columbia, and Puerto
                                                      Rico.398
      For discussion of SIGTARP’s
      recommendations on TARP exit paths              Status of Program
      for community banks, see SIGTARP’s              As of June 30, 2014, 88 of the 707 institutions remained in CPP; in 34 of them,
      October 2011 Quarterly Report, pages            Treasury holds only warrants to purchase stock. Treasury does not consider these
      167-169.                                        34 institutions to be in TARP, however Treasury applies all proceeds from the sale
                                                      of warrants in these banks to recovery amounts in TARP’s CPP program. As of
      For discussion of SIGTARP’s
      recommendations issued on October 9,            June 30, 2014, 54 of the 88 institutions had outstanding principal investments.
      2012, regarding CPP preferred stock             Taxpayers were still owed $6.6 billion.399 According to Treasury, it had write-offs
      auctions, see SIGTARP’s October                 and realized losses of $4.9 billion in the program, leaving $1.7 billion in TARP
      2012 Quarterly Report, pages 180-               funds outstanding. While Treasury has not yet realized those losses, it expects that
      183.
                                                      all of its investments in the banks will be lost.400
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                          187




    As of June 30, 2014, Treasury has recovered $196.1 billion of the CPP                                                                       FIGURE 2.41
principal (or 96%).401 Treasury converted $363.3 million in preferred stock for                                                                 STATUS OF CPP RECIPIENTS,
nearly a quarter (165) of CPP bank investments into CDCI, which therefore is still                                                              AS OF 6/30/2014
an outstanding obligation to TARP. Additionally, $2.2 billion in CPP investments in
                                                                                                                                                                         2%
137 banks was refinanced in 2011 into SBLF, a non-TARP Treasury program.402
    However, only 249 of the 707 banks, or 35%, fully repaid CPP principal.403 Of
                                                                                                                                                             23%
the other banks that exited with less than full repayment, four CPP banks merged                                                                 1%
                                                                                                                                                                              35%
with other CPP banks; Treasury sold its investments in 29 banks for less than par                                                                4%
and sold at auction its investments in 176 banks (Treasury sold 161 of these at a                                                                4%
loss); and 30 institutions or their subsidiary banks failed, meaning Treasury has                                                                4%                         8%
                                                                                                                                                                 19%
lost or expects to lose its entire investment in those banks.404 Figure 2.41 shows the
status of the 707 CPP recipients as of June 30, 2014.                                                                                               Fully Repaid Principal (249)
    As of June 30, 2014, Treasury had received approximately $12.1 billion in                                                                       Remaining Principal Investment in CPP (54)
                                                                                                                                                    Refinanced into SBLF (137)
interest and dividends from CPP recipients.405 Treasury also had received $8 billion
                                                                                                                                                    Refinanced into CDCI (28)
through the sale of CPP warrants that were obtained from TARP recipients. For a                                                                     Sold for less than par (29)
complete list of CPP share repurchases, see Appendix D: “Transaction Detail.”                                                                       Failed/subsidiary failed (30)
    Although the 10 largest investments accounted for $142.6 billion of the                                                                         Merged (4)
program, CPP made many smaller investments: 311 of the 707 recipients                                                                               Auction: Sold at loss (161)
                                                                                                                                                    Auction: Sold at profit (15)
received less than $10 million.406 All but two of the recipients with remaining
principal investments have outstanding investments of less than $100 million,                                                                   Note: 34 banks repaid CPP principal but remain in TARP
                                                                                                                                                with Treasury holding only warrants.
with more than half of the banks with remaining principal investments, or 61%,
                                                                                                                                                Source: Treasury, response to SIGTARP data call,
having outstanding investments of less than $10 million.407 Table 2.26 shows the                                                                7/10/2014.
distribution of investments by amount.

TABLE 2.26
 CPP INVESTMENT SIZE BY INSTITUTION, AS OF 6/30/2014
                                                                                              Principal                Outstanding
                                                                                
                                                                                           Investmenta                   Principalb
 $10 billion or more                                                                                       6                           0
 $1 billion to $10 billion                                                                               19                            0
 $100 million to $1 billion                                                                              57                            2
 $10 million to $100 million                                                                           314                           19
 Less than $10 million                                                                                 311                           33
 Total                                                                                                 707                           54
 Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
 transactions through CPP.
 a
   These numbers are based on total Treasury CPP investment since 10/28/2008.
 b
   Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
    CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
    protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
    banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
    investment. Amount does not include the 137 banks that refinanced under SBLF. Amount does not include 34 institutions that have
    repaid their CPP principal but still have warrants outstanding.

 Source: Treasury, response to SIGTARP data call, 7/9/2014.
188   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 As of June 30, 2014, of the 54 banks with remaining principal investments in
                                             CPP, 15 were in the Southeast region, 10 were in the Southwest/South Central
                                             region, nine were in the Midwest region, nine were in the Mid-Atlantic/Northeast
                                             region, seven were in the West region, and four were in the Mountain West/Plains
                                             region. The Southeast region and the Mid-Atlantic/Northeast region had the largest
                                             total remaining CPP investments; $1.3 billion and $114 million, respectively. These
                                             regions were followed in remaining CPP investments by the Southwest/South
                                             Central region ($105.8 million), the Midwest region ($75.5 million), the West
                                             region ($50.1 million), and the Mountain West/Plains region ($22.8 million). Table
                                             2.27 and Figure 2.42 show the geographical distribution of the banks that remain
                                             in CPP as of June 30, 2014, by region. Tables 2.28–2.33 show the distribution by
                                             state.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   189




TABLE 2.27
 BANKS WITH CPP PRINCIPAL REMAINING, BY REGION, AS OF 6/30/2014
                                                                                           Number of Banks
                                    Banks with                       Principal                   with Missed            Value of Missed
                                    Remaining                      Investment              Dividend/Interest           Dividend/Interest
                                     Principal                      Remaining                     Payments                    Payments
 West                                               7             $50,056,000                                      6          $7,767,283
 Mountain West/Plains                               4              22,776,000                                      2           1,480,330
 Southwest/South Central                           10             105,829,000                                      8          15,140,320
 Midwest                                            9              75,537,000                                      7          13,199,793
 Mid-Atlantic/Northeast                             9             113,952,000                                      8          20,309,795
 Southeast                                         15        1,318,547,602                                       11           29,022,868
 Total                                         54       $1,686,697,602                                           42          $86,920,388



FIGURE 2.42
AMOUNT OF CPP PRINCIPAL INVESTMENT REMAINING, BY REGION,
AS OF 6/30/2014

    AK
                                    MOUNTAIN WEST/
                                        PLAINS
                                      $23 MILLION                                     MIDWEST                       MID-ATLANTIC/
                        WA                                                           $76 MILLION                     NORTHEAST
                                         MT                                                                   VT ME $114 MILLION
                                                        ND
                   OR                                              MN                                                 NH
                                                                               WI                           NY
                               ID                       SD                                                             MA
                                                                                       MI
   WEST                                  WY
                                                                     IA                                              CT RI
$50 MILLION                                                                                 OH         PA           NJ
                                                        NE
                          NV                                                    IL    IN                          DE
                   CA               UT                                                               WV VA
                                              CO                     MO                                          MD
                                                             KS                            KY
                                                                                                      NC
                                                                                      TN
           HI                  AZ                             OK        AR                            SC
                                              NM
                                                                                    MS AL       GA           SOUTHEAST
                                                         TX               LA                                 $1.3 BILLION

                                                                                                      FL                 PR
                                SOUTHWEST/
                               SOUTH CENTRAL
                                $106 MILLION

                WEST                                                           MIDWEST
                MOUNTAIN WEST/PLAINS                                           MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                        SOUTHEAST
190   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        West
        TABLE 2.28
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                                    Number of Banks
                                                                       Banks with       Principal         with Missed  Value of Missed
                                               WA                      Remaining      Investment    Dividend/Interest Dividend/Interest
                                                                        Principal      Remaining           Payments          Payments
                   AK
                                          OR                   AK              0              $0                   0                $0
                                                               CA              7     50,056,000                    6         7,767,283
                                                               HI              0               0                   0                 0
                                                               OR              0               0                   0                 0
                                          CA                   WA              0               0                   0                 0
                                                               Total           7    $50,056,000                    6       $7,767,283
                           HI

             WEST                         >$100 million
             Principal investment         $21-$100 million
             remaining in CPP banks       $1-$20 million
                                          $0




        Mountain West/Plains
        TABLE 2.29
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                                    Number of Banks
                                                                       Banks with       Principal         with Missed  Value of Missed
                                                                       Remaining      Investment    Dividend/Interest Dividend/Interest
                                MT             ND                       Principal      Remaining           Payments          Payments
                                                               CO              1     $3,076,000                    1          $831,780
                     ID                        SD
                                                               ID              0               0                   0                 0
                                 WY
                                                               KS              2     17,600,000                    1           648,550
                                               NE
              NV
                          UT                                   MT              0               0                   0                 0
                                     CO
                                                    KS         ND              0               0                   0                 0
                                                               NE              0               0                   0                 0

          MOUNTAIN WEST/                    >$100 million      NV              0               0                   0                 0
                                            $21-$100 million
          PLAINS                            $1-$20 million     SD              0               0                   0                 0
          Principal investment
                                            $0                 UT              0               0                   0                 0
          remaining in CPP banks
                                                               WY              1       2,100,000                   0                 0
                                                               Total           4    $22,776,000                    2       $1,480,330
                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   191




Southwest/South Central
TABLE 2.30
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                                  Number of Banks
                                                                    Banks with        Principal         with Missed  Value of Missed
                                                                    Remaining       Investment    Dividend/Interest Dividend/Interest
     AZ                                 OK                           Principal       Remaining           Payments          Payments
                  NM                             AR
                                                            AR              3     $55,917,000                    3         $8,857,596
                                                 LA         AZ              2        6,440,000                   1            620,340
                                   TX
                                                            LA              1        2,400,000                   1            163,500
                                                            NM              0                0                   0                   0
                                                            OK              0                0                   0                   0
   SOUTHWEST/                            >$100 million      TX              4      43,072,000                    3          5,498,884
                                         $21-$100 million
   SOUTH CENTRAL                         $1-$20 million     Total          10    $105,829,000                    8      $15,140,320
   Principal investment                  $0
   remaining in CPP banks




Midwest
TABLE 2.31
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                                  Number of Banks
                                                                    Banks with        Principal         with Missed  Value of Missed
                                                                    Remaining       Investment    Dividend/Interest Dividend/Interest
          MN                                                         Principal       Remaining           Payments          Payments
                    WI                                      IA              0               $0                   0                 $0
                               MI
             IA                                             IL              3      23,040,000                    2          4,687,335

                         IL   IN    OH                      IN              0                0                   0                   0
               MO                                           KY              2      41,300,000                    2          6,856,413
                                   KY
                                                            MI              0                0                   0                   0
                                                            MN              1        2,060,000                   1            449,080
     MIDWEST                        >$100 million
     Principal investment           $21-$100 million        MO              2        4,037,000                   1             95,165
     remaining in CPP               $1-$20 million
     banks                          $0                      OH              0                0                   0                   0
                                                            WI              1        5,100,000                   1          1,111,800
                                                            Total           9     $75,537,000                    7      $13,199,793
192   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        Mid-Atlantic/Northeast
        TABLE 2.32
          BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                                            Number of Banks
                                                                            Banks with          Principal         with Missed  Value of Missed
                                    VT    ME                                Remaining         Investment    Dividend/Interest Dividend/Interest
                                                                             Principal         Remaining           Payments          Payments
                                               NH                   CT              0                 $0                   0                $0
                               NY               MA
                                                     RI             DE              0                  0                   0                 0
                                            CT
                          PA                NJ                      MA              1        12,063,000                    1         3,287,168
                                          DE
                  WV VA                  MD                         MD              6        62,043,000                    5         7,297,103
                  WV
                                                                    ME              0                  0                   0                 0
                                                                    NH              0                  0                   0                 0
             MID-ATLANTIC/                       >$100 million      NJ              1          9,439,000                   1         2,123,775
                                                 $21-$100 million
             NORTHEAST                           $1-$20 million     NY              0                  0                   0                 0
             Principal investment                $0
             remaining in CPP banks                                 PA              1        30,407,000                    1         7,601,750
                                                                    RI              0                  0                   0                 0
                                                                    VA              0                  0                   0                 0
                                                                    VT              0                  0                   0                 0
                                                                    WV              0                  0                   0                 0
                                                                    Total           9     $113,952,000                     8      $20,309,795



        Southeast
        TABLE 2.33
          BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                                            Number of Banks
                                                                            Banks with          Principal         with Missed  Value of Missed
                                         NC                                 Remaining         Investment    Dividend/Interest Dividend/Interest
                     TN
                                     SC                                      Principal         Remaining           Payments          Payments

               MS              GA                                   AL              1        $2,760,000                    1          $376,050
                      AL
                                                     PR             FL              5        74,307,000                    5        17,208,288
                                                                    GA              2        19,680,000                    2         4,022,288
                                         FL
                                                                    MS              1          2,443,320                   0                 0
                                                                    NC              1        13,179,000                    1         2,306,325
              SOUTHEAST                        >$100 million
                                                                    PR              2      1,173,972,282                   0                 0
              Principal investment             $21-$100 million
              remaining in CPP                 $1-20 million        SC              3        32,206,000                    2         5,110,105
              banks                            $0
                                                                    TN              0                  0                   0                 0
                                                                    Total          15    $1,318,547,602                   11      $29,002,868
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   193




Dividends and Interest
As of June 30, 2014, Treasury had received $12.1 billion in dividends on its CPP
investments.408 However, as of that date, missed dividend and interest payments
by 177 institutions, including banks with missed payments that no longer have
outstanding CPP principal investments, totaled approximately $511.6 million.
Approximately $32.2 million of the unpaid amounts are non-cumulative, meaning
that the institution has no legal obligation to pay Treasury unless the institution
declares a dividend.409
    More than three-fourths, or 42 of the 54 banks that had remaining CPP
principal investments as of June 30, 2014, were not current on their dividend
and interest payments to Treasury.410 The 42 banks were behind by as many as 22
payments and in total were overdue in payments to Treasury of $86.9 million.411
As of June 30, 2014, 42 of the 54 banks with remaining principal investments
were overdue by at least three payments, including 40 banks that were overdue by
at least six payments.412 Of the banks with remaining principal investments that
are not current on payments, 32 have unpaid dividend and interest payments that
are cumulative, and 10 have unpaid dividend payments that are non-cumulative.
Tables 2.28–2.33 show the distribution of missed payments and value of those
payments by state.
194           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     CPP Dividend Rates Increase for Remaining Banks
                                                     Most banks with remaining principal investments have reached the five-year
                                                     anniversary in CPP, at which point their dividend rate increased from 5% to 9%
                                                     (some banks structured as S corporations have had their interest rate increase from
                                                     7.7% to 13.8%).
                                                         By the August 15, 2014, payment date, rates will increase to 9% for an
                                                     additional nine banks, of which seven are already behind on dividend payments.
                                                     Rates will increase for one more bank by November 15, 2014, and for the
                                                     remaining one bank by February 15, 2015. Table 2.34 lists the remaining banks by
                                                     date of dividend rate increase.
                                                         As of June 30, 2014, of the 54 banks with remaining principal investments in
                                                     CPP, 42 already have overdue missed dividends and interest. For these banks, with
                                                     the increase in the dividend rate, the amount overdue to Treasury will grow more
      For more on SIGTARP’s October                  quickly. While all banks, regardless of size, received CPP on the same terms, the
      2011 recommendation regarding                  one-size-fits-all repayment terms may not fit all. Because so many of these banks
      how Treasury should treat community
                                                     are not paying the 5% dividend, an increase to 9% may not have the intended
      banks unable to exit TARP before the
      dividend rate increase, see SIGTARP’s          effect of incentivizing them to exit TARP, particularly if they lack the ability to
      October 2011 Quarterly Report, pages           raise capital. In October 2011, SIGTARP recommended to Treasury that it assess
      167-169, and SIGTARP’s January                 whether it should renegotiate the terms of its CPP contracts for those community
      2012 Quarterly Report, pages 159-              banks that will not be able to exit TARP prior to the dividend rate increase.
      161.
                                                     Treasury did not implement this recommendation.
                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   195




TABLE 2.34
 CPP-RELATED DIVIDEND RATE INCREASES, AS OF 6/30/2014
                                                                                                                      Number
                                                                                               Value of Missed       of Missed
                                                             Investment      Outstanding      Dividend/Interest       Dividend
 Institution                              Location                 Date   Capital Amount             Payments        Payments
 Rate Increased 12/5/2013
 Popular, Inc.                            San Juan, PR        12/5/2008    $935,000,000
 Rate Increased 2/15/2014
 First BanCorp                            San Juan, PR        1/16/2009     238,972,282
 FNB United Corp.                         Asheboro, NC        2/13/2009      51,500,000
 Porter Bancorp Inc.                      Louisville, KY     11/21/2008      35,000,000              $5,162,500              11
 First United Corporation                 Oakland, MD         1/30/2009      30,000,000
 Broadway Financial Corporation           Los Angeles, CA    11/14/2008      15,000,000
                                          Mount Pleasant,
 Tidelands Bancshares, Inc                                   12/19/2008      14,448,000               2,853,480              15
                                          SC
 One United Bank                          Boston, MA         12/19/2008      12,063,000               3,287,168              21
 Cecil Bancorp, Inc.                      Elkton, MD         12/23/2008      11,560,000               2,716,600              18
 NCAL Bancorp                             Los Angeles, CA    12/19/2008      10,000,000               1,735,000              12
 Western Community Bancshares, Inc.       Palm Desert, CA    12/23/2008       7,290,000               1,662,300              16
 Greer Bancshares Incorporated            Greer, SC           1/30/2009       4,883,000
 Citizens Commerce Bancshares, Inc.       Versailles, KY       2/6/2009       6,300,000               1,693,913              19
 Patapsco Bancorp, Inc.                   Dundalk, MD        12/19/2008       6,000,000               1,449,750              17
 Rising Sun Bancorp                       Rising Sun, MD       1/9/2009       5,983,000               1,608,615              19
                                          Rancho Santa
 CalWest Bancorp                                              1/23/2009       4,656,000                 998,198              15
                                          Margarita, CA
 Lone Star Bank                           Houston, TX          2/6/2009       3,072,000                 914,072              21
                                          Garden Grove,
 US Metro Bank                                                 2/6/2009       2,861,000                 418,410              10
                                          CA
 Goldwater Bank, N.A.                     Scottsdale, AZ      1/30/2009       2,568,000                 620,340              17
 Saigon National Bank                     Westminster, CA    12/23/2008       1,549,000                 470,673              22
 Calvert Financial Corporation            Ashland, MO         1/23/2009       1,037,000                  95,165               6
 Rate Increased 5/15/2014
 Royal Bancshares of Pennsylvania, Inc.   Narberth, PA        2/20/2009      30,407,000               7,601,750              20
 Central Bancorp, Inc.                    Garland, TX         2/27/2009      22,500,000               3,985,313              13
 Liberty Shares, Inc.                     Hinesville, GA      2/20/2009      17,280,000               3,531,600              15
 White River Bancshares Company           Fayetteville, AR    2/20/2009      16,800,000               3,204,600              14
 Bank of the Carolinas Corporation        Mocksville, NC      4/17/2009      13,179,000               2,306,325              14
 HCSB Financial Corporation               Loris, SC            3/6/2009      12,895,000               2,256,625              14
 Farmers & Merchants Bancshares, Inc.     Houston, TX          3/6/2009      11,000,000                 599,500               5
 Regent Bancorp, Inc.                     Davie, FL            3/6/2009       9,982,000               2,040,038              15
 City National Bancshares Corporation     Newark, NJ          4/10/2009       9,439,000               2,123,775              18
 United American Bank                     San Mateo, CA       2/20/2009       8,700,000               2,482,702              21
                                                                                                          Continued on next page
196   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




       CPP-RELATED DIVIDEND RATE INCREASES, AS OF 6/30/2014                                                     (CONTINUED)

                                                                                                                                                                                      Number
                                                                                                                                                       Value of Missed               of Missed
                                                                                               Investment               Outstanding                   Dividend/Interest               Dividend
       Institution                                              Location                             Date            Capital Amount                          Payments                Payments
       Highlands Independent Bancshares, Inc.                   Sebring, FL                      3/6/2009                  $6,700,000                          $1,278,025                  14
       Capital Commerce Bancorp, Inc.                           Milwaukee, WI                  4/10/2009                     5,100,000                           1,111,800                 16
       Pinnacle Bank Holding Company, Inc.                      Orange City, FL                  3/6/2009                    4,389,000                              956,640                16
       Metropolitan Capital Bancorp, Inc.                       Chicago, IL                    4/10/2009                     4,388,000
       Allied First Bancorp, Inc.                               Oswego, IL                     4/24/2009                     3,652,000                              597,210                12
       Marine Bank & Trust Company                              Vero Beach, FL                   3/6/2009                    3,000,000                              613,125                15
       St. Johns Bancshares, Inc.                               St. Louis, MO                  3/13/2009                     3,000,000
       Prairie Star Bancshares, Inc.                            Olathe, KS                       4/3/2009                    2,800,000                              648,550                17
       Citizens Bank & Trust Company                            Covington, LA                  3/20/2009                     2,400,000                              163,500                 5
       CSRA Bank Corp.                                          Wrens, GA                      3/27/2009                     2,400,000                              490,500                15
       Crazy Woman Creek Bancorp, Inc.                          Buffalo, WY                    2/20/2009                     2,100,000
       Market Bancorporation, Inc.                              New Market, MN                 2/20/2009                     2,060,000                              449,080                16
       Maryland Financial Bank                                  Towson, MD                     3/27/2009                     1,700,000                              162,138                 7
       Rate Increases 8/15/2014
       U.S. Century Bank                                        Miami, FL                        8/7/2009                  50,236,000                          12,320,460                  18
       Chambers Bancshares, Inc.           a
                                                                Danville, AR                   5/29/2009                   19,817,000                            2,494,001                  6
       OneFinancial Corporationb                                Little Rock, AR                  6/5/2009                  17,300,000                            3,158,996                  9
       Suburban Illinois Bancorp, Inc.         c
                                                                Elmhurst, IL                   6/19/2009                   15,000,000                            4,090,125                 13
       Equity Bancshares, Inc. (First
                                                                Wichita, KS                    5/15/2009                   14,800,000
       Community Bancshares, Inc)
       Harbor Bankshares Corporation                            Baltimore, MD                  7/17/2009                     6,800,000                           1,360,000                 16
       Community Bancshares, Inc.                               Kingman, AZ                    7/24/2009                     3,872,000
       Grand Mountain Bancshares, Inc.                          Granby, CO                     5/29/2009                     3,076,000                              831,780                20
       SouthFirst Bancshares, Inc.                              Sylacauga, AL                  6/12/2009                     2,760,000                              376,050                10
       Rate Increases 11/15/2014
       Grand Financial Corporationd                             Hattiesburg, MS                9/25/2009                     2,443,320
       Rate Increases 2/15/2015
       Liberty Bancshares, Inc.                                 Fort Worth, TX                 12/4/2009                     6,500,000
       Notes: Numbers may not total due to rounding.
       a
         Chambers Bancshares, Inc. is an S-Corporation, so its interest rate increased from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (5/29/2009).
       b
         OneFinancial Corporation is an S-Corporation, so its interest rate increased from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (6/5/2009).
       c
         Suburban Illinois Bancorp, Inc. is an S-Corporation, so its interest rate increased from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (6/19/2009).
       d
         Grand Financial Corporation is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (9/25/2009).
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   197




Treasury’s Policy on Missed Dividend and Interest Payments
According to Treasury, it “evaluates its CPP investments on an ongoing basis with
the help of outside advisors, including external asset managers. The external asset
managers provide a valuation for each CPP investment” that results in Treasury
assigning the institution a credit score.413 For those that have unfavorable credit
scores, including any institution that has missed more than three dividend (or
interest) payments, Treasury has stated that the “asset manager dedicates more
resources to monitoring the institution and may talk to the institution on a more
frequent basis.”414
    Under the terms of the preferred shares or subordinated debentures held by
Treasury as a result of its CPP investments, in certain circumstances, such as when
a participant misses six dividend (or interest) payments, Treasury has the right to
appoint up to two additional members to the institution’s board of directors.415
These directors will not represent Treasury, but rather will have the same fiduciary
duties to shareholders as all other directors. They will be compensated by the
institution in a manner similar to other directors.416
    As of June 30, 2014, of the 54 institutions with remaining principal
investments, 41 CPP institutions have missed at least six payments.417 As of June
30, 2014, Treasury had made director appointments to the boards of directors
of 16 CPP banks, as noted in Table 2.36.418 Most of those banks no longer have
remaining CPP principal investments. Just two of the 54 banks with remaining
principal investments have Treasury-appointed directors.
    For institutions that miss five or more dividend (or interest) payments, Treasury
has stated that it would seek consent from such institutions to send observers to
the institutions’ board meetings.419 As of June 30, 2014, of the 54 CPP banks with
remaining principal investments, 42 had missed at least five payments.420 According
to Treasury, the observers would be selected from its Office of Financial Stability
(“OFS”) and assigned to “gain a better understanding of the institution’s condition
and challenges and to observe how the board is addressing the situation.”421
Their participation would be “limited to inquiring about distributed materials,
presentations, and actions proposed or taken during the meetings, as well as
addressing any questions concerning” their role.422 The findings of the observers
are taken into account when Treasury evaluates whether to appoint individuals to
an institution’s board of directors.423 As of June 30, 2014, Treasury had assigned
observers to 18 current CPP recipients, as noted in Table 2.36.424
    Twelve banks have rejected Treasury’s requests to send an observer to the
institutions’ board meetings.425 The banks had initial CPP investments of as much
as $27 million, have missed as many as 22 quarterly dividend payments to Treasury,
and have been overdue in dividend payments by as much as $4.1 million.426 Five
of these banks have since been sold at a loss to Treasury at auction.427 Four of
these banks have remaining CPP principal investments, four of which continue to
have missed payments.428 At 22 missed dividend payments, Saigon National Bank,
Westminster, California, which has never made a dividend payment, has more
missed payments than any TARP bank, yet rejected Treasury’s request to send an
198   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                               observer to its board meetings.429 Table 2.35 lists the banks that rejected Treasury
                                                               observers.
                                                                    Seven of the 707 banks that received CPP investments have never made a
                                                               single dividend payment to Treasury since receiving CPP investments. Of these
                                                               seven banks, four have remaining CPP principal investments and two have exited
                                                               TARP as a result of bankruptcy. Midwest Banc Holdings, Inc., Melrose Park,
                                                               Illinois, and One Georgia Bank, Atlanta, Georgia, both exited CPP by bankruptcy.
                                                               The four remaining banks that have never made a dividend payment are: Saigon
                                                               National Bank, Westminster, California (22 missed payments); Lone Star Bank,
                                                               Houston, Texas (21); United American Bank, San Mateo, California (21); and
                                                               Grand Mountain Bankshares, Granby, Colorado (20).

      TABLE 2.35
       CPP BANKS THAT REJECTED TREASURY OBSERVERS
                                                                 CPP Principal                 Number of                 Value of Missed             Date of Treasury                     Date of
       Institution                                                 Investment            Missed Payments                       Payments                       Request                   Rejection
       Intermountain Community Bancorp                             $27,000,000                                 —a                          $—                 3/11/2011                4/12/2011
      Community Bankers Trust Corporation                            17,680,000                                —   b
                                                                                                                                             —              10/18/2011               11/23/2011
      White River Bancshares Company                                 16,800,000                                14                3,204,600                    3/28/2012                4/27/2012
      Timberland Bancorp, Inc.c                                      16,641,000                                —d                            —                6/27/2011                8/18/2011
      Alliance Financial Services Inc.         c
                                                                     12,000,000                               12   e
                                                                                                                                 3,020,400                    3/10/2011                 5/6/2011
      Central Virginia Bankshares, Inc.f                             11,385,000                               15g                2,134,688                      3/9/2011               5/18/2012
       Commonwealth Business Bankc                                     7,701,000                              10h                1,049,250                    8/13/2010                9/20/2010
      Pacific International Bancorpi                                   6,500,000                               —j                            —                9/23/2010              11/17/2010
       Rising Sun Bancorp                                              5,983,000                               19                1,608,615                    12/3/2010                2/28/2011
      Omega Capital Corp.c                                             2,816,000                              15k                   575,588                   12/3/2010                1/13/2011
       Citizens Bank & Trust Company                                   2,400,000                                 5                  163,500                   9/23/2010              11/17/2010
       Saigon National Bank                                            1,549,000                               22                   470,673                   8/13/2010                9/20/2010
       Notes: Numbers may not total due to rounding.
       a
           Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Intermountain Community Bancorp had 12 missed
            payments totaling $4.1 million.
       b
             Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling
              $1.5 million.
       c
            Bank was sold at a loss at auction.
       d
            Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7
             million.
       e
            Alliance Financial Services Inc. was sold at a loss at auction and its missed payments to Treasury were not repaid.
       f
          Bank accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.
       g
              Central Virginia Bankshares, Inc. was sold to C&F Financial Corporation and its missed payments to Treasury were not repaid.
       h
           Commonwealth Business Bank was sold at a loss at auction and its missed payments to Treasury were not repaid.
       i
         Bank has exited the Capital Purchase Program.
       j
         Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Pacific International Bancorp had 10 missed payments
          totaling $0.8 million.
       k
           Omega Capital Corp. was sold at a loss at auction and its missed payments to Treasury were not repaid.

       Source: Treasury, Dividends and Interest Report, 7/10/2014.
                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   199




    SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes
institutions from its “non-current” reporting: (i) that have completed a
recapitalization, restructuring, or exchange with Treasury (though Treasury does
report such institutions as non-current during the pendency of negotiations); (ii)
for which Treasury sold the CPP investment to a third party, or otherwise disposed
of the investment to facilitate the sale of the institution to a third party; (iii) that
filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.430 SIGTARP
generally includes such activity in Table 2.36 under “Value of Unpaid Amounts”
with the value set as of the date of the bankruptcy, restructuring, or other event
that relieves the institution of the legal obligation to continue to make dividend
and interest payments. If a completed transaction resulted in payment to Treasury
for all unpaid dividends and interest, SIGTARP does not include the institution’s
obligations under unpaid amounts. As of June 30, 2014, for all CPP banks,
including those that were missing payments when they exited, 93 banks had
missed at least 10 dividend (or interest) payments and 140 banks had missed five
dividend (or interest) payments totaling $425.8 million.431 Table 2.36 lists CPP
recipients that had unpaid dividend (or interest) payments as of June 30, 2014.
For a complete list of CPP recipients and institutions making dividend or interest
payments, see Appendix D: “Transaction Detail.”
200             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.36
       CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2014
                                                                                         Observers
                                                                             Number       Assigned
                                                   Dividend or              of Missed   to Board of   Value of Missed        Value of Unpaid
       Company                                     Payment Type             Payments     Directors1        Payments2             Amounts2,3,4
       Saigon National Bank                        Non-Cumulative                 21                        $434,088                $434,088
       Lone Star Bank                              Non-Cumulative                 20        ✓                841,487                 841,487
       OneUnited Bank                              Interest                       20        ✓              3,015,750               3,015,750
       United American Bank                        Non-Cumulative                 20                       2,364,165               2,364,165
       Grand Mountain Bancshares, Inc.             Cumulative                     19        ✓                789,865                 789,865
       Royal Bancshares of Pennsylvania, Inc.      Cumulative                     19        n              7,221,663               7,221,663
       Citizens Commerce Bancshares, Inc.          Cumulative                     18                       1,545,075               1,545,075
       Rising Sun Bancorp                          Cumulative                     18                       1,467,270               1,467,270
       Cecil Bancorp, Inc.                         Cumulative                     17        ✓              2,456,500               2,456,500
       City National Bancshares Corporation        Cumulative                     17                       2,005,788               2,005,788
       U.S. Century Bank                           Non-Cumulative                 17        ✓             11,635,990              11,635,990
       Goldwater Bank, N.A.    **
                                                   Non-Cumulative                 16                         559,680                 559,680
       Patapsco Bancorp, Inc.                      Cumulative                     16                       1,308,000               1,308,000
       Prairie Star Bancshares, Inc.               Cumulative                     16                         610,400                 610,400
       Capital Commerce Bancorp, Inc.              Cumulative                     15                       1,042,313               1,042,313
       Harbor Bankshares Corporation**             Cumulative                     15                       1,445,000               1,275,000
       Market Bancorporation, Inc.                 Cumulative                     15                         421,013                 421,013
       Pinnacle Bank Holding Company               Cumulative                     15                         896,850                 896,850
       Provident Community Bancshares, Inc.        Cumulative                     15                       1,737,375               1,737,375
       Western Community Bancshares, Inc.          Cumulative                     15                       1,490,063               1,490,063
       CalWest Bancorp                             Cumulative                     14                         888,195                 888,195
       CSRA Bank Corp.                             Cumulative                     14                         457,800                 457,800
       Liberty Shares, Inc.                        Cumulative                     14        ✓              3,296,160               3,296,160
       Marine Bank & Trust Company                 Non-Cumulative                 14                         572,250                 572,250
       Regent Bancorp, Inc    **
                                                   Cumulative                     14                       1,904,035               1,904,035
       Tidelands Bancshares, Inc                   Cumulative                     14        ✓              2,528,400               2,528,400
       Bank of the Carolinas Corporation           Cumulative                     13        ✓              2,141,588               2,141,588
       HCSB Financial Corporation                  Cumulative                     13        ✓              2,095,438               2,095,438
       Highlands Independent Bancshares, Inc.      Cumulative                     13                       1,186,738               1,186,738
       White River Bancshares Company              Cumulative                     13                       2,975,700               2,975,700
       Central Bancorp, Inc.                       Cumulative                     12        n              3,678,750               3,678,750
       Suburban Illinois Bancorp, Inc. *,**
                                                   Interest                       12        ✓              3,775,500               3,775,500
       Allied First Bancorp, Inc.                  Cumulative                     11                         547,443                 547,443
       NCAL Bancorp                                Cumulative                     11        ✓              1,498,750               1,498,750
       Porter Bancorp, Inc.                        Cumulative                     10        ✓              4,375,000               4,375,000
                                                                                                                        Continued on next page
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014              201




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2014                                 (CONTINUED)

                                                                                      Observers
                                                                          Number       Assigned
                                                        Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                 Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
SouthFirst Bancshares, Inc.                             Cumulative              9                                 $338,445                $338,445
US Metro Bank   **
                                                        Non-Cumulative          9                                  350,820                  350,820
OneFinancial Corporation      *,**
                                                        Non-Cumulative          8        ✓                        2,807,996              2,807,996
Maryland Financial Bank                                 Non-Cumulative          6                                  138,975                  138,975
Calvert Financial Corporation                           Cumulative              5                                   70,663                   70,663
Chambers Bancshares, Inc.*,**                           Interest                5        ✓                        2,078,334              2,078,334
Citizens Bank & Trust Company                           Non-Cumulative          5                                  163,500                  163,500
Farmers & Merchants Barcshares, Inc.*,**                Cumulative              5                                 1,199,000                 599,500
Exchanges, Sales, Recapitalizations,
                                                                                                                                                   
and Failed Banks
Idaho Bancorp****                                       Cumulative             19        ✓                        1,786,238              1,786,238
Blue Valley Ban Corp*****                               Cumulative             18        n                        4,893,750              4,893,750
Pacific City Financial Corporation         *****
                                                        Cumulative             18                                 3,973,050              3,973,050
Centrue Financial Corporation*****                      Cumulative             18        n                        6,959,475              6,959,475
Georgia Primary Bank     *****
                                                        Non-Cumulative         18        ✓                        1,113,163              1,113,163
Northern States Financial Corp          *****
                                                        Cumulative             18        n                        3,872,475              3,872,475
Anchor BanCorp Wisconsin, Inc.****                      Cumulative             17        n                       23,604,167             23,604,167
First Banks, Inc.*****                                  Cumulative             17        n                       64,543,063             64,543,063
Syringa Bancorp****                                     Cumulative             17        ✓                        1,853,000              1,853,000
Central Virginia Bankshares, Inc.         *****
                                                        Cumulative             15                                 2,134,688              2,134,688
Omega Capital Corp.*****                                Cumulative             15                                  575,588                  575,588
Rogers Bancshares, Inc.      ****
                                                        Cumulative             15        n                        5,109,375              5,109,375
Pathway Bancorp*****                                    Cumulative             15                                  761,588                  761,588
Bridgeview Bancorp, Inc.      *****
                                                        Cumulative             15        n                        7,766,250              7,766,250
Madison Financial Corporation          *****
                                                        Cumulative             15                                  688,913                  688,913
Midtown Bank & Trust Company**,*****                    Non-Cumulative         15                                 1,067,213              1,067,213
TCB Holding Company****                                 Cumulative             15        ✓                        2,397,488              2,397,488
Provident Community Bancshares, Inc.*****               Cumulative             15                                 1,737,375              1,737,375
1st FS Corporation   *****
                                                        Cumulative             14        ✓                        2,864,575              2,864,575
Dickinson Financial Corporation II*****                 Cumulative             14                                27,859,720             27,859,720
FC Holdings, Inc.*****                                  Cumulative             14                                 4,013,730              4,013,730
Ridgestone Financial Services, Inc.             *****
                                                        Cumulative             14                                 2,079,175              2,079,175
Intervest Bancshares Corporation*****                   Cumulative             14        n                        4,375,000              4,375,000
Fidelity Federal Bancorp     *****
                                                        Cumulative             14                                 1,229,924              1,229,924
Premierwest Bancorp*****                                Cumulative             14        n                        7,245,000              7,245,000
Great River Holding Company           *,**,*****
                                                        Cumulative             14                                 2,466,660              2,466,660
                                                                                                                              Continued on next page
202             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2014                                           (CONTINUED)

                                                                                                      Observers
                                                                                          Number       Assigned
                                                                        Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
      Company                                                           Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
      First Southwest Bancorporation, Inc.*****                         Cumulative             13                                 $974,188                $974,188
      Tennessee Valley Financial Holdings, Inc.                 *****
                                                                        Cumulative             13                                  531,375                 531,375
      First Sound Bank  *****
                                                                        Non-Cumulative         13                                 1,202,500              1,202,500
      Pacific Commerce Bank**,*****                                     Non-Cumulative         13                                  751,089                 695,771
      Patriot Bancshares, Inc.     *****
                                                                        Cumulative             13        ✓                        4,612,010              4,612,010
      Stonebridge Financial Corp.*****                                  Cumulative             12        ✓                        1,794,180              1,794,180
      Premier Financial Corp     *,**,*****
                                                                        Interest               12                                 1,597,857              1,597,857
      Citizens Bancshares Co. (MO)****                                  Cumulative             12        n                        4,086,000              4,086,000
      Northwest Bancorporation, Inc.              *****
                                                                        Cumulative             12                                 1,716,750              1,716,750
      Plumas Bancorp*****                                               Cumulative             12        ✓                        1,792,350              1,792,350
      Gold Canyon Bank    ****
                                                                        Non-Cumulative         12                                  254,010                 254,010
      Santa Clara Valley Bank, N.A.         *****
                                                                        Non-Cumulative         12                                  474,150                 474,150
      Spirit BankCorp, Inc.*****                                        Cumulative             12        ✓                        4,905,000              4,905,000
      Alliance Financial Services, Inc.*,*****                          Interest               12                                 3,020,400              3,020,400
      First Trust Corporation*,*****                                    Interest               12        n                        4,522,611              4,522,611
      Community First, Inc.     *****
                                                                        Cumulative             12        ✓                        2,911,200              2,911,200
      Eastern Virginia Bankshares, Inc.*****                            Cumulative             11        ✓                        3,300,000              3,300,000
      The Queensborough Company               *****
                                                                        Cumulative             11                                 1,798,500              1,798,500
      Boscobel Bancorp, Inc*,*****                                      Interest               11                                 1,288,716              1,288,716
      Investors Financial Corporation of Pettis
                                                                        Interest               11                                  922,900                 922,900
      County, Inc.*
      Florida Bank Group, Inc.*****                                     Cumulative             11        ✓                        3,068,203              3,068,203
      Reliance Bancshares, Inc.*****                                    Cumulative             11        ✓                        5,995,000              5,995,000
      Village Bank and Trust Financial Corp.                  *****
                                                                        Cumulative             11        ✓                        2,026,475              2,026,475
      AB&T Financial Corporation          *****
                                                                        Cumulative             11                                  481,250                 481,250
      Atlantic Bancshares, Inc.*****                                    Cumulative             11                                  299,255                 299,255
      First Financial Service Corporation             *****
                                                                        Cumulative             10        ✓                        2,500,000              2,500,000
      Old Second Bancorp, Inc.*****                                     Cumulative             10        n                        9,125,000              9,125,000
      Security State Bank Holding-Company                 *,**,*****
                                                                        Interest               10        ✓                        2,931,481              2,931,481
      Bank of George*****                                               Non-Cumulative         10                                  364,150                 364,150
      Valley Community Bank       *****
                                                                        Non-Cumulative         10                                  749,375                 749,375
      Commonwealth Business Bank              *****
                                                                        Non-Cumulative         10                                 1,049,250              1,049,250
      Gregg Bancshares, Inc.****                                        Cumulative              9                                  101,115                 101,115
      Metropolitan Bank Group, Inc./NC Bancorp,
                                                                        Cumulative              9        ✓                       12,716,368              9,511,543
      Inc.***
      National Bancshares, Inc.*****                                    Cumulative              9                                 3,024,383              3,024,383
                                                                                                                                              Continued on next page
                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014              203




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2014                                      (CONTINUED)

                                                                                           Observers
                                                                               Number       Assigned
                                                             Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                      Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
SouthCrest Financial Group, Inc.*****                        Cumulative              9                                $1,581,863             $1,581,863
Citizens Bancorp  ****
                                                             Cumulative              9                                 1,275,300              1,275,300
Community Pride Bank Corporation                *,**,*****
                                                             Interest                9                                  803,286                  803,286
Premier Bank Holding Company****                             Cumulative              9                                 1,164,938              1,164,938
RCB Financial Corporation*****                               Cumulative              9                                 1,055,520              1,055,520
Central Federal Corporation*****                             Cumulative              8                                  722,500                  722,500
CoastalSouth Bancshares, Inc.           *****
                                                             Cumulative              8                                 1,687,900              1,687,900
HMN Financial, Inc.*****                                     Cumulative              8                                 2,600,000              2,600,000
One Georgia Bank   ****
                                                             Non-Cumulative          8                                  605,328                  605,328
Independent Bank Corporation***                              Cumulative              8        ✓                       14,193,996              6,164,420
First Intercontinental Bank*****                             Non-Cumulative          8                                  697,400                  697,400
Coloeast Bankshares, Inc.       *****
                                                             Cumulative              8        ✓                        1,090,000              1,090,000
Cascade Financial Corporation*****                           Cumulative              7                                 3,409,875              3,409,875
Integra Bank Corporation     ****
                                                             Cumulative              7                                 7,313,775              7,313,775
Princeton National Bancorp, Inc.****                         Cumulative              7                                 2,194,763              2,194,763
Brogan Bankshares, Inc.     *
                                                             Interest                7                                  352,380                  352,380
Severn Bancorp, Inc.*****                                    Cumulative              6                                 1,754,475              1,754,475
Central Pacific Financial Corp.***,9                         Cumulative              6                                10,125,000                      —
Coastal Banking Company, Inc.*****                           Cumulative              6                                  995,000                  995,000
First Reliance Bancshares, Inc.*****                         Cumulative              6                                 1,254,720              1,254,720
FNB United Corp.   ***
                                                             Cumulative              6        ✓                        3,862,500                      —
FPB Bancorp, Inc. (FL)****                                   Cumulative              6                                  435,000                  435,000
Indiana Bank Corp.****                                       Cumulative              6                                  107,310                  107,310
Naples Bancorp, Inc.*****                                    Cumulative              6                                  327,000                  327,000
First Place Financial Corp.                                  Cumulative              6                                 5,469,525              5,469,525
Worthington Financial Holdings, Inc.*****                    Cumulative              6                                  222,360                  222,360
Fort Lee Federal Savings Bank           ****
                                                             Non-Cumulative          6                                  106,275                  106,275
Alarion Financial Services, Inc.*****                        Cumulative              6                                  532,560                  532,560
Community Financial Shares, Inc.           ***
                                                             Cumulative              5                                  759,820                  759,820
Delmar Bancorp   *****
                                                             Cumulative              5                                  613,125                  613,125
First BanCorp (PR)***                                        Cumulative              5        ✓                       42,681,526                      —
First Federal Bancshares of Arkansas,
                                                             Cumulative              5                                 1,031,250              1,031,250
Inc.*****
Flagstar Bancorp, Inc.*****                                  Cumulative              5                                16,666,063             16,666,063
Midwest Banc Holdings, Inc.5                                 Cumulative              5                                 4,239,200              4,239,200
Pacific Capital Bancorp    ***,9
                                                             Cumulative              5                                13,547,550                      —
                                                                                                                                   Continued on next page
204             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2014                                  (CONTINUED)

                                                                                             Observers
                                                                                 Number       Assigned
                                                               Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
      Company                                                  Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
      GulfSouth Private Bank****                               Non-Cumulative          5                                 $494,063                $494,063
      Northwest Commercial Bank                 ****
                                                               Non-Cumulative          5                                  135,750                 135,750
      IA Bancorp, Inc. **,*****
                                                               Cumulative              5                                  472,365                 393,638
      CB Holding Corp.****                                     Cumulative              4                                  224,240                 224,240
      Colony Bankcorp, Inc.       *****
                                                               Cumulative              4                                 1,400,000              1,400,000
      First Community Bank Corporation of
                                                               Cumulative              4                                  534,250                 534,250
      America*****
      Green Bankshares, Inc.*****                              Cumulative              4                                 3,613,900              3,613,900
      Hampton Roads Bankshares, Inc.                   ***,9
                                                               Cumulative              4                                 4,017,350              4,017,350
      Pierce County Bancorp****                                Cumulative              4                                  370,600                 370,600
      Santa Lucia Bancorp       *****
                                                               Cumulative              4                                  200,000                 200,000
      Sterling Financial Corporation (WA)***,9                 Cumulative              4                                18,937,500             18,937,500
      TIB Financial Corp***** ,7                               Cumulative              4                                 1,850,000              1,850,000
      Community Bank of the Bay6                               Non-Cumulative          4                                   72,549                  72,549
      The Bank of Currituck       *****
                                                               Non-Cumulative          4                                  219,140                 219,140
      The Connecticut Bank and Trust
                                                               Non-Cumulative          4                                  246,673                 246,673
      Company*****
      Plato Holdings Inc.*,*****                               Interest                4                                  207,266                 207,266
      Virginia Company Bank*****                               Non-Cumulative          3                                  185,903                 185,903
      Blue River Bancshares, Inc.          ****
                                                               Cumulative              3                                  204,375                 204,375
      Community West Bancshares*****                           Cumulative              3                                  585,000                 585,000
      Legacy Bancorp, Inc.      ****
                                                               Cumulative              3                                  206,175                 206,175
      Sonoma Valley Bancorp****                                Cumulative              3                                  353,715                 353,715
      Superior Bancorp Inc.       ****
                                                               Cumulative              3                                 2,587,500              2,587,500
      Tennessee Commerce Bancorp, Inc.****                     Cumulative              3                                 1,125,000              1,125,000
      The South Financial Group, Inc.              ***** ,7
                                                               Cumulative              3                                13,012,500             13,012,500
      Treaty Oak Bancorp, Inc.          *****
                                                               Cumulative              3                                  133,553                 133,553
      Bank of Commerce*****                                    Non-Cumulative          3                                  122,625                 122,625
      Carolina Trust Bank   *****
                                                               Non-Cumulative          3                                  150,000                 150,000
      Commerce National Bank                                   Non-Cumulative          3                                  150,000                 150,000
      Cadence Financial Corporation               *****
                                                               Cumulative              2                                  550,000                 550,000
      First Alliance Bancshares, Inc.*****                     Cumulative              2                                   93,245                  93,245
      Pacific Coast National Bancorp               ****
                                                               Cumulative              2                                  112,270                 112,270
      The Baraboo Bancorporation, Inc.*****                    Cumulative              2                                  565,390                 565,390
      Colonial American Bank*****                              Non-Cumulative          2                                   15,655                  15,655
      Fresno First Bank   ***
                                                               Non-Cumulative          2                                   33,357                  33,357
                                                                                                                                     Continued on next page
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                                     205




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2014                                                                       (CONTINUED)

                                                                                                                       Observers
                                                                                                    Number              Assigned
                                                                Dividend or                        of Missed          to Board of                   Value of Missed                     Value of Unpaid
Company                                                         Payment Type                       Payments            Directors1                        Payments2                          Amounts2,3,4
FBHC Holding Company*,*****                                     Interest                                        2                                            $123,127                             $123,127
Gateway Bancshares, Inc.                                        Cumulative                                      2                                              163,500                              163,500
CIT Group Inc.      ****,8
                                                                Cumulative                                      2                                          29,125,000                          29,125,000
UCBH Holdings, Inc.****                                         Cumulative                                      1                                           3,734,213                            3,734,213
Exchange Bank         *****
                                                                Non-Cumulative                                  1                                              585,875                              585,875
Tifton Banking Company****                                      Non-Cumulative                                  1                                                51,775                               51,775
Total                                                                                                                                                $593,992,104                         $511,637,582
Notes: Numbers may not total due to rounding. Approximately $32.2 million of the $511.6 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
dividends that are non-cumulative.

* Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
** Partial payments made after the due date.
*** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
**** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

n   Treasury has appointed one or more directors to the Board of Directors.
✓   Treasury has assigned an observer to the Board of Directors.

1
  F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
   an observer to the board of directors.
2
   Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
   Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
  Program.
4
    Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
     investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
5
     For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
      amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
      Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
7
      For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
      For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
       amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
       Completed exchanges:
        - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
        amounts reflect the figures Treasury reported prior to the exchange.
        - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
        amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, Dividends and Interest Report, 7/10/2014; Treasury, responses to SIGTARP data calls, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
10/4/2012, 1/10/2013, 4/4/2013, 7/5/2013, 10/7/2013, 1/13/2014, 4/10/2014, 7/11/2014.
206   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                             Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
                                             institutions,” as of June 30, 2014, 30 CPP participants, including one institution
                                             this quarter, had gone bankrupt or had a subsidiary bank fail, as indicated in Table
                                             2.37.432

                                             Bankruptcy of Idaho Bancorp
                                             On January 16, 2009, Treasury invested $6.9 million in Idaho Bancorp, Boise,
                                             Idaho, (“Idaho Bancorp”) through CPP in return for preferred stock and
                                             warrants.433 On April 24, 2014, Idaho Bancorp filed for Chapter 11 bankruptcy
                                             protection in the United States Bankruptcy Court, District of Idaho.434 On the
                                             same date, Treasury wrote off the entirety of its investment in Idaho Bancorp, a loss
                                             of $6.9 million.435
                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   207




TABLE 2.37
 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 6/30/2014                        ($ MILLIONS)

                                        Initial
                                     Invested     Investment                      Bankruptcy/
 Company                              Amount            Date           Status     Failure Datea            Subsidiary Bank
                                                                    Bankruptcy
                                                                  proceedings
                                                               completed with
                                                                   no recovery                                     CIT Bank,
 CIT Group Inc., New York, NY        $2,330.0     12/31/2008                        11/1/2009
                                                                  of Treasury’s                            Salt Lake City, UT
                                                                   investment;
                                                               subsidiary bank
                                                                remains active
                                                                In bankruptcy;
 UCBH Holdings Inc.,                                                                               United Commercial Bank,
                                        298.7     11/14/2008   subsidiary bank      11/6/2009
 San Francisco, CA                                                                                        San Francisco, CA
                                                                         failed
                                                                    Bankruptcy
                                                                  proceedings
                                                               completed with
 Pacific Coast National Bancorp,                                  no recovery                         Pacific Coast National
                                           4.1     1/16/2009                       11/13/2009
 San Clemente, CA                                                of Treasury’s                      Bank, San Clemente, CA
                                                                   investment;
                                                               subsidiary bank
                                                                         failed
                                                                In bankruptcy;                       Midwest Bank and Trust
 Midwest Banc Holdings, Inc.,
                                        89.4b      12/5/2008   subsidiary bank      5/14/2010                    Company,
 Melrose Park, IL
                                                                         failed                           Elmwood Park, IL
 Sonoma Valley Bancorp,                                        Subsidiary bank                          Sonoma Valley Bank,
                                           8.7     2/20/2009                        8/20/2010
 Sonoma, CA                                                              failed                               Sonoma, CA
 Pierce County Bancorp,                                        Subsidiary bank                      Pierce Commercial Bank,
                                           6.8     1/23/2009                        11/5/2010
 Tacoma, WA                                                              failed                                Tacoma, WA
 Tifton Banking Company,
                                           3.8     4/17/2009             Failed    11/12/2010                              N/A
 Tifton, GA
 Legacy Bancorp, Inc.,                                         Subsidiary bank                                   Legacy Bank,
                                           5.5     1/30/2009                        3/11/2011
 Milwaukee, WI                                                           failed                                  Milwaukee, WI
 Superior Bancorp, Inc.,                                       Subsidiary bank                                Superior Bank,
                                         69.0      12/5/2008                        4/15/2011
 Birmingham, AL                                                          failed                              Birmingham, AL
 Integra Bank Corporation,                                     Subsidiary bank
                                         83.6      2/27/2009                        7/29/2011     Integra Bank, Evansville, IN
 Evansville, IN                                                          failed
 One Georgia Bank, Atlanta, GA             5.5      5/8/2009             Failed     7/15/2011                              N/A
                                                               Subsidiary bank                           First Peoples Bank,
 FPB Bancorp, Port Saint Lucie, FL         5.8     12/5/2008                        7/15/2011
                                                                         failed                          Port Saint Lucie, FL
                                                               Subsidiary bank                     Citizens Bank of Northern
 Citizens Bancorp, Nevada City, CA       10.4     12/23/2008                        9/23/2011
                                                                         failed                   California, Nevada City, CA
                                                               Subsidiary bank
 CB Holding Corp., Aledo, IL               4.1     5/29/2009                       10/14/2011        Country Bank, Aledo, IL
                                                                         failed
 Tennessee Commerce Bancorp,                                   Subsidiary bank                        Tennessee Commerce
                                         30.0     12/19/2008                        1/27/2012
 Inc., Franklin, TN                                                      failed                           Bank, Franklin, TN
 Blue River Bancshares, Inc.,                                  Subsidiary bank                                     SCB Bank,
                                           5.0      3/6/2009                        2/10/2012
 Shelbyville, IN                                                         failed                                  Shelbyville, IN
 Fort Lee Federal Savings Bank             1.3     5/22/2009             Failed     4/20/2012                              N/A
                                                               Subsidiary bank                       Glasgow Savings Bank,
 Gregg Bancshares, Inc.                    0.9     2/13/2009                        7/13/2012
                                                                         failed                               Glasgow, MO
                                                                                                     Continued on next page
208   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




             CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 6/30/2014                                                                   ($ MILLIONS) (CONTINUED)

                                                                    Initial
                                                                 Invested        Investment                                         Bankruptcy/
             Company                                              Amount               Date                         Status          Failure Datea                    Subsidiary Bank
             Premier Bank Holding Company                              $9.5       3/20/2009                 In bankruptcy              8/14/2012                                       N/A
             GulfSouth Private Bank                                      7.5      9/25/2009                          Failed          10/19/2012                                        N/A
             Investors Financial Corporation of                                                          Subsidiary bank                                                    Excel Bank,
                                                                         4.0        5/8/2009                                         10/19/2012
             Pettis County, Inc.                                                                                   failed                                                   Sedalia, MO
                                                                                                                                                                      First Place Bank,
             First Place Financial Corporation                         72.9       3/13/2009                 In bankruptcy            10/29/2012
                                                                                                                                                                            Warren, OH
                                                                                                         Subsidiary bank                                        Citizens First National
             Princeton National Bancorp                                25.1       1/23/2009                                            11/2/2012
                                                                                                                   failed                                          Bank, Princeton, IL
             Gold Canyon Bank                                            1.6      6/26/2009                          Failed              4/5/2013                                      N/A
             Indiana Bank Corp.                                          1.3      4/24/2009                 In bankruptcy                4/9/2013                                      N/A
             Rogers Bancshares, Inc.                                   25.0       1/30/2009                 In bankruptcy                7/5/2013                                      N/A
                                                                                                           Filed for and
             Anchor BanCorp Wisconsin Inc.                           110.0        1/30/2009           exited bankruptcy                8/12/2013                                       N/A
                                                                                                             protectionc
                                                                                                         Subsidiary bank                                     Texas Community Bank,
             TCB Holding Company                                       11.7       1/16/2009                                          12/13/2013
                                                                                                                   failed                                        The Woodlands, TX
                                                                                                         Subsidiary bank                                                  Syringa Bank,
             Syringa Bancorp                                             8.0      1/16/2009                                            1/31/2014
                                                                                                                   failed                                                      Boise, ID
             Idaho Bancorp, Boise, ID                                    6.9      1/16/2009                 in bankruptcy              4/24/2014                                       N/A
             Total                                               $3,246.1                                                                                                                  
             Notes: Numbers may not total due to rounding.
             a
               Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
             b
               The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc.
                (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
             c
               Treasury recouped $6 million of its investment once the company’s plan of reorganization became effective.

             Source: Treasury, Transactions Report, 6/30/2014.




                                                         Realized Losses and Write-offs
                                                         When a CPP investment is sold at a loss, or an institution that Treasury invested
                                                         in fails or has its subsidiary fail, Treasury records the loss as a realized loss or a
                                                         write-off. For these recorded losses, Treasury has no expectation of regaining any
                                                         portion of the lost investment. According to Treasury, as of June 30, 2014, Treasury
                                                         had realized losses and write-offs of $4.9 billion on its CPP investments. This total
                                                         includes $146.2 million in realized losses this quarter. Table 2.38 shows all realized
                                                         losses and write-offs by Treasury on CPP investments through June 30, 2014.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   209




TABLE 2.38
 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2014           ($ MILLIONS)

                                                TARP
 Institution                              Investment   Loss          Date   Description
Realized Losses
The Bank of Currituck                            $4     $2     12/3/2010 Sale of preferred stock at a loss
Treaty Oak Bancorp, Inc.                          3      3     2/15/2011 Sale of preferred stock at a loss
Cadence Financial Corporation                    44      6      3/4/2011 Sale of preferred stock at a loss
                                                                            Sale of subordinated
FBHC Holding Company                              3      2      3/9/2011
                                                                            debentures at a loss
First Federal Bancshares of Arkansas,
                                                 17     11      5/3/2011 Sale of preferred stock at a loss
Inc.
First Community Bank Corporation of
                                                 11      3     5/31/2011 Sale of preferred stock at a loss
America
Cascade Financial Corporation                    39     23     6/30/2011 Sale of preferred stock at a loss
Green Bankshares, Inc.                           72      4      9/7/2011 Sale of preferred stock at a loss
Santa Lucia Bancorp                               4      1    10/21/2011 Sale of preferred stock at a loss
Banner Corporation/Banner Bank                  124     14      4/3/2012 Sale of preferred stock at a loss 
First Financial Holdings Inc.                    65      8      4/3/2012 Sale of preferred stock at a loss 
MainSource Financial Group, Inc.                 57      4      4/3/2012 Sale of preferred stock at a loss
Seacoast Banking Corporation of
                                                 50      9      4/3/2012 Sale of preferred stock at a loss
Florida
Wilshire Bancorp, Inc.                           62      4      4/3/2012 Sale of preferred stock at a loss
WSFS Financial Corporation                       53      4      4/3/2012 Sale of preferred stock at a loss
Central Pacific Financial Corp.                 135     62      4/4/2012    Sale of common stock at a loss
Ameris Bancorp                                   52      4     6/19/2012 Sale of preferred stock at a loss
Farmers Capital Corporation                      30      8     6/19/2012 Sale of preferred stock at a loss
First Capital Bancorp, Inc.                      11      1     6/19/2012 Sale of preferred stock at a loss
First Defiance Financial Corp.                   37      1     6/19/2012 Sale of preferred stock at a loss
LNB Bancorp, Inc.                                25      3     6/19/2012 Sale of preferred stock at a loss
Taylor Capital Group, Inc.                      105     11     6/19/2012    Sale of preferred stock at a loss
United Bancorp, Inc.                             21      4     6/19/2012 Sale of preferred stock at a loss
Fidelity Southern Corporation                    48      5      7/3/2012 Sale of preferred stock at a loss
First Citizens Banc Corp                         21      2      7/3/2012 Sale of preferred stock at a loss
Firstbank Corporation                            33      2      7/3/2012 Sale of preferred stock at a loss
Metrocorp Bancshares, Inc.                       45      1      7/3/2012 Sale of preferred stock at a loss
Peoples Bancorp of North Carolina, Inc.          25      2      7/3/2012 Sale of preferred stock at a loss
Pulaski Financial Corp.                          33      4      7/3/2012 Sale of preferred stock at a loss
Southern First Bancshares, Inc.                  17      2      7/3/2012 Sale of preferred stock at a loss
Naples Bancorp, Inc.                              4      3     7/12/2012 Sale of preferred stock at a loss
Commonwealth Bancshares, Inc.                    20      5      8/9/2012 Sale of preferred stock at a loss
Diamond Bancorp, Inc.                            20      6      8/9/2012 Sale of preferred stock at a loss
Fidelity Financial Corporation                   36      4      8/9/2012 Sale of preferred stock at a loss
Market Street Bancshares, Inc.                   20      2      8/9/2012 Sale of preferred stock at a loss
                                                                                    Continued on next page
210   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2014             ($ MILLIONS) (CONTINUED)

                                                                          TARP
                         Institution                                Investment   Loss          Date   Description
                         CBS Banc-Corp.                                   $24     $2     8/10/2012    Sale of preferred stock at a loss
                         Marquette National Corporation                    36     10     8/10/2012 Sale of preferred stock at a loss
                         Park Bancorporation, Inc.                         23      6     8/10/2012 Sale of preferred stock at a loss
                         Premier Financial Bancorp, Inc.                    7      2     8/10/2012 Sale of preferred stock at a loss
                         Trinity Capital Corporation                       36      9     8/10/2012 Sale of preferred stock at a loss
                         Exchange Bank                                     43      5     8/13/2012 Sale of preferred stock at a loss
                         Millennium Bancorp, Inc.                           7      4     8/14/2012 Sale of preferred stock at a loss
                         Sterling Financial Corporation                   303    188     8/20/2012    Sale of preferred stock at a loss
                         BNC Bancorp                                       31      2     8/29/2012 Sale of preferred stock at a loss
                         First Community Corporation                       11     0.2    8/29/2012 Sale of preferred stock at a loss
                         First National Corporation                        14      2     8/29/2012 Sale of preferred stock at a loss
                         Mackinac Financial Corporation                    11     0.5    8/29/2012 Sale of preferred stock at a loss
                         Yadkin Valley Financial Corporation               13      5     9/18/2012 Sale of preferred stock at a loss
                         Alpine Banks of Colorado                          70     13     9/20/2012 Sale of preferred stock at a loss
                         F & M Financial Corporation (NC)                  17      1     9/20/2012 Sale of preferred stock at a loss
                         F&M Financial Corporation (TN)                    17      4     9/21/2012 Sale of preferred stock at a loss
                         First Community Financial Partners, Inc.          22      8     9/21/2012 Sale of preferred stock at a loss
                         Central Federal Corporation                        7      4     9/26/2012 Sale of preferred stock at a loss
                         Congaree Bancshares, Inc.                          3     0.6   10/31/2012 Sale of preferred stock at a loss
                         Metro City Bank                                    8     0.8   10/31/2012 Sale of preferred stock at a loss
                         Blue Ridge Bancshares, Inc.                       12      3    10/31/2012 Sale of preferred stock at a loss
                         Germantown Capital Corporation                     5     0.4   10/31/2012    Sale of preferred stock at a loss
                         First Gothenburg Bancshares, Inc.                  8     0.7   10/31/2012 Sale of preferred stock at a loss
                         Blackhawk Bancorp, Inc.                           10     0.9   10/31/2012 Sale of preferred stock at a loss
                         Centerbank                                         2     0.4   10/31/2012 Sale of preferred stock at a loss
                         The Little Bank, Incorporated                      8     0.1   10/31/2012 Sale of preferred stock at a loss
                         Oak Ridge Financial Services, Inc.                 8     0.6   10/31/2012 Sale of preferred stock at a loss
                         Peoples Bancshares of TN, Inc.                     4      1    10/31/2012 Sale of preferred stock at a loss
                         Hometown Bankshares Corporation                   10     0.8   10/31/2012    Sale of preferred stock at a loss
                         Western Illinois Bancshares, Inc.                 11     0.7    11/9/2012 Sale of preferred stock at a loss
                         Capital Pacific Bancorp                            4     0.2    11/9/2012 Sale of preferred stock at a loss
                         Three Shores Bancorporation, Inc.                  6     0.6    11/9/2012 Sale of preferred stock at a loss
                         Regional Bankshares, Inc.                          2     0.1    11/9/2012 Sale of preferred stock at a loss
                         Timberland Bancorp, Inc.                          17      2     11/9/2012 Sale of preferred stock at a loss
                         First Freedom Bancshares, Inc.                     9     0.7    11/9/2012 Sale of preferred stock at a loss
                         Bankgreenville Financial Corporation               1     0.1    11/9/2012 Sale of preferred stock at a loss
                                                                                                      Sale of subordinated
                         F&C Bancorp. Inc.                                  3     0.1   11/13/2012
                                                                                                      debentures at a loss
                                                                                                      Sale of subordinated
                         Farmers Enterprises, Inc.                         12     0.4   11/13/2012
                                                                                                      debentures at a loss
                                                                                                              Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   211




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2014           ($ MILLIONS) (CONTINUED)

                                               TARP
Institution                              Investment   Loss          Date   Description
Franklin Bancorp, Inc.                          $5     $2    11/13/2012 Sale of preferred stock at a loss
Sound Banking Company                            3     0.2   11/13/2012    Sale of preferred stock at a loss
Parke Bancorp, Inc.                             16      5    11/29/2012 Sale of preferred stock at a loss
Country Bank Shares, Inc.                        8     0.6   11/29/2012    Sale of preferred stock at a loss
Clover Community Bankshares, Inc.                3     0.4   11/29/2012 Sale of preferred stock at a loss
CBB Bancorp                                      4     0.3   11/29/2012 Sale of preferred stock at a loss
Alaska Pacific Bancshares, Inc.                  5     0.5   11/29/2012 Sale of preferred stock at a loss
Trisummit Bank                                   7      2    11/29/2012 Sale of preferred stock at a loss
Layton Park Financial Group, Inc.                3     0.6   11/29/2012    Sale of preferred stock at a loss
Community Bancshares of Mississippi,
Inc. (Community Holding Company of               1     0.1   11/30/2012 Sale of preferred stock at a loss
Florida, Inc.)
FFW Corporation                                  7     0.7   11/30/2012 Sale of preferred stock at a loss
Hometown Bancshares, Inc.                        2     0.1   11/30/2012 Sale of preferred stock at a loss
Bank of Commerce                                 3     0.5   11/30/2012 Sale of preferred stock at a loss
Corning Savings And Loan Association            0.6    0.1   11/30/2012 Sale of preferred stock at a loss
Carolina Trust Bank                              4     0.6   11/30/2012    Sale of preferred stock at a loss
Community Business Bank                          4     0.3   11/30/2012 Sale of preferred stock at a loss
KS Bancorp, Inc                                  4     0.7   11/30/2012 Sale of preferred stock at a loss
Pacific Capital Bancorp                        195     15    11/30/2012    Sale of common stock at a loss
Community West Bancshares                       16      4    12/11/2012 Sale of preferred stock at a loss
Presidio Bank                                   11      2    12/11/2012    Sale of preferred stock at a loss
The Baraboo Bancorporation, Inc.                21      7    12/11/2012 Sale of preferred stock at a loss
Security Bancshares of Pulaski County,
                                                 2     0.7   12/11/2012    Sale of preferred stock at a loss
Inc.
Central Community Corporation                   22      2    12/11/2012 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Manhattan Bancshares, Inc.                       3     0.1   12/11/2012
                                                                           debentures at a loss
First Advantage Bancshares, Inc.                 1     0.1   12/11/2012 Sale of preferred stock at a loss
Community Investors Bancorp, Inc.                3     0.1   12/20/2012 Sale of preferred stock at a loss
First Business Bank, National
                                                 4     0.4   12/20/2012 Sale of preferred stock at a loss
Association
Bank Financial Services, Inc.                    1     0.1   12/20/2012 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Century Financial Services Corporation          10     0.2   12/20/2012
                                                                           debentures at a loss
Hyperion Bank                                    2     0.5   12/21/2012 Sale of preferred stock at a loss
First Independence Corporation                   3     0.9   12/21/2012 Sale of preferred stock at a loss
First Alliance Bancshares, Inc.                  3      1    12/21/2012 Sale of preferred stock at a loss
Community Financial Shares, Inc.                 7      4    12/21/2012    Sale of preferred stock at a loss
Alliance Financial Services, Inc.               12      3      2/7/2013 Sale of preferred stock at a loss
                                                                                   Continued on next page
212   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2014          ($ MILLIONS) (CONTINUED)

                                                                        TARP
                         Institution                              Investment   Loss         Date   Description
                                                                                                   Sale of subordinated
                         Biscayne Bancshares, Inc.                       $6    $0.2    2/8/2013
                                                                                                   debentures at a loss
                         Citizens Bancshares Co.                         25     12     2/8/2013 Sale of preferred stock at a loss
                         Colony Bankcorp, Inc.                           28      6     2/8/2013 Sale of preferred stock at a loss
                         Delmar Bancorp                                   9      3     2/8/2013 Sale of preferred stock at a loss
                         Dickinson Financial Corporation II             146     65     2/8/2013    Sale of preferred stock at a loss
                         F & M Bancshares, Inc.                           4     0.5    2/8/2013 Sale of preferred stock at a loss
                         First Priority Financial Corp.                   5      1     2/8/2013 Sale of preferred stock at a loss
                         HMN Financial, Inc.                             26      7     2/8/2013 Sale of preferred stock at a loss
                         Waukesha Bankshares, Inc.                        6     0.4    2/8/2013 Sale of preferred stock at a loss
                         FC Holdings, Inc.                               21      2    2/20/2013 Sale of preferred stock at a loss
                         First Sound Bank                                 7      4    2/20/2013 Sale of preferred stock at a loss
                                                                                                   Sale of subordinated
                         First Trust Corporation                         18      4    2/20/2013
                                                                                                   debentures at a loss
                         National Bancshares, Inc.                       25      6    2/20/2013 Sale of preferred stock at a loss
                         Ridgestone Financial Services, Inc.             11      2    2/20/2013 Sale of preferred stock at a loss
                         Carolina Bank Holdings, Inc.                    16      1    2/21/2013 Sale of preferred stock at a loss
                         Santa Clara Valley Bank, N.A.                    3     0.4    3/8/2013 Sale of preferred stock at a loss
                         Coastal Banking Company, Inc.                   10     0.4   3/11/2013 Sale of preferred stock at a loss
                         CoastalSouth Bancshares, Inc.                   16      3    3/11/2013 Sale of preferred stock at a loss
                         First Reliance Bancshares, Inc.                 15      5    3/11/2013 Sale of preferred stock at a loss
                         Southcrest Financial Group, Inc.                13      1    3/11/2013 Sale of preferred stock at a loss
                         The Queensborough Company                       12     0.3   3/11/2013 Sale of preferred stock at a loss
                         Old Second Bancorp, Inc.                        73     47    3/27/2013 Sale of preferred stock at a loss
                         Stonebridge Financial Corp.                     11      9    3/27/2013 Sale of preferred stock at a loss
                         Alliance Bancshares, Inc.                        3     0.1   3/28/2013 Sale of preferred stock at a loss
                                                                                                   Sale of subordinated
                         Amfirst Financial Services, Inc                  5     0.2   3/28/2013
                                                                                                   debentures at a loss
                         First Southwest Bancorporation, Inc.             6     0.5   3/28/2013 Sale of preferred stock at a loss
                         Flagstar Bancorp, Inc.                         267     24    3/28/2013    Sale of preferred stock at a loss
                         United Community Banks, Inc.                   180      7    3/28/2013    Sale of preferred stock at a loss
                                                                                                   Exchange of preferred stock at
                         First Security Group, Inc.                      33     18    4/11/2013
                                                                                                   a loss
                         BancStar, Inc.                                   9     0.1   4/26/2013 Sale of preferred stock at a loss
                         NewBridge Bancorp                               52      1    4/29/2013 Sale of preferred stock at a loss
                         First Financial Service Corporation             20      9    4/29/2013 Sale of preferred stock at a loss
                         Guaranty Federal Bancshares, Inc.               17     0.4   4/29/2013 Sale of preferred stock at a loss
                         Intervest Bancshares Corporation                25      1    6/24/2013 Sale of preferred stock at a loss
                         First Western Financial, Inc.                   20      3    6/24/2013 Sale of preferred stock at a loss
                         Worthington Financial Holdings, Inc.             3     0.4   6/24/2013 Sale of preferred stock at a loss
                                                                                                           Continued on next page
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   213




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2014          ($ MILLIONS) (CONTINUED)

                                              TARP
Institution                             Investment   Loss          Date   Description
Farmers & Merchants Financial
                                              $0.4   $0.1    6/24/2013    Sale of preferred stock at a loss
Corporation
Metropolitan Bank Group, Inc.                  82     49     6/28/2013 Sale of preferred stock at a loss
Alarion Financial Services, Inc.                7     0.1    7/22/2013 Sale of preferred stock at a loss
Anchor Bancorp Wisconsin, Inc.                110    104     9/27/2013    Sale of common stock at a loss
Centrue Financial Corporation                  33    21.8   10/18/2013 Sale of preferred stock at a loss
ColoEast Bankshares, Inc.                      10      1     7/22/2013 Sale of preferred stock at a loss
Commonwealth Business Bank                     20     0.4    7/17/2013 Sale of preferred stock at a loss
Crosstown Holding Company                      11     0.2    7/22/2013 Sale of preferred stock at a loss
Desoto County Bank                              3     0.5    9/25/2013 Sale of preferred stock at a loss
First Bancorp (PR)                            400     72     9/13/2013    Sale of common stock at a loss
First Banks, Inc.                             295    190     9/25/2013    Sale of preferred stock at a loss
First Intercontinental Bank                     6      3     8/12/2013 Sale of preferred stock at a loss
Florida Bank Group, Inc.                       20     12     8/14/2013 Sale of preferred stock at a loss
Mountain Valley Bancshares, Inc.                3      —     7/22/2013 Sale of preferred stock at a loss
RCB Financial Corporation                       9     0.8    9/25/2013 Sale of preferred stock at a loss
Severn Bancorp, Inc.                           23      —     9/25/2013 Sale of preferred stock at a loss
Universal Bancorp                              10     0.5    8/12/2013 Sale of preferred stock at a loss
Virginia Company Bank                           5      2     8/12/2013 Sale of preferred stock at a loss
Central Virginia Bankshares, Inc.              11      8     10/1/2013 Sale of preferred stock at a loss
Bank of George                                  3      2    10/21/2013 Sale of preferred stock at a loss
Blue Valley Ban Corp                           22     0.5   10/21/2013    Sale of preferred stock at a loss
Spirit Bank Corp Inc.                          30     21    10/21/2013 Sale of preferred stock at a loss
Valley Community Bank                           6      3    10/21/2013    Sale of preferred stock at a loss
Monarch Community Bancorp, Inc.                 7      2    11/15/2013 Sale of common stock at a loss
AB&T Financial Corporation                      4     2.4   11/19/2013    Sale of preferred stock at a loss
Bridgeview Bancorp, Inc.                       38     28    11/19/2013 Sale of preferred stock at a loss
Midtown Bank & Trust Company                    5      2    11/19/2013    Sale of preferred stock at a loss
Village Bank and Trust Financial Corp          15      9    11/19/2013 Sale of preferred stock at a loss
1st Financial Services Corporation             16      8    12/31/2013    Sale of preferred stock at a loss
Pacific Commerce Bank                           4      2     2/10/2014 Sale of preferred stock at a loss
Meridian Bank                                  13      2     3/17/2014 Sale of preferred stock at a loss
IA Bancorp, Inc/Indus American Bank             6     0.1    3/17/2014 Sale of preferred stock at a loss
Community First Bancshares, Inc. (AR)          13     0.2    2/10/2014 Sale of preferred stock at a loss
Georgia Primary Bank                            5      3     2/10/2014 Sale of preferred stock at a loss
Chicago Shore Corporation                       7     0.1    3/17/2014 Sale of preferred stock at a loss
Hampton Roads Bankshares, Inc.                 80     77     4/14/2014 Sale of preferred stock at a loss
Community First, Inc.                          18     12     4/14/2014 Sale of common stock at a loss
Northern States Financial Corporation          17     11     4/30/2014 Sale of preferred stock at a loss
                                                                                  Continued on next page
214   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2014                                                        ($ MILLIONS) (CONTINUED)

                                                                                          TARP
                         Institution                                                Investment                      Loss                   Date      Description
                         Provident Community Bancshares, Inc.                                    $9                    $4         4/30/2014 Sale of preferred stock at a loss
                         Communityone Bancorp/FNB United Corp.                                   52                    41         5/23/2014          Sale of common stock at a loss
                         Total CPP Realized Losses                                                              $1,511                                                                         
                         Write-Offs
                         CIT Group Inc.                                                    $2,330               $2,330          12/10/2009 Bankruptcy
                         Pacific Coast National Bancorp                                            4                     4        2/11/2010 Bankruptcy
                         South Financial Group, Inc.a                                          347                   217          9/30/2010          Sale of preferred stock at a loss
                         TIB Financial Corp      a
                                                                                                 37                    25         9/30/2010          Sale of preferred stock at a loss
                         UCBH Holdings Inc.                                                    299                   299          11/6/2009          Bankruptcy
                         Midwest Banc Holdings, Inc.                                             85                    85         5/14/2010          Bankruptcy
                         Sonoma Valley Bancorp                                                     9                     9        8/20/2010          Bankruptcy
                         Pierce County Bancorp                                                     7                     7        11/5/2010          Bankruptcy
                         Tifton Banking Company                                                    4                     4      11/12/2010 Bankruptcy
                         Legacy Bancorp, Inc.                                                      6                     6        3/11/2011          Bankruptcy
                         Superior Bancorp Inc.                                                   69                    69         4/15/2011          Bankruptcy
                         FPB Bancorp, Inc.                                                         6                     6        7/15/2011          Bankruptcy
                         One Georgia Bank                                                          6                     6        7/15/2011          Bankruptcy
                         Integra Bank Corporation                                                84                    84         7/29/2011          Bankruptcy
                         Citizens Bancorp                                                        10                    10         9/23/2011          Bankruptcy
                         CB Holding Corp.                                                          4                     4      10/14/2011           Bankruptcy
                         Tennessee Commerce Bancorp, Inc.                                        30                    30         1/27/2012          Bankruptcy
                         Blue River Bancshares, Inc.                                               5                     5        2/10/2012          Bankruptcy
                         Fort Lee Federal Savings Bank, FSB                                        1                     1        4/20/2012          Bankruptcy
                         Gregg Bancshares, Inc.                                                    1                     1        7/13/2012          Bankruptcy
                         Premier Bank Holding Company                                            10                    10         8/14/2012          Bankruptcy
                         GulfSouth Private Bank                                                    8                     8      10/19/2012           Bankruptcy
                         Investors Financial Corporation of
                                                                                                   4                     4      10/19/2012 Bankruptcy
                         Pettis County, Inc.
                         First Place Financial Corp.                                             73                    73       10/29/2012           Bankruptcy
                         Princeton National Bancorp, Inc.                                        25                    25         11/2/2012          Bankruptcy
                         Gold Canyon Bank                                                          2                     2          4/5/2013         Bankruptcy
                         Indiana Bank Corp.                                                        1                     1          4/9/2013         Bankruptcy
                         Rogers Bancshares, Inc                                                  25                    25           7/5/2013         Bankruptcy
                         TCB Holding Company                                                     12                    12       12/13/2013 Bankruptcy
                         Syringa Bancorp                                                           8                     8        1/31/2014          Bankruptcy
                         Idaho Bancorp                                                             7                     7        4/24/2014          Bankruptcy
                         Total CPP Write-Offs                                                                   $3,373                                                                         
                         Total of CPP Realized Losses and
                                                                                                                $4,884                                                                         
                         Write-Offs
                         Notes: Numbers may not total due to rounding.
                         a
                           In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
                            realized losses.

                         Source: Treasury, Transactions Report, 6/30/2014; Treasury, response to SIGTARP data call, 7/8/2014.
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014              215




Restructurings, Recapitalizations, Exchanges, and Sales of CPP
Investments
Certain CPP institutions continue to experience high losses and financial
difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
improve the quality of their capital, these institutions may ask Treasury to convert
its CPP preferred shares into a more junior form of equity or to accept a lower                Undercapitalized: Condition in which a
valuation, resulting in Treasury taking a discount or loss. If a CPP institution               financial institution does not meet its
is undercapitalized and/or in danger of becoming insolvent, it may propose to                  regulator’s requirements for sufficient
Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract            capital to operate under a defined level
private capital) and to “attempt to preserve value” for Treasury’s investment.436              of adverse conditions.
Treasury may also sell its investment in a troubled institution to a third party at
a discount in order to facilitate that party’s acquisition of a troubled institution.
According to Treasury, although it may incur partial losses on its investment in the
course of these transactions, such an outcome may be deemed necessary to avoid
the total loss of Treasury’s investment that would occur if the institution failed.437
    Under these circumstances, the CPP participant asks Treasury for a formal
review of its proposal. The proposal details the institution’s recapitalization plan
and may estimate how much capital the institution plans to raise from private
investors and whether Treasury and other preferred shareholders will convert
their preferred stock to common stock. The proposal may also involve a proposed
discount on the conversion to common stock, although Treasury would not realize
any loss until it disposes of the stock.438 In other words, Treasury would not know
whether a loss will occur, or the extent of such a loss, until it sells the common             Due Diligence: Appropriate level of
stock it receives as part of such an exchange. According to Treasury, when it                  attention or care a reasonable person
receives such a request, it asks one of the external asset managers that it has                should take before entering into an
hired to analyze the proposal and perform due diligence on the institution.439 The             agreement or a transaction with
external asset manager interviews the institution’s managers, gathers non-public               another party. In finance, it often refers
information, and conducts loan-loss estimates and capital structure analysis.                  to the process of conducting an audit
The manager submits its evaluation to Treasury, which then decides whether to                  or review of the institution before
restructure its CPP investment.440                                                             initiating a transaction.
    Table 2.39 shows all restructurings, recapitalizations, exchanges, and sales of
CPP investments through June 30, 2014.
216             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.39
       TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2014                                    ($ MILLIONS)

                                             Investment        Original       Combined
       Company                                     Date    Investments      Investments                                                  Investment Status
       Citigroup Inc.                       10/28/2008        $2,500.0                                    Exchanged for common stock/warrants and sold
       Provident Bankshares                 11/14/2008           151.5
                                                                                                  Provident preferred stock exchanged for new M&T Bank
       M&T Bank Corporation                 12/23/2008           600.0        $1,081.5a      Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                                redeemed by M&T Bank Corporation; Sold
       Wilmington Trust Corporation         12/12/2008           330.0
       Popular, Inc.                         12/5/2008           935.0                                             Exchanged for trust preferred securities
       First BanCorp                           1/6/2009          400.0                              Exchanged for mandatorily convertible preferred stock
       South Financial Group, Inc.           12/5/2008           347.0                                                                                 Sold
       Sterling Financial Corporation        12/5/2008           303.0                                                 Exchanged for common stock, Sold
       Whitney Holding Corporation          12/19/2008           300.0                                                                                 Sold
       First Banks, Inc.                    12/31/2008           295.4                                                                       Sold at auction
       Flagstar Bancorp Inc.                 1/30/2009           267.0                                                               Sold at loss in auction
       Pacific Capital Bancorp              11/21/2008           195.0                                                       Exchanged for common stock
       United Community Banks, Inc.          12/5/2008           180.0                                                               Sold at loss in auction
       Dickinson Financial Corporation II    1/16/2009           146.0                                                               Sold at loss in auction
       Central Pacific Financial Corp.         1/9/2009          135.0                                                       Exchanged for common stock
       Banner Corporation                   11/21/2008           124.0                                                               Sold at loss in auction
       BBCN Bancorp, Inc.                   11/21/2008            67.0
                                                                                 122.0b    Exchanged for a like amount of securities of BBCN Bancorp, Inc.
       Center Financial Corporation         12/12/2008            55.0
       First Merchants                       2/20/2009           116.0                         Exchanged for trust preferred securities and preferred stock
       Taylor Capital Group                 11/21/2008           104.8                                                               Sold at loss in auction
       Metropolitan Bank Group Inc.          6/26/2009            71.5                     Exchanged for new preferred stock in Metropolitan Bank Group,
                                                                                  81.9c 
       NC Bancorp, Inc.                      6/26/2009              6.9                                                         Inc. and later sold at loss

       Hampton Roads Bankshares             12/31/2008            80.3                                                       Exchanged for common stock
       Old Second Bancorp, Inc.              1/16/2009            73.0                                                               Sold at loss in auction
       Green Bankshares                     12/23/2008            72.3                                                                                 Sold
       Independent Bank Corporation         12/12/2008            72.0                              Exchanged for mandatorily convertible preferred stock
       Alpine Banks of Colorado              3/27/2009            70.0                                                               Sold at loss in auction
       Superior Bancorp, Inc.d               12/5/2008            69.0                                             Exchanged for trust preferred securities
       First Financial Holdings Inc.         12/5/2008            65.0                                                               Sold at loss in auction
       Wilshire Bancorp, Inc.               12/12/2008            62.2                                                               Sold at loss in auction
                                                                                                    Exchanged for common stock and securities purchase
       Standard Bancshares Inc.              4/24/2009            60.0                 
                                                                                                                                           agreements
       MainSource Financial Group, Inc.      1/16/2009            57.0                                                               Sold at loss in auction
       WSFS Financial Corporation            1/23/2009            52.6                                                               Sold at loss in auction
       NewBridge Bancorp                    12/12/2008            52.4                                                               Sold at loss in auction
       Ameris Bancorp                       11/21/2008            52.0                                                               Sold at loss in auction
                                                                                                                                   Continued on next page
                                                                                     QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                 217




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2014                              ($ MILLIONS) (CONTINUED)

                                      Investment       Original     Combined
Company                                     Date   Investments    Investments                                              Investment Status
Seacoast Banking Corporation of
                                      12/19/2008         $50.0                                                          Sold at loss in auction
Florida
Communityone Bancorp/FNB United
                                       3/13/2009          51.5                                                          Sold at loss in auction
Corp.
Fidelity Southern Corporation         12/19/2008          48.2                                                          Sold at loss in auction
MetroCorp Bancshares, Inc.             1/16/2009          45.0                                                          Sold at loss in auction
Cadence Financial Corporation           1/9/2009          44.0                                                          Sold at loss in auction
Exchange Bank                         12/19/2008          43.0                                                          Sold at loss in auction
Crescent Financial Bancshares, Inc.     1/9/2009          24.9                  Exchanged for a like amount of securities of Crescent Financial
                                                                       $42.8e
ECB Bancorp, Inc.                      1/16/2009          17.9                                                                Bancshares, Inc.

PremierWest Bancorp                    2/13/2009          41.4                                                                            Sold
Capital Bank Corporation              12/12/2008          41.3                                                                            Sold
Reliance Bancshares, Inc.              2/13/2009          40.0                                                                  Sold at auction
Cascade Financial Corporation         11/21/2008          39.0                                                          Sold at loss in auction
Bridgeview Bancorp, Inc.              12/19/2008          38.0                                                          Sold at loss in auction
TIB Financial Corp.                    12/5/2008          37.0                                                                            Sold
First Defiance Financial Corp.         12/5/2008          37.0                                                          Sold at loss in auction
Fidelity Financial Corporation        12/19/2008          36.3                                                          Sold at loss in auction
Marquette National Corporation        12/19/2008          35.5                                                          Sold at loss in auction
Trinity Capital Corporation            3/27/2009          35.5                                                          Sold at loss in auction
Firstbank Corporation                  1/30/2009          33.0                                                          Sold at loss in auction
First Security Group, Inc.              1/9/2009          33.0                                                                            Sold
Centrue Financial Corporation           1/9/2009          32.7                                                          Sold at loss in auction
Pulaski Financial Corp                 1/16/2009          32.5                                                          Sold at loss in auction
BNC Bancorp                            12/5/2008          31.3                                                          Sold at loss in auction
Spirit Bank Corp. Inc.                 3/27/2009          30.0                                                          Sold at loss in auction
Farmers Capital Bank Corporation        1/9/2009          30.0                                                          Sold at loss in auction
Colony Bankcorp, Inc.                   1/9/2009          28.0                                                          Sold at loss in auction
HMN Financial, Inc                    12/23/2008          26.0                                                          Sold at loss in auction
Patriot Bancshares, Inc.              12/19/2008          26.0                                                          Sold at loss in auction
LNB Bancorp Inc.                      12/12/2008          25.2                                                          Sold at loss in auction
Peoples Bancorp of North Carolina,
                                      12/23/2008          25.1                                                          Sold at loss in auction
Inc.
Citizens Bancshares Co.                5/29/2009          25.0                                                          Sold at loss in auction
Intervest Bancshares Corporation      12/23/2008          25.0                                                          Sold at loss in auction
National Bancshares, Inc.              2/27/2009          24.7                                                          Sold at loss in auction
CBS Banc-Corp                          3/27/2009          24.3                                                          Sold at loss in auction
                                                                                                                       Continued on next page
218            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2014    ($ MILLIONS) (CONTINUED)

                                            Investment        Original       Combined
      Company                                     Date    Investments      Investments               Investment Status
      Eastern Virginia Bankshares, Inc.       1/9/2009          $24.0                                     Sold at auction
      Severn Bancorp, Inc.                  11/21/2008           23.4                                     Sold at auction
      First Citizens Banc Corp               1/23/2009           23.2                              Sold at loss in auction
      Park Bancorporation, Inc.               3/6/2009           23.2                              Sold at loss in auction
      Premier Financial Bancorp, Inc.        10/2/2009           22.3                              Sold at loss in auction
      Central Community Corporation          2/20/2009           22.0                              Sold at loss in auction
      First Community Financial Partners,
                                            12/11/2009           22.0                              Sold at loss in auction
      Inc.
      Blue Valley Ban Corp                   12/5/2008           21.8                              Sold at loss in auction
      FC Holdings, Inc.                      6/26/2009           21.0                              Sold at loss in auction
      The Baraboo Bancorporation, Inc.       1/16/2009           20.7                              Sold at loss in auction
      United Bancorp, Inc.                   1/16/2009           20.6                              Sold at loss in auction
      Florida Bank Group, Inc.               7/24/2009           20.5                                                Sold
      Diamond Bancorp, Inc.                  5/22/2009           20.4                              Sold at loss in auction
      Commonwealth Bancshares, Inc.          5/22/2009           20.4                              Sold at loss in auction
      First Western Financial, Inc.           2/6/2009           20.4                              Sold at loss in auction
      Market Street Bancshares, Inc.         5/15/2009           20.3                              Sold at loss in auction
      BNCCORP, Inc.                          1/16/2009           20.1                                     Sold at auction
      First Financial Service Corporation     1/9/2009           20.0                              Sold at loss in auction
      First Trust Corporation                 6/5/2009           18.0                              Sold at loss in auction
      Community First Inc.                   2/27/2009           17.8                                     Sold at auction
      Southern First Bancshares, Inc.        2/27/2009           17.3                              Sold at loss in auction
      F&M Financial Corporation (TN)         2/13/2009           17.2                              Sold at loss in auction
      F & M Financial Corporation (NC)        2/6/2009           17.0                              Sold at loss in auction
      Northern States Financial Corp.        2/20/2009           17.2                              Sold at loss in auction
      Guaranty Federal Bancshares, Inc.      1/30/2009           17.0                              Sold at loss in auction
      Timberland Bancorp Inc.               12/23/2008           16.6                              Sold at loss in auction
      First Federal Bankshares of
                                              3/6/2009           16.5                                                Sold
      Arkansas, Inc.
      1st Financial Services Corporation    11/14/2008           16.4                                                Sold
      Parke Bancorp Inc.                     1/30/2009           16.3                              Sold at loss in auction
      Pacific City Financial Corporation    12/19/2008           16.2                                     Sold at auction
      Carolina Bank Holdings, Inc.            1/9/2009           16.0                              Sold at loss in auction
      CoastalSouth Bancshares, Inc.          8/28/2009           16.0                              Sold at loss in auction
      Community West Bancshares             12/19/2008           15.6                              Sold at loss in auction
      First Reliance Bancshares, Inc          3/6/2009           15.3                              Sold at loss in auction
      Broadway Financial Corporation        11/14/2008           15.0                      Exchanged for common stock
                                                                                                  Continued on next page
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014              219




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2014                         ($ MILLIONS) (CONTINUED)

                                        Investment       Original     Combined
Company                                       Date   Investments    Investments                                     Investment Status
First Community Bancshares, Inc          5/15/2009         $14.8                                                                    Sold
Village Bank and Trust Financial Corp     5/1/2009          14.7                                                  Sold at loss in auction
First National Corporation               3/13/2009          13.9                                                  Sold at loss in auction
Yadkin Valley Financial Corporation      7/24/2009          13.3                                                  Sold at loss in auction
SouthCrest Financial Group, Inc.         7/17/2009          12.9                                                                    Sold 
Community First Bancshares, Inc.          4/3/2009          12.7                                                  Sold at loss in auction
Alliance Financial Services Inc.         6/26/2009          12.0                                                  Sold at loss in auction
Farmers Enterprises, Inc.                6/19/2009          12.0                                                  Sold at loss in auction
The Queensborough Company                 1/9/2009          12.0                                                  Sold at loss in auction
Plumas Bancorp                           1/30/2009          11.9                                                         Sold at auction
Central Virginia Bankshares              1/30/2009          11.4                                                                    Sold
First Community Corporation             11/21/2008          11.4                                                  Sold at loss in auction
Western Illinois Bancshares, Inc.       12/23/2008          11.4                                                  Sold at loss in auction
First Capital Bancorp, Inc.               4/3/2009          11.0                                                  Sold at loss in auction
Mackinac Financial Corporation           4/24/2009          11.0                                                  Sold at loss in auction
Ridgestone Financial Services, Inc.      2/27/2009          11.0                                                  Sold at loss in auction
First Community Bank Corporation
                                        12/23/2008          11.0                                                                    Sold
of America
Stonebridge Financial Corp.              1/23/2009          11.0                                                  Sold at loss in auction
Security State Bank Holding
                                          5/1/2009          10.8                                                         Sold at auction
Company
Presidio Bank                           11/20/2009          10.8                                                  Sold at loss in auction
Crosstown Holding Company                1/23/2009          10.7                                                         Sold at auction
Northwest Bancorporation, Inc.           2/13/2009          10.5                                                         Sold at auction
Blackhawk Bancorp, Inc.                  3/13/2009          10.0                                                  Sold at loss in auction
Century Financial Services
                                         6/19/2009          10.0                                                  Sold at loss in auction
Corporation
ColoEast Bankshares, Inc.                2/13/2009          10.0                                                         Sold at auction
HomeTown Bankshares Corporation          9/18/2009          10.0                                                  Sold at loss in auction
Coastal Banking Company, Inc.            12/5/2008          10.0                                                  Sold at loss in auction
Universal Bancorp                        5/22/2009           9.9                                                         Sold at auction
Provident Community Bancshares,
                                         3/13/2009           9.3                                                  Sold at loss in auction
Inc.
Delmar Bancorp                           12/4/2009           9.0                                                  Sold at loss in auction
RCB Financial Corporation                6/19/2009           8.9                                                         Sold at auction
First Freedom Bancshares, Inc.          12/22/2009           8.7                                                  Sold at loss in auction
BancStar, Inc.                            4/3/2009           8.6                                                  Sold at loss in auction
First Western Financial, Inc.             2/6/2009           8.6                                                  Sold at loss in auction
                                                                                                                 Continued on next page
220            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2014    ($ MILLIONS) (CONTINUED)

                                             Investment       Original       Combined
      Company                                      Date   Investments      Investments               Investment Status
      Great River Holding Company             7/17/2009          $8.4                              Sold at loss in auction
      Commonwealth Business Bank              1/23/2009            7.7                                    Sold at auction
      Metro City Bank                         1/30/2009            7.7                             Sold at loss in auction
      Oak Ridge Financial Services, Inc.      1/30/2009            7.7                             Sold at loss in auction
      First Gothenburg Bancshares, Inc.       2/27/2009            7.6                             Sold at loss in auction
      Country Bank Shares, Inc.               1/30/2009            7.5                             Sold at loss in auction
      The Little Bank, Incorporated          12/23/2009            7.5                             Sold at loss in auction
      First Sound Bank                       12/23/2008            7.4                                               Sold
      FFW Corporation                        12/19/2008            7.3                             Sold at loss in auction
      Millennium Bancorp, Inc.                 4/3/2009            7.3                                               Sold
      Central Federal Corporation             12/5/2008            7.2                                               Sold
      Community Financial Shares, Inc.        5/15/2009            7.0                                               Sold
      TriSummit Bank                           4/3/2009            7.0                             Sold at loss in auction
      Chicago Shore Corporation               7/31/2009            7.0                             Sold at loss in auction
      Monarch Community Bancorp, Inc           2/6/2009            6.8                                               Sold
      Fidelity Federal Bancorp               11/13/2009            6.7                                    Sold at auction
      Alarion Financial Services, Inc.        1/23/2009            6.5                                    Sold at auction
      First Intercontinental Bank             3/13/2009            6.4                                    Sold at auction
      Biscayne Bancshares, Inc.               6/19/2009            6.4                             Sold at loss in auction
      Premier Financial Bancorp, Inc.         5/22/2009            6.3                                    Sold at auction
      Meridian Bank                           2/13/2009            6.2                             Sold at loss in auction
      IA Bancorp, Inc.                        9/18/2009            6.0                             Sold at loss in auction
      Three Shores Bancorporation, Inc.       1/23/2009            5.7                             Sold at loss in auction
      Boscobel Bancorp Inc.                   5/15/2009            5.6                                    Sold at auction
      Waukesha Bankshares, Inc.               6/26/2009            5.6                             Sold at loss in auction
      First Southwest Bancorporation, Inc.     3/6/2009            5.5                             Sold at loss in auction
      Valley Community Bank                    1/9/2009            5.5                             Sold at loss in auction
      Midtown Bank & Trust Company            2/27/2009            5.2                             Sold at loss in auction
      Franklin Bancorp, Inc.                  5/22/2009            5.1                             Sold at loss in auction
      AmFirst Financial Services, Inc.        8/21/2009            5.0                             Sold at loss in auction
      Germantown Capital Corporation           3/6/2009            5.0                             Sold at loss in auction
      Alaska Pacific Bancshares Inc.           2/6/2009            4.8                             Sold at loss in auction
      First Priority Financial Corp.         12/18/2009            4.6                             Sold at loss in auction
      Virginia Company Bank                   6/12/2009            4.7                                    Sold at auction
      Georgia Primary Bank                     5/1/2009            4.5                             Sold at loss in auction
      Community Pride Bank Corporation       11/13/2009            4.4                                    Sold at auction
      CBB Bancorp                            12/20/2009            4.4                             Sold at loss in auction
                                                                                                  Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                221




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2014                         ($ MILLIONS) (CONTINUED)

                                       Investment       Original     Combined
Company                                      Date   Investments    Investments                                       Investment Status
Pinnacle Bank Holding Company, Inc.      3/6/2009          $4.4                                                    Sold at loss in auction
Bank of Southern California, N.A.       4/10/2009           4.2                                                    Sold at loss in auction
Pacific Commerce Bank                  12/23/2008           4.1                                                    Sold at loss in auction
Bank of Currituck                        2/6/2009           4.0                                                                      Sold
Carolina Trust Bank                      2/6/2009           4.0                                                    Sold at loss in auction
Santa Lucia Bancorp                    12/19/2008           4.0                                                                      Sold
Capital Pacific Bancorp                12/23/2008           4.0                                                    Sold at loss in auction
Community Business Bank                 2/27/2009           4.0                                                    Sold at loss in auction
KS Bancorp Inc.                         8/21/2009           4.0                                                    Sold at loss in auction
Naples Bancorp, Inc.                    3/27/2009           4.0                                                                      Sold
Peoples of Bancshares of TN, Inc.       3/20/2009           3.9                                                    Sold at loss in auction
Pathway Bancorp                         3/27/2009           3.7                                                           Sold at auction
F & M Bancshares, Inc.                  11/6/2009           3.5                                                    Sold at loss in auction
AB&T Financial Corporation              1/23/2009           3.5                                                    Sold at loss in auction
First Alliance Bancshares, Inc.         6/26/2009           3.4                                                    Sold at loss in auction
Madison Financial Corporation           3/13/2009           3.4                                                           Sold at auction
Congaree Bancshares, Inc.                1/9/2009           3.3                                                    Sold at loss in auction
Mountain Valley Bancshares, Inc.        9/25/2009           3.3                                                           Sold at auction
Treaty Oak Bancorp, Inc.                1/16/2009           3.3                                                                      Sold
First Independence Corporation          8/28/2009           3.2                                                    Sold at loss in auction
Oregon Bancorp, Inc.                    4/24/2009           3.2                                                           Sold at auction
Sound Banking Co.                        1/9/2009           3.1                                                    Sold at loss in auction
Alliance Bancshares, Inc.               6/26/2009           3.0                                                    Sold at loss in auction
Bank of Commerce                        1/16/2009           3.0                                                    Sold at loss in auction
Clover Community Bankshares, Inc.       3/27/2009           3.0                                                    Sold at loss in auction
F & C Bancorp. Inc.                     5/22/2009           3.0                                                    Sold at loss in auction
FBHC Holding Company                   12/29/2009           3.0                                                                      Sold
Fidelity Resources Company              6/26/2009           3.0                          Exchanged for preferred stock in Veritex Holding
Layton Park Financial Group, Inc.      12/18/2009           3.0                                                    Sold at loss in auction
Tennessee Valley Financial Holdings,
                                       12/23/2008           3.0                                                           Sold at auction
Inc.
Berkshire Bancorp                       6/12/2009           2.9                     Exchanged for preferred stock in Customers Bancorp
Santa Clara Valley Bank, N.A.           2/13/2009           2.9                                                    Sold at loss in auction
Omega Capital Corp.                     4/17/2009           2.8                                                           Sold at auction
Bank of George                          3/13/2009           2.7                                                    Sold at loss in auction
Worthington Financial Holdings, Inc.    5/15/2009           2.7                                                    Sold at loss in auction
Community Investors Bancorp, Inc.      12/23/2008           2.6                                                    Sold at loss in auction
                                                                                                                 Continued on next page
222              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2014                                                                                ($ MILLIONS) (CONTINUED)

                                                            Investment              Original           Combined
      Company                                                     Date          Investments          Investments                                                                      Investment Status
      Manhattan Bancshares, Inc.                             6/19/2009                     $2.6                                                                                    Sold at loss in auction
      Plato Holdings Inc.                                    7/17/2009                       2.5                                                                                   Sold at loss in auction
      Brogan Bankshares, Inc.                                5/15/2009                       2.4                                                                                             Sold at auction
      CenterBank                                               5/1/2009                      2.3                                                                                   Sold at loss in auction
      Security Bancshares of Pulaski
                                                             2/13/2009                       2.2                                                                                   Sold at loss in auction
      County, Inc.
      Atlantic Bancshares, Inc.                            12/29/2009                        2.0                                                                                             Sold at auction
      Hometown Bancshares, Inc.                              2/13/2009                       1.9                                                                                   Sold at loss in auction
      Hyperion Bank                                            2/6/2009                      1.6                                                                                   Sold at loss in auction
      Regional Bankshares Inc.                               2/13/2009                       1.5                                                                                   Sold at loss in auction
      Desoto County Bank                                     2/13/2009                       1.2                                                                                             Sold at auction
      First Advantage Bancshares, Inc.                       5/22/2009                       1.2                                                                                   Sold at loss in auction
      Community Bancshares of MS                               2/6/2009                      1.1                                                                                   Sold at loss in auction
      BankGreenville Financial Corp.                         2/13/2009                       1.0                                                                                   Sold at loss in auction
      Bank Financial Services, Inc.                          8/14/2009                       1.0                                                                                   Sold at loss in auction
      Corning Savings and Loan
                                                             2/13/2009                       0.6                                                                                   Sold at loss in auction
      Association
      Farmers & Merchants Financial
                                                             3/20/2009                       0.4                                                                                   Sold at loss in auction
      Corporation
      Freeport Bancshares, Inc.                                2/6/2009                      0.3                                                                                             Sold at auction
      Notes: Numbers may be affected due to rounding.
      a
        M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid Treasury’s original $600
         million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
      b
            The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
             Corporation of $55 million.
      c
         The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. of $71.5 million plus the original investment amount in NC Bank Group, Inc. of $6.9
          million plus unpaid dividends of $3.5 million.
      d
           The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
      e
          The new investment amount of $42.8 million includes the original investment amount in Crescent Financial Bancshares, Inc. (formerly Crescent Financial Corporation) of $24.9 million and the original
           investment of ECB Bancorp, Inc. of $17.9 million.

      Source: Treasury, Transactions Report, 6/30/2014.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014        223




Treasury’s Sale of TARP Preferred Stock Investments at Auction
Overview of CPP Preferred Stock Auctions
From March 2012 through June 30, 2014, Treasury has held 25 sets of auctions
in which it has sold all of its preferred stock investments in 176 CPP banks.441
For publicly traded banks, Treasury auctioned the shares through a placement
agent and the shares were available for purchase by the general public. For private
banks, Treasury auctioned the shares directly and the auctions were accessible only
to qualified purchasers. The preferred stock for all but 15 of the banks sold at a
discounted price and resulted in losses to Treasury.442 In the 25 auction sets, the
range of discount on the investments was 1% to 83%.443 When Treasury sells all of
its preferred shares of a CPP bank, it forfeits the right to collect missed dividends
and interest payments from the bank. Of the 176 banks in which Treasury sold its
stock through the auction process, 66 were overdue on payments to Treasury.444
The $228.8 million owed to Treasury for missed payments by these 66 banks will
never be recovered.445 As of June 30, 2014, Treasury lost a total of $1 billion in
the auctions, which includes $779.3 million lost on principal investments sold at
a discount and $228.8 million on forfeited missed dividends and interest owed by
these institutions.446 Less than a quarter of the banks, 43, bought back some of
their shares at the discounted price.447 In one set of auctions this quarter, Treasury        On October 9, 2012, SIGTARP made
sold all of its TARP preferred investment in four banks.448 The one auction this              three recommendations regarding
quarter accrued losses to Treasury of $7.1 million.449                                        CPP preferred stock auctions, which
                                                                                              are discussed in detail in SIGTARP’s
    Table 2.40 shows details for the auctions of preferred stock in CPP banks                 October 2012 Quarterly Report, pages
through June 30, 2014.                                                                        180-183.
224              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.40
       INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2014
                                                                                                               Percentage
                                                                                                                 of Shares
                                                                                                   Discount   Repurchased              Missed
       Institution                Auction Date    Investment      Net Proceeds    Auction Loss   Percentage   by Institution        Dividends
      Stonebridge Financial
                                    3/15/2013    $10,973,000        $1,879,145     $9,093,855          83%                        $1,794,180
      Corp.
       AB&T Financial
                                  11/19/2013       3,500,000            914,215     2,585,785          74%                           481,250
       Corporation
       Bridgeview Bancorp,
                                  11/19/2013      38,000,000        10,450,000     27,550,000          73%                         7,766,250
       Inc.
       Spirit Bank Corp. Inc.     11/19/2013      30,000,000          9,000,000    21,000,000          70%                         4,905,000
       Community First Inc.         4/14/2014     17,806,000          5,350,703    12,455,297          70%                         2,911,200
       Georgia Primary Bank         2/10/2014      4,500,000          1,531,145     2,968,855          66%                         1,113,163
       Old Second Bancorp,
                                     3/1/2013     73,000,000        25,547,320     47,452,680          65%                         9,125,000
       Inc.a
       First Banks, Inc.            8/12/2013    295,400,000       104,749,295    190,650,705          65%                        64,543,063
       Centrue Financial
                                  10/21/2013      32,668,000         10,631,697    21,186,665          65%                         6,959,475
       Corporation
       Bank of George             10/21/2013       2,672,000            955,240     1,716,760          64%                           364,150
       Village Bank and Trust
                                  11/19/2013      14,738,000          5,672,361     9,065,639          62%                         2,026,475
       Financial Corp
       Valley Community Bank      10/21/2013       5,500,000          2,296,800     3,203,200          58%                           749,375
       First Priority Financial
                                    1/29/2013      9,175,000          4,012,094     5,162,906          56%                 
       Corp.
       First Intercontinental
                                    8/12/2013      6,398,000          3,222,113     3,175,887          50%                           697,400
       Bank
       Citizens Bancshares
                                    1/29/2013     24,990,000         12,679,301    12,310,699          49%                         4,086,000
       Co.
       First Financial Service
                                    4/29/2013     20,000,000         10,733,778     9,266,222          46%                         2,500,000
       Corporation
       Dickinson Financial
                                    1/29/2013    146,053,000         79,903,245    66,149,755          45%                        27,859,720
       Corporation II
       Midtown Bank & Trust
                                  11/19/2013       5,222,000          3,133,200     2,088,800          40%            100%         1,067,213
       Company
       Virginia Company Bank        8/12/2013      4,700,000          2,843,974     1,856,026          39%                           185,903
       Delmar Bancorp               1/29/2013      9,000,000          5,453,900     3,546,100          39%                           613,125
       Pacific Commerce
                                    2/10/2014      4,060,000          2,494,961     1,565,039          39%                           695,771
       Bank
       Franklin Bancorp, Inc.       11/9/2012      5,097,000          3,191,614     1,905,386          37%
       Hyperion Bank              12/20/2012       1,552,000            983,800       568,200          37%
       The Baraboo
                                  12/11/2012      20,749,000         13,399,227     7,349,773          35%                           565,390
       Bancorporation, Inc.
       First Community
       Financial Partners,          9/12/2012     22,000,000        14,211,450      7,788,550          35%
       Inc.b
      First Reliance
                                     3/1/2013     15,349,000        10,327,021      5,021,979          33%                         1,254,720
      Bancshares, Inc.
                                                                                                                        Continued on next page
                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             225




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2014                 (CONTINUED)

                                                                                                   Percentage
                                                                                                     of Shares
                                                                                      Discount    Repurchased              Missed
Institution               Auction Date   Investment   Net Proceeds   Auction Loss   Percentage    by Institution        Dividends
Security Bancshares of
                          12/11/2012     $2,152,000     $1,475,592      $676,408            31%
Pulaski County, Inc.
First Alliance
                          12/20/2012      3,422,000      2,370,742     1,051,258            31%                              $93,245
Bancshares, Inc.
First Independence
                          12/20/2012      3,223,000      2,286,675       936,325            29%
Corporation
Parke Bancorp, Inc.       11/30/2012     16,288,000     11,595,735     4,692,265            29%
Marquette National
                            7/27/2012    35,500,000     25,313,186    10,186,814            29%             31%
Corporation
HMN Financial, Inc.         1/29/2013    26,000,000     18,571,410     7,428,590            29%                         2,600,000
Community West
                          12/11/2012     15,600,000     11,181,456     4,418,544            28%                              585,000
Bancshares
Farmers Capital Bank
                            6/13/2012    30,000,000     21,594,229     8,405,771            28%
Corporation
Park Bancorporation,
                            7/27/2012    23,200,000     16,772,382     6,427,618            28%             30%
Inc.
Diamond Bancorp, Inc.       7/27/2012    20,445,000     14,780,662     5,664,338            28%
TriSummit Bank            11/30/2012      7,002,000      5,198,984     1,803,016            26%
Commonwealth
                            7/27/2012    20,400,000     15,147,000     5,253,000            26%             26%
Bancshares, Inc.
National Bancshares,
                             2/7/2013    24,664,000     18,318,148     6,345,852            26%                         3,024,383
Inc.
Alliance Financial
                            1/29/2013    12,000,000      8,912,495     3,087,505            26%                         3,020,400
Services, Inc.
Trinity Capital
                            7/27/2012    35,539,000     26,396,503     9,142,497            26%
Corporation
Blue Ridge
                          10/31/2012     12,000,000      8,969,400     3,030,600            25%
Bancshares, Inc.
Peoples Bancshares of
                          10/31/2012      3,900,000      2,919,500       980,500            25%
TN, Inc.
First Trust Corporation      2/7/2013    17,969,000     13,612,558     4,356,442            24%                
Colony Bankcorp, Inc.       1/29/2013    28,000,000     21,680,089     6,319,911            23%                         1,400,000
F&M Financial
                            9/12/2012    17,243,000     13,443,074     3,799,926            22%
Corporation (TN)
Layton Park Financial
                          11/30/2012      3,000,000      2,345,930       654,070            22%
Group, Inc.
CoastalSouth
                             3/1/2013    16,015,000     12,606,191     3,408,809            21%                         1,687,900
Bancshares, Inc.
Alpine Banks of
                            9/12/2012    70,000,000     56,430,297    13,569,703            19%
Colorado
Seacoast Banking
                            3/28/2012    50,000,000     40,404,700     9,595,300            19%
Corporation of Florida
United Bancorp, Inc.        6/13/2012    20,600,000     16,750,221     3,849,779            19%
CenterBank                10/31/2012      2,250,000      1,831,250       418,750            19%
                                                                                                            Continued on next page
226             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2014                       (CONTINUED)

                                                                                                               Percentage
                                                                                                                 of Shares
                                                                                                  Discount    Repurchased              Missed
      Institution                Auction Date    Investment      Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      Ridgestone Financial
                                    2/7/2013    $10,900,000        $8,876,677     $2,023,323            19%                       $2,079,175
      Services, Inc.
      Meridian Bank                3/17/2014     12,535,000        10,328,152      2,206,848            18%                                  
      Congaree Bancshares
                                 10/31/2012       3,285,000          2,685,979       599,021            18%            35%
      Inc.
      DeSoto County Bank           9/25/2013      2,681,000          2,196,896       484,104            18%            79%                   
      KS Bancorp, Inc.           11/30/2012       4,000,000          3,283,000       717,000            18%
      Corning Savings and
                                 11/30/2012         638,000            523,680       114,320            18%
      Loan Association
      Bank of Commerce           11/30/2012       3,000,000          2,477,000       523,000            17%                          122,625
      First Western Financial,
                                   7/27/2012     20,440,000        17,022,298      3,417,702            17%
      Inc.c
      Presidio Bank              12/11/2012      10,800,000          9,058,369     1,741,631            16%
      Carolina Trust Bank        11/30/2012       4,000,000          3,362,000       638,000            16%                          150,000
      Santa Clara Valley
                                    3/1/2013      2,900,000          2,440,379       459,621            16%                          474,150
      Bank, N.A.
      Worthington Financial
                                   6/24/2013      2,720,000          2,318,851       401,149            15%                          222,360
      Holdings, Inc.
      Timberland Bancorp,
                                   11/9/2012     16,641,000        14,209,334      2,431,666            15%
      Inc.
      First Financial Holdings
                                   3/28/2012     65,000,000        55,926,478      9,073,522            14%
      Inc.
      Clover Community
                                 11/30/2012       3,000,000          2,593,700       406,300            14%
      Bankshares, Inc.
      Exchange Bank                7/27/2012     43,000,000        37,259,393      5,740,607            13%            47%
      LNB Bancorp Inc.             6/13/2012     25,223,000        21,863,750      3,359,250            13%
      First National
                                   8/23/2012     13,900,000        12,082,749      1,817,251            13%
      Corporation
      Banner Corporation           3/28/2012    124,000,000       108,071,915     15,928,085            13%
      Pulaski Financial Corp       6/27/2012     32,538,000        28,460,338      4,077,662            13%
      Three Shores
                                   11/9/2012      5,677,000          4,992,788       684,212            12%
      Bancorporation, Inc.
      Taylor Capital Group         6/13/2012    104,823,000        92,254,460     12,568,540            12%
      Yadkin Valley Financial
                                   9/12/2012     49,312,000        43,486,820      5,825,180            12%
      Corporationd
      Alaska Pacific
                                 11/30/2012       4,781,000          4,217,568       563,432            12%
      Bancshares, Inc.
      Fidelity Financial
                                   7/27/2012     36,282,000        32,013,328      4,268,672            12%            58%
      Corporation
      Fidelity Southern
                                   6/27/2012     48,200,000        42,757,786      5,442,214            11%
      Corporation
      FC Holdings, Inc.             2/7/2013     21,042,000        18,685,927      2,356,073            11%                        4,013,730
      First Advantage
                                 12/11/2012       1,177,000          1,046,621       130,379            11%
      Bancshares, Inc.
                                                                                                                        Continued on next page
                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014           227




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2014                 (CONTINUED)

                                                                                                   Percentage
                                                                                                     of Shares
                                                                                      Discount    Repurchased              Missed
Institution              Auction Date    Investment   Net Proceeds   Auction Loss   Percentage    by Institution        Dividends
Market Street
                           7/27/2012    $20,300,000    $18,069,213    $2,230,787            11%             89%
Bancshares, Inc.
Southern First
                           6/27/2012     17,299,000     15,403,722     1,895,278            11%              6%
Bancshares, Inc.
BankGreenville
                           11/9/2012      1,000,000       891,000        109,000            11%
Financial Corporation
First Southwest
                           3/15/2013      5,500,000      4,900,609       599,391            11%                          $974,188
Bancorporation, Inc.
Metro City Bank          10/31/2012       7,700,000      6,861,462       838,538            11%             15%
Premier Financial
                           7/27/2012     22,252,000     19,849,222     2,402,778            11%             46%
Bancorp, Inc.
First Citizens Banc
                           6/27/2012     23,184,000     20,689,633     2,494,367            11%
Corp
FFW Corporation          11/30/2012       7,289,000      6,515,426       773,574            11%
ColoEast Bankshares,
                           7/22/2013     10,000,000      8,947,125     1,052,875            11%                         1,090,000
Inc.
CBS Banc-Corp.             7/27/2012     24,300,000     21,776,396     2,523,604            10%             95%
SouthCrest Financial
                            3/1/2013     12,900,000     11,587,256     1,312,744            10%                         1,581,863
Group, Inc.
Blackhawk Bancorp
                         10/31/2012      10,000,000      9,009,000       991,000            10%
Inc.
First Gothenburg
                         10/31/2012       7,570,000      6,822,136       747,864            10%
Banschares, Inc.
WSFS Financial
                           3/28/2012     52,625,000     47,435,299     5,189,701            10%
Corporation
Flagstar Bancorp, Inc.     3/15/2013    266,657,000    240,627,277    26,029,723            10%                        16,666,063
Bank Financial
                         12/20/2012       1,004,000       907,937         96,063            10%
Services, Inc.
Germantown Capital
                         10/31/2012       4,967,000      4,495,616       471,384             9%             25%
Corporation, Inc.
Farmers & Merchants
                           6/24/2013       442,000        400,425         41,575             9%                                  
Financial Corporation
First Capital Bancorp,
                           6/13/2012     10,958,000      9,931,327     1,026,673             9%             50%
Inc.
RCB Financial
                           9/25/2013      8,900,000      8,073,279       826,721             9%                         1,055,520
Corporation
BNC Bancorp                8/23/2012     31,260,000     28,365,685     2,894,315             9%
Bank of Southern
                         12/20/2012       4,243,000      3,850,150       392,850             9%             30%
California, N.A.
Country Bank Shares,
                         11/30/2012       7,525,000      6,838,126       686,874             9%
Inc.
HomeTown Bankshares
                         10/31/2012      10,000,000      9,093,150       906,850             9%
Corporation
Oak Ridge Financial
                         10/31/2012       7,700,000      7,024,595       675,405             9%
Services, Inc.
                                                                                                            Continued on next page
228            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2014                      (CONTINUED)

                                                                                                              Percentage
                                                                                                                of Shares
                                                                                                 Discount    Repurchased              Missed
      Institution                Auction Date   Investment      Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      First Freedom
                                   11/9/2012    $8,700,000        $7,945,492       $754,508             9%            69%
      Bancshares, Inc.
      Sound Banking
                                   11/9/2012     3,070,000          2,804,089       265,911             9%
      Company
      Regional Bankshares,
                                   11/9/2012     1,500,000          1,373,625       126,375             8%            47%
      Inc.
      Ameris Bancorp               6/13/2012    52,000,000        47,665,332      4,334,668             8%
      Central Community
                                 12/11/2012     22,000,000        20,172,636      1,827,364             8%
      Corporation
      MainSource Financial
                                   3/28/2012    57,000,000        52,277,171      4,722,829             8%            37%
      Group, Inc.
      Waukesha Bankshares,
                                   1/29/2013     5,625,000          5,161,674       463,326             8%                
      Inc.
      Peoples Bancorp of
                                   6/27/2012    25,054,000        23,033,635      2,020,365             8%            50%
      North Carolina, Inc.
      CBB Bancorp                11/30/2012      4,397,000          4,066,752       330,248             8%            35%
      Carolina Bank
                                    2/7/2013    16,000,000        14,811,984      1,188,016             7%                
      Holdings, Inc.
      Firstbank Corporation        6/27/2012    33,000,000        30,587,530      2,412,470             7%            48%
      Community Business
                                 11/30/2012      3,976,000          3,692,560       283,440             7%
      Bank
      Capital Pacific Bancorp      11/9/2012     4,000,000          3,715,906       284,094             7%
      Wilshire Bancorp, Inc.       3/28/2012    62,158,000        57,766,994      4,391,006             7%            97%
      Western Illinois
                                   11/9/2012    11,422,000        10,616,305        805,695             7%            89%
      Bancshares, Inc.
      Hometown
                                 11/30/2012      1,900,000          1,766,510       133,490             7%            39%
      Bancshares, Inc.
      Community
      Bancshares of              11/30/2012      1,050,000            977,750        72,250             7%            52%
      Mississippi, Inc.
      F & M Bancshares, Inc.       1/29/2013     8,144,000          7,598,963       545,037             7%                
      Community Investors
                                 12/20/2012      2,600,000          2,445,000       155,000             6%            54%
      Bancorp, Inc.
      F & M Financial
                                   9/12/2012    17,000,000        15,988,500      1,011,500             6%            84%
      Corporation (NC)
      Universal Bancorp            8/12/2013     9,900,000          9,312,028       587,972             6%                                  
      Commonwealth
                                   7/22/2013     7,701,000          7,250,414       450,586             6%           100%        $1,049,250
      Business Bank
      Mackinac Financial
                                   8/23/2012    11,000,000        10,380,905        619,095             6%
      Corporation
      Coastal Banking
                                    3/1/2013     9,950,000          9,408,213       541,787             5%                          746,250
      Company, Inc.
      First Defiance Financial
                                   6/13/2012    37,000,000        35,084,144      1,915,856             5%            45%
      Corp.
                                                                                                                       Continued on next page
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             229




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2014                  (CONTINUED)

                                                                                                    Percentage
                                                                                                      of Shares
                                                                                       Discount    Repurchased              Missed
Institution               Auction Date    Investment   Net Proceeds   Auction Loss   Percentage    by Institution        Dividends
Alliance Bancshares,
                            3/15/2013     $2,986,000     $2,831,437      $154,563             5%                
Inc.
F&C Bancorp, Inc.           11/9/2012      2,993,000      2,840,903       152,097             5%
AmFirst Financial
                            3/15/2013      5,000,000      4,752,000       248,000             5%                
Services, Inc.
United Community
                            3/15/2013    180,000,000    171,517,500     8,482,500             5%                
Banks, Inc.
Farmers Enterprises,
                            11/9/2012     12,000,000     11,439,252       560,748             5%             99%
Inc.
Guaranty Federal
                            4/29/2013     12,000,000     11,493,900       506,100             4%                                    
Bancshares, Inc.e
Intervest Bancshares
                            6/24/2013     25,000,000     24,007,500       992,500             4%             25%                    
Corporation
Biscayne Bancshares,
                            1/29/2013      6,400,000      6,170,630       229,370             4%             53%
Inc.
MetroCorp
                            6/27/2012     45,000,000     43,490,360     1,509,640             3%             97%
Bancshares, Inc.
The Queensborough
                             3/1/2013     12,000,000     11,605,572       394,428             3%                        $1,798,500
Company
First Community
                            8/23/2012     11,350,000     10,987,794       362,206             3%             33%
Corporation
Manhattan Bancshares,
                          12/11/2012       2,639,000      2,560,541        78,459             3%             96%
Inc.
NewBridge Bancorp           4/29/2013     52,372,000     50,837,239     1,534,761             3%                                    
The Little Bank,
                          10/31/2012       7,500,000      7,285,410       214,590             3%             63%
Incorporated
Crosstown Holding
                            7/22/2013     10,650,000     10,356,564       293,436             3%                                    
Company
BancStar, Inc.              4/29/2013      8,600,000      8,366,452       233,548             3%             12%                    
Alarion Financial
                            7/22/2013      6,514,000      6,338,584       175,416             3%                              532,560
Services, Inc.
Century Financial
                          12/20/2012      10,000,000      9,751,500       248,500             2%
Services Corporation
Blue Valley Ban Corp      10/21/2013      21,750,000     21,263,017       486,983             2%                         4,893,750
Mountain Valley
                            7/22/2013      3,300,000      3,242,000        58,000             2%             91%                    
Bancshares, Inc.
IA Bancorp, Inc.            3/17/2014      5,976,000      5,863,113       112,887             2%                              472,365
Community First
                            2/10/2014     12,725,000     12,446,703       278,297             2%                                    
Bancshares, Inc.
Premier Financial Corp.     7/22/2013      6,349,000      6,270,436        78,564             1%             60%         1,597,857
Community Pride Bank
                            8/12/2013      4,400,000      4,351,151        48,849             1%                              803,286
Corporation
Fidelity Federal
                            7/22/2013      6,657,000      6,586,509        70,491             1%                         1,229,924
Bancorp
                                                                                                             Continued on next page
230               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2014                                                                        (CONTINUED)

                                                                                                                                                                           Percentage
                                                                                                                                                                             of Shares
                                                                                                                                                    Discount              Repurchased                         Missed
      Institution                         Auction Date               Investment              Net Proceeds                 Auction Loss            Percentage              by Institution                   Dividends
      Omega Capital Corp.                     7/22/2013             $2,816,000                   $2,791,000                      $25,000                        1%                                          $575,588
      Plato Holdings Inc.                     4/29/2013               2,500,000                    2,478,750                       21,250                       1%                                            207,266
      Chicago Shore
                                              3/17/2014               7,000,000                    6,937,000                       63,000                       1%                                                   
      Corporation
      Severn Bancorp, Inc.                    9/25/2013             23,393,000                   23,367,268                        25,732                       0%                                         1,754,475
      Oregon Bancorp, Inc.                  10/21/2013                3,216,000                    3,216,000                                0                   0%                      78%                          
      Freeport Bancshares,
                                              4/14/2014                  301,000                      301,000                               0                   0%                      78%                          
      Inc.
      Reliance Bancshares,
                                              9/25/2013             40,000,000                   40,196,000                     (196,000)                       0%                                         5,995,000
      Inc.
      BNCCORP, Inc.                           3/17/2014             20,093,000                   20,114,700                       (21,700)                      0%                                                   
      Tennessee Valley
                                              4/29/2013               3,000,000                    3,041,330                      (41,330)                    (1%)                                            531,375
      Financial Holdings, Inc
      Northwest
                                                3/1/2013            10,500,000                   10,728,783                     (228,783)                     (2%)                                         1,716,750
      Bancorporation, Inc.
      Madison Financial
                                            11/19/2013                3,370,000                    3,446,196                      (76,196)                    (2%)                                            688,913
      Corporation
      Brogan Bankshares,
                                              4/29/2013               2,400,000                    2,495,024                      (95,024)                    (4%)                                            352,380
      Inc.
      Plumas Bancorp                          4/29/2013             11,949,000                   12,907,297                     (958,297)                     (8%)                      58%                1,792,350
      Boscobel Bancorp, Inc.                    3/1/2013              5,586,000                    6,116,943                    (530,943)                   (10%)                                          1,288,716
      Eastern Virginia
                                            10/21/2013              24,000,000                   26,498,640                  (2,498,640)                    (10%)                                          3,300,000
      Bankshares, Inc.
      Atlantic Bancshares,
                                              2/10/2014               2,000,000                    2,275,000                    (275,000)                   (14%)                                             299,255
      Inc.
      Patriot Bancshares,
                                              4/14/2014             26,038,000                   29,736,177                  (3,698,177)                    (14%)                                          4,612,010
      Inc.
      Security State Bank
                                              6/24/2013             10,750,000                   12,409,261                  (1,659,261)                    (15%)                                          2,254,985
      Holding Company
      Pathway Bancorp                         6/24/2013               3,727,000                    4,324,446                    (597,446)                   (16%)                                             761,588
      Pacific City Financial
                                            11/19/2013              16,200,000                   19,685,754                  (3,485,754)                    (22%)                       53%                3,973,050
      Corporation
      Total Auction Losses                                                                                             $779,296,104
      Total Missed
                                                                                                                                                                                                   $228,798,658
      Dividends
      Notes: Numbers may not total due to rounding.
      a
        Treasury sold 70,028 of its shares in Old Second in the 3/1/2013 auction and the remaining 2,972 shares in the 3/15/2013 auction.
      b
        Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the auction that closed on
         9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
      c
        Treasury sold 8,000 of its shares in First Western Financial, Inc. on 7/27/2012 and the remaining 12,440 in the 6/24/2013 auction.
      d
        This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.
      e
        The original investment in Guaranty Federal Bancshares, Inc. was $17 million. The bank had previously paid down $5 million, leaving a $12 million investment remaining.

      Sources: Treasury, Transactions Report, 6/30/2014; SNL Financial LLC data.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014          231




CPP Banks Refinancing into CDCI and SBLF                                                      For a discussion of SIGTARP’s
On October 21, 2009, the Administration announced the Community                               August 20, 2013, recommendation
                                                                                              to Treasury regarding the inclusion of
Development Capital Initiative (“CDCI”) as another TARP-funded program.450                    SBLF funds as TARP repayments, see
Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and                  SIGTARP’s October 2013 Quarterly
credit unions.451 Qualifying CPP banks applied for the new TARP program, and 28               Report, pages 281-282.
banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
into CDCI.452 For more information on CDCI, see “Community Development                        For information on TARP banks that
                                                                                              refinanced into SBLF, see SIGTARP’s
Capital Initiative” in this section.                                                          April 9, 2013, audit report, “Banks
     On September 27, 2010, the President signed into law the Small Business Jobs             that Used the Small Business Lending
Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury                Fund to Exit TARP.”
to make up to $30 billion in capital investments in institutions with less than $10
billion in total assets.453 According to Treasury, it received a total of 935 SBLF            For a detailed list of CPP banks that
                                                                                              refinanced into SBLF, see SIGTARP’s
applications, of which 320 were TARP recipients under CPP (315) or CDCI (5).454               October 2012 Quarterly Report, pages
Treasury accepted 137 CPP participants into SBLF with financing of $2.7 billion.              88-92.
The 137 banks in turn refinanced $2.2 billion of Treasury’s TARP preferred stock
with the SBLF investments.455 None of the CDCI recipients were approved for                   For a discussion of the impact of TARP
participation.                                                                                and SBLF on community banks, see
                                                                                              SIGTARP’s April 2012 Quarterly
                                                                                              Report, pages 145-167.
Warrant Disposition
As required by EESA, Treasury received warrants when it invested in troubled                  For more information on warrant
assets from financial institutions, with an exception for certain small institutions.         disposition, see SIGTARP’s audit
                                                                                              report of May 10, 2010, “Assessing
With respect to financial institutions with publicly traded securities, these warrants
                                                                                              Treasury’s Process to Sell Warrants
gave Treasury the right, but not the obligation, to purchase a certain number of              Received from TARP Recipients.”
shares of common stock at a predetermined price.456 Because the warrants rise in
value as a company’s share price rises, they permit Treasury (and the taxpayer) to
benefit from a firm’s potential recovery.457
    For publicly traded institutions, the warrants received by Treasury under
CPP allowed Treasury to purchase additional shares of common stock in a                       Exercise Price: Preset price at which
number equal to 15% of the value of the original CPP investment at a specifie                 a warrant holder may purchase each
exercise price.458 Treasury’s warrants constitute assets with a fair market value             share. For warrants in publicly traded
that Treasury estimates using relevant market quotes, financial models, and/                  institutions issued through CPP, this
or third-party valuations.459 As of June 30, 2014, Treasury had not exercised any             was based on the average stock price
of these warrants.460 For privately held institutions, Treasury received warrants             during the 20 days before the date
to purchase additional preferred stock or debt in an amount equal to 5% of the                that Treasury granted preliminary CPP
CPP investment. Treasury exercised these warrants immediately.461 Unsold and                  participation approval.
unexercised warrants expire 10 years from the date of the CPP investment.462 As of
June 30, 2014, Treasury had received $8 billion through the sale of CPP warrants
obtained by TARP recipients.463

Repurchase of Warrants by Financial Institutions
Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
to buy back its warrants. As of June 30, 2014, 171 publicly traded institutions had
bought back $3.9 billion worth of warrants, of which $8 million was purchased this
quarter. As of that same date, 268 privately held institutions, the warrants of which
232   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             had been immediately exercised, bought back the resulting additional preferred
                                             shares for a total of $168.1 million, of which $5.1 million was bought back this
                                             quarter.464 Table 2.41 lists publicly traded institutions that repaid TARP and
                                             repurchased warrants in the quarter ended June 30, 2014. Table 2.42 lists privately
                                             held institutions that had done so in the same quarter.465

                                             TABLE 2.41
                                              CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER
                                              ENDING 6/30/2014
                                                                                                                                      Number of                  Amount of
                                                                                                                                       Warrants                Repurchase
                                              Repurchase Date             Company                                                   Repurchased              ($ Thousands)
                                              4/1/2014                    Alaska Pacific Bancshares, Inc.                                   175,772            $2,370,908.3
                                              5/14/2014                   C&F Financial Corporation                                         167,504             2,303,180.0
                                                                          Vantagesouth Bancshares, Inc.
                                              6/11/2014                                                                                     833,705             1,681,000.0
                                                                          (Crescent Financial Bancshares, Inc.)
                                                                          Vantagesouth Bancshares, Inc. (ECB
                                              6/11/2014                                                                                     514,693                871,000.0
                                                                          Bancorp, Inc.)
                                              6/4/2014                    Community Bankers Trust Corporation                               780,000                780,000.0
                                              4/30/2014                   Northern States Financial Corporation                             584,084                            0.0
                                              4/30/2014                   Provident Community Bancshares, Inc.                              178,880                            0.0
                                              Total                                                                                     3,234,638            $8,006,088.3
                                              Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly
                                              traded TARP recipients. Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an
                                              individual financial institution.

                                              Sources: Treasury, Transactions Report, 6/30/2014; Treasury, responses to SIGTARP data calls, 1/4/2011, 1/7/2011, 4/6/2011,
                                              7/8/2011, 10/7/2011, 10/11/2011, 1/11/2012, 4/5/2012, 7/9/2012, 10/12/2012, 4/12/2013, 7/11/2013, 10/10/2013,
                                              1/8/2014, 4/11/2014, and 7/15/2014.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   233




TABLE 2.42
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER
 ENDING 6/30/2014
                                                                                             Number of                 Amount of
                                                                                              Warrants               Repurchase
 Repurchase Date              Company                                                      Repurchased             ($ Thousands)
 4/14/2014                    Patriot Bancshares, Inc./Patriot Bank                             1,302,000                   $1,302.0
 4/14/2014                    Community First Inc.                                                890,000                       890.0
 4/24/2014                    Bankers' Bank of the West Bancorp, Inc.                             632,000                       632.0
 4/30/2014                    Covenant Financial Corporation                                      250,000                       250.0
                              Freeport Bancshares, Inc. (Midwest
 4/14/2014                                                                                        150,000                       150.0
                              Community Bank)a
                              Duke Financial Group, Inc. (Peoples Bank
 4/2/2014                                                                                         600,000                       600.0
                              of Commerce)a
 4/14/2014                    Great River Holding Companya                                        420,000                       420.0
 4/23/2014                    Wachusett Financial Services, Inc.                                  478,000                       478.0
 5/14/2014                    Riverside Bancshares, Inc.         a
                                                                                                    55,000                        55.0
                              Private Bancorporation, Inc./Private Bank
6/25/2014                                                                                         248,000                       248.0
                              Minnesota
 6/30/2014                    BCB Holding Company, Inc. (Bay Bank)                                  85,000                        85.0
 Total                                                                                        5,110,000                   $5,110.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise
 of warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
 a
   S-Corporation Institution: issued subordinated debt instead of preferred stock.

 Sources: Treasury, Transactions Report, 6/30/2014; Treasury response to SIGTARP data call, 7/15/2014.



Treasury Warrant Auctions
If Treasury and the repaying institution cannot agree upon the price for the
institution to repurchase its warrants, Treasury may conduct a public or private
offering to auction the warrants.466 As of June 30, 2014, the combined proceeds
from Treasury’s public and private warrant auctions totaled $5.5 billion.467

Public Warrant Auctions
In November 2009, Treasury began selling warrants via public auctions.468 Through
June 30, 2014, Treasury had held 26 public auctions for warrants it received under
CPP, TIP, and AGP, raising a total of approximately $5.4 billion.469 Treasury did not
conduct any public warrant auctions this quarter.470 Final closing information for
all public warrant auctions is shown in Table 2.43.
234               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      TABLE 2.43
       PUBLIC TREASURY WARRANT AUCTIONS, AS OF 6/30/2014
                                                                                                              Number of            Minimum               Selling      Proceeds to Treasury
       Auction Date                   Company                                                            Warrants Offered          Bid Price              Price                ($ Millions)
                                      Bank of America A Auction (TIP)a                                          150,375,940             $7.00              $8.35                        $1,255.6
       3/3/2010
                                      Bank of America B Auction (CPP)a                                          121,792,790               1.50               2.55                           310.6
       12/10/2009                     JPMorgan Chase                                                             88,401,697               8.00             10.75                            950.3
       5/20/2010                      Wells Fargo and Company                                                   110,261,688               6.50               7.70                           849.0
       9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973             10.50              13.70                            713.7
       4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192             15.00              19.20                            324.2
                                      Citigroup A Auction (TIP & AGP)         a
                                                                                                                255,033,142               0.60               1.01                           257.6
       1/25/2011
                                      Citigroup B Auction (CPP)a                                                210,084,034               0.15               0.26                             54.6
       9/16/2010                      Lincoln National Corporation                                               13,049,451             13.50              16.60                            216.6
       5/6/2010                       Comerica Inc.                                                              11,479,592             15.00              16.00                            183.7
       12/3/2009                      Capital One                                                                12,657,960               7.50             11.75                            148.7
       11/29/2012                     M&T Bank Corporation                                                         1,218,522            23.50                1.35                             32.3
       2/8/2011                       Wintrust Financial Corporation                                               1,643,295            13.50              15.80                              26.0
       6/2/2011                       Webster Financial Corporation                                                3,282,276              5.50               6.30                             20.4
                                      SunTrust A Auctionb                                                          6,008,902              2.00               2.70                             16.2
       9/22/2011
                                      SunTrust B Auctionb                                                        11,891,280               1.05               1.20                             14.2
       3/9/2010                       Washington Federal, Inc.                                                     1,707,456              5.00               5.00                             15.6
       3/10/2010                      Signature Bank                                                                  595,829           16.00              19.00                              11.3
       12/15/2009                     TCF Financial                                                                3,199,988              1.50               3.00                              9.6
       12/5/2012                      Zions Bancorporation                                                         5,789,909            23.50              26.50                               7.8
       3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086             6.50               6.50                              6.7
       2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500              1.40               2.20                              6.4
       5/18/2010                      Valley National Bancorp                                                      2,532,542              1.70               2.20                              5.6
       11/30/2011                     Associated Banc-Corpc                                                        3,983,308              0.50               0.90                              3.6
       6/2/2010                       First Financial Bancorp                                                         465,117             4.00               6.70                              3.1
       6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557              0.85               1.15                              3.0
       Total                                                                                               1,090,695,026                                                               $5,446.4
       Notes: Numbers may not total due to rounding.
       a
         Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
       b
         Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
       c
         According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

       Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
       7/1/2014; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 7/1/2014; Comerica
       Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 7/1/2014; Wells Fargo and Company, “Definitive
       Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 7/1/2014; First Financial Bancorp, “Prospectus Supplement,”
       6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 7/1/2014; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
       www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 7/1/2014; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
       SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 7/1/2014; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
       3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 7/1/2014; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
       data/70858/000119312510051260/d8k.htm, accessed 7/1/2014; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
       d424b2.htm, accessed 7/1/2014; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
       7/1/2014; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 7/1/2014; JPMorgan Chase,
       “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 7/1/2014; Capital One Financial, “Prospectus Supplement,”
       12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 7/1/2014; Treasury, Transactions Report, 9/30/2013; Hartford Financial Services Group,
       Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 7/1/2014; Treasury,
       “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.
       aspx, accessed 7/1/2014; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
       d424b5.htm, accessed 7/1/2014; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 7/1/2014; Treasury, Section
       105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/
       Pages/tg1033.aspx, accessed 7/1/2014; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2014;
       Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2014; Boston Private Financial Holdings, Inc.,
       Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 7/1/2014; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.
       gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 7/1/2014; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
       data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 7/1/2014; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
       Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 7/1/2014; Treasury, Citigroup Preliminary Prospectus – CPP
       Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 7/1/2014; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
       1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2014; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
       10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of SunTrust Banks, Inc.,” 9/21/2011,
       www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 7/1/2014; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated Banc-
       Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 7/1/2014; Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase Common
       Stock of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 7/1/2014; Treasury, “Treasury Department Announces Public Offering of
       Warrants to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 7/1/2014.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014           235




Private Warrant Auctions
On November 17, 2011, Treasury conducted a private auction to sell the warrants               Qualified Institutional Buyers (“QIB”):
of 17 CPP institutions for $12.7 million.471 On June 6, 2013, it conducted a second           Institutions that under U.S. securities
private auction to sell the warrants of 16 banks for $13.9 million.472 Details from           law are permitted to buy securities
both auctions are listed in Table 2.44. Treasury stated that private auctions were            that are exempt from registration
necessary because the warrants did not meet the listing requirements for the major            under investor protection laws and
exchanges, it would be more cost-effective for these smaller institutions, and that           to resell those securities to other
grouping the warrants of several institutions in a single auction would raise investor        QIBs. Generally these institutions own
interest in the warrants.473 The warrants were not registered under the Securities            and invest at least $100 million in
Act of 1933 (the “Act”). As a result, Treasury stated that the warrants were offered          securities, or are registered broker-
only in private transactions to “(1) ‘qualified institutional buyers’ as defined in           dealers that own or invest at least $10
Rule 144A under the Act, (2) the issuer, and (3) a limited number of ‘accredited              million in securities.
investors’ affiliated with the issuer.”474
                                                                                              Accredited Investors: Individuals or
                                                                                              institutions that by law are considered
                                                                                              financially sophisticated enough so
                                                                                              that they can invest in ventures that
                                                                                              are exempt from investor protection
                                                                                              laws. Under U.S. securities laws, these
                                                                                              include many financial companies,
                                                                                              pension plans, wealthy individuals,
                                                                                              and top executives or directors of the
                                                                                              issuing companies.
236   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.44
                                              PRIVATE TREASURY WARRANT AUCTIONS AS OF 6/30/2014
                                                                                                                                Number of                   Proceeds to
                                              Date                       Company                                           Warrants Offered                    Treasury
                                              11/17/2011                 Eagle Bancorp, Inc.                                            385,434               $2,794,422
                                              11/17/2011                 Horizon Bancorp                                                212,188                1,750,551
                                              11/17/2011                 Bank of Marin Bancorp                                          154,908                1,703,984
                                              11/17/2011                 First Bancorp (of North Carolina)                              616,308                   924,462
                                              11/17/2011                 Westamerica Bancorporation                                     246,698                   878,256
                                              11/17/2011                 Lakeland Financial Corp                                        198,269                   877,557
                                              11/17/2011                 F.N.B. Corporation                                             651,042                   690,100
                                              11/17/2011                 Encore Bancshares                                              364,026                   637,071
                                              11/17/2011                 LCNB Corporation                                               217,063                   602,557
                                              11/17/2011                 Western Alliance Bancorporation                                787,107                   415,000
                                              11/17/2011                 First Merchants Corporation                                    991,453                   367,500
                                              11/17/2011                 1st Constitution Bancorp                                       231,782                   326,576
                                              11/17/2011                 Middleburg Financial Corporation                               104,101                   301,001
                                              11/17/2011                 MidSouth Bancorp, Inc.                                         104,384                   206,557
                                              11/17/2011                 CoBiz Financial Inc.                                           895,968                   143,677
                                              11/17/2011                 First Busey Corporation                                        573,833                     63,677
                                              11/17/2011                 First Community Bancshares, Inc.                                88,273                     30,600
                                              6/6/2013                   Banner Corporation                                             243,998                   134,201
                                              6/6/2013                   Carolina Trust Bank                                             86,957                     19,132
                                              6/6/2013                   Central Pacific Financial Corp.                                  79,288                  751,888
                                              6/6/2013                   Colony Bankcorp, Inc.                                          500,000                   810,000
                                              6/6/2013                   Community West Bancshares                                      521,158                   698,351
                                              6/6/2013                   Flagstar Bancorp, Inc.                                         645,138                     12,905
                                              6/6/2013                   Heritage Commerce Corp                                         462,963                   140,000
                                                                         International Bancshares
                                              6/6/2013                                                                               1,326,238                 4,018,511
                                                                         Corporation
                                              6/6/2013                   MainSource Financial Group, Inc.                               571,906                1,512,177
                                              6/6/2013                   Metrocorp Bancshares, Inc.                                     771,429                2,087,368
                                              6/6/2013                   Old Second Bancorp, Inc.                                       815,339                   106,891
                                              6/6/2013                   Parke Bancorp, Inc.                                            438,906                1,650,288
                                              6/6/2013                   S&T Bancorp, Inc.                                              517,012                   527,361
                                              6/6/2013                   Timberland Bancorp, Inc.                                       370,899                1,301,856
                                              6/6/2013                   United Community Banks, Inc.                                   219,908                       6,677
                                              6/6/2013                   Yadkin Financial Corporation                                    91,178                     55,677
                                              6/6/2013                   Yadkin Financial Corporation                                   128,663                     20,000
                                              Total                                                                               14,613,817              $26,566,831
                                              Sources: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
                                              center/press-releases/Pages/tg1365.aspx, accessed 7/1/2014; “Treasury Completes Auction to Sell Warrants Positions,”
                                              6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx, accessed 7/1/2014.
                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014              237




Community Development Capital Initiative                                                        For more information on CDCI
                                                                                                institutions that remain in TARP and
The Administration announced the Community Development Capital Initiative
                                                                                                their use of TARP funds, see the report
(“CDCI”) on October 21, 2009. According to Treasury, the program was intended                   in SIGTARP’s April 2014 Quarterly
to help small businesses obtain credit.475 Under CDCI, TARP made $570.1                         Report: “Banks and Credit Unions
million in investments in the preferred stock or subordinated debt of 84 eligible               in TARP’s CDCI Program Face
banks, bank holding companies, thrifts, and credit unions certified as Community                Challenges.”
Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
these lower-cost capital investments were intended to strengthen the capital base
of CDFIs and enable them to make more loans in low and moderate-income                          Community Development Financial
communities.476 CDCI was open to certified, qualifying CDFIs or financial                       Institutions (“CDFIs”): Financial
institutions that applied for CDFI status by April 30, 2010.477                                 institutions eligible for Treasury funding
    According to Treasury, CPP-participating CDFIs that were in good standing                   to serve urban and rural low-income
could exchange their CPP investments for CDCI investments.478 CDCI closed to                    communities through the CDFI Fund.
new investments on September 30, 2010.479                                                       CDFIs were created in 1994 by the
    Treasury invested $570.1 million in 84 institutions under the program — 36                  Riegle Community Development and
banks or bank holding companies and 48 credit unions.480 Of the 36 investments in               Regulatory Improvement Act.
banks and bank holding companies, 28 were conversions from CPP (representing
$363.3 million of the total $570.1 million); the remaining eight were not CPP
participants. Treasury provided an additional $100.7 million in CDCI funds to 10
of the banks converting CPP investments. Only $106 million of the total CDCI
funds went to institutions that were not in CPP.

Status of Funds
As of June 30, 2014, 68 institutions remained in CDCI. Fifteen institutions,
including one this quarter, have fully repaid Treasury and have exited CDCI. Two
institutions have partially repaid and remain in the program. Premier Bancorp,
Inc., Wilmette, Illinois, previously had its subsidiary bank fail and thus almost all of
Treasury’s $6.8 million investment was lost.481
    As of June 30, 2014, taxpayers were still owed $474.1 million related to
CDCI.482 According to Treasury, it had realized losses of $6.7 million in the
program that will never be recovered, leaving $467.4 million outstanding.483
According to Treasury, $96 million of the CDCI principal (or 17%) had been repaid
as of June 30, 2014.484 As of June 30, 2014, Treasury had received approximately
$40.9 million in dividends and interest from CDCI recipients.485 Tables 2.45
through 2.51 show banks and credit unions remaining in CDCI by region and state
as of June 30, 2014. Table 2.52 lists the current status of all CDCI investments as
of June 30, 2014.
238   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                TABLE 2.45
                                 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY REGION, AS OF
                                 6/30/2014
                                                                             Original              Remaining                                            Remaining          Remaining
                                                                          Number of                Number of                         Remaining          Number of          Number of
                                                                         Participants             Participants                      Investment             Banks         Credit Unions
                                 Mid-Atlantic/Northeast                                 24                        21           $67,151,000                           5             16
                                 Southeast                                              22                        18           288,885,000                          16              2
                                 West                                                   14                        13                26,799,000                       2             11
                                 Southwest/South Central                                11                         8                58,112,000                       2              6
                                 Midwest                                                11                         8                26,432,000                       4              4
                                 Mountain West/Plains                                    2                         0                             0                   0              0
                                 Total                                                  84                     68         $467,379,000                              29             39
                                 Source: Treasury, Transactions Report, 6/30/2014.


                                FIGURE 2.43
                                AMOUNT OF CDCI PRINCIPAL INVESTMENT REMAINING, BY REGION,
                                AS OF 6/30/2014

                                    AK
                                                                         MOUNTAIN WEST/
                                                                             PLAINS
                                                                               $0                                         MIDWEST                           MID-ATLANTIC/
                                                            WA                                                           $26 MILLION                         NORTHEAST
                                                                                                                                                 VT    ME
                                                                              MT             ND                                                              $67 MILLION
                                                       OR                                               MN                                                 NH
                                                                                                                   WI                           NY
                                    WEST                            ID                       SD                                                             MA
                                                                                                                           MI
                                 $27 MILLION
                                                                              WY
                                                                                                         IA                                               CT RI
                                                                                                                                OH         PA            NJ
                                                                                             NE
                                                              NV                                                    IL    IN                           DE
                                                      CA                 UT                                                              WV VA
                                          GU                                       CO                    MO                                           MD
                                                                                                  KS                           KY
                                                                                                                                          NC
                                                                                                                          TN
                                           HI                        AZ                            OK        AR                           SC
                                                                                   NM
                                                                                                                        MS AL       GA          SOUTHEAST
                                                                                              TX              LA                               $289 MILLION

                                                                                                                                          FL                   PR
                                                                     SOUTHWEST/
                                                                    SOUTH CENTRAL
                                                                     $58 MILLION

                                                WEST                                                               MIDWEST
                                                MOUNTAIN WEST/PLAINS                                               MID-ATLANTIC/NORTHEAST
                                                SOUTHWEST/SOUTH CENTRAL                                            SOUTHEAST
                                                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014       239




Mid-Atlantic/Northeast
TABLE 2.46
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                            Original          Remaining                             Remaining       Remaining
                                                                         Number of            Number of               Remaining     Number of       Number of
                                                                        Participants         Participants            Investment        Banks      Credit Unions
                            VT    ME
                                                              CT                       1                    1            $7,000               0                  1
                                       NH
                                                              DC                       3                    3        13,303,000               2                  1
                       NY               MA
                                               RI             NJ                       2                    1            31,000               0                  1
                                  CT
                  PA             NJ                           NY                      13                   12        42,660,000               2              10
                                DE
             WV VA
             WV               MD                              PA                       1                    1           100,000               0                  1
                             DC
                                                              VA                       3                    2         9,959,000               1                  1
                                                              VT                       1                    1         1,091,000               0                  1
 MID-ATLANTIC/                       >$10 million             Total                  24                   21       $67,151,000                5              16
                                     $1 million-$10 million
 NORTHEAST                           $1-$1 million            Source: Treasury, Transactions Report, 6/30/2014.
 Principal investment                $0
 remaining in CDCI banks




Southeast
TABLE 2.47
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                            Original          Remaining                             Remaining       Remaining
                                                                         Number of            Number of               Remaining     Number of       Number of
                                                                        Participants         Participants            Investment        Banks      Credit Unions
                             NC
             TN                                               AL                       3                    3       $16,698,000               2                  1
                            SC
                                                              GA                       2                    2        15,213,000               2                  0
      MS     AL    GA
                                          PR                  MS                      12                   10       220,444,000               9                  1
                                                              NC                       3                    1        11,735,000               1                  0
                             FL                               SC                       1                    1        22,000,000               1                  0
                                                              TN                       1                    1         2,795,000               1                  0
 SOUTHEAST                       >$10 million                 Total                  22                   18      $288,885,000              16                   2
 Principal investment            $1 million-$10 million
                                 $1-1 million                 Source: Treasury, Transactions Report, 6/30/2014.
 remaining in CDCI
 banks                           $0
240     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      West
      TABLE 2.48
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                              Original          Remaining                          Remaining     Remaining
                                                                           Number of            Number of              Remaining   Number of     Number of
                                                                          Participants         Participants           Investment      Banks    Credit Unions
                                             WA
                                                                AK                       1                    1      $1,600,000           0               1
                AK                                              CA                       9                    8      21,503,000           2               6
                                        OR
                                                                GU                       1                    1       2,650,000           0               1
                                                                HI                       2                    2         971,000           0               2
                                                                WA                       1                    1          75,000           0               1
                      GU                                        Total                  14                   13      $26,799,000           2              11
                                       CA
                                                                Source: Treasury, Transactions Report, 6/30/2014.


                       HI

        WEST                       >$10 million
        Principal investment       $1 million-$10 million
        remaining in CDCI banks    $1-$1 million
                                   $0




      Southwest/South Central
      TABLE 2.49
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                              Original          Remaining                          Remaining     Remaining
                                                                           Number of            Number of              Remaining   Number of     Number of
                                                                          Participants         Participants           Investment      Banks    Credit Unions
           AZ                          OK
                     NM                           AR            AR                       1                    1     $33,800,000           1               0
                                                                AZ                       1                    1       2,500,000           0               1
                                                  LA
                                  TX                            LA                       6                    4      18,204,000           1               3
                                                                TX                       3                    2       3,608,000           0               2
                                                                Total                  11                     8     $58,112,000           2               6
                                                                Source: Treasury, Transactions Report, 6/30/2014.
       SOUTHWEST/                      >$10 million
                                       $1 million-$10 million
       SOUTH CENTRAL                   $1-$1 million
       Principal investment            $0
       remaining in CDCI banks
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 30, 2014       241




Midwest
TABLE 2.50
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                    Original          Remaining                             Remaining       Remaining
                                                                                 Number of            Number of               Remaining     Number of       Number of
                                                                                Participants         Participants            Investment        Banks      Credit Unions
                                                                      IL                       7                    6       $25,193,000               4                  2
             MN
                        WI                                            IN                       2                    2         1,239,000               0                  2
                                       MI
                                                                      MN                       1                    0                  0              0                  0
              IA
                                   IN       OH                        WI                       1                    0                  0              0                  0
                             IL
                  MO                                                  Total                  11                     8      $26,432,000                4                  4
                                        KY
                                                                      Source: Treasury, Transactions Report, 6/30/2014.


   MIDWEST                             >$10 million
   Principal investment                $1 million -$10 million
   remaining in CDCI                   $1-$1 million
   banks                               $0




Mountain West/Plains
TABLE 2.51
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 6/30/2014
                                                                                    Original          Remaining                             Remaining       Remaining
                                                                                 Number of            Number of               Remaining     Number of       Number of
                                                                                Participants         Participants            Investment        Banks      Credit Unions
                             MT                  ND                   MT                       1                    0                 $0              0                  0
                                                                      WY                       1                    0                  0              0                  0
              ID                                 SD
                                  WY                                  Total                    2                    0                 $0              0                  0
                                                 NE                   Source: Treasury, Transactions Report, 6/30/2014.
      NV
                   UT
                                   CO
                                                      KS


MOUNTAIN WEST/                               >$10 million
                                             $1 million-$10 million
PLAINS                                       $1-$1 million
Principal investment
                                             $0
remaining in CDCI banks
242   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.52
                                              CDCI INVESTMENT SUMMARY, AS OF 6/30/2014
                                                                                            Amount      Additional       Total CDCI
                                              Institution                                 from CPP     Investment       Investment
                                              Institutions Remaining in CDCI
                                              BancPlus Corporation                      $50,400,000   $30,514,000      $80,914,000
                                              Community Bancshares of Mississippi,
                                                                                         54,600,000                     54,600,000
                                              Inc.
                                              Southern Bancorp, Inc.                     11,000,000    22,800,000       33,800,000
                                              Security Federal Corporation               18,000,000     4,000,000       22,000,000
                                              Carver Bancorp, Inc                        18,980,000                     18,980,000
                                              Security Capital Corporation               17,910,000                     17,910,000
                                              The First Bancshares, Inc.                  5,000,000    12,123,000       17,123,000
                                              First American International Corp.         17,000,000                     17,000,000
                                              State Capital Corporation                  15,750,000                     15,750,000
                                              Guaranty Capital Corporation               14,000,000                     14,000,000
                                              Citizens Bancshares Corporation             7,462,000     4,379,000       11,841,000
                                              M&F Bancorp, Inc.                          11,735,000                     11,735,000
                                              Liberty Financial Services, Inc.            5,645,000     5,689,000       11,334,000
                                              Mission Valley Bancorp                      5,500,000     4,836,000       10,336,000
                                              United Bancorporation of Alabama, Inc.     10,300,000                     10,300,000
                                              IBC Bancorp, Inc.                           4,205,000     3,881,000        8,086,000
                                              Fairfax County Federal Credit Union                                        8,044,000
                                              The Magnolia State Corporation                                             7,922,000
                                              First Eagle Bancshares, Inc.                7,875,000                      7,875,000
                                              Carter Federal Credit Union*                                               6,300,000
                                              First Vernon Bancshares, Inc.               6,245,000                      6,245,000
                                              IBW Financial Corporation                   6,000,000                      6,000,000
                                              CFBanc Corporation                                                         5,781,000
                                              American Bancorp of Illinois, Inc.                                         5,457,000
                                              Lafayette Bancorp, Inc.                     4,551,000                      4,551,000
                                              Hope Federal Credit Union                                                  4,520,000
                                              Community Bank of the Bay                   1,747,000     2,313,000        4,060,000
                                              Bainbridge Bancshares, Inc.                                                3,372,000
                                              Border Federal Credit Union                                                3,260,000
                                              Kilmichael Bancorp, Inc.                                                   3,154,000
                                              PGB Holdings, Inc.                          3,000,000                      3,000,000
                                              Santa Cruz Community Credit Union                                          2,828,000
                                              Cooperative Center Federal Credit Union                                    2,799,000
                                              Tri-State Bank of Memphis                   2,795,000                      2,795,000
                                                                                                              Continued on next page
                                                                                      QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   243




CDCI INVESTMENT SUMMARY, AS OF 6/30/2014               (CONTINUED)

                                              Amount        Additional          Total CDCI
Institution                                 from CPP       Investment          Investment
Institutions Remaining in CDCI
Community First Guam Federal Credit
                                                                               $2,650,000
Union
Shreveport Federal Credit Union                                                 2,646,000
Pyramid Federal Credit Union                                                    2,500,000
Alternatives Federal Credit Union                                               2,234,000
Virginia Community Capital, Inc.                                                1,915,000
Southern Chautauqua Federal Credit Union                                        1,709,000
Tongass Federal Credit Union                                                    1,600,000
D.C. Federal Credit Union                                                       1,522,000
Vigo County Federal Credit Union                                                1,229,000
Opportunities Credit Union                                                      1,091,000
Butte Federal Credit Union                                                      1,000,000
Lower East Side People’s Federal Credit
                                                                                  898,000
Union
Independent Employers Group Federal
                                                                                  698,000
Credit Union
Bethex Federal Credit Union                                                       502,000
Community Plus Federal Credit Union                                               450,000
Liberty County Teachers Federal
                                                                                  435,000
Credit Union*
Tulane-Loyola Federal Credit Union                                                424,000
Northeast Community Federal Credit
                                                                                  350,000
Union
North Side Community Federal Credit
                                                                                  325,000
Union
Genesee Co-op Federal Credit Union                                                300,000
Brooklyn Cooperative Federal Credit Union                                         300,000
Union Settlement Federal Credit Union                                             295,000
Neighborhood Trust Federal Credit Union                                           283,000
Prince Kuhio Federal Credit Union                                                 273,000
Phenix Pride Federal Credit Union                                                 153,000
Buffalo Cooperative Federal Credit Union                                          145,000
Hill District Federal Credit Union                                                100,000
Episcopal Community Federal Credit
                                                                                  100,000
Union
Thurston Union of Low-Income People
                                                                                   75,000
(TULIP) Cooperative Credit Union
                                                                     Continued on next page
244   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              CDCI INVESTMENT SUMMARY, AS OF 6/30/2014                                         (CONTINUED)

                                                                                                                     Amount         Additional       Total CDCI
                                              Institution                                                          from CPP        Investment       Investment
                                              Institutions Remaining in CDCI
                                              Renaissance Community Development
                                                                                                                                                      $31,000
                                              Credit Union
                                              Faith Based Federal Credit Union                                                                          30,000
                                              Fidelis Federal Credit Union                                                                              14,000
                                              Union Baptist Church Federal Credit Union                                                                 10,000
                                              East End Baptist Tabernacle Federal
                                                                                                                                                         7,000
                                              Credit Union
                                              Total                                                      $299,700,000            $90,535,000     $469,966,000
                                              Institutions Fully Repaid                                                                                       
                                              First M&F Corporation                                         $30,000,000                           $30,000,000
                                              University Financial Corp, Inc.                                 11,926,000          $10,189,000      22,115,000
                                              PSB Financial Corporation                                            9,734,000                         9,734,000
                                              Freedom First Federal Credit Union                                                                     9,278,000
                                              BankAsiana                                                                                             5,250,000
                                              First Choice Bank                                                    5,146,000                         5,146,000
                                              Bancorp of Okolona, Inc.                                                                               3,297,000
                                              Atlantic City Federal Credit Union                                                                     2,500,000
                                              Gateway Community Federal Credit Union                                                                 1,657,000
                                              Southside Credit Union                                                                                 1,100,000
                                              Brewery Credit Union                                                                                   1,096,000
                                              First Legacy Community Credit Union                                                                    1,000,000
                                              UNO Federal Credit Union                                                                                743,000
                                              Greater Kinston Credit Union                                                                            350,000
                                              UNITEHERE Federal Credit Union (Workers
                                                                                                                                                        57,000
                                              United Federal Credit Union)
                                              Total                                                        $56,806,000           $10,189,000      $93,323,000
                                              Bankrupt or with Failed Subsidiary Banks 
                                              Premier Bancorp, Inc.                                           $6,784,000                           $6,784,000
                                              Total                                                          $6,784,000                            $6,784,000
                                              Overall Total                                              $363,290,000          $100,724,000      $570,073,000
                                              Notes: Numbers may not total due to rounding.

                                              * Institution has made a partial payment on Treasury’s investment.

                                              Source: Treasury, Transactions Report, 6/30/2014.
                                                                                                      QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   245




Missed Dividends
As of June 30, 2014, one institution still in CDCI had unpaid dividend or interest
payments to Treasury totaling $20,300.486 As a result of a bankrupt institution that
exited CDCI without remitting its interest payments, the total value of all missed
payments equals $336,924. Treasury has the right to appoint two directors to the
board of directors of institutions that have missed eight dividends and interest
payments, whether consecutive or nonconsecutive.487 As of June 30, 2014, Treasury
had not appointed directors to the board of any CDCI institution.488 Treasury has
sent an observer to the board meetings of one institution, First Vernon Bancshares,
Inc., Vernon, Alabama, however no observer is currently attending board meetings
of this institution.489 Treasury made a request to send an observer to the board
meetings of First American International Corp., Brooklyn, New York, in February
2013, but the institution, which remains in TARP as of June 30, 2014, rejected
Treasury’s request.490 Table 2.53 lists CDCI institutions that are not current on
dividend or interest payments.

TABLE 2.53
 CDCI-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF
 6/30/2014
                                             Dividend or                Number of Missed   Value of Missed
 Institution                                 Payment Type                      Payments          Payments
 Premier Bancorp, Inc.*                      Interest                                 6          $316,624
 Community Bank of the Bay                   Non-Cumulative                           1            20,300
 Total                                                                                          $336,924
 Notes: Numbers may not total due to rounding.

 * On 3/23/2012, the subsidiary bank of Premier Bancorp, Inc. failed.

 Source: Treasury, Dividends and Interest Report, 7/10/2014.
246            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Terms for Senior Securities and Dividends
      Risk-Weighted Assets: Risk-based                An eligible bank, bank holding company, or thrift could apply to receive capital in
      measure of total assets held by                 an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
      a financial institution. Assets are             owned, nonprofit financial institution with a capital and governance structure
      assigned broad risk categories. The             different from that of for-profit banks) could apply for Government funding of up
      amount in each risk category is then            to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted assets
      multiplied by a risk factor associated          for banks.491 Participating credit unions and S corporations issued subordinated
      with that category. The sum of the              debt to Treasury in lieu of the preferred stock issued by other CDFI participants.492
      resulting weighted values from each of          Many CDFI investments have an initial dividend rate of 2%, which increases to
      the risk categories is the bank’s total         9% after eight years. Participating S corporations pay an initial rate of 3.1%, which
      risk-weighted assets.                           increases to 13.8% after eight years.493 A CDFI participating in CPP had the
                                                      opportunity to request to convert those shares into CDCI shares, thereby reducing
                                                      the annual dividend rate it pays the Government from 5% to as low as 2%.494
                                                      According to Treasury, CDFIs were not required to issue warrants because of the
                                                      de minimis exception in EESA, which grants Treasury the authority to waive the
                                                      warrant requirement for qualifying institutions in which Treasury invested $100
                                                      million or less.
                                                          If during the application process a CDFI’s primary regulator deemed it to
                                                      be undercapitalized or to have “quality of capital issues,” the CDFI had the
                                                      opportunity to raise private capital to achieve adequate capital levels. Treasury
                                                      would match the private capital raised on a dollar-for-dollar basis, up to a total of
                                                      5% of the financial institution’s risk-weighted assets. In such cases, private investors
                                                      had to agree to assume any losses before Treasury.495
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014           247




Systemically Significant Failing Institutions Program                                        For more on SIGTARP’s September
                                                                                             2012 recommendation to Treasury and
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                                                             the Federal Reserve regarding AIG’s
program was established to “provide stability and prevent disruptions to financial           designation as a systemically important
markets from the failure of a systemically significant institution.”496 Through              financial institution, see SIGTARP’s
SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion                  July 2013 Quarterly Report, pages
in TARP funds in American International Group, Inc. (“AIG”), the program’s sole              201-203.
participant.497 AIG also received bailout funding from the Federal Reserve Bank
                                                                                             For more information on AIG and how
of New York (“FRBNY”). In January 2011, FRBNY and Treasury restructured                      the company changed while under
their agreements with AIG to use additional TARP funds and AIG funds to pay off              TARP, see SIGTARP’s July 2012
amounts owed to FRBNY and transfer FRBNY’s common stock and its interests to                 Quarterly Report, pages 151-167.
Treasury.498
     AIG has repaid the amounts owed to both Treasury and FRBNY. Treasury’s
investment in AIG ended on March 1, 2013.499
                                                                                             Special Purpose Vehicle (“SPV”):
    According to Treasury, taxpayers have received full payment on FRBNY’s loans,
                                                                                             A legal entity, often off-balance-
plus interest and fees of $6.8 billion; full repayment of the loans to two special
                                                                                             sheet, that holds transferred assets
purpose vehicles (“SPVs”), called Maiden Lane II and Maiden Lane III, plus $8.2
                                                                                             presumptively beyond the reach of the
billion in gains from securities cash flows and sales and $1.3 billion in interest;
                                                                                             entities providing the assets, and that
and full payment of the insurance-business SPVs, plus interest and fees of $1.4
                                                                                             is legally isolated from its sponsor or
billion.500 Treasury’s books and records reflect only the shares of AIG that Treasury
                                                                                             parent company.
received in TARP, reflecting that taxpayers have recouped $54.4 billion of the
$67.8 billion in TARP funds spent and realized losses on the sale of TARP shares
from an accounting standpoint of $13.5 billion.501 However, because TARP funds
paid off amounts owed to FRBNY in return for stock, Treasury’s position is that the          For a more detailed description of
Government has made $4.1 billion selling AIG common shares and $959 million in               the AIG Recapitalization Plan, see
dividends, interest, and other income.502                                                    SIGTARP’s January 2014 Quarterly
                                                                                             Report, pages 219-220.

                                                                                             For more information on Treasury’s
                                                                                             sales of AIG common shares and AIG’s
                                                                                             buybacks of shares, see SIGTARP’s
                                                                                             July 2013 Quarterly Report, page 131.

                                                                                             For more information on Treasury’s
                                                                                             Equity Ownership Interest in AIG, see
                                                                                             SIGTARP’s January 2014 Quarterly
                                                                                             Report, page 220.
248            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Targeted Investment Program
                                                      Treasury invested a total of $40 billion in two financial institutions, Citigroup
                                                      Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
                                                      Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
                                                      on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
                                                      in return for preferred shares paying quarterly dividends at an annual rate of 8%
                                                      and warrants from each institution.503 According to Treasury, TIP’s goal was to
                                                      “strengthen the economy and protect American jobs, savings, and retirement
                                                      security [where] the loss of confidence in a financial institution could result in
                                                      significant market disruptions that threaten the financial strength of similarly
                                                      situated financial institutions.”504 Both banks repaid TIP in December 2009.505 On
                                                      March 3, 2010, Treasury auctioned the Bank of America warrants it received under
                                                      TIP for $1.24 billion.506 On January 25, 2011, Treasury auctioned the Citigroup
                                                      warrants it had received under TIP for $190.4 million.507

                                                      Asset Guarantee Program
                                                      Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
      Trust Preferred Securities (“TRUPS”):           Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
      Securities that have both equity                provide loss protection on a pool of Citigroup assets valued at approximately $301
      and debt characteristics created by             billion. In return, as a premium, the Government received warrants to purchase
      establishing a trust and issuing debt           Citigroup common stock and $7 billion in preferred stock. The preferred stock was
      to it.                                          subsequently exchanged for trust preferred securities (“TRUPS”).508
                                                           Treasury received $4 billion of the TRUPS and FDIC received $3 billion.509
                                                      Although Treasury’s asset guarantee was not a direct cash investment, it exposed
      For a discussion of the basis of the            taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in
      decision to provide Federal assistance          connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated
      to Citigroup, see SIGTARP’s audit               the AGP agreement. Although at the time of termination the asset pool suffered
      report, “Extraordinary Financial                a $10.2 billion loss, this number was below the agreed-upon deductible and the
      Assistance Provided to Citigroup,
      Inc.,” dated January 13, 2011.
                                                      Government suffered no loss.510
                                                           At that time, Treasury agreed to cancel $1.8 billion of the TRUPS issued by
                                                      Citigroup, reducing the premium it received from $4 billion to $2.2 billion, in
                                                      exchange for the early termination of the loss protection. FDIC retained all of its
                                                      $3 billion in securities.511 Pursuant to that termination agreement, on December
                                                      28, 2012, FDIC transferred $800 million of those securities to Treasury because
                                                      Citigroup’s participation in FDIC’s Temporary Liquidity Guarantee Program closed
                                                      without a loss.512 On February 4, 2013, Treasury exchanged the $800 million of
                                                      securities it received from FDIC into Citigroup subordinated notes, which it then
                                                      sold for $894 million.513
                                                           Separately, on September 29, 2010, Treasury entered into an agreement with
                                                      Citigroup to exchange the remaining $2.2 billion in Citigroup TRUPS that it then
                                                      held under AGP for new TRUPS. Because the interest rate necessary to receive
                                                      par value was below the interest rate paid by Citigroup to Treasury, Citigroup
                                                      increased the principal amount of the securities sold by Treasury by an additional
                                                      $12 million, thereby enabling Treasury to receive an additional $12 million in
                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   249




proceeds from the $2.2 billion sale of the Citigroup TRUPS, which occurred on
September 30, 2010.514 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under AGP for $67.2 million.515 In addition to recovering
the full bailout amount, taxpayers have received $13.4 billion over the course of
Citigroup’s participation in AGP, TIP, and CPP, including dividends, other income,
and warrant sales.516
    Bank of America announced a similar asset guarantee agreement with respect
to approximately $118 billion in Bank of America assets, but the final agreement
was never executed. Bank of America paid $425 million to the Government as a
termination fee.517 Of this $425 million, $276 million was paid to Treasury, $92
million was paid to FDIC, and $57 million was paid to the Federal Reserve.518
250           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
                                                     During the financial crisis, Treasury, through TARP, launched three automotive
                                                     industry support programs: the Automotive Industry Financing Program (“AIFP”),
                                                     the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
                                                     Program (“AWCP”). According to Treasury, these programs were established “to
                                                     prevent the collapse of the U.S. auto industry, which would have posed a significant
                                                     risk to financial market stability, threatened the overall economy, and resulted in
                                                     the loss of one million U.S. jobs.”519
                                                          On December 9, 2013, Treasury sold its remaining shares of General Motors
                                                     Company (“GM”) common stock.520 Separately, on March 20, 2014, Treasury
                                                     wrote off an $826 million administrative claim in the company’s 2009 bankruptcy,
                                                     ending all taxpayer involvement in GM.521 As of June 30, 2014, Ally Financial
                                                     Inc. (“Ally Financial”), formerly GMAC Inc., is the only remaining auto-related
                                                     company in which Treasury owns a stake, with $4 billion owed to taxpayers. On
                                                     January 23, 2014, Treasury sold 410,000 shares of Ally Financial common stock
                                                     for approximately $3 billion in a private placement, reducing its stake to 37% of
                                                     the company’s stock.522 Following this, on April 15, 2014, Treasury sold 95 million
                                                     shares of Ally common stock for approximately $2.4 billion ($25 per share) as part
                                                     of an initial public offering (“IPO”). Following the Ally Financial IPO, Treasury
                                                     reported that it would still hold 82,311,010 shares; reducing Treasury’s stake in
                                                     Ally to about 17%.523 Subsequently, on May 14, 2014 Treasury exercised its over-
                                                     allotment option to sell an additional 7,245,670 shares of Ally common stock at
                                                     the IPO price of $25, recovering $181 million and further reducing its stake to
                                                     approximately 16%. Following this transaction, Treasury is still owed $4 billion.524
      For more information on GMAC/Ally                   As of June 30, 2014, taxpayers had lost $11.2 billion on the TARP investment
      Financial, see “Taxpayers Continue to          in GM from selling GM common stock at prices below the Government’s cost
      Own 74% of GMAC (Rebranded as
                                                     basis, as well as from the write-off of its remaining investment in Old GM in the
      Ally Financial Inc.) from the TARP
      Bailouts,” in SIGTARP’s January 2013           amount of $826 million, according to Treasury.525 Additionally, taxpayers lost $1.8
      Quarterly Report, pages 147-164.               billion on the sale of Ally Financial’s common stock.526 Taxpayers also lost $2.9
                                                     billion on Treasury’s investment in Chrysler LLC, which exited TARP in 2011. A
                                                     fourth company, Chrysler Financial Services Americas LLC (“Chrysler Financial”),
                                                     repaid all its TARP money in 2009. AWCP and ASSP were terminated in July
                                                     2009, and April 2010, respectively.
                                                          Treasury initially obligated approximately $84.8 billion in TARP funds through
                                                     the three auto assistance programs to GM, Ally Financial, Chrysler, and Chrysler
                                                     Financial.527 Ultimately, Treasury spent $79.7 billion in TARP funds on the auto
                                                     bailout after $2.1 billion in loan commitments to Chrysler were never drawn down,
                                                     and all available funding for the ASSP program was not used.528 As of June 30,
                                                     2014, taxpayers were owed $18 billion, of which $15.9 billion in losses have been
                                                     realized or written off and will never be repaid, leaving $2.1 billion outstanding.529
                                                          Treasury’s investments in AIFP and the two related programs and the
                                                     companies’ principal repayments are summarized in Table 2.54.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   251




TABLE 2.54
 TARP AUTOMOTIVE PROGRAM INVESTMENTS AND PRINCIPAL REPAYMENTS
 AND RECOVERIES, AS OF 6/30/2014 ($ BILLIONS)
                                                                      Ally
                                               General           Financial                              Chrysler
                                               Motorsa               Inc.b          Chryslerc           Financial                 Total
Automotive Industry
                                                                                                                                           
Financing Program
    Treasury Investment                            $49.5              $17.2               $10.5                $1.5              $78.6
    Principal Repaid/
                                                     38.3               13.2                  7.6                1.5               60.6
    Recovered
Auto Supplier Support
Program
    Treasury Investment                               0.3                                     0.1                                    0.4
    Principal Repaid/
                                                      0.3                                     0.1                                    0.4
    Recovered
 Auto Warranty
 Commitment Program
    Treasury Investment                               0.4                                     0.3                                    0.6
    Principal Repaid                                  0.4                                     0.3                                    0.6
 Total Treasury Investment                        $50.2               $17.2              $10.9                 $1.5             $79.7
 Total Principal Repaid/
                                                  $38.9               $13.2                $8.0                $1.5             $61.6
 Recovered
 Still Owed to Taxpayers                         $11.2d                $4.0e               $2.9                $0.0             $18.0
 Realized Loss on
                                               ($11.2d)              ($1.8)              ($2.9)                               ($15.9)
 Investment
 Notes: Numbers may not total due to rounding.
 a
   Principal repaid includes a series of debt payments totaling $160 million recovered from GM bankruptcy.
 b
      Investment includes an $884 million Treasury loan to GM, which GM invested in GMAC in January 2009.
 c
   Principal repaid includes $560 million Fiat paid in July 2011 for Treasury’s remaining equity stake in Chrysler and for Treasury’s
    rights under an agreement with the UAW retirement trust related to Chrysler shares.
 d
     Realized loss on investment and amount still owed to taxpayers include the $826 million claim in GM’s bankruptcy, which Treasury
      wrote off in the first quarter of 2014.
 e
    Following Ally’s IPO on April 10, 2014, taxpayers are still owed $3.95 billion, including sale of over-allotment shares on May 14,
     2014.

 Sources: Treasury, Transactions Report, 6/30/2014; Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Daily TARP
 Update, 7/1/2014.
252          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    Automotive Industry Financing Program
                                                    AIFP, the largest of the three auto bailout programs, has not expended any
                                                    TARP funds for the automotive industry since December 30, 2009.530 Of AIFP-
                                                    related loan principal repayments and share sale proceeds, as of June 30, 2014,
                                                    Treasury had received approximately $38.3 billion related to its GM investment,
                                                    $13.2 billion related to its Ally Financial/GMAC investment, $7.6 billion related
                                                    to its Chrysler investment, and $1.5 billion related to its Chrysler Financial
                                                    investment.531 In addition to principal repayments, Treasury had received
                                                    approximately $5.6 billion in dividends and interest as of June 30, 2014.532

                                                    GM
                                                    Between September 26, 2013 and December 9, 2013, Treasury sold its remaining
                                                    101.3 million shares of GM common stock. As of June 30, 2014, taxpayers had lost
                                                    $11.2 billion on the investment in GM.533 Treasury provided approximately $49.5
                                                    billion to GM through AIFP, the largest of the automotive rescue programs.534 As a
                                                    result of GM’s bankruptcy, Treasury’s investment was converted to a 61% common
                                                    equity stake in GM, $2.1 billion in preferred stock in GM, and a $7.1 billion loan
                                                    to GM ($6.7 billion through AIFP and $360.6 million through AWCP).

                                                    Debt Repayments
                                                    As of June 30, 2014, GM had made approximately $756.7 million in dividend
                                                    and interest payments to Treasury under AIFP.535 GM repaid the $6.7 billion loan
                                                    provided through AIFP with interest, using a portion of the escrow account that
                                                    had been funded with TARP funds. What remained in escrow was released to GM
                                                    with the final debt payment by GM.536

                                                    Sales of GM Stock
      For more on the results of GM’s               In November and December 2010, GM successfully completed an initial public
      November 2010 IPO, see SIGTARP’s              offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common
      January 2011 Quarterly Report,                stock and 100 million shares of Series B mandatorily convertible preferred shares
      page 163.
                                                    (“MCP”) for total gross proceeds of $23.1 billion.537 As part of the IPO priced at
                                                    $33 per share, Treasury sold 412.3 million common shares for $13.5 billion in
                                                    net proceeds, reducing its number of common shares to 500.1 million and its
                                                    ownership in GM from 61% to 33%.538 On December 15, 2010, GM repurchased
                                                    Treasury’s Series A preferred stock (83.9 million shares) for total proceeds of
                                                    $2.1 billion and a capital gain to Treasury of approximately $41.9 million.539 In
                                                    early 2011, Treasury further diluted its ownership from 33% to 32% when GM
                                                    contributed 61 million of its common shares to fund GM’s pension plans.540
                                                        After that, Treasury continued to sell GM stock, both directly to GM and in
                                                    the public markets. On December 21, 2012, Treasury sold 200 million common
                                                    shares to GM at $27.50 per share, for total proceeds of $5.5 billion.541 On January
                                                    18, 2013, Treasury announced the first of four pre-arranged written trading plans
                                                    to divest its remaining shares.542 Under the first trading plan, which ended April
                                                    17, 2013, Treasury sold 58.4 million shares at an average share price of $28.05 for
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014          253




total proceeds of $1.6 billion.543 During Treasury’s second trading plan that ended
on September 13, 2013, it sold 110.3 million shares at an average share price
of $34.65, for total proceeds of $3.8 billion.544 In Treasury’s third trading plan,
ending on November 20, 2013, 70.2 million GM shares sold at an average share
price of $36.51, for proceeds of $2.6 billion.545 In the fourth and final trading plan,
between November 21, 2013, and December 9, 2013, Treasury sold its remaining
31.1 million GM shares for an average price of $38.82 per share, for proceeds of
$1.2 billion.546 In addition to the trading plans, on June 12, 2013, Treasury sold 30
million shares of common stock at $34.41 per share in a public equity offering that
raised $1 billion.547
    As of June 30, 2014, taxpayers had realized losses from an accounting
standpoint of $10.3 billion on all GM common shares sold from November
2010 through December 9, 2013, according to Treasury.548 The losses are due to
Treasury’s sales of GM common shares at prices below its cost basis of $43.52
per share. In addition, Treasury’s write-off of an $826 million claim in GM’s
bankruptcy, brought the total loss to taxpayers to $11.2 billion.549

Ally Financial, formerly known as GMAC
Ally Financial is still in TARP and as of June 30, 2014, taxpayers were owed $4
billion for the TARP investment in it. In return for its investment, as of June 30,
2014, Treasury held approximately 15.6% of Ally Financial’s common stock.550 On
January 23, 2014, Treasury sold 410,000 shares of Ally Financial common stock
for approximately $3 billion in a private placement, after which its ownership stake
was reduced from 63% to 37% of the company’s stock. The stock sold at $7,375
per share.551 Following this, Treasury announced it would sell 95 million shares of
common stock for $2.4 billion in Ally’s IPO on April 10, 2014, further reducing
the taxpayer’s share to 82,311,010 shares, or 17%. Treasury’s share was further
reduced to approximately 16% following the sale of 7,245,670 over-allotment
shares of Ally common stock at the IPO price of $25.00.552 These shares would
need to sell at $52.66 each to recover the outstanding principal owed to taxpayers
of $4 billion. The IPO also included an option to sell an additional 14.3 million of
Treasury’s shares.553
     On November 20, 2013, Ally paid Treasury $5.2 billion to repurchase $5.938                For a discussion of the history and
billion par value of MCP, plus a payment of $725 million to terminate the share                financial condition of Ally Financial,
adjustment right.554 As of June 30, 2014, Treasury has recovered $13.2 billion                 see SIGTARP’s January 2013
                                                                                               Quarterly Report, pages 147-164.
through stock sales and repayments of Ally Financial shares since providing bailout
assistance to the company five and a half years ago.555 The company also had
paid a total of $3.7 billion in quarterly dividends to Treasury through June 30,
2014, as required by the terms of the preferred stock that Ally Financial issued to
Treasury.556
     Ally Financial received $17.2 billion in three separate direct injections of TARP
funds, plus a TARP-funded capital injection from GM. On December 29, 2008,
Treasury purchased $5 billion in senior preferred equity from GMAC and received
an additional $250 million in preferred shares through warrants that Treasury
exercised immediately at a cost of $2,500.557 In January 2009, Treasury loaned
254   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             GM $884 million to invest in GMAC.558 In May 2009, Treasury exchanged this
                                             $884 million debt for a 35% common equity ownership in GMAC.559 On May 21,
                                             2009, Treasury made an additional investment in GMAC when it purchased $7.5
                                             billion of MCP and received warrants that Treasury immediately exercised for an
                                             additional $375 million in MCP at an additional cost of approximately $75,000.560
                                             On December 30, 2009, Treasury invested another $3.8 billion in GMAC, and
                                             Treasury received $2.5 billion in trust preferred securities (“TRUPS”) and $1.3
                                             billion in MCP. Treasury also received warrants, which were immediately exercised,
                                             to purchase an additional $127 million in TRUPS and $62.5 million in MCP at an
                                             additional cost of approximately $1,270 and $12,500, respectively.561 Additionally,
                                             Treasury converted $3 billion of its MCP into GMAC common stock, increasing
                                             its common equity ownership from 35% to 56%.562 On May 10, 2010, GMAC
                                             changed its name to Ally Financial Inc.563
                                                  On December 30, 2010, Treasury announced the conversion of $5.5 billion
                                             of its MCP in Ally Financial to common equity, increasing Treasury’s ownership
                                             stake in Ally Financial’s common equity from 56% to 74%.564 On March 7, 2011,
                                             Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering,
                                             resulting in $2.5 billion in proceeds to Treasury.565
                                                  Following the conversion, the private equity firm Cerberus Capital
                                             Management, L.P. (“Cerberus”) held 8.7%, third-party investors collectively held
                                             7.6%, an independently managed trust owned by GM held 5.9%, and GM directly
                                             held a 4% stake in Ally Financial’s common equity.566 Later, GM’s interests were
                                             consolidated in the trust and on December 12, 2013, GM sold its stake for $0.9
                                             billion.567 As of June 6, 2014, Treasury held a 15.6% stake in Ally’s common stock,
                                             and Third Point Loan LLC and Cerberus held 9.5% and 8.7%, respectively.568 As of
                                             June 30, 2014, Treasury held a 16% stake in Ally’s common stock.569

                                             Ally Financial Sells Some Stock in Private Placement; Repurchases Preferred
                                             Shares from Treasury
                                             On November 20, 2013, Ally Financial closed two transactions that reduced
                                             Treasury’s stake in the company from 74% to 63%.570 In one transaction, Ally
                                             Financial completed a private placement of 216,667 shares of its common stock for
                                             an aggregate purchase price of $1.3 billion. In the other transaction, Ally Financial
                                             repurchased from Treasury all of its MCP and also terminated Treasury’s existing
                                             share adjustment right associated with those shares.571 Ally said it paid Treasury
                                             $5.2 billion to repurchase $5.938 billion par value of MCP, plus a payment of $725
                                             million to terminate the share adjustment right.572
                                                 According to Treasury, under new agreements associated with these
                                             transactions, Treasury had the right to designate a majority of the Ally Financial
                                             Board of Directors as long as its ownership stake exceeded 50%, which it no longer
                                             does.573 As of June 30, 2014, Treasury had designated six of the 11 directors,
                                             however, two Treasury-appointed directors, Brian MacDonald and Henry S. Miller
                                             are retiring from the Board at the time of its annual meeting.574 Treasury designated
                                             an additional nominee, former board member Mathew Pendo, for election at the
                                             2014 annual meeting.575
                                                                                  QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   255




    On December 23, 2013, Ally Financial announced that the Federal Reserve
had granted the company financial holding company status, permitting it to engage
in a broader range of business activities, while continuing to operate its insurance
and remarketing businesses.576 In addition, on March 24, 2014 the Federal Reserve
announced that Ally Financial had passed its CCAR “stress test.”577

Ally Financial IPO
On April 9, 2014, Treasury announced an IPO of Ally Financial common stock,
reporting that it would sell 95 million shares of Ally stock with an option for the
purchase of an additional 14.3 million of Treasury’s shares.578 Treasury reported
that the shares would be offered at $25 per share for $2.375 billion in proceeds. In
addition, Treasury granted a 30-day option to purchase the additional shares, which
traded on the New York stock exchange.579
    Ally had announced its IPO plans as early as March 31, 2011, by filing a
Form S-1 Registration statement for an IPO with the Securities and Exchange
Commission (“SEC”).580 The document includes a prospectus relating to the
issuance of Ally Financial common stock.581 The prospectus also outlines certain
aspects of Ally Financial’s business operations and risks facing the company.582
    Ally Financial disclosed additional details about its IPO in several amended
Form S-1 Registration statements filed over time with the SEC, the most recent on
March 27, 2014.583

Ally Financial Released from Mortgage Claims of Bankrupt Subsidiary
On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
Residential Capital, LLC (“ResCap”) filed for bankruptcy court relief under
Chapter 11 of the U.S. Bankruptcy Code, and that it was exploring strategic
alternatives for its international operations.584 As a result of the Chapter 11 filing,
Ally Financial said that it deconsolidated ResCap from its financial statements
and wrote down its equity interest in ResCap to zero.585 On June 26, 2013, the
U.S. Bankruptcy Court approved Ally Financial’s proposed settlement to pay
$2.1 billion to the ResCap estate for release from certain mortgage claims and
liabilities.586 As part of the settlement, ResCap on June 13, 2013, fully repaid Ally
Financial’s secured claim for $1.13 billion owed under existing credit facilities.587
Ally Financial recorded a charge of about $1.6 billion in the second quarter of
2013 related to the settlement, and said it would make its settlement payment
to the ResCap estate when the reorganization plan became effective.588 The U.S.
Bankruptcy Court approved the ResCap reorganization plan on December 11,
2013, marking the court’s formal approval of broad releases for all mortgage-related
claims against Ally Financial. The plan became effective December 17, 2013.589

Ally Financial Agrees to Sell International, Other Assets
On November 21, 2012, Ally Financial announced it had reached agreements
to sell its remaining international assets over time for $9.2 billion in proceeds.
According to Ally Financial, that included the sale of most of its operations in
Europe and Latin America to GM Financial Company, Inc. (“GM Financial”), and
256   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             a 40% stake in a joint venture in China. From this, Ally Financial received $2.6
                                             billion in total proceeds.590 In June, 2013, Ally Financial said it completed the sale
                                             of its business in France, and on October 1, 2013, it said it completed the sale
                                             of its Brazil operations to GM Financial for $611 million.591 Ally Financial also
                                             has said it expects the sale of a joint venture stake in China to close in 2014.592
                                             In addition, it sold its Canadian auto finance operation to Royal Bank of Canada
                                             for $4.1 billion and its Mexican insurance business to ACE Group for $865
                                             million, in sales completed on February 1, 2013, and May 2, 2013, respectively.593
                                             Additionally, Ally Financial’s subsidiary, Ally Bank, announced in March 2013 that
                                             it agreed to sell its entire agency mortgage servicing rights to Ocwen Financial
                                             and Quicken Loans.594 Both sales were completed on April 17, 2013, according to
                                             Ally Bank, which said it received a combined $850 million in proceeds from the
                                             transactions.595 Table 2.55 summarizes Ally Financial’s international and domestic
                                             asset sales.

                                             TABLE 2.55
                                              ALLY FINANCIAL - 2013 ASSET SALES                              ($ MILLIONS)

                                                                            Sale Proceeds                    Buyer        Sale Closed
                                              Ally Credit Canada,                                     Royal Bank of
                                                                                        $4,100                                   2/1/13
                                              ResMor Trust                                                  Canada
                                              Ally Bank                                                     Walter
                                              wholesale                                      N/A       Investment              2/28/13
                                              mortgage unit                                           Management
                                              Units in Latin
                                              America, Europe,                          $2,600         GM Financial             4/2/13a
                                              China
                                              Ally Bank                                                      Ocwen
                                              mortgage                                    $850            Financial,           4/17/13
                                              servicing                                              Quicken Loans
                                              ABA Seguros
                                                                                          $865          ACE Group                5/2/13
                                              Insurance
                                              Brazilian
                                                                                          $611         GM Financial            10/1/13
                                              operations
                                              Total Proceeds:                          $9,026                                             
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                The closing on 4/2/2013 did not include China assets, which are expected to close in 2014.

                                              Sources: Ally Financial SEC filings, press releases.



                                             Chrysler
                                             Taxpayers suffered a $2.9 billion loss on the TARP investment in Chrysler. Through
                                             October 3, 2010, Treasury made approximately $12.5 billion available to Chrysler:
                                             $4 billion before bankruptcy to CGI Holding LLC, parent of Chrysler and Chrysler
                                             Financial; $1.9 billion in financing to Chrysler during bankruptcy; and $6.6 billion
                                             to Chrysler afterwards, in exchange for 10% of Chrysler common equity.596
                                                 In 2010, following the bankruptcy court’s approval of Chrysler’s liquidation
                                             plan, the $1.9 billion loan was extinguished without repayment.597 As of June 30,
                                             2014, Treasury had recovered approximately $57.4 million from asset sales during
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   257




bankruptcy.598 Of the $4 billion lent to Chrysler’s parent company, CGI Holding
LLC, $500 million of the debt was assumed by Chrysler while the remaining $3.5
billion was held by CGI Holding LLC.599 Treasury later accepted $1.9 billion in full
satisfaction of the $3.5 billion loan.600
     In spring 2011, Chrysler used the proceeds from a series of refinancing
transactions and an equity call option exercised by Fiat North America LLC (“Fiat”)
to repay the loans from Treasury.601
     In mid-2011, Treasury sold to Fiat for $500 million Treasury’s remaining equity
ownership interest in Chrysler. Treasury also sold to Fiat for $60 million Treasury’s
rights to receive proceeds under an agreement with the United Auto Workers
(“UAW”) retiree trust pertaining to the trust’s shares in Chrysler.602
     As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
in interest payments to Treasury under AIFP.603

Chrysler Financial
Chrysler Financial fully repaid the TARP investment, which included a Treasury
loan of $1.5 billion to support Chrysler Financial’s retail lending in January
2009. On July 14, 2009, Chrysler Financial fully repaid the loan in addition to
approximately $7.4 million in interest payments.604 Additionally, on May 14, 2010,
Treasury accepted $1.9 billion in full satisfaction of a $3.5 billion loan to CGI
Holding LLC, relinquishing any claim on Chrysler Financial.605 On December
21, 2010, TD Bank Group agreed to purchase Chrysler Financial from Cerberus,
the owner of CGI Holding LLC, for approximately $6.3 billion completing its
acquisition on April 1, 2011.606

Auto Supplier Support Program (“ASSP”) and Auto Warranty
Commitment Program (“AWCP”)
On March 19, 2009, Treasury committed $5 billion to ASSP to “help stabilize the
automotive supply base and restore credit flows,” with loans to GM ($290 million)
and Chrysler ($123.1 million) fully repaid in April 2010.607
   AWCP guaranteed Chrysler and GM vehicle warranties during the companies’
bankruptcy, with Treasury obligating $640.8 million — $360.6 million for GM and
$280.1 million for Chrysler, both fully repaid to Treasury.608
258             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       ASSET SUPPORT PROGRAMS
                                                       Three TARP programs have focused on supporting markets for specific asset
                                                       classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
                                                       Private Investment Program (“PPIP”), and the Unlocking Credit for Small
                                                       Businesses (“UCSB”) program.
                                                           TALF was designed to support asset-backed securities (“ABS”) transactions
      Non-Recourse Loan: Secured loan                  by providing eligible borrowers $71.1 billion in non-recourse loans through the
      in which the borrower is relieved of             Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed
      the obligation to repay the loan upon            ABS and commercial mortgage-backed securities (“CMBS”).609 Treasury initially
      surrendering the collateral.                     obligated $4.3 billion in TARP funds to purchase and manage loan collateral from
                                                       any TALF loans that defaulted.610 As of February 6, 2013, all TARP funding for
      Collateral: Asset pledged by a                   TALF was either deobligated or repaid.611 Of the $71.1 billion in TALF loans, none
      borrower to a lender until a loan is             have defaulted and $49.5 million remained outstanding as of June 30, 2014.612
      repaid. Generally, if the borrower                   PPIP used a combination of private equity and Government equity and debt
      defaults on the loan, the lender gains           through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)
      ownership of the pledged asset and               held by financial institutions. In July 2009, Treasury announced the selection
      may sell it to satisfy the debt. In TALF,        of nine Public-Private Investment Fund (“PPIF”) managers. Treasury originally
      the ABS or CMBS purchased with                   obligated $22.4 billion in TARP funds to the program, then reduced the obligation
      the TALF loan is the collateral that is          over time when several PPIFs did not use the full amounts available to them. One
      posted with FRBNY.                               PPIP manager, The TCW Group, Inc. (“TCW”), withdrew soon after the program
                                                       began. A total of $18.6 billion in TARP funding was drawn down and fully repaid
                                                       by PPIP fund managers.613 As of June 30, 2014, the entire PPIP portfolio had been
                                                       liquidated, and seven PPIP funds were legally dissolved while the last remaining
                                                       fund was winding down operations.614
                                                           Through the UCSB loan support initiative, Treasury purchased $368.1 million
                                                       in 31 SBA 7(a) securities, which are securitized small-business loans.615 According
                                                       to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
                                                       the program with a total investment gain of about $9 million for all the securities,
                                                       including sale proceeds and payments of principal, interest, and debt.616

                                                       TALF
                                                       TALF, which was announced in November 2008, issued loans collateralized by
                                                       eligible ABS.617 According to FRBNY, TALF was “designed to increase credit
                                                       availability and support economic activity by facilitating renewed issuance of
                                                       consumer and business ABS.”618 TALF is divided into two parts:619

                                                       •	 a lending program, TALF, in which FRBNY originated and managed non-
                                                          recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
                                                          TALF’s lending program closed in 2010.
                                                       •	 an asset disposition facility, TALF LLC, that purchased the collateral from
                                                          FRBNY if borrowers chose to surrender it and walk away from their loans or if
                                                          the collateral is seized in the event of default.
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014            259




    The asset disposition facility, TALF LLC, is managed by FRBNY and remains in
operation until final TALF loans mature on October 29, 2014.620 TALF loans are
non-recourse (unless the borrower has made any misrepresentations or breaches
warranties or covenants), which means that FRBNY cannot hold the borrower
liable for any losses beyond the surrender of collateral for the TALF loan.621
    TALF LLC’s funding originated from a fee charged to FRBNY for the
commitment to purchase any collateral surrendered by the borrowers. This fee was             For a discussion of the credit rating
                                                                                             agency industry and an analysis of
derived from the principal balance of each outstanding TALF program loan.622 As              the impact of NRSROs on TARP
of June 30, 2014, $49.5 million in TALF loans was outstanding.623 According to               and the overall financial market, see
FRBNY, no TALF borrowers have surrendered collateral in lieu of repayment and                SIGTARP’s October 2009 Quarterly
consequently no collateral has been purchased by TALF LLC since its inception.624            Report, pages 113-148.


Lending Program
TALF’s lending program made secured loans to eligible borrowers.625 The loans                Nationally Recognized Statistical Rating
were issued with terms of three or five years and were available for non-mortgage-           Organization (“NRSRO”): Credit rating
backed ABS, newly issued CMBS, and legacy CMBS.626 The final maturity date of                agency registered with the SEC. Credit
loans in the TALF portfolio is October 29, 2014.627                                          rating agencies provide their opinion
    To qualify as TALF collateral, the non-mortgage-backed ABS had to have                   of the creditworthiness of companies
underlying loans for automobile, student, credit card, or equipment debt; insurance          and the financial obligations issued
premium finance; SBA-guaranteed small business loans; or receivables for                     by companies. The ratings distinguish
residential mortgage servicing advances (“servicing advance receivables”). Collateral        between investment grade and non–
was also required to hold the highest investment grade credit ratings from at least          investment grade equity and debt
two nationally recognized statistical rating organizations (“NRSROs”).628                    obligations.
    To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to
have been issued by an institution other than a Government-sponsored enterprise              TALF Agent: Financial institution that
(“GSE”) or an agency or instrumentality of the U.S. Government, offer principal              is party to the TALF Master Loan
and interest payments, not be junior to other securities with claims on the same             and Security Agreement and that
pool of loans, and possess the highest long-term investment grade credit rating              occasionally acts as an agent for the
from at least two rating agencies.629 Newly issued CMBS had to be issued on or               borrower. TALF agents include primary
after January 1, 2009, while legacy CMBS were issued before that date.630                    and nonprimary broker-dealers.

Loan Terms                                                                                   Haircut: Difference between the value
TALF participants were required to use a TALF agent to apply for a TALF loan.631             of the collateral and the value of the
After the collateral (the particular asset-backed security financed by the TALF loan)        loan (the loan value is less than the
was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,              collateral value).
which represents the amount of money put up by the borrower (the borrower’s
“skin in the game”), was required for each TALF loan.632 Haircuts for non-                   “Skin in the Game”: Equity stake in an
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,            investment; down payment; the amount
and generally ranged between 5% and 16% for non-mortgage-backed ABS with                     an investor can lose.
average lives of five years or less.633 The haircut for legacy and newly issued CMBS
was generally 15% but rose above that amount if the average life of the CMBS was             Custodian Bank: Bank holding the
greater than five years.634                                                                  collateral and managing accounts for
    FRBNY lent each borrower the amount of the market price of the pledged                   FRBNY; for TALF the custodian is Bank
collateral minus the haircut, subject to certain limitations.635 The borrower                of New York Mellon.
delivered the collateral to the custodian bank, which collected payments generated
260   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             by the collateral and distributed them to FRBNY (representing the borrower’s
                                             payment of interest on the TALF loan).636 Any excess payments from the collateral
                                             above the interest due and payable to FRBNY on the loan go to the TALF
                                             borrower.637

                                             TALF Loans
                                             TALF provided a total of $71.1 billion in loans through FRBNY. Treasury initially
                                             obligated $4.3 billion in TARP funds to purchase and manage loan collateral from
                                             any TALF loans that defaulted.638 On January 15, 2013, Treasury and FRBNY said
                                             the TARP-funded credit protection was no longer needed because lending fees
                                             collected by TALF had exceeded the amount of loans still outstanding.639 As of
                                             February 6, 2013, all TARP funding for TALF was either deobligated or repaid.640
                                                 TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
                                             during the lending phase of the program, which ended on March 11, 2010. As of
                                             June 30, 2014, there were no ABS outstanding.641 Table 2.56 lists all TALF loans
                                             collateralized by non-mortgage-backed ABS, by ABS sector.

                                             TABLE 2.56
                                              TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
                                              ($ BILLIONS)

                                              ABS Sector
                                              Auto Loans                                                                                                           $12.8
                                              Credit Card Receivables                                                                                               26.3
                                              Equipment Loans                                                                                                         1.6
                                              Floor Plan Loans                                                                                                        3.9
                                              Premium Finance                                                                                                         2.0
                                              Servicing Advance Receivables                                                                                           1.3
                                              Small-Business Loans                                                                                                    2.2
                                              Student Loans                                                                                                           8.9
                                              Total ABS                                                                                                           $59.0
                                              Notes: Numbers may not total due to rounding. Data as of 6/30/2014.

                                              Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
                                              html, accessed 7/7/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
                                              TALF_recent_operations.html, accessed 7/7/2014.



                                                TALF provided $12.1 billion of loans to purchase CMBS during the lending
                                             phase of the program, which ended on June 28, 2010. Approximately 99% of the
                                             loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.642
                                             As of June 30, 2014, $49.5 million was outstanding.643 Table 2.57 includes all
                                             TALF CMBS loans.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I JULY 30, 2014          261




TABLE 2.57
 TALF LOANS BACKED BY CMBS                         ($ BILLIONS)

 Type of Collateral Assets
 Newly Issued CMBS                                                                                                     $0.1
 Legacy CMBS                                                                                                           12.0
 Total CMBS                                                                                                          $12.1
 Notes: Numbers may not total due to rounding. Data as of 6/30/2014.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
 html, accessed 7/7/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
 CMBS_recent_operations.html, accessed 7/7/2014.



    TALF loans were issued with terms of three years or five years. The final
maturity date of the last of the five-year loans is October 29, 2014.644 The
outstanding TALF loans consist of $49.5 million in loans collateralized by CMBS,
all of which will mature by October 29, 2014.645
    The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including the identities of the borrowers, the amounts and rates
of the loans, and details about the collateral.646
    As of June 30, 2014, $71 billion in TALF loans had been repaid. According to
FRBNY, the outstanding collateral on the remaining $49.5 million in TALF loans
was performing as expected.647

Asset Disposition Facility
When FRBNY created TALF LLC, TARP loaned the facility $100 million.648 As of
June 30, 2014, the $100 million had been repaid in full along with $13 million in
interest, according to Treasury.649 During the remaining two years of the program,
any interest, fees, and gains collected above the remaining principal on outstanding
TALF loans will be shared by Treasury (90%) and FRBNY (10%).650 As of June 30,
2014, Treasury had received $590.6 million in additional gains and FRBNY had
received $65.6 million.651

Current Status
As of June 30, 2014, TALF LLC had assets of $90 million, which consisted of
interest and other income and fees earned from permitted investments.652 From
its February 4, 2009, formation through June 30, 2014, TALF LLC had spent
approximately $3.2 million on administration.653
                                                                                                                                     Excess Spread: Funds left over
    When TALF closed for new loans in June 2010, FRBNY’s responsibilities
                                                                                                                                     after required payments and other
under the program shifted primarily to portfolio management, which includes
                                                                                                                                     contractual obligations have been met.
maintaining documentation, overseeing the custodian that is responsible for
                                                                                                                                     In TALF it is the difference between
holding ABS collateral, calculating and collecting principal and interest on TALF
                                                                                                                                     the periodic amount of interest paid
loans, disbursing excess spread to TALF borrowers, monitoring the TALF portfolio,
                                                                                                                                     out by the collateral and the amount
collecting and managing collateral assets if a borrower defaults or surrenders the
                                                                                                                                     of interest charged by FRBNY on the
collateral in lieu of repayment, and paying TALF LLC interest that borrowers pay
                                                                                                                                     nonrecourse loan provided to the
FRBNY on TALF loans, in excess of FRBNY’s cost of funding.654
                                                                                                                                     borrower to purchase the collateral.
262            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Public-Private Investment Program
      Legacy Securities: Real estate-related          According to Treasury, the purpose of the Public-Private Investment Program
      securities originally issued before             (“PPIP”) was to purchase legacy securities from banks, insurance companies,
      2009 that remained on the balance               mutual funds, pension funds, and other eligible financial institutions as defined
      sheets of financial institutions because        in EESA, through Public-Private Investment Funds (“PPIFs”).655 PPIFs were
      of pricing difficulties that resulted from      partnerships, formed specifically for this program, that invested in mortgage-backed
      market disruption.                              securities using equity capital from private-sector investors combined with TARP
                                                      equity and debt. A private-sector fund management firm oversaw each PPIF on
      Equity: Investment that represents an           behalf of investors. According to Treasury, the aim of PPIP was to “restart the
      ownership interest in a business.               market for legacy securities, allowing banks and other financial institutions to free
                                                      up capital and stimulate the extension of new credit.”656
      Debt: Investment in a business that                 Treasury selected nine fund management firms to establish PPIFs. One PPIP
      is required to be paid back to the              manager, TCW, subsequently withdrew. As of June 30, 2014, the entire PPIP
      investor, usually with interest.                portfolio had been liquidated, and seven PPIP funds were legally dissolved while
                                                      the other one was winding down operations. Private investors and Treasury co-
                                                      invested in the PPIFs to purchase legacy securities from financial institutions. The
                                                      fund managers raised private-sector capital. Treasury matched the private-sector
                                                      equity dollar-for-dollar and provided debt financing in the amount of the total
      For more information on the selection
      of PPIP managers, see SIGTARP’s                 combined equity. Each PPIP manager was also required to invest at least $20
      October 7, 2010, audit report entitled          million of its own money in the PPIF.657 Each PPIF was approximately 75% TARP
      “Selecting Fund Managers for the                funded.
      Legacy Securities Public-Private                    Under the program, Treasury, the PPIP managers, and the private investors
      Investment Program.”
                                                      shared PPIF profits and losses on a pro rata basis based on their limited partnership
      For more information on the                     interests. Treasury also received warrants in each PPIF that gave Treasury the
      withdrawal of TCW as a PPIP                     right to receive an extra portion of the fund’s final profits that would otherwise be
      manager, see SIGTARP’s January                  distributed to the private investors.658
      2010 Quarterly Report, page 88.                     The PPIP portfolio consisted of eligible securities and cash assets. The
                                                      securities eligible for purchase by PPIFs (“eligible assets”) were non-agency
                                                      residential mortgage-backed securities (“non-agency RMBS”) and commercial
                                                      mortgage-backed securities (“CMBS”) that also met the following criteria: issued
                                                      before January 1, 2009 (legacy); rated when issued AAA or equivalent by two or
                                                      more credit rating agencies designated as nationally recognized statistical rating
                                                      organizations (“NRSROs”); secured directly by actual mortgages, leases, or other
                                                      assets, not other securities (other than certain swap positions, as determined by
                                                      Treasury); and located primarily in the United States (the loans and other assets


      Pro Rata: Refers to dividing something         Limited Partnership: Partnership in which     Non-Agency Residential Mortgage-
      among a group of participants according        there is at least one partner whose           Backed Securities (“non-agency RMBS”):
      to the proportionate share that each           liability is limited to the amount invested   Financial instrument backed by a group
      participant holds as a part of the whole.      (limited partner) and at least one partner    of residential real estate mortgages (i.e.,
                                                     whose liability extends beyond monetary       home mortgages for residences with up
                                                     investment (general partner).                 to four dwelling units) not guaranteed
                                                                                                   or owned by a Government-sponsored
                                                                                                   enterprise (“GSE”), or a Government
                                                                                                   agency.
                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   263




that secure the non-agency RMBS and CMBS); and purchased from financial
institutions eligible for TARP participation.659

PPIP Process
Funds chosen to participate in PPIP raised private capital, which Treasury
matched on a three to one basis (one part equity and two parts debt) up to a
preset maximum set by Treasury. To obtain obligated funds, PPIP managers sent a
notice to Treasury and the private investors requesting a “draw down” of portions
of obligated contributions in order to purchase specific investments or to pay
certain expenses and debts of the partnerships.660 After obtaining the funds, PPIP
managers were required to provide monthly portfolio reports to Treasury and other
investors.661

PPIF Purchasing Power
During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
of private-sector equity capital, which Treasury matched with a dollar-for-dollar
obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
$14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
power. PPIF fund-raising was completed in December 2009. After the capital-
raising stage, Treasury obligated a total of $22.4 billion in a combination of
matching equity funds and debt financing for PPIP, which included funds for
TCW, which subsequently withdrew from the program. Table 2.58 shows equity
and debt committed by Treasury for the eight PPIFs that actively participated in
the program.
264   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                              TABLE 2.58
                               PUBLIC-PRIVATE INVESTMENT PROGRAM COMMITTED PURCHASING POWER                                                                 ($ BILLIONS)

                                                                                                                                                       Total
                                                                              Private-Sector              Treasury             Treasury          Purchasing          Purchasing
                               Manager                                                Equity                Equity                 Debt              Powera          Power Used
                               AG GECC PPIF Master Fund, L.P.                                $1.2               $1.2                  $2.5                 $5.0                  90%
                               AllianceBernstein Legacy
                                                                                               1.2                1.2                  2.3                   4.6                 92%
                               Securities Master Fund, L.P.
                               BlackRock PPIF, L.P.                                            0.7                0.7                  1.4                   2.8                 76%
                               Invesco Legacy Securities Master
                                                                                               0.9                0.9                  1.7                   3.4                 68%
                               Fund, L.P.
                               Marathon Legacy Securities
                               Public-Private Investment                                       0.5                0.5                  0.9                   1.9               100%
                               Partnership, L.P.
                               Oaktree PPIP Fund, L.P.                                         1.2                1.2                  2.3                   4.6                 48%
                               RLJ Western Asset Public/Private
                                                                                               0.6                0.6                  1.2                   2.5               100%
                               Master Fund, L.P.
                               Wellington Management Legacy
                                                                                               1.1                1.1                  2.3                   4.6               100%
                               Securities PPIF Master Fund, LP
                               Totals for Fundsb                                            $7.4                $7.4               $14.7                $29.4                   83%
                               Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. One fund was winding down operations and had not
                               been legally dissolved as of June 30, 2014: AG GECC.
                               a
                                 Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
                               b
                                 TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the
                                  total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

                               Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 7/11/2014.
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   265




   The program gave each PPIP manager up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.662 During that investment period, the program sought
to maintain “predominantly a long-term buy and hold strategy.”663 The investment
periods for all PPIFs expired in 2012.664
   Subsequently, fund managers had up to five years ending in 2017 to manage
and sell off the fund’s investment portfolio and return proceeds to taxpayers and
investors, with the ability to extend that period under certain circumstances.665
However, by June 30, 2013, all PPIP managers had liquidated their portfolios.

Amounts Drawn Down
The eight PPIP managers drew down a total of approximately $24.4 billion to buy
legacy securities during their investment periods, spending $6.1 billion in private-
sector equity capital and $18.3 billion in TARP equity and debt funding.666 The
last fund’s investment period ended in December 2012.667 Treasury also disbursed
$356.3 million to TCW, which TCW fully repaid in early 2010 when it withdrew
from the program.668
    As a group, the funds drew down and spent about 83% of the total money
available to them to invest in legacy real estate-backed securities.669 All unused
TARP debt financing has been deobligated by Treasury.670 Unused TARP equity
financing is deobligated when each fund is legally dissolved.

PPIP Fund Repayments and Liquidations
Throughout the program, PPIP managers were required to make TARP payments
to Treasury for debt principal, debt interest, and equity capital. Under the program,
the PPIP funds also shared profits from the investments with Treasury. All PPIFs
have fully repaid their TARP debt and equity financing.671 The nine PPIFs together
had repaid $12.4 billion in TARP debt and $6.3 billion in TARP equity, including
payments by TCW, as of June 30, 2014.
    The PPIP managers wound down their portfolios as follows:

•	 In June 2013, Oaktree liquidated its remaining PPIP investments.672 According
   to Treasury, Oaktree fully repaid Treasury’s equity investment of $555.9 million
   and Treasury debt of $1.1 billion, with interest. On December 31, 2013,
   Oaktree filed a formal certificate with the state of Delaware declaring that its
   PPIF had been dissolved.673
•	 In June 2013, Marathon liquidated its remaining PPIP investments.674
   According to Treasury, Marathon fully repaid Treasury’s equity investment of
   $474.6 million and Treasury debt of $949 million, with interest. On June 10,
   2014, Marathon filed a formal certificate with the state of Delaware declaring
   that its PPIF had been dissolved.675
•	 In May 2013, AG GECC liquidated its remaining PPIP investments.676
   According to Treasury, AG GECC fully repaid Treasury’s equity investment of
   $1.1 billion and Treasury debt of $2.2 billion, with interest. As of June 30, 2014,
266   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  AG GECC’s PPIF still had approximately $3.8 million in cash to pay for wind-
                                                  down expenses.677
                                             •	   In February 2013, Wellington liquidated its remaining PPIP investments.678
                                                  According to Treasury, Wellington fully repaid Treasury’s equity investment of
                                                  $1.1 billion and Treasury debt of $2.3 billion, with interest. On July 25, 2013,
                                                  Wellington filed a formal certificate with the state of Delaware declaring that its
                                                  PPIF had been dissolved.679
                                             •	   In November 2012, BlackRock liquidated its remaining PPIP investments.680
                                                  According to Treasury, BlackRock fully repaid Treasury’s equity investment of
                                                  $528.2 million and Treasury debt of $1.1 billion, with interest.681 On December
                                                  20, 2013, BlackRock filed a formal certificate with the state of Delaware
                                                  declaring that its PPIF had been dissolved.682
                                             •	   In September 2012, AllianceBernstein liquidated its remaining PPIP
                                                  investments.683 According to Treasury, AllianceBernstein fully repaid Treasury’s
                                                  equity investment of $1.1 billion and its Treasury debt of $2.1 billion, with
                                                  interest.684 On August 23, 2013, AllianceBernstein filed a formal certificate with
                                                  the state of Delaware declaring that its PPIF had been dissolved.685
                                             •	   In October 2012, RLJ Western liquidated its remaining PPIP investments.686
                                                  According to Treasury, RLJ Western fully repaid Treasury’s equity investment of
                                                  $620.6 million and Treasury debt of $1.2 billion, with interest.687 On December
                                                  31, 2012, RLJ Western filed a formal certificate with the state of Delaware
                                                  declaring that its PPIF had been dissolved.688
                                             •	   Invesco was the first of the PPIP funds to sell its portfolio, liquidating it in
                                                  March 2012.689 According to Treasury, Invesco fully repaid Treasury’s equity
                                                  investment of $581 million and Treasury debt of $1.2 billion, with interest.690
                                                  On October 3, 2012, Invesco filed a formal certificate with the state of
                                                  Delaware declaring that its PPIF had been dissolved.691

                                                 In addition to repaying Treasury’s $18.6 billion capital investments, PPIP
                                             managers paid a total of $3.5 billion in gross income payments and capital gains
                                             to the Government through June 30, 2014, as well as $87 million in warrant
                                             proceeds.692 Table 2.59 shows each fund’s payments to Treasury through June 30,
                                             2014.
                                                                                                                                    QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   267




TABLE 2.59
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 6/30/2014                                                         ($ MILLIONS)

                                                                                                                                   Gross
                                                                                                                                 Income
                                                                      Debt                 Debt               Equity          Payments                Equity
                                                                  Principal             Interest             Capital         and Capital             Warrant
 Manager                                                         Payments             Payments            Paymentsa                Gains           Paymentsb
 AG GECC PPIF Master Fund, L.P.                                       $2,235                   $66              $1,117                 $776                  $19
 AllianceBernstein Legacy Securities
                                                                        2,128                    58              1,064                   481                   12
 Master Fund, L.P.
 BlackRock PPIF, L.P.                                                   1,053                    34                 528                  395                   10
 Invesco Legacy Securities Master Fund,
                                                                        1,162                    18                 581                  139                     3
 L.P.
 Marathon Legacy Securities Public-Private
                                                                           949                   28                 475                  364                     9
 Investment Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                                1,111                    17                 556                  232                     6
 RLJ Western Asset Public/Private Master
                                                                        1,241                    37                 621                  421                   11
 Fund, L.P.
 UST/TCW Senior Mortgage Securities
                                                                           200                  0.3                 156                    20                 0.5
 Fund, L.P.
 Wellington Management Legacy Securities
                                                                        2,299                    61              1,149                   651                   16
 PPIF Master Fund, LP
 Totals for All Funds                                              $12,378                   $320              $6,247              $3,479                    $87
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. One fund was winding down operations and had not
 been legally dissolved as of June 30, 2014: AG GECC.
 a
   In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
 b
    Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
     the private partners in excess of their contributed capital.

 Sources: Treasury, Transactions Report, 6/30/2014; Treasury, response to SIGTARP data call, 7/11/2014; Treasury, Dividends and Interest Report,
 7/10/2014.
268           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Securities Purchased by PPIFs
                                                     According to their agreements with Treasury, PPIP managers invested in both
                                                     RMBS and CMBS, except for Oaktree, which invested only in CMBS.693 Figure
      For information on the securities
      purchased by PPIFs, see SIGTARP’s              2.44 shows the collective value of securities held by all PPIFs at the end of each
      April 2014 Quarterly Report, pages             calendar quarter from the beginning of the funds’ investment period, until all
      237-244.                                       securities were sold in the quarter ended June 30, 2013, broken down by RMBS
                                                     and CMBS.

                                                     FIGURE 2.44

                                                     INVESTMENTS BY PPIP FUNDS, 2009–2013 ($ BILLIONS)
                                                     25



                                                     20



                                                     15



                                                     10



                                                      5



                                                      0
                                                          Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213


                                                             Commercial Mortgage-Backed Securities Investments
                                                             Residential Mortgage-Backed Securities Investments

                                                          Notes: Numbers may not total due to rounding.

                                                          Sources: Treasury, PPIP Quarterly Reports, December 2009, March 2010, June 2010, September 2010, December 2010,
                                                          March 2011, June 2011, September 2011, December 2011, March 2012, June 2012, September 2012, December 2012,
                                                          March 2013, and June 2013.


                                                         PPIF investments were classified by underlying asset type. All non-agency
                                                     RMBS investments were considered residential because the underlying assets were
                                                     mortgages for residences with up to four dwelling units. For CMBS, the assets were
                                                     commercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                                     as warehouses), mobile home parks, mixed-use (combination of commercial and/
                                                     or residential uses), and self-storage. Over the course of the program, the portfolio
                                                     held large concentrations of office and retail. Figure 2.45 breaks down CMBS
                                                     investment distribution by sector from December 31, 2009 through June 30, 2013.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   269




FIGURE 2.45

AGGREGATE CMBS SECTOR HOLDINGS BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Office                  Multifamily             Lodging/Hotel
        Retail                  Industrial              Other

     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


   Non-agency RMBS and CMBS were classified by the degree of estimated
default risk (sometimes referred to as “quality”). In general, the highest-quality
rankings went to mortgages with the strictest requirements regarding borrower
credit, completeness of documentation, and underwriting standards. Treasury
characterized the investment-quality levels of risk for the types of mortgage loans
that support non-agency RMBS as follows:694

•	 Prime — mortgage loan made to a borrower with good credit that generally met
   the lender’s strictest underwriting criteria.
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited
   documentation or other characteristics that do not meet the standards for prime
   loans.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gave the borrower choices about how much interest and principal to pay each
   month, which could result in an increasing loan principal balance over time.
•	 Other (RMBS) — RMBS that did not meet the definitions for prime, Alt-A,
   subprime, or option ARM but met the definition of “eligible assets” above.

   Treasury characterized CMBS according to the bond’s degree of “credit
enhancement,” i.e., the percentage of the underlying mortgage pool by balance that
must be written down before the bond had any losses.695
270   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS
                                                securitization with the highest level of credit enhancement.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.696
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization with a AAA rating
                                                at issuance.
                                             •	 Other (CMBS) — CMBS that did not meet the definitions for super senior,
                                                AM, or AJ but met the definition of “eligible assets” above.

                                                Figure 2.46 and Figure 2.47 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels from December 31,
                                             2009, through June 30, 2013, by market value, as reported by PPIP managers.

                                             FIGURE 2.46

                                             AGGREGATE RMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

                                             20

                                             18

                                             16

                                             14

                                             12
                                             10

                                              8

                                              6

                                              4

                                              2

                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Prime                   Subprime                      Other – RMBS
                                                     Alt-A                   Option Arm

                                                  Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   271




FIGURE 2.47

AGGREGATE CMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6

 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Super Senior            AM          AJ         Other – CMBS


     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


   Figures 2.48 and 2.49 show the distribution of non-agency RMBS and CMBS
investments held in PPIP by respective risk levels from December 31, 2009,
through June 30, 2013, as a percentage of market value, as reported by PPIP
managers.
272   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.48

                                             AGGREGATE RMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%



                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Prime                   Subprime                      Other – RMBS
                                                       Alt-A                   Option Arm

                                                    Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.




                                             FIGURE 2.49

                                             AGGREGATE CMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%


                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Super Senior            AJ
                                                       AM                      Other – CMBS

                                                    Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   273




   Non-agency RMBS and CMBS can be classified geographically, according to
the states where the underlying mortgages are held. Figures 2.50 and 2.51 show
the states with the greatest representation in the underlying non-agency RMBS and
CMBS investments in PPIFs, as reported by PPIP managers from December 31,
2009 through June 30, 2013.

FIGURE 2.50

AGGREGATE RMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        California              New York                       Other
        Florida                 Virginia/New Jersey

     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers. Virginia
     ranked fourth from Q4 2009 – Q2 2012 and was replaced by New Jersey from Q3 2012 forward.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
274   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.51

                                             AGGREGATE CMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
                                             ($ BILLIONS)

                                              6


                                              5


                                              4


                                              3


                                              2


                                              1


                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     California              Texas                    Other
                                                     New York                Florida

                                                  Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


                                                Non-agency RMBS and CMBS can be classified by the delinquency of the
                                             underlying mortgages. Figures 2.52 and 2.53 show the distribution of non-agency
                                             RMBS and CMBS investments held in PPIP by delinquency levels, as reported by
                                             PPIP managers from December 31, 2009, through June 30, 2013.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   275




FIGURE 2.52

AGGREGATE AVERAGE RMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.




FIGURE 2.53

AGGREGATE AVERAGE CMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
276            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
      7(a) Loan Program: SBA loan program
                                                      Business Administration (“SBA”) Loan Support Initiative
      guaranteeing a percentage of loans for
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      small businesses that cannot otherwise
                                                      Businesses (“UCSB”) program, which according to Treasury was designed to
      obtain conventional loans at reasonable
                                                      encourage banks to increase lending to small businesses. Through UCSB, Treasury
      terms.
                                                      purchased $368.1 million in securities backed by pools of loans from the Small
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.697
      Pool Assemblers: Firms authorized
                                                          Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
      to create and market pools of SBA-
                                                      (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
      guaranteed loans.
                                                      March 2, 2010, and August 27, 2010, respectively.698 Under the governing agree-
                                                      ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
      SBA Pool Certificates: Ownership
                                                      from Coastal Securities and Shay Financial without confirming to the counterpar-
      interest in a bond backed by SBA-
                                                      ties that Treasury was the buyer.699 From March 19, 2010, to September 28, 2010,
      guaranteed loans.
                                                      Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
                                                      Shay Financial for a total of approximately $368.1 million.700
                                                          In a series of sales from June 2011 through January 2012, Treasury sold all its
      For more information on SBA 7(a)                SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.701
      Loan Program mechanics and                      According to Treasury, over the life of the program Treasury also had received
      TARP support for the program, see               $29 million and $13.3 million in amortizing principal and interest payments,
      SIGTARP’s April 2010 Quarterly
                                                      respectively.702
      Report, pages 105-106.

      For a full listing of the SBA 7(a)
      securities Treasury purchased through
      UCSB, including investment amounts,
      sales proceeds, and other proceeds
      received by Treasury, see SIGTARP’s
      April 2012 Quarterly Report, page
      134.
              TREASURY SHOULD USE HAMP AND
              HHF TOGETHER TO HELP AS MANY
SECT IO N 3
              HOMEOWNERS AS POSSIBLE AVOID
              FORECLOSURE
278   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   279




INTRODUCTIONi
The Troubled Asset Relief Program (“TARP”), as initially proposed, did not pass
Congress until it was amended to include assistance to homeowners. Help had
been focused largely on aid to financial institutions, but Congress required an
equal focus on housing programs to ensure TARP would assist homeowners and
not just banks, AIG, and auto companies.703 The promise of TARP was to be more
than a bailout of Wall Street.
     In early 2009, Treasury created the Making Home Affordable (“MHA”)
program, to use TARP to help struggling homeowners, primarily through TARP’s
signature foreclosure relief program known as the Home Affordable Modification
Program (“HAMP”). HAMP was supplemented in 2010, when in an effort to
help families in places hit hardest by the housing crisis, Treasury created the $7.6
billion TARP-funded Housing Finance Agency Innovation Fund for the Hardest
Hit Housing Markets (“Hardest Hit Fund” or “HHF”). Funds originally obligated
for all TARP housing programs totaled $45.6 billion, of which Treasury has only
spent $12.8 billion to date. Treasury has the TARP financial resources to help more
homeowners.704 Currently, nearly $22 billion is available for MHA, and another
$3.4 billion is available for the HHF program.705 Homeowners who are struggling
need that help now, and Treasury should be using every tool it has to extend that
help. One simple and immediate improvement that Treasury can make right away
is to ensure that homeowners get help from all available TARP programs. Treasury
should improve coordination between these programs so that they work together as
seamlessly as possible to provide effective, sustainable mortgage relief to as many
struggling homeowners as possible.
     After almost five years, HAMP continues to face considerable challenges,
including getting new homeowners into permanent mortgage modifications and
keeping homeowners in those modifications from redefaulting. Through June
30, 2014, only 1.4 million homeowners have received a permanent HAMP
modification, while servicers rejected more than 5.5 million homeowners from
HAMP.706 Overall, only 1 in 6 homeowners that applied for HAMP received a
permanent modification.707,ii Additionally, the number of homeowners entering
HAMP has steadily declined from 512,712 in 2010 to just 141,920 in 2013.708
If HAMP participation continues to decrease at its current pace (only 10,813
new homeowners received a modification last month, down from 17,323 a year
ago), approximately 1.64 million homeowners will have entered into a permanent
mortgage modification under HAMP before the program expires.709 However,
HAMP also faces a significant challenge of borrowers redefaulting out of HAMP.
Already, 398,222 homeowners have not been able to keep up with their mortgage
payments even though payments were lowered by HAMP. Overall 29% of
homeowners in HAMP have already fallen out of the program. However, the bulk
of homeowners in HAMP who started participating in the program in 2009 and

i The
     Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) is issuing this report under the
  Emergency Economic Stabilization Act. This report is not an audit or evaluation under the Inspector General Act of 1978, as amended.
ii Figures
          obtained from Treasury’s May 2014 “Application Activity by Servicer” report, which Treasury does not validate. Homeowners
 that applied more than once may be included more than once in these figures.
280   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             2010 are falling out of the program at ever more alarming rates. Approximately half
                                             of all homeowners who entered HAMP in 2009 have fallen out of the program.
                                             Homeowners who entered the program in 2010 have redefaulted at a rate of 40%.
                                                 Because TARP was also intended to help homeowners remain in their homes,
                                             Treasury should help homeowners get back on their feet with the same level of
                                             effort that it helped the banks get back on theirs. The unfortunate truth is that
                                             many homeowners in HAMP are still struggling. The redefault rates on HAMP
                                             mortgage modifications are evidence of that struggle. Additionally, for some
                                             homeowners, the initial five years of their mortgage modification will not be
                                             sufficient to stave off foreclosure. Those homeowners who entered HAMP in 2009
                                             will see their mortgage payment increase, adding to homeowner challenges.710
                                             Although payments will rise incrementally, the scheduled payment increases can
                                             have a considerable impact on a family’s budget, ranging from a maximum of $730
                                             per month in the state of Mississippi to more than $1,700 per month in California.
                                                 Treasury can use its other TARP programs such as HHF to help homeowners
                                             who are facing difficulty getting into HAMP, staying in HAMP, or who are facing
                                             a rate increase on their HAMP modification. In an effort to provide additional
                                             assistance to states that were most affected during the crisis, Treasury created
                                             the Hardest Hit Fund program in 2010, primarily to address unemployment
                                             and underwater mortgages (the amount owed on a home exceeded its value),
                                             in 19 states.711 When HHF was developed, 1 in 6 homes was underwater and
                                             unemployment was at 9%. Under the HHF Program, the 19 states most impacted
                                             by the housing crisis designed the programs detailed in Table 3.1, which used
                                             Treasury funds to help struggling homeowners within their borders.712
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   281




TABLE 3.1
 HHF PROGRAMS BY STATE, AS OF 6/30/2014
                                                                                                 Second Lien           Past-Due             Blight        Total
 State                      Unemploymenta              Transitionb        Modificationc           Reductiond           Paymente          Eliminationf   Programs
 ALABAMA                               X                      X                    X                                                                       3
 ARIZONA                               X                      X                    X                     X                                                 4
 CALIFORNIA                            X                      X                    X                     X                   X                             5
 FLORIDA                               X                                          XX                                        XX                             5
 GEORGIA                               X                                           X                                         X                             3
 ILLINOIS                              X                                          XX                                                            X          4
 INDIANA                               X                      X                    X                                                            X          4
 KENTUCKY                              X                                                                                                                   1
 MICHIGAN                              X                                          XX                                         X                  X          5
MISSISSIPPI                            X                                                                                                                   1
NEVADA                                XX                      X                  XXX                     X                                                 7
NEW JERSEY                             X                                                                                                                   1
NORTH CAROLINA                        XX                                           X                     X                                                 4
OHIO                                   X                      X                 XXXX                                         X                  X          8
OREGON                                 X                                          XX                                         X                             4
RHODE ISLAND                           X                      X                   XX                                         X                             5
SOUTH CAROLINA                         X                      X                    X                                         X                             4
TENNESSEE                              X                                                                                                                   1
WASHINGTON, DC                         X                                                                                                                   1
Total Programs                        21                      8                   24                     4                   9                  4         70
 Legend:
 X:	       One program
 XX: 	     Two programs
 XXX:	     Three programs
 XXXX:	    Four programs

 Notes:
 a
   Monthly subsidy that reduces the unemployment homeowner’s mortgage payment, in some cases paying it in full.
 b
   One-time benefit to help eligible homeowners relocate to new housing following a short sale or deed-in-lieu of foreclosure program
 c
   One-time benefit that reduces the principal and/or improves the terms of the mortgage to reduce the homeowner’s payment to an affordable level.
 d
   One-time payment to incent servicers to extinguish 2nd mortgages or provide more affordable payments.
 e
   One-time benefit that pays off past due balances.
 f
   Programs that demolish vacant or condemned properties in order stabilize home values and improve neighborhoods.

 Source: Treasury, response to SIGTARP data call, 7/8/2014.
282   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 HHF is a program that has also faced challenges in getting help to homeowners.
                                             To date, less than half (178,797 of 421,366, or 42%) of homeowners that applied
                                             for HHF have received any assistance.713 HHF programs only have reached about
                                             one third of the estimated 546,562 homeowners they were expected to help.
                                             Subsequently, 18 of the 19 HHF states have reduced their estimates of how many
                                             homeowners they expect to help using HHF programs.714 Not all HHF programs
                                             have been effective, particularly principal reduction or 2nd lien assistance.
                                                 Approximately 82% of HHF spending has been utilized for monthly mortgage
                                             payments to unemployed homeowners or repayment of past due balances
                                             (reinstatement).715 However, HHF programs that provide such assistance do not
                                             require servicers to modify the terms of mortgages, as in HAMP, to better position
                                             homeowners to avoid the risk of default after they transition out of HHF. In
                                             most states, fewer than 20% of homeowners have recovered from their financial
                                             hardship before exiting HHF.716 Although several states have mortgage modification
                                             programs that provide permanent relief, only 6.2% of homeowners have received
                                             such permanent modifications.717




                                             HHF CAN BE A BRIDGE TO MORE PERMANENT
                                             FORECLOSURE RELIEF FOR HOMEOWNERS
                                             THROUGH HAMP
                                             Treasury appears to treat its housing programs as mutually exclusive, rather than
                                             complementary and reinforcing. There is a lack of coordination between the
                                             Hardest Hit Fund programs and HAMP. If better coordinated, HHF and HAMP
                                             could systemically help improve results for homeowners and better meet Treasury’s
                                             obligation to assist a greater number of homeowners. Many HHF states continue
                                             to experience high rates of foreclosures, likely the result of continuing high levels
                                             of unemployment and underwater mortgages.718 HHF can help support the HAMP
                                             program, which provides the best long-term affordable solution for homeowners
                                             under TARP.
                                                 Contributing to Treasury’s mutually exclusive treatment of MHA and HHF is
                                             the fact that Treasury designed HAMP to be administered by servicers and HHF to
                                             be administered by state housing finance agencies. It is Treasury who is responsible
                                             for these programs. Treasury regularly meets with servicers and HHF states.
                                             Treasury issued separate guidance to each.
                                                 On August 2, 2010, Treasury issued guidance to HAMP-participating servicers
                                             to clarify how the Making Homes Affordable (“MHA”) programs were supposed to
                                             interact with HHF programs.719 Treasury made it clear in this guidance that HHF
                                             was intended to not only be a safety net for homeowners not eligible for HAMP,
                                             but also to help more homeowners qualify for a HAMP modification. Treasury’s
                                             MHA Supplemental Directive (10-07) states:
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   283




     “When submitting proposals for funding, HFAs were encouraged to design
     programs that target borrowers who are not eligible for, or otherwise
     did not complete, a HAMP modification or other MHA program.
     Nevertheless, the Hardest Hit Fund (HHF) programs may interact with
     aspects of MHA as HFAs try to leverage the resources provided by the
     MHA programs to expand the pool of borrowers that are eligible for
     HAMP or other MHA options. In some cases, the assistance the HFAs
     provide under HHF can supplement and extend assistance provided
     through MHA.” …“Servicers may not deny or delay consideration of a
     borrower for any MHA program pending acceptance of that borrower
     into an HHF program and may not require borrowers first request HFA
     program assistance through an HFA or housing counselor as a condition
     of consideration for an MHA program.”

    Treasury only requires that the agencies running each state’s HHF programs
provide a brief description of program interaction with HAMP, but does not require
the states to actually coordinate their efforts with HAMP. As a result, HHF states
appear to be missing significant opportunities to work to provide homeowners
help to enter HAMP, which could help thousands of more homeowners receive
affordable and sustainable assistance.




HHF AND HAMP COORDINATION OPPORTUNITIES
Each HHF state provided Treasury with descriptions of how their programs are
designed to interact with HAMP. Although each state’s description varied, it’s clear
that HHF programs can be designed to help homeowners obtain or keep their
HAMP modifications in a number of ways, including:

•	 HAMP Application Help: HHF programs can help homeowners apply for
   HAMP, either when they apply for HHF assistance or as they transition out of
   it.
•	 Cash: HHF programs can provide cash to pay off past due mortgage balances
   and provide forgiveness to overturn denials related to insufficient income or
   negative NPV.
•	 Prevent HAMP Redefaults: HHF programs can help homeowners stay
   in HAMP by working with servicers to identify and provide assistance to
   homeowners struggling to meet their HAMP obligations due to changes in
   financial circumstances, such as job loss.
•	 Transition to HAMP-UP: HHF programs can help unemployed homeowners
   transition to HAMP-UP to provide a total of 12 months of mortgage assistance
   to such homeowners. Once the homeowner is in HAMP-UP, servicers are
   required to re-evaluate them for HAMP if they are unable to recover from their
   financial hardship while in the program.
284   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  As shown in Table 3.2, none of the states designed their programs to employ
                                             all four methods of HAMP coordination, and 10 states designed programs that did
                                             not employ any coordination, despite Treasury encouraging states to coordinate
                                             with HAMP. None of the states indicated that their programs would be proactive in
                                             providing HHF assistance to those unemployed or underemployed who participate
                                             in HAMP or helping homeowners transition from HHF unemployment programs
                                             to HAMP-UP. Additionally, no state even discussed helping homeowners who
                                             will see their HAMP modified mortgage payments escalate before HHF funding
                                             expires.

                                             TABLE 3.2
                                              HHF COORDINATION WITH HAMPa
                                                                          Helps                 Provides Cash to                                      Helps Homeowners
                                                                      Homeowners                Overturn HAMP                Helps Prevent               Transition to
                                              State                  Apply for HAMP                  Denials                 HAMP Defaultb                HAMP UPb
                                              Alabama
                                              Arizona
                                              California                       ✓                            ✓
                                              District of
                                              Columbia
                                              Florida
                                              Georgia                          ✓
                                              Illinois                         ✓
                                              Indiana                          ✓
                                              Kentucky                         ✓
                                              Michigan
                                              Mississippi
                                              North Carolina
                                              New Jersey                       ✓                            ✓
                                              Nevada                           ✓                            ✓
                                              Ohio
                                              Oregon                           ✓                            ✓
                                              Rhode Island
                                              South Carolina                   ✓
                                              Tennessee
                                              Source: Based on a review of the most recent amendments to each HFAs agreement with Treasury, which we obtained from www.
                                              treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx

                                              a
                                                 ome states may actually coordinate with HAMP in ways the chart above does not give them credit for because the descriptions
                                                S
                                                they provided to Treasury did not address such coordination or they only indicated their programs “may” or “could” coordinate with
                                                HAMP. Only the states that clearly stated how their programs were designed to coordinate with HAMP received credit.
                                              b
                                                Some states indicated that their programs “could” or “may” help homeowners avoid HAMP redefault or transition to HAMP-UP.



                                                There are many opportunities for improved coordination. Several states have
                                             programs that are designed to work with HAMP. There are already 9 states with
                                             programs designed to help homeowners with their HAMP application. For example,
                                             New Jersey’s HomeKeeper program amendment states: “Homeowners shall be
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                    285




provided all available options for assistance during their sessions with participating
housing counseling agencies. This includes assistance available under HAMP.
Determination of homeowner eligibility for HAMP or UP will be made and utilized
before any determination of homeowner eligibility for HomeKeeper.720 Moreover,
Georgia’s HHF Mortgage Payment Assistance program is designed to “coordinate
with eligible homeowners’ servicers to assist them in obtaining a loan modification
from HAMP, if needed after program completion.”721 Only 4 states provide cash
to overturn HAMP denials due to insufficient income or negative net present
value (“NPV”). California HFA’s Mortgage Reinstatement Assistance Program is a
reinstatement program designed to “serve as a gateway to HAMP, which may include
principal reduction of homeowner’s mortgage.”722 Additionally, Nevada’s Principal
Reduction Program was designed so that “Participating servicers will screen their
databases for HAMP eligible borrowers on a regular basis and make referrals as
appropriate.”723 Unfortunately, only one state, North Carolina, even addressed using
HHF funds to provide assistance to help those struggling in HAMP modifications,
and it was unclear in doing so. North Carolina HFA’s Mortgage Payment Assistance
Programs stipulate that “Homeowner assistance may be available to a borrower who
has received a permanent loan modification if the borrower has a need.”724 Most
states that addressed HAMP-UP in their agreements with Treasury simply noted
that homeowners may also be eligible for HAMP-UP, before or after receiving HHF
assistance.

HHF Can Help Homeowners Get into HAMP                                                                                                      FIGURE 3.1
Despite encouraging HHF states to coordinate with HAMP, Treasury does not                                                                  HAMP TIER 1 MODIFICATIONS
actively require HHF states to report on how they helped homeowners through                                                                STARTED BY YEAR (THOUSANDS),
HAMP. Therefore, Treasury does not know whether homeowners are getting all                                                                 AS OF 6/30/2014
the help available to them under TARP. While HHF can provide much needed                                                                    600

immediate assistance to struggling homeowners, by providing mortgage assistance                                                             500
to unemployed homeowners or paying off past due balances, it can also serve as a
                                                                                                                                            400
bridge to more permanent assistance through HAMP.
    Overall statistics of TARP housing programs show that much more can be done                                                             300

for homeowners. Since January 1, 2011, approximately 166,000 homeowners in                                                                  200
HHF states were denied HAMP modifications due to incomplete applications,                                                                   100
and another 75,000 were denied HAMP due to insufficient income or negative
                                                                                                                                              0
net present value.iii (see Table 3.3 for details).725 With a little extra help from HHF                                                           2009   2010   2011    2012   2013    2014
programs, many of these homeowners could have obtained HAMP modifications.
Over the past four years, HHF housing counselors could have assisted homeowners                                                                              HAMP Participants

in completing applications and helped to lower the number of rejected                                                                       Source: Treasury, response to SIGTARP data call,
                                                                                                                                            7/24/2014.
modifications due to incomplete applications.




iii When
        servicers evaluate homeowners for HAMP, they attempt to get the homeowners monthly mortgage payment to 31% of their
  income using interest rate reductions, term extensions, and then principal forbearance. When servicers are unable to reach the 31%
  threshold because the homeowner’s income is too low, they may deny the homeowner due to “Excess Forbearance.”
286   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 3.3
                                              POTENTIALLY PREVENTABLE HAMP DENIALS IN HHF STATES
                                              (BY TYPE) - JANUARY 1, 2011 TO MAY 31, 2014
                                                                                         Incomplete       NPV/Insufficient
                                              State                                      Application              Income        Total
                                              Alabama                                             2,616               393      3,009
                                              Arizona                                             4,947             1,639      6,586
                                              California                                         42,868            33,090     75,958
                                              District of Columbia                                  758               234        992
                                              Florida                                            34,436            14,410     48,846
                                              Georgia                                             8,944             2,467     11,411
                                              Illinois                                           13,088             5,390     18,478
                                              Indiana                                             4,094               645      4,739
                                              Kentucky                                            1,665               293      1,958
                                              Michigan                                            7,025             1,560      8,585
                                              Mississippi                                         1,693               328      2,021
                                              North Carolina                                      6,679             1,639      8,318
                                              New Jersey                                         13,016             6,334     19,350
                                              Nevada                                              3,670             1,383      5,053
                                              Ohio                                                7,475             1,466      8,941
                                              Oregon                                              3,066             1,402      4,468
                                              Rhode Island                                        1,088               504      1,592
                                              South Carolina                                      4,134               760      4,894
                                              Tennessee                                           4,391               959      5,350
                                              Total                                             165,653           74,896     240,549
                                              Source: SIGTARP Analysis of Treasury HAMP Data.



                                                 Most HHF programs have eligibility requirements very similar to HAMP,
                                             including qualifying financial hardships, minimum debt-to-income requirements,
                                             and residency requirements.726 As with HAMP, when homeowners apply for HHF
                                             they typically fill out an application, provide an explanation of their financial
                                             hardship, and provide documented evidence showing they are eligible for
                                             assistance.727 HHF application intake personnel, which are often HUD-certified
                                             counseling agencies, could use the information and documentation to help
                                             struggling homeowners complete HAMP applications.728
                                                 All HHF states have mortgage reinstatement programs that help pay off past
                                             due mortgage balances.729 These programs could help reduce the number of
                                             homeowners denied HAMP due to insufficient income or negative NPV because
                                             they reduce the outstanding mortgage to be modified using HAMP. HHF principal
                                             forgiveness programs could also be used to help homeowners get into HAMP by
                                             further reducing the outstanding principal balances that servicers would modify
                                             using HAMP. To date though, only about 11,000 homeowners have received
                                             principal forgiveness through HHF programs.730
                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                         287




     Housing Finance Agencies frequently emphasize how their programs can work
with HAMP- Unemployment Program (HAMP-UP); however, success has been
limited. Each HHF state provides assistance to homeowners who have lost their
jobs or experienced significant pay cuts.731 The HAMP-UP program, reduces an
unemployed homeowner’s payment to 31% of their income for up to 12 months
using principal forbearance. Although the HHF unemployment and HAMP-UP
programs appear very similar, most homeowners will not transition from HHF
to HAMP-UP because Treasury does not require servicers to offer HAMP-UP to
homeowners that received at least 12 months of HHF unemployment, and most
HHF unemployment programs offer assistance for at least that long.732 Given
that only about 40,000 homeowners have received HAMP-UP assistance since
its inception, it makes no sense to continue with that approach. Treasury should
require servicers to offer HAMP-UP to all homeowners.733                                  TABLE 3.4
                                                                                           HAMP REDEFAULTS BY HHF
HHF Can Help Homeowners Stay in HAMP                                                       STATE - JANUARY 1, 2011
More than 220,000 homeowners in HHF states have redefaulted on their HAMP                  THROUGH MAY 31, 2014
permanent modifications since January 1, 2011 (see Table 3.4), accounting                                                           HAMP
                                                                                           State                                Redefaults
for 58% of all homeowners who have redefaulted in HAMP.734 The number of
                                                                                           Alabama                                     2,602
homeowners who have redefaulted range from a low of 23% in California to a high
of 39% in Mississippi.735 Many of these redefaults could have been prevented had           Arizona                                    13,369

Treasury ensured better coordination between servicers and states running the              California                                 61,890
HHF programs.                                                                              District of Columbia                              575
    Working with homeowners, HAMP servicers could notify HFAs of homeowners                Florida                                    40,101
who fall behind at least one payment or request additional assistance after HAMP           Georgia                                    13,789
due to a post modification hardship. Servicers could also share information and            Illinois                                   19,928
documentation obtained during the HAMP evaluation with HFAs in order to fast-              Indiana                                     3,940
track HHF evaluations.
                                                                                           Kentucky                                    1,615
                                                                                           Michigan                                    9,864
HHF Can Help Homeowners After a HAMP Re-set
                                                                                           Mississippi                                 1,785
When Treasury designed HAMP, it chose to freeze homeowners’ modified
                                                                                           North Carolina                              7,446
payments for five years before they would begin increasing, not knowing how long
                                                                                           New Jersey                                 13,895
and difficult the housing recovery would be.736 However, 5 years later, the housing
recovery has been much slower than ever contemplated. Homeowners continue                  Nevada                                      8,715

to struggle; nearly 50% of homeowners that received HAMP modifications in                  Ohio                                        8,082
2009 redefaulted, and more than 40% of homeowners that received HAMP                       Oregon                                      3,356
modifications in 2010 redefaulted.737 These rates are likely to increase as the            Rhode Island                                1,890
majority of the HAMP modifications are scheduled for mortgage payment increases            South Carolina                              3,760
in the coming years. Table 3.5 shows the mortgage payments will increase for               Tennessee                                   4,722
homeowners in HAMP modifications where the homeowner lives in a state that                 Total                                   221,324
offers HHF.                                                                                Source: SIGTARP Analysis of Treasury HAMP Data.
288   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 3.5
                                              SELECTED HAMP PAYMENT INCREASE STATISTICS, BY HHF STATE,
                                              AS OF 5/31/2014
                                                                               Homeowners Whose                      Median Monthly                Maximum Monthly
                                              State                          Payment Will Increase                 Payment Increasea               Payment Increasea
                                              Alabama                                               3,616                               $95                    $928
                                              Arizona                                             29,220                                185                   1,208
                                              California                                         215,407                                299                   1,724
                                              District of Columbia                                  1,377                               254                   1,096
                                              Florida                                             99,032                                162                   1,168
                                              Georgia                                             26,441                                133                   1,061
                                              Illinois                                            41,002                                174                   1,072
                                              Indiana                                               6,346                                 93                  1,022
                                              Kentucky                                              2,568                                 91                    865
                                              Michigan                                            21,755                                121                   1,273
                                              Mississippi                                           2,174                                 86                    730
                                              North Carolina                                      13,035                                115                   1,060
                                              New Jersey                                          26,823                                235                   1,100
                                              Nevada                                              17,146                                212                   1,042
                                              Ohio                                                15,167                                  97                    886
                                              Oregon                                                9,062                               192                   1,052
                                              Rhode Island                                          3,878                               192                     905
                                              South Carolina                                        6,514                               116                   1,105
                                              Tennessee                                             6,751                                 95                  1,075
                                              Notes:
                                              a
                                                Analyses to compile these figures excluded 50,603 HAMP permanent modifications with incomplete records.

                                              Source: SIGTARP Analysis of Treasury HAMP Data.



                                                 As of May 31, 2014, the latest data available, there were more than 793,000
                                             homeowners in HAMP modifications that will see their mortgage payments
                                             rise after 5 years in HAMP.738 Although the payments will rise incrementally
                                             over time, homeowners will see their monthly mortgage payments go up by a
                                             median of $197.739 As the majority of HAMP homeowners will start experiencing
                                             payment increases before December 31, 2016, there is still time for them to get
                                             help from HHF. HHF programs will be active until the end of 2017. Given that
                                             Treasury has already determined that those homeowners are worth investing
                                             TARP funds, Treasury and the HFAs should look for ways that HHF programs
                                             can assist homeowners that may struggle with payment increases.740 Providing
                                             HHF unemployment assistance to HAMP homeowners that struggle with chronic
                                             unemployment or underemployment may be one way to prevent foreclosures.
                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   289




PREVIOUS SIGTARP RECOMMENDATIONS
TO TREASURY FOR IMPROVEMENTS IN TARP
HOUSING PROGRAMS
SIGTARP has made a total of 50 recommendations to Treasury regarding
HAMP (and related programs) and HHF that would improve the functioning of
TARP programs, 44 were related to HAMP and 6 were related to HHF. The 44
HAMP recommendations cover such areas as servicer controls and compliance,
improvement of servicer management, setting anti-fraud measures, creating
homeowner awareness, and redefault management.
    The five HHF recommendations include: setting measureable goals by Treasury
on estimated number of homeowners to be helped, requiring state HFAs to set
measurable goals, setting milestones for the state HFAs, publishing program
usage for all HHF states on fund management, fund distribution, and homeowner
assistance, as well as aggregated reports for all state HHF funds.
    Significant among these recommendations, SIGTARP recommended that
Treasury identify the number of homeowners that each HHF program should
reasonably be expected to help and measure performance against those goals.
Instead, Treasury allowed states to reduce the estimated number of homeowners
that their programs will help. Since HHF and HAMP are both serving fewer
homeowners than anticipated, SIGTARP recently recommended that Treasury
consider increasing homeowner incentives and allowing these incentives to be used
to reduce the homeowner’s monthly payment, thereby allowing a greater number of
homeowners access to the program.




TREASURY SHOULD ENSURE THAT HOMEOWNERS
GET ALL THE HELP AVAILABLE TO THEM UNDER
TARP
Fewer HAMP modifications have been initiated in recent months, many of those
in HAMP continue to redefault, and those not redefaulting face the prospect of
increased monthly payments. To help address these problems Treasury should
ensure that MHA and HHF programs work together as seamlessly as possible to
provide effective, sustainable mortgage relief to the greatest number of struggling
homeowners.
     HAMP is TARP’s flagship housing program, and a more sustainable solution
than HHF. While HHF provides homeowners with immediate short-term
assistance, it should also be viewed as a potential bridge to a more permanent
solution for homeowners through HAMP.
    Treasury’s responsibility does not end when a homeowner receives a HAMP
modification or HHF assistance, nor when funding goes to the servicers for HAMP
incentives or states for administering the HHF programs. Treasury must continue
290   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             to oversee these programs to ensure that the greatest number of homeowners are
                                             provided assistance, and that those receiving assistance have the best possible
                                             chance of staying in their homes.
SECT IO N 4
              TARP OPERATIONS AND
              ADMINISTRATION
292   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   293




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.741 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.742 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM OPERATING
EXPENDITURES
As of June 30, 2014, Treasury has obligated $412.5 million for TARP
administrative costs and $1.1 billion in programmatic operating expenditures for a
total of $1.6 billion since the beginning of TARP. Of that, $165.6 million has been
obligated in the year since June 30, 2013. According to Treasury, as of June 30,
2014, it had spent $368.1 million on TARP administrative costs and $1.1 billion on
programmatic operating expenditures, for a total of $1.4 billion since the beginning
of TARP. Of that, $203.5 million has been spent in the year since June 30, 2013.743
    Much of the work on TARP is performed by private vendors rather than
Government employees. Treasury reported that as of June 30, 2014, it employs
34 career civil servants, 56 term appointees, and 23 reimbursable detailees, for a
total of 113 full-time employees.744 Between TARP’s inception in 2008 and June
30, 2014, Treasury had retained 156 private vendors — 21 financial agents and
135 contractors — to help administer TARP.745 According to Treasury, as of June
30, 2014, 49 private vendors were active — 6 financial agents and 43 contractors,
some with multiple contracts.746 The number of private-sector staffers who provide
services under these agreements dwarfs the number of people working for OFS.
According to Fannie Mae and Freddie Mac, as of March 31, 2014, together
they had about 559 people dedicated to working on their TARP contracts.747
According to Treasury, as of March 31, 2014, or June 30, 2014 — the latest
numbers available vary due to reporting cycles — at least another 184 people were
working on other active OFS contracts, including financial agent and legal services
contracts, for a total of approximately 743 private-sector employees working on
TARP.748
    Table 4.1 provides a summary of the expenditures and obligations for TARP
administrative and programmatic operating costs through June 30, 2014. The
administrative costs are categorized as “personnel services” and “non-personnel
services.” Table 4.2 provides a summary of OFS service contracts, which include
costs to hire financial agents and contractors, and obligations through June 30,
294   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             2014, excluding costs and obligations related to personnel services, travel, and
                                             transportation.

                                             TABLE 4.1
                                              TARP ADMINISTRATIVE AND PROGRAMMATIC OBLIGATIONS AND
                                              EXPENDITURES
                                                                                                              Obligations for Period Expenditures for Period
                                              Budget Object Class Title                                         Ending 6/30/2014         Ending 6/30/2014
                                              Administrative                                                                                                                        
                                                  Personnel Services                                                                                                                
                                                      Personnel Compensation & Benefits                                   $131,103,788                          $131,038,994
                                                  Total Personnel Services                                              $131,103,788                           $131,038,994
                                               
                                                  Non-Personnel Services
                                                      Travel & Transportation of Persons                                      $2,474,572                            $2,463,141
                                                      Transportation of Things                                                      11,960                                 11,960
                                                      Rents, Communications, Utilities &
                                                                                                                                  788,228                                713,466
                                                      Misc. Charges
                                                      Printing & Reproduction                                                            459                                   459
                                                      Other Services                                                        275,953,633                           231,714,443
                                                      Supplies & Materials                                                     1,869,662                              1,865,477
                                                      Equipment                                                                   255,982                                246,603
                                                      Land & Structures                                                                    —                                      —
                                                      Investments & Loans                                                                  —                                      —
                                                      Grants, Subsidies & Contributions                                                    —                                      —
                                                      Insurance Claims & Indemnities                                                       —                                      —
                                                      Dividends and Interest                                                             634                                   634
                                                  Total Non-Personnel Services                                          $281,355,131                           $237,016,182
                                              Total Administrative                                                      $412,458,919                           $368,055,176
                                              Programmatic                                                           $1,144,391,997                         $1,061,954,758
                                              Total Administrative and Programmatic                                  $1,556,850,916                         $1,430,009,934
                                              Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures
                                              and Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.
                                              Amounts are cumulative since the beginning of TARP.

                                              Source: Treasury, responses to SIGTARP data call, 7/9/2014 and 7/11/2014.




                                             FINANCIAL AGENTS
                                             EESA requires SIGTARP to provide biographical information for each person or
                                             entity hired to manage assets acquired through TARP.749 Treasury hired no new
                                             financial agents in the quarter ended June 30, 2014.750
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             295




TABLE 4.2
 OFS SERVICE CONTRACTS
                                                                                 Type of
 Date         Vendor                           Purpose                           Transaction             Obligated Value         Expended Value
              Simpson Thacher & Bartlett       Legal services for the
 10/9/2008                                                                       Contract                       $931,090                $931,090
              MNP LLP                          implementation of TARP
                                               Investment and Advisory
 10/10/2008   Ennis Knupp & Associates Inc.1                                     Contract                      2,635,827               2,635,827
                                               Services
              The Bank of New York Mellon                                        Financial
 10/14/2008                                    Custodian                                                      59,496,769              56,157,931
              Corporation                                                        Agent
 10/15/2008   PricewaterhouseCoopers, LLP      Internal control services         Contract                     34,980,857              33,505,992
                                               For process mapping consultant    Interagency
 10/16/2008   Turner Consulting Group, Inc.2                                                                        9,000                        —
                                               services                          Agreement
 10/17/2008   Ernst & Young LLP                Accounting Services               Contract                     13,854,317              13,640,626
                                               Legal services for the Capital
 10/28/2008   Hughes Hubbard & Reed LLP                                          Contract                      3,060,921               2,835,357
                                               Purchase Program
                                               Legal services for the Capital
 10/28/2008   Squire Sanders & Dempsey LLP                                       Contract                      2,687,999               2,687,999
                                               Purchase Program
 10/30/2008   Lindholm & Associates, Inc.      Human resources services          Contract                        614,963                    614,963
              Sonnenschein Nath & Rosenthal    Legal services related to auto
 11/6/2008                                                                       Contract                      2,702,441               2,702,441
              LLP4                             industry loans
                                                                                 Interagency
 11/8/2008    Internal Revenue Service         Detailees                                                          97,239                     97,239
                                                                                 Agreement
                                                                                 Interagency
 11/16/2008   Internal Revenue Service         CSC Systems & Solutions LLC2                                         8,095                     8,095
                                                                                 Agreement
              Department of the Treasury —                                       Interagency
 11/24/2008                                    Administrative Support                                         16,131,121              16,131,121
              Departmental Offices                                               Agreement
              Trade and Tax Bureau —           IAA — TTB Development, Mgmt       Interagency
 12/2/2008                                                                                                        67,489                     67,489
              Treasury                         & Operation of SharePoint         Agreement
                                                                                 Interagency
 12/4/2008    Washington Post3                 Subscription                                                          395                         —
                                                                                 Agreement
              Sonnenschein Nath & Rosenthal    Legal services for the purchase
 12/9/2008                                                                       Contract                        102,769                    102,769
              LLP4                             of asset-backed securities
                                               Admin action to correct system
 12/9/2008    Thacher Proffitt & Wood4                                           Contract                              —                         —
                                               issue
                                                                                 Interagency
 12/14/2008   Office of Thrift Supervision     Detailees                                                         225,547                    164,823
                                                                                 Agreement
              Department of Housing and                                          Interagency
 12/15/2008                                    Detailees                                                               —                         —
              Urban Development                                                  Agreement
                                                                                 Interagency
 12/21/2008   Office of Thrift Supervision     Detailees                                                               —                         —
                                                                                 Agreement
              Cushman and Wakefield of VA      Painting Services for TARP
 12/23/2008                                                                      Contract                           8,841                     8,841
              Inc.                             Offices
              Securities and Exchange                                            Interagency
 1/5/2009                                      Detailees                                                          30,416                     30,416
              Commission                                                         Agreement
 1/6/2009     Colonial Parking Inc.            Lease of parking spaces           Contract                        347,634                    244,017
              Cadwalader Wickersham & Taft
 1/26/2009                                     Bankruptcy Legal Services         Contract                        409,955                    409,955
              LLP
                                                                                                                            Continued on next page
296          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS             (CONTINUED)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Whitaker Brothers Bus
      1/26/2009                                       Paper Shredder                       Contract              $3,213                  $3,213
                   Machines Inc.
                   Office of the Comptroller of the                                        Interagency
      1/29/2009                                       Detailees                                                 501,118                 501,118
                   Currency                                                                Agreement
                                                      IAA — GAO required by P.L. 110-
                   Government Accountability                                               Interagency
      2/1/2009                                        343 to conduct certain activities                       7,459,049               7,459,049
                   Office                                                                  Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/2/2009     Internal Revenue Service2          Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for
                                                      Document Production, FOIA
      2/8/2009     Pat Taylor & Associates, Inc.                                           Contract             692,108                 692,108
                                                      assistance, and Program
                                                      Support
                                                      Initiate Interim Legal Services in
                   Locke Lord Bissell & Liddell
      2/11/2009                                       support of Treasury Investments      Contract             272,225                 272,225
                   LLP
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               479,012,013             430,562,781
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              347,825,041             297,642,225
                                                      Program                              Agent
                                                                                           Interagency
      2/19/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/19/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett
      2/19/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   MNP LLP
                                                      Capital Assistance Program (II)
      2/19/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/25/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty           Financial Advisory Services          Interagency
      2/26/2009                                                                                               7,750,000               7,750,000
                   Corporation                        Related to Auto Program              Agreement
                   The Boston Consulting Group        Management Consulting relating
      3/5/2009                                                                             Contract             741,169                 741,169
                   Inc.                               to the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services
      3/29/2009    Bingham McCutchen LLP5             — Contract Novated from TOFS-        Contract             273,006                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/29/2009                                       Auto Investment Legal Services       Contract          17,392,786              17,392,786
                   LLP
      3/29/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                      SBA Initiative Legal Services
                                                      — Contract Novated to
      3/29/2009    McKee Nelson LLP5                                                       Contract             149,349                 126,631
                                                      TOFS-10-D-0001 with Bingham
                                                      McCutchen LLP
                   Sonnenschein Nath & Rosenthal
      3/29/2009                                       Auto Investment Legal Services       Contract           1,834,193               1,834,193
                   LLP4
                                                      Credit Reform Modeling and
      3/30/2009    FI Consulting Inc.                                                      Contract           4,818,353               4,036,532
                                                      Analysis
                                                                                                                           Continued on next page
                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             297




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                  Type of
Date        Vendor                             Purpose                            Transaction             Obligated Value         Expended Value
                                                                                  Interagency
4/2/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                              $35,190                    $25,812
                                                                                  Agreement
            The Boston Consulting Group        Management Consulting relating
4/2/2009                                                                          Contract                      4,100,195               4,099,923
            Inc.                               to the Auto industry
            Bureau of Engraving and                                               Interagency
4/16/2009                                      Detailee for PTR Support                                            45,822                     45,822
            Printing                                                              Agreement
4/16/2009   Herman Miller Inc.                 Aeron Chairs                       Contract                         53,799                     53,799
                                                                                  Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                       50,180,673              48,952,777
                                                                                  Agent
                                                                                  Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                       27,569,450              27,438,003
                                                                                  Agent
            Piedmont Investment Advisors,                                         Financial
4/21/2009                                      Asset Management Services                                       12,961,866              12,912,419
            LLC                                                                   Agent
                                                                                  Interagency
4/29/2009   State Department                   Detailees                                                                —                         —
                                                                                  Agreement
                                                                                  Interagency
5/4/2009    Federal Reserve Board              Detailees                                                           48,422                     48,422
                                                                                  Agreement
            Department of the Treasury —       “Making Home Affordable” Logo      Interagency
5/12/2009                                                                                                             325                       325
            U.S. Mint                          search                             Agreement
                                               Executive Search and
5/14/2009   Knowledgebank Inc.2                recruiting Services — Chief        Contract                        124,340                    124,340
                                               Homeownership Officer
                                               Freedom of Information Act
                                               (FOIA) Analysts to support the
5/15/2009   Phacil Inc.                                                           Contract                         90,306                     90,306
                                               Disclosure Services, Privacy and
                                               Treasury Records
            Securities and Exchange            Support Services for Mark-to-      Interagency
5/19/2009                                                                                                         430,000                    430,000
            Commission                         market study and FinSOB            Agreement
                                                                                  Interagency
5/21/2009   Department of Justice — ATF        Detailees                                                          243,778                    243,772
                                                                                  Agreement
                                               Legal services for work under
5/25/2009   Anderson, McCoy & Orta             Treasury’s Public-Private          Contract                      2,287,423               2,287,423
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett
5/25/2009                                      Treasury’s Public-Private          Contract                      7,849,026               3,526,454
            MNP LLP
                                               Investment Funds (PPIF) program
            Financial Management Service       Development of an Information      Interagency
6/8/2009                                                                                                           89,436                     89,436
            (FMS)                              Management Plan (IMP)              Agreement
                                               Federal Consulting Group           Interagency
6/28/2009   Department of the Interior                                                                             49,000                     49,000
                                               (Foresee)                          Agreement
                                               Executive search services for
7/16/2009   Korn/Ferry International           the OFS Chief Investment Officer   Contract                         74,023                     74,023
                                               position
            Cadwalader Wickersham & Taft
7/29/2009                                      Restructuring Legal Services       Contract                      1,278,696               1,278,696
            LLP
7/29/2009   Debevoise & Plimpton LLP           Restructuring Legal Services       Contract                           1,650                     1,650
            Fox, Hefter, Swibel, Levin &
7/29/2009                                      Restructuring Legal Services       Contract                         26,493                     26,493
            Carol, LLP
                                                                                  Interagency
8/9/2009    Department of Justice              Detailees                                                           63,109                     54,679
                                                                                  Agreement
                                                                                                                             Continued on next page
298          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                        Type of
      Date         Vendor                           Purpose                             Transaction   Obligated Value        Expended Value
                   National Aeronautics and Space                                       Interagency
      8/9/2009                                      Detailees                                               $140,889                $140,889
                   Administration (NASA)                                                Agreement
                                                    Executive Compensation Data
      8/17/2009    Mercer (US) Inc.                                                     Contract               3,000                    3,000
                                                    Subscription
                                                                                        Interagency
      8/24/2009    Department of Justice            Detailees                                                 63,248                  63,248
                                                                                        Agreement
      9/1/2009     Knowledge Mosaic Inc.            SEC filings subscription service    Contract               5,000                    5,000
                                                    Executive Compensation Data
      9/9/2009     Equilar, Inc.                                                        Contract              59,990                  59,990
                                                    Subscription
      9/10/2009    PricewaterhouseCoopers, LLP      PPIP compliance                     Contract           3,647,526               3,559,089
                                                                                        Interagency
      9/17/2009    Bureau of Public Debt (BPD)      Administrative Resource Center                           436,054                 436,054
                                                                                        Agreement
                                                                                        Interagency
      9/29/2009    Immixtechnology Inc.3            EnCase eDiscovery ProSuite                               210,184                       —
                                                                                        Agreement
                                                                                        Interagency
      9/29/2009    Immixtechnology Inc.3            Guidance Inc.                                             18,000                       —
                                                                                        Agreement
      9/29/2009    NNA INC.                         Newspaper Delivery                  Contract               8,220                    8,220
                                                    SNL Unlimited, a web-based
      9/29/2009    SNL Financial LC                                                     Contract             460,000                 460,000
                                                    financial analytics service
                   Department of the Treasury —                                         Interagency
      11/8/2009                                     Administrative Support                                18,239,373              17,772,584
                   Departmental Offices                                                 Agreement
                                                                                        Interagency
      12/15/2009   Internal Revenue Service         Detailees                                                     —                        —
                                                                                        Agreement
      12/21/2009   Hughes Hubbard & Reed LLP                                            Contract           1,653,289                 878,010
                                                                                        Financial
      12/22/2009   Avondale Investments, LLC        Asset Management Services                                772,657                 772,657
                                                                                        Agent
                                                                                        Financial
      12/22/2009   Bell Rock Capital, LLC           Asset Management Services                              2,839,498               2,818,929
                                                                                        Agent
                                                                                        Financial
      12/22/2009   KBW Asset Management, Inc.       Asset Management Services                              4,937,433               4,937,433
                                                                                        Agent
                   Lombardia Capital Partners,                                          Financial
      12/22/2009                                    Asset Management Services                              3,217,866               3,217,866
                   LLC                                                                  Agent
                   Paradigm Asset Management                                            Financial
      12/22/2009                                    Asset Management Services                              4,260,808               4,227,758
                   Co., LLC                                                             Agent
                   Raymond James (f/k/a Howe                                            Financial
      12/22/2009                                    Asset Management Services                                432,068                 432,068
                   Barnes Hoefer & Arnett, Inc.)                                        Agent
                   Howe Barnes Hoefer & Arnett,                                         Financial
      12/23/2009                                    Asset Management Services                              3,124,094               3,124,094
                   Inc.                                                                 Agent
                                                    IAA — GAO required by P.L.110-
                   Government Accountability                                            Interagency
      1/13/2010                                     343 to conduct certain activities                      7,304,722               7,304,722
                   Office                                                               Agreement
                                                    related to TARP
                   Association of Government
      1/14/2010                                     CEAR Program Application            Contract               5,000                    5,000
                   Accountants
                                                                                        Interagency
      2/15/2010    Internal Revenue Service         Detailees                                                 52,742                  52,742
                                                                                        Agreement
                                                    FNMA IR2 assessment — OFS
      2/15/2010    The MITRE Corporation            task order on Treasury MITRE        Contract             730,192                 730,192
                                                    Contract
                                                                                                                        Continued on next page
                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             299




OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                  Type of
Date        Vendor                            Purpose                             Transaction             Obligated Value         Expended Value
                                                                                  Interagency
2/17/2010   Bureau of Public Debt (BPD)       Administrative Resource Center                                   $1,221,140              $1,221,140
                                                                                  Agreement
3/7/2010    Qualx Corporation                 FOIA Support Services               Contract                        549,518                    549,518
            Department of the Treasury —                                          Interagency
3/11/2010                                     Administrative Support                                              671,731                    671,731
            Departmental Offices                                                  Agreement
            Financial Management Service                                          Interagency
3/21/2010                                     IT Executives signature license                                      73,750                     73,750
            (FMS)                                                                 Agreement
            Federal Maritime Commission                                           Interagency
3/25/2010                                     Detailees                                                           158,600                    158,600
            (FMC)                                                                 Agreement
            Morgan Stanley & Co.                                                  Financial
3/29/2010                                     Disposition Agent Services                                       16,685,290              16,685,290
            Incorporated                                                          Agent
                                                                                  Interagency
4/1/2010    Financial Clerk U.S. Senate       Congressional Oversight Panel                                     4,797,556               4,797,556
                                                                                  Agreement
4/7/2010    Squire Sanders & Dempsey LLP      Housing Legal Services              Contract                      1,229,350                    918,224
4/11/2010   Hewitt EnnisKnupp, Inc.1          Investment Consulting Services      Contract                      5,468,948               4,458,789
                                              Data and Document Management
4/21/2010   Digital Management Inc.                                               Contract                              —                         —
                                              Consulting Services
                                              Data and Document Management
4/21/2010   MicroLink LLC                                                         Contract                     17,260,533              15,347,412
                                              Consulting Services
                                              Data and Document Management
4/22/2010   RDA Corporation                                                       Contract                      8,799,244               8,607,459
                                              Consulting Services
                                                                                  Interagency
5/3/2010    Internal Revenue Service          Detailees                                                              1,320                     1,320
                                                                                  Agreement
                                                                                  Financial
5/17/2010   Lazard Fréres & Co. LLC           Transaction Structuring Services                                 14,222,312              14,222,312
                                                                                  Agent
            Reed Elsevier Inc (dba            Accurint subscription service for
6/23/2010                                                                         Contract                           8,208                     8,208
            LexisNexis)                       one year — 4 users
                                              Financial Institution Management
            The George Washington
6/29/2010                                     & Modeling — Training course        Contract                           5,000                     5,000
            University
                                              (J.Talley)
                                              Program Compliance Support
7/20/2010   Navigant Consulting Inc.                                              Contract                      3,774,673               1,432,165
                                              Services
                                              Program Compliance Support
7/20/2010   Regis & Associates PC                                                 Contract                      1,933,801               1,217,493
                                              Services
                                              Program Compliance Support
7/21/2010   Ernst & Young LLP                                                     Contract                      9,221,175               5,924,903
                                              Services
                                              Program Compliance Support
7/21/2010   PricewaterhouseCoopers, LLP                                           Contract                              —                         —
                                              Services
7/21/2010   Schiff Hardin LLP                 Housing Legal Services              Contract                         97,526                     97,526
7/26/2010   West Publishing Corporation       Subscription Service for 4 users    Contract                           6,664                     6,664
                                              Omnibus procurement for legal
8/5/2010    Alston & Bird LLP                                                     Contract                        232,482                    232,482
                                              services
            Cadwalader Wickersham & Taft      Omnibus procurement for legal
8/5/2010                                                                          Contract                      7,600,923               3,669,170
            LLP                               services
            Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
8/5/2010                                                                          Contract                        227,415                    150,412
            Carol, LLP                        services
                                              Omnibus procurement for legal
8/5/2010    Haynes and Boone, LLP                                                 Contract                              —                         —
                                              services
                                                                                                                             Continued on next page
300          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                        Type of
      Date         Vendor                            Purpose                            Transaction   Obligated Value        Expended Value
                                                     Omnibus procurement for legal
      8/5/2010     Hughes Hubbard & Reed LLP                                            Contract          $2,818,193              $1,341,382
                                                     services
                                                     Omnibus procurement for legal
      8/5/2010     Love & Long LLP                                                      Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/5/2010     Orrick Herrington Sutcliffe LLP                                      Contract                  —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/5/2010                                                                          Contract          10,282,650               6,854,767
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/5/2010     Perkins Coie LLP                                                     Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/5/2010     Seyfarth Shaw LLP                                                    Contract                  —                        —
                                                     services
                   Shulman, Rogers, Gandal,          Omnibus procurement for legal
      8/5/2010                                                                          Contract             367,641                 213,347
                   Pordy & Ecker, PA                 services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/5/2010                                                                          Contract                  —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/5/2010     Venable LLP                                                          Contract             498,290                    1,150
                                                     services
      8/11/2010    Knowledge Mosaic Inc.             SEC filings subscription service   Contract               5,000                    5,000
                   Department of Housing and                                            Interagency
      8/29/2010                                      Detailees                                                29,915                       —
                   Urban Development                                                    Agreement
                                                     One-year subscription (3 users)
                                                     to the CQ Today Breaking News
      8/31/2010    CQ-Roll Call Inc.                 & Schedules, CQ Congressional      Contract               7,500                    7,500
                                                     & Financial Transcripts, CQ
                                                     Custom Email Alerts
                                                     SBA 7(a) Security Purchase
      9/16/2010    Bingham McCutchen LLP5                                               Contract              11,177                  11,177
                                                     Program
                                                     Program Operations Support
                                                     Services to include project
      9/26/2010    Davis Audrey Robinette            management, scanning and           Contract           4,478,965               3,789,432
                                                     document management and
                                                     correspondence
                                                     GSA Task Order for procurement
                                                     books — FAR, T&M, Government
      9/29/2010    CCH Incorporated                                                     Contract               2,430                    2,430
                                                     Contracts Reference, World
                                                     Class Contracting
                   Department of the Treasury —                                         Interagency
      9/30/2010                                      Administrative Services                                 660,601                 660,601
                   Departmental Offices                                                 Agreement
                                                                                        Interagency
      9/30/2010    Financial Clerk U.S. Senate       Congressional Oversight Panel                         5,200,000               2,777,752
                                                                                        Agreement
      10/7/2010    Management Concepts Inc.          Training Course — CON 217          Contract               1,025                    1,025
      10/7/2010    Management Concepts Inc.          Training Course — CON 216          Contract               1,025                    1,025
      10/7/2010    Management Concepts Inc.          Training Course — CON 218          Contract               2,214                    2,214
      10/7/2010    Management Concepts Inc.          Training Course — 11107705         Contract                 995                      995
      10/7/2010    Management Concepts Inc.          Training Course — Analytic Boot    Contract               1,500                    1,500
      10/7/2010    Management Concepts Inc.          Training Course — CON 218          Contract               2,214                    2,214
      10/7/2010    Management Concepts Inc.          Training Course — CON 217          Contract               1,025                    1,025
      10/7/2010    Management Concepts Inc.          Training Course — CON 218          Contract               2,214                    2,214
                                                                                                                        Continued on next page
                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             301




OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                     Type of
Date         Vendor                              Purpose                             Transaction             Obligated Value         Expended Value
             Hispanic Association of             Ratification - Internship program
10/13/2010                                                                           Contract                        $12,975                    $12,975
             Colleges & Universities             for Aug – Dec 2009
                                                 IAA — GAO required by P.L. 110-
             Government Accountability                                               Interagency
10/25/2010                                       343 to conduct certain activities                                 5,600,000               3,738,195
             Office                                                                  Agreement
                                                 related to TARP
                                                 FNMA IR2 assessment — OFS
                                                 task order on Treasury MITRE
11/8/2010    The MITRE Corporation               Contract for cost and data          Contract                      2,288,166               1,850,677
                                                 validation services related to
                                                 HAMP FA
                                                 Structuring and Disposition         Financial
11/18/2010   Greenhill & Co., Inc.                                                                                 6,139,167               6,139,167
                                                 Services                            Agent
                                                 Acquisition Support Services —
12/2/2010    Addx Corporation                    PSD TARP (action is an order        Contract                      1,299,002               1,299,002
                                                 against BPA)
             Reed Elsevier Inc. (dba             Accurint subscription services
12/28/2010                                                                           Contract                            684                       684
             LexisNexis)                         one user
                                                                                     Interagency
1/4/2011     Canon U.S.A. Inc.                   Administrative Support                                               12,937                     12,013
                                                                                     Agreement
             Perella Weinberg Partners &         Structuring and Disposition         Financial
1/18/2011                                                                                                          5,542,473               5,542,473
             Co.                                 Services                            Agent
             Treasury Franchise Fund —                                               Interagency
1/23/2011                                        Administrative Support                                            1,090,859               1,090,860
             BPD                                                                     Agreement
             Association of Government
1/25/2011                                        CEAR Program Application            Contract                           5,000                     5,000
             Accountants
                                                 Mentor Program Training (call
2/23/2011    ESI International Inc.                                                  Contract                           6,563                     6,563
                                                 against IRS BPA)
             Department of the Treasury —                                            Interagency
2/27/2011                                        Administrative Services                                          13,523,880              13,001,815
             Departmental Offices                                                    Agreement
                                                 Executive Compensation Data
3/2/2011     Equilar, Inc.                                                           Contract                         59,995                     59,995
                                                 Subscription
                                                 Executive Compensation Data
3/9/2011     Mercer (US) Inc.                                                        Contract                           7,425                     3,600
                                                 Subscription
3/21/2011    Harrison Scott Publications Inc.    Subscription Service                Contract                           5,894                     5,894
             Federal Reserve Bank of New         FRBNY monitoring and reporting      Interagency
4/19/2011                                                                                                          1,300,000               1,004,063
             York (FRBNY) HR                     on financial conditions of AIG      Agreement
4/25/2011    PricewaterhouseCoopers, LLP         Financial Services Omnibus          Contract                      5,805,636               4,864,521
4/26/2011    ASR Analytics LLC                   Financial Services Omnibus          Contract                      5,356,872               2,495,831
4/26/2011    Ernst & Young LLP                   Financial Services Omnibus          Contract                      1,756,616                    668,222
4/26/2011    FI Consulting, Inc.                 Financial Services Omnibus          Contract                      3,954,123               3,319,779
4/26/2011    Lani Eko & Company CPAs LLC         Financial Services Omnibus          Contract                         50,000                         —
4/26/2011    MorganFranklin Corporation          Financial Services Omnibus          Contract                      1,187,957                    579,923
4/26/2011    Oculus Group, Inc.                  Financial Services Omnibus          Contract                      4,069,893               2,649,998
4/27/2011    Booz Allen Hamilton, Inc.           Financial Services Omnibus          Contract                      1,034,953                    268,266
4/27/2011    KPMG LLP                            Financial Services Omnibus          Contract                         50,000                         —
             Office of Personnel
             Management (OPM) — Western                                              Interagency
4/27/2011                                        Leadership Training                                                  21,300                         —
             Management Development                                                  Agreement
             Center
                                                                                                                                Continued on next page
302          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                         Type of
      Date         Vendor                            Purpose                             Transaction   Obligated Value        Expended Value
                   Reed Elsevier Inc (dba            Accurint subscriptions by
      5/30/2011                                                                          Contract             $10,262                 $10,262
                   LexisNexis)                       LexisNexis for 5 users
                                                     Five (5) user subscriptions to
      5/30/2011    West Publishing Corporation       CLEAR by West Government            Contract               7,515                    7,515
                                                     Solutions
                                                     Project Leadership, Management
      6/1/2011     ESI International Inc.                                                Contract              14,195                  14,195
                                                     and Communications Workshop
                                                     One year subscription to the
                                                     CQ Today Breaking News &
      6/8/2011     CQ-Roll Call Inc.                 Schedules, CQ Congressional &       Contract               7,753                    7,753
                                                     Financial Transcripts, CQ Custom
                                                     Email Alerts
                                                     Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                     Contract             711,698                 711,698
                                                     Monitoring Subscription Services
                   Internal Revenue Service —                                            Interagency
      7/27/2011                                      Detailee                                                  84,234                  84,234
                   Procurement                                                           Agreement
                                                                                         Interagency
      9/8/2011     Financial Management Service      NAFEO Internship Program                                  22,755                  22,755
                                                                                         Agreement
                                                     MHA Felony Certification
      9/11/2011    ADC LTD NM                                                            Contract             447,799                 339,489
                                                     Background Checks (BPA)
                   ABMI — All Business Machines,     4 Level 4 Security Shredders
      9/14/2011                                                                          Contract               4,392                    4,392
                   Inc                               and Supplies
                                                     Renewing TD010-F-249 SEC
      9/28/2011    Knowledge Mosaic Inc.                                                 Contract               4,200                    4,200
                                                     filings Subscription Service
                                                                                         Interagency
      9/29/2011    Department of the Interior        Administrative Services                                   78,000                  78,000
                                                                                         Agreement
                                                                                         Interagency
      10/3/2011    Internal Revenue Service          Detailees                                                168,578                  84,289
                                                                                         Agreement
                   ABMI — All Business Machines,     4 Level 4 Security Shredders
      10/19/2011                                                                         Contract               4,827                    4,827
                   Inc.                              and Supplies
      11/17/2011   Qualx Corporation                 FOIA Support Services               Contract              68,006                  68,006
                                                                                         Financial
      11/29/2011   Houlihan Lokey, Inc.              Transaction Structuring Services                      12,050,000              11,225,000
                                                                                         Agent
                                                     Pre-Program and Discovery
      12/19/2011   The Allison Group LLC                                                 Contract              19,065                  19,065
                                                     Process Team Building
                                                                                         Interagency
      12/29/2011   Department of the Treasury        Administrative Support                                   901,433                 899,268
                                                                                         Agreement
                   Department of the Treasury —                                          Interagency
      12/29/2011                                     Administrative Services                               15,098,746              10,127,276
                   Departmental Offices                                                  Agreement
                                                     IAA — GAO required by P.L. 110-
                   Government Accountability                                             Interagency
      1/3/2012                                       343 to conduct certain activities                      2,500,000               2,475,937
                   Office                                                                Agreement
                                                     related to TARP IAA
                   Office of Personnel
                                                     Frontline Leadership Training
                   Management (OPM) — Western                                            Interagency
      1/4/2012                                       for OFS Managers (7/25/11-                                31,088                       —
                   Management Development                                                Agreement
                                                     7/29/11)
                   Center
                                                     ABS/MBS Data Subscription
      2/1/2012     Moody’s Analytics Inc.                                                Contract           2,637,775               2,534,336
                                                     Services
                                                     Structuring and Disposition         Financial
      2/7/2012     Greenhill & Co., LLC                                                                     1,680,000               1,680,000
                                                     Services                            Agent
                                                                                                                         Continued on next page
                                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014             303




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                     Type of
Date         Vendor                             Purpose                              Transaction             Obligated Value         Expended Value
             Association of Goverment
2/13/2012                                       CEAR Program Application             Contract                         $5,000                     $5,000
             Accountants
2/26/2012    Diversified Search LLC             CPP Board Placement Services         Contract                        346,112                    296,112
             Integrated Federal Solutions,
3/5/2012                                        TARP Acquisition Support (BPA)       Contract                      3,035,967               2,270,439
             Inc.
                                                                                     Interagency
3/14/2012    Department of Interior             Federal Consulting Group                                              87,500                     57,500
                                                                                     Agreement
                                                Administrative Support – Shared
             Department of the Treasury —                                            Interagency
3/29/2012                                       infrastructure, financial systems,                                 1,137,451               1,137,451
             Departmental Offices WCF                                                Agreement
                                                OPA and DO by all employees
3/29/2012    E-Launch Multimedia, Inc.          Subscription Service                 Contract                              —                         —
                                                Maintenance Agreement for
4/2/2012     Cartridge Technology, Inc.                                              Contract                         23,538                     15,692
                                                Canon ImageRunner
                                                Executive Compensation Data
5/9/2012     Equilar Inc.                                                            Contract                         44,995                     44,995
                                                Subscription
                                                Litigation support for No. 10-647
                                                                                     Interagency
6/11/2012    Department of Justice              (Fed.Cl.) and No. 11-100 (Fed.                                     1,737,884                    284,163
                                                                                     Agreement
                                                Cl.)
6/14/2012    Qualx Corporation                  FOIA Support Services                Contract                        104,122                    104,122
                                                Subscription for Anti Fraud Unit
6/30/2012    West Publishing Corporation                                             Contract                           8,660                     8,660
                                                to Perform Background Research
7/25/2012    Knowledge Mosaic Inc.              SEC filings subscription service     Contract                           4,750                     4,750
                                                                                     Interagency
7/31/2012    Internal Revenue Service           COR Training                                                            4,303                     4,303
                                                                                     Agreement
                                                Subscription to Commercial
8/2/2012     Harrison Scott Publications Inc.                                        Contract                           3,897                     3,897
                                                Mortgage Alert Online Service
             Treasury Franchise Fund —          Administrative Resource Center       Interagency
9/18/2012                                                                                                            826,803                    826,803
             BPD                                (ARC)                                Agreement
                                                Data Subscription Services for
9/27/2012    SNL Financial LC                   Financial, Regulatory, and Market    Contract                        180,000                    180,000
                                                Data and Services
             Government Accountability                                               Interagency
11/18/2012                                      Oversight services                                                 4,800,000               3,340,036
             Office                                                                  Agreement
             Association of Government
12/12/2012                                      CEAR Program Application             Contract                           5,000                     5,000
             Accountants
             Department of the Treasury —       Administrative support services      Interagency
12/18/2012                                                                                                        12,884,241              10,746,753
             Departmental Offices               for FY 2013                          Agreement
                                                                                     Financial
1/1/2013     Lazard Fréres & Co. LLC            Transaction Structuring Services                                   2,708,333               2,708,333
                                                                                     Agent
                                                                                     Financial
1/1/2013     Lazard Fréres & Co. LLC            Transaction Structuring Services                                   6,750,000               5,625,000
                                                                                     Agent
                                                Executive Compensation Data
2/12/2013    Mercer (US) Inc.                                                        Contract                           4,050                     4,050
                                                Subscription
             Neighborhood Reinvestment          Foreclosure Prevention under
2/14/2013                                                                            Contract                     18,190,000               6,111,410
             Corp                               MHA
             Department of the Treasury —                                            Interagency
3/3/2013                                        Administrative Support                                             1,159,268               1,159,268
             Departmental Offices WCF                                                Agreement
             Department of Housing and                                               Interagency
3/6/2013                                        Research and Analysis Services                                       499,348                    444,381
             Urban Development                                                       Agreement
                                                                                                                                Continued on next page
304               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                                                         Type of
      Date                 Vendor                                        Purpose                                         Transaction                     Obligated Value                    Expended Value
      3/25/2013            Bloomberg Finance L.P.                        Subscription                                    Contract                                      $5,400                             $5,400
                           IRS - Treasury Acquisition                                                                    Interagency
      3/26/2013                                                          COR Training - TAI                                                                            21,000                                      —
                           Institute                                                                                     Agreement
                                                                                                                         Interagency
      4/30/2013            Internal Revenue Service                      Legal Services                                                                                88,854                             88,854
                                                                                                                         Agreement
                                                                         Executive Compensation Data
      5/9/2013             Equilar Inc.                                                                                  Contract                                      45,995                             45,995
                                                                         Subscription
      6/12/2013            West Publishing Corporation                   Monthly subscription for 4 users                Contract                                      16,668                               8,131
      7/31/2013            Evolution Management Inc.                     Outplacement Services for OFS                   Contract                                      45,810                             32,640
                                                                         Subscription service utilized by
      8/19/2013            Knowledge Mosaic Inc                          the Chief Counsel’s Office for                  Contract                                       4,500                               4,500
                                                                         OFS-related matters
                                                                                                                         Interagency
      8/28/2013            Bureau of Public Debt — ARC                   Administrative Support                                                                   3,411,936                                        —
                                                                                                                         Agreement
                           Government Accountability                                                                     Interagency
      9/24/2013                                                          Administrative Support                                                                      644,988                            483,748
                           Office                                                                                        Agreement
                                                                         Financial Data Subscription
      9/26/2013            SNL Financial                                 Services — Information                          Contract                                    200,000                            200,000
                                                                         Technology
                           Department of the Treasury —                                                                  Interagency
      11/21/2013                                                         Administrative Support                                                                   8,821,234                          3,149,058
                           Departmental Offices                                                                          Agreement
                                                                                                                         Interagency
      11/21/2013           Internal Revenue Service                      Legal Services                                                                              107,185                              80,389
                                                                                                                         Agreement
                           Treasury Franchise Fund —                                                                     Interagency
      11/26/2013                                                         Administrative Support                                                                   1,862,791                          1,397,089
                           BPD                                                                                           Agreement
                           Association of Government
      12/11/2013                                                         CEAR Program Application                        Contract                                       5,000                               5,000
                           Accountants
                                                                                                                         Interagency
      12/17/2013           Department of Justice                         Litigation Services                                                                      1,459,000                                        —
                                                                                                                         Agreement
                                                                                                                         Interagency
      3/5/2014             Department of Justice                         Litigation Services                                                                      2,000,000                                        —
                                                                                                                         Agreement
                           Department of the Treasury —                                                                  Interagency
      3/12/2014                                                          Administrative Support                                                                   2,705,893                             423,288
                           DO OCIO                                                                                       Agreement
                                                                         On-line Subscription Service
      3/24/2014            Mercer (US) Inc.                                                                              Contract                                       4,472                                      —
                                                                         Executive Compensation Data
      4/14/2014            Bloomberg Finance L.P.                        Administrative Support                          Contract                                       5,700                               5,700
      6/13/2014            Winvale Group LLC                             Administrative Support                          Contract                                    174,067                                       —
      Total                                                                                                                                             $1,450,777,357                     $1,275,423,604
      Notes: Numbers may not total due to rounding. Table 4.2 includes all vendor contracts administered under Federal Acquisition Regulations, interagency agreements, and financial agency agreements
      entered into in support of OFS since the beginning of the program. The table does not include salary, benefits, travel, and other non-contract related expenses. For some contracts, $0 is obligated if no
      task orders have been awarded and so those contracts are not reflected in this table.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
        Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
        Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
        Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.

      Source: Treasury, response to SIGTARP data call, 7/18/2014.
S ECT I O N 5   SIGTARP RECOMMENDATIONS
306   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   307




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
130 recommendations to Treasury and Federal banking regulators. This section
discusses developments with respect to SIGTARP’s recommendations and, in the
table at the end of this section, summarizes all of SIGTARP’s recommendations
and notes the extent of implementation.




UPDATE ON UNIMPLEMENTED
RECOMMENDATIONS CONCERNING HAMP
TARP’s signature housing program, HAMP, has not provided enough sustainable
foreclosure relief given the unspent TARP funds that Treasury has set aside.
HAMP’s foreclosure relief is only sustainable if the homeowner does not fall out
of the permanent mortgage modification during the five year period, increasing the
risk of foreclosure.
    As of June 30, 2014, only 958,549 homeowners were active in a HAMP
permanent modification. Treasury continues to extend the application period
for MHA programs such as HAMP, and did so again on June 26, 2014, further
extending MHA programs for another year, through December 31, 2016.
    An extension of HAMP’s timeframe is not enough on its own to bring about
meaningful change, particularly as hundreds of thousands of homeowners who got
into HAMP, fell prematurely out of the program. Treasury must help homeowners
using TARP with the same effort it put toward bailing out banks, the auto
companies, and AIG. Hopefully, Treasury’s HAMP extension reflects a realization
that Treasury has not, in fact, provided sustainable foreclosure relief to enough
homeowners using TARP. With approximately $15.7 billion in TARP funds for
HAMP sitting unspent, Treasury has ample resources to help the tens of thousands
of homeowners still applying each month for a HAMP modified mortgage.
During the month of May 2014 alone, more than 87,000 struggling homeowners
continued to seek help through HAMP.
    Treasury needs meaningful reform to HAMP to dramatically change the current
levels of HAMP assistance reaching homeowners. Treasury should constantly
explore ways to improve HAMP rather than relying on servicers to act differently
than they acted in the past. SIGTARP is committed to working with Treasury to
ensure the efficiency and effectiveness of TARP and to prevent fraud, waste, and
abuse of taxpayers’ dollars funding HAMP. Through SIGTARP’s investigations,
hotline, and otherwise, SIGTARP has learned about the difficulties homeowners
continue to experience while trying to get into HAMP, particularly based on alleged
misconduct by HAMP servicers, and has reported on these difficulties publicly on
several occasions. This quarter, SIGTARP reported on the results of a SIGTARP
308   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             criminal investigation, conducted with its law enforcement partners, and a non-
                                             prosecution agreement with TARP recipient, SunTrust Banks, Inc., the parent of
                                             SunTrust Mortgage, Inc., (collectively, “SunTrust”).
                                                 SIGTARP’s criminal investigation of SunTrust’s administration of its HAMP
                                             program revealed that SunTrust made material misrepresentations and omissions
                                             to homeowners in HAMP solicitations. SunTrust did not have adequate personnel,
                                             infrastructure, or technological resources in place to process the paperwork,
                                             render decisions, and communicate with and about homeowners, as represented
                                             in 2009 and 2010. Because SunTrust’s HAMP program was under-resourced and
                                             under-funded, month after month, a backlog of tens of thousands of homeowners
                                             were left waiting to apply for HAMP, waiting for SunTrust to send a trial period
                                             agreement, or waiting to hear whether they qualified for their much-needed
                                             mortgage relief. For example, SunTrust put piles of unopened homeowners’ HAMP
                                             applications and paperwork on an office floor until the floor buckled under the
                                             sheer weight of the unopened HAMP applications. SunTrust lost documents and
                                             paperwork. SunTrust mass-denied some homeowners for HAMP without reviewing
                                             their HAMP applications. SunTrust lied to Treasury about the reasons for the
                                             denials. Rather than rendering decisions on a permanent modification within the
                                             three- to four-month trial period SunTrust represented, some homeowners were
                                             stuck in limbo in extended trial modifications of two or more years. SunTrust
                                             misreported current homeowners as delinquent to major credit bureaus. In
                                             other instances, SunTrust denied HAMP modifications to eligible homeowners
                                             and instead placed the homeowners in alternative, private modifications that
                                             were less favorable. SunTrust improperly commenced foreclosure proceedings
                                             on homeowners in active HAMP trial periods, and some of those homeowners
                                             saw their homes listed by SunTrust for sale in local newspapers. As a result of
                                             SunTrust’s mismanagement of HAMP, thousands of homeowners who applied for a
                                             HAMP modification with SunTrust suffered serious financial harm. Homeowners
                                             would have been exponentially better off having never applied for HAMP through
                                             the bank in the first place.
                                                 SunTrust’s management of the program harmed the homeowners that HAMP
                                             was designed specifically to assist. Real people lost their homes, and many others
                                             faced financial ruin. SIGTARP and its law enforcement partners continue to root
                                             out fraud related to TARP’s housing programs and will hold those responsible
                                             accountable. These law enforcements efforts will hopefully deter future
                                             misconduct and, where necessary, force institutions to change their culture.
                                                 SIGTARP is concerned that similar misconduct, negligence, or poor, shoddy
                                             performance by servicers that does not rise to the level of violating the law, could
                                             be preventing struggling homeowners eligible for HAMP from obtaining available
                                             relief. SIGTARP spotlights one of those issues this quarter in a special report on
                                             the more than 221,000 homeowners that have applied for HAMP but are still in
                                             limbo, with no decision from their servicer.
                                                 To enact meaningful change in TARP’s housing programs, Treasury should first
                                             start by implementing SIGTARP’s many ignored recommendations. Since 2009,
                                             SIGTARP has made 50 recommendations to Treasury concerning improvements
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   309




to TARP’s housing programs and to prevent fraud, waste, and abuse of taxpayer
dollars used to support struggling homeowners. While Treasury has implemented
some of SIGTARP’s recommendations, 44 of those 50 recommendations (88%)
remain unimplemented. SIGTARP’s recommendations are based on concerns we
uncover in our investigations, audits, public hotline, and other oversight activities.
We cannot always share our findings with Treasury, for example, when we are
conducting a confidential criminal investigation. Any reasons Treasury has given for
not implementing SIGTARP’s recommendations are not good enough.
    SIGTARP has issued a series of recommendations aimed at the process by
which a homeowner gets into HAMP. For example, SIGTARP has previously
recommended:

•	 Treasury should establish benchmarks and goals for acceptable program
   performance for all MHA servicers, including the length of time it takes for trial
   modifications to be converted into permanent modifications, the conversion rate
   for trial modifications into permanent modifications, the length of time it takes
   to resolve escalated homeowner complaints, and the percentage of required
   modification status reports that are missing.

     Implementing this recommendation could have gone a long way to fix the
extended trial periods at SunTrust. Moreover, the concern extends beyond
SunTrust. Treasury’s HAMP data shows that thousands of homeowners across
multiple servicers are in trial periods of six months or more. This is not always the
homeowner’s fault. Benchmarks for acceptable performance brings accountability
if the servicer denies the homeowner permanent assistance after being in a lengthy
trial period. After such a lengthy trial period, the homeowner could owe a balloon
payment of the total amount difference between the mortgage payments and the
trial period payments. That required payment could be so large that it is impossible
to make, leaving the homeowner headed towards foreclosure. For example, the
latest data collected by Treasury from the 137 HAMP servicers with active trial
modifications indicates that the average monthly savings from homeowners in trial
periods lasting six months or longer was $472. If servicers deny that homeowner
permanent HAMP assistance at the end of the six month period, the average
homeowner would have to pay $2,835. Treasury’s data indicates that the payment
could be much higher. In one of several similar examples, a homeowner who is
saving $3,351 per month and has been in a trial modification since December
2011 could be required to pay back almost $100,000 if rejected from HAMP.
Worse yet, some homeowners were current on payments when they entered HAMP
trial modifications, but after being denied permanent modifications, were worse off
than if they had not applied at all.
     SIGTARP’s recommendations are designed to help protect homeowners,
including the following recommendations that have not been implemented by
Treasury, to help additional homeowners get a permanent mortgage modification
from HAMP:
310   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             •	 Treasury should publicly assess the top 10 MHA servicers’ program performance
                                                against acceptable performance benchmarks in the areas of: the length of time
                                                it takes for trial modifications to be converted into permanent modifications, the
                                                conversion rate for trial modifications into permanent modifications, the length
                                                of time it takes to resolve escalated homeowner complaints, and the percentage
                                                of required modification status reports that are missing.
                                             •	 Treasury must ensure that all servicers participating in MHA comply with
                                                program requirements by vigorously enforcing the terms of the servicer
                                                participation agreements, including using all financial remedies such as
                                                withholding, permanently reducing, and clawing back incentives for servicers
                                                who fail to perform at an acceptable level. Treasury should be transparent and
                                                make public all remedial actions taken against any servicer.
                                             •	 Treasury should stop allowing servicers to add a risk premium to Freddie Mac’s
                                                discount rate in HAMP’s net present value test.
                                             •	 Treasury should ensure that servicers use accurate information when evaluating
                                                net present value test results for homeowners applying to HAMP and should
                                                ensure that servicers maintain documentation of all net present value test
                                                inputs. To the extent that a servicer does not follow Treasury’s guidelines on
                                                input accuracy and documentation maintenance, Treasury should permanently
                                                withhold incentives from that servicer.
                                             •	 Treasury should require servicers to improve their communication with
                                                homeowners regarding denial of a HAMP modification so that homeowners can
                                                move forward with other foreclosure alternatives in a timely and fully informed
                                                manner. To the extent that a servicer does not follow Treasury’s guidelines on
                                                these communications, Treasury should permanently withhold incentives from
                                                that servicer.
                                             •	 To ensure that homeowners in HAMP get sustainable relief from foreclosure,
                                                Treasury should research and analyze whether and to what extent the conduct
                                                of HAMP mortgage servicers may contribute to homeowners redefaulting
                                                on HAMP permanent mortgage modifications. To provide transparency and
                                                accountability, Treasury should publish its conclusions and determinations.
                                             •	 Treasury should publicly assess and report quarterly on the status of the ten
                                                largest HAMP servicers in meeting Treasury’s benchmark for an acceptable
                                                homeowner redefault rate on HAMP permanent mortgage modifications,
                                                indicate why any servicer fell short of the benchmark, require the servicer to
                                                make changes to reduce the number of homeowners who redefault in HAMP,
                                                and use enforcement remedies including withholding, permanently reducing, or
                                                clawing back incentive payments for any servicer that fails to comply in a timely
                                                manner.
                                             •	 In order to protect against the possibility that the extension and expansion of
                                                HAMP will lead to an increase in mortgage modification fraud: (a) Treasury
                                                should require that servicers provide the SIGTARP/CFPB/Treasury Joint Task
                                                Force Consumer Fraud Alert to all HAMP-eligible borrowers as part of their
                                                monthly mortgage statement until the expiration of the application period for
                                                HAMP Tier 1 and 2; and (b) Treasury should undertake a sustained public
                                                                                QUARTERLY REPORT TO CONGRESS I JULY 30, 2014   311




   service campaign as soon as possible both to reach additional borrowers who
   could potentially be helped by HAMP Tier 2 and to arm the public with
   complete, accurate information about the program to avoid confusion and delay,
   and to prevent fraud and abuse.
•	 Given the expected increase in the volume of HAMP applications due to the
   implementation of HAMP Tier 2, Treasury should convene a summit of key
   stakeholders to discuss program implementation and servicer ramp-up and
   performance requirements so that the program roll-out is efficient and effective.

   SIGTARP made recommendations designed to curb the growing number of
homeowners who fall out of a HAMP permanent modification prematurely. If the
current trend continues, large percentages of homeowners will continue to fall out
of HAMP permanent mortgage modifications and Treasury will have missed an
opportunity to use TARP to provide sustainable relief to as many homeowners as
possible. For example, SIGTARP recommended:

•	 Treasury should conduct in-depth research and analysis to determine the
   causes of redefaults of HAMP permanent mortgage modifications and the
   characteristics of loans or the homeowner that may be more at risk for redefault.
   Treasury should require servicers to submit any additional information that
   Treasury needs to conduct this research and analysis. Treasury should make the
   results of this analysis public and issue findings based on this analysis, so that
   others can examine, build on, and learn from this research.

   Although Treasury has agreed to implement this important recommendation,
the results of Treasury’s ongoing efforts remain unclear and unknown. Meanwhile,
homeowners continue to redefault from HAMP. Since SIGTARP made that
recommendation in April 2013, more than 85,890 homeowners have redefaulted
out of HAMP.
   For similar reasons, to address the alarming rate of redefaults, SIGTARP made
the following recommendations, which remain unimplemented:

•	 As a result of the findings of Treasury’s research and analysis into the causes
   of HAMP redefaults, and characteristics of redefaults, Treasury should modify
   aspects of HAMP and the other TARP housing programs in ways to reduce the
   number of redefaults.
•	 Treasury should require servicers to develop and use an “early warning system”
   to identify and reach out to homeowners that may be at risk of redefaulting
   on a HAMP mortgage modification, including providing or recommending
   counseling and other assistance and directing them to other TARP housing
   programs.
•	 In the letter Treasury already requires servicers to send to homeowners who
   have redefaulted on a HAMP modification about possible options to foreclosure,
   Treasury should require the servicers to include other available alternative
   assistance options under TARP such as the Hardest Hit Fund and HAMP Tier
312   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                2, so that homeowners can move forward with other alternatives, if appropriate,
                                                in a timely and fully informed manner. To the extent that a servicer does not
                                                follow Treasury’s rules in this area, Treasury should permanently withhold
                                                incentives from that servicer.
                                             •	 Treasury should increase the amount of the annual incentive payment paid to
                                                each homeowner who remains in HAMP. Treasury should require the mortgage
                                                servicer to apply the annual incentive payment earned by the homeowner to
                                                reduce the amount of money that the homeowner must pay to the servicer
                                                for the next month’s mortgage payment (or monthly payments if the incentive
                                                exceeds the monthly mortgage payment), rather than to reduce the outstanding
                                                principal balance of the mortgage.

                                                SIGTARP looks forward to continuing its work with Treasury on implementing
                                             SIGTARP’s recommendations, especially these crucial recommendations
                                             concerning TARP’s housing programs, to ensure homeowners obtain the affordable
                                             and sustainable relief Treasury intended.
SIGTARP RECOMMENDATIONS TABLE
                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
  1    *   Treasury should include language in the automobile industry
           transaction term sheet acknowledging SIGTARP’s oversight
                                                                                 X                                                       
           role and expressly giving SIGTARP access to relevant
           documents and personnel.
  2    *   Treasury should include language in new TARP agreements                                                                             Although Treasury has made
           to facilitate compliance and oversight. Specifically, SIGTARP                                                                       substantial efforts to comply with
           recommends that each program participant should (1)                                                                                 this recommendation in many of
           acknowledge explicitly the jurisdiction and authority of                                                                            its agreements, there have been
           SIGTARP and other oversight bodies, as relevant, to oversee                                                                         exceptions, including in its agreements
           compliance of the conditions contained in the agreement                                                                             with servicers in MHA.
           in question, (2) establish internal controls with respect to                            X                                     
           that condition, (3) report periodically to the Compliance
           department of the Office of Financial Stability (“OFS-
           Compliance”) regarding the implementation of those controls
           and its compliance with the condition, and (4) provide a
           signed certification from an appropriate senior official to
           OFS-Compliance that such report is accurate.
  3    *   All existing TARP agreements, as well as those governing
           new transactions, should be posted on the Treasury website            X                                                       
           as soon as possible.
  4    *   Treasury should require all TARP recipients to report on the                                                                        While Treasury has required CDCI
           actual use of TARP funds.                                                                                                           participants to report on their actual
                                                                                                                                               use of TARP funds, no other TARP
                                                                                                   X                                     
                                                                                                                                               recipients were required to do so.
                                                                                                                                               Treasury made the reporting by CPP
                                                                                                                                               recipients only voluntary.
  5    *   Treasury quickly determines its going-forward valuation
                                                                                 X                                                       
           methodology.
  6    *   Treasury begins to develop an overall investment strategy to
           address its portfolio of stocks and decide whether it intends         X                                                       
           to exercise warrants of common stock.
  7    *   In formulating the structure of TALF, Treasury should                                                                               The Federal Reserve adopted
           consider requiring, before committing TARP funds to the                                                                             mechanisms that address this
           program, that certain minimum underwriting standards and/                                                                           recommendation.
                                                                                 X                                                       
           or other fraud prevention mechanisms be put in place with
           respect to the ABS and/or the assets underlying the ABS
           used for collateral.
  8    *   Agreements with TALF participants should include an
           acknowledgment that: (1) they are subject to the oversight
           of OFS-Compliance and SIGTARP, (2) with respect to any
           condition imposed as part of TALF, that the party on which
                                                                                                                            X            
           the condition is imposed is required to establish internal
           controls with respect to each condition, report periodically
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




           on such compliance, and provide a certification with respect
           to such compliance.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                         313
                                                                                                                                                                                       314
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
  9    *   Treasury should give careful consideration before agreeing                                                                          This recommendation was
           to the expansion of TALF to include MBS without a full review                                                                       implemented with respect to CMBS,
                                                                                 X                                                       
           of risks that may be involved and without considering certain                                                                       and the Federal Reserve did not
           minimum fraud protections.                                                                                                          expand TALF to RMBS.
 10    *   Treasury should oppose any expansion of TALF to legacy                                                                              This recommendation was
           MBS without significant modifications to the program to                                                                             implemented with respect to CMBS,
                                                                                 X                                                       
           ensure a full assessment of risks associated with such an                                                                           and the Federal Reserve did not
           expansion.                                                                                                                          expand TALF to RMBS.
 11        Treasury should formalize its valuation strategy and begin                                                                          Treasury has formalized its valuation
           providing values of the TARP investments to the public.               X                                                             strategy and regularly publishes its
                                                                                                                                               estimates.
 12    *   Treasury and the Federal Reserve should provide to                                                                                  On December 1, 2010, the Federal
           SIGTARP, for public disclosure, the identity of the borrowers                                                                       Reserve publicly disclosed the
           who surrender collateral in TALF.                                                                                                   identities of all TALF borrowers and
                                                                                                                                        X      that there had been no surrender of
                                                                                                                                               collateral. SIGTARP will continue to
                                                                                                                                               monitor disclosures if a collateral
                                                                                                                                               surrender takes place.
 13    *   In TALF, Treasury should dispense with rating agency                                                                                The Federal Reserve announced that
           determinations and require a security-by-security screening                                                                         RMBS were ineligible for TALF loans,
                                                                                                                                                                                       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           for each legacy RMBS. Treasury should refuse to participate                                                                         rendering this recommendation moot.
           if the program is not designed so that RMBS, whether new
           or legacy, will be rejected as collateral if the loans backing                                                               X
           particular RMBS do not meet certain baseline underwriting
           criteria or are in categories that have been proven to be
           riddled with fraud, including certain undocumented subprime
           residential mortgages.
 14    *   In TALF, Treasury should require significantly higher haircuts                                                                      This recommendation was
           for all MBS, with particularly high haircuts for legacy RMBS,                                                                       implemented with respect to CMBS,
                                                                                 X                                                       
           or other equally effective mitigation efforts.                                                                                      and the Federal Reserve did not
                                                                                                                                               expand TALF to RMBS.
 15    *   Treasury should require additional anti-fraud and credit                                                                            The Federal Reserve adopted
           protection provisions, specific to all MBS, before                                                                                  mechanisms that address this
           participating in an expanded TALF, including minimum                  X                                                             recommendation with respect to
           underwriting standards and other fraud prevention                                                                                   CMBS, and did not expand TALF to
           measures.                                                                                                                           RMBS.
 16    *   Treasury should design a robust compliance protocol with
           complete access rights to all TALF transaction participants                                                      X            
           for itself, SIGTARP, and other relevant oversight bodies.
 17    *   Treasury should not allow Legacy Securities PPIFs to invest
           in TALF unless significant mitigating measures are included           X                                                       
           to address these dangers.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 18    *   All TALF modeling and decisions, whether on haircuts or any
           other credit or fraud loss mechanisms, should account for
           potential losses to Government interests broadly, including            X                                                      
           TARP funds, and not just potential losses to the Federal
           Reserve.
 19    *   Treasury should address the confusion and uncertainty on
           executive compensation by immediately issuing the required            X                                                       
           regulations.
 20    *   Treasury should significantly increase the staffing levels of                                                                       According to Treasury, OFS-Compliance
           OFS-Compliance and ensure the timely development and                                                                                has increased its staffing level and has
           implementation of an integrated risk management and                                     X                                           contracted with four private firms to
           compliance program.                                                                                                                 provide additional assistance to OFS-
                                                                                                                                               Compliance.
 21    *   Treasury should require CAP participants to (1) establish an                                                                        Treasury closed the program with
           internal control to monitor their actual use of TARP funds, (2)                                                                     no investments having been made,
           provide periodic reporting on their actual use of TARP funds,                                                                       rendering this recommendation moot.
           (3) certify to OFS-Compliance, under the penalty of criminal
           sanction, that the report is accurate, that the same criteria
                                                                                                                                        X
           of internal controls and regular certified reports should be
           applied to all conditions imposed on CAP participants, and
           (4) acknowledge explicitly the jurisdiction and authority of
           SIGTARP and other oversight bodies, as appropriate, to
           oversee conditions contained in the agreement.
 22    *   Treasury should impose strict conflict-of-interest rules upon                                                                       Treasury has adopted some significant
           PPIF managers across all programs that specifically address                                                                         conflict-of-interest rules related to this
           whether and to what extent the managers can (1) invest                                                                              recommendation, but has failed to
           PPIF funds in legacy assets that they hold or manage on                                 X                                           impose other significant safeguards.
           behalf of themselves or their clients or (2) conduct PPIF
           transactions with entities in which they have invested on
           behalf of themselves or others.
 23    *   Treasury should require that all PPIF fund managers (1)                                                                             Treasury’s agreements with PPIF
           have stringent investor-screening procedures, including                                                                             managers include investor-screening
           comprehensive “Know Your Customer” requirements at least                                                                            procedures such as “Know Your
           as rigorous as that of a commercial bank or retail brokerage                                                                        Customer” requirements. Treasury
           operation to prevent money laundering and the participation                                                                         has agreed that it will have access to
           of actors prone to abusing the system, and (2) be required                              X                                           any information in a fund manager’s
           to provide Treasury with the identities of all the beneficial                                                                       possession relating to beneficial
           owners of the private interests in the fund so that Treasury                                                                        owners. However, Treasury did not
           can do appropriate diligence to ensure that investors in the                                                                        impose an affirmative requirement
           funds are legitimate.                                                                                                               that managers obtain and maintain
                                                                                                                                               beneficial owner information.
 24    *   Treasury should require PPIP managers to provide most
           favored nation clauses to PPIF equity stakeholders, to
                                                                                 X                                                       
                                                                                                                                                                                            QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




           acknowledge that they owe Treasury a fiduciary duty, and to
           adopt a robust ethics policy and compliance apparatus.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                            315
                                                                                                                                                                                          316
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 25        Treasury should require servicers in MHA to submit third-                                                                           Treasury has decided to
           party verified evidence that the applicant is residing in the                                                                       adopt this important SIGTARP
           subject property before funding a mortgage modification.                                            X                               recommendation. SIGTARP will monitor
                                                                                                                                               Treasury’s implementation of the
                                                                                                                                               recommendation.
 26    *   In MHA, Treasury should require a closing-like procedure                                                                            Treasury rejected SIGTARP’s
           be conducted that would include (1) a closing warning                                                                               recommendation for a closing-like
           sheet that would warn the applicant of the consequences                                                                             procedure. However, since this
           of fraud; (2) the notarized signature and thumbprint of each                                                                        recommendation was issued, Treasury
           participant; (3) mandatory collection, copying, and retention                                                                       has taken several actions to prevent
           of copies of identification documents of all participants in                                                                        fraud on the part of either MHA
           the transaction; (4) verbal and written warnings regarding                              X                                           servicers or applicants.
           hidden fees and payments so that applicants are made fully
           aware of them; (5) the benefits to which they are entitled
           under the program (to prevent a corrupt servicer from
           collecting payments from the Government and not passing
           the full amount of the subsidies to the homeowners); and (6)
           the fact that no fee should be charged for the modification.
 27    *   Additional anti-fraud protections should be adopted in MHA                                                                          Treasury has taken steps to
           to verify the identity of the participants in the transaction                                                                       implement policies and conduct
           and to address the potential for servicers to steal from                                                                            compliance reviews to address this
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           individuals receiving Government subsidies without applying                                                                         recommendation. However, it remains
                                                                                                   X                                     
           them for the benefit of the homeowner.                                                                                              unclear if Treasury has an appropriate
                                                                                                                                               method to ensure the irregularities
                                                                                                                                               identified in the compliance reviews are
                                                                                                                                               resolved.
 28    *   In MHA, Treasury should require the servicer to compare                                                                             Treasury has rejected SIGTARP’s
           the income reported on a mortgage modification application                                                                          recommendation and does not require
           with the income reported on the original loan applications.                                                                         income reported on the modification
                                                                                                                            X            
                                                                                                                                               application to be compared to
                                                                                                                                               income reported on the original loan
                                                                                                                                               application.
 29    *   In MHA, Treasury should require that verifiable, third-party
           information be obtained to confirm an applicant’s income              X                                                       
           before any modification payments are made.
 30    *   In MHA, Treasury should defer payment of the $1,000                                                                                 Rather than deferring payment of the
           incentive to the servicer until after the homeowner has                                                                             incentive until after the homeowner
           verifiably made a minimum number of payments under the                                                                              has verifiably made a minimum
           mortgage modification program.                                                                                                      number of payments on its permanent
                                                                                                                            X            
                                                                                                                                               modification, Treasury will pay the
                                                                                                                                               incentive after the servicer represents
                                                                                                                                               that the homeowner has made three
                                                                                                                                               payments during the trial period.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 31    *   In MHA, Treasury should proactively educate homeowners
           about the nature of the program, warn them about
                                                                                 X                                                       
           modification rescue fraudsters, and publicize that no fee is
           necessary to participate in the program.
 32    *   In MHA, Treasury should require its agents to keep track of                                                                         While Treasury’s program
           the names and identifying information for each participant in                                                                       administrator, Fannie Mae, has
           each mortgage modification transaction and to maintain a                                                                            developed a HAMP system of record
           database of such information.                                                                                                       that maintains servicers’ names,
                                                                                                                                               investor group (private, portfolio, GSE),
                                                                                                                                               and participating borrowers’ personally
                                                                                                   X                                     
                                                                                                                                               identifiable information, such as
                                                                                                                                               names and addresses, the database
                                                                                                                                               is not constructed to maintain other
                                                                                                                                               information that may assist in detecting
                                                                                                                                               insiders who are committing large-
                                                                                                                                               scale fraud.
 33    *   Treasury should require the imposition of strict information                                                                        Treasury has refused to adopt this
           barriers or “walls” between the PPIF managers making                                                                                significant anti-fraud measure designed
           investment decisions on behalf of the PPIF and those                                                             X                  to prevent conflicts of interest. This
           employees of the fund management company who manage                                                                                 represents a material deficiency in the
           non-PPIF funds.                                                                                                                     program.
 34    *   Treasury should periodically disclose PPIF trading activity                                                                         Treasury has committed to publish
           and require PPIF managers to disclose to SIGTARP, within                                                                            on a quarterly basis certain high-
           seven days of the close of the quarter, all trading activity,                                                                       level information about aggregated
           holdings, and valuations so that SIGTARP may disclose                                                                               purchases by the PPIFs, but not
           such information, subject to reasonable protections, in its                                                                         within seven days of the close of the
                                                                                                                            X            
           quarterly reports.                                                                                                                  quarter. Treasury has not committed
                                                                                                                                               to providing full transparency to show
                                                                                                                                               where public dollars are invested by
                                                                                                                                               requiring periodic disclosure of every
                                                                                                                                               trade in the PPIFs.
 35        Treasury should define appropriate metrics and an                                                                                   Treasury has stated that it has
           evaluation system should be put in place to monitor the                                                                             developed risk and performance
           effectiveness of the PPIF managers, both to ensure they                                                                             metrics. However, more than four
           are fulfilling the terms of their agreements and to measure                                                                         years into the program, it is still not
                                                                                                   X                                     
           performance.                                                                                                                        clear how Treasury will use these
                                                                                                                                               metrics to evaluate the PPIP managers
                                                                                                                                               and take appropriate action as
                                                                                                                                               recommended by SIGTARP.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014
                                                                                                                                                                                           317
                                                                                                                                                                                           318
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 36    *   The conditions that give Treasury “cause” to remove a                                                                               Treasury has refused to adopt this
           PPIF manager should be expanded to include a manager’s                                                                              recommendation, relying solely
           performance below a certain standard benchmark, or if                                                                               on Treasury’s right to end the
           Treasury concludes that the manager has materially violated                                                                         investment period after 12 months.
                                                                                                                             X           
           compliance or ethical rules.                                                                                                        That timeframe has already expired.
                                                                                                                                               Treasury’s failure to adopt this
                                                                                                                                               recommendation potentially puts
                                                                                                                                               significant Government funds at risk.
 37    *   Treasury should require PPIF managers to disclose to
           Treasury, as part of the Watch List process, not only
                                                                                 X                                                       
           information about holdings in eligible assets but also
           holdings in related assets or exposures to related liabilities.
 38        Treasury should require PPIF managers to obtain and                                                                                 Treasury has agreed that it can have
           maintain information about the beneficial ownership of all of                                                                       access to any information in a fund
           the private equity interests, and Treasury should have the                                                                          manager’s possession relating to
           unilateral ability to prohibit participation of private equity                                                                      beneficial owners. However, Treasury is
           investors.                                                                                                                          not making an affirmative requirement
                                                                                                                                               that managers obtain and maintain
                                                                                                                            X            
                                                                                                                                               beneficial owner information. Treasury
                                                                                                                                               will not adopt the recommendation
                                                                                                                                               to give itself unilateral ability to deny
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               access to or remove an investor,
                                                                                                                                               stating that such a right would deter
                                                                                                                                               participation.
 39    *   Treasury and FRBNY should (1) examine Moody’s assertions                                                                            Treasury and the Federal Reserve have
           that some credit rating agencies are using lower standards                                                                          discussed concerns about potential
           to give a potential TALF security the necessary AAA rating                                                                          overrating or rating shopping with the
           and (2) develop mechanisms to ensure that acceptance of               X                                                             rating agencies, and have agreed to
           collateral in TALF is not unduly influenced by the improper                                                                         continue to develop and enhance risk
           incentives to overrate that exist among the credit agencies.                                                                        management tools and processes,
                                                                                                                                               where appropriate.
 40    *   Treasury should more explicitly document the vote of each
           Investment Committee member for all decisions related to              X                                                       
           the investment of TARP funds.
 41    *   Treasury should improve existing control systems to
           document the occurrence and nature of external phone calls
           and in-person meetings about actual and potential recipients          X                                                       
           of funding under the CPP and other similar TARP-assistance
           programs to which they may be part of the decision making.
 42    *   The Secretary of the Treasury should direct the Special
           Master to work with FRBNY officials in understanding AIG
           compensation programs and retention challenges before
                                                                                 X                                                       
           developing future compensation decisions that may affect
           both institutions’ ability to get repaid by AIG for Federal
           assistance provided.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 43    *   Treasury should establish policies to guide any similar                                                                             Treasury stated that it does not
           future decisions to take a substantial ownership position in                                                                        anticipate taking a substantial
           financial institutions that would require an advance review                                                                  X      percentage ownership position in any
           so that Treasury can be reasonably aware of the obligations                                                                         other financial institution pursuant to
           and challenges facing such institutions.                                                                                            EESA.
 44    *   Treasury should establish policies to guide decision making                                                                         Treasury has agreed to work closely
           in determining whether it is appropriate to defer to another                                                                        with other Federal agencies that are
                                                                                                   X                                     
           agency when making TARP programming decisions where                                                                                 involved in TARP.
           more than one Federal agency is involved.
 45        Treasury should rectify the confusion that its own                                                                                  Despite SIGTARP’s repeated
           statements have caused for HAMP by prominently disclosing                                                                           highlighting of this essential
           its goals and estimates (updated over time, as necessary)                                                                           transparency and effectiveness
                                                                                                                            X            
           of how many homeowners the program will help through                                                                                measure, Treasury has refused to
           permanent modifications and report monthly on its progress                                                                          disclose clear and relevant goals and
           toward meeting that goal.                                                                                                           estimates for the program.
 46        Treasury should develop other performance metrics                                                                                   Although Treasury has increased its
           and publicly report against them to measure over time                                                                               reporting of servicer performance, it
           the implementation and success of HAMP. For example,                                                                                has not identified goals for each metric
           Treasury could set goals and publicly report against those                                                                          and measured performance against
           goals for servicer processing times, modifications as a                                 X                                           those goals. Treasury has not set an
           proportion of a servicer’s loans in default, modifications                                                                          acceptable metric for redefaults.
           as a proportion of foreclosures generally, rates of how
           many borrowers fall out of the program prior to permanent
           modification, and re-default rates.
 47        Treasury should undertake a sustained public service
           campaign as soon as possible, both to reach additional
           borrowers who could benefit from the program and to arm
                                                                                 X                                                       
           the public with complete, accurate information — this will
           help to avoid confusion and delay, and prevent fraud and
           abuse.
 48        Treasury should reconsider its position that allows servicers
           to substitute alternative forms of income verification based                                                     X            
           on subjective determinations by the servicer.
 49        Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs
           it is adequately minimizing the risk of re-default stemming                                                                         to assist underwater mortgages to
           from non-mortgage debt, second liens, partial interest rate                             X                                           address concerns of negative equity
           resets after the five-year modifications end, and from many                                                                         but has not addressed other factors
           borrowers being underwater.                                                                                                         contained in this recommendation.
 50        Treasury should institute careful screening before putting
           additional capital through CDCI into an institution with
           insufficient capital to ensure that the TARP matching funds           X                                                       
           are not flowing into an institution that is on the verge of
           failure.
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          319
                                                                                                                                                                                           320
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 51        Treasury should develop a robust procedure to audit and
           verify the bona fides of any purported capital raise in CDCI
                                                                                 X                                                       
           and to establish adequate controls to verify the source,
           amount and closing of all claimed private investments.
 52        Treasury should revise CDCI terms to clarify that Treasury
           inspection and copy rights continue until the entire CDCI
           investment is terminated. Additionally, consistent with
           recommendations made in connection with other TARP                    X                                                       
           programs, the terms should be revised to provide expressly
           that SIGTARP shall have access to the CDFI’s records equal
           to that of Treasury.
 53        Treasury should consider more frequent surveys of a CDCI
           participant’s use of TARP funds than annually as currently
                                                                                                                            X            
           contemplated. Quarterly surveys would more effectively
           emphasize the purpose of CDCI.
 54        Treasury should ensure that more detail is captured by                                                                              Treasury has indicated that it has
           the Warrant Committee meeting minutes. At a minimum,                                                                                implemented this recommendation.
           the minutes should include the members’ qualitative                                                                                 Although the detail of the minutes
                                                                                 X                                                       
           considerations regarding the reasons bids were accepted or                                                                          has improved, Treasury is still not
           rejected within fair market value ranges.                                                                                           identifying how each member of the
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               committee casts his or her vote.
 55        Treasury should document in detail the substance of                                                                                 Treasury has agreed to document the
           all communications with recipients concerning warrant                                                                               dates, participants, and subject line of
                                                                                                                            X            
           repurchases.                                                                                                                        calls. It has refused to document the
                                                                                                                                               substance of such conversations.
 56    *   Treasury should develop and follow guidelines and internal                                                                          Treasury has adopted procedures
           controls concerning how warrant repurchase negotiations                                                                             designed to address this
           will be pursued, including the degree and nature of                                                                                 recommendation, including a policy to
           information to be shared with repurchasing institutions                                                                             discuss only warrant valuation inputs
           concerning Treasury’s valuation of the warrants.                                                                                    and methodologies prior to receiving
                                                                                                                                               a bid, generally to limit discussion
                                                                                                                                               to valuation ranges after receiving
                                                                                                   X                                     
                                                                                                                                               approval from the Warrant Committee,
                                                                                                                                               and to note the provision of any added
                                                                                                                                               information in the Committee minutes.
                                                                                                                                               However, Treasury believes that its
                                                                                                                                               existing internal controls are sufficient
                                                                                                                                               to ensure adequate consistency in the
                                                                                                                                               negotiation process.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 57    *   Treasury should promptly take steps to verify TARP                                                                                  Although Treasury largely continues
           participants’ conformance to their obligations, not only by                                                                         to rely on self-reporting, stating
           ensuring that they have adequate compliance procedures                                                                              that it only plans to conduct testing
           but also by independently testing participants’ compliance.                                                                         where they have particular concerns
                                                                                                   X                                           as to a TARP recipient’s compliance
                                                                                                                                               procedures or testing results, it has
                                                                                                                                               conducted independent testing of
                                                                                                                                               compliance obligations during some
                                                                                                                                               compliance reviews.
 58    *   Treasury should develop guidelines that apply consistently                                                                          Treasury states that it has developed
           across TARP participants for when a violation is sufficiently                                                                       guidance and provided that guidance
           material to merit reporting, or in the alternative require that                                                                     to the exceptional assistance
           all violations be reported.                                                                                                         participants that were remaining in
                                                                                                                                               TARP as of June 30, 2011. Treasury
                                                                                                   X                                     
                                                                                                                                               has not addressed other factors
                                                                                                                                               contained in this recommendation,
                                                                                                                                               citing its belief that materiality should
                                                                                                                                               be subject to a fact and circumstances
                                                                                                                                               review.
 59        For each HAMP-related program and subprogram, Treasury                                                                              Treasury has provided anticipated
           should publish the anticipated costs and expected                                                                                   costs, but not expected participation.
           participation in each and that, after each program is                                   X                                     
           launched, it report monthly as to the program’s performance
           against these expectations.
 60    *   Treasury should re-evaluate the voluntary nature of its                                                                             Treasury plans to maintain the
           principal reduction program and, irrespective of whether it                                                                         voluntary nature of the program,
           is discretionary or mandatory, consider changes to better                                                                           providing an explanation that on its
                                                                                                                                        X
           maximize its effectiveness, ensure to the greatest extent                                                                           face seems unpersuasive to SIGTARP.
           possible the consistent treatment of similarly situated                                                                             SIGTARP will continue to monitor
           borrowers, and address potential conflict of interest issues.                                                                       performance.
 61        Treasury should adopt a uniform appraisal process across
           all HAMP and HAMP-related short-sale and principal                                                               X            
           reduction programs consistent with FHA’s procedures.
 62    *   Treasury should reconsider the length of the minimum term                                                                           For more than a year, Treasury
           of HAMP’s unemployment forbearance program.                                                                                         refused to adopt this recommendation,
                                                                                                                                               even though average U.S. terms of
                                                                                                                                               unemployment were lengthening.
                                                                                                                                               However, in July 2011, the
                                                                                 X                                                       
                                                                                                                                               Administration announced a policy
                                                                                                                                               change, and Treasury has extended the
                                                                                                                                               minimum term of the unemployment
                                                                                                                                               program from three months to 12
                                                                                                                                               months, effective October 1, 2011.
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           321
                                                                                                                                                                                         322
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 63        Treasury should launch a broad-based information
           campaign, including public service announcements in target
           markets that focus on warnings about potential fraud, and              X                                                      
           include conspicuous fraud warnings whenever it makes
           broad public announcements about the HAMP program.
 64        When Treasury considers whether to accept an existing CPP
           participant into SBLF, because conditions for many of the
           relevant institutions have changed dramatically since they
           were approved for CPP, Treasury and the bank regulators               X                                                       
           should conduct a new analysis of whether the applying
           institution is sufficiently healthy and viable to warrant
           participation in SBLF.
 65        When Treasury conducts the new analysis of an institution’s                                                                         Treasury refused to adopt this
           health and viability, the existing CPP preferred shares should                                                                      recommendation, citing its belief
           not be counted as part of the institution’s capital base.                                                                           that current CPP participants may be
                                                                                                                                               unfairly disadvantaged in their SBLF
                                                                                                                                               applications if their existing CPP
                                                                                                                            X            
                                                                                                                                               investments are not counted as part
                                                                                                                                               of their capital base, and that SBLF
                                                                                                                                               “already provides substantial hurdles
                                                                                                                                               that CPP recipients must overcome”
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               that don’t apply to other applicants.
 66        Treasury should take steps to prevent institutions that are                                                                         Treasury refused to adopt this
           refinancing into the SBLF from CPP from securing windfall                                                                           recommendation, suggesting that
           dividend reductions without any relevant increase in lending.                                                                       its adoption would subvert the will
                                                                                                                                               of Congress and that SIGTARP’s
                                                                                                                            X            
                                                                                                                                               recommendation “may not be helpful”
                                                                                                                                               because “it is unclear that using this
                                                                                                                                               statutorily mandated baseline will lead
                                                                                                                                               to anomalies.”
 67    *   Treasury, as part of its due diligence concerning any
           proposed restructuring, recapitalization, or sale of its CPP
           investment to a third party, should provide to SIGTARP the            X                                                       
           identity of the CPP institution and the details of the proposed
           transaction.
 68    *   When a CPP participant refinances into SBLF and seeks
           additional taxpayer funds, Treasury should provide to
                                                                                 X                                                       
           SIGTARP the identity of the institution and details of the
           proposed additional SBLF investment.
 69    *   OFS should adopt the legal fee bill submission standards                                                                            Treasury told SIGTARP that OFS has
           contained in the FDIC’s Outside Counsel Deskbook, or                                                                                created new guidance using the FDIC’s
           establish similarly detailed requirements for how law                                                                               Outside Counsel Deskbook and other
                                                                                 X                                                       
           firms should prepare legal fee bills and describe specific                                                                          resources.
           work performed in the bills, and which costs and fees are
           allowable and unallowable.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 70    *   OFS should include in its open legal service contracts                                                                              Treasury told SIGTARP that OFS has
           detailed requirements for law firms on the preparation and                                                                          distributed its new guidance to all
           submission of legal fee bills, or separately provide the                                                                            law firms currently under contract to
           instructions to law firms and modify its open contracts,                                                                            OFS. Treasury further stated that OFS
                                                                                                               X                         
           making application of the instructions mandatory.                                                                                   will work with Treasury’s Procurement
                                                                                                                                               Services Division to begin modifying
                                                                                                                                               base contracts for OFS legal services
                                                                                                                                               to include those standards as well.
 71    *   OFS should adopt the legal fee bill review standards                                                                                Treasury told SIGTARP that OFS has
           and procedures contained in the FDIC’s Outside Counsel                                                                              held training on its newly adopted
           Deskbook, or establish similarly specific instructions and                                                                          guidance prescribing how legal fee bills
           guidance for OFS COTRs to use when reviewing legal fee                                                                              should be prepared with OFS COTRs
           bills, and incorporate those instructions and guidance into                                                                         and other staff involved in the review
           OFS written policies.                                                                                                               of legal fee bills, and that the OFS
                                                                                 X                                                             COTRs will begin reviewing invoices in
                                                                                                                                               accordance with its new guidance for
                                                                                                                                               periods starting with March 2011. OFS
                                                                                                                                               also stated that it incorporated relevant
                                                                                                                                               portions of its training on the new legal
                                                                                                                                               fee bill review standards into written
                                                                                                                                               procedures.
 72    *   OFS should review previously paid legal fee bills to                                                                                Although Treasury previously agreed
           identify unreasonable or unallowable charges, and seek                                                                              to implement this recommendation,
           reimbursement for those charges, as appropriate.                                                                                    Treasury only reviewed the legal fee
                                                                                                                                               bills for one of the five law firms that
                                                                                                                            X                  SIGTARP had already described as
                                                                                                                                               unreasonable. Treasury refuses to
                                                                                                                                               seek any reimbursement for those
                                                                                                                                               charges. See also Recommendation
                                                                                                                                               81 concerning this issue.
 73    *   Treasury should establish detailed guidance and internal                                                                            Treasury made important changes to
           controls governing how the MHA Servicer Compliance                                                                                  its servicer assessments by including
           Assessment will be conducted and how each compliance                                                                                metrics for the ratings, including
           area will be weighted.                                                                                                              several quantitative metrics. However,
                                                                                                                                               qualitative metrics to assess the
                                                                                                   X                                     
                                                                                                                                               servicer’s internal controls in the
                                                                                                                                               three ratings categories remain, and
                                                                                                                                               guidelines or criteria for rating the
                                                                                                                                               effectiveness of internal controls are
                                                                                                                                               still necessary.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014
                                                                                                                                                                                           323
                                                                                                                                                                                          324
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                     Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 74    *   Treasury should ensure that more detail is captured by                                                                              Minutes of recent MHA Compliance
           the MHA Compliance Committee meeting minutes. At a                                                                                  Committee meetings contain brief
           minimum, the minutes should include MHA-C’s proposed                                                                                explanations of servicer assessment
           rating for each servicer, the committee members’ qualitative                                                                        rating decisions. However, these
           and quantitative considerations regarding each servicer’s                                                                           minutes do not explain the Committee’s
           ratings, the votes of each committee member, the final                                  X                                           deliberations in detail, do not indicate
           rating for each servicer, justification for any difference in                                                                       how members voted beyond a tally of
           that rating with MHA-C’s proposed rating, and any follow-                                                                           the votes, and do not discuss follow-up
           up including escalation to Treasury’s Office of General                                                                             actions or escalation.
           Counsel or the Assistant Secretary and the outcomes of that
           escalation.
 75    *   Treasury should require that MHA servicer communications                                                                            Treasury has refused to adopt
           with homeowners relating to changes in the status or                                                                                this recommendation, saying it
           terms of a homeowner’s modification application, trial or                                                                           already requires a loan servicer to
           permanent modification, HAFA agreement, or any other                                                                                communicate in writing with a borrower
           significant change affecting the homeowner’s participation in                                                                       an average of 10 times. However,
           the MHA program, be in writing.                                                                                  X                  most written requirements apply to
                                                                                                                                               a HAMP application and Treasury’s
                                                                                                                                               response fails to address homeowners
                                                                                                                                               who receive miscommunication from
                                                                                                                                               servicers on important milestones or
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               changes.
 76    *   Treasury should establish benchmarks and goals for                                                                                  Treasury told SIGTARP that it already
           acceptable program performance for all MHA servicers,                                                                               established benchmarks in this area,
           including the length of time it takes for trial modifications to                                                                    including that trial periods should last
           be converted into permanent modifications, the conversion                                                                           three to four months, and escalated
           rate for trial modifications into permanent modifications,                                                                          cases should be resolved in 30
           the length of time it takes to resolve escalated homeowner                                                                          days. If these are the benchmarks
                                                                                                                            X            
           complaints, and the percentage of required modification                                                                             for acceptable performance, many
           status reports that are missing.                                                                                                    servicers have missed the mark.
                                                                                                                                               Also, Treasury has yet to establish
                                                                                                                                               a benchmark for conversion rates
                                                                                                                                               from trial modifications to permanent
                                                                                                                                               modifications.
 77    *   Treasury should publicly assess the top 10 MHA servicers’                                                                           Treasury has rejected this
           program performance against acceptable performance                                                                                  recommendation, saying only
           benchmarks in the areas of: the length of time it takes                                                                             that it would “continue to develop
           for trial modifications to be converted into permanent                                                                              and improve the process where
           modifications, the conversion rate for trial modifications                                                       X                  appropriate.”
           into permanent modifications, the length of time it takes
           to resolve escalated homeowner complaints, and the
           percentage of required modification status reports that are
           missing.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
 78    *   Treasury must ensure that all servicers participating in MHA                                                                        Treasury has rejected this important
           comply with program requirements by vigorously enforcing                                                                            recommendation, stating that it
           the terms of the servicer participation agreements, including                                                                       believes that the remedies enacted
           using all financial remedies such as withholding, permanently                                                                       have been appropriate and that
                                                                                                                             X           
           reducing, and clawing back incentives for servicers who                                                                             appropriate transparency exists.
           fail to perform at an acceptable level. Treasury should be
           transparent and make public all remedial actions taken
           against any servicer.
 79        Treasury should specifically determine the allowability of                                                                          Treasury neither agreed nor disagreed
           $7,980,215 in questioned, unsupported legal fees and                                                                                with the recommendation.
           expenses paid to the following law firms: Simpson Thacher
           & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                             X            
           Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
           ($146,867); and Bingham McCutchen LLP (novated from
           McKee Nelson LLP, $57,939).
 80        The Treasury contracting officer should disallow and seek                                                                           Treasury neither agreed nor disagreed
           recovery from Simpson Thacher & Bartlett LLP for $91,482                                                                            with the recommendation.
           in questioned, ineligible fees and expenses paid that were
           not allowed under the OFS contract. Specifically, those are
                                                                                                                            X            
           $68,936 for labor hours billed at rates in excess of the
           allowable maximums set in contract TOFS-09-0001, task
           order 1, and $22,546 in other direct costs not allowed
           under contract TOFS-09-007, task order 1.
 81        Treasury should promptly review all previously paid legal fee                                                                       Treasury only reviewed the legal fee
           bills from all law firms with which it has a closed or open                                                                         bills for one of the five law firms that
           contract to identify unreasonable or unallowable charges                                                         X                  SIGTARP had already described as
           and seek reimbursement for those charges, as appropriate.                                                                           unreasonable. Treasury refuses to seek
                                                                                                                                               any reimbursements for those charges.
 82        Treasury should require in any future solicitation for legal                                                                        Treasury neither agreed nor disagreed
           services multiple rate categories within the various partner,                                                                       with the recommendation.
           counsel, and associate labor categories. The additional                                                          X            
           labor rate categories should be based on the number of
           years the attorneys have practiced law.
 83        Treasury should pre-approve specified labor categories and                                                                          Treasury neither agreed nor disagreed
           rates of all contracted legal staff before they are allowed to                                                   X                  with the recommendation.
           work on and charge time to OFS projects.
 84    *   Treasury, in consultation with Federal banking regulators,                                                                          Treasury responded that it continues
           should develop a clear TARP exit path to ensure that                                                                                its efforts to wind down CPP through
           as many community banks as possible repay the TARP                                                                                  repayments, restructuring, and sales.
           investment and prepare to deal with the banks that cannot.                                                                          Treasury has not addressed the criteria
                                                                                                               X                         
           Treasury should develop criteria pertaining to restructurings,                                                                      for these divestment strategies or
           exchanges, and sales of its TARP investments (including any                                                                         consulted with regulators.
           discount of the TARP investment, the treatment of unpaid
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




           TARP dividend and interest payments, and warrants).
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          325
                                                                                                                                                                                          326
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 85    *   Treasury should assess whether it should renegotiate the                                                                            Treasury rejected this recommendation
           terms of its Capital Purchase Program contracts for those                                                                           without ever addressing why.
           community banks that will not be able to exit TARP prior                                                          X           
           to the dividend rate increase in order to help preserve the
           value of taxpayers’ investments.
 86        Treasury should protect borrower personally identifiable                                                                            Treasury has said it will adopt this
           information (“PII”) and other sensitive borrower information                                                                        recommendation in part. Treasury did
           compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                         not agree to review each HFA’s policies
           that within 90 days, all Housing Finance Agencies (and                                                                              and procedures to determine if they
           their contractors) (“HFAs”) participating in HHF develop                                                                            are effective. Also, Treasury did not
           and implement effective policies and procedures to ensure                                                                           require notification within 24 hours or
           protection against unauthorized access, use, and disposition                                                                        notification to SIGTARP. SIGTARP will
           of PII and other sensitive borrower information; (2) Treasury                                                                       monitor Treasury’s efforts to implement
           reviewing each HFA’s policies and procedures to determine                                                                           the recommendation.
           if they are effective, and taking such action as is required to                                     X                         
           ensure effectiveness; (3) requiring that all parties granted
           access to borrower information should be made aware
           of restrictions on copying and disclosing this information;
           (4) requiring annual certification by HFAs to Treasury that
           they are in compliance with all applicable laws, policies
           and procedures pertaining to borrower information; and (5)
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           requiring that HFAs promptly notify Treasury and SIGTARP
           within 24 hours, when a breach of security has occurred
           involving borrower information.
 87    *   To ensure that the Office of the Special Master consistently                                                                        While Treasury’s documentation of
           grants exceptions to the $500,000 cash salary cap, the                                                                              granting these cash salaries has
           Office of the Special Master should substantiate each                                                                               improved in that it includes some
           exception requested and whether the requests demonstrate                                                                            additional information beyond
           or fail to demonstrate “good cause.”                                                                                                the company’s assertions, that
                                                                                                                                               information is primarily market
                                                                                                                                               data that the company provides.
                                                                                                                                               The recommendation was not to
                                                                                                                            X                  document better, but instead to
                                                                                                                                               “substantiate” which requires some
                                                                                                                                               criteria for granting exceptions as
                                                                                                                                               well as independent analysis beyond
                                                                                                                                               the company’s assertions. Treasury’s
                                                                                                                                               policies and procedures do not contain
                                                                                                                                               any criteria for approving cash salaries
                                                                                                                                               exceeding $500,000 or any discussion
                                                                                                                                               of any analysis by Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 88    *   The Office of the Special Master should better document                                                                             In 2012, Treasury began to preserve
           its use of market data in its calculations. At a minimum, the                                                                       the independent market data on which
           Office of the Special Master should prospectively document                                                                          it relied to evaluate the market data
           which companies and employees are used as comparisons                                                                               submitted by the companies.
                                                                                  X                                                      
           in its analysis of the 50th percentile of the market, and
           it should also maintain records and data so that the
           relationship between its determinations and benchmarks are
           clearly understood.
 89    *   The Office of the Special Master should develop more                                                                                Although Treasury created written
           robust policies, procedures, or guidelines to help ensure                                                                           policies and procedures in June 2013,
           that its pay determination process and its decisions are                                                                            OSM’s policy only contains Treasury’s
           evenhanded. These measures will improve transparency                                                                                rule and language from the statute,
           and help the Office of the Special Master consistently apply                                                                        all of which was existing prior to
           the Interim Final Rule principles of “appropriate allocation,”                                                                      OSM’s creation. Therefore, OSM has
           “performance-based compensation,” and “comparable                                                                                   not created its own formal policies.
           structures and payments.”                                                                                                           OSM’s written procedures are merely
                                                                                                                                               a documentation of some of OSM’s
                                                                                                                            X                  existing practices and guidelines, but
                                                                                                                                               not others as contained in the pay
                                                                                                                                               determination letters, and were not a
                                                                                                                                               new development of robust policies,
                                                                                                                                               procedures or guidelines. They do not
                                                                                                                                               establish meaningful criteria Treasury
                                                                                                                                               can follow for approving cash salaries
                                                                                                                                               exceeding $500,000, pay exceeding
                                                                                                                                               market medians, pay raises, or the use
                                                                                                                                               of long term restricted stock.
 90        In order to allow for effective compliance and enforcement                                                                          Treasury responded to this
           in HAMP Tier 2, Treasury should require that the borrower                                                                           recommendation by requiring that
           prove that the property has been rented and is occupied                                                                             borrowers certify that they intend to
           by a tenant at the time the borrower applies for a loan                                                                             rent the property for at least five years
           modification, as opposed to requiring only a certification                                                                          and that they will make reasonable
           that the borrower intends to rent the property. As part of                                                                          efforts to rent. This does not go
           the Request for Mortgage Assistance (“RMA”) application                                                                             far enough. Requiring only a self-
           for HAMP Tier 2, the borrower should provide the servicer                                                                           certification, under penalty of perjury,
           with a signed lease and third-party verified evidence of                                                                            without a strong compliance and
                                                                                                                            X            
           occupancy in the form of documents showing that a renter                                                                            enforcement regime to ensure that the
           lives at the property address, such as a utility bill, driver’s                                                                     intent is carried out and the property
           license, or proof of renter’s insurance. In the case of                                                                             is actually rented, leaves the program
           multiple-unit properties under one mortgage Treasury should                                                                         vulnerable to risks that TARP funds
           require that the borrower provide the servicer with evidence                                                                        will pay investors for modifications for
           that at least one unit is occupied by a tenant as part of the                                                                       mortgages on vacation homes that are
           RMA.                                                                                                                                not rented, and may delay, as opposed
                                                                                                                                               to prevent, foreclosures and increase
                                                                                                                                               HAMP redefault rates.
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           327
                                                                                                                                                                                          328
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
 91        To continue to allow for effective compliance and                                                                                   Treasury rejected this
           enforcement in HAMP Tier 2 after the trial modification has                                                                         recommendation, stating that eligibility
           started, Treasury should require that, prior to conversion                                                                          is not retested prior to conversion.
           of a trial modification to a permanent modification, the                                                                            This does not go far enough. Requiring
           borrower certify under penalty of perjury that none of the                                                                          only a self-certification, without a
           occupancy circumstances stated in the RMA have changed.                                                                             strong compliance and enforcement
                                                                                                                                               regime to ensure that the intent
                                                                                                                             X                 is carried out and the property is
                                                                                                                                               actually rented, leaves the program
                                                                                                                                               vulnerable to risks that TARP funds
                                                                                                                                               will pay investors for modifications for
                                                                                                                                               mortgages on vacation homes that are
                                                                                                                                               not rented, and may delay, as opposed
                                                                                                                                               to prevent, foreclosures and increase
                                                                                                                                               HAMP redefault rates.
 92        To prevent a property that has received a HAMP Tier 2                                                                               Treasury told SIGTARP that
           modification from remaining vacant for an extended period                                                                           implementing this recommendation
           of time after a lease expires or a tenant vacates,                                                                                  would create significant additional
           (a) Treasury should require that borrowers immediately notify                                                                       procedures and documentation
           their servicer if the property has remained vacant for more                                                                         requirements. With no compliance
           than three months.                                                                                                                  regime to determine that a renter is in
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           (b) Treasury should require servicers to provide monthly                                                                            place, the program remains vulnerable
           reports to Treasury of any properties that have remained                                                         X                  to TARP funds being paid to modify
           vacant for more than three months.                                                                                                  mortgages that do not fit within the
           (c) Treasury should bar payment of TARP-funded incentives                                                                           intended expansion of the program.
           to any participant for a loan modification on a property that
           has been reported vacant for more than three months, until
           such time as the property has been re-occupied by a tenant
           and the borrower has provided third-party verification of
           occupancy.
 93        In order to protect against the possibility that the extension                                                                      Treasury has not implemented this
           and expansion of HAMP will lead to an increase in mortgage                                                                          recommendation. It is important
           modification fraud,                                                                                                                 that Treasury educate as many
           (a) Treasury should require that servicers provide the                                                                              homeowners as possible with accurate
           SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                               information about HAMP in an effort to
           Alert to all HAMP-eligible borrowers as part of their monthly                                                                       prevent mortgage modification fraud.
           mortgage statement until the expiration of the application
                                                                                                                            X            
           period for HAMP Tier 1 and 2.
           (b) Treasury should undertake a sustained public service
           campaign as soon as possible both to reach additional
           borrowers who could potentially be helped by HAMP Tier 2
           and to arm the public with complete, accurate information
           about the program to avoid confusion and delay, and to
           prevent fraud and abuse.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 94        Given the expected increase in the volume of HAMP                                                                                   Treasury has not implemented this
           applications due to the implementation of HAMP Tier 2,                                                                              recommendation. Treasury has not
           Treasury should convene a summit of key stakeholders to                                                                             held a summit of all key stakeholders
                                                                                                                             X           
           discuss program implementation and servicer ramp-up and                                                                             to make the program roll-out efficient
           performance requirements so that the program roll-out is                                                                            and effective.
           efficient and effective.
 95        To ensure servicer compliance with HAMP Tier 2 guidelines                                                                           Treasury said that it will include metrics
           and assess servicer performance,                                                                                                    in the future. SIGTARP will continue to
           (a) Treasury should include additional criteria in its servicer                                                                     monitor Treasury’s implementation of
           compliance assessments that measure compliance with the                                                                             this recommendation.
           program guidelines and requirements of HAMP Tier 2.
                                                                                                                X                        
           (b) Treasury should develop and publish separate metrics
           related to HAMP Tier 2 in the compliance results and
           program results sections of the quarterly Making Home
           Affordable (“MHA”) servicer assessments of the Top 10 MHA
           servicers.
 96        To allow for assessment of the progress and success                                                                                 Treasury has rejected this
           of HAMP Tier 2, Treasury should set meaningful and                                                                                  recommendation. Treasury’s refusal
           measurable goals, including at a minimum the number of                                                                              to provide meaningful and measurable
           borrowers Treasury estimates will be helped by HAMP Tier                                                         X                  goals leaves it vulnerable to
           2. Treasury should unambiguously and prominently disclose                                                                           accusations that it is trying to avoid
           its goals and report monthly on its progress in meeting                                                                             accountability.
           these goals.
 97        Treasury should set meaningful and measurable                                                                                       Treasury has not implemented this
           performance goals for the Hardest Hit Fund program                                                                                  recommendation. It is important that
           including, at a minimum, the number of homeowners                                                                                   Treasury sets meaningful goals and
           Treasury estimates will be helped by the program, and                                                            X                  metrics to identify program successes
           measure the program’s progress against those goals.                                                                                 and set-backs, in order to change the
                                                                                                                                               program as necessary, and to provide
                                                                                                                                               transparency and accountability.
 98        Treasury should instruct state housing finance agencies                                                                             Treasury issued letters to five housing
           in the Hardest Hit Fund to set meaningful and measurable                                                                            finance agencies requiring those
           overarching and interim performance goals with appropriate                                                                          states to provide an action plan with
           metrics to measure progress for their individual state                                                                              measurable interim and overall goals,
           programs.                                                                                                                           including benchmarks, to improve the
                                                                                                                                               level of homeowner assistance under
                                                                                                   X                                     
                                                                                                                                               the HHF program. Treasury should
                                                                                                                                               fully adopt SIGTARP’s recommendation
                                                                                                                                               with the remaining 14 housing finance
                                                                                                                                               agencies in the HHF program. SIGTARP
                                                                                                                                               will continue to monitor implementation
                                                                                                                                               of this recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                            QUARTERLY REPORT TO CONGRESS I JULY 30, 2014
                                                                                                                                                                                            329
                                                                                                                                                                                            330
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 99        Treasury should set milestones at which the state housing                                                                           Treasury issued letters to five housing
           finance agencies in the Hardest Hit Fund must review the                                                                            finance agencies requiring those
           progress of individual state programs and make program                                                                              states to provide an action plan with
           adjustments from this review.                                                                                                       measurable interim and overall goals,
                                                                                                                                               including benchmarks, to improve the
                                                                                                                                               level of homeowner assistance under
                                                                                                   X                                     
                                                                                                                                               the HHF program. Treasury should
                                                                                                                                               fully adopt SIGTARP’s recommendation
                                                                                                                                               with the remaining 14 housing finance
                                                                                                                                               agencies in the HHF program. SIGTARP
                                                                                                                                               will continue to monitor implementation
                                                                                                                                               of this recommendation.
100        Treasury should publish on its website and in the Housing                                                                           Treasury has only partially implemented
           Scorecard on a quarterly basis the total number of                                                                                  this recommendation. Treasury
           homeowners assisted, funds drawn down by states, and                                                                                recently started publishing some
           dollars expended for assistance to homeowners, assistance                                                                           aggregated data on its website.
           committed to homeowners, and cash on hand, aggregated                                   X                                           However, Treasury does not publish all
           by all state Hardest Hit Fund programs.                                                                                             of the data SIGTARP recommended nor
                                                                                                                                               does Treasury publish any data at all
                                                                                                                                               concerning the Hardest Hit Fund in the
                                                                                                                                               Housing Scorecard.
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




101        Treasury should develop an action plan for the Hardest                                                                              Treasury has rejected this
           Hit Fund that includes steps to increase the numbers of                                                                             recommendation. It is important that
           homeowners assisted and to gain industry support for                                                                                Treasury change the status quo and
           Treasury-approved HHF programs. Treasury should set                                                                                 fulfill its role as steward over TARP
           interim metrics for how many homeowners it intends to                                                                               programs, make determinations of
           assist in a Treasury-defined time period in each particular                                                                         which programs are successful and
           program (such as principal reduction, second lien reduction,                                                                        which programs are not working, and
                                                                                                                            X            
           or reinstatement). If Treasury cannot achieve the desired                                                                           ensure that HHF funds are reaching
           level of homeowners assisted in any one program area in                                                                             homeowners. This may include
           the defined time period, Treasury should put the funds to                                                                           putting the funds toward programs
           better use toward programs that are reaching homeowners.                                                                            that are more successful at reaching
                                                                                                                                               homeowners. It is unacceptable to
                                                                                                                                               delegate all of this responsibility to the
                                                                                                                                               states.
102        Treasury should stop allowing servicers to add a risk                                                                               Treasury has not implemented this
           premium to Freddie Mac’s discount rate in HAMP’s net                                                                                recommendation. The addition of a
           present value test.                                                                                                                 risk premium reduces the number
                                                                                                                                               of otherwise qualified homeowners
                                                                                                                            X            
                                                                                                                                               Treasury helps through HAMP. Treasury
                                                                                                                                               should implement this recommendation
                                                                                                                                               to increase assistance to struggling
                                                                                                                                               homeowners.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
103        Treasury should ensure that servicers use accurate                                                                                  Treasury has not implemented this
           information when evaluating net present value test results                                                                          recommendation. Servicer errors using
           for homeowners applying to HAMP and should ensure that                                                                              NPV inputs and the lack of properly
           servicers maintain documentation of all net present value                                                                           maintained records on NPV inputs have
                                                                                                                             X           
           test inputs. To the extent that a servicer does not follow                                                                          diminished compliance and placed the
           Treasury’s guidelines on input accuracy and documentation                                                                           protection of homeowner’s rights to
           maintenance, Treasury should permanently withhold                                                                                   challenge servicer error at risk.
           incentives from that servicer.
104        Treasury should require servicers to improve their                                                                                  Treasury has not implemented
           communication with homeowners regarding denial of a                                                                                 this recommendation. Servicers’
           HAMP modification so that homeowners can move forward                                                                               failure to communicate denial in
           with other foreclosure alternatives in a timely and fully                                                                           a timely manner can have serious
                                                                                                                            X            
           informed manner. To the extent that a servicer does not                                                                             consequences because a delay may
           follow Treasury’s guidelines on these communications,                                                                               prevent homeowners from finding other
           Treasury should permanently withhold incentives from that                                                                           foreclosure alternatives sooner.
           servicer.
105        Treasury should ensure that more detail is captured by the                                                                          Treasury has not implemented this
           Making Home Affordable Compliance Committee meeting                                                                                 recommendation. SIGTARP found a
           minutes regarding the substance of discussions related to                                                                           lack of detail in Treasury’s meeting
           compliance efforts on servicers in HAMP. Treasury should                                                                            minutes and because Treasury failed
                                                                                                                            X            
           make sure that minutes clearly outline the specific problems                                                                        to document its oversight, SIGTARP
           encountered by servicers, remedial options discussed, and                                                                           was unable to verify Treasury’s role
           any requisite actions taken to remedy the situation.                                                                                in the oversight of servicers or its
                                                                                                                                               compliance agent Freddie Mac.
106        In order to protect taxpayers who funded TARP against any                                                                           Neither Treasury nor the Federal
           future threat that might result from LIBOR manipulation,                                                                            Reserve has agreed to implement this
           Treasury and the Federal Reserve should immediately                                                                                 recommendation despite Treasury
           change any ongoing TARP programs including, without                                                                                 telling SIGTARP that it “share[s
           limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                              SIGTARP’s] concerns about the
                                                                                                                            X                  integrity” of LIBOR, and the Federal
                                                                                                                                               Reserve telling SIGTARP that it agreed
                                                                                                                                               that “recent information regarding the
                                                                                                                                               way the LIBOR has been calculated has
                                                                                                                                               created some uncertainty about the
                                                                                                                                               reliability of the rate.”
107        In order to protect taxpayers who invested TARP funds                                                                               On July 8, 2013, the Financial Stability
           into AIG to the fullest extent possible, Treasury and the                                                                           Oversight Council unanimously voted
           Federal Reserve should recommend to the Financial Stability                                                                         to designate AIG as systemically
                                                                                 X                                                       
           Oversight Council that AIG be designated as a systemically                                                                          important.
           important financial institution so that it receives the
           strongest level of Federal regulation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 30, 2014
                                                                                                                                                                                          331
                                                                                                                                                                                          332
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
108        In order to fulfill Treasury’s responsibility to wind down its                                                                      Treasury has not agreed to implement
           TARP Capital Purchase Program investments in a way that                                                                             this important recommendation.
           protects taxpayer interests, before allowing a TARP bank
           to purchase Treasury’s TARP shares at a discount to the
           TARP investment (for example as the successful bidder
           at auction), Treasury should undertake an analysis, in                                                            X           
           consultation with Federal banking regulators, to determine
           that allowing the bank to redeem its TARP shares at a
           discount to the TARP investment outweighs the risk that the
           bank will not repay the full TARP investment. Treasury should
           document that analysis and consultation.
109        In order to fulfill Treasury’s responsibility to wind down its                                                                      Treasury has not agreed to implement
           TARP investments in a way that promotes financial stability                                                                         this important recommendation.
           and preserves the strength of our nation’s community
           banks, Treasury should undertake an analysis in consultation
           with Federal banking regulators that ensures that it is exiting
           its Capital Purchase Program investments in a way that
           satisfies the goals of CPP, which are to promote financial
           stability, maintain confidence in the financial system and                                                       X            
           enable lending. This financial stability analysis of a bank’s
           exit from TARP should determine at a minimum: (1) that the
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           bank will remain healthy and viable in the event of an auction
           of Treasury’s preferred shares; and (2) that the bank’s exit
           from TARP does not have a negative impact on the banking
           industry at a community, state, regional, and national level.
           Treasury should document that analysis and consultation.
110        Treasury should better document its decision whether or not                                                                         Treasury has not agreed to implement
           to auction its preferred shares in a TARP bank to adequately                                                                        this important recommendation, but
           reflect the considerations made for each bank and detailed                                                                          is reviewing its practices in light of
                                                                                                                            X            
           rationale.                                                                                                                          SIGTARP’s recommendations. SIGTARP
                                                                                                                                               will monitor Treasury’s efforts to
                                                                                                                                               implement this recommendation.
111    *   Each year, Treasury should reevaluate total compensation                                                                            Treasury’s new procedures state that
           for those employees at TARP exceptional assistance                                                                                  OSM may reduce pay, however OSM
           companies remaining in the Top 25 from the prior year,                                                           X                  did not address any guidelines or
           including determining whether to reduce total compensation.                                                                         criteria that it would consider in doing
                                                                                                                                               so.
112    *   To ensure that Treasury effectively applies guidelines aimed                                                                        Treasury has not established clear
           at curbing excessive pay and reducing risk taking, Treasury                                                                         policies, procedures, and criteria for
           should develop policies, procedures, and criteria for                                                                               approving pay in excess of Treasury’s
                                                                                                                            X            
           approving pay in excess of Treasury guidelines.                                                                                     guidelines such as the 50th percentile,
                                                                                                                                               cash salaries greater than $500,000,
                                                                                                                                               or use of long term restricted stock.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
113    *   Treasury should independently analyze whether good cause                                                                            Treasury has not established criteria
           exists to award a Top 25 employee a pay raise or a cash                                                                             for awarding an employee a pay
           salary over $500,000. To ensure that the Office of the                                                                              raise or a cash salary exceeding
           Special Master has sufficient time to conduct this analysis,                                                                        $500,000. Such criteria is important
           Treasury should allow OSM to work on setting Top 25 pay                                                                             to independently analyzing the basis
           prior to OSM’s receiving the company pay proposals, which                                                                           for awarding pay raises or cash
           starts the 60-day timeline.                                                                                       X                 salaries greater than $500,000 and
                                                                                                                                               ensuring consistency in decision-
                                                                                                                                               making. Treasury’s documentation
                                                                                                                                               of its justification does not evidence
                                                                                                                                               independent analysis, but instead sets
                                                                                                                                               forth the company’s assertions and
                                                                                                                                               market data supplied by the company.
114    *   To be consistent with Treasury’s Interim Final Rule that the                                                                        In 2013, Treasury allowed some
           portion of performance-based compensation compared                                                                                  GM employees not to have long-
           to total compensation should be greater for positions that                                                                          term restricted stock and effectively
           exercise higher levels of responsibility, Treasury should                                                                           approved only 5% of all of Ally
           return to using long-term restricted stock for employees,                                                                           employees pay in long-term restricted
                                                                                                                             X           
           particularly senior employees such as CEOs.                                                                                         stock and failed to consider positions
                                                                                                                                               and levels of authority on an individual
                                                                                                                                               basis, as called for by Treasury’s rule.
                                                                                                                                               In 2014, Treasury eliminated long-term
                                                                                                                                               restricted stock for Ally employees.
115        Treasury should conduct in-depth research and analysis to                                                                           Treasury has agreed to implement this
           determine the causes of redefaults of HAMP permanent                                                                                important recommendation. Treasury
           mortgage modifications and the characteristics of loans                                                                             told SIGTARP that it is in the process
           or the homeowner that may be more at risk for redefault.                                                                            of conducting the recommended
           Treasury should require servicers to submit any additional                                                                          research. SIGTARP will monitor
                                                                                                               X                         
           information that Treasury needs to conduct this research                                                                            Treasury’s efforts to implement the
           and analysis. Treasury should make the results of this                                                                              recommendation.
           analysis public and issue findings based on this analysis,
           so that others can examine, build on, and learn from this
           research.
116        As a result of the findings of Treasury’s research and                                                                              Treasury has agreed to consider this
           analysis into the causes of HAMP redefaults, and                                                                                    important recommendation, based on
           characteristics of redefaults, Treasury should modify                                                                        X      the results of research it is conducting.
           aspects of HAMP and the other TARP housing programs in                                                                              SIGTARP will monitor Treasury’s efforts
           ways to reduce the number of redefaults.                                                                                            to implement the recommendation.
117        Treasury should require servicers to develop and use                                                                                Treasury has agreed to implement
           an “early warning system” to identify and reach out to                                                                              this important recommendation and
           homeowners that may be at risk of redefaulting on a                                                                                 is considering taking further action.
                                                                                                                            X            
           HAMP mortgage modification, including providing or                                                                                  SIGTARP will monitor Treasury’s efforts
           recommending counseling and other assistance and                                                                                    to implement the recommendation.
           directing them to other TARP housing programs.
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           333
                                                                                                                                                                                         334
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                     Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
118        In the letter Treasury already requires servicers to send to                                                                        Treasury has agreed to implement
           homeowners who have redefaulted on a HAMP modification                                                                              this important recommendation and
           about possible options to foreclosure, Treasury should                                                                              is considering taking further action.
           require the servicers to include other available alternative                                                                        SIGTARP will monitor Treasury’s efforts
           assistance options under TARP such as the Hardest Hit                                                                               to implement the recommendation.
                                                                                                                             X           
           Fund and HAMP Tier 2, so that homeowners can move
           forward with other alternatives, if appropriate, in a timely
           and fully informed manner. To the extent that a servicer
           does not follow Treasury’s rules in this area, Treasury should
           permanently withhold incentives from that servicer.
119        Treasury and the Federal banking regulators should                                                                                  Treasury has not agreed to implement
           improve coordination when collaborating on current and                                                                              this important recommendation.
           future initiatives by (1) defining the roles of all participants
           at the outset of collaborative efforts by creating precise
           and directed governing documents (i.e., charters) that
           clearly address the responsibilities of each entity; and (2)                                                     X            
           jointly documenting processes and procedures, including
           flowcharts, risk management tools, and reporting systems
           to ensure that objectives are met. Each participant should
           sign off to demonstrate their understanding of, and
           agreement with, these procedures.
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




120        To increase small-business lending by former TARP banks
           participating in SBLF, Treasury should work with the banks                                                                          Treasury has not agreed to implement
                                                                                                                            X
           to establish new, achievable plans to increase lending going                                                                        this important recommendation.
           forward.
121        To preserve the amount of capital former TARP banks                                                                                 Treasury has not agreed to implement
           participating in SBLF have to lend, the primary Federal                                                                             this important recommendation.
           banking regulators (the Federal Reserve, FDIC, or OCC)
                                                                                                                            X            
           should not approve dividend distributions to common
           shareholders of former TARP banks that have not effectively
           increased small-business lending while in SBLF.
122        In order to prevent confusion, promote transparency, and                                                                            Treasury has not agreed to implement
           present taxpayers who funded TARP with clear and accurate                                                                           this important recommendation.
           reporting, when Treasury discusses the amount of TARP
           funds (or CPP funds) recovered or repaid, Treasury should                                                        X            
           not count the $2.1 billion in TARP investments that Treasury
           refinanced into the Small Business Lending Fund, which is
           outside of TARP.
123        To ensure that homeowners in HAMP get sustainable relief                                                                            Treasury has not agreed to implement
           from foreclosure, Treasury should research and analyze                                                                              this important recommendation.
           whether and to what extent the conduct of HAMP mortgage
           servicers may contribute to homeowners redefaulting on                                                           X            
           HAMP permanent mortgage modifications. To provide
           transparency and accountability, Treasury should publish its
           conclusions and determinations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
124        Treasury should establish an achievable benchmark for a                                                                             Treasury has made progress toward
           redefault rate on HAMP permanent mortgage modifications                                                                             implementing this recommendation.
           that represents acceptable program performance and                                                                                  In Treasury’s quarterly “MHA Servicer
           publicly report against that benchmark.                                                                                             Assessment,” published in its October
                                                                                                                                               2013 “Making Home Affordable
                                                                                                                                               Performance Report,” Treasury
                                                                                                                                               included a new servicer performance
                                                                                                               X                         
                                                                                                                                               metric, assessing whether seven HAMP
                                                                                                                                               servicers complied with Treasury’s
                                                                                                                                               guidelines concerning homeowners’
                                                                                                                                               HAMP modifications that servicers
                                                                                                                                               disqualified. SIGTARP looks forward
                                                                                                                                               to working with Treasury to fully
                                                                                                                                               implement this recommendation.
125        Treasury should publicly assess and report quarterly on                                                                             Treasury has not agreed to implement
           the status of the ten largest HAMP servicers in meeting                                                                             this important recommendation.
           Treasury’s benchmark for an acceptable homeowner
           redefault rate on HAMP permanent mortgage modifications,
           indicate why any servicer fell short of the benchmark,
                                                                                                                            X            
           require the servicer to make changes to reduce the
           number of homeowners who redefault in HAMP, and use
           enforcement remedies including withholding, permanently
           reducing, or clawing back incentive payments for any
           servicer that fails to comply in a timely manner.
126        To protect the investment taxpayers made through TARP in                                                                            Treasury has made some progress
           community banks and to ensure that these banks continue                                                                             implementing this important
           to lend in their communities which is a goal of TARP’s Capital                                                                      recommendation.
                                                                                                                X                        
           Purchase Program, Treasury should enforce its right to
           appoint directors for CPP institutions that have failed to pay
           six or more quarterly TARP dividend or interest payments.
127        In enforcing its right to appoint directors to the board                                                                            Treasury has not agreed to implement
           of CPP institutions that have failed to pay six or more                                                                             this important recommendation.
           quarterly dividend or interest payments, Treasury should
           prioritize appointing directors to the board of those CPP
           institutions that meet one or more of the following criteria:
           (1) rejected Treasury’s request to send officials to observe
           board meetings; (2) have failed to pay a large number of
           TARP dividend payments or that owe the largest amount
                                                                                                                            X            
           of delinquent TARP dividends; or (3) is currently subject to
           an order from their Federal banking regulator, particularly
           orders related to the health or condition of the bank or
           its board of directors. In addition, Treasury should use
           information learned from Treasury officials that have
           observed the bank’s board meetings to assist in prioritizing
                                                                                                                                                                                       QUARTERLY REPORT TO CONGRESS I JULY 30, 2014




           its determination of banks to which Treasury should appoint
           directors.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                        Continued on next page
                                                                                                                                                                                       335
                                                                                                                                                                                      336
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                              Partially                    Not
           Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
128        To protect the investment taxpayers made in TARP and to                                                                            Treasury has not agreed to implement
           ensure that institutions continue to lend in low and moderate                                                                      this important recommendation.
           income communities which is the goal of TARP’s Community
           Development Capital Initiative, Treasury should enforce its                                                      X           
           right to appoint directors to CDCI institutions that have failed
           to pay eight or more TARP quarterly dividend (or interest)
           payments.
129        Treasury should increase the amount of the annual incentive                                                                        Treasury has not agreed to implement
           payment paid to each homeowner who remains in HAMP.                                                                                this important recommendation.
           Treasury should require the mortgage servicer to apply
           the annual incentive payment earned by the homeowner
           to reduce the amount of money that the homeowner must                                                            X
           pay to the servicer for the next month’s mortgage payment
           (or monthly payments if the incentive exceeds the monthly
           mortgage payment), rather than to reduce the outstanding
           principal balance of the mortgage.
130        To educate homeowners and help them avoid becoming                                                                                 Treasury has agreed to implement this
           victims to mortgage modification fraud, Treasury should                                                                            important recommendation.
           prominently display all of the information containing in
           the Consumer Fraud Alert: “Tips For Avoiding Mortgage
                                                                                                                                                                                      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           Modification Scams” created jointly by SIGTARP, Treasury,
           and the Consumer Financial Protection Bureau on the home                X
           page of websites related to HAMP, including Treasury’s TARP
           website and the “Making Home Affordable” website along
           with simple and direct information on SIGTARP’s mission and
           how to contact SIGTARP’s hotline if they suspect mortgage
           modification fraud.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
               ENDNOTES
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               337


1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 7/7/2014.
4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
6.	    Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009, §202; Dodd-Frank Wall Street Reform and Consumer Protection Act,
       P.L. 111-203, 7/21/2010, §1302.
7.	    Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       07.01.2014.pdf, accessed 7/3/2014.
8.	    Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Monthly%20
       Report%20to%20Congress.pdf, accessed 7/10/2014.
9.	    Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/3/2014.
10.	   Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       07.01.2014.pdf, accessed 7/3/2014.
11.	   Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       07.01.2014.pdf, accessed 7/3/2014.
12.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
       Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
13.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
       Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
14.	   Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Monthly%20
       Report%20to%20Congress.pdf, accessed 7/10/2014; Treasury, response to SIGTARP data call, 7/8/2014.
15.	   Treasury, response to SIGTARP data call, 7/8/2014.
16.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
       Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
17.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
       Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
18.	   Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Monthly%20
       Report%20to%20Congress.pdf, accessed 7/10/2014.
19.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 7/7/2014; OMB, “Analytical
       Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed 7/7/2014.
20.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2015/assets/topics.pdf, accessed 7/7/2014.
21.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2014/assets/econ_analyses.pdf, accessed 7/7/2014.
22.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2015/assets/topics.pdf, accessed 7/7/2014.
23.	   CBO, “Report on the Troubled Asset Relief Program—April 2014,” www.cbo.gov/sites/default/files/cbofiles/attachments/45260-TARP.
       pdf, accessed 7/7/2014; CBO, “Report on the Troubled Asset Relief Program—May 2013,” www.cbo.gov/sites/default/files/cbofiles/
       attachments/44256_TARP.pdf, accessed 7/7/2014.
24.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 7/7/2014.
25.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 7/7/2014.
26.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 7/7/2014.
27.	   Treasury, response to SIGTARP data call, 7/8/2014.
28.	   Treasury, response to SIGTARP data call, 7/8/2014.
29.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg48.aspx, accessed 7/7/2014.
30.	   Treasury, “Office of Financial Stability, Agency Financial Report —Troubled Asset Relief Program, Fiscal Year 2013,” 12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 7/7/2014.
31.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 7/7/2014;
       Treasury, “Principal Reduction Alternative (PRA),” no date, www.makinghomeaffordable.gov/programs/lower-payments/Pages/pra.aspx, accessed
       7/7/2014; Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.hmpadmin.com/portal/news/docs/2009/
       hpdprelease073109.pdf, accessed 7/7/2014.
32.	   Treasury, response to SIGTARP data call, 7/8/2014.
33.	   Treasury, response to SIGTARP data call, 7/8/2014.
34.	   Treasury, response to SIGTARP data call, 7/9/2014.
35.	   Treasury, response to SIGTARP data call, 7/8/2014.
36.	   Treasury, responses to SIGTARP data calls, 7/23/2014 and 7/24/2014.
37.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
       president-obama-announces-help-hardest-hit-housing-markets, accessed 7/7/2014.
38.	   Treasury, response to SIGTARP data call, 7/8/2014.
338            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      39.	   Treasury, response to SIGTARP data call, 7/8/2014.
      40.	   Treasury, response to SIGTARP data call, 7/8/2014.
      41.	   Treasury, response to SIGTARP data call, 7/8/2014.
      42.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
             AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
             Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/7/2014.
      43.	   Treasury, response to SIGTARP data call, 7/24/2014.
      44.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      45.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/7/2014.
      46.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
             programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/7/2014.
      47.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      48.	   Treasury, response to SIGTARP data call, 7/8/2014.
      49.	   Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      50.	   Treasury, response to SIGTARP data call, 7/11/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      51.	   Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      52.	   Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Monthly%20
             Report%20to%20Congress.pdf, accessed 7/10/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      53.	   Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Monthly%20
             Report%20to%20Congress.pdf, accessed 7/10/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to
             SIGTARP data call, 7/9/2014.
      54.	   Treasury, response to SIGTARP data call, 7/8/2014.
      55.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/9/2014.
      56.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      57.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
             investment-programs/cdci/Pages/Overview.aspx, accessed 7/7/2014.
      58.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      59.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      60.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      61.	   Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
             Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      62.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
             7/7/2014.
      63.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
             9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/7/2014.
      64.	   Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
             07.01.2014.pdf, accessed 7/3/2014.
      65.	   Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
             07.01.2014.pdf, accessed 7/3/2014.
      66.	   Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
             Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 7/7/2014.
      67.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 7/7/2014.
      68.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      69.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      70.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
             Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      71.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 7/7/2014.
      72.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-
             center/press-releases/Pages/hp1358.aspx, accessed 7/7/2014.
      73.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
             Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
             pdf, accessed 7/7/2014.
                                                                                               QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                339


74.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/7/2014.
75.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/7/2014.
76.	    Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
        Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 7/7/2014.
77.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of
        Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-center/press-releases/Pages/jjl2258.aspx, accessed 7/7/2014.
78.	    Treasury response to SIGTARP data call, 7/8/2014; Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/3/2014, Treasury, “Office of Financial Stability – Troubled Asset
        Relief Program Agency Financial Report Fiscal Year 2013,” 12/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
        AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 7/7/2014.
79.	    Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, Daily TARP
        Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed
        7/3/2014.
80.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
81.	    Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
        Dividends%20Interest%20Report.pdf, accessed 7/10/2014; Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-
        stability/reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/3/2014.
82.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
83.	    Treasury, response to SIGTARP data call, 7/8/2014.
84.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
85.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
86.	    Treasury, Blog Posting, “Taxpayers Are One Step Closer to Exiting Ally,” www.treasury.gov/connect/blog/Pages/Taxpayers-are-One-Step-Closer-
        to-Exiting-Ally.aspx, accessed 7/7/2014; Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to
        Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-
        Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 7/7/2014.
87.	    Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        1.2.2014.pdf, accessed 7/7/2014.
88.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-
        stability/reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/3/2014.
89.	    Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/10/2014, www.treasury.gov/press-center/press-
        releases/Pages/jl2351.aspx, accessed 7/7/2014.
90.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
91.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
        tg1253.aspx, accessed 7/7/2014.
92.	    Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Monthly%20
        Report%20to%20Congress.pdf, accessed 7/10/2014.
93.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
94.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
95.	    Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
96.	    Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/7/2014.
97.	    FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/7/2014.
98.	    FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
        7/7/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
        TALF_recent_operations.html, accessed 7/7/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/
        markets/cmbs_operations.html, accessed 7/7/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date,
        www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 7/7/2014; FRBNY, response to SIGTARP data call, 7/3/2014.
99.	    FRBNY, response to SIGTARP data call, 7/3/2014.
100.	   Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
        Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
        7/7/2014.
101.	   FRBNY, response to SIGTARP data call, 7/3/2014.
102.	   Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
        gov/press-center/press-releases/Pages/tg65.aspx, accessed 7/7/2014.
103.	   Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
        Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
340             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      104.	 Treasury, response to SIGTARP data call, 7/11/2014.
      105.	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
            tg58.aspx, accessed 7/7/2014.
      106.	 Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
            www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 7/7/2014.
      107.	 Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
            President-on-the-mortgage-crisis/, accessed 7/1/2014.
      108.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
            releases/Pages/tg33.aspx, accessed 7/1/2014.
      109.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      110.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      111.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      112.	 Treasury Press Release: “Secretary Lew Unveils New Efforts to Assist Struggling and Prospective Homeowners, Provide More Affordable
            Options for Renters”, 6/26/2014, www.treasury.gov/press-center/press-releases/Pages/jl2444.aspx, accessed 6/27/2014.
      113.	 Treasury, response to SIGTARP data call, 6/25/2013.
      114.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
            doc11227/03-17-tarp.pdf, accessed 7/1/2014.
      115.	 Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            07.01.2014.pdf, accessed 7/10/2014; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 7/10/2014.
      116.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 7/1/2014.
      117.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2014.
      118.	 Treasury, response to SIGTARP data call, 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.
      119.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      120.	 Treasury, response to SIGTARP data call, 7/24/2014.
      121.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
            5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 7/1/2014.
      122.	 Treasury, response to SIGTARP data call, 7/8/2014.
      123.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      124.	 Treasury, response to SIGTARP data call, 7/24/2014.
      125.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      126.	 Treasury, response to SIGTARP data call, 7/24/2014.
      127.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
            alternatives.jsp, accessed 7/1/2014.
      128.	 Treasury, response to SIGTARP data call, 7/24/2014.
      129.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      130.	 Treasury, response to SIGTARP data call, 7/8/2014.
      131.	 Treasury, response to SIGTARP data call, 7/24/2014.
      132.	 Treasury, response to SIGTARP data call, 7/24/2014.
      133.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014; Department of Veterans Affairs, “Revised VA Making Home
            Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed 7/1/2014.
      134.	 VA, response to SIGTARP data call, 7/7/2014; Treasury, response to SIGTARP data call, 7/24/2014.
      135.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2014.
      136.	 Treasury, response to SIGTARP data call, 7/8/2014.
      137.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2014.
      138.	 Treasury, responses to SIGTARP data call, 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date, www.treasury.gov/
            initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed 7/1/2014; Alabama
            Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.
            aspx, accessed 7/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance
            reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 7/1/2014; CalHFA Mortgage Assistance Corporation, “Keep
            Your Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 7/1/2014;
            Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.
            org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 7/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
            Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 7/1/2014; Illinois Housing
            Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 7/1/2014;
            Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
            www.877gethope.org/reports/, accessed 7/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
            Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
            7/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               341


        gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 7/1/2014; Mississippi Home Corporation, “Financial Disclosures,
        Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 7/1/2014;
        Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
        nv.gov/, accessed 7/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
        Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 7/1/2014; North Carolina Housing Finance Agency, “Hardest
        Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
        7/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
        accessed 7/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
        www.oregonhomeownerhelp.org/en/reporting, accessed 7/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
        Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
        fa7b_10737418238_10737418240_btnlink, accessed 7/1/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
        Reports.aspx, accessed 7/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
        org/news-and-reports/, accessed 7/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
        Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
        Default.aspx, accessed 7/1/2014; SIGTARP analysis of HFA quarterly performance reports.
139.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
        AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
        Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/1/2014.
140.	   Treasury, response to SIGTARP data call, 7/24/2014.
141.	   Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        07.01.2014.pdf, accessed 7/10/2014; Treasury, response to SIGTARP data call, 7/8/2014.
142.	   Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        07.01.2014.pdf, accessed 7/10/2014; Treasury, response to SIGTARP data call, 7/8/2014.
143.	   Treasury, response to SIGTARP data call, 7/8/2024; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/
        financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 7/10/2014.
144.	   Treasury, responses to SIGTARP data calls, 4/9/2014 and, 7/8/2014.
145.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate
        Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q12014%20Report.pdf, accessed 7/1/2014.
146.	   Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        07.01.2014.pdf, accessed 7/10/2014; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
        Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 7/1/2014; Treasury, briefing to SIGTARP and other Federal agency staff,
        3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-
        stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/Citi%20Amendment%201%20to%20Facility%20Purchase%20
        Agreement.pdf, accessed 7/1/2014.
147.	   Treasury, response to SIGTARP data call, 7/8/2014.
148.	   Treasury, response to SIGTARP data call, 7/8/2014.
149.	   SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
        pdf, accessed 7/1/2014; Treasury, response to SIGTARP data call, 7/8/2014.
150.	   Treasury, responses to SIGTARP data calls, 7/8/2014 and 7/24/2014.
151.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 7/10/2014; Treasury, response to SIGTARP data call, 7/8/2014.
152.	   Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/
        financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 7/10/2014.
153.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate
        Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q12014%20Report.pdf, accessed 7/1/2014.
154.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
        AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
        Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/1/2014.
155.	   Treasury, responses to SIGTARP data calls, 7/8/2014 and 7/24/2014.
156.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
157.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
158.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
159.	   Treasury, response to SIGTARP data call, 7/24/2014.
160.	   SIGTARP, “Quarterly Report to Congress,” 4/30/2014; www.sigtarp.gov/Quarterly%20Reports/April_30_2014_Report_to_Congress.pdf, accessed
        7/1/2014; Treasury, response to SIGTARP data call, 7/24/2014.
161.	   SIGTARP, “Quarterly Report to Congress,” 4/30/2014; www.sigtarp.gov/Quarterly%20Reports/April_30_2014_Report_to_Congress.pdf, accessed
        7/1/2014; Treasury, response to SIGTARP data call, 7/24/2014.
162.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 7/15/2014;
        SIGTARP analysis of Treasury HAMP data.
163.	   SIGTARP analysis of Treasury HAMP data.
164.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 7/15/2014.
342            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      165.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 7/15/2014.
      166.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 7/15/2014.
      167.	 Freddie Mac, “Primary Mortgage Market Survey Archives,” www.freddiemac.com/pmms/pmms_archives.html, accessed 7/8/2014; SIGTARP
            analysis of Treasury HAMP data.
      168.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 7/15/2014.
      169.	 SIGTARP analysis of Treasury HAMP data.
      170.	 SIGTARP analysis of Treasury HAMP data.
      171.	 SIGTARP analysis of Treasury HAMP data.
      172.	 SIGTARP analysis of Treasury HAMP data.
      173.	 SIGTARP analysis of Treasury HAMP data.
      174.	 SIGTARP analysis of Treasury HAMP data.
      175.	 SIGTARP analysis of Treasury HAMP data.
      176.	 SIGTARP analysis of Treasury HAMP data.
      177.	 SIGTARP analysis of Treasury HAMP data.
      178.	 SIGTARP analysis of Treasury HAMP data.
      179.	 Treasury, response to SIGTARP data call, 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014; OCC, “Mortgage Metrics Report,
            First Quarter 2014,” 3/27/2014, www.occ.gov/publications/publications-by-type/other-publications-reports/index-mortgage-metrics.html,
            accessed 7/10/2014; In its “Mortgage Metrics Report, First Quarter 2014,” OCC compared a snapshot of HAMP permanent modifications and
            private modifications, from the first quarter of 2012 through the fourth quarter of 2013, between three and 15 months after the modifications
            became effective, and 60 or more days late on payments.
      180.	 Treasury, responses to SIGTARP data calls, 7/9/2014 and 7/24/2014.
      181.	 SIGTARP analysis of Treasury HAMP data.
      182.	 Treasury, responses to SIGTARP data calls, 4/19/2013, 5/23/2013, 7/19/2013, 10/21/2013,10/23/2013, 1/24/2014, 4/25/2014 and 7/24/2014;
            Fannie Mae, responses to SIGTARP data calls, 4/19/2013, 5/2212013, 10/21/2013, 10/23/2013 and, 4/24/2014 and 7/24/2014.
      183.	 Treasury, “HAMP Redefault Tables 1-16-March 2014,” accessed 7/24/2014.
      184.	 Treasury, response to SIGTARP data call, 7/18/2014.
      185.	 Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, 5/23/2013, 10/21/2013,10/23/2013,1/24/
            2014, 4/25/2014 and 7/24/2014; Fannie Mae, responses to SIGTARP data calls, 4/19/2013, 5/22/2013, 10/21/2013,1/23/2014, 4/24/2014 and
            7/24/2014; SIGTARP, “Quarterly Report to Congress,” 4/30/2014; www.sigtarp.gov/Quarterly%20Reports/April_30_2014_Report_to_Congress.
            pdf, accessed 7/1/2014.
      186.	 Treasury, response to SIGTARP data call, 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.
      187.	 Treasury, response to SIGTARP data call, 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.
      188.	 Treasury, responses to SIGTARP data calls, 7/9/2014 and 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.
      189.	 Treasury, responses to SIGTARP data calls, 7/8/2014 and 7/23/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.
      190.	 Treasury, response to SIGTARP data call, 7/9/2014.
      191.	 Treasury, response to SIGTARP data call, 7/9/2014.
      192.	 Treasury, response to SIGTARP data call, 7/9/2014.
      193.	 Treasury, response to SIGTARP data call, 7/9/2014.
      194.	 Treasury, response to SIGTARP data call, 7/24/2014.
      195.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      196.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      197.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      198.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      199.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      200.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      201.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      202.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      203.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      204.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
      205.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 7/1/2014.
      206.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
                                                                                           QUARTERLY REPORT TO CONGRESS I JULY 30, 2014              343


207.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
208.	 Treasury, response to SIGTARP data call, 7/24/2014; Fannie Mae, response to SIGTARP data call, 7/24/2014.
209.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
210.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 7/1/2014.
211.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 7/1/2014.
212.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
213.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
214.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
215.	 Treasury, “Supplemental Directive 13-08, Making Home Affordable Program – Borrower Post-Modification Counseling and Servicer Incentives,”
      9/30/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1308.pdf, accessed 7/1/2014.
216.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
217.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
218.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
219.	 Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 7/1/2014.
220.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 7/15/2014.
221.	 Analysis of SIGTARP Hotline Complaints.
222.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
223.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
224.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
225.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 7/1/2014.
226.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
227.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/1/2014.
228.	 Treasury, response to SIGTARP data call, 7/24/2014.
229.	 Treasury, response to SIGTARP data call, 7/18/2014.
230.	 Treasury, response to SIGTARP data call, 7/18/2014.
231.	 Treasury, response to SIGTARP data call, 11/2/2012.
232.	 Treasury, responses to SIGTARP data calls, 7/23/2014 and 7/24/2014.
233.	 Treasury, response to SIGTARP data call, 7/24/2014.
234.	 Treasury, response to SIGTARP data call, 7/24/2014.
235.	 Treasury, response to SIGTARP data call, 7/24/2014.
236.	 Treasury, response to SIGTARP data call, 7/24/2014.
237.	 Treasury, response to SIGTARP data call, 7/24/2014.
238.	 Treasury, response to SIGTARP data call, 7/24/2014.
239.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
240.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
241.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
242.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
243.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
244.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
245.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
246.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
344            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      247.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
      248.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014.
      249.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/2/2014.
      250.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/2/2014.
      251.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.
            hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 7/2/2014; NeighborWorks, “Making Home
            Affordable Outreach and Intake Project Funding Announcement, Revised,” 3/7/2013, www.nw.org/network/foreclosure/documents/
            MHAOutreachandIntakeProjectFundingAnnouncementRevised3713.pdf, accessed 7/2/2014; NeighborWorks, “Making Home Affordable
            Outreach and Intake Project Eligible Applicant Briefing for NeighborWorks Organizations,” 3/6/2013.
      252.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/2/2014.
      253.	 Treasury, response to SIGTARP data call, 7/8/2014.
      254.	 Treasury, response to SIGTARP data call, 7/8/2014.
      255.	 Treasury, response to SIGTARP data call, 7/8/2014.
      256.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
            markets, accessed 7/2/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/
            about-mha/latest-news/Pages/pr_02192010.aspx, accessed 7/2/2014.
      257.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
            markets, accessed 7/2/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/
            about-mha/latest-news/Pages/pr_02192010.aspx, accessed 7/2/2014.
      258.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013 and 7/8/2014; The White House, “Help for the Hardest Hit Housing
            Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-markets, accessed 7/2/2014; www.treasury.gov/initiatives/
            financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; Treasury, “White House: Help for the
            Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed
            7/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-
            Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
            makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 7/2/2014; Treasury, “HFA Hardest-Hit Fund Frequently
            Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).
            pdf, accessed 7/2/2014; Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010,
            www.treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 7/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
            3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014;
            Treasury, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 7/2/2014; Treasury, “Hardest Hit
            Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
            Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 7/2/2014; Treasury, “Obama Administration Approves State Plans for
            Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/press-releases/Pages/
            tg757.aspx, accessed 7/2/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest Hit Fund’ Foreclosure
            Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 7/2/2014; Treasury, Transactions
            Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%20
            9-29-10.pdf, accessed 7/2/2014; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_
            Overview_11.03.10.pdf, accessed 7/2/2014.
      259.	 Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20
            FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 7/2/2014; Treasury, “Administration Announces Second Round of Assistance
            for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 7/2/2014; Treasury,
            “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
            Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 7/2/2014; Treasury, Transactions Report,
            9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%209-29-10.pdf,
            accessed 7/2/2014.
      260.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 7/2/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
            gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 7/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
            3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014;
            Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 7/2/2014; Treasury, “Obama Administration
            Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/
            press-releases/Pages/tg757.aspx, accessed 7/2/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest
            Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 7/2/2014;
            Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_Overview_11.03.10.pdf, accessed
            7/2/2014.
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               345


261.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      hhf/Pages/Archival-information.aspx, accessed 7/2/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
      gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 7/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
      3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014;
      Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 7/2/2014; Treasury, “Obama Administration
      Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/
      press-releases/Pages/tg757.aspx, accessed 7/2/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest
      Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 7/2/2014;
      Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_Overview_11.03.10.pdf,
      accessed 7/2/2014; Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements, Amendments, and Initial Program
      Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed
      7/2/2014; SIGTARP analysis of HFA participation agreements and amendments.
262.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 7/2/2014.
263.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 7/2/2014.
264.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg618.aspx, accessed 7/2/2014.
265.	 National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
      foreclosure-initiative, accessed 7/2/2014.
266.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      7/2/2014.
267.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
      With Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      7/2/2014.
268.	 Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 7/2/2014.
269.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
      reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 7/2/2014.
270.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “Hardest Hit Fund, Archived Program
      Information, Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/
      TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; SIGTARP analysis of HFA participation agreements and
      amendments.
271.	 Treasury, “Hardest Hit Fund: Program Purpose and Overview,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      hhf/Pages/default.aspx, accessed 7/2/2014.
272.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014, 4/9/2014, and 7/8/2014.
273.	 Treasury, Monthly Report to Congress, June 2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Monthly%20Report%20to%20Congress.pdf, accessed 7/18/2014.
274.	 Treasury, Monthly Report to Congress, May 2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/May%20Monthly%20
      Report%20to%20Congress.pdf, accessed 7/18/2014.
275.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
276.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014 and, 4/9/2014 and 7/8/2014.
277.	 Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate
      Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
      Q12014%20Report.pdf, accessed 7/1/2014.
278.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
279.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1
      2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.
      pdf, accessed 7/2/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.
      com/resources/treasury_reporting.aspx, accessed 7/2/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund
      Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 7/2/2014; CalHFA
      Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.
      org/quarterly-reports/, accessed 7/2/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly
      Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 7/2/2014; GHFA Affordable
      Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.
      asp, accessed 7/2/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.
      org/spv-7.aspx, accessed 7/2/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports
      to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 7/2/2014; Kentucky Housing Corporation, “American Recovery and
      Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.
      org/page.aspx?id=3165, accessed 7/2/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury
346             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 7/2/2014; Mississippi Home
              Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/
              disclosures.htm, accessed 7/2/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,”
              no date, nevadahardesthitfund.nv.gov/, accessed 7/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper
              Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 7/2/2014; North Carolina Housing
              Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_
              funds.aspx, accessed 7/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/
              quarterlyreports.aspx, accessed 7/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization
              Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 7/2/2014; Rhode Island Housing and Mortgage Finance
              Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=1
              0737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 7/2/2014; SC Housing Corp, “SC HELP, Reports,” no
              date, www.schelp.gov/Resources/Reports.aspx, accessed 7/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home,
              Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 7/2/2014; District of Columbia Housing Finance Agency, “HomeSaver
              – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/
              QuarterlyReports/tabid/219/Default.aspx, accessed 7/2/2014; SIGTARP analysis of HFA quarterly performance reports.
      280.	   Treasury, response to SIGTARP data call, 7/8/2014.
      281.	   Treasury, response to SIGTARP data call, 7/8/2014.
      282.	   Treasury, response to SIGTARP data call, 7/8/2014.
      283.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate
              Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q12014%20Report.pdf, accessed 7/2/2014.
      284.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; SIGTARP analysis of HFA
              participation agreements and amendments.
      285.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; SIGTARP analysis of HFA
              participation agreements and amendments.
      286.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
              treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; Treasury, “Hardest
              Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
              HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 7/2/2014; Treasury, “Hardest Hit Fund, Archived Program
              Information, Aggregate Program Data and Agreements (Proposals, Participation Agreements, and Amendments),” no date, www.treasury.gov/
              initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/2/2014; Alabama Housing Finance
              Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
              7/2/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
              no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 7/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
              Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 7/2/2014;
              Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports” no date, apps.floridahousing.
              org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 7/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
              Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 7/2/2014; Illinois Housing
              Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 7/2/2014;
              Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
              www.877gethope.org/reports/, accessed 7/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
              Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
              7/2/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
              gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 7/2/2014; Mississippi Home Corporation, “Financial Disclosures,
              Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 7/2/2014;
              Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
              nv.gov/, accessed 7/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
              Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 7/2/2014; North Carolina Housing Finance Agency, “Hardest
              Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
              7/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
              accessed 7/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
              www.oregonhomeownerhelp.org/en/reporting, accessed 7/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
              Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
              fa7b_10737418238_10737418240_btnlink, accessed 7/2/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
              Reports.aspx, accessed 7/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
              org/news-and-reports/, accessed 7/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
              Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
              Default.aspx, accessed 7/2/2014; SIGTARP analysis of HFA quarterly performance reports.
      287.	   Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed 7/2/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama,
              Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 7/2/2014; Arizona (Home) Foreclosure
              Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.
              aspx?ID=405&CID=11, accessed 7/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics,
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               347


        Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 7/2/2014; Florida Housing Finance Corporation,
        “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.
        aspx?PAGE=0277, accessed 7/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.
        state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 7/2/2014; Illinois Housing Development Authority, “Illinois
        Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 7/2/2014; Indiana Housing and Community
        Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/,
        accessed 7/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program,
        Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 7/2/2014;
        Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/
        mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 7/2/2014; Mississippi Home Corporation, “Financial Disclosures,
        Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 7/2/2014;
        Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
        nv.gov/, accessed 7/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
        Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 7/2/2014; North Carolina Housing Finance Agency, “Hardest
        Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
        7/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
        accessed 7/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
        www.oregonhomeownerhelp.org/en/reporting, accessed 7/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
        Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
        fa7b_10737418238_10737418240_btnlink, accessed 7/2/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
        Reports.aspx, accessed 7/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
        org/news-and-reports/, accessed 7/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
        Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
        Default.aspx, accessed 7/2/2014; SIGTARP analysis of HFA quarterly performance reports.
288.	   Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
        Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed 7/2/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama,
        Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 7/2/2014; Arizona (Home) Foreclosure
        Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.
        aspx?ID=405&CID=11, accessed 7/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics,
        Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 7/2/2014; Florida Housing Finance Corporation,
        “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.
        aspx?PAGE=0277, accessed 7/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.
        state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 7/2/2014; Illinois Housing Development Authority, “Illinois
        Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 7/2/2014; Indiana Housing and Community
        Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/,
        accessed 7/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program,
        Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 7/2/2014;
        Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/
        mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 7/2/2014; Mississippi Home Corporation, “Financial Disclosures,
        Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 7/2/2014;
        Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
        nv.gov/, accessed 7/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
        Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 7/2/2014; North Carolina Housing Finance Agency, “Hardest
        Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
        7/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
        accessed 7/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
        www.oregonhomeownerhelp.org/en/reporting, accessed 7/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
        Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
        fa7b_10737418238_10737418240_btnlink, accessed 7/2/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
        Reports.aspx, accessed 7/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
        org/news-and-reports/, accessed 7/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
        Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
        Default.aspx, accessed 7/2/2014; SIGTARP analysis of HFA quarterly performance reports.
289.	   Treasury, response to SIGTARP data call, 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/
        financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed 7/2/2014.
290.	   Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date,
        www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed
        7/2/2014; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014.
291.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Rhode Island Housing and Mortgage
        Finance Corporation, “HHFRI News,” no date, www.hhfri.org, accessed 7/2/2014; Illinois Housing Development Authority, “Welcome to the
        Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org, accessed 7/2/2014; New Jersey Housing and Mortgage Finance Agency, “The
        New Jersey HomeKeeper Program,” no date, www.njhomekeeper.com, accessed 7/2/2014.
292.	   Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Rhode Island Housing and Mortgage Finance Corporation,
        “HHFRI News,” no date, www.hhfri.org, accessed 7/2/2014.
348            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      293.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Illinois Housing Development Authority, “Welcome
            to the Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org, accessed 7/2/2014.
      294.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 1/17/2014, 4/9/2014 and 7/8/2014; New Jersey Housing and Mortgage Finance Agency,
            “The New Jersey HomeKeeper Program,” no date, www.njhomekeeper.com/, accessed 7/2/2014.
      295.	 Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014.
      296.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      297.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      298.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1
            2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.
            pdf, accessed 7/2/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports, 2014, 1st Quarter,” no date, www.
            hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 7/2/2014; SIGTARP analysis of Alabama Housing Finance Authority
            quarterly performance report.
      299.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      300.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      301.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      302.	 Treasury, responses to SIGTARP data calls, 7/5/2013, 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.
            gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014;
            Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date,
            www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed
            7/2/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit Fund-1st Quarter 2014,” no
            date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 7/2/2014; SIGTARP analysis of Arizona (Home) Foreclosure Prevention
            Funding Corporation quarterly performance report.
      303.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013,
            1/17/2014, 4/9/2014 and 7/8/2014.
      304.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      305.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      306.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
            accessed 7/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, 2014, First
            Quarter (Period ending 3/31/14),” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 7/2/2014; SIGTARP analysis of CalHFA
            Mortgage Assistance Corporation quarterly performance report.
      307.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      308.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      309.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      310.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
            accessed 7/2/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports, HHF QTR Report
            ending 3/31/1314,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 7/2/2014; SIGTARP
            analysis of Florida Housing Finance Corporation quarterly performance report.
      311.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014.
      312.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
                                                                                            QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               349


313.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
314.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
      accessed 7/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, March 2014 Report,” no date, www.dca.state.
      ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 7/2/2014; SIGTARP analysis of GHFA Affordable Housing Inc. quarterly
      performance report.
315.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014.
316.	 Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed 7/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports, March 2014 Report,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed
      7/2/2014; SIGTARP analysis of GHFA Affordable Housing Inc. quarterly performance report; “Hardest Hit Fund, Archived Program
      Information, Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/
      TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 7/3/2014.
317.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
318.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
319.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
      accessed 7/2/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF First Quarter Performance
      Report 2014,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 7/2/2014; SIGTARP analysis of Illinois Housing Development Authority
      quarterly performance report.
320.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
      and 7/8/2014.
321.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Illinois Housing Development Authority,
      “Welcome to the Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org/, accessed 7/2/2014.
322.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
323.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
324.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1
      2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.
      pdf, accessed 7/2/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S.
      Treasury, Indiana’s Hardest Hit Fund Quarterly Report (Q1) 2014 as submitted to Treasury June 10, 2014,” no date, www.877gethope.org/
      reports/, accessed 7/2/2014; SIGTARP analysis of Indiana Housing and Community Development Authority quarterly performance report.
325.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
      and 7/8/2014.
326.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
327.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
328.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
      accessed 7/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky
      Unemployment Bridge Program, Unemployment Bridge Program 1st Quarter 2014 Report,” no date, www.kyhousing.org/page.aspx?id=3165,
      accessed 7/3/2014; SIGTARP analysis of Kentucky Housing Corporation quarterly performance report.
329.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
      and 7/8/2014.
350            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      330.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      331.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      332.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1
            2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.
            pdf, accessed 7/2/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports, Quarter End
            3/31/2014,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 7/3/2014; SIGTARP analysis of
            Michigan Homeowner Assistance Nonprofit Housing Corporation quarterly performance report.
      333.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      334.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      335.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      336.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls,1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
            accessed 7/2/2014; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report, 1st Quarter
            2014,” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 7/3/2014; SIGTARP analysis of Mississippi Home Corporation
            quarterly performance report.
      337.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      338.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      339.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      340.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1
            2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.
            pdf, accessed 7/2/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports, 1Qtr. 2014,”
            no date, nevadahardesthitfund.nv.gov/, accessed 7/3/2014; SIGTARP analysis of Nevada Affordable Housing Assistance Corporation quarterly
            performance report.
      341.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      342.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      343.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      344.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1
            2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.
            pdf, accessed 7/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
            Performance Reports, New Jersey First Quarter 2014 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 7/3/2014;
            SIGTARP analysis of New Jersey Housing and Mortgage Finance Agency quarterly performance report.
      345.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      346.	 Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014; New Jersey Housing and Mortgage Finance Agency, “The New
            Jersey HomeKeeper Program,” no date, www.njhomekeeper.com/, accessed 7/3/2014.
      347.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      348.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013,1/17/2014,
            4/9/2014 and 7/8/2014.
                                                                                         QUARTERLY REPORT TO CONGRESS I JULY 30, 2014              351


349.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1
      2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.
      pdf, accessed 7/2/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, Quarterly Reports, Quarter
      1 – January – March 2014,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 7/3/2014; SIGTARP analysis of North
      Carolina Housing Finance Agency quarterly performance report.
350.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
      and 7/8/2014.
351.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
352.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
353.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
      accessed 7/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports, First Quarter 2014 Report” ohiohome.org/
      savethedream/quarterlyreports.aspx, accessed 7/3/2014; SIGTARP analysis of Ohio Homeowner Assistance LLC quarterly performance report.
354.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
      and 7/8/2014.
355.	 Treasury, response to SIGTARP data call, 7/8/2014.
356.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
357.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
358.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
      accessed 7/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting, OHSI
      Quarter 1 2014 Report (January - March 2014),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 7/3/2014; SIGTARP analysis
      of Oregon Affordable Housing Assistance Corporation quarterly performance report.
359.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
      and 7/8/2014.
360.	 Treasury, response to SIGTARP data call, 7/8/2014.
361.	 Treasury, “HFA Aggregate Quarterly Report Q1 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed 7/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
      Homeownership Stabilization Initiative, Reporting, OHSI 1 2014 Report (January - March 2014),” no date, www.oregonhomeownerhelp.org/en/
      reporting, accessed 7/3/2014; “Hardest Hit Fund, Archived Program Information, Participation Agreements, Amendments, and Initial Program
      Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed
      7/3/2014; SIGTARP analysis of HFA participation agreements and amendments.
362.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
363.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      4/9/2014 and 7/8/2014.
364.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
      7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
      accessed 7/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,
      Q1 2014,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_
      btnlink, accessed 7/3/2014; SIGTARP analysis of Rhode Island Housing and Mortgage Finance Corporation quarterly performance report.
365.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
      and 7/8/2014.
366.	 Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, 10/17/2013, 1/17/2014, 4/9/2014 and 7/8/2014; Rhode Island Housing and
      Mortgage Finance Corporation, “HHFRI News,” no date, www.hhfri.org, accessed 7/3/2014.
367.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
352            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      368.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      369.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
            accessed 7/2/2014; SC Housing Corp, “SC HELP, Reports, Quarter ending March 31, 2014,” no date, www.schelp.gov/Resources/Reports.aspx,
            accessed 7/3/2014; SIGTARP analysis of SC Housing Corp quarterly performance report.
      370.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      371.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      372.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      373.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
            accessed 7/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports, First Quarter 2014 Report,” no date, www.
            keepmytnhome.org/news-and-reports/, accessed 7/3/2014; SIGTARP analysis of Tennessee Housing Development Agency quarterly performance
            report.
      374.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      375.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014.
      376.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
            4/9/2014 and 7/8/2014.
      377.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed
            7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014; Treasury, “HFA Aggregate Quarterly Report Q1 2014,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q12014%20Report.pdf,
            accessed 7/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance
            reports], DCHFA HomeSaver Program – March 31, 2014 Quarterly Report,” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/
            QuarterlyReports/tabid/219/Default.aspx, accessed 7/3/2014; SIGTARP analysis of District of Columbia Housing Finance Agency quarterly
            performance report.
      378.	 Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 7/7/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014
            and 7/8/2014.
      379.	 Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014 and 7/8/2014.
      380.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
            AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
            Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/3/2014.
      381.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
            latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 7/3/2014.
      382.	 Treasury, response to SIGTARP data call, 7/24/2014.
      383.	 Treasury, response to SIGTARP data call, 7/8/2014.
      384.	 Treasury, response to SIGTARP data call, 7/8/2014.
      385.	 Treasury, response to SIGTARP data call, 7/8/2014.
      386.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 7/3/2014; HUD,
            response to SIGTARP draft, 1/10/2011.
      387.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      388.	 HUD, response to SIGTARP draft report, 1/10/2011.
      389.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 7/3/2014.
      390.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 7/3/2014; HUD, response to SIGTARP draft report, 3/31/2011.
      391.	 Treasury, response to SIGTARP data call, 7/8/2014.
      392.	 Treasury, response to SIGTARP data call, 1/11/2013; Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013.
      393.	 Treasury, response to SIGTARP data call, 7/8/2014.
      394.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               353


395.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
396.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
397.	 Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.gov/
      initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.
      pdf, accessed 7/1/2014.
398.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
399.	 Treasury, response to SIGTARP data call, 7/8/2014.
400.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
401.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
402.	 Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Monthly%20
      Report%20to%20Congress.pdf, accessed 7/10/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, response to
      SIGTARP data call, 7/8/2014.
403.	 Treasury, response to SIGTARP data call, 7/11/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
404.	 Treasury, response to SIGTARP data call, 7/11/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
405.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
406.	 Treasury, response to SIGTARP data call, 7/8/2014.
407.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
408.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
409.	 Treasury, response to SIGTARP data call 7/9/2014; Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/June%202014%20Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
410.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
411.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
412.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
413.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 7/1/2014.
414.	 Treasury, response to SIGTARP data call, 7/9/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
      Observer%20Fact%20Sheet.pdf, accessed 7/1/2014.
415.	 Treasury, response to SIGTARP data call 7/9/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
      Observer%20Fact%20Sheet.pdf, accessed 7/1/2014.
416.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2014.
417.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
418.	 Treasury, response to SIGTARP data call, 7/8/2014.
419.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2014.
420.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
421.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2014.
422.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2014.
423.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2014.
424.	 Treasury, response to SIGTARP data call, 7/11/2014.
354            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      425.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      426.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      427.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      428.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      429.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      430.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      431.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      432.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      433.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      434.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      435.	 Treasury, response to SIGTARP data call, 7/11/2014.
      436.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 7/8/2014.
      437.	 Treasury conference call, 3/19/2010.
      438.	 Treasury, response to SIGTARP draft report, 1/14/2012.
      439.	 Treasury conference call, 3/19/2010.
      440.	 Treasury conference call, 3/19/2010.
      441.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      442.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      443.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      444.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      445.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      446.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      447.	 SNL Financial LLC data.
      448.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      449.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      450.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 7/1/2014.
      451.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      452.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      453.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
      454.	 Treasury, response to SIGTARP data call, 10/5/2011.
      455.	 Treasury, response to SIGTARP data call, 10/5/2011.
      456.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 7/1/2014.
      457.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 7/1/2014.
      458.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2014.
      459.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2014.
      460.	 Treasury, response to SIGTARP data call, 7/15/2014.
      461.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2014.
      462.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 7/1/2014; Treasury, response to SIGTARP data call, 7/1/2014.
      463.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      464.	 Treasury, response to SIGTARP data call, 7/15/2014.
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014                355


465.	 Treasury, response to SIGTARP data call, 7/15/2014.
466.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2014.
467.	 Treasury, response to SIGTARP data call, 7/15/2014.
468.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 7/1/2014.
469.	 Treasury, response to SIGTARP data call 7/15/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
470.	 Treasury, response to SIGTARP data call, 7/15/2014.
471.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 7/1/2014.
472.	 Treasury, “Treasury Completes Auction to Sell Warrant Positions,” 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx,
      accessed 7/1/2014.
473.	 Treasury conference call, 11/10/2011.
474.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 7/1/2014.
475.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 7/1/2014.
476.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
      cdci/Pages/faqs.aspx, accessed 7/1/2014; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 7/1/2014; Treasury Press Release, “Treasury Announces
      Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
      9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 7/1/2014.
477.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 7/1/2014.
478.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
      investment-programs/cdci/Pages/default.aspx, accessed 7/1/2014.
479.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 7/1/2014.
480.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
481.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
482.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
483.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
484.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
485.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
486.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
487.	 Treasury, “Community Development Capital Initiative CDFI Bank/Thrift Senior Preferred Stock - Summary of CDCI Senior Preferred
      Terms,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cdci/Documents/CDCI20Bank-
      Thrift20Term20Sheet20042610.pdf, accessed 7/1/2014.
488.	 Treasury, response to SIGTARP data call, 7/8/2014.
489.	 Treasury, response to SIGTARP data call, 7/8/2014.
490.	 Treasury, response to SIGTARP data call, 7/8/2014.
491.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/1/2014.
492.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 7/1/2014.
493.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      7/1/2014; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      7/1/2014.
494.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/1/2014.
495.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/1/2014.
496.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
      FY2010BIB-Complete.pdf, accessed 7/1/2014.
497.	 Treasury, response to SIGTARP data call, 1/8/2010.
356            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      498.	 Federal Reserve Board - Credit and Liquidity Programs and the Balance Sheet, no date. www.federalreserve.gov/monetarypolicy/bst_
            supportspecific.htm, accessed 7/1/2014.
      499.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      500.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2014; FRBNY, “Summary of Maiden Lane II LLC Waterfall
            Allocation,” 5/29/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 7/1/2014; FRBNY, “Summary of Maiden
            Lane III LLC Waterfall Allocation,” 11/23/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed 7/1/2014.
      501.	 Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            07.01.2014.pdf, accessed 7/3/2014.
      502.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/3/2014; Treasury, Dividends and Interest Report,
            7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20Dividends%20Interest%20Report.pdf, accessed
            7/10/2014.
      503.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 7/1/2014; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
            treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
            accessed 7/1/2014.
      504.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            7/1/2014.
      505.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 7/1/2014.
      506.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      507.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      508.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 7/1/2014; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
            data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2014.
      509.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 7/1/2014.
      510.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/1/2014.
      511.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 7/1/2014.
      512.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
            TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/1/2014.
      513.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
            TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/1/2014.
      514.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/1/2014.
      515.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      516.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 7/1/2014; Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of
            $894 Million, Providing an Additional Profit for Taxpayers on TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-
            releases/Pages/tg1841.aspx, accessed 7/1/2014.
      517.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 7/1/2014.
      518.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 7/1/2014.
      519.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
            accessed 7/1/2014.
      520.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
            jl2236.aspx, accessed 7/1/2014.
      521.	 Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            07.01.2014.pdf, accessed 7/1/2014; Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal
            Year 2013, 12/11/13, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed
            7/1/2014.
      522.	 Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-
            center/press-releases/Pages/jjl2258.aspx, accessed 7/1/2014.
      523.	 Treasury Monthly Report, 4/20/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/April%202014%20Monthly%20
            Report%20to%20Congress.pdf Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.
            treasury.gov/press-center/press-releases/Pages/jl2351.aspx, accessed on 7/1/2014; Ally Financial, Amendment No. 11 to Form S-1 Registration
            Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/d651440ds1a.htm, accessed 7/1/2014; Treasury Press
            Release, “Treasury Announces Initial Public Offering of Ally Financial Common Stock,” 3/27/2014, www.treasury.gov/press-center/press-
            releases/Pages/jl2335.aspx, accessed 7/1/2014.
                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               357


524.	 Ally Press Release, “Ally Financial Statement on Additional U.S. Treasury Recovery,” 5/9/2014, media.ally.com/index.
      php?s=20295&item=123030, accessed 7/1/2014.
525.	 Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/1/2014.
526.	 Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/1/2014.
527.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
528.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, “Office of Financial Stability: Agency Financial Report
      - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
      OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2014.
529.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Daily_TARP_Update%20-%2007.01.2014.pdf, accessed 7/1/2014.
530.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
531.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
532.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
533.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
      jl2236.aspx, accessed 7/1/2014; Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed
      7/1/2014; Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/
      press-center/press-releases/Pages/jl2173.aspx, accessed 7/1/2014.
534.	 Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
      Monthly%20Report%20to%20Congress.pdf, accessed 7/1/2014. Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
535.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
536.	 General Motors, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 7/1/2014.
537.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2014.
538.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2014; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 7/1/2014; GM
      Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, media.gm.com/content/media/
      be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html, accessed 7/1/2014.
539.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 7/1/2014.
540.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2014.
541.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
      gov/press-center/press-releases/Pages/tg1810.aspx, accessed 7/1/2014.
542.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 7/1/2014.
543.	 Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
544.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury Press Release, “Treasury Announces Next Step in Plan to
      Sell General Motors Common Stock,” 5/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1926.aspx, accessed 7/1/2014; Treasury,
      response to SIGTARP data call, 7/8/2014.
545.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
546.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
547.	 Treasury Press Release, “Taxpayers to Receive $1.03 Billion from Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
      releases/Pages/jl1976.aspx, accessed 7/1/2014.
548.	 Treasury, response to SIGTARP data call, 7/8/2014; Treasury, Section 105(a) Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/June%202014%20Monthly%20Report%20to%20Congress.pdf, accessed 7/10/2014.
549.	 Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      07.01.2014.pdf, accessed 7/1/2014.
550.	 Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial Common Stock,” 3/27/2014, www.treasury.gov/press-
      center/press-releases/Pages/jl2335.aspx, accessed on 7/1/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
358            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      551.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of
            Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-center/press-releases/Pages/jjl2258.aspx, accessed 7/1/2014.
      552.	 Ally Press Release, “Ally Financial Statement on Additional U.S. Treasury Recovery,” 5/9/2014, media.ally.com/index.
            php?s=20295&item=123030, accessed 7/1/2014.
      553.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/
            press-releases/Pages/jl2351.aspx, accessed on 7/1/2014; Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial
            Common Stock,” 3/27/2014, www.treasury.gov/press-center/press-releases/Pages/jl2335.aspx, accessed 7/1/2014.
      554.	 Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,”
            8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-
            Treasury, accessed 7/1/2014.
      555.	 Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            07.01.2014.pdf, accessed 7/1/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      556.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      557.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 7/1/2014.
      558.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 7/1/2014.
      559.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 7/1/2014.
      560.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 7/1/2014; Treasury, Section
            105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
            Report_final.pdf, accessed 7/1/2014.
      561.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 7/1/2014.
      562.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 7/1/2014.
      563.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 7/1/2014.
      564.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 7/1/2014.
      565.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 7/1/2014.
      566.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            7/1/2014.
      567.	 GM Press Release, “GM Announces Sale of Equity Stake in Ally Financial,” 12/12/2013, media.gm.com/content/media/us/en/gm/news.detail.
            html/content/Pages/news/us/en/2013/Dec/1212-ally.html, accessed 7/1/2014.
      568.	 Ally Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/
            data/40729/000119312513285728/d388008ds1a.htm, accessed 7/1/2014; Ally Financial, Amendment No. 11 to Form S-1 Registration
            Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/d651440ds1a.htm, accessed 7/1/2014; GM Press
            Release, “GM Announces Sale of Equity Stake in Ally Financial,” 12/12/2013, media.gm.com/content/media/us/en/gm/news.detail.html/content/
            Pages/news/us/en/2013/Dec/1212-ally.html, accessed 7/1/2014; Ally Financial, Schedule Form DEF14A Statement, June 6, 2014, www.sec.gov/
            Archives/edgar/data/40729/000004072914000147/a2014proxy.htm, accessed 7/1/2014.
      569.	 Ally Press Release, “Ally Financial Statement on Additional U.S. Treasury Recovery,” 5/9/2014, media.ally.com/index.
            php?s=20295&item=123030, accessed 7/1/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      570.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-
            11-20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 7/1/2014; Treasury, Transactions Report,
            6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-
            14_INVESTMENT.pdf, accessed 7/3/2014; Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to
            Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-
            Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 7/1/2014.
      571.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
            20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 7/1/2014; Ally Financial Press Release, “Ally
            Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-
            20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 7/1/2014.
      572.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
            20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 7/1/2014.
      573.	 Treasury, response to SIGTARP data call, 7/8/2014.
      574.	 Treasury, response to SIGTARP data call, 7/8/2014.
      575.	 Treasury, response to SIGTARP data call, 7/8/2014.
      576.	 Ally Press Release, “Ally Financial Granted Financial Holding Company Status,” 12/23/2013, media.ally.com/2013-12-23-Ally-Financial-
            Granted-Financial-Holding-Company-Status, accessed 7/1/2014.
      577.	 Federal Reserve Board Press Release, 3/24/2014, www.federalreserve.gov/newsevents/press/bcreg/bcreg20140320a1.pdf, accessed on 7/1/2014.
      578.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/
            press-releases/Pages/jl2351.aspx, accessed on 7/1/2014; Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial
            Common Stock,” 3/27/2014, www.treasury.gov/press-center/press-releases/Pages/jl2335.aspx, accessed 7/1/2014.
                                                                                             QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               359


579.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/press-
      releases/Pages/jl2351.aspx, accessed on 7/1/2014; Ally Financial Press Release, “Ally Financial Launches Initial Public Offering of Common
      Stock,” 3/27/2014, media.ally.com/2014-03-27-Ally-Financial-Launches-Initial-Public-Offering-of-Common-Stock, accessed 7/1/2014.
580.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 7/1/2014.
581.	 Ally Financial, Amendment No. 11 to Form S-1 Registration Statement, 3/27/2014, www.sec.gov/Archives/edgar/
      data/40729/000119312514117494/d651440ds1a.htm, accessed 7/1/2014.
582.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
      7/1/2014.
583.	 Ally Financial, Amendment No. 1 to Form S-1 Registration Statement, 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll
      ?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 7/1/2014; Ally Financial, Amendment No. 2 to Form S-1
      Registration Statement, 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7978010&SessionID=y
      WV1FqvBONn9GA7, accessed 7/1/2014; Ally Financial, Amendment No. 3 to Form S-1 Registration Statement, 6/28/2011, www.sec.gov/
      Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 7/1/2014; Ally Financial, Amendment No. 4 to Form S-1 Registration
      Statement, 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 7/1/2014; Ally Financial,
      Amendment No. 5 to Form S-1 Registration Statement, 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/
      d167661ds1a.htm, accessed 7/1/2014; Ally Financial, Amendment No. 6 to Form S-1 Registration Statement, 4/12/2012, www.sec.gov/
      Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed 7/1/2014; Ally Financial, Amendment No. 7 to Form S-1
      Registration Statement, 10/5/2012, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 7/1/2014; Ally
      Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/data/40729/000119312513285728/
      d388008ds1a.htm, accessed 7/1/2014; Ally Financial, Amendment No. 9 to Form S-1 Registration Statement, 12/23/2013, www.sec.gov/
      Archives/edgar/data/40729/000119312513482886/d611675ds1a.htm, accessed 7/1/2014; Ally Financial, Amendment No. 10 to Form S-1
      Registration Statement, 3/3/2013, www.sec.gov/Archives/edgar/data/40729/000119312514080365/d651440ds1a.htm, accessed 7/1/2014; Ally
      Financial, Amendment No. 11 to Form S-1 Registration Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/
      d651440ds1a.htm, accessed 7/1/2014.
584.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
      Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 7/1/2014.
585.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
      Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 7/1/2014; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/Archives/
      edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 7/1/2014.
586.	 In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York, Order Granting Debtors’
      Motion for an Order Under Bankruptcy Code Sections 105(A) and 363(B) Authorizing the Debtors to Enter into a Plan Support Agreement
      with Ally Financial Inc., the Creditors’ Committee, and Certain Consenting Claimants, 6/26/2013, www.rescaprmbssettlement.com/docs/4098.
      pdf, accessed 7/1/2014.
587.	 Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.
      com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-Comprehensive-ResCap-Settlement, accessed 7/1/2014.
588.	 Ally Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-
      31-Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 7/1/2014.
589.	 In re: Residential Capital LLC, et. al., U.S. Bankruptcy Court for the Southern District of New York, Case No.12-12020, “Notice
      of Entry of Confirmation Order Confirming the Second Amended Joint Chapter 11 Plan Proposed by Residential Capital, LLC,
      et. al., and the Official Committee of Unsecured Creditors and Occurrence of Effective Date,” 12/17/2013, www.kccllc.net/
      documents/1212020/1212020131217000000000007.pdf, accessed 7/1/2014; Ally Press Release, “ResCap Plan of Reorganization Approved by
      U.S. Bankruptcy Court”, media.ally.com/2013-12-11-ResCap-Plan-of-Reorganization-Approved-by-U-S-Bankruptcy-Court, accessed 7/1/2014.
590.	 Ally Financial Press Release, “Ally Financial Completes Sale of Majority of European and Latin American Operations,” 4/2/2013, media.ally.
      com/2013-04-02-Ally-Financial-Completes-Sale-of-Majority-of-European-and-Latin-American-Operations, accessed 7/1/2014.
591.	 Ally Financial Press Release, “Ally Financial Completes Sale Of Operations In Brazil,” 10/2/2013, media.ally.com/2013-10-01-Ally-Financial-
      Completes-Sale-of-Operations-in-Brazil, accessed 7/1/2014.
592.	 Ally Financial, 10-K, 3/3/2014, www.sec.gov/Archives/edgar/data/40729/000004072914000007/gjm2013123110k.htm, accessed 7/1/2014; Ally
      Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-31-
      Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 7/1/2014.
593.	 Ally Financial Press Release, “Ally Financial Completes Sale of Canadian Operations,” 2/1/2013, media.ally.com/index.
      php?s=20295&item=122599, accessed 7/1/2014; Ally Financial Press Release, “Ally Financial Completes Sale of Mexican Insurance Business,”
      5/2/2013, media.ally.com/2013-05-02-Ally-Financial-Completes-Sale-of-Mexican-Insurance-Business, accessed 7/1/2014.
594.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, media.ally.com/2013-03-
      21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 7/1/2014.
595.	 Ally Financial Press Release, “Ally Bank Completes Sales of Mortgage Servicing Rights,” 4/17/2013, media.ally.com/2013-04-17-Ally-Bank-
      Completes-Sales-of-Mortgage-Servicing-Rights, accessed 7/1/2014.
596.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
597.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
598.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
599.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
600.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
360             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      601.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 7/1/2014; Treasury
            Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.aspx,
            accessed 7/1/2014.
      602.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 7/1/2014.
      603.	 Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202014%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      604.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, Dividends and Interest Report, 7/10/2014, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/June%202014%20Dividends%20Interest%20Report.pdf, accessed 7/10/2014.
      605.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      606.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, mediaroom.tdbank.com/index.
            php?s=30379&item=94198, accessed 7/1/2014; TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/
            data/1337471/000095012311032930/y90599e8vk.htm, accessed 7/1/2014; Banking Business Review, “TD Bank closes acquisition of Chrysler
            Financial,” 4/1/2011, retailbanking.banking-business-review.com/news/td-bank-closes-acquisition-of-chrysler-financial-040411, accessed
            7/1/2014.
      607.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/
            pages/tg64.aspx, accessed 7/1/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014; Treasury, Section 105(a)
            Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
            Report_final.pdf, accessed 7/1/2014.
      608.	 Treasury, Office of Financial Stability: Agency Financial Report - Fiscal Year 2010, 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2014; Treasury, Transactions Report,
            6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_
            INVESTMENT.pdf, accessed 7/3/2014.
      609.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 7/1/2014.
      610.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 7/1/2014.
      611.	 Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            07.01.2014.pdf, accessed 7/3/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      612.	 FRBNY, response to SIGTARP data call, 7/3/2014.
      613.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      614.	 Treasury, response to SIGTARP data call, 7/8/2014.
      615.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      616.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      617.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
            11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/1/2014.
      618.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 7/1/2014.
      619.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 7/1/2014.
      620.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      621.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2014.
      622.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 7/1/2014.
      623.	 FRBNY, response to SIGTARP data call, 7/3/2014.
      624.	 FRBNY, response to SIGTARP data call, 7/3/2014.
      625.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 7/1/2014.
      626.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2014.
      627.	 FRBNY, response to SIGTARP data call, 7/3/2014.
      628.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 7/1/2014.
      629.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 7/1/2014.
      630.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 7/1/2014.
      631.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2014.
                                                                                            QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               361


632.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/1/2014; Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet”,
      December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 7/1/2014.
633.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/1/2014.
634.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/1/2014.
635.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/1/2014.
636.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/1/2014.
637.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
638.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 7/1/2014.
639.	 Federal Reserve, “Quarterly Report on Federal Reserve Balance Sheet Developments”, March 2013, www.federalreserve.gov/monetarypolicy/
      files/quarterly_balance_sheet_developments_report_201303.pdf, accessed 7/1/2014.
640.	 Treasury, Daily TARP Update, 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      07.01.2014.pdf., accessed 7/3/2014; Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/7-2-14%20Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
641.	 FRBNY, response to SIGTARP data call, 7/3/2014.
642.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/1/2014;
      FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
      7/1/2014.
643.	 FRBNY, response to SIGTARP data call, 7/3/2014.
644.	 FRBNY, response to SIGTARP data call, 7/3/2014.
645.	 FRBNY, response to SIGTARP data call, 7/3/2014.
646.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
      accessed 7/1/2014.
647.	 FRBNY, response to SIGTARP data call, 7/3/2014.
648.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
649.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
      Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
      7/1/2014.
650.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
      accessed 7/1/2014.
651.	 FRBNY, response to SIGTARP data call, 7/3/2014; Treasury, response to SIGTARP data call, 7/8/2014.
652.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 6/26/2014, www.federalreserve.gov/releases/h41/, accessed 7/3/2014.
653.	 FRBNY, response to SIGTARP data call, 7/3/2014.
654.	 FRBNY, response to SIGTARP data call, 7/3/2014.
655.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 7/1/2014.
656.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 7/1/2014.
657.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2014.
658.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
      ppip/Pages/purpose-and-overview.aspx, accessed 7/1/2014.
659.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2014.
660.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 7/1/2014.
661.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2014; Treasury, “Amended and Restated
      Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
      Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 7/1/2014.
662.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Pages/Program-Status.aspx, accessed 7/1/2014.
663.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
      gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2014.
664.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
      Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
665.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20%28redacted%29.pdf, accessed 7/1/2014.
666.	 Treasury, response to SIGTARP data call, 7/11/2014.
362            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      667.	 Treasury, response to SIGTARP data call, 7/11/2014.
      668.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      669.	 Treasury, response to SIGTARP data call, 7/11/2014.
      670.	 Treasury, response to SIGTARP data call, 7/11/2014.
      671.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      672.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
      673.	 Treasury, response to SIGTARP data call, 7/11/2014.
      674.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
      675.	 Treasury, response to SIGTARP data call, 7/11/2014.
      676.	 PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013.
      677.	 Treasury, response to SIGTARP data call, 7/11/2014.
      678.	 PPIP fund managers’ monthly reports for February 2013 submitted to Treasury and SIGTARP, 3/15/2013.
      679.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Wellington
            Management Legacy Securities PPIF (Offshore), L.P., 7/25/2013, Authentication No. 0616264, File No. 4709656.
      680.	 BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
            12/5/2012, www.businesswire.com/news/home/20121205006450/en/BlackRock-Liquidates-Public-Private-Investment-Partnership-23.5-
            Internal, accessed 7/1/2014; BlackRock PPIP monthly report for November 2012 submitted to Treasury and SIGTARP, 12/14/2012.
      681.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      682.	 Treasury, response to SIGTARP data call, 7/11/2014.
      683.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
            for Treasury,” 10/9/2012, phx.corporate-ir.net/phoenix.zhtml?c=60983&p=irol-newsArticle&ID=1743175&highlight=, accessed 7/1/2014;
            AllianceBernstein PPIP monthly report for September 2012, submitted to Treasury and SIGTARP, 10/15/2012.
      684.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      685.	 Treasury, response to SIGTARP data call, 7/1/2014.
      686.	 RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership at a 23.9% Internal Rate of
            Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
            partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html, accessed 7/1/2014; RLJ Western PPIP monthly report for November
            2012, submitted to Treasury and SIGTARP, 11/15/2012.
      687.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      688.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      689.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 7/1/2014; Invesco PPIP monthly report for March 2012, submitted
            to Treasury and SIGTARP, 4/16/2012.
      690.	 Treasury, Transactions Report, 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20Transactions%20
            Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014.
      691.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
            Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
      692.	 Treasury, response to SIGTARP data call, 7/11/2014.
      693.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 7/1/2014.
      694.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 7/1/2014.
      695.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 7/1/2014.
      696.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 7/1/2014.
      697.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press- center/press-releases/Pages/tg58.aspx,
            accessed 7/1/2014; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 7/1/2014.
      698.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
            (Execution%20Version).pdf, accessed 7/1/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
            by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
            Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf,
            accessed 7/1/2014.
      699.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 7/1/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 7/1/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates
                                                                                              QUARTERLY REPORT TO CONGRESS I JULY 30, 2014               363


        and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
        programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
        MPA%20(73485877_2).pdf, accessed 7/1/2014.
700.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 7/14/2014.
701.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 7/14/2014.
702.	   Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
        DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 7/14/2014.
703.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
704.	   Treasury, response to SIGTARP data call, 7/24/2014.
705.	   Treasury, response to SIGTARP data call, 7/24/2014.
706.	   Treasury, Application Activity by Servicer Report (April), www.treasury.gov/initiatives/financial-stability/reports/Documents/HAMP%20
        Application%20Activity%20by%20Servicer%20April%202014.pdf, accessed 6/16/2014.
707.	   Treasury, Application Activity by Servicer Report (April), www.treasury.gov/initiatives/financial-stability/reports/Documents/HAMP%20
        Application%20Activity%20by%20Servicer%20April%202014.pdf, accessed 6/16/2014; Treasury, response to SIGTARP data call, 7/8/2014.
708.	   Treasury, Monthly Report to Congress, May 2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/May%20Monthly%20
        Report%20to%20Congress.pdf, accessed 6/19/2014.
709.	   Treasury, Making Homes Affordable Program Performance Report, June 2013, www.treasury.gov/initiatives/financial-stability/reports/
        Documents/June%20%202013%20MHA%20Report%20final.pdf, accessed 7/22/2014; Treasury, response to SIGTARP data call, 7/24/2014.
710.	   SIGTARP analysis of Treasury HAMP data.
711.	   SIGTARP Audit report, “Factors Affecting the Implementation of the Hardest Hit Fund Program,” April 12, 2012, www.sigtarp.gov/Audit%20
        Reports/SIGTARP_HHF_Audit.pdf, accessed 6/19/2014.
712.	   Treasury, Application Activity by Servicer Report (April), www.treasury.gov/initiatives/financial-stability/reports/Documents/HAMP%20
        Application%20Activity%20by%20Servicer%20April%202014.pdf, accessed 6/16/2014; Treasury, response to SIGTARP data call, 7/8/2014;
        SIGTARP Audit report, “Factors Affecting the Implementation of the Hardest Hit Fund Program” April 12, 2012, www.sigtarp.gov/Audit%20
        Reports/SIGTARP_HHF_Audit.pdf, accessed 6/19/2014.
713.	   Treasury, “HFA Aggregate Performance Data”, Q1 2014 (no date), www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
        Documents/HFA%20Aggregate%20Q12014%20Report.pdf, accessed 6/18/2014.
714.	   SIGTARP, Quarterly Report to Congress, April 30, 2014, www.sigtarp.gov/Quarterly%20Reports/April_30_2014_Report_to_Congress.pdf,
        accessed 6/20/2014.
715.	   Treasury, response to SIGTARP data call, 7/8/2014; SIGTARP analysis of each HHF participating HFA’s Most Recent Quarterly Report for the
        period ended 3/31/2014, obtained from Treasury “Hardest Hit Fund State by State Information,” no date, www.treasury.gov/initiatives/financial-
        stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 6/17/2014.
716.	   SIGTARP analysis of each HHF participating HFA’s Most Recent Quarterly Report for the period ended 3/31/2014, obtained from Treasury
        “Hardest Hit Fund State by State Information,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
        Documents.aspx, accessed 6/17/2014.
717.	   SIGTARP analysis of each HHF participating HFA’s Most Recent Quarterly Report for the period ended 3/31/2014, obtained from Treasury
        “Hardest Hit Fund State by State Information,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
        Documents.aspx, accessed 6/17/2014.
718.	   CoreLogic, “National Foreclosure Report”, April 2010, www.corelogic.com/research/foreclosure-report/national-foreclosure-report-april-2014.
        pdf, accessed 6/19/2014; Bureau of Labor Statistics, “Unemployment Rates for States - Monthly Rankings - Seasonally Adjusted”, April 2014,
        www.bls.gov/web/laus/laumstrk.htm, accessed 6/19/2014.
719.	   Treasury, “Making Homes Affordable – Interactions with HFA Hardest-Hit Fund Programs”, August 2, 2010, www.hmpadmin.com/portal/
        programs/docs/hamp_servicer/sd1007.pdf, accessed 6/19/2014.
720.	   New Jersey Housing and Mortgage Finance Agency, Seventh Amendment to Commitment to Purchase Financial Instrument and HFA
        Participation Agreement, 4/11/2014, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/(9356782)_(2)_
        Redacted%207th%20Amendment%20to%20HPA%20-%20NJ.pdf, accessed 6/17/2014.
721.	   Georgia Housing and Finance Authority, Sixth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,
        1/31/2014, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/Sixth%20Amendment%20to%20HPA%20-%20
        Georgia.pdf, accessed 6/17/2014.
722.	   California Housing Finance Agency, Thirteenth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,
        4/11/2014, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/(9356845)_(2)_Redacted%20CA%20-%20
        13th%20Amendment%20to%20HPA.pdf, accessed 6/17/2014.
723.	   Nevada Housing Division, Twelfth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,
        6/11/2014, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/(9462458)_(2)_Redacted%20NV%2012th%20
        Amendment%20to%20HPA.pdf, accessed 6/17/2014.
724.	   North Carolina Housing Finance Agency, Seventh Amendment to Commitment to Purchase Financial Instrument and HFA Participation
        Agreement, 12/12/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/Redacted%207th%20
        Amendment%20to%20HPA%20-%20North%20Carolina.PDF, accessed 6/17/2014.
725.	   SIGTARP analysis of Treasury HAMP data.
726.	   SIGTARP analysis of each HHF participating Housing Finance Agency’s most recent, Amendment to Commitment to Purchase Financial
        Instrument and HFA Participation Agreement, obtained from www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
        Program-Documents.aspx, accessed on 6/17/2014; SIGTARP, analysis of “Making Home Affordable Program Handbook for Servicers of Non-
        GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 6/17/2014.
727.	   SIGTARP analysis of each HHF participating Housing Finance Agency’s most recent, Amendment to Commitment to Purchase Financial
        Instrument and HFA Participation Agreement, obtained from www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
364            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            Program-Documents.aspx, accessed on 6/17/2014.
      728.	 Keep Your Home California (California’s Housing Finance Agency), “Frequently Asked Questions”, no date, keepyourhomecalifornia.org/dont-
            be-scammed-keep-your-home-california-is-a-free-service/, accessed 6/18/2014; The Florida Senate Committee on Community Affairs, Issue
            Brief 2012-211 “Hardest Hit Fund”, September 2011, www.flsenate.gov/PublishedContent/Session/2012/InterimReports/2012-211ca.pdf,
            accessed 6/18/2014.
      729.	 SIGTARP analysis of each HHF participating Housing Finance Agency’s most recent, Amendment to Commitment to Purchase Financial
            Instrument and HFA Participation Agreement, obtained from www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
            Program-Documents.aspx, accessed 6/17/2014.
      730.	 SIGTARP analysis of each HHF participating HFA’s Most Recent Quarterly Report for the period ended 3/31/2014. Obtained from Treasury
            “Hardest Hit Fund State by State Information”, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 6/17/2014.
      731.	 SIGTARP analysis of each HHF participating Housing Finance Agency’s most recent, Amendment to Commitment to Purchase Financial
            Instrument and HFA Participation Agreement, obtained from www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
            Program-Documents.aspx, accessed 6/17/2014.
      732.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 6/17/2014.
      733.	 Treasury, responses to SIGTARP data call, 7/24/2014.
      734.	 SIGTARP analysis of Treasury HAMP data.
      735.	 Treasury, responses to SIGTARP data call, 7/24/2014.
      736.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 6/17/2014.
      737.	 Treasury, responses to SIGTARP data call, 7/24/2014.
      738.	 SIGTARP analysis of Treasury HAMP data.
      739.	 SIGTARP analysis of Treasury HAMP data.
      740.	 SIGTARP analysis of Treasury HAMP data; Treasury, “Hardest Hit Fund, Program Purpose and Overview”, no date, www.treasury.gov/initiatives/
            financial-stability/TARP-Programs/housing/hhf/Pages/default.aspx, accessed 6/17/2014.
      741.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      742.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      743.	 Treasury, response to SIGTARP data call, 7/9/2014 and 7/11/2014.
      744.	 Treasury, response to SIGTARP data call, 7/8/2014.
      745.	 Treasury, response to SIGTARP data call, 7/8/2014.
      746.	 Treasury, response to SIGTARP data call, 7/8/2014.
      747.	 Fannie Mae, response to SIGTARP data call, 7/9/2014; Freddie Mac, response to SIGTARP data call, 7/9/2014.
      748.	 Treasury, response to SIGTARP data call, 7/8/2014.
      749.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      750.	 Treasury, response to SIGTARP data call, 7/18/2014.
                                                                                                GLOSSARY I APPENDIX A I JULY 30, 2014   365




APPENDICES
GLOSSARY
This appendix provides a glossary of terms that are used in the context of this report.

7(a) Loan Program: SBA loan program guaranteeing                   Debt: Investment in a business that is required to be paid
a percentage of loans for small businesses that cannot             back to the investor, usually with interest.
otherwise obtain conventional loans at reasonable terms.
                                                                   Deed-in-Lieu of Foreclosure: Instead of going through
Accredited Investors: Individuals or institutions that             foreclosure, the homeowner voluntarily surrenders the deed
by law are considered financially sophisticated enough             to the home to the investor as satisfaction of the unpaid
so that they can invest in ventures that are exempt from           mortgage balance.
investor protection laws. Under U.S. securities laws, these
                                                                   Deobligations: An agency’s cancellation or downward
include many financial companies, pension plans, wealthy
                                                                   adjustment of previously incurred obligations.
individuals, and top executives or directors of the issuing
companies.                                                         Due Diligence: Appropriate level of attention or care a
                                                                   reasonable person should take before entering into an
Asset-Backed Securities (“ABS”): Bonds backed by a
                                                                   agreement or a transaction with another party. In finance, it
portfolio of consumer or corporate loans (e.g., credit card,
                                                                   often refers to the process of conducting an audit or review of
auto, or small-business loans). Financial companies typically
                                                                   the institution before initiating a transaction.
issue ABS backed by existing loans in order to fund new loans
for their customers.                                               Equity: Investment that represents an ownership interest in
                                                                   a business.
Collateral: Asset pledged by a borrower to a lender until a
loan is repaid. Generally, if the borrower defaults on the loan,   Excess Spread: Funds left over after required payments and
the lender gains ownership of the pledged asset and may sell       other contractual obligations have been met. In TALF it is
it to satisfy the debt. In TALF, the ABS or CMBS purchased         the difference between the periodic amount of interest paid
with the TALF loan is the collateral that is posted with           out by the collateral and the amount of interest charged by
FRBNY.                                                             FRBNY on the nonrecourse loan provided to the borrower to
                                                                   purchase the collateral.
Commercial Mortgage-Backed Securities (“CMBS”):
Bonds backed by one or more mortgages on commercial real           Exercise Price: Preset price at which a warrant holder
estate (e.g., office buildings, rental apartments, hotels).        may purchase each share. For warrants in publicly traded
                                                                   institutions issued through CPP, this was based on the
Common Stock: Equity ownership entitling an individual to
                                                                   average stock price during the 20 days before the date that
share in corporate earnings and voting rights.
                                                                   Treasury granted preliminary CPP participation approval.
Community Development Financial Institutions
                                                                   Government-Sponsored Enterprises (“GSEs”): Private
(“CDFIs”): Financial institutions eligible for Treasury
                                                                   corporations created and chartered by the Government to
funding to serve urban and rural low-income communities
                                                                   reduce borrowing costs and provide liquidity in the market,
through the CDFI Fund. CDFIs were created in 1994
                                                                   the liabilities of which are not officially considered direct
by the Riegle Community Development and Regulatory
                                                                   taxpayer obligations. On September 7, 2008, the two largest
Improvement Act.
                                                                   GSEs, the Federal National Mortgage Association (“Fannie
Cumulative Redefault Rate: The total number of HAMP                Mae”) and the Federal Home Loan Mortgage Corporation
permanent modifications that have redefaulted (as of               (“Freddie Mac”), were placed into Federal conservatorship.
a specific date) divided by the total number of HAMP               They are currently being financially supported by the
permanent modifications started (as of the same specific           Government.
date).
                                                                   Haircut: Difference between the value of the collateral and
Custodian Bank: Bank holding the collateral and managing           the value of the loan (the loan value is less than the collateral
accounts for FRBNY; for TALF the custodian is Bank of New          value).
York Mellon.
366       APPENDIX A I GLOSSARY I JULY 30, 2014




      Illiquid Assets: Assets that cannot be quickly converted to      Non-Agency Residential Mortgage-Backed Securities
      cash.                                                            (“non-agency RMBS”): Financial instrument backed by
                                                                       a group of residential real estate mortgages (i.e., home
      Investors: Owners of mortgage loans or bonds backed by
                                                                       mortgages for residences with up to four dwelling units) not
      mortgage loans who receive interest and principal payments
                                                                       guaranteed or owned by a Government-sponsored enterprise
      from monthly mortgage payments. Servicers manage the cash
                                                                       (“GSE”) or a Government Agency.
      flow from homeowners’ monthly payments and distribute
      them to investors according to Pooling and Servicing             Non-Recourse Loan: Secured loan in which the borrower is
      Agreements (“PSAs”).                                             relieved of the obligation to repay the loan upon surrendering
                                                                       the collateral.
      Legacy Securities: Real estate-related securities originally
      issued before 2009 that remained on the balance sheets           Obligations: Definite commitments that create a legal
      of financial institutions because of pricing difficulties that   liability for the Government to pay funds.
      resulted from market disruption.
                                                                       Pool Assemblers: Firms authorized to create and market
      Limited Partnership: Partnership in which there is at least      pools of SBA-guaranteed loans.
      one partner whose liability is limited to the amount invested
                                                                       Preferred Stock: Equity ownership that usually pays a fixed
      (limited partner) and at least one partner whose liability
                                                                       dividend before distributions for common stock owners but
      extends beyond monetary investment (general partner).
                                                                       only after payments due to debt holders. It typically confers
      Loan Servicers: Companies that perform administrative            no voting rights. Preferred stock also has priority over
      tasks on monthly mortgage payments until the loan is             common stock in the distribution of assets when a bankrupt
      repaid. These tasks include billing, tracking, and collecting    company is liquidated.
      monthly payments; maintaining records of payments and
                                                                       Pro Rata: Refers to dividing something among a group of
      balances; allocating and distributing payment collections to
                                                                       participants according to the proportionate share that each
      investors in accordance with each mortgage loan’s governing
                                                                       participant holds as a part of the whole.
      documentation; following up on delinquencies; and initiating
      foreclosures.                                                    Qualified Institutional Buyers (“QIB”): Institutions that
                                                                       under U.S. securities law are permitted to buy securities that
      Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
                                                                       are exempt from registration under investor protection laws
      that mortgage lenders examine before approving a mortgage;
                                                                       and to resell those securities to other QIBs. Generally these
      calculated by dividing the outstanding amount of the loan
                                                                       institutions own and invest at least $100 million in securities,
      by the value of the collateral backing the loan. Loans with
                                                                       or are registered broker-dealers that own or invest at least $10
      high LTV ratios are generally seen as higher risk because the
                                                                       million in securities.
      borrower has less of an equity stake in the property.
                                                                       Risk-Weighted Assets: Risk-based measure of total assets
      Nationally Recognized Statistical Rating Organization
                                                                       held by a financial institution. Assets are assigned broad
      (“NRSRO”): Credit rating agency registered with the
                                                                       risk categories. The amount in each risk category is then
      SEC. Credit rating agencies provide their opinion of the
                                                                       multiplied by a risk factor associated with that category. The
      creditworthiness of companies and the financial obligations
                                                                       sum of the resulting weighted values from each of the risk
      issued by companies. The ratings distinguish between
                                                                       categories is the bank’s total risk-weighted assets.
      investment grade and non-investment grade equity and debt
      obligations.                                                     SBA Pool Certificates: Ownership interest in a bond backed
                                                                       by SBA-guaranteed loans.
      Net Present Value (“NPV”) Test: Compares the money
      generated by modifying the terms of the mortgage with the        Senior Preferred Stock: Shares that give the stockholder
      amount an investor can reasonably expect to recover in a         priority dividend and liquidation claims over junior preferred
      foreclosure sale.                                                and common stockholders.
                                                                       Senior Subordinated Debentures: Debt instrument ranking
                                                                       below senior debt but above equity with regard to investors’
                                                                       claims on company assets or earnings.
                                                                                              GLOSSARY I APPENDIX A I JULY 30, 2014   367




Servicing Advances: If borrowers’ payments are not made           Undercapitalized: Condition in which a financial institution
promptly and in full, mortgage servicers are contractually        does not meet its regulator’s requirements for sufficient
obligated to advance the required monthly payment amount          capital to operate under a defined level of adverse conditions.
in full to the investor. Once a borrower becomes current
                                                                  Underwater Mortgage: Mortgage loan on which a
or the property is sold or acquired through foreclosure, the
                                                                  homeowner owes more than the home is worth, typically as a
servicer is repaid all advanced funds.
                                                                  result of a decline in the home’s value. Underwater mortgages
Short Sale: Sale of a home for less than the unpaid mortgage      also are referred to as having negative equity.
balance. A homeowner sells the home and the investor
accepts the proceeds as full or partial satisfaction of the
unpaid mortgage balance, thus avoiding the foreclosure
process.
Skin in the Game: Equity stake in an investment; down
payment; the amount an investor can lose.
Special Purpose Vehicle (“SPV”): A legal entity, often off-
balance-sheet, that holds transferred assets presumptively
beyond the reach of the entities providing the assets, and that
is legally isolated from its sponsor or parent company.
Subchapter S Corporations (“S corporations”): Corporate
form that passes corporate income, losses, deductions, and
credit through to shareholders for Federal tax purposes.
Shareholders of S corporations report the flow-through of
income and losses on their personal tax returns and are taxed
at their individual income tax rates.
Subordinated Debentures: Form of debt security that ranks
below other loans or securities with regard to claims on assets
or earnings.
Systemically Significant Institutions: Term referring to any
financial institution whose failure would impose significant
losses on creditors and counterparties, call into question the
financial strength of similar institutions, disrupt financial
markets, raise borrowing costs for households and businesses,
and reduce household wealth.
TALF Agent: Financial institution that is party to the TALF
Master Loan and Security Agreement and that occasionally
acts as an agent for the borrower. TALF agents include
primary and nonprimary broker-dealers.
Trial Modification: Under HAMP, a period of at least three
months in which a borrower is given a chance to establish
that he or she can make lower monthly mortgage payments
and qualify for a permanent modification.
Trust Preferred Securities (“TRUPS”): Securities that have
both equity and debt characteristics created by establishing a
trust and issuing debt to it.
368         APPENDIX A I GLOSSARY I JULY 30, 2014




      Sources:
      Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
      fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
      7/14/2014.
      Federal Reserve Board, Federal Reserve Banks Operating Circular No. 9: Treasury Investments and
      Collateral Securing Public Funds and Financial Interests of the Government, www.frbservices.org/
      files/regulations/pdf/operating_circular_9_072513.pdf, accessed 7/14/2014.
      FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 7/14/2014.
      FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
      card_securitization/glossary.html, accessed 7/14/2014.
      FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
      rules/2000-4600.html, accessed 7/14/2014.
      FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed
      7/14/2014.
      SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
      3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
      Affordable_Modification_Program.pdf, accessed 7/14/2014.
      GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
      special.pubs/d06382sp.pdf, p. 7-3, accessed 7/14/2014.
      GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
      on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
      pdf, accessed 7/14/2014; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
      Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
      Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 7/14/2014.
      IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
      Employed/Abusive-Offshore-Tax-Avoidance-Schemes-Glossary-of-Offshore-Terms, accessed
      7/14/2014.
      Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012, www.
      hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
      accessed 7/14/2014.
      SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
      groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 7/14/2014.
      SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 7/14/2014.
      Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
      7/14/2014.
      Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
      center/press-releases/Pages/tg58.aspx, accessed 7/14/2014.
      Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
      Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
      aspx, accessed 7/14/2014.
      Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
      Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
      sd1014.pdf, accessed 7/14/2014.
      Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
      www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 7/14/2014.
      U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
      www.census.gov/hhes/www/rfs/glossary.html#l, accessed 7/14/2014.
      U.S. Department of Housing and Urban Development, “Glossary,” no date, portal.hud.gov/hudportal/
      HUD?src=/program_offices/housing/sfh/buying/glossary, accessed 7/14/2014.
                                                                                 ACRONYMS AND ABBREVIATIONS I APPENDIX B I JULY 30, 2014              369




ACRONYMS AND ABBREVIATIONS

              2MP      Second Lien Modification Program                                  DTI   debt-to-income
               ABS     asset-backed securities                                        EESA     Emergency Economic Stabilization Act of 2008
          the “Act” Securities Act of 1933                                   Eligible Assets   securities eligible for purchase by PPIFs
               AGP Asset Guarantee Program                                      Fannie Mae     Federal National Mortgage Association
               AIFP    Automotive Industry Financing Program                           FDIC    Federal Deposit Insurance Corporation
                AIG    American International Group, Inc.                          Farmers Farmers Bank & Trust, N.A.
Ally, Ally Financial   Ally Financial Inc.                                         Farmers
                                                                                            Farmers Enterprises, Inc.
                                                                                Enterprises
              AMS      American Mortgage Specialists, Inc.
                                                                                               Federal Deposit Insurance Corporation Office of
              ASSP Auto Supplier Support Program                                  FDIC OIG
                                                                                               Inspector General
             AWCP      Auto Warranty Commitment Program
                                                                            Federal Reserve    Board of Governors of the Federal Reserve System
 Bank of America Bank of America Corporation
                                                                                        FHA    Federal Housing Administration
       Blue Valley     Blue Valley
                                                                                   FHA2LP      Treasury/FHA Second-Lien Program
               BNC     BNC National Bank
                                                                                        Fiat   Fiat North America LLC
               BOC     Bank of the Commonwealth
                                                                                               Office of Inspector General-Board of Governors of
                                                                                   FRB OIG
Broadway Federal       Broadway Federal Bank                                                   the Federal Reserve System
               CAP Capital Assistance Program                                       FRBNY      Federal Reserve Bank of New York
               CBO     Congressional Budget Office                             Freddie Mac     Federal Home Loan Mortgage Corporation
              CDCI     Community Development Capital Initiative                       FSOC     Financial Stability Oversight Council or the Council
              CDFI     Community Development Financial Institution                      FTC    Federal Trade Commission
               CDO     collateralized debt obligations                                 GAO     Government Accountability Office
              CEBT     Colorado East Bank and Trust                                     GM     General Motors Company
  Central Federal Central Federal Corporation                                  GM Financial    General Motors Financial Company, Inc.
               CEO     chief executive officer                                          GSE    Government-sponsored enterprise
         Cerberus      Cerberus Capital Management, L.P.                              HAFA     Home Affordable Foreclosure Alternatives program
               CFO     chief financial officer                                                 Home Affordable Modification Program; HAMP
                                                                                      HAMP
                                                                                               Tier 1
             Chase JPMorgan Chase
                                                                               HAMP Tier 2     Home Affordable Modification Program Tier 2
          Chrysler     Chrysler Holding LLC
                                                                                        HFA    Housing Finance Agency
Chrysler Financial     Chrysler Financial Services Americas LLC
                                                                                        HHF    Hardest Hit Fund
                       Council of the Inspectors General on Integrity and
              CIGIE
                       Efficiency                                           HHF or Hardest
                                                                                           Housing Finance Agency Hardest Hit Fund
                                                                                  Hit Fund
         Citigroup     Citigroup Inc.
                                                                                      HOPE     Home Owners Protection Economics
             CMBS      commercial mortgage-backed securities
                                                                                      HPDP     Home Price Decline Protection
Coastal Securities Coastal Securities, Inc.
                                                                                       HUD     Department of Housing and Urban Development
               CPP Capital Purchase Program
                                                                             Idaho Bancorp Idaho Bancorp, Boise, Idaho
                       Department of Education Office of Inspector
            DE OIG
                       General                                                     Jefferies Jefferies, LLC
                       Dodd-Frank Wall Street Reform and Consumer                  Jobs Act    Small Business Jobs Act of 2010
  Dodd-Frank Act
                       Protection Act
                                                                                 KC United     KC United, LLC
370       APPENDIX B I ACRONYMS AND ABBREVIATIONS I JULY 30, 2014




                 IPO    initial public offering                                    S corporations subchapter S corporations
             Lincoln Lincoln National Life Insurance Company                                  SBA    Small Business Administration
                 LTV    loan-to-value                                                        SBLF    Small Business Lending Fund
                M&T     M&T Bank Corporation                                                  SEC    Securities and Exchange Commission
                MBS     mortgage-backed securities                                       servicers loan servicers
               MCP mandatorily convertible preferred shares                     servicing advance receivables for residential mortgage servicing
                                                                                       receivables advances
               MHA      Making Home Affordable program
                                                                                   Shay Financial    Shay Financial Services, Inc.
                NAV net asset value
                                                                                                     Office of the Special Inspector General for the
                        Neighborhood Reinvestment Corporation and                        SIGTARP
      NeighborWorks                                                                                  Troubled Asset Relief Program
                        NeighborWorks America
                                                                                                     Special Inspector General for the Troubled Asset
               NMC      Nationwide Mortgage Concepts                                 SIGTARP Act
                                                                                                     Relief Program Act of 2009
        Non-Agency Non-Agency Residential Mortgage-Backed
                                                                                   Small Business
             RMBS Securities                                                                         Jobs Act of 2010
                                                                                         Jobs Act
                NPV net present value
                                                                                              SPA Servicer Participation Agreements
              NRRM new Recast, Refinance and Modification Program
                                                                                              SPS    Select Portfolio Services
             NRSRO      nationally recognized statistical rating organization
                                                                                              SPV    special purpose vehicle
              NYAG New York State Attorney General
                                                                                              SSFI   Systemically Significant Failing Institutions program
             Ocwen Ocwen Loan Servicing, LLC
                                                                                            STOLI stranger-originated life insurance
                OFS     Office of Financial Stability
                                                                                         SunTrust SunTrust Mortgage, Inc. and SunTrust Banks, Inc.
         Old Second     Old Second National Bank
                                                                                             TALF    Term Asset-Backed Securities Loan Facility
               OMB      Office of Management and Budget
                                                                                             TARP    Troubled Asset Relief Program
         Option ARM Option Adjustable Rate Mortgage
                                                                                              TBW    Taylor, Bean and Whitaker Mortgage Corporation
                  PII   personally identifiable information
                                                                                              TCW    The TCW Group, Inc.
                PPIF Public-Private Investment Fund
                                                                                               TIP Targeted Investment Program
               PPIP Public-Private Investment Program
                                                                                              TPP trial period plan
                PRA Principal Reduction Alternative
                                                                                         Treasury Department of the Treasury
                PSA     Pooling and Servicing Agreements
                                                                                                     Department of Treasury Office of Inspector
                                                                                     Treasury OIG
             Pulaski Pulaski Bank                                                                    General
                 QIB    Qualified Institutional Buyers                                   Treasury
                                                                                                  Secretary of the Treasury
                                                                                        Secretary
                        Department of Agriculture Office of Rural
                 RD
                        Development                                                Treasury/FHA-     HAMP Loan Modification Option for FHA-insured
                                                                                           HAMP      Mortgages
                        Department of Agriculture Office of Rural
           RD-HAMP
                        Development HAMP                                                   TRUPS     trust preferred securities
            ResCap Residential Capital, LLC                                                          Tennesse Valley Authority's Office of the Inspector
                                                                                          TVA OIG
                                                                                                     General
                    request for mortgage assistance/Request for
                RMA
                    Modification and Affidavit                                                UAW    United Auto Workers
              RMBS residential mortgage-backed securities                                     UCR    United Credit Recovery, LLC
                        Railroad Retirement Board Office of Inspector                        UCSB    Unlocking Credit for Small Businesses
            RRB OIG
                        General
                                                               ACRONYMS AND ABBREVIATIONS I APPENDIX B I JULY 30, 2014   371




          UP Home Affordable Unemployment Program
Urban Motors Urban Motors Corporation
          VA Department of Veterans Affairs
              Department of Veterans Affairs Home Affordable
    VA HAMP
              Modification Program
Western Asset Western Asset Management Company
372         APPENDIX C I REPORTING REQUIREMENTS I JULY 30, 2014




 REPORTING REQUIREMENTS
 This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
 Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
 data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

  #    EESA        EESA Reporting        Treasury Response to SIGTARP Data Call                                                          SIGTARP Report
       Section     Requirement                                                                                                           Section
  1    Section     A description of      Treasury’s authority to make new financial commitments under TARP ended on October 3,           Section 2: “TARP
       121(c)(A)   the categories of     2010.                                                                                           Overview”
                   troubled assets       Accordingly, the Secretary of the Treasury has not purchased or otherwise procured any
                   purchased or                                                                                                          Appendix D:
                                         troubled assets under TARP since that date.
                   otherwise procured                                                                                                    “Transaction
                   by the Treasury       Below are program descriptions from Treasury’s website, www.treasury.gov/initiatives/           Detail”
                   Secretary.            financial-stability/Pages/default.aspx, as of 7/11/2013, or as otherwise noted:
                                         CPP: The Capital Purchase Program (CPP) was launched to stabilize the financial system
                                         by providing capital to viable financial institutions of all sizes throughout the nation.
                                         Without a viable banking system, lending to businesses and consumers could have frozen
                                         and the financial crisis might have spiraled further out of control.
                                         AIG (otherwise known as Systemically Significant Failing Institutions (“SSFI”): At the height
                                         of the financial crisis in September 2008, American International Group (AIG) was on
                                         the brink of failure. At the time, AIG was the largest provider of conventional insurance
                                         in the world. Millions depended on it for their life savings and it had a huge presence
                                         in many critical financial markets, including municipal bonds. AIG’s failure would have
                                         been devastating to global financial markets and the stability of the broader economy.
                                         Therefore, the Federal Reserve and Treasury acted to prevent AIG’s disorderly failure.
                                         AGP: Under the Asset Guarantee Program (AGP), the government supported institutions
                                         whose failure would have caused serious harm to the financial system and the broader
                                         economy. It involved supporting the value of certain assets held by qualifying financial
                                         institutions by agreeing to absorb a portion of losses on those assets. AGP was
                                         conducted jointly by Treasury, the Federal Reserve, and the FDIC and was used in
                                         conjunction with other forms of exceptional assistance. … Two institutions received
                                         assistance under the AGP - Bank of America and Citigroup.
                                         TIP: The Targeted Investment Program (TIP) was created to help stabilize institutions
                                         considered systemically significant, to prevent broader disruption of financial markets.
                                         Under the TIP, Treasury purchased $20 billion in preferred stock from two institutions,
                                         Citigroup Inc. and Bank of America.
                                         TALF: The Term Asset-Backed Securities Loan Facility (TALF) is a joint program with the
                                         Federal Reserve. The program was launched in March 2009 with the aim of helping to
                                         restart the asset-backed securitization (ABS) markets that provide credit to consumers
                                         and small businesses. … Under this program, the Federal Reserve Bank of New York
                                         made non-recourse loans to buyers of AAA-rated asset-backed securities to help stimulate
                                         consumer and business lending. Treasury used TARP funds to provide credit support for
                                         these loans.
                                         PPIP: On March 23, 2009, Treasury announced the Legacy Securities Public-Private
                                         Investment Program (PPIP), which was designed to support market functioning and
                                         facilitate price discovery in the markets for legacy Commercial Mortgage-Backed
                                         Securities (CMBS) and non-agency Residential Mortgage-Backed Securities (RMBS).
                                         CDCI: Treasury created the Community Development Capital Initiative (CDCI) on February
                                         3, 2010 to help viable certified Community Development Financial Institutions (CDFIs)
                                         and the communities they serve cope with effects of the financial crisis. Under this
                                         program, CDFI banks, thrifts, and credit unions received investments of capital. Eighty-four
                                         institutions received investments totaling approximately $570 million.
                                                                                        REPORTING REQUIREMENTS I APPENDIX C I JULY 30, 2014               373




#   EESA        EESA Reporting          Treasury Response to SIGTARP Data Call                                                        SIGTARP Report
    Section     Requirement                                                                                                           Section
                                        SBLF: Established by the Small Business Jobs Act of 2010 (the Act), the Small Business
                                        Lending Fund (SBLF) is a dedicated fund designed to provide capital to qualified
                                        community banks and community development loan funds (CDLFs) in order to encourage
                                        small business lending. The purpose of the SBLF is to encourage Main Street banks and
                                        small businesses to work together, help create jobs, and promote economic growth in
                                        communities across the nation.
                                        SBA 7(a) Securities Purchase Program (formerly known as UCSB): Treasury launched the
                                        SBA 7(a) Securities Purchase Program to help unlock credit for small businesses. Under
                                        this program, Treasury purchased securities backed by the government guaranteed
                                        portion of SBA 7(a) small business loans and provided additional liquidity to the market in
                                        order to increase overall small business lending.
                                        AIFP: The Automotive Industry Financing Program (AIFP) was launched in December
                                        2008 to prevent the uncontrolled liquidation of Chrysler and General Motors (GM) and the
                                        collapse of the U.S. auto industry.
                                        ASSP: The Automotive Supplier Support Program was created to ensure that auto
                                        suppliers received compensation for their services and products, regardless of the
                                        condition of the auto companies that purchase their products.a
                                        AWCP: Treasury provided loans to protect warranties on new vehicles purchased from GM
                                        and Chrysler during their restructuring periods.a
                                        HAMP (a program under MHA): The Home Affordable Modification Program’s goal is to
                                        offer homeowners who are at risk of foreclosure reduced monthly mortgage payments
                                        that are affordable and sustainable over the long-term. HAMP was designed to help
                                        families who are struggling to remain in their homes and show: documented financial
                                        hardship and an ability to make their monthly mortgage payments after a modification.
                                        HAMP is a voluntary program that supports servicers’ efforts to modify mortgages,
                                        while protecting taxpayers’ interests. To protect taxpayers, MHA housing initiatives have
                                        pay-for-success incentives. This means that funds are spent only when transactions are
                                        completed and only as long as those contracts remain in place. Therefore, funds will be
                                        disbursed over many years.
2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
    121(c)(B)   troubled assets         2010.                                                                                         “Transaction
                purchased in each       Information on all transactions as well as additional information about these programs and
                                                                                                                                      Detail”
                such category           related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                described under         to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                Section 121(c)(A).      default.aspx.
3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,         Section 2: “TARP
    121(c)(C)   of the reasons          2010.                                                                                         Overview”
                the Treasury
                Secretary deemed                                                                                                      Appendix C:
                it necessary to                                                                                                       “Reporting
                purchase each such                                                                                                    Requirements”
                troubled asset.                                                                                                       of prior SIGTARP
                                                                                                                                      Quarterly Reports
                                                                                                                                      to Congress
4   Section     A listing of each       Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
    121(c)(D)   financial institution   2010.                                                                                         “Transaction
                from which such                                                                                                       Detail”
                troubled assets         Information on all transactions as well as additional information about these programs and
                were purchased.         related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                                        to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                                        default.aspx.
374              APPENDIX C I REPORTING REQUIREMENTS I JULY 30, 2014




  #       EESA             EESA Reporting             Treasury Response to SIGTARP Data Call                                                                              SIGTARP Report
          Section          Requirement                                                                                                                                    Section
  5       Section          A listing of               There have been no new PPIP fund managers hired between June 30, 2013 and June 30,                                  Section 2:
          121(c)(E)        and detailed               2014.                                                                                                               “Public-Private
                           biographical                                                                                                                                   Investment
                           information on each                                                                                                                            Program”
                           person or entity
                           hired to manage                                                                                                                                Appendix C:
                           such troubled                                                                                                                                  “Reporting
                           assets.                                                                                                                                        Requirements”
                                                                                                                                                                          of prior SIGTARP
                                                                                                                                                                          Quarterly Reports
                                                                                                                                                                          to Congress
  6       Section          A current estimate         Treasury published its most recent valuation of TARP investments on 7/10/2014, in                                   Table C.1;
          121(c)(F)        of the total amount        its June 2014 Monthly Report to Congress, which will be available on Treasury’s public                              Section 2:
                           of troubled assets         website at the following link: www.treasury.gov/initiatives/financial-stability/reports/                            “TARP Overview”
                           purchased pursuant         Pages/Monthly-Report-to-Congress.aspx.
                           to any program                                                                                                                                 Appendix D:
                           established under                                                                                                                              “Transaction
                           Section 101, the                                                                                                                               Detail”
                           amount of troubled
                           assets on the books
                           of Treasury, the
                           amount of troubled
                           assets sold, and
                           the profit and loss
                           incurred on each
                           sale or disposition
                           of each such
                           troubled assets.
  7       Section          A listing of the           Treasury’s authority to make new financial commitments under TARP ended on October 3,                               Section 2:
          121(c)(G)        insurance contracts        2010. As such, Treasury cannot issue any new insurance contracts after this date.                                   “TARP Overview”
                           issued under
                           Section 102.                                                                                                                                   Section 2:
                                                                                                                                                                          “Targeted
                                                                                                                                                                          Investment
                                                                                                                                                                          Program and
                                                                                                                                                                          Asset Guarantee
                                                                                                                                                                          Program”
  8       Section          A detailed                 Treasury’s authority to make new financial commitments under TARP ended on October 3,                               Table C.1;
          121(f)           statement of               2010.
                           all purchases,                                                                                                                                 Section 2:
                                                      Treasury provides information about TARP obligations, expenditures, and revenues in
                           obligations,                                                                                                                                   “TARP Overview”
                                                      TARP Transactions Reports available on Treasury’s public website at www.treasury.gov/
                           expenditures,
                                                      initiatives/financial-stability/Pages/default.aspx.
                           and revenues                                                                                                                                   Section 4:
                           associated with            Information on obligations and expenditures is also available in the Daily TARP Update                              “TARP
                           any program                reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                          Operations and
                           established by the         stability/reports/Pages/Daily-TARP-Reports.aspx.                                                                    Administration”
                           Secretary of the
                           Treasury under                                                                                                                                 Appendix D:
                           Sections 101 and                                                                                                                               “Transaction
                           102.                                                                                                                                           Detail”
  Notes:
  a
    Description is as of 7/11/2013.

  Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 7/3/2014; ASSP: “Treasury Announces Auto
  Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 7/3/2014; AWCP: “Obama Administration’s New Warrantee Commitment Program,”
  no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 7/3/2014; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked
  Questions,” 3/3/2009, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 7/3/2014; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010, www.gpo.
  gov/fdsys/pkg/PLAW-111publ240/html/PLAW-111publ240.htm, accessed 7/3/2014; MHA “Making Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/initiatives/
  financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 7/3/2014.
                                                                                                                                 REPORTING REQUIREMENTS I APPENDIX C I JULY 30, 2014                                          375




TABLE C.1
 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                         ($ BILLIONS)
 (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                                     Obligations
                                                                                                                     After Dodd-                     Current
                                                                                                                           Frank                  Obligations
                                                                                                                           (As of                      (As of                                         On Treasury’s
                                                                                    Total Funding                   10/3/2010)                   6/30/2014)                        Expended                 Booksa
 Housing Support Programs                                                                    $70.6b                           $45.6                        $38.5c                         $12.8                      $—d
                                                                                             204.9
 Capital Purchase Program (“CPP”)                                                                                             204.9                        204.9                          204.9                      6.6
                                                                                            (196.1)e
                                                                                                 0.6
 Community Development Capital Initiative (“CDCI”)                                                                                0.6                          0.6f                           0.2                    0.5
                                                                                                (0.1)
                                                                                               69.8
 Systemically Significant Failing Institutions (“SSFI”)                                                                         69.8                         67.8h                          67.8                   13.5
                                                                                              (56.4)g
                                                                                               40.0
 Targeted Investment Program (“TIP”)                                                                                            40.0                         40.0                           40.0                     0.0
                                                                                              (40.0)
                                                                                             301.0
 Asset Guarantee Program (“AGP”)                                                                                                  5.0                          5.0                            0.0                    0.0
                                                                                            (301.0)
                                                                                               81.8j
 Automotive Industry Support Programs (“AIFP”)i                                                                                 81.8                         79.7                           79.7                   18.0
                                                                                              (61.6)
                                                                                               71.1
 Term Asset-Backed Securities Loan Facility (“TALF”)                                                                              4.3                          0.1                            0.1                    0.0
                                                                                                (0.1)k
                                                                                               29.8
 Public-Private Investment Program (“PPIP”)                                                                                     22.4                         18.8                           18.6                     0.0m
                                                                                              (18.6)l
                                                                                                 0.4n
 Unlocking Credit for Small Businesses (“UCSB”)                                                                                   0.4                          0.4                            0.4                    0.0
                                                                                                (0.4)
 Total                                                                                    $868.9                            $474.8                      $455.7                        $424.5o                    $38.6
 Notes: Numbers may not total due to rounding.
 a
         “On Treasury’s Books” includes amounts disbursed and still outstanding of $4.3 billion, plus write-offs and realized losses totaling $34.3 billion. It does not include $12.8 billion in TARP dollars spent on
          housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
             Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
              estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
 c
          On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
            Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 e
           Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $371.2 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include
            $2.2 billion refinanced from CPP into the Small Business Lending Fund.
 f
     CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
      was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
      Of the total obligation, only $106 million went to non-CPP institutions.
 g
               The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
                received from the AIG credit facility trust in the January 2011 recapitalization.
 h
       Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 i
   Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 j
   Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 k
      On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to
       $0.1 billion.
 l
    On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
     $958 million is included in this repayment total.
 m
                PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6
                 billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of
                 $18.8 billion results because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn
                 equity was not as of June 30, 2014, except for Invesco.
 n
        Treasury reduced commitment from $15 billion to an obligation of $400 million.
 o
              The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Repayments data: Treasury, Transactions Report, 6/30/2014; Treasury, Daily TARP Update, 7/1/2014.
TRANSACTION DETAIL
TABLE D.1                                                                                                                                                                                                                                                    376
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014
                                                                                                                                        Number     Average Price                                              Stock Price       Current
Transaction                                                                 Capital Repayment/                     Remaining Capital   of Shares       of Shares   (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2   Disposition/ Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/23/2008                                              $13,433,242.67                                                        $0.00
           1st Constitution
10/27/2010 Bancorp,                   $12,000,000.00                            $12,000,000.00                                           12,000       $1,000.00                                                 $10.14                      $1,106,666.67
           Cranbury, NJ11
11/22/2011                                                                                                                                                                                       $326,576.00
2/13/2009    1st Enterprise            $4,400,000.00    $11,748,156.44                                                        $0.00
             Bank, Los
12/11/2009                             $6,000,000.00                                                                                                                                                            $24.99                      $1,128,156.44
             Angeles,
9/1/2011     CA8,14,18,44                                                       $10,400,000.00                                           10,400       $1,000.00                                  $220,000.00
11/14/2008 1st FS                                        $9,229,948.97                                                        $0.00
           Corporation,
                                      $16,369,000.00                                                                                                                                                             $0.38                      $1,229,948.97
12/31/2013 Hendersonville,                                                        $8,000,000.00                                          16,369         $488.70     ($8,369,000.00)
           NC102
1/23/2009                                              $125,480,000.00                                                        $0.00
           1st Source
12/29/2010 Corporation,              $111,000,000.00                           $111,000,000.00                                          111,000       $1,000.00                                                 $30.62                    $10,730,000.00
           South Bend, IN11
3/9/2011                                                                                                                                                                                        $3,750,000.00
3/13/2009 1st United                                    $10,870,902.67                                                        $0.00
           Bancorp, Inc.,
                                      $10,000,000.00                                                                                                                                                             $8.62                        $370,902.67
11/18/2009 Boca   Raton,                                                        $10,000,000.00                                           10,000       $1,000.00                                  $500,000.00
           FL8,11,14
                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




1/23/2009                                                $1,274,909.59                                                        $0.00
11/19/2013                                                                          $815,100.00                                           2,964         $275.00     ($2,148,900.00)
             AB&T Financial
1/6/2014     Corporation,              $3,500,000.00                                                ($50,000.00)                                                                                                 $0.42                        $360,694.44
             Gastonia, NC
2/10/2014                                                                           $150,621.36                                             536         $281.00       ($385,378.64)
3/19/2014                                                                                            ($1,506.21)
1/30/2009    Adbanc, Inc,                               $15,071,769.00                                                        $0.00
                                      $12,720,000.00                                                                                                                                                                                        $1,715,769.00
7/21/2011    Ogallala, NE8,14,44                                                $12,720,000.00                                           12,720       $1,000.00                                  $636,000.00
1/23/2009                                                $7,674,004.73                                                        $0.00
7/19/2013    Alarion Financial                                                      $877,729.70                                             893         $982.90        ($15,270.30)
             Services, Inc.,           $6,514,000.00                                                                                                                                                                                          $998,056.89
7/22/2013    Ocala, FL8,14                                                        $5,524,880.90                                           5,621         $982.90        ($96,119.10)              $337,363.35
9/12/2013                                                                                           ($64,026.11)
2/6/2009                                                 $7,501,881.70                                                        $0.00
11/28/2012                                                                          $208,870.74                                             234         $892.60        ($25,129.26)
11/29/2012 Alaska Pacific                                                         $4,058,697.67                                           4,547         $892.60       ($488,302.33)
           Bancshares, Inc.,           $4,781,000.00                                                                                                                                                            $17.11                        $913,405.03
1/11/2013 Juneau, AK104                                                                             ($42,675.67)
3/26/2013                                                                                            ($7,324.33)
4/1/2014                                                                                                                                                                                        $2,370,908.26
6/26/2009                                                $3,581,397.27                                                        $0.00
3/27/2013    Alliance                                                                                                                                                                             $94,153.69
             Bancshares, Inc.,         $2,986,000.00                                                                                                                                                                                          $611,059.81
3/28/2013    Dalton, GA                                                           $2,856,437.46                                           2,986         $956.60       ($129,562.54)               $44,746.31
4/9/2013                                                                                            ($25,000.00)
12/19/2008                                              $28,356,360.00                                                        $0.00
             Alliance Financial
5/13/2009    Corporation,             $26,918,000.00                            $26,918,000.00                                           26,918       $1,000.00                                                 $24.02                        $538,360.00
             Syracuse, NY11
6/17/2009                                                                                                                                                                                        $900,000.00
6/26/2009                                                $9,806,136.60                                                        $0.00
             Alliance Financial
2/6/2013     Services Inc.,                                                       $3,375,945.00                                        4,500,000          $0.75     ($1,124,055.00)
                                      $12,000,000.00                                                                                                                                                                                          $388,741.80
2/7/2013     Saint Paul,                                                          $5,626,575.00                                        7,500,000          $0.75     ($1,873,425.00)              $504,900.00
             MN14,15
3/26/2013                                                                                           ($90,025.20)
             Allied First
4/24/2009    Bancorp, Inc.,            $3,652,000.00       $409,753.00                                                $3,652,000.00                                                                              $0.25                        $409,753.00
             Oswego, IL8
                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                          (CONTINUED)
                                                                                                                                           Number     Average Price                                                       Stock Price       Current
Transaction                                                                  Capital Repayment/                      Remaining Capital    of Shares       of Shares    (Realized Loss)/                                      as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed            (Write-off)         Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
3/27/2009                                                 $73,129,160.69                                                        $0.00
9/18/2012    Alpine Banks                                                            $280,115.76                                               344         $814.30         ($63,884.24)
             of Colorado,
9/19/2012                              $70,000,000.00                              $6,559,920.24                                             8,056         $814.30      ($1,496,079.76)                                                               $13,407,113.69
             Glenwood
9/20/2012    Springs, CO8,14                                                      $50,160,264.00                                            61,600         $814.30     ($11,439,736.00)                     $3,291,750.00
11/16/2012                                                                                           ($570,003.00)
1/30/2009    AMB Financial                                 $4,387,576.45                                                        $0.00
             Corp., Munster,            $3,674,000.00                                                                                                                                                                        $8.50                        $529,576.45
9/22/2011    IN8,14,45                                                             $3,674,000.00                                             3,674       $1,000.00                                           $184,000.00

3/6/2009     AmeriBank                                     $2,960,021.33                                                        $0.00
             Holding Company,
                                        $2,492,000.00                                                                                                                                                                                                     $343,021.33
9/15/2011    Collinsville,                                                         $2,492,000.00                                             2,492       $1,000.00                                           $125,000.00
             OK8,14,44
1/9/2009                                                $3,803,257,308.33                                                       $0.00
             American Express
6/17/2009    Company, New           $3,388,890,000.00                          $3,388,890,000.00                                          3,388,890      $1,000.00                                                          $94.61                    $74,367,308.33
             York, NY11
7/29/2009                                                                                                                                                                                                 $340,000,000.00
5/29/2009    American Premier                              $2,052,682.49                                                        $0.00
             Bancorp, Arcadia,          $1,800,000.00                                                                                                                                                                                                     $162,682.49
1/26/2011    CA8,11,14                                                             $1,800,000.00                                             1,800       $1,000.00                                            $90,000.00

1/9/2009     American State                                $7,220,141.67                                                        $0.00
             Bancshares,
                                        $6,000,000.00                                                                                                                                                                                                     $920,141.67
11/2/2011    Inc., Great Bend,                                                     $6,000,000.00                                             6,000       $1,000.00                                           $300,000.00
             KS8,11,14
11/21/2008                                                $59,637,438.67                                                        $0.00
             Ameris Bancorp,
6/19/2012                              $52,000,000.00                             $48,391,200.00     ($725,868.00)                          52,000         $930.60      ($3,608,800.00)                                     $21.51                      $9,302,106.67
             Moultrie, GA
8/22/2012                                                                                                                                                                                                   $2,670,000.00
12/19/2008                                                $24,601,666.66                                                        $0.00
             AmeriServ
8/11/2011    Financial, Inc,           $21,000,000.00                             $21,000,000.00                                            21,000       $1,000.00                                                           $3.48                      $2,776,666.66
             Johnstown, PA45
11/2/2011                                                                                                                                                                                                    $825,000.00
8/21/2009                                                  $6,523,255.00                                                        $0.00
3/26/2013                                                                            $359,040.00                                           374,000           $0.96         ($14,960.00)
             AmFirst Financial
3/27/2013    Services, Inc.,            $5,000,000.00                              $2,112,000.00                                          2,200,000          $0.96         ($88,000.00)                                                                 $1,511,380.00
             McCook, NE14,15
3/28/2013                                                                          $2,328,960.00                                          2,426,000          $0.96         ($97,040.00)                      $259,875.00
4/9/2013                                                                                              ($48,000.00)
1/30/2009    Anchor BanCorp                                $6,000,000.00                                                        $0.00
             Wisconsin Inc.,          $110,000,000.00                                                                                                                                                                       $19.09
9/27/2013    Madison, WI94                                                         $6,000,000.00                                         60,000,000          $0.10    ($104,000,000.00)

1/30/2009                                                  $9,643,136.33                                                        $0.00                                                                                       $12.82
             Annapolis
4/18/2012    Bancorp, Inc.              $8,152,000.00                              $4,076,000.00                                             4,076       $1,000.00
             Annapolis11,90
3/6/2013                                                                           $4,076,000.00                                             4,076       $1,000.00
11/21/2008                                               $596,539,172.32                                                        $0.00
4/6/2011     Associated                                                          $262,500,000.00                                           262,500       $1,000.00
             Banc-Corp, Green         $525,000,000.00                                                                                                                                                                       $18.08                    $68,104,166.67
9/14/2011    Bay, WI11                                                           $262,500,000.00                                           262,500       $1,000.00
12/6/2011                                                                                                                                                                                                   $3,435,005.65
12/29/2009                                                 $2,503,554.78                                                        $0.00
2/7/2014     Atlantic                                                              $1,950,000.00                                             1,950       $1,150.00                          $292,500.00       $95,031.02
             Bancshares, Inc.,          $2,000,000.00                                                                                                                                                                        $2.30                        $122,724.78
2/10/2014    Bluffton, SC8,17                                                         $50,000.00                                                50       $1,150.00                            $7,500.00       $10,798.98
3/19/2014                                                                                             ($25,000.00)
2/27/2009    Avenue Financial                              $8,798,415.33                                                        $0.00
             Holdings, Inc.,            $7,400,000.00                                                                                                                                                                                                   $1,028,415.33
9/15/2011    Nashville, TN8,14,44                                                  $7,400,000.00                                             7,400       $1,000.00                                           $370,000.00

1/30/2009    Avidbank                                      $7,563,057.15                                                        $0.00
                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




             Holdings, Inc./
7/31/2013                               $6,000,000.00                              $6,000,000.00                                             6,000       $1,000.00                                                                                      $1,372,276.03
             Peninsula Bank
8/28/2013    Holding Co.11                                                                                                                                                                                   $190,781.12
3/13/2009    BancIndependent,                             $24,841,411.03                                                        $0.00
             Inc., Sheffield,          $21,100,000.00                                                                                                                                                                                                   $2,686,411.03
7/14/2011    AL8,44                                                               $21,100,000.00                                            21,100       $1,000.00                                          $1,055,000.00

                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                         377
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                   378
                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                                                                    Capital Repayment/                     Remaining Capital   of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
7/10/2009    Bancorp Financial,                             $15,595,736.93                                                       $0.00
             Inc., Oak Brook,          $13,669,000.00                                                                                                                                                                                            $1,516,736.93
8/18/2011    IL8,17,44                                                              $13,669,000.00                                          13,669       $1,000.00                                    $410,000.00

12/19/2008                                                  $32,341,666.66                                                       $0.00
             Bancorp Rhode
8/5/2009     Island, Inc.,             $30,000,000.00                               $30,000,000.00                                          30,000       $1,000.00                                                                                 $941,666.66
             Providence, RI11
9/30/2009                                                                                                                                                                                            $1,400,000.00
2/20/2009    BancPlus                                       $54,607,399.33                                                       $0.00
             Corporation,
                                       $48,000,000.00                                                                                                                                                                                            $4,207,399.33
9/29/2010    Ridgeland,                                                             $48,000,000.00                                          48,000       $1,000.00                                   $2,400,000.00
             MS8,11,14
4/3/2009                                                    $10,701,460.58                                                       $0.00
4/26/2013    BancStar, Inc.,                                                            $98,267.00                                             100         $982.70         ($1,733.00)
                                         $8,600,000.00                                                                                                                                                                                           $1,908,669.65
4/29/2013    Festus, MO8,14                                                          $8,352,695.00                                           8,500         $982.70       ($147,305.00)                $426,338.55
5/31/2013                                                                                              ($84,509.62)
12/19/2008 BancTrust                                        $60,451,155.74                                                       $0.00
           Financial Group,            $50,000,000.00                                                                                                                                                                $24.69         730,994     $10,436,155.74
2/15/2013 Inc., Mobile, AL83                                                        $50,000,000.00                                          50,000       $1,000.00                                     $15,000.00

8/14/2009                                                     $1,114,680.76                                                      $0.00
                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




12/19/2012 Bank Financial                                                              $451,600.92                                             486         $929.20        ($34,399.08)
           Services, Inc.,
12/20/2012                               $1,004,000.00                                 $481,335.96                                             518         $929.20        ($36,664.04)                 $23,500.00                                  $183,243.88
           Eden Prairie,
              8,14
1/11/2013 MN                                                                                            ($9,329.37)
3/26/2013                                                                                              ($15,670.63)
10/28/2008                          $15,000,000,000.00   $26,599,663,040.28                                                      $0.00
1/9/2009     Bank of America        $10,000,000,000.00
             Corporation,                                                                                                                                                                                            $15.37                   $1,293,750,000.00
12/9/2009    Charlotte, NC6,7,11                                                $25,000,000,000.00                                        1,000,000     $25,000.00
3/9/2010                                                                                                                                                                                           $305,913,040.28
1/16/2009                                                     $3,087,573.33                                                      $0.00
           Bank of
11/30/2012 Commerce,                     $3,000,000.00                               $2,502,000.00                                           3,000         $834.00       ($498,000.00)                $100,100.00                                  $510,473.33
           Charlotte, NC8,14
1/11/2013                                                                                              ($25,000.00)
11/14/2008 Bank of                                          $19,564,027.78                                                       $0.00
           Commerce
9/27/2011                              $17,000,000.00                               $17,000,000.00                                          17,000       $1,000.00                                                    $6.33                      $2,439,027.78
           Holdings,
                      44
10/26/2011 Redding, CA                                                                                                                                                                                $125,000.00
3/13/2009                                                     $1,233,940.00                                                      $0.00
             Bank of George,
10/21/2013                               $2,672,000.00                                 $955,240.00                                           2,672         $357.50     ($1,716,760.00)                 $23,709.00                                  $279,991.00
             Las Vegas, NV8
1/6/2014                                                                                               ($25,000.00)
12/5/2008                                                   $30,155,095.11                                                       $0.00
             Bank of Marin
3/31/2009    Bancorp, Novato,          $28,000,000.00                               $28,000,000.00                                          28,000       $1,000.00                                                   $45.59                        $451,111.11
             CA11
11/23/2011                                                                                                                                                                                           $1,703,984.00
10/28/2008                                                $3,231,416,666.67                                                      $0.00
             Bank of New York
6/17/2009    Mellon, New York,       $3,000,000,000.00                           $3,000,000,000.00                                        3,000,000      $1,000.00                                                   $37.48                     $95,416,666.67
             NY11
8/5/2009                                                                                                                                                                                           $136,000,000.00
             Bank of the
             Carolinas
4/17/2009                              $13,179,000.00         $1,039,677.00                                             $13,179,000.00                                                                                $0.47         475,204      $1,039,677.00
             Corporation,
             Mocksville, NC105
12/12/2008                                                  $81,004,166.67                                                       $0.00
             Bank of the
11/4/2009    Ozarks, Inc., Little      $75,000,000.00                               $75,000,000.00                                          75,000       $1,000.00                                                   $33.33                      $3,354,166.67
             Rock, AR11
11/24/2009                                                                                                                                                                                           $2,650,000.00
1/30/2009    Bankers’ Bank of                               $17,097,990.60                                                       $0.00
             the West Bancorp,
                                       $12,639,000.00                                                                                                                                                                                            $3,826,990.60
4/24/2014    Inc., Denver,                                                          $12,639,000.00                                          12,639       $1,000.00                                    $632,000.00
             CO8,106
1/23/2009    BankFirst Capital                              $18,492,469.25                                                       $0.00
             Corporation,              $15,500,000.00                                                                                                                                                                                            $2,217,469.25
9/8/2011     Macon, MS8,14,44                                                       $15,500,000.00                                          15,500       $1,000.00                                    $775,000.00

                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)
                                                                                                                                          Number     Average Price                                               Stock Price       Current
Transaction                                                                Capital Repayment/                        Remaining Capital   of Shares       of Shares   (Realized Loss)/                               as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount    Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
2/13/2009                                                $1,100,653.50                                                          $0.00
11/9/2012    BankGreenville,                                                       $900,000.00                                              1,000         $900.00       ($100,000.00)                $21,880.50
                                      $1,000,000.00                                                                                                                                                                                              $203,773.00
1/11/2013    Greenville, SC8,14                                                                        ($9,000.00)
3/26/2013                                                                                             ($16,000.00)
11/21/2008                                             $129,079,862.47                                                          $0.00
             Banner
4/3/2012     Corporation, Walla     $124,000,000.00                            $109,717,680.00     ($1,645,765.20)                        124,000         $884.80    ($14,282,320.00)                              $39.45                    $20,873,746.67
             Walla, WA
6/12/2013                                                                                                                                                                                           $134,201.00
2/6/2009     Banner County                                 $942,411.42                                                          $0.00
             Ban Corporation,
                                        $795,000.00                                                                                                                                                                                              $107,411.42
7/28/2011    Harrisburg,                                                           $795,000.00                                                795       $1,000.00                                    $40,000.00
             NE8,14,44
1/16/2009                                               $20,037,514.11                                                          $0.00
             Bar Harbor
2/24/2010    Bankshares, Bar         $18,751,000.00                             $18,751,000.00                                             18,751       $1,000.00                                                  $27.88                      $1,036,514.11
             Harbor, ME12,16
7/28/2010                                                                                                                                                                                           $250,000.00
11/14/2008                                            $3,293,353,918.53                                                         $0.00
             BB&T Corp.,
6/17/2009    Winston-Salem,       $3,133,640,000.00                          $3,133,640,000.00                                              3,134    $1,000,000.00                                                 $39.43                    $92,703,516.67
             NC11
7/22/2009                                                                                                                                                                                         $67,010,401.86
4/3/2009     BCB Holding                                 $2,315,853.14                                                          $0.00
             Company, Inc.,           $1,706,000.00                                                                                                                                                                                              $524,853.14
6/30/2014    Theodore, AL8,112                                                   $1,706,000.00                                              1,706                                                    $85,000.00

12/23/2008                                              $13,371,500.00                                                          $0.00
             BCSB Bancorp,
1/26/2011    Inc., Baltimore,        $10,800,000.00                             $10,800,000.00                                             10,800       $1,000.00                                                  $12.82                      $1,129,500.00
             MD11
4/19/2013                                                                                                                                                                                          $1,442,000.00
1/30/2009                                                $7,263,316.66                                                          $0.00
7/6/2011                                                                         $1,500,000.00                                              1,500       $1,000.00
10/19/2011 Beach Business                                                        $1,500,000.00                                              1,500       $1,000.00
           Bank, Manhattan            $6,000,000.00                                                                                                                                                                $10.90                        $963,316.66
3/7/2012   Beach, CA8,11,14                                                      $1,500,000.00                                              1,500       $1,000.00
6/6/2012                                                                         $1,200,000.00                                              1,200       $1,000.00
6/27/2012                                                                          $300,000.00                                                300       $1,000.00                                   $300,000.00
6/12/2009  Berkshire                                     $3,444,478.21                                                          $0.00
           Bancorp, Inc./
9/19/2011 Customers                                                                       $0.00                                             2,892       $1,000.00
                                      $2,892,000.00                                                                                                                                                                                              $407,478.21
           Bancorp, Inc.,
12/28/2011 Phoneixville,                                                         $2,892,000.00                                              2,892       $1,000.00                                   $145,000.00
           PA8,11,14
12/19/2008                                              $41,917,777.78                                                          $0.00
             Berkshire Hills
5/27/2009    Bancorp, Inc.,          $40,000,000.00                             $40,000,000.00                                             40,000       $1,000.00                                                  $23.22                        $877,777.78
             Pittsfield, MA11
6/24/2009                                                                                                                                                                                          $1,040,000.00
2/13/2009    Bern Bancshares,                            $1,172,062.50                                                          $0.00
             Inc., Bern,                $985,000.00                                                                                                                                                                 $7.65                        $137,062.50
9/1/2011     KS8,14,44                                                             $985,000.00                                                985       $1,000.00                                    $50,000.00

4/24/2009  Birmingham                 $1,635,000.00      $3,803,022.67                                                          $0.00
           Bloomfield
12/18/2009 Bancshares, Inc,           $1,744,000.00                                                                                                                                                                 $6.50                        $342,022.67
           Birmingham,
7/28/2011 MI8,14,18,44                                                           $3,379,000.00                                              3,379       $1,000.00                                    $82,000.00

6/19/2009                                                $8,271,975.28                                                          $0.00
             Biscayne
2/7/2013     Bancshares, Inc.,                                                   $2,532,140.00                                           2,600,000          $0.97        ($67,860.00)                $64,158.97
                                      $6,400,000.00                                                                                                                                                                                            $1,896,838.16
2/8/2013     Coconut Grove,                                                      $3,700,820.00                                           3,800,000          $0.97        ($99,180.00)               $140,347.75
             FL15,17
3/26/2013                                                                                             ($62,329.60)
3/13/2009                                               $11,459,461.11                                                          $0.00
10/29/2012 Blackhawk                                                               $186,550.00                                                205         $910.00        ($18,450.00)
                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




           Bancorp, Inc.,            $10,000,000.00                                                                                                                                                                $14.00                      $1,980,211.11
10/31/2012 Beloit, WI8,14                                                        $8,913,450.00                                              9,795         $910.00       ($881,550.00)               $470,250.00
1/11/2013                                                                                             ($91,000.00)
                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                379
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                       (CONTINUED)                                                                                                                                                                        380
                                                                                                                                       Number     Average Price                                                    Stock Price       Current
Transaction                                                               Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                    as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
5/22/2009                                               $6,127,326.35                                                        $0.00
             Blackridge
6/27/2012    Financial, Inc.,         $5,000,000.00                             $2,250,000.00                                            2,250       $1,000.00                                                                                     $877,326.35
             Fargo, ND8,14
9/12/2012                                                                       $2,750,000.00                                            2,750       $1,000.00                                        $250,000.00
3/6/2009                                               $11,938,437.34                                                        $0.00
           Blue Ridge
10/29/2012 Bancshares, Inc.,                                                       $19,630.00                                               26         $755.00         ($6,370.00)
                                     $12,000,000.00                                                                                                                                                                  $15.30                      $2,427,244.00
10/31/2012 Independence,                                                        $9,040,370.00                                           11,974         $755.00     ($2,933,630.00)                    $541,793.34
           MO8,14
1/11/2013                                                                                          ($90,600.00)
3/6/2009     Blue River                                   $529,105.00                                                        $0.00
             Bancshares,
                                      $5,000,000.00                                                                                                                                                                   $0.01                        $529,105.00
2/10/2012    Inc., Shelbyville,                                                                                                                                    ($5,000,000.00)
             IN8,64,97
12/5/2008                                              $21,261,845.65                                                        $0.00
10/18/2013 Blue Valley Ban                                                      $3,177,232.50                                            3,250         $977.60        ($72,767.50)
           Corp, Overland            $21,750,000.00                                                                                                                                                                   $5.36         111,083        $211,458.33
10/21/2013 Park, KS                                                            $18,085,785.00                                           18,500         $977.60       ($414,215.00)
1/6/2014                                                                                          ($212,630.18)
4/17/2009    BNB Financial                              $9,776,051.62                                                        $0.00
             Services
                                      $7,500,000.00                                                                                                                                                                                              $1,901,051.62
                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




8/30/2013    Corporation, New                                                   $7,500,000.00                                            7,500       $1,000.00                                        $375,000.00
             York, NY8
12/5/2008                                              $35,140,666.12                                                        $0.00
             BNC Bancorp,
8/29/2012                            $31,260,000.00                            $28,797,649.80     ($431,964.75)                         31,260         $921.20     ($2,462,350.20)                                   $17.07                      $5,835,061.07
             Thomasville, NC
9/19/2012                                                                                                                                                                                             $939,920.00
2/27/2009    BNC Financial                              $5,673,920.75                                                        $0.00
             Group, Inc., New         $4,797,000.00                                                                                                                                                                                                $636,920.75
8/4/2011     Canaan, CT8,14,44                                                  $4,797,000.00                                            4,797       $1,000.00                                        $240,000.00

1/16/2009                                              $26,941,865.35                                                        $0.00
3/14/2014    BNCCORP, Inc.,                                                       $143,000.00                                              143       $1,001.10                            $154.44      $29,737.13
                                     $20,093,000.00                                                                                                                                                                  $18.00                      $6,032,118.22
3/17/2014    Bismarck, ND8                                                     $19,950,000.00                                           19,950       $1,001.10                          $21,546.00    $966,456.56
4/25/2014                                                                                         ($201,147.00)
3/6/2009     BOH Holdings,                             $11,783,777.44                                                        $0.00
             Inc., Houston,          $10,000,000.00                                                                                                                                                                                              $1,283,777.44
7/14/2011    TX8,14,44                                                         $10,000,000.00                                           10,000       $1,000.00                                        $500,000.00

5/15/2009                                               $6,947,457.50                                                        $0.00
3/8/2013     Boscobel                                                                                                                                                                                 $232,180.54
             Bancorp, Inc,            $5,586,000.00                                                                                                                                                                                                $468,624.00
3/11/2013    Boscobel, WI14,15                                                  $5,586,000.00                                         5,586,000          $1.11                         $592,730.46    $129,709.80
4/9/2013                                                                                           ($61,787.30)
11/21/2008                                            $171,224,745.48                                                        $0.00
             Boston Private
1/13/2010    Financial                                                         $50,000,000.00                                           50,000       $1,000.00
                                    $154,000,000.00                                                                                                                                                                  $13.44                    $11,022,222.23
6/16/2010    Holdings, Inc.,                                                  $104,000,000.00                                          104,000       $1,000.00
             Boston, MA11
2/7/2011                                                                                                                                                                                             $6,202,523.25
12/23/2008                                             $27,872,582.22                                                        $0.00
2/23/2011    Bridge Capital                                                    $15,000,000.00                                           15,000       $1,000.00
             Holdings, San           $23,864,000.00                                                                                                                                                                  $24.21                      $2,613,582.22
3/16/2011    Jose, CA11                                                         $8,864,000.00                                            8,864       $1,000.00
4/20/2011                                                                                                                                                                                            $1,395,000.00
12/19/2008                                             $13,447,811.37                                                        $0.00
           Bridgeview
11/19/2013 Bancorp, Inc.,            $38,000,000.00                            $10,450,000.00                                           38,000         $275.00    ($27,550,000.00)                    $709,155.81                                $2,393,155.56
           Bridgeview, IL8
1/6/2014                                                                                          ($104,500.00)
             Broadway
11/14/2008                            $9,000,000.00       $810,416.67                                               $15,000,000.00
             Financial
             Corporation,                                                                                                                                                                                             $1.40                        $810,416.67
12/4/2009    Los Angeles,             $6,000,000.00
             CA9,10,18,65,96,99
                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                          (CONTINUED)
                                                                                                                                         Number     Average Price                                                      Stock Price       Current
Transaction                                                                  Capital Repayment/                     Remaining Capital   of Shares       of Shares   (Realized Loss)/                                      as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)         Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
5/15/2009                                                  $3,022,879.60                                                       $0.00
4/26/2013    Brogan                                                                   $60,000.00                                          60,000           $1.05                           $3,000.60
             Bankshares, Inc.,          $2,400,000.00                                                                                                                                                                                                  $402,720.00
4/29/2013    Kaukauna, WI14,15                                                     $2,340,000.00                                        2,340,000          $1.05                         $117,023.40      $125,135.60
5/31/2013                                                                                            ($25,000.00)
7/17/2009    Brotherhood                                  $12,845,586.01                                                       $0.00
             Bancshares,
                                       $11,000,000.00                                                                                                                                                                                                $1,295,586.01
9/15/2011    Inc., Kansas City,                                                   $11,000,000.00                                          11,000       $1,000.00                                          $550,000.00
             KS8,14,44
4/24/2009                                                 $18,707,708.84                                                       $0.00
5/23/2012    Business                                                              $6,000,000.00                                           6,000       $1,000.00
             Bancshares, Inc.,         $15,000,000.00                                                                                                                                                                                                $2,957,708.84
1/9/2013     Clayton, MO8,11,14                                                    $2,500,000.00                                           2,500       $1,000.00
4/24/2013                                                                          $6,500,000.00                                           6,500       $1,000.00                                          $750,000.00
3/13/2009    Butler Point, Inc.,                             $724,123.53                                                       $0.00
                                          $607,000.00                                                                                                                                                                                                   $87,123.53
11/2/2011    Catlin, IL8,11,14                                                       $607,000.00                                             607       $1,000.00                                           $30,000.00
1/9/2009                                                  $25,205,957.78                                                       $0.00
7/27/2011    C&F Financial                                                        $10,000,000.00                                          10,000       $1,000.00
             Corporation, West         $20,000,000.00                                                                                                                                                                    $35.99         167,504      $2,902,777.78
4/11/2012    Point, VA11                                                          $10,000,000.00                                          10,000       $1,000.00
5/14/2014                                                                                                                                                                                                $2,303,180.00
12/23/2008 Cache Valley                 $4,767,000.00     $10,674,333.80                                                       $0.00
           Banking
12/18/2009                              $4,640,000.00                                                                                                                                                                                                $1,029,333.80
           Company, Logan,
             8,14,18,44
7/14/2011 UT                                                                       $9,407,000.00                                           9,407       $1,000.00                                          $238,000.00
1/9/2009     Cadence Financial                            $41,984,062.50                                                       $0.00
             Corporation,              $44,000,000.00                                                                                                                                                                                                $3,984,062.50
3/4/2011     Starkville, MS                                                       $38,000,000.00                                          44,000         $863.60     ($6,000,000.00)

2/27/2009    California Bank                               $4,755,899.67                                                       $0.00
             of Commerce,               $4,000,000.00                                                                                                                                                                                                  $555,899.67
9/15/2011    Lafayette, CA8,14,44                                                  $4,000,000.00                                           4,000       $1,000.00                                          $200,000.00

1/23/2009    California Oaks                               $3,802,219.25                                                       $0.00
             State Bank,
                                        $3,300,000.00                                                                                                                                                                                                  $337,219.25
12/8/2010    Thousand Oaks,                                                        $3,300,000.00                                           3,300       $1,000.00                                          $165,000.00
             CA8,11,14
             Calvert Financial
1/23/2009    Corporation,               $1,037,000.00        $215,442.61                                               $1,037,000.00                                                                                                                   $215,442.61
             Ashland, MO8
             CalWest Bancorp,
1/23/2009    Rancho Santa               $4,656,000.00        $396,163.67                                               $4,656,000.00                                                                                      $1.35                        $396,163.67
             Margarita, CA8
12/23/2008 Capital Bancorp,                                $5,452,281.19                                                       $0.00
           Inc., Rockville,             $4,700,000.00                                                                                                                                                                                                  $517,281.19
12/30/2010 MD8,11,14                                                               $4,700,000.00                                           4,700       $1,000.00                                          $235,000.00

12/12/2008 Capital Bank                                   $45,252,104.25                                                       $0.00
           Corporation,                $41,279,000.00                                                                                                                                                                    $22.59         749,619      $3,973,104.25
1/28/2011 Raleigh, NC39                                                           $41,279,000.00                                          41,279       $1,000.00

             Capital Commerce
4/10/2009    Bancorp, Inc.,             $5,100,000.00        $304,973.00                                               $5,100,000.00                                                                                                                   $304,973.00
             Milwaukee, WI8
11/14/2008 Capital One                                  $3,806,873,702.13                                                      $0.00
           Financial
6/17/2009                           $3,555,199,000.00                          $3,555,199,000.00                                        3,555,199      $1,000.00                                                         $82.60                   $105,174,637.58
           Corporation,
                       11
12/9/2009 McLean, VA                                                                                                                                                                                   $146,500,064.55
12/23/2008                                                 $4,742,850.89                                                       $0.00
11/8/2012    Capital Pacific                                                         $247,727.04                                             264         $938.40        ($16,272.96)
             Bancorp,                   $4,000,000.00                                                                                                                                                                                                  $845,368.89
11/9/2012    Portland, OR8,14                                                      $3,505,712.96                                           3,736         $938.40       ($230,287.04)                      $169,042.00
1/11/2013                                                                                            ($25,000.00)
                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




10/23/2009 Cardinal                                        $7,547,479.56                                                       $0.00
           Bancorp II, Inc.,
                                        $6,251,000.00                                                                                                                                                                                                  $983,479.56
9/8/2011   Washington,                                                             $6,251,000.00                                        6,251,000          $1.00                                          $313,000.00
           MO15,14,45
                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                      381
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)                                                                                                                                                                   382
                                                                                                                                         Number     Average Price                                               Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                               as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/9/2009                                                 $19,941,788.94                                                        $0.00
2/20/2013                                                                        $14,525,843.40                                           15,534         $935.10     ($1,008,156.60)
             Carolina Bank
2/21/2013    Holdings, Inc.,           $16,000,000.00                               $435,756.60                                              466         $935.10        ($30,243.40)                               $9.77                      $3,329,804.94
             Greensboro, NC
3/26/2013                                                                                           ($149,616.00)
4/19/2013                                                                                                                                                                                         $1,800,000.00
2/6/2009                                                  $3,994,452.00                                                        $0.00
11/30/2012                                                                        $3,412,000.00                                            4,000         $853.00       ($588,000.00)
             Carolina Trust
1/11/2013    Bank, Lincolnton,          $4,000,000.00                                                ($34,120.00)                                                                                                  $5.00                        $613,320.00
             NC
3/26/2013                                                                                            ($15,880.00)
6/11/2013                                                                                                                                                                                           $19,132.00
2/13/2009    Carrollton                                  $11,388,958.51                                                        $0.00
             Bancorp,                   $9,201,000.00                                                                                                                                                              $5.18                      $1,974,364.35
4/19/2013    Baltimore, M11                                                       $9,201,000.00                                            9,201       $1,000.00                                   $213,594.16

1/16/2009    Carver Bancorp,                             $20,511,580.55                                                        $0.00
             Inc, New York,            $18,980,000.00                                                                                                                                                             $10.25                      $1,531,580.55
8/27/2010    NY9,11,36                                                           $18,980,000.00                                           18,980       $1,000.00

11/21/2008 Cascade Financial                             $17,678,900.00                                                        $0.00
                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




           Corporation,                $38,970,000.00                                                                                                                                                                                         $1,428,900.00
6/30/2011  Everett, WA                                                           $16,250,000.00                                           38,970         $417.00    ($22,720,000.00)

12/5/2008                                               $329,874,444.96                                                        $0.00
3/20/2013    Cathay General                                                     $129,000,000.00                                          129,000       $1,000.00
             Bancorp, Los             $258,000,000.00                                                                                                                                                             $25.56                    $58,766,666.66
9/30/2013    Angeles, CA11                                                      $129,000,000.00                                          129,000       $1,000.00
12/9/2013                                                                                                                                                                                        $13,107,778.30
2/27/2009  Catskill Hudson              $3,000,000.00     $7,448,071.47                                                        $0.00
           Bancorp, Inc,
12/22/2009                              $3,500,000.00                                                                                                                                                             $18.00                        $685,071.47
           Rock Hill,
             8,14,18,44
7/21/2011 NY                                                                      $6,500,000.00                                            6,500       $1,000.00                                   $263,000.00
5/29/2009  CB Holding Corp.,                                $271,579.53                                                        $0.00
                    8,57,97             $4,114,000.00                                                                                                                                                                                           $271,579.53
10/14/2011 Aledo, IL                                                                                                                                                 ($4,114,000.00)
2/20/2009                               $2,644,000.00     $4,982,141.86                                                        $0.00
12/29/2009                              $1,753,000.00
11/28/2012 CBB Bancorp,                                                           $1,268,825.60                                            1,360         $932.05        ($91,174.40)
           Cartersville,                                                                                                                                                                                                                        $799,528.40
11/29/2012 GA8,18                                                                 $2,831,259.86                                            3,037         $932.05       ($205,740.14)               $115,861.34
1/11/2013                                                                                            ($32,969.92)
3/26/2013                                                                                               ($363.42)
3/27/2009                                                $27,432,357.95                                                        $0.00
8/7/2012                                                                                                                                                                                           $287,213.85
             CBS Banc-Corp.,
8/9/2012                               $24,300,000.00                               $923,304.00                                            1,020         $905.20        ($96,696.00)               $689,313.24                   523,076      $4,548,136.70
             Russellville, AL8,14
8/10/2012                                                                        $21,073,056.00                                           23,280         $905.20     ($2,206,944.00)               $131,297.76
9/11/2012                                                                                           ($219,963.60)
             Cecil Bancorp,
12/23/2008                             $11,560,000.00       $516,988.89                                               $11,560,000.00                                                                               $0.33         261,538        $516,988.89
             Inc., Elkton, MD
2/6/2009   CedarStone Bank,                               $4,672,098.50                                                        $0.00
                      8                 $3,564,000.00                                                                                                                                                                                           $930,098.50
11/20/2013 Lebanon, TN                                                            $3,564,000.00                                            3,564       $1,000.00                                   $178,000.00
1/9/2009                                                 $11,586,666.67                                                        $0.00
             Center Bancorp,
9/15/2011                              $10,000,000.00                            $10,000,000.00                                           10,000       $1,000.00                                                  $19.23                      $1,341,666.67
             Inc., Union, NJ44
12/7/2011                                                                                                                                                                                          $245,000.00
12/12/2008 Center Financial                              $64,739,583.33                                                        $0.00
           Corporation/
                                       $55,000,000.00                                                                                                                                                             $15.95         341,504    $23,237,328.30
6/27/2012  BBCN Bancorp,                                                         $55,000,000.00                                           55,000       $1,000.00
           Inc.11,59
                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                       (CONTINUED)
                                                                                                                                       Number     Average Price                                              Stock Price       Current
Transaction                                                               Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
5/1/2009                                                $2,344,662.43                                                        $0.00
10/29/2012                                                                         $24,750.00                                               30         $825.00         ($5,250.00)
             CenterBank,
11/1/2012                             $2,250,000.00                             $1,831,500.00                                            2,220         $825.00       ($388,500.00)               $84,057.43                                  $429,355.00
             Milford, OH8,14
1/11/2013                                                                                          ($18,562.50)
3/26/2013                                                                                           ($6,437.50)
11/21/2008 Centerstate                                 $29,283,302.58                                                        $0.00
           Banks of Florida
9/30/2009                            $27,875,000.00                            $27,875,000.00                                           27,875       $1,000.00                                                                             $1,196,302.58
           Inc., Davenport,
              12,16
10/28/2009 FL                                                                                                                                                                                   $212,000.00
1/16/2009    Centra Financial                          $15,922,937.50                                                        $0.00
             Holdings, Inc.,
3/31/2009                            $15,000,000.00                            $15,000,000.00                                           15,000       $1,000.00                                                 $11.20                        $172,937.50
             Morgantown,
4/15/2009    WV8,11,14                                                                                                                                                                          $750,000.00
12/5/2008                                              $13,886,111.11                                                        $0.00
             Central Bancorp,
8/25/2011    Inc., Somerville,       $10,000,000.00                            $10,000,000.00                                           10,000       $1,000.00                                                 $12.87                      $1,361,111.11
             MA45
10/19/2011                                                                                                                                                                                     $2,525,000.00
             Central Bancorp,
2/27/2009                            $22,500,000.00     $2,411,625.00                                               $22,500,000.00                                                                                                         $2,411,625.00
             Inc., Garland, TX8
1/30/2009    Central                                    $6,859,176.83                                                        $0.00
             Bancshares, Inc.,        $5,800,000.00                                                                                                                                                                                          $769,176.83
7/6/2011     Houston, TX8,11,14                                                 $5,800,000.00                                            5,800       $1,000.00                                  $290,000.00

2/20/2009                                              $25,797,528.80                                                        $0.00
           Central
12/10/2012 Community                                                            $5,333,059.60                                            5,758         $926.20       ($424,940.40)
                                     $22,000,000.00                                                                                                                                                                                        $4,566,167.00
12/11/2012 Corporation,                                                        $15,043,340.40                                           16,242         $926.20     ($1,198,659.60)             $1,058,725.80
           Temple, TX8,14
1/11/2013                                                                                         ($203,764.00)
12/5/2008    Central Federal                            $3,612,118.06                                                        $0.00
             Corporation,             $7,225,000.00                                                                                                                                                                                          $612,118.06
9/26/2012    Fairlawn, OH                                                       $3,000,000.00                                            7,225         $415.20     ($4,225,000.00)

12/23/2008                                             $12,704,145.10                                                        $0.00
           Central Jersey
11/24/2010 Bancorp,                  $11,300,000.00                            $11,300,000.00                                           11,300       $1,000.00                                                  $1.48                      $1,084,486.11
           Oakhurst, NJ11
12/1/2010                                                                                                                                                                                       $319,658.99
1/9/2009                                               $75,036,891.42                                                        $0.00
6/22/2011    Central Pacific                                                   $36,337,500.00     ($454,218.75)                       2,850,000         $12.75    ($32,121,928.87)
             Financial Corp.,       $135,000,000.00                                                                                                                                                            $19.85                      $2,362,500.00
4/4/2012     Honolulu, HI40                                                    $36,427,038.55     ($387,816.38)                       2,770,117         $13.15    ($30,113,532.58)
6/11/2013                                                                                                                                                                                       $751,888.00
1/30/2009    Central Valley                             $8,077,516.47                                                        $0.00
             Community
8/18/2011                             $7,000,000.00                             $7,000,000.00                                            7,000       $1,000.00                                                 $13.09                        $892,499.67
             Bancorp, Fresno,
9/28/2011    CA45                                                                                                                                                                               $185,016.80
1/30/2009    Central Virginia                           $3,800,656.00                                                        $0.00
             Bankshares, Inc.,       $11,385,000.00                                                                                                                                                            $35.99                        $450,656.00
10/1/2013    Powhatan, VA93                                                     $3,350,000.00                                           11,385         $294.20     ($8,035,000.00)

12/18/2009 Centric Financial                            $6,739,821.89                                                        $0.00
           Corporation,
                                      $6,056,000.00                                                                                                                                                                                          $501,821.89
7/14/2011  Harrisburg,                                                          $6,056,000.00                                            6,056       $1,000.00                                  $182,000.00
           PA8,17,44
2/6/2009     Centrix Bank &                             $8,887,791.42                                                        $0.00
             Trust, Bedford,          $7,500,000.00                                                                                                                                                            $40.65                      $1,012,791.42
7/28/2011    NH8,14,44                                                          $7,500,000.00                                            7,500       $1,000.00                                  $375,000.00

1/9/2009                                               $11,203,387.14                                                        $0.00
9/25/2013                                                                       $8,211,450.00                                           25,266         $325.00    ($17,054,550.00)
10/18/2013                                                                      $1,950,000.00                                            6,000         $325.00     ($4,050,000.00)
           Centrue Financial
10/29/2013 Corporation, St.          $32,668,000.00                                                ($82,114.50)                                                                                                 $0.85         508,320        $571,690.00
           Louis, MO
                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




1/6/2014                                                                                           ($19,500.00)
2/10/2014                                                                         $577,638.02                                            1,402         $412.00       ($824,361.98)
3/19/2014                                                                                           ($5,776.38)
                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                            383
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                      384
                                                                                                                                                Number     Average Price                                                              Stock Price       Current
Transaction                                                                    Capital Repayment/                      Remaining Capital       of Shares       of Shares      (Realized Loss)/                                           as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount         Disposed        Disposed              (Write-off)               Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
6/19/2009                                                   $13,186,960.25                                                        $0.00
           Century Financial
12/19/2012 Services                                                                     $39,400.00                                               40,000           $0.99              ($600.00)                           $198,635.58
                                       $10,000,000.00                                                                                                                                                                                                               $2,938,871.30
12/20/2012 Corporation, 14,15                                                        $9,810,600.00                                            9,960,000           $0.99          ($149,400.00)                           $297,953.37
           Santa Fe, NM
1/11/2013                                                                                               ($98,500.00)
              Chambers
5/29/2009     Bancshares, Inc.,        $19,817,000.00         $5,754,674.98                                              $19,817,000.00                                                                                                                             $5,754,674.98
              Danville, AR15
7/31/2009                                                     $8,981,348.81                                                       $0.00
3/14/2014     Chicago Shore                                                            $257,660.00                                                  260         $991.00            ($2,340.00)
              Corporation,               $7,000,000.00                                                                                                                                                                                                              $1,766,525.81
3/17/2014     Chicago, IL8                                                           $6,679,340.00                                                6,740         $991.00           ($60,660.00)                           $347,193.00
4/25/2014                                                                                               ($69,370.00)
12/31/2008 CIT Group Inc.,                                  $43,687,500.00                                                        $0.00
                        23           $2,330,000,000.00                                                                                                                                                                                  $45.76                    $43,687,500.00
12/10/2009 New York, NY                                                                                                                                                    ($2,330,000,000.00)
10/28/2008                                               $32,839,267,986.44                                                       $0.00
              Citigroup Inc.,
12/10/2010                          $25,000,000,000.00                          $25,000,000,000.00                                         7,692,307,692          $4.14                            $6,852,354,470.93                    $47.10                   $932,291,666.67
              New York, NY19,30
1/31/2011                                                                                                                                                                                                              $54,621,848.84
                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




1/16/2009     Citizens &                                    $28,889,100.00                                                        $0.00
              Northern
8/4/2010                               $26,440,000.00                               $26,440,000.00                                               26,440       $1,000.00                                                                 $19.49                      $2,049,100.00
              Corporation,
9/1/2010      Wellsboro, PA11                                                                                                                                                                                            $400,000.00
12/23/2008 Citizens Bancorp,                                   $223,571.11                                                        $0.00
           Nevada City,                $10,400,000.00                                                                                                                                                                                    $0.02                        $223,571.11
9/23/2011  CA8,55,97                                                                                                                                                         ($10,400,000.00)

5/29/2009                                                   $13,952,381.45                                                        $0.00
2/7/2013      Citizens                                                               $6,657,375.00                                               12,990         $512.50        ($6,332,625.00)                           $258,018.75
              Bancshares Co.,          $24,990,000.00                                                                                                                                                                                                                 $628,033.33
2/8/2013      Chillicothe, MO8,14                                                    $6,150,000.00                                               12,000         $512.50        ($5,850,000.00)                           $387,028.12
3/26/2013                                                                                              ($128,073.75)
3/6/2009      Citizens                                        $7,997,813.22                                                       $0.00
              Bancshares
                                         $7,462,000.00                                                                                                                                                                                   $8.91                        $535,813.22
8/13/2010     Corporation,                                                           $7,462,000.00                                                7,462       $1,000.00
              Atlanta, GA9,11,36
              Citizens Bank &
3/20/2009     Trust Company,             $2,400,000.00         $510,483.00                                                $2,400,000.00                                                                                                                               $510,483.00
              Covington, LA8
              Citizens
              Commerce
2/6/2009                                 $6,300,000.00         $180,258.50                                                $6,300,000.00                                                                                                                               $180,258.50
              Bancshares, Inc.,
              Versailles, KY8
12/23/2008 Citizens                                           $3,574,645.84                                                       $0.00
           Community
                                         $3,000,000.00                                                                                                                                                                                   $7.55                        $424,645.84
7/28/2011 Bank,    South Hill,                                                       $3,000,000.00                                                3,000       $1,000.00                                                  $150,000.00
           VA8,14,44
12/19/2008                                                  $10,530,923.11                                                        $0.00
              Citizens First
2/16/2011     Corporation,                                                           $2,212,308.00                                                   63      $35,116.00
                                         $8,779,000.00                                                                                                                                                                                  $11.00         254,218      $1,751,923.11
2/13/2013     Bowling Green,                                                         $3,300,904.00                                                   94      $35,116.00
              KY11
1/15/2014                                                                            $3,265,788.00                                                   93      $35,116.00
12/12/2008 Citizens Republic                               $369,245,436.64                                                        $0.00
           Bancorp, Inc.              $300,000,000.00                                                                                                                                                                                    $6.59
4/12/2013 Flint, Michigan86                                                        $300,000,000.00                                              300,000       $1,000.00

12/12/2008 Citizens South                                   $23,572,379.22                                                        $0.00
           Banking
9/22/2011                              $20,500,000.00                               $20,500,000.00                                               20,500       $1,000.00                                                                                             $2,847,222.22
           Corporation,
                        45
11/9/2011 Gastonia, NC                                                                                                                                                                                                   $225,157.00
              City National
              Bancshares
4/10/2009                                $9,439,000.00         $281,859.00                                                $9,439,000.00                                                                                                                               $281,859.00
              Corporation,
              Newark, NJ8,9
                                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)
                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
11/21/2008                                             $442,416,666.67                                                        $0.00
12/30/2009 City National                                                       $200,000,000.00                                          200,000       $1,000.00
           Corporation,             $400,000,000.00                                                                                                                                                               $75.76                    $23,916,666.67
3/3/2010   Beverly Hills, CA11                                                 $200,000,000.00                                          200,000       $1,000.00
4/7/2010                                                                                                                                                                                         $18,500,000.00
3/27/2009                                                $3,318,585.05                                                        $0.00
11/28/2012 Clover Community                                                        $955,825.50                                            1,095         $872.90       ($139,174.50)
           Bankshares, Inc.,          $3,000,000.00                                                                                                                                                                                             $610,863.55
11/29/2012 Clover, SC8,14                                                        $1,662,874.50                                            1,905         $872.90       ($242,125.50)                $114,021.50
1/11/2013                                                                                           ($25,000.00)
12/5/2008                                               $11,166,897.79                                                        $0.00
3/8/2013                                                                         $3,772,645.00                                            3,950         $955.10       ($177,355.00)
             Coastal Banking
3/11/2013    Company, Inc.,                                                      $5,730,600.00                                            6,000         $955.10       ($269,400.00)
                                      $9,950,000.00                                                                                                                                                                $7.75                      $1,434,037.79
4/9/2013     Fernandina                                                                             ($95,032.45)
             Beach, FL82
4/10/2013                                                                                                                                                                                           $99,000.00
6/12/2013                                                                                                                                                                                          $225,647.45
8/28/2009                                               $14,257,487.71                                                        $0.00
             CoastalSouth
3/8/2013     Bancshares,                                                           $397,550.00                                              500         $795.10       ($102,450.00)                $389,857.05
                                     $16,015,000.00                                                                                                                                                                                           $1,235,448.96
3/11/2013    Inc., Hilton Head                                                  $12,335,976.50                                           15,515         $795.10     ($3,179,023.50)                 $25,990.47
             Island, SC8,17
4/9/2013                                                                                           ($127,335.27)
12/19/2008                                              $73,357,086.72                                                        $0.00
             CoBiz Financial
9/8/2011                             $64,450,000.00                             $64,450,000.00                                           64,450       $1,000.00                                                   $10.77                      $8,763,409.72
             Inc., Denver, CO45
11/23/2011                                                                                                                                                                                         $143,677.00
1/9/2009                                                $19,178,479.00                                                        $0.00
             Codorus Valley
8/18/2011    Bancorp, Inc.,          $16,500,000.00                             $16,500,000.00                                           16,500       $1,000.00                                                   $21.13                      $2,151,875.00
             York, PA44
9/28/2011                                                                                                                                                                                          $526,604.00
2/13/2009                                               $10,670,784.03                                                        $0.00
7/19/2013    ColoEast                                                               $46,995.00                                               52         $903.80         ($5,005.00)
             Bankshares, Inc.,       $10,000,000.00                                                                                                                                                                                           $1,229,277.78
7/22/2013    Lamar, CO8,14                                                       $8,990,505.00                                            9,948         $903.80       ($957,495.00)                $494,381.25
9/12/2013                                                                                           ($90,375.00)
3/27/2009  Colonial American                               $668,142.53                                                        $0.00
           Bank, West
                                        $574,000.00                                                                                                                                                                                              $65,142.53
10/26/2011 Conshohocken,                                                           $574,000.00                                              574       $1,000.00                                     $29,000.00
           PA8,11,14
1/9/2009                                                $26,480,089.20                                                        $0.00
2/7/2013                                                                        $21,633,944.71                                           27,661         $782.10     ($6,027,055.29)
             Colony Bankcorp,
2/8/2013     Inc., Fitzgerald,       $28,000,000.00                                $265,135.29                                              339         $782.10        ($73,864.71)                                $6.31                      $3,990,000.00
             GA
3/26/2013                                                                                          ($218,990.80)
6/12/2013                                                                                                                                                                                          $810,000.00
11/21/2008                                              $86,821,419.22                                                        $0.00
             Columbia Banking
8/11/2010    System, Inc.,           $76,898,000.00                             $76,898,000.00                                           76,898       $1,000.00                                                   $26.31                      $6,621,772.22
             Tacoma, WA11,16
9/1/2010                                                                                                                                                                                          $3,301,647.00
2/27/2009    Columbine Capital                           $2,689,478.64                                                        $0.00
             Corp., Buena             $2,260,000.00                                                                                                                                                                                             $316,478.64
9/22/2011    Vista, CO8,14,44                                                    $2,260,000.00                                            2,260       $1,000.00                                    $113,000.00

11/14/2008                                            $2,582,039,543.40                                                       $0.00
             Comerica Inc.,
3/17/2010                         $2,250,000,000.00                          $2,250,000,000.00                                         2,250,000      $1,000.00                                                   $50.16                   $150,937,500.00
             Dallas, TX11
5/12/2010                                                                                                                                                                                       $181,102,043.40
1/9/2009     Commerce                                    $5,602,969.61                                                        $0.00
             National Bank,
                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




10/7/2009                             $5,000,000.00                              $5,000,000.00                                            5,000       $1,000.00                                                   $17.92                         $36,111.11
             Newport Beach,
10/1/2013    CA11                                                                                                                                                                                  $566,858.50
                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                               385
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)                                                                                                                                                                   386
                                                                                                                                         Number     Average Price                                              Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
5/22/2009                                               $21,575,016.54                                                        $0.00
8/7/2012                                                                           $130,500.00                                           174,000           $0.75        ($43,500.00)
8/8/2012     Commonwealth                                                        $1,469,250.00                                          1,959,000          $0.75       ($489,750.00)
             Bancshares, Inc.,        $20,400,000.00                                                                                                                                                                                         $5,529,294.54
8/9/2012     Louisville, KY14,15                                                $13,100,250.00                                         17,467,000          $0.75     ($4,366,750.00)              $792,990.00
8/10/2012                                                                          $600,000.00                                           800,000           $0.75       ($200,000.00)              $105,732.00
9/11/2012                                                                                          ($153,000.00)
1/23/2009    Commonwealth                                $8,451,110.79                                                        $0.00
             Business Bank,
7/17/2013                              $7,701,000.00                             $7,323,651.00                                             7,701         $951.00       ($377,349.00)              $362,427.91    $22.40                        $838,268.39
             Los Angeles,
9/12/2013    CA8,14                                                                                 ($73,236.51)
1/16/2009  Community 1st                                 $2,899,659.67                                                        $0.00
           Bank, Roseville,            $2,550,000.00                                                                                                                                                                                           $221,659.67
12/19/2012 CA8,11,14                                                             $2,550,000.00                                             2,550       $1,000.00                                  $128,000.00

3/6/2009     Community                                     $616,741.75                                                        $0.00
             Bancshares of
                                         $500,000.00                                                                                                                                                                                            $91,741.75
7/18/2012    Kansas, Inc., Goff,                                                   $500,000.00                                               500       $1,000.00                                   $25,000.00
             KS8,11,14
9/11/2009    Community                                  $57,575,699.54                                                        $0.00
             Bancshares of
                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                      $52,000,000.00                                                                                                                                                                                         $3,193,250.19
9/29/2010    Mississippi, Inc.,                                                 $52,000,000.00                                            52,000       $1,000.00                                 $2,600,000.00
             Brandon, MS11,8,14
             Community
7/24/2009    Bancshares, Inc.,         $3,872,000.00       $981,158.70                                                $3,872,000.00                                                                                                            $981,158.70
             Kingman, AZ8,17
1/16/2009    Community                                   $1,823,188.61                                                        $0.00
             Bank of the Bay,          $1,747,000.00                                                                                                                                                                                            $76,188.61
9/29/2010    Oakland, CA9,11,36                                                  $1,747,000.00                                             1,747       $1,000.00

5/29/2009  Community Bank                               $22,802,281.62                                                        $0.00
           Shares of Indiana,
9/15/2011                             $19,468,000.00                            $19,468,000.00                                            19,468       $1,000.00                                                 $26.18                      $2,233,412.12
           Inc., New Albany,
             44
10/19/2011 IN                                                                                                                                                                                    $1,100,869.50
12/19/2008                                              $23,135,879.12                                                        $0.00
7/24/2013  Community                                                             $4,500,000.00                                              4,500      $1,000.00
           Bankers Trust
11/20/2013                            $17,680,000.00                             $2,500,000.00                                              2,500      $1,000.00                                                  $4.38                      $4,675,879.12
           Corporation, Glen
                   11,101
4/23/2014 Allen, VA                                                             $10,680,000.00                                            10,680       $1,000.00
6/4/2014                                                                                                                                                                                          $780,000.00
2/27/2009  Community                                     $4,674,050.16                                                        $0.00
           Business Bank,
11/30/2012                             $3,976,000.00                             $3,717,560.00                                             3,976         $935.00       ($258,440.00)              $167,035.00     $9.00                        $814,455.16
           West Sacramento,
             8,14
1/11/2013 CA                                                                                        ($25,000.00)
12/19/2008 Community                                    $15,206,719.94                                                        $0.00
           Financial
                                      $12,643,000.00                                                                                                                                                             $45.12         351,194      $2,563,719.94
1/9/2013   Corporation,                                                         $12,643,000.00                                            12,643       $1,000.00
           Staunton, VA81
5/15/2009 Community                                      $4,240,743.82                                                        $0.00
           Financial Shares,
                                       $6,970,000.00                                                                                                                                                              $1.14                        $947,193.82
12/21/2012 Inc.,  Glen Ellyn,                                                    $3,136,500.00                                             6,970         $450.00     ($3,833,500.00)              $157,050.00
           IL74,8,14
4/3/2009                                                $16,441,884.63                                                        $0.00
2/7/2014     Community First                                                     $3,705,037.50                                             3,750         $988.00        ($44,962.50)               $85,157.88
             Bancshares, Inc.,        $12,725,000.00                                                                                                                                                                                         $3,365,409.43
2/10/2014    Harrison, AR8                                                       $8,867,389.75                                             8,975         $988.00       ($107,610.25)              $544,614.34
3/19/2014                                                                                          ($125,724.27)
3/20/2009    Community First                            $23,628,111.33                                                        $0.00
             Bancshares
                                      $20,000,000.00                                                                                                                                                                                         $2,628,111.33
8/18/2011    Inc., Union City,                                                  $20,000,000.00                                            20,000       $1,000.00                                 $1,000,000.00
             TN8,14,44
2/27/2009                                                $7,723,513.50                                                        $0.00
             Community First
4/11/2014    Inc., Columbia,          $17,806,000.00                             $1,322,500.50                                             4,401         $300.50     ($3,078,499.50)               $73,045.00                                $1,908,453.00
             TN8
4/14/2014                                                                        $4,028,202.50                                            13,405         $300.50     ($9,376,797.50)              $391,312.50
                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                       (CONTINUED)
                                                                                                                                       Number     Average Price                                                    Stock Price       Current
Transaction                                                               Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                    as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
2/6/2009   Community                                    $1,220,300.65                                                        $0.00
           Holding Company
11/30/2012 of Florida, Inc./                                                    $1,002,750.00                                              105       $9,550.00        ($47,250.00)                     $25,000.00
1/11/2013 Community                   $1,050,000.00                                                ($10,027.50)
           Bancshares of
           Mississippi, Inc.,
3/26/2013                                                                                          ($14,972.50)
           Brandon, MS8,67
12/23/2008                                              $3,115,616.28                                                        $0.00
12/19/2012 Community                                                              $952,850.00                                            1,003         $950.00        ($50,150.00)
           Investors
12/20/2012                            $2,600,000.00                             $1,517,150.00                                            1,597         $950.00        ($79,850.00)                    $105,000.00                                  $565,616.28
           Bancorp, Inc.,
                       8,14
1/11/2013 Bucyrus, OH                                                                              ($24,700.00)
3/26/2013                                                                                             ($300.00)
1/30/2009                                              $10,598,750.00                                                        $0.00
             Community
8/11/2011    Partners Bancorp,        $9,000,000.00                             $9,000,000.00                                            9,000       $1,000.00                                                        $8.46                      $1,138,750.00
             Middletown, NJ44
10/26/2011                                                                                                                                                                                            $460,000.00
11/13/2009 Community Pride                              $5,462,045.14                                                        $0.00
           Bank Corporation,
8/12/2013                             $4,400,000.00                             $4,400,000.00                                         4,400,000          $1.11                         $484,924.00    $177,716.96                                  $448,253.42
           Ham Lake,
              15,17
9/12/2013 MN                                                                                       ($48,849.24)
1/9/2009     Community                                 $28,459,100.00                                                        $0.00
             Trust Financial
                                     $24,000,000.00                                                                                                                                                                                              $3,259,100.00
7/6/2011     Corporation,                                                      $24,000,000.00                                           24,000       $1,000.00                                       $1,200,000.00
             Ruston, LA8,14,44
12/19/2008                                             $14,341,140.33                                                        $0.00
12/10/2012                                                                      $2,172,000.00                                            3,000         $724.00       ($828,000.00)
           Community West
12/11/2012 Bancshares,               $15,600,000.00                             $9,122,400.00                                           12,600         $724.00     ($3,477,600.00)                                    $6.65                      $2,461,333.33
           Goleta, CA
1/11/2013                                                                                         ($112,944.00)
6/12/2013                                                                                                                                                                                             $698,351.00
2/13/2009    CommunityOne                              $12,739,234.90                                                        $0.00
             Bancorp/FNB
                                     $51,500,000.00                                                                                                                                                                                  22,071      $2,589,305.00
5/23/2014    United Corp.,                                                     $10,149,929.90                                         1,085,554          $9.35    ($41,350,070.10)
             Asheboro, NC53,110
1/9/2009                                                $3,483,629.20                                                        $0.00
10/29/2012 Congaree                                                                $23,932.54                                               29         $825.30         ($5,067.46)
           Bancshares, Inc.,          $3,285,000.00                                                                                                                                                                   $3.75                        $691,286.10
10/31/2012 Cayce, SC8,14                                                        $2,687,046.56                                            3,256         $825.30       ($568,953.44)                    $106,364.00
1/11/2013                                                                                          ($25,000.00)
2/13/2009                                                 $659,705.04                                                        $0.00
           Corning Savings
11/30/2012 and Loan                                                               $548,680.00                                              638         $860.00        ($89,320.00)                      $3,960.00
                                        $638,000.00                                                                                                                                                                                                $132,065.04
1/11/2013 Association,8,14                                                                          ($5,486.80)
           Corning, AR
3/26/2013                                                                                          ($19,513.20)
1/30/2009                                               $8,781,205.02                                                        $0.00
11/28/2012 Country Bank                                                           $713,208.30                                              777         $917.90        ($63,791.70)
           Shares, Inc.,              $7,525,000.00                                                                                                                                                                                              $1,570,839.50
11/29/2012 Milford, NE8,14                                                      $6,193,989.20                                            6,748         $917.90       ($554,010.80)                    $372,240.00
1/11/2013                                                                                          ($69,071.98)
6/5/2009     Covenant                                   $6,594,635.27                                                        $0.00
             Financial
                                      $5,000,000.00                                                                                                                                                                                              $1,344,635.27
4/30/2014    Corporation,                                                       $5,000,000.00                                            5,000       $1,000.00                                        $250,000.00
             Clarksdale, MS8
2/20/2009    Crazy Woman                                $1,867,002.08                                                $2,100,000.00
             Creek Bancorp,           $3,100,000.00                                                                                                                                                                  $10.92                        $867,002.08
1/8/2014     Inc., Buffalo, WY8                                                 $1,000,000.00                                            1,000       $1,000.00

1/9/2009     Crescent Financial                        $33,014,741.20                                                        $0.00
             Bancshares, Inc.
2/19/2014    (Crescent                                                         $24,900,000.00                                           24,900       $1,000.00
                                     $24,900,000.00                                                                                                                                                                   $5.95         514,693    $11,011,235.28
                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




             Financial
6/11/2014    Corporation),                                                                                                                                                                           $1,681,000.00
             Raleigh, NC58
                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                  387
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                           (CONTINUED)                                                                                                                                                                     388
                                                                                                                                            Number     Average Price                                                Stock Price       Current
Transaction                                                                   Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/23/2009                                                  $13,498,324.83                                                        $0.00
7/19/2013    Crosstown                                                                $343,794.50                                               350         $982.30         ($6,205.50)
             Holding Company,           $10,650,000.00                                                                                                                                                                                            $2,610,550.42
7/22/2013    Blaine, MN8,14                                                        $10,117,381.00                                            10,300         $982.30       ($182,619.00)                $531,210.67
9/12/2013                                                                                             ($104,611.76)
             CSRA Bank Corp.,
3/27/2009                                $2,400,000.00        $180,940.00                                                $2,400,000.00                                                                                $16.03                        $180,940.00
             Wrens, GA8
12/5/2008                                                 $136,046,583.33                                                        $0.00
8/26/2009    CVB Financial                                                         $97,500,000.00                                            97,500       $1,000.00
             Corp, Ontario,            $130,000,000.00                                                                                                                                                                                            $4,739,583.33
9/2/2009     CA11,16                                                               $32,500,000.00                                            32,500       $1,000.00
10/28/2009                                                                                                                                                                                            $1,307,000.00
2/27/2009    D.L. Evans                                    $23,686,592.33                                                        $0.00
             Bancorp, Burley,           $19,891,000.00                                                                                                                                                                                            $2,800,592.33
9/27/2011    ID8,14,44                                                             $19,891,000.00                                            19,891       $1,000.00                                    $995,000.00

5/15/2009    Deerfield Financial                            $3,283,338.96                                                        $0.00
             Corporation,                $2,639,000.00                                                                                                                                                                                              $512,338.96
9/8/2011     Deerfield, WI14,15,44                                                  $2,639,000.00                                          2,639,000          $1.00                                    $132,000.00

12/4/2009                                                   $6,598,331.15                                                        $0.00
                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




2/7/2013     Delmar Bancorp,                                                        $5,293,527.28                                             8,648         $612.10     ($3,354,472.72)                $311,943.55
                                         $9,000,000.00                                                                                                                                                                                              $832,487.50
2/8/2013     Delmar, MD8,14                                                           $215,462.72                                               352         $612.10       ($136,537.28)
3/26/2013                                                                                              ($55,089.90)
2/13/2009                                $1,173,000.00      $2,781,331.97                                                        $0.00
12/29/2009                               $1,508,000.00
             DeSoto County
9/24/2013    Bank, Horn Lake,                                                         $301,428.58                                               366         $823.03        ($64,571.42)                 $40,563.34                                  $577,205.80
             MS8,18
9/25/2013                                                                           $1,895,467.59                                             2,315         $816.45       ($419,532.41)
10/29/2013                                                                                             ($33,333.34)
5/22/2009                                                  $21,101,618.19                                                        $0.00
8/8/2012     Diamond                                                                $4,381,500.00                                          6,000,000          $0.73     ($1,618,500.00)
             Bancorp, Inc.,
8/9/2012                                $20,445,000.00                             $10,197,941.25                                         13,965,000          $0.73     ($3,767,058.75)                $688,041.09                                $5,541,380.06
             Washington,
8/10/2012    MO14,15                                                                  $350,520.00                                           480,000           $0.73       ($129,480.00)                 $91,535.40
9/11/2012                                                                                             ($149,299.61)
1/16/2009                                                  $87,459,858.69                                                        $0.00
             Dickinson
2/7/2013     Financial                                                              $8,025,555.03                                            14,523         $552.60     ($6,497,444.97)                   $3,372.19
             Corporation II,           $146,053,000.00                                                                                                                                                                                            $2,631,196.78
2/8/2013     Kansas City,                                                          $72,684,793.30                                           131,530         $552.60    ($58,845,206.70)               $4,922,044.87
             MO8,14
3/26/2013                                                                                             ($807,103.48)
3/13/2009                                                $1,464,248,844.00                                                       $0.00
             Discover Financial
4/21/2010    Services ,              $1,224,558,000.00                          $1,224,558,000.00                                          1,224,558      $1,000.00                                                   $61.98                    $67,690,844.00
             Riverwoods, IL11
7/7/2010                                                                                                                                                                                            $172,000,000.00
1/30/2009    DNB Financial                                 $13,683,277.61                                                        $0.00
             Corporation,
8/4/2011                                $11,750,000.00                             $11,750,000.00                                            11,750       $1,000.00                                                   $21.25                      $1,475,277.61
             Downingtown,
9/21/2011    PA44                                                                                                                                                                                      $458,000.00
6/19/2009                               $12,000,000.00     $17,424,285.82                                                        $0.00
11/27/2013 Duke Financial                                                           $5,000,000.00                                          5,000,000          $1.00
           Group, Inc.,                                                                                                                                                                                                                           $4,824,285.82
3/5/2014   Minneapolis, MN15                                                        $2,000,000.00                                          2,000,000          $1.00
4/2/2014                                                                            $5,000,000.00                                          5,000,000          $1.00                                    $600,000.00
12/5/2008                                                  $44,847,153.76                                                        $0.00
12/23/2009 Eagle Bancorp,                                                          $15,000,000.00                                            15,000       $1,000.00
           Inc., Bethesda,              $38,235,000.00                                                                                                                                                                $33.75                      $3,817,731.76
7/14/2011 MD12,44                                                                  $23,235,000.00                                            23,235       $1,000.00
11/23/2011                                                                                                                                                                                            $2,794,422.00
12/5/2008                                                 $352,722,420.00                                                        $0.00
           East West
12/29/2010 Bancorp,                    $306,546,000.00                            $306,546,000.00                                           306,546       $1,000.00                                                   $34.99                    $31,676,420.00
           Pasadena, CA11,16
1/26/2011                                                                                                                                                                                            $14,500,000.00
                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)
                                                                                                                                        Number     Average Price                                                      Stock Price         Current
Transaction                                                                Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                      as of        Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 6/30/2014         Warrants Paid to Treasury
1/9/2009                                                $28,453,653.60                                                        $0.00
10/18/2013 Eastern Virginia                                                      $3,900,000.00                                            3,900       $1,104.10                          $406,029.00
           Bankshares, Inc.,          $24,000,000.00                                                                                                                                                                     $6.40           373,832      $2,220,000.00
10/21/2013 Tappahannock, VA                                                     $20,100,000.00                                           20,100       $1,104.10                         $2,092,611.00
1/6/2014                                                                                           ($264,986.40)
1/16/2009    ECB Bancorp, Inc.                          $23,397,494.08                                                        $0.00
             Crescent Financial
2/19/2014                             $17,949,000.00                            $17,949,000.00                                           17,949       $1,000.00
             Bancshares, Inc.,
6/11/2014    Engelhard, NC89                                                                                                                                                                             $871,000.00
12/23/2008                                               $8,545,904.67                                                        $0.00
             Emclaire Financial
8/18/2011    Corp., Emlenton,          $7,500,000.00                             $7,500,000.00                                            7,500       $1,000.00                                                         $26.89                          $994,791.67
             PA44
12/7/2011                                                                                                                                                                                                 $51,113.00
12/5/2008                                               $39,415,959.89                                                        $0.00
             Encore
9/27/2011    Bancshares Inc.,         $34,000,000.00                            $34,000,000.00                                           34,000       $1,000.00                                                                                       $4,778,888.89
             Houston, TX45
11/23/2011                                                                                                                                                                                               $637,071.00
12/19/2008 Enterprise                                   $42,801,933.33                                                        $0.00
           Financial Services
11/7/2012                             $35,000,000.00                            $35,000,000.00                                           35,000       $1,000.00                                                         $18.06           324,074      $6,795,833.33
           Corp., St. Louis,
1/9/2013   MO11                                                                                                                                                                                         $1,006,100.00
6/12/2009    Enterprise                                  $4,680,205.56                                                        $0.00
             Financial Services
             Group, Inc.,              $4,000,000.00                                                                                                                                                                                                    $480,205.56
8/25/2011    Allison Park,                                                       $4,000,000.00                                            4,000       $1,000.00                                          $200,000.00
             PA8,14,44
1/30/2009    Equity                                     $10,394,872.56                                                        $0.00
             Bancshares, Inc.,         $8,750,000.00                                                                                                                                                                    $14.33      $5,186,000.86
8/11/2011    Wichita, KS8,44,72                                                  $8,750,000.00                                            8,750       $1,000.00                                          $438,000.00

12/19/2008                                              $47,294,527.29                                                        $0.00
8/3/2012                                                                           $481,387.50                                              550         $875.20        ($68,612.50)
8/8/2012                                                                        $17,505,000.00                                           20,000         $875.20     ($2,495,000.00)                     $1,910,898.00
             Exchange Bank,
8/9/2012     Santa Rosa,              $43,000,000.00                             $8,725,367.25                                            9,969         $875.20     ($1,243,632.75)                      $120,386.57                                  $7,980,919.44
             CA8,14
8/10/2012                                                                          $420,995.25                                              481         $875.20        ($60,004.75)                       $22,930.78
8/13/2012                                                                       $10,503,000.00                                           12,000         $875.20     ($1,497,000.00)
9/11/2012                                                                                          ($376,357.50)
1/30/2009                              $4,609,000.00     $9,405,391.28                                                        $0.00
11/6/2009                              $3,535,000.00
             F&M
2/6/2013     Bancshares,                                                         $4,797,325.00                                            5,090         $942.50       ($292,675.00)
                                                                                                                                                                                                                                                      $1,584,420.99
2/7/2013     Inc., Trezevant,                                                    $2,734,192.50                                            2,901         $942.50       ($166,807.50)                      $222,007.50
             TN8,14,18
2/8/2013                                                                           $144,202.50                                              153         $942.50         ($8,797.50)
3/26/2013                                                                                           ($76,757.21)
2/6/2009                                                $20,119,744.45                                                        $0.00
9/18/2012                                                                                                                                                                                                $136,813.05
             F & M Financial
9/19/2012    Corporation,             $17,000,000.00                             $2,664,750.00                                            2,805         $950.00       ($140,250.00)                                                                   $3,355,970.50
             Salisbury, NC8,14
9/20/2012                                                                       $13,485,250.00                                           14,195         $950.00       ($709,750.00)                      $638,460.90
11/16/2012                                                                                         ($161,500.00)
5/22/2009                                                $3,842,376.65                                                        $0.00
11/8/2012  F&C Bancorp Inc.,                                                     $1,590,599.43                                         1,659,000          $0.96        ($68,400.57)
                     14,15             $2,993,000.00                                                                                                                                                                                                    $872,778.04
11/13/2012 Holden, MO                                                            $1,278,999.18                                         1,334,000          $0.96        ($55,000.82)                      $125,000.00
1/11/2013                                                                                           ($25,000.00)
2/13/2009                                               $17,573,762.97                                                        $0.00
9/19/2012                                                                                                                                                                                                 $96,465.60
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




             F&M Financial
9/20/2012    Corporation,             $17,243,000.00                               $157,500.00                                              200         $787.50        ($42,500.00)                                                                   $3,388,248.50
             Clarksville, TN8,14
9/21/2012                                                                       $13,421,362.50                                           17,043         $787.50     ($3,621,637.50)                      $645,975.00
11/16/2012                                                                                         ($135,788.63)
                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                       389
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)                                                                                                                                                                         390
                                                                                                                                         Number     Average Price                                                    Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                    as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/9/2009                                               $104,023,433.33                                                        $0.00
              F.N.B.
9/9/2009      Corporation,           $100,000,000.00                           $100,000,000.00                                           100,000       $1,000.00                                                       $12.82         819,640      $9,632,883.55
              Hermitage, PA11
11/23/2011                                                                                                                                                                                              $690,100.00
              Farmers &
              Merchants
3/6/2009                              $11,000,000.00     $2,512,905.00                                               $11,000,000.00                                                                                                                $2,512,905.00
              Bancshares, Inc.,
              Houston, TX8
3/20/2009     Farmers &                                    $500,199.14                                                        $0.00
              Merchants
6/24/2013     Financial                  $442,000.00                               $425,425.00                                               442         $962.50        ($16,575.00)                     ($2,835.00)                                 $102,609.14
              Corporation,
7/26/2013     Argonia, KS8,14                                                                       ($25,000.00)

1/23/2009                                               $11,396,202.11                                                        $0.00
              Farmers Bank ,
1/9/2013                               $8,752,000.00                             $3,063,000.00                                             3,063       $1,000.00                                                                                   $2,206,202.11
              Windsor, VA8,11
12/31/2013                                                                       $5,689,000.00                                             5,689       $1,000.00                                        $438,000.00
1/9/2009                                                $27,105,349.50                                                        $0.00
              Farmers Capital
6/19/2012     Bank Corporation,       $30,000,000.00                            $22,196,700.00     ($332,950.50)                          30,000         $739.90     ($7,803,300.00)                                   $22.59                      $5,166,600.00
              Frankfort, KY
7/18/2012                                                                                                                                                                                                $75,000.00
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




6/19/2009                                               $15,452,669.34                                                        $0.00
11/8/2012  Farmers                                                                  $96,290.00                                           100,000           $0.96         ($3,710.00)
           Enterprises,
11/9/2012                             $12,000,000.00                                                                                                                                                     $37,387.14                                $3,423,094.20
           Inc., Great Bend,
              14,15
11/13/2012 KS                                                                   $11,458,510.00                                         11,900,000          $0.96       ($441,490.00)                    $552,936.00
1/11/2013                                                                                          ($115,548.00)
3/20/2009     Farmers State                                $830,173.67                                                        $0.00
              Bankshares, Inc.,          $700,000.00                                                                                                                                                                                                  $90,173.67
7/21/2011     Holton, KS8,14,45                                                    $700,000.00                                               700       $1,000.00                                         $40,000.00

12/29/2009 FBHC Holding                                    $804,592.16                                                        $0.00
           Company,                    $3,035,000.00                                                                                                                                                                                                 $154,592.16
3/9/2011   Boulder, CO15,17                                                        $650,000.00                                          3,035,000          $0.21     ($2,385,000.00)

6/26/2009                                               $19,836,630.66                                                        $0.00
              FC Holdings, Inc.,
2/20/2013                             $21,042,000.00                            $18,874,674.00                                            21,042         $897.00     ($2,167,326.00)                    $994,613.40                                  $156,090.00
              Houston, TX8,14
3/26/2013                                                                                          ($188,746.74)
12/19/2008 FCB Bancorp,                                 $11,156,234.25                                                        $0.00
           Inc., Louisville,           $9,294,000.00                                                                                                                                                                                               $1,397,234.25
9/22/2011  KY8,14,45                                                             $9,294,000.00                                             9,294       $1,000.00                                        $465,000.00

12/19/2008                                               $8,441,836.26                                                        $0.00
11/28/2012 FFW Corporation,                                                        $879,424.60                                               974         $902.90        ($94,575.40)
                     8,14              $7,289,000.00                                                                                                                                                                                               $1,567,852.34
11/30/2012 Wabash, IN                                                            $5,701,813.50                                             6,315         $902.90       ($613,186.50)                    $358,558.20
1/11/2013                                                                                           ($65,812.38)
5/29/2009     Fidelity Bancorp,                          $5,404,924.35                                                        $0.00
              Inc, Baton Rouge,        $3,942,000.00                                                                                                                                                                                               $1,265,924.35
3/27/2013     LA11,14,15                                                         $3,942,000.00                                          3,942,000          $1.00                                        $197,000.00

12/12/2008 Fidelity Bancorp,                             $8,388,333.33                                                        $0.00
           Inc., Pittsburgh,           $7,000,000.00
11/30/2012 PA77                                                                  $7,000,000.00                                             7,000       $1,000.00

11/13/2009                                               $7,220,908.83                                                        $0.00
7/19/2013     Fidelity Federal                                                     $439,000.00                                               439       $1,058.90                          $25,857.10
              Bancorp,                 $6,657,000.00
7/22/2013     Evansville, IN8,17                                                 $6,218,000.00                                             6,218       $1,058.90                         $366,240.20    $242,302.50
9/12/2013                                                                                           ($70,490.97)
                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)
                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/19/2008                                               $40,966,780.82                                                        $0.00
8/1/2012                                                                            $120,320.10                                               135         $891.30        ($14,679.90)
8/2/2012                                                                             $26,737.80                                                30         $891.30         ($3,262.20)
8/3/2012                                                                            $298,572.10                                               335         $891.30        ($36,427.90)
             Fidelity Financial
8/7/2012     Corporation,             $36,282,000.00                              $3,200,514.66                                             3,591         $891.30       ($390,485.34)                $170,227.93                                $7,228,349.33
             Wichita, KS8,14
8/8/2012                                                                          $2,348,470.10                                             2,635         $891.30       ($286,529.90)                $167,374.94
8/9/2012                                                                         $26,056,877.36                                            29,236         $891.30     ($3,179,122.64)               $1,210,615.36
8/10/2012                                                                           $285,203.20                                               320         $891.30        ($34,796.80)                $176,884.89
9/11/2012                                                                                           ($323,366.95)
12/19/2008 Fidelity Southern                             $51,286,669.09                                                        $0.00
           Corporation,               $48,200,000.00                                                                                                                                                                $12.99       2,624,351      $8,528,882.89
7/3/2012   Atlanta, GA                                                           $43,408,920.00     ($651,133.80)                          48,200         $900.60     ($4,791,080.00)

12/31/2008                                             $4,043,972,602.67                                                       $0.00
             Fifth Third
2/2/2011     Bancorp,              $3,408,000,000.00                          $3,408,000,000.00                                           136,320      $25,000.00                                                   $21.35                   $355,946,666.67
             Cincinnati, OH11
3/16/2011                                                                                                                                                                                         $280,025,936.00
12/23/2008                                               $43,787,611.61                                                        $0.00
2/23/2011    Financial                                                           $12,505,000.00                                              2,501      $5,000.00
             Institutions, Inc.,      $37,515,000.00                                                                                                                                                                $23.42                      $4,192,649.11
3/30/2011    Warsaw, NY11                                                        $25,010,000.00                                              5,002      $5,000.00
5/11/2011                                                                                                                                                                                           $2,079,962.50
2/13/2009    Financial Security                           $5,914,597.33                                                        $0.00
             Corporation,              $5,000,000.00                                                                                                                                                                                              $664,597.33
7/21/2011    Basin, WY8,14,45                                                     $5,000,000.00                                             5,000       $1,000.00                                    $250,000.00

7/31/2009    Financial Services                           $4,487,322.46                                                        $0.00
             of Winger, Inc.,          $3,742,000.00                                                                                                                                                                                              $633,322.46
9/1/2011     Winger, MN15,17,44                                                   $3,742,000.00                                          3,742,000          $1.00                                    $112,000.00

5/22/2009                                                 $1,289,436.37                                                        $0.00
12/10/2012 First Advantage                                                          $690,723.49                                               769         $898.20        ($78,276.51)                   $2,979.49
           Bancshares Inc.,
12/11/2012                             $1,177,000.00                                $366,469.68                                               408         $898.20        ($41,530.32)                 $26,318.80                                  $227,944.91
           Coon Rapids,
               8,14
1/11/2013 MN                                                                                         ($10,571.93)
3/26/2013                                                                                            ($14,428.07)
6/26/2009                                                 $3,003,674.75                                                        $0.00
12/20/2012 First Alliance                                                         $2,395,742.20                                             3,422         $700.10     ($1,026,257.80)                 $94,701.71
           Bancshares, Inc.,           $3,422,000.00                                                                                                                                                                                              $538,230.84
1/11/2013 Cordova, TN8,14                                                                            ($23,957.42)
3/26/2013                                                                                             ($1,042.58)
7/24/2009  First American                                $65,558,530.56                                                        $0.00
           Bank Corporation,
12/21/2011                            $50,000,000.00                             $15,000,000.00                                         15,000,000          $1.00                                                                             $13,058,530.56
           Elk Grove Village,
             11,14,15
12/11/2012 IL                                                                    $35,000,000.00                                         35,000,000          $1.00                                   $2,500,000.00
3/13/2009    First American                              $18,204,166.78                                                        $0.00
             International
                                      $17,000,000.00                                                                                                                                                                                            $1,204,166.78
8/13/2010    Corp., Brooklyn,                                                    $17,000,000.00                                            17,000       $1,000.00
             NY9,11,36
1/9/2009                                                 $74,518,906.44                                                        $0.00
             First Bancorp,
9/1/2011                              $65,000,000.00                             $65,000,000.00                                            65,000       $1,000.00                                                   $18.35         616,308      $8,594,444.44
             Troy, NC45
11/23/2011                                                                                                                                                                                           $924,462.00
1/16/2009                                               $122,513,539.32                                              $238,972,281.88
             First BanCorp,
8/16/2013                            $400,000,000.00                             $81,000,000.00                                         12,000,000          $6.75    ($64,711,540.92)                               $17.25         389,484    $32,999,386.32
             San Juan, PR34
9/13/2013                                                                         $8,514,153.00                                          1,261,356          $6.75     ($6,802,024.20)
2/20/2009                                                 $9,050,516.50                                                        $0.00
             First BancTrust
1/18/2012    Corporation,              $7,350,000.00                              $3,675,000.00                                             3,675       $1,000.00                                                   $14.05                      $1,332,516.50
                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




             Paris, IL8,11,14
10/24/2012                                                                        $3,675,000.00                                             3,675       $1,000.00                                    $368,000.00
2/6/2009     First Bank of                                $3,960,105.00                                                        $0.00
             Charleston, Inc.,
                                       $3,345,000.00                                                                                                                                                                                              $448,105.00
7/21/2011    Charleston,                                                          $3,345,000.00                                             3,345       $1,000.00                                    $167,000.00
             WV8,14,45
                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                 391
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                       (CONTINUED)                                                                                                                                                                   392
                                                                                                                                       Number     Average Price                                               Stock Price       Current
Transaction                                                               Capital Repayment/                      Remaining Capital   of Shares       of Shares    (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed            (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/16/2009    First Bankers                             $11,941,222.22                                                        $0.00
             Trustshares, Inc.,      $10,000,000.00                                                                                                                                                                                         $1,441,222.22
9/8/2011     Quincy, IL8,14,45                                                 $10,000,000.00                                           10,000       $1,000.00                                   $500,000.00

12/31/2008                                            $119,071,500.97                                                        $0.00
8/8/2013                                                                          $105,000.00                                              300         $350.00        ($195,000.00)
8/9/2013                                                                       $12,171,950.00                                           34,777         $350.00     ($22,605,050.00)             $2,430,181.71
8/12/2013    First Banks, Inc.,                                                $87,028,900.00                                          248,654         $350.00    ($161,625,100.00)             $5,919,151.59
                                    $295,400,000.00                                                                                                                                                                                         $6,037,237.50
9/12/2013    Clayton, MO8                                                                         ($993,058.50)
9/24/2013                                                                       $3,209,702.21                                            5,819         $551.60      ($2,609,297.79)
9/25/2013                                                                       $3,226,801.50                                            5,850         $551.60      ($2,623,198.50)
10/29/2013                                                                                         ($64,365.04)
3/6/2009                                              $112,410,898.89                                                        $0.00
             First Busey
8/25/2011    Corporation,           $100,000,000.00                           $100,000,000.00                                          100,000       $1,000.00                                                   $5.81                    $12,347,221.89
             Urbana, IL45
11/23/2011                                                                                                                                                                                        $63,677.00
4/10/2009 First Business              $2,211,000.00     $4,693,275.61                                                        $0.00
12/11/2009 Bank, National             $2,032,000.00
           Association/
                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




12/19/2012 Bank of Southern                                                     $1,373,084.00                                            1,500         $916.70        ($126,916.00)               $90,461.65                                  $752,663.45
           California, N.A.
12/20/2012 San Diego,                                                           $2,510,399.84                                            2,743         $915.60        ($232,600.16)
             8,14,18
1/11/2013 CA                                                                                       ($33,333.33)
12/19/2008 First California                            $28,810,847.55                                                        $0.00
           Financial Group,
7/14/2011                            $25,000,000.00                            $25,000,000.00                                           25,000       $1,000.00                                                  $43.17                      $3,211,805.55
           Inc, Westlake
                       45
8/24/2011 Village, CA                                                                                                                                                                            $599,042.00
4/3/2009                                               $11,956,712.44                                                        $0.00
             First Capital
6/19/2012    Bancorp, Inc.,          $10,958,000.00                            $10,082,565.38     ($151,238.48)                         10,958         $920.10        ($875,434.62)                              $4.50         250,947      $1,759,343.76
             Glen Allen, VA
2/6/2013                                                                                                                                                                                         $266,041.78
2/13/2009                             $2,200,000.00     $5,446,642.94                                                        $0.00
           First Choice
12/22/2009 Bank, Cerritos,            $2,836,000.00                                                                                                                                                                                           $300,642.94
           CA8,11,14,18,36
9/24/2010                                                                       $5,036,000.00                                            5,036       $1,000.00                                   $110,000.00
1/23/2009                                              $25,245,684.71                                                        $0.00
             First Citizens
7/3/2012     Banc Corp,              $23,184,000.00                            $21,004,704.00     ($315,070.56)                         23,184         $906.00      ($2,179,296.00)                              $9.01         469,312      $3,992,877.27
             Sandusky, OH
9/5/2012                                                                                                                                                                                         $563,174.00
3/20/2009    First Colebrook                            $5,339,487.75                                                        $0.00
             Bancorp, Inc.,
                                      $4,500,000.00                                                                                                                                                                                           $614,487.75
9/22/2011    Colebrook,                                                         $4,500,000.00                                            4,500       $1,000.00                                   $225,000.00
             NH8,14,44
11/21/2008                                             $42,839,002.78                                                        $0.00
             First Community
7/8/2009     Bancshares Inc.,        $41,500,000.00                            $41,500,000.00                                           41,500       $1,000.00                                                  $14.33
             Bluefield, VA12
11/22/2011                                                                                                                                                                                        $30,600.00
             First Commuity
             Bancshares,
5/15/2009    Inc./Equity             $14,800,000.00     $4,180,778.30                                               $14,800,000.00                                                                                                          $6,696,053.64
             Bancshares, Inc.,
             Wichita, KS8,72
12/23/2008 First Community                              $8,499,249.92                                                        $0.00
           Bank Corporation
                                     $10,685,000.00                                                                                                                                                                                           $744,982.44
5/31/2011  of America,                                                          $7,754,267.48                                           10,685         $725.70      ($2,930,732.52)
           Pinellas Park, FL
11/21/2008                                             $13,425,979.36                                                        $0.00
             First Community
8/29/2012    Corporation,            $11,350,000.00                            $11,155,120.50     ($167,326.81)                         11,350         $982.80        ($194,879.50)                             $10.65                      $2,140,685.67
             Lexington, SC
11/1/2012                                                                                                                                                                                        $297,500.00
                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)
                                                                                                                                         Number     Average Price                                               Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                               as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/11/2009                                               $18,252,479.06                                                        $0.00
8/8/2012                                                                                                                                                                                            $70,727.58
8/9/2012                                                                                                                                                                                           $440,082.72
8/10/2012    First Community                                                                                                                                                                       $209,563.20
             Financial Partners,      $22,000,000.00                                                                                                                                                                                          $3,320,655.56
9/19/2012    Inc., Joliet, IL8                                                      $326,250.00                                              500         $652.50       ($173,750.00)
9/20/2012                                                                         $3,051,090.00                                            4,676         $652.50     ($1,624,910.00)
9/21/2012                                                                        $10,977,660.00                                           16,824         $652.50     ($5,846,340.00)
11/16/2012                                                                                          ($143,550.00)
12/5/2008    First Defiance                              $41,631,005.92                                                        $0.00
             Financial Corp.,         $37,000,000.00                                                                                                                                                              $28.70         550,595      $6,546,862.22
6/19/2012    Defiance, OH                                                        $35,618,420.00     ($534,276.30)                         37,000         $962.70     ($1,381,580.00)

9/11/2009    First Eagle                                  $8,514,738.21                                                        $0.00
             Bancshares, Inc.,
                                       $7,500,000.00                                                                                                                                                                                            $639,738.21
9/17/2010    Hanover Park,                                                        $7,500,000.00                                         7,500,000          $1.00                                   $375,000.00
             IL11,15,36
2/6/2009     First Express of                             $6,074,313.00                                                        $0.00
             Nebraska, Inc.,           $5,000,000.00                                                                                                                                                                                            $824,313.00
2/15/2012    Gering, NE8,11,14                                                    $5,000,000.00                                            5,000       $1,000.00                                   $250,000.00

3/6/2009     First Federal                                $6,570,625.00                                                        $0.00
             Bancshares of
                                      $16,500,000.00                                                                                                                                                               $8.88                        $570,625.00
5/3/2011     Arkansas, Inc.,                                                      $6,000,000.00                                           16,500         $363.60    ($10,500,000.00)
             Harrison, AR
12/23/2008                                               $87,644,066.10                                                        $0.00
             First Financial
2/24/2010    Bancorp,                 $80,000,000.00                             $80,000,000.00                                           80,000       $1,000.00                                                  $17.21                      $4,677,777.78
             Cincinnati, OH12,16
6/8/2010                                                                                                                                                                                          $2,966,288.32
6/12/2009    First Financial                              $4,563,280.34                                                        $0.00
             Bancshares,
                                       $3,756,000.00                                                                                                                                                                                            $694,280.34
9/22/2011    Inc., Lawrence,                                                      $3,756,000.00                                         3,756,000          $1.00                                   $113,000.00
             KS15,17,44
12/5/2008                                                $68,141,972.19                                                        $0.00
             First Financial
4/3/2012     Holdings Inc.,           $65,000,000.00                             $56,778,150.00     ($851,672.25)                         65,000         $873.50     ($8,221,850.00)                              $61.00                    $10,815,494.44
             Charleston, SC
5/22/2013                                                                                                                                                                                         $1,400,000.00
1/9/2009     First Financial                             $12,333,778.00                                                        $0.00
             Service
4/29/2013                             $20,000,000.00                             $10,842,200.00                                           20,000         $542.10     ($9,157,800.00)                               $3.65         215,983      $1,600,000.00
             Corporation,
5/31/2013    Elizabethtown, KY                                                                      ($108,422.00)
12/22/2009                                                $9,522,346.17                                                        $0.00
             First Freedom
11/9/2012    Bancshares, Inc.,         $8,700,000.00                              $8,025,750.00                                            8,700         $922.50       ($674,250.00)               $256,118.75                                $1,320,734.92
             Lebanon, TN9,17
1/11/2013                                                                                            ($80,257.50)
2/27/2009                                                 $8,702,021.25                                                        $0.00
           First Gothenburg
10/29/2012 Bancshares,                                                               $26,398.99                                               29         $910.30         ($2,601.01)
                                       $7,570,000.00                                                                                                                                                                                          $1,517,766.09
10/31/2012 Inc., Gothenburg,                                                      $6,864,647.71                                            7,541         $910.30       ($676,352.29)               $362,118.92
           NE8,14
1/11/2013                                                                                            ($68,910.46)
8/28/2009    First Guaranty                              $24,059,476.66                                                        $0.00
             Bancshares,
                                      $20,699,000.00                                                                                                                                                                                          $2,330,476.66
9/22/2011    Inc., Hammond,                                                      $20,699,000.00                                            2,070      $10,000.00                                  $1,030,000.00
             LA8,14,44
11/14/2008 First Horizon                               $1,037,467,405.56                                                       $0.00
           National
12/22/2010                           $866,540,000.00                            $866,540,000.00                                          866,540       $1,000.00                                                  $11.86                    $91,227,405.56
           Corporation,
3/9/2011   Memphis, TN11                                                                                                                                                                         $79,700,000.00
8/28/2009                                                 $2,820,256.96                                                        $0.00
           First
12/20/2012 Independence                                                           $2,336,675.00                                            3,223         $725.00       ($886,325.00)
                                       $3,223,000.00                                                                                                                                                                                            $533,581.96
1/11/2013 Corporation,                                                                               ($23,366.75)
                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




           Detroit, MI8,9
3/26/2013                                                                                            ($26,633.25)
3/13/2009    First                                        $4,118,886.85                                                        $0.00
             Intercontinental
8/12/2013                              $6,398,000.00                              $3,247,112.96                                            6,398         $507.50     ($3,150,887.04)               $139,320.00                                  $757,453.89
             Bank, Doraville,
9/12/2013    GA8                                                                                     ($25,000.00)
                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                               393
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                       (CONTINUED)                                                                                                                                                                          394
                                                                                                                                       Number     Average Price                                                      Stock Price       Current
Transaction                                                               Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                      as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/12/2008 First Litchfield                            $12,147,768.63                                                        $0.00
           Financial
                                     $10,000,000.00                                                                                                                                                                                                  $659,722.22
4/7/2010   Corporation,                                                        $10,000,000.00                                           10,000       $1,000.00                                         $1,488,046.41
           Litchfield, CT11
2/27/2009    First M&F                                 $36,472,843.94                                                        $0.00
             Corporation,
9/29/2010                            $30,000,000.00                            $30,000,000.00                                           30,000       $1,000.00                                                         $29.07                      $2,383,333.33
             Kosciusko,
8/30/2013    MS11,36                                                                                                                                                                                   $4,089,510.61
1/16/2009    First Manitowoc                           $12,837,983.33                                                        $0.00
             Bancorp, Inc.,
                                     $12,000,000.00                                                                                                                                                                                                  $237,983.33
5/27/2009    Manitowoc,                                                        $12,000,000.00                                           12,000       $1,000.00                                          $600,000.00
             WI8,11,14
2/6/2009     First Market                              $40,834,859.35                                                        $0.00
             Bank, FSB/Union
             First Market
                                     $33,900,000.00                                                                                                                                                                                                $2,695,972.22
12/7/2011    Bankshares                                                        $33,900,000.00                                           35,595       $1,000.00                         $1,695,000.00
             Corporation,
             Richmond, VA11,25
2/13/2009    First Menasha                              $5,713,865.00                                                        $0.00
             Bancshares, Inc.,        $4,797,000.00                                                                                                                                                                                                  $676,865.00
9/15/2011    Neenah, WI8,14,44                                                  $4,797,000.00                                            4,797       $1,000.00                                          $240,000.00
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




2/20/2009                                             $131,383,055.11                                                        $0.00
             First Merchants
9/22/2011    Corporation,           $116,000,000.00                           $116,000,000.00                                          116,000       $1,000.00                                                         $21.14                    $15,015,555.11
             Muncie, IN33,44,45
11/23/2011                                                                                                                                                                                              $367,500.00
12/5/2008                                             $222,528,333.33                                                        $0.00
           First Midwest
11/23/2011 Bancorp, Inc.,           $193,000,000.00                           $193,000,000.00                                          193,000       $1,000.00                                                         $17.03                    $28,628,333.33
           Itasca, IL11
12/21/2011                                                                                                                                                                                              $900,000.00
3/13/2009    First National                            $15,329,326.44                                                        $0.00
             Corporation,            $13,900,000.00                                                                                                                                                                     $7.99                      $2,621,903.00
8/29/2012    Strasburg, VA8,14                                                 $12,266,750.00     ($184,001.25)                         13,900         $882.50     ($1,633,250.00)                      $624,674.69

3/20/2009    First NBC Bank                            $21,033,989.56                                                        $0.00
             Holding Company,
                                     $17,836,000.00                                                                                                                                                                                                $2,305,989.56
8/4/2011     New Orleans,                                                      $17,836,000.00                                           17,836       $1,000.00                                          $892,000.00
             LA8,14,44
11/21/2008                                            $191,464,618.00                                                        $0.00
             First Niagara
5/27/2009    Financial Group,       $184,011,000.00                           $184,011,000.00                                          184,011       $1,000.00                                                          $8.74                      $4,753,618.00
             Lockport, NY12,16
6/24/2009                                                                                                                                                                                              $2,700,000.00
3/13/2009  First Northern                              $19,943,580.33                                                        $0.00
           Community
9/15/2011                            $17,390,000.00                            $17,390,000.00                                           17,390       $1,000.00                                                          $7.55                      $2,178,580.33
           Bancorp, Dixon,
              44
11/16/2011 CA                                                                                                                                                                                           $375,000.00
11/21/2008                                             $22,297,560.34                                                        $0.00
           First PacTrust
12/15/2010 Bancorp, Inc.,            $19,300,000.00                            $19,300,000.00                                           19,300       $1,000.00                                                         $10.90       3,670,822      $1,994,333.34
           Chula Vista, CA11
1/5/2011                                                                                                                                                                                               $1,003,227.00
3/13/2009 First Place                                   $7,009,094.50                                                        $0.00
           Financial Corp.,          $72,927,000.00                                                                                                                                                                    $13.79                      $7,009,094.50
10/29/2012 Warren, OH73,97                                                                                                                                        ($72,927,000.00)

2/20/2009                             $4,579,000.00     $9,948,069.58                                                        $0.00
12/18/2009                            $4,596,000.00
             First Priority
2/7/2013     Financial Corp.,                                                   $6,682,192.50                                            7,575         $882.23       ($892,807.50)                       $48,083.60                                $1,711,258.50
             Malvern, PA8,14,18
2/8/2013                                                                        $1,410,831.60                                            1,600         $882.05       ($189,168.40)                      $176,633.62
3/26/2013                                                                                          ($80,930.24)
3/6/2009                                               $12,994,059.00                                                        $0.00
             First Reliance
3/11/2013    Bancshares, Inc.,       $15,349,000.00                            $10,431,333.89                                           15,349         $679.60     ($4,917,666.11)                      $624,632.45     $2.00                      $2,042,406.00
             Florence, SC8,14
4/9/2013                                                                                          ($104,313.34)
1/30/2009                             $2,600,000.00     $5,731,793.60                                                        $0.00
           First Resource
12/11/2009 Bank, Exton,               $2,417,000.00                                                                                                                                                                                                  $584,793.60
           PA8,14,18,44,45
9/15/2011                                                                       $5,017,000.00                                            5,017       $1,000.00                                          $130,000.00
                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)
                                                                                                                                            Number     Average Price                                              Stock Price       Current
Transaction                                                                 Capital Repayment/                        Remaining Capital    of Shares       of Shares   (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/9/2009     First Security                              $16,315,362.00                                                          $0.00
             Group, Inc.,
                                       $33,000,000.00                                                                                                                                                                $2.17                      $1,402,500.00
4/11/2013    Chattanooga,                                                        $14,912,862.00                                            9,941,908          $1.50    ($18,087,138.00)
             TN87
12/23/2008 First Sound Bank,                              $4,030,944.44                                                          $0.00
                                        $7,400,000.00                                                                                                                                                                $0.09         114,080        $330,944.44
2/20/2013  Seattle, WA79                                                          $3,700,000.00                                               7,400         $500.00     ($3,700,000.00)
7/17/2009  First South                                   $65,432,450.94                                                          $0.00
           Bancorp, Inc.,
9/28/2011                              $50,000,000.00                            $13,125,000.00                                           13,125,000          $1.00                                                                           $12,932,450.94
           Lexington,
              11,14,15
11/28/2012 TN                                                                    $36,875,000.00                                           36,875,000          $1.00                                 $2,500,000.00
1/30/2009    First Southern                              $12,263,468.31                                                          $0.00
             Bancorp, Inc.,
                                       $10,900,000.00                                                                                                                                                                                             $818,468.31
6/16/2010    Boca Raton,                                                         $10,900,000.00                                              10,900       $1,000.00                                  $545,000.00
             FL11,8,14
3/6/2009                                                  $5,359,772.59                                                          $0.00
3/26/2013    First Southwest                                                        $315,007.00                                                 350         $900.00        ($34,993.00)
             Bancorporation,
3/27/2013                               $5,500,000.00                             $2,835,063.00                                               3,150         $900.00       ($314,937.00)              $206,048.21                                  $207,327.00
             Inc., Alamosa,
3/28/2013    CO8,14                                                               $1,800,040.00                                               2,000         $900.00       ($199,960.00)               $45,788.48
4/9/2013                                                                                               ($49,501.10)
3/6/2009     First Texas BHC,                            $16,072,389.00                                                          $0.00
             Inc., Fort Worth,         $13,533,000.00                                                                                                                                                                                           $1,862,389.00
9/15/2011    TX8,14,44                                                           $13,533,000.00                                              13,533       $1,000.00                                  $677,000.00

6/5/2009                                                 $15,304,180.50                                                          $0.00
             First Trust
2/20/2013    Corporation, New          $17,969,000.00                            $13,750,058.49                                           17,969,000          $0.77     ($4,218,941.51)              $644,726.19                                $1,046,896.40
             Orleans, LA14,15
3/26/2013                                                                                            ($137,500.58)
1/23/2009    First ULB Corp.,                             $5,211,020.69                                                          $0.00
                                        $4,900,000.00                                                                                                                                                                                              $66,020.69
4/22/2009    Oakland, CA8,11,14                                                   $4,900,000.00                                               4,900       $1,000.00                                  $245,000.00
             First United
1/30/2009    Corporation,              $30,000,000.00     $8,814,361.91                                                 $30,000,000.00                                                                               $8.77         326,323      $8,814,361.91
             Oakland, MD
6/12/2009    First Vernon                                 $6,662,770.42                                                          $0.00
             Bancshares, Inc.,          $6,000,000.00                                                                                                                                                                                             $417,770.42
9/29/2010    Vernon, AL8,11,14,36                                                 $6,000,000.00                                               6,000       $1,000.00                                  $245,000.00

2/6/2009                                $8,559,000.00    $21,142,314.80                                                          $0.00
12/11/2009                             $11,881,000.00
8/9/2012                                                                          $6,138,000.00                                               7,920         $775.00     ($1,782,000.00)              $311,681.70
             First Western
8/10/2012    Financial, Inc.,                                                        $62,000.00                                                  80         $775.00        ($18,000.00)               $39,370.32                                $3,768,965.19
             Denver, CO8,14,18
9/11/2012                                                                                              ($62,000.00)
6/24/2013                                                                        $10,994,240.00                                              12,440         $874.81     ($1,445,760.00)
7/26/2013                                                                                            ($109,942.41)
1/30/2009                                                $38,185,560.05                                                          $0.00
             Firstbank
7/3/2012     Corporation,              $33,000,000.00                            $31,053,330.00      ($465,799.95)                           33,000         $941.00     ($1,946,670.00)                             $22.88                      $5,651,360.00
             Alma, MI
7/18/2012                                                                                                                                                                                           $1,946,670.00
1/9/2009                                                $131,813,194.44                                                          $0.00
             FirstMerit
4/22/2009    Corporation,             $125,000,000.00                           $125,000,000.00                                             125,000       $1,000.00                                                 $19.75       2,408,203    $71,033,631.08
             Akron, OH11
5/27/2009                                                                                                                                                                                           $5,025,000.00
1/30/2009                                               $277,861,053.94                                                          $0.00
3/26/2013                                                                         $1,439,258.50                                                1,579        $911.50       ($139,741.50)
3/27/2013    Flagstar Bancorp,                                                  $228,401,847.00                                             250,578         $911.50    ($22,176,153.00)
                                      $266,657,000.00                                                                                                                                                               $18.10                    $37,220,872.00
3/28/2013    Inc., Troy, MI                                                      $13,216,750.00                                              14,500         $911.50     ($1,283,250.00)
4/9/2013                                                                                            ($2,430,578.56)
                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




6/12/2013                                                                                                                                                                                             $12,905.00
7/24/2009    Florida Bank                                 $9,180,793.08                                                          $0.00
             Group, Inc.,              $20,471,000.00                                                                                                                                                                                           $1,180,793.08
8/14/2013    Tampa, FL8,84                                                        $8,000,000.00                                              20,471         $390.80    ($12,471,000.00)

2/20/2009    Florida Business                            $11,309,750.50                                                          $0.00
             BancGroup, Inc.,           $9,495,000.00                                                                                                                                                                                           $1,339,750.50
9/22/2011    Tampa, FL8,14,44                                                     $9,495,000.00                                               9,495       $1,000.00                                  $475,000.00
                                                                                                                                                                                                                                                                 395




                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)                                                                                                                                                                        396
                                                                                                                                         Number     Average Price                                                    Stock Price       Current
Transaction                                                                 Capital Repayment/                     Remaining Capital    of Shares       of Shares   (Realized Loss)/                                    as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)        Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/19/2008                                               $73,904,166.66                                                       $0.00
           Flushing Financial
10/28/2009 Corporation, Lake           $70,000,000.00                            $70,000,000.00                                           70,000       $1,000.00                                                       $20.55                      $3,004,166.66
           Success, NY12,16
12/30/2009                                                                                                                                                                                              $900,000.00
2/27/2009    FNB Bancorp,                                $14,267,700.00                                                       $0.00
             South San
                                       $12,000,000.00                                                                                                                                                                  $28.60                      $1,667,700.00
9/15/2011    Francisco,                                                          $12,000,000.00                                           12,000       $1,000.00                                        $600,000.00
             CA45,8,14
5/15/2009  Foresight                                     $18,670,291.67                                                       $0.00
           Financial Group,
                                       $15,000,000.00                                                                                                                                                                  $18.30                      $2,920,291.67
12/11/2012 Inc.,  Rockford,                                                      $15,000,000.00                                           15,000       $1,000.00                                        $750,000.00
           IL8,11,14
5/22/2009    Fort Lee Federal                                $87,184.85                                                       $0.00
             Savings Bank,              $1,300,000.00                                                                                                                                                                                                 $87,184.85
4/20/2012    Fort Lee, NJ8,66,97                                                                                                                                     ($1,300,000.00)

4/3/2009     Fortune Financial                            $3,668,927.67                                                       $0.00
             Corporation,               $3,100,000.00                                                                                                                                                                                                $413,927.67
9/15/2011    Arnold, MO8,14,45                                                    $3,100,000.00                                            3,100       $1,000.00                                        $155,000.00

12/5/2008    FPB Bancorp,                                   $273,888.89                                                       $0.00
             Inc., Port St.             $5,800,000.00                                                                                                                                                                   $0.01         183,158        $273,888.89
7/15/2011    Lucie, FL50,97                                                                                                                                          ($5,800,000.00)
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




1/23/2009                                                 $3,623,721.50                                                       $0.00
           FPB Financial
12/16/2009 Corp., Hammond,              $3,240,000.00                             $1,000,000.00                                            1,000       $1,000.00                                                                                     $221,721.50
           LA8,11,14
6/16/2010                                                                         $2,240,000.00                                            2,240       $1,000.00                                        $162,000.00
5/22/2009                                                 $4,336,183.67                                                       $0.00
11/9/2012  Franklin Bancorp,                                                        $594,550.00                                              940         $632.50       ($345,450.00)                    $126,798.62
           Inc., Washington,            $5,097,000.00                                                                                                                                                                                                $965,343.67
11/13/2012 MO8,14                                                                 $2,629,302.50                                            4,157         $632.50     ($1,527,697.50)                     $45,188.88
1/11/2013                                                                                           ($25,000.00)
5/8/2009                                                  $4,413,022.95                                                       $0.00
             Freeport
4/11/2014    Bancshares, Inc.,          $3,000,000.00                             $2,800,000.00                                         2,800,000          $1.01                         $18,228.00     $101,181.00                                $1,241,721.45
             Freeport, IL15
4/14/2014                                                                           $200,000.00                                          200,000           $1.01                          $1,302.00      $50,590.50
6/26/2009    Fremont                                     $45,796,066.36                                                       $0.00
             Bancorporation,           $35,000,000.00                                                                                                                                                                                              $9,046,066.36
7/25/2012    Fremont, CA11,14,15                                                 $35,000,000.00                                        35,000,000          $1.00                                       $1,750,000.00

1/23/2009    Fresno First Bank,                           $2,437,100.33                                                       $0.00
                                        $1,968,000.00                                                                                                                                                                                                $371,100.33
11/1/2012    Fresno, CA8,14,44                                                    $1,968,000.00                                            1,968       $1,000.00                                         $98,000.00
4/24/2009                                                 $3,408,191.65                                                       $0.00
           Frontier
11/24/2009 Bancshares, Inc.,            $3,000,000.00                             $1,600,000.00                                         1,600,000          $1.00                                                                                     $258,191.65
           Austin, TX11,14,15
10/6/2010                                                                         $1,400,000.00                                         1,400,000          $1.00                                        $150,000.00
12/23/2008                                              $416,635,625.00                                                       $0.00
             Fulton Financial
7/14/2010    Corporation,             $376,500,000.00                           $376,500,000.00                                          376,500       $1,000.00                                                       $12.39                    $29,335,625.00
             Lancaster, PA11
9/8/2010                                                                                                                                                                                              $10,800,000.00
5/8/2009     Gateway                                      $7,260,794.87                                                       $0.00
             Bancshares, Inc.,          $6,000,000.00                                                                                                                                                                                                $960,794.87
4/13/2012    Ringgold, GA8,14                                                     $6,000,000.00                                            6,000       $1,000.00                                        $300,000.00

2/6/2009     Georgia                                     $10,096,470.83                                                       $0.00
             Commerce
                                        $8,700,000.00                                                                                                                                                                                                $961,470.83
2/16/2011    Bancshares, Inc.,                                                    $8,700,000.00                                            8,700       $1,000.00                                        $435,000.00
             Atlanta, GA8,11,14
5/1/2009                                                  $1,576,457.50                                                       $0.00
             Georgia Primary
2/10/2014                               $4,500,000.00                             $1,556,145.00                                            4,500         $345.80     ($2,943,855.00)                     $45,312.50
             Bank, Atlanta, GA8
3/19/2014                                                                                           ($25,000.00)
3/6/2009                                                  $5,699,100.75                                                       $0.00
           Germantown
10/29/2012 Capital                                                                   $26,393.77                                               29         $910.10         ($2,606.23)
           Corporation, Inc.,           $4,967,000.00                                                                                                                                                                                                $988,889.76
10/31/2012 Germantown,                                                            $4,494,221.94                                            4,938         $910.10       ($443,778.06)                    $214,595.28
           TN8,14
1/11/2013                                                                                           ($25,000.00)
6/26/2009    Gold Canyon                                     $53,859.52                                                       $0.00
             Bank, Gold                 $1,607,000.00                                                                                                                                                                                                 $53,859.52
4/5/2013     Canyon, AZ8,17,91,97                                                                                                                                    ($1,607,000.00)

                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                          (CONTINUED)
                                                                                                                                           Number     Average Price                                                        Stock Price       Current
Transaction                                                                  Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                        as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4       Warrant Sales 6/30/2014       Warrants Paid to Treasury
10/28/2008                                             $11,418,055,555.44                                                       $0.00
             Goldmans Sachs
6/17/2009    Group, Inc. New      $10,000,000,000.00                          $10,000,000,000.00                                         10,000,000      $1,000.00                                                                                    $318,055,555.44
             York, NY11
7/22/2009                                                                                                                                                                                                $1,100,000,000.00
             Goldwater Bank,
1/30/2009    N.A., Scottsdale,         $2,568,000.00         $145,750.00                                                $2,568,000.00                                                                                                                      $145,750.00
             AZ8
4/24/2009    Grand Capital                                  $4,717,144.78                                                       $0.00
             Corporation,              $4,000,000.00                                                                                                                                                                                                       $517,144.78
9/8/2011     Tulsa, OK8,14,44                                                      $4,000,000.00                                             4,000       $1,000.00                                            $200,000.00

             Grand Financial
9/25/2009    Corporation,              $2,443,320.00         $950,839.61                                                $2,443,320.00                                                                                                                      $950,839.61
             Hattiesburg, MS15
             Grand Mountain
5/29/2009    Bancshares, Inc.,         $3,076,000.00                $0.00                                               $3,076,000.00
             Granby, CO8
1/9/2009     GrandSouth                $9,000,000.00      $17,625,917.08                                                        $0.00
             Bancorporation,
12/11/2009                             $6,319,000.00                                                                                                                                                                          $6.60                      $1,856,917.08
             Greenville,
9/8/2011     SC8,14,18,44                                                         $15,319,000.00                                            15,319       $1,000.00                                            $450,000.00
7/17/2009                                                 $11,413,106.46                                                        $0.00
             Great River
4/11/2014    Holding Company,          $8,400,000.00                               $4,800,000.00                                          4,800,000          $1.19                         $926,400.00                                                     $759,575.46
             Baxter, MN15
4/14/2014                                                                          $3,600,000.00                                          3,600,000          $1.19                         $694,800.00        $632,331.00
12/5/2008                                                 $72,274,419.56                                                        $0.00
             Great Southern
8/18/2011    Bancorp,                $58,000,000.00                               $58,000,000.00                                            58,000       $1,000.00                                                           $32.05                      $7,838,055.56
             Springfield, MO45
9/21/2011                                                                                                                                                                                                   $6,436,364.00
12/23/2008 Green                                          $74,642,857.78                                                        $0.00
           Bankshares, Inc.,         $72,278,000.00                                                                                                                                                                                                      $5,942,857.78
9/7/2011   Greeneville, TN                                                        $68,700,000.00                                            72,278         $950.50     ($3,578,000.00)

2/27/2009                                                   $3,036,021.12                                                       $0.00
11/14/2012 Green Circle                                                              $800,000.00                                               800       $1,000.00
           Investments, Inc.,          $2,400,000.00                                                                                                                                                                                                       $516,021.12
1/23/2013 Clive, IA8,11,14                                                           $800,000.00                                               800       $1,000.00
4/24/2013                                                                            $800,000.00                                               800       $1,000.00                                            $120,000.00
2/27/2009    Green City                                      $733,037.33                                                        $0.00
             Bancshares,
                                        $651,000.00                                                                                                                                                                                                         $49,037.33
7/14/2010    Inc., Green City,                                                       $651,000.00                                               651       $1,000.00                                             $33,000.00
             MO8,11,14
1/30/2009                                                   $8,238,940.07                                               $4,863,000.00
             Greer Bancshares
3/19/2014    Incorporated,             $9,993,000.00                               $3,150,000.00                                             3,150       $1,000.00                                                            $6.97                      $3,108,940.07
             Greer, SC8
6/11/2014                                                                          $1,980,000.00                                             1,980       $1,000.00
2/13/2009    Gregg                                            $45,190.00                                                        $0.00
             Bancshares, Inc.,          $825,000.00                                                                                                                                                                                                         $45,190.00
7/13/2012    Ozark, MO8,68,97                                                                                                                                            ($825,000.00)

2/20/2009    Guaranty                                       $8,235,040.33                                                       $0.00
             Bancorp, Inc.,
                                       $6,920,000.00                                                                                                                                                                                                       $969,040.33
9/15/2011    Woodsville,                                                           $6,920,000.00                                             6,920       $1,000.00                                            $346,000.00
             NH8,14,45
9/25/2009    Guaranty Capital                             $14,913,299.33                                                        $0.00
             Corporation,            $14,000,000.00                                                                                                                                                                                                        $913,299.33
7/30/2010    Belzoni, MS9,15,36                                                   $14,000,000.00                                         14,000,000          $1.00

1/30/2009                                                 $21,887,871.44                                                        $0.00
6/13/2012                                                                          $5,000,000.00                                              5,000      $1,000.00
4/26/2013    Guaranty Federal                                                         $96,750.00                                               100         $967.50         ($3,250.00)
             Bancshares, Inc.,       $17,000,000.00                                                                                                                                                                          $12.45                      $3,390,721.44
4/29/2013    Springfield, MO11                                                    $11,513,250.00                                            11,900         $967.50       ($386,750.00)
5/15/2013                                                                                                                                                                                                   $2,003,250.00
                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




5/31/2013                                                                                            ($116,100.00)
9/25/2009 GulfSouth Private                                  $757,380.08                                                        $0.00
           Bank, Destin,               $7,500,000.00                                                                                                                                                                                                       $757,380.08
10/19/2012 FL17,28,70,97                                                                                                                                               ($7,500,000.00)

6/26/2009    Gulfstream                                     $8,751,541.63                                                       $0.00
             Bancshares, Inc.,         $7,500,000.00                                                                                                                                                                                                       $876,541.63
8/18/2011    Stuart, FL8,14,45                                                     $7,500,000.00                                             7,500       $1,000.00                                            $375,000.00
                                                                                                                                                                                                                                                                          397




                                                                                                                                                                                                                                                 Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)                                                                                                                                                                  398
                                                                                                                                         Number     Average Price                                              Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
2/20/2009     Hamilton State                              $8,169,165.89                                                        $0.00
              Bancshares,
                                        $7,000,000.00                                                                                                                                                                                          $819,165.89
4/13/2011     Hoschton,                                                           $7,000,000.00                                              280      $25,000.00                                  $350,000.00
              GA8,11,14
12/31/2008 Hampton Roads                                  $5,790,608.79                                                        $0.00
           Bankshares, Inc.,           $80,347,000.00                                                                                                                                                             $1.73         757,633      $2,510,844.25
4/14/2014 Norfolk, VA38                                                           $3,279,764.54                                         2,089,022          $1.57    ($77,067,235.46)

              Harbor
              Bankshares
7/17/2009                               $6,800,000.00       $282,744.47                                                $6,800,000.00                                                                                                           $282,744.47
              Corporation,
              Baltimore, MD8,9
3/13/2009 Haviland                                          $487,524.22                                                        $0.00
           Bancshares, Inc.,              $425,000.00                                                                                                                                                                                           $41,524.22
12/29/2010 Haviland, KS8,11,14                                                      $425,000.00                                              425       $1,000.00                                   $21,000.00

12/19/2008                                               $36,849,504.67                                                        $0.00
              Hawthorne
5/9/2012      Bancshares, Inc.,                                                  $12,000,000.00                                           12,000       $1,000.00
                                       $30,255,000.00                                                                                                                                                            $12.52                      $6,054,504.67
5/15/2013     Lee’s Summit,                                                      $18,255,000.00                                           18,255       $1,000.00
              MO11
6/12/2013                                                                                                                                                                                         $540,000.00
              HCSB Financial
3/6/2009      Corporation,             $12,895,000.00     $1,090,702.00                                               $12,895,000.00                                                                              $0.68          91,714      $1,090,702.00
                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




              Loris, SC
9/11/2009     Heartland                                   $8,321,471.08                                                        $0.00
              Bancshares, Inc.,         $7,000,000.00                                                                                                                                                            $24.73                      $1,073,471.08
7/17/2012     Franklin, IN8,17                                                    $7,000,000.00                                            7,000       $1,000.00                                  $248,000.00

12/19/2008 Heartland                                     $94,686,087.22                                                        $0.00
           Financial USA,
9/15/2011                              $81,698,000.00                            $81,698,000.00                                           81,698       $1,000.00                                                 $24.73                    $11,188,087.22
           Inc., Dubuque,
             45
9/28/2011 IA                                                                                                                                                                                     $1,800,000.00
9/25/2009                                                $11,353,284.46                                                        $0.00
              Heritage
3/16/2011     Bankshares, Inc.,        $10,103,000.00                             $2,606,000.00                                            2,606       $1,000.00                                                 $15.25                        $947,284.46
              Norfolk, VA8,17,45
8/11/2011                                                                         $7,497,000.00                                            7,497       $1,000.00                                  $303,000.00
11/21/2008                                               $46,901,266.80                                                        $0.00
              Heritage
3/7/2012      Commerce Corp.,          $40,000,000.00                            $40,000,000.00                                           40,000       $1,000.00                                                  $8.17                      $6,761,266.80
              San Jose, CA11
6/10/2013                                                                                                                                                                                         $140,000.00
11/21/2008                                               $26,953,333.33                                                        $0.00
           Heritage Financial
12/22/2010 Corporation,                $24,000,000.00                            $24,000,000.00                                           24,000       $1,000.00                                                 $16.09                      $2,503,333.33
           Olympia, WA11,16
8/17/2011                                                                                                                                                                                         $450,000.00
3/20/2009                                                $27,241,335.26                                                        $0.00
              Heritage Oaks
7/17/2013     Bancorp, Paso            $21,000,000.00                            $21,000,000.00                                           21,000       $1,000.00                                                  $7.63                      $4,666,335.26
              Robles, CA11
8/7/2013                                                                                                                                                                                         $1,575,000.00
11/21/2008                                               $26,316,666.67                                                        $0.00
              HF Financial
6/3/2009      Corp., Sioux Falls,      $25,000,000.00                            $25,000,000.00                                           25,000       $1,000.00                                                 $13.89                        $666,666.67
              SD11
6/30/2009                                                                                                                                                                                         $650,000.00
5/8/2009   Highlands                    $3,091,000.00     $6,211,926.79                                                        $0.00
           Bancorp, Inc.
12/22/2009 (Highlands State             $2,359,000.00                                                                                                                                                             $7.28                        $606,926.79
           Bank), Vernon,
9/22/2011 NJ8,18,21,44                                                            $5,450,000.00                                            5,450       $1,000.00                                  $155,000.00

              Highlands
              Independent
3/6/2009                                $6,700,000.00       $617,712.00                                                $6,700,000.00                                                                                                           $617,712.00
              Bancshares, Inc.,
              Sebring, FL8,111
1/30/2009     Hilltop Community                           $4,467,049.67                                                        $0.00
              Bancorp, Inc.,            $4,000,000.00                                                                                                                                                                                          $267,049.67
4/21/2010     Summit, NJ8,11,14                                                   $4,000,000.00                                            4,000       $1,000.00                                  $200,000.00

12/23/2008                                               $21,034,187.78                                                        $0.00
2/7/2013      HMN Financial,                                                      $2,561,325.00                                            3,550         $721.50       ($988,675.00)
              Inc., Rochester,         $26,000,000.00                                                                                                                                                            $11.00         833,333      $2,462,777.78
2/8/2013      MN                                                                 $16,197,675.00                                           22,450         $721.50     ($6,252,325.00)
3/26/2013                                                                                           ($187,590.00)
                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                           (CONTINUED)
                                                                                                                                          Number     Average Price                                               Stock Price       Current
Transaction                                                                   Capital Repayment/                     Remaining Capital   of Shares       of Shares   (Realized Loss)/                               as of      Outstanding Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/16/2009                                                  $57,480,555.56                                                       $0.00
              Home
7/6/2011      Bancshares, Inc.,         $50,000,000.00                             $50,000,000.00                                          50,000       $1,000.00                                                  $32.82                      $6,180,555.56
              Conway, AR11
7/27/2011                                                                                                                                                                                          $1,300,000.00
2/20/2009     Hometown                                      $4,214,202.31                                                       $0.00
              Bancorp of
                                         $3,250,000.00                                                                                                                                                                                           $801,202.31
8/28/2013     Alabama, Inc.,                                                        $3,250,000.00                                           3,250       $1,000.00                                   $163,000.00
              Oneonta, AL8
2/13/2009                                                   $2,229,801.03                                                       $0.00
11/28/2012                                                                            $608,170.50                                             645         $942.90        ($36,829.50)
           Hometown
11/30/2012 Bancshares, Inc.,             $1,900,000.00                              $1,183,339.50                                           1,255         $942.90        ($71,660.50)                $70,095.00                                  $393,196.03
           Corbin, KY8,14
1/11/2013                                                                                             ($17,915.11)
3/26/2013                                                                                              ($7,084.89)
9/18/2009  HomeTown                                        $11,111,011.94                                                       $0.00
           Bankshares
10/31/2012                              $10,000,000.00                              $9,185,000.00                                          10,000         $918.50       ($815,000.00)               $315,461.52     $6.25                      $1,702,400.42
           Corporation,
                        8,17
1/11/2013 Roanoke, VA                                                                                 ($91,850.00)
12/12/2008                                                 $22,354,145.89                                                       $0.00
              HopFed Bancorp,
12/19/2012                              $18,400,000.00                             $18,400,000.00                                          18,400       $1,000.00                                                  $11.62         253,666      $3,697,888.89
              Hopkinsville, KY11
1/16/2013                                                                                                                                                                                           $256,257.00
12/19/2008                                                 $29,857,321.83                                                       $0.00
11/10/2010 Horizon Bancorp,                                                         $6,250,000.00                                           6,250       $1,000.00
           Michigan City,               $25,000,000.00                                                                                                                                                             $21.71       3,106,771      $3,106,770.83
8/25/2011 IN11,45                                                                  $18,750,000.00                                          18,750       $1,000.00
11/23/2011                                                                                                                                                                                         $1,750,551.00
2/27/2009     Howard Bancorp,                               $7,119,793.05                                                       $0.00
              Inc., Ellicott City,       $5,983,000.00                                                                                                                                                              $9.62                        $837,793.05
9/22/2011     MD8,14,44                                                             $5,983,000.00                                           5,983       $1,000.00                                   $299,000.00

5/1/2009                                 $4,000,000.00     $10,940,554.65                                                       $0.00
           HPK Financial
11/13/2009 Corporation,                  $5,000,000.00                                                                                                                                                                                         $1,596,554.65
           Chicago, IL8,11,14,18
12/11/2012                                                                          $9,000,000.00                                           9,000       $1,000.00                                   $344,000.00
11/14/2008                                               $1,594,356,808.56                                                      $0.00
           Huntington
12/22/2010 Bancshares,               $1,398,071,000.00                          $1,398,071,000.00                                        1,398,071      $1,000.00                                                   $9.54                   $147,185,808.56
           Columbus, OH11
1/19/2011                                                                                                                                                                                         $49,100,000.00
2/6/2009                                                    $1,337,166.22                                                       $0.00
12/20/2012 Hyperion Bank,                                                           $1,008,800.00                                           1,552         $650.00       ($543,200.00)                $25,700.00
           Philadelphia,                 $1,552,000.00                                                                                                                                                                                           $327,666.22
1/11/2013 PA8,14                                                                                      ($10,088.00)
3/26/2013                                                                                             ($14,912.00)
9/18/2009                                                   $6,907,223.22                                                       $0.00
3/14/2014     IA Bancorp, Inc.,                                                     $2,717,674.70                                           2,770         $981.10        ($52,325.30)
                                         $5,976,000.00                                                                                                                                                                                           $916,227.47
3/17/2014     Iselin, NJ8,17                                                        $3,145,438.66                                           3,206         $981.10        ($60,561.34)               $186,513.52
4/25/2014                                                                                             ($58,631.13)
5/15/2009     IBC Bancorp, Inc.,                            $4,632,216.32                                                       $0.00
                                         $4,205,000.00                                                                                                                                                                                           $427,216.32
9/10/2010     Chicago, IL9,15,36                                                    $4,205,000.00                                        4,205,000          $1.00
12/5/2008                                                  $92,650,000.00                                                       $0.00
              Iberiabank
3/31/2009     Corporation,              $90,000,000.00                             $90,000,000.00                                          90,000       $1,000.00                                                  $69.19                      $1,450,000.00
              Lafayette, LA12,16
5/20/2009                                                                                                                                                                                          $1,200,000.00
3/27/2009     IBT Bancorp, Inc.,                            $2,936,462.50                                                       $0.00
                                         $2,295,000.00                                                                                                                                                                                           $526,462.50
6/12/2013     Irving, TX8,14                                                        $2,295,000.00                                           2,295       $1,000.00                                   $115,000.00
3/13/2009     IBW Financial                                 $6,453,067.00                                                       $0.00
              Corporation ,
                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                         $6,000,000.00                                                                                                                                                             $11.55                        $453,067.00
9/3/2010      Washington,                                                           $6,000,000.00                                           6,000       $1,000.00
              DC8,10,11
3/6/2009      ICB Financial,                                $7,494,458.33                                                       $0.00
                                         $6,000,000.00                                                                                                                                                                                         $1,194,458.33
11/1/2012     Ontario, CA8,14,44                                                    $6,000,000.00                                           6,000       $1,000.00                                   $300,000.00
1/16/2009     Idaho Bancorp,                                  $124,305.92                                                       $0.00
                                         $6,900,000.00                                                                                                                                                              $0.08                        $124,305.92
4/24/2014     Boise, ID8,108                                                                                                                                          ($6,900,000.00)
                                                                                                                                                                                                                                                                399




                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                            400
                                                                                                                                            Number     Average Price                                                        Stock Price       Current
Transaction                                                                    Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                        as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
5/22/2009                                $6,272,000.00      $11,836,113.40                                                        $0.00
           Illinois State
12/29/2009 Bancorp, Inc.,                $4,000,000.00                                                                                                                                                                                                    $1,158,113.40
           Chicago, IL8,14,18,44
9/22/2011                                                                           $10,272,000.00                                           10,272       $1,000.00                                            $406,000.00
1/9/2009   Independence                                       $1,394,723.17                                                       $0.00
           Bank, East                    $1,065,000.00                                                                                                                                                                                                      $276,723.17
10/16/2013 Greenwich, RI8                                                            $1,065,000.00                                            1,065       $1,000.00                                             $53,000.00

1/9/2009                                                    $81,476,093.61                                                        $0.00
              Independent Bank
4/22/2009     Corp., Rockland,         $78,158,000.00                               $78,158,000.00                                           78,158       $1,000.00                                                           $38.38                      $1,118,093.61
              MA11
5/27/2009                                                                                                                                                                                                     $2,200,000.00
12/12/2008 Independent Bank                                 $83,430,000.00                                                        $0.00
           Corporation,                $72,000,000.00                                                                                                                                                                         $12.87                      $9,004,000.00
8/30/2013  Ionia, MI29                                                              $72,000,000.00                                           72,000       $1,000.00                         $2,426,000.00

4/24/2009     Indiana Bank                                     $165,139.00                                                        $0.00
              Corp., Dana,               $1,312,000.00                                                                                                                                                                                                      $165,139.00
4/9/2013      IN8,22,92,97                                                                                                                                              ($1,312,000.00)

12/12/2008 Indiana                                          $27,331,250.00                                                        $0.00
           Community
                                       $21,500,000.00                                                                                                                                                                         $14.28                      $4,031,250.00
9/12/2012 Bancorp,                                                                  $21,500,000.00                                           21,500       $1,000.00                                           $1,800,000.00
           Columbus, IN11
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




2/27/2009     Integra Bank                                    $1,950,340.00                                                       $0.00
              Corporation,
                                       $83,586,000.00                                                                                                                                                                                      7,418,876      $1,950,340.00
7/29/2011     Evansville,                                                                                                                                              ($83,586,000.00)
              IN22,52,97
12/19/2008 Intermountain                                    $33,944,884.23                                                        $0.00
           Community
                                       $27,000,000.00                                                                                                                                                                         $16.28          65,323      $6,944,884.23
11/20/2013 Bancorp,                                                                 $27,000,000.00                                           27,000       $1,000.00
           Sandpoint, ID
12/23/2008                                                 $261,538,649.89                                                        $0.00
7/11/2012  International                                                            $40,000,000.00                                           40,000       $1,000.00
           Bancshares
11/1/2012                             $216,000,000.00                               $45,000,000.00                                           45,000       $1,000.00                                                           $27.00                    $41,520,138.89
           Corporation,
                      11
11/28/2012 Laredo, TX                                                              $131,000,000.00                                          131,000       $1,000.00
6/11/2013                                                                                                                                                                                                     $4,018,511.00
12/23/2008 Intervest                                        $30,035,555.56                                                        $0.00
           Bancshares
6/24/2013                              $25,000,000.00                               $24,250,000.00                                           25,000         $970.00       ($750,000.00)                                        $7.74         691,882      $6,028,055.56
           Corporation, New
7/26/2013 York, NY                                                                                     ($242,500.00)
5/8/2009   Investors Financial                                 $174,324.60                                                        $0.00
           Corporation of
           Pettis County,                $4,000,000.00                                                                                                                                                                                                      $174,324.60
10/19/2012 Inc., Sedalia,                                                                                                                                               ($4,000,000.00)
           MO15,71,97
10/28/2008                                               $26,731,202,358.00                                                       $0.00
              JPMorgan Chase
6/17/2009     & Co., New York,      $25,000,000,000.00                          $25,000,000,000.00                                         2,500,000     $10,000.00                                                           $57.22                   $795,138,888.89
              NY11
12/16/2009                                                                                                                                                                                                  $936,063,469.11
1/30/2009     Katahdin                                      $12,423,046.75                                                        $0.00
              Bankshares
                                       $10,449,000.00                                                                                                                                                                         $12.50                      $1,452,046.75
8/18/2011     Corp., Houlton,                                                       $10,449,000.00                                           10,449       $1,000.00                                            $522,000.00
              ME8,14,44
11/14/2008                                                $2,867,222,222.22                                                       $0.00
              KeyCorp,
3/30/2011                            $2,500,000,000.00                           $2,500,000,000.00                                           25,000     $100,000.00                                                           $14.33                   $297,222,222.22
              Cleveland, OH11
4/20/2011                                                                                                                                                                                                    $70,000,000.00
3/20/2009     Kirksville Bancorp,                              $622,228.44                                                        $0.00
              Inc., Kirksville,           $470,000.00                                                                                                                                                                                                       $128,228.44
3/19/2014     MO8                                                                      $470,000.00                                              470       $1,000.00                                             $24,000.00

8/21/2009                                                     $4,137,336.64                                                       $0.00
              KS Bancorp, Inc.,
11/30/2012                               $4,000,000.00                               $3,308,000.00                                            4,000         $827.00       ($692,000.00)                        $140,400.00     $9.50                        $713,936.64
              Smithfield, NC8,14
1/11/2013                                                                                               ($25,000.00)
2/20/2009     Lafayette                  $1,998,000.00        $4,818,134.50                                                       $0.00
              Bancorp,
12/29/2009                               $2,453,000.00                                                                                                                                                                                                      $267,134.50
              Inc., Oxford,
9/29/2010     MS8,11,14,18,36                                                        $4,451,000.00                                            4,451       $1,000.00                                            $100,000.00
                                                                                                                                                                                                                                                  Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)
                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
2/6/2009                                                $68,260,833.33                                                        $0.00
8/4/2010                                                                        $20,000,000.00                                           20,000       $1,000.00
             Lakeland
3/16/2011    Bancorp, Inc.,          $59,000,000.00                             $20,000,000.00                                           20,000       $1,000.00                                                   $10.80                      $6,460,833.33
             Oak Ridge, NJ11
2/8/2012                                                                        $19,000,000.00                                           19,000       $1,000.00
2/29/2012                                                                                                                                                                                         $2,800,000.00
2/27/2009                                               $60,517,713.33                                                        $0.00
             Lakeland Financial
6/9/2010     Corporation,            $56,044,000.00                             $56,044,000.00                                           56,044       $1,000.00                                                   $38.16                      $3,596,156.33
             Warsaw, IN12
11/22/2011                                                                                                                                                                                         $877,557.00
12/18/2009                                               $2,932,162.50                                                        $0.00
11/29/2012 Layton Park                                                           $2,370,930.00                                            3,000         $790.30       ($629,070.00)                $104,375.00
           Financial Group,           $3,000,000.00                                                                                                                                                                                             $481,857.50
1/11/2013 Milwaukee, WI8,14                                                                         ($23,709.29)
3/26/2013                                                                                            ($1,290.71)
1/9/2009                                                $14,527,390.33                                                        $0.00
             LCNB Corp.,
10/21/2009                           $13,400,000.00                             $13,400,000.00                                           13,400       $1,000.00                                                   $16.16                        $524,833.33
             Lebanon, OH11
11/22/2011                                                                                                                                                                                         $602,557.00
12/23/2008 Leader Bancorp,                               $6,731,961.06                                                        $0.00
           Inc., Arlington,           $5,830,000.00                                                                                                                                                                                             $609,961.06
11/24/2010 MA8,11,14                                                             $5,830,000.00                                            5,830       $1,000.00                                    $292,000.00

1/30/2009    Legacy Bancorp,                               $355,079.00                                                        $0.00
             Inc., Milwaukee,         $5,498,000.00                                                                                                                                                                                             $355,079.00
3/11/2011    WI9,48,97                                                                                                                                              ($5,498,000.00)

1/23/2009    Liberty                                    $68,191,965.77                                                        $0.00
             Bancshares,
                                     $57,500,000.00                                                                                                                                                                                           $7,816,965.77
7/21/2011    Inc., Jonesboro,                                                   $57,500,000.00                                           57,500       $1,000.00                                   $2,875,000.00
             AR8,14,45
2/13/2009    Liberty                                    $25,995,452.08                                                        $0.00
             Bancshares,
                                     $21,900,000.00                                                                                                                                                                                           $3,000,452.08
8/18/2011    Inc., Springfield,                                                 $21,900,000.00                                           21,900       $1,000.00                                   $1,095,000.00
             MO8,14,45
             Liberty
12/4/2009    Bancshares, Inc.,        $6,500,000.00      $1,523,796.22                                                $6,500,000.00                                                                                                           $1,523,796.22
             Fort Worth, TX8,17
2/6/2009     Liberty Financial                           $6,106,008.58                                                        $0.00
             Services, Inc.,
                                      $5,645,000.00                                                                                                                                                                                             $461,008.58
9/24/2010    New Orleans,                                                        $5,645,000.00                                            5,645       $1,000.00
             LA9,11,36
             Liberty Shares,
2/20/2009    Inc., Hinesville,       $17,280,000.00      $1,399,560.00                                               $17,280,000.00                                                                                                           $1,399,560.00
             GA8
7/10/2009                                             $1,209,851,873.70                                                       $0.00
             Lincoln National
6/30/2010    Corporation,           $950,000,000.00                            $950,000,000.00                                          950,000       $1,000.00                                                   $51.28                    $46,180,554.50
             Radnor, PA11
9/22/2010                                                                                                                                                                                       $213,671,319.20
12/12/2008                                              $26,893,046.60                                                        $0.00
             LNB Bancorp Inc.,
6/19/2012                            $25,223,000.00                             $21,923,074.91     ($328,846.12)                         25,223         $869.20     ($3,299,925.09)                               $12.18                      $4,438,491.81
             Lorain, OH
7/18/2012                                                                                                                                                                                          $860,326.00
             Lone Star Bank,
2/6/2009                              $3,072,000.00               $0.00                                               $3,072,000.00
             Houston, TX8
12/12/2008                                              $16,260,000.00                                                        $0.00
           LSB Corporation,
11/18/2009 North Andover,            $15,000,000.00                             $15,000,000.00                                           15,000       $1,000.00                                                                  407,542        $700,000.00
           MA11
12/16/2009                                                                                                                                                                                         $560,000.00
6/26/2009    M&F Bancorp,                               $12,409,762.50                                                        $0.00
             Inc., Durham,           $11,735,000.00                                                                                                                                                                                             $674,762.50
8/20/2010    NC8,9,17                                                           $11,735,000.00                                           11,735       $1,000.00
                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




12/23/2008                                                                                                                    $0.00
5/18/2011    M&T Bank                                                          $370,000,000.00                                          370,000       $1,000.00
             Corporation,           $600,000,000.00    $718,392,161.34                                                                                                                                            $124.05                  $155,027,270.00
8/21/2012    Buffalo, NY11                                                     $230,000,000.00                                          230,000       $1,000.00
12/17/2012                                                                                                                                                                                       $31,838,761.34
                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                               401
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)                                                                                                                                                                        402
                                                                                                                                          Number     Average Price                                                   Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                   as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)        Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
4/24/2009  Mackinac                                      $13,521,828.15                                                        $0.00
           Financial
8/29/2012                             $11,000,000.00                             $10,538,990.00     ($158,084.85)                          11,000         $958.10       ($461,010.00)                                  $12.85                      $1,840,923.00
           Corporation,
12/19/2012 Manistique, MI                                                                                                                                                                              $1,300,000.00
3/13/2009                                                 $3,773,495.65                                                        $0.00
           Madison Financial
11/19/2013 Corporation,                $3,370,000.00                              $3,370,000.00                                             3,370       $1,022.60                         $76,195.70    $182,878.45                                  $169,421.50
           Richmond, KY8
1/6/2014                                                                                             ($25,000.00)
12/23/2008                                               $16,146,467.87                                                        $0.00
11/24/2009 Magna Bank,                                                            $3,455,000.00                                             3,455       $1,000.00
                                      $13,795,000.00                                                                                                                                                                                               $1,661,467.87
6/8/2011   Memphis, TN8,11,44                                                     $3,455,000.00                                              3,455      $1,000.00
8/18/2011                                                                         $6,885,000.00                                              6,885      $1,000.00                                       $690,000.00
12/29/2009 Mainline Bancorp,                              $5,263,187.50                                                        $0.00
           Inc., Ebensburg,            $4,500,000.00                                                                                                                                                                   $24.85                        $538,187.50
3/9/2012   PA8,14                                                                 $4,500,000.00                                             4,500       $1,000.00                                       $225,000.00

1/16/2009    MainSource                                  $62,949,121.28                                                        $0.00
             Financial Group,
4/3/2012                              $57,000,000.00                             $53,073,270.00     ($796,099.05)                          57,000         $931.10     ($3,926,730.00)                                  $17.25                      $9,159,773.33
             Inc., Greensburg,
6/11/2013    IN                                                                                                                                                                                        $1,512,177.00
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




12/5/2008                                                 $1,829,711.12                                                        $0.00
             Manhattan
9/16/2009    Bancorp, El               $1,700,000.00                              $1,700,000.00                                             1,700       $1,000.00                                                       $3.50                         $66,347.22
             Segundo, CA11
10/14/2009                                                                                                                                                                                               $63,363.90
6/19/2009                                                 $3,438,793.11                                                        $0.00
12/10/2012 Manhattan                                                                                                                                                                                     $11,385.02
           Bancshares, Inc.,           $2,639,000.00                                                                                                                                                                                                 $770,043.86
12/11/2012 Manhattan, IL14,15                                                     $2,586,404.73                                          2,639,000          $0.98        ($52,595.27)                    $95,959.50
1/11/2013                                                                                            ($25,000.00)
             Marine Bank &
3/6/2009     Trust Company,            $3,000,000.00        $235,713.00                                                $3,000,000.00                                                                                                                 $235,713.00
             Vero Beach, FL8
             Market
             Bancorporation,
2/20/2009                              $2,060,000.00        $138,778.00                                                $2,060,000.00                                                                                                                 $138,778.00
             Inc., New Market,
             MN8
5/15/2009                                                $24,429,245.84                                                        $0.00
8/9/2012     Market Street                                                       $17,919,962.10                                         19,931,000          $0.90     ($2,011,037.90)                   $727,225.54
             Bancshares, Inc.,        $20,300,000.00                                                                                                                                                                                               $5,535,302.50
8/10/2012    Mt. Vernon, IL14,15                                                    $331,767.90                                           369,000           $0.90        ($37,232.10)                    $97,505.10
9/11/2012                                                                                           ($182,517.30)
12/19/2008                                               $33,835,943.42                                                        $0.00
8/7/2012     Marquette                                                            $2,530,958.50                                              3,514        $720.20       ($983,041.50)                   $142,974.56
             National
8/9/2012                              $35,500,000.00                              $5,904,609.50                                              8,198        $720.20     ($2,293,390.50)                  $1,054,743.77   $315.00                     $7,072,586.61
             Corporation,
8/10/2012    Chicago, IL8,14                                                     $17,133,307.00                                            23,788         $720.20     ($6,654,693.00)                   $252,452.23
9/11/2012                                                                                           ($255,688.75)
11/14/2008 Marshall & Ilsley                           $1,944,772,916.66                                                       $0.00
           Corporation,            $1,715,000,000.00                                                                                                                                                                                            $226,522,916.66
7/5/2011   Milwaukee, WI43                                                    $1,715,000,000.00                                          1,715,000      $1,000.00                                      $3,250,000.00

             Maryland Financial
3/27/2009    Bank, Towson,             $1,700,000.00        $313,465.50                                                $1,700,000.00                                                                                                                 $313,465.50
             MD8
12/5/2008                                               $229,613,072.00                                                        $0.00
             MB Financial Inc.,
3/14/2012                            $196,000,000.00                            $196,000,000.00                                           196,000       $1,000.00                                                      $27.05                    $32,095,000.00
             Chicago, IL11
5/2/2012                                                                                                                                                                                               $1,518,072.00
11/20/2009 McLeod                                         $6,870,433.33                                                        $0.00
           Bancshares,
                                       $6,000,000.00                                                                                                                                                                                                 $570,433.33
8/18/2011  Inc., Shorewood,                                                       $6,000,000.00                                               600      $10,000.00                                       $300,000.00
           MN8,14,45
2/27/2009                             $11,800,000.00     $24,460,674.81                                                        $0.00
           Medallion Bank,
12/22/2009 Salt Lake City,             $9,698,000.00                                                                                                                                                                                               $2,317,674.81
           UT8,14,18,44
7/21/2011                                                                        $21,498,000.00                                            21,498       $1,000.00                                       $645,000.00
                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)
                                                                                                                                        Number     Average Price                                              Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
5/15/2009                                               $31,631,120.56                                                        $0.00
              Mercantile Bank
4/4/2012      Corporation,                                                      $10,500,000.00                                           10,500       $1,000.00
                                      $21,000,000.00                                                                                                                                                            $22.88                      $3,166,020.56
6/6/2012      Grand Rapids,                                                     $10,500,000.00                                           10,500       $1,000.00
              MI11
7/3/2012                                                                                                                                                                                        $7,465,100.00
2/6/2009      Mercantile Capital                         $4,150,815.03                                                        $0.00
              Corp., Boston,           $3,500,000.00                                                                                                                                                                                          $475,815.03
8/4/2011      MA8,14,44                                                          $3,500,000.00                                            3,500       $1,000.00                                  $175,000.00

3/6/2009      Merchants                                  $2,231,560.00                                                        $0.00
              and Planters
                                       $1,881,000.00                                                                                                                                                                                          $256,560.00
9/7/2011      Bancshares, Inc.,                                                  $1,881,000.00                                            1,881       $1,000.00                                   $94,000.00
              Toone, TN8,14,56
6/19/2009     Merchants and                              $4,110,668.47                                                        $0.00
              Manufacturers
                                       $3,510,000.00                                                                                                                                                                                          $424,668.47
9/8/2011      Bank Corporation,                                                  $3,510,000.00                                            3,510       $1,000.00                                  $176,000.00
              Joliet, IL8,14,44
2/13/2009                              $6,200,000.00    $13,582,165.84                                                        $0.00
12/11/2009 Meridian Bank,              $6,335,000.00
                     8,18                                                                                                                                                                                                                   $3,094,895.11
3/17/2014 Devon, PA                                                             $10,328,152.35                                           12,535         $824.15     ($2,206,847.65)              $262,399.50
4/25/2014                                                                                          ($103,281.52)
1/30/2009                                                $8,806,297.80                                                        $0.00
10/29/2012 Metro City Bank,                                                         $26,102.90                                               29         $900.10         ($2,897.10)
                       8,14            $7,700,000.00                                                                                                                                                                                        $1,574,887.50
11/1/2012 Doraville, GA                                                          $6,904,667.10                                            7,671         $900.10       ($766,332.90)              $369,948.00
1/11/2013                                                                                           ($69,307.70)
1/16/2009                                               $53,406,628.25                                                        $0.00
              MetroCorp
7/3/2012      Bancshares, Inc.,       $45,000,000.00                            $44,152,650.00     ($662,289.75)                         45,000         $981.20       ($847,350.00)                             $34.99                      $7,828,900.00
              Houston, TX
6/11/2013                                                                                                                                                                                       $2,087,368.00
6/26/2009     Metropolitan                              $27,172,726.72                                                        $0.00
              Bank Group, Inc.,       $71,526,000.00                                                                                                                                                                                        $3,786,440.95
6/28/2013     Chicago, IL8,42                                                   $23,718,541.95                                           71,526         $331.60    ($47,807,458.05)

4/10/2009  Metropolitan                $2,040,000.00     $1,093,379.44                                                $4,388,000.00
           Capital Bancorp,
                                                                                                                                                                                                                                            $1,093,379.44
11/20/2009 Inc.,  Chicago,             $2,348,000.00
           IL8,18
12/19/2008                                              $12,070,979.20                                                        $0.00
           Mid Penn
12/28/2012 Bancorp, Inc.,             $10,000,000.00                            $10,000,000.00                                           10,000       $1,000.00                                                 $15.82          73,099      $2,012,500.00
           Millersburg, PA11
1/23/2013                                                                                                                                                                                         $58,479.20
1/30/2009  Middleburg                                   $23,287,945.11                                                        $0.00
           Financial
12/23/2009                            $22,000,000.00                            $22,000,000.00                                           22,000       $1,000.00                                                                               $986,944.11
           Corporation,
                         12
11/18/2011 Middleburg, VA                                                                                                                                                                        $301,001.00
1/23/2009  Midland States                               $11,206,989.34                                                        $0.00
           Bancorp, Inc.,             $10,189,000.00                                                                                                                                                                                          $508,989.34
12/23/2009 Effingham, IL8,11,14                                                 $10,189,000.00                                           10,189       $1,000.00                                  $509,000.00

1/9/2009                                                $22,834,334.78                                                        $0.00
              MidSouth
8/25/2011     Bancorp, Inc.,          $20,000,000.00                            $20,000,000.00                                           20,000       $1,000.00                                                                             $2,627,777.78
              Lafayette, LA44
11/22/2011                                                                                                                                                                                       $206,557.00
2/27/2009                                                $3,520,137.55                                                        $0.00
           Midtown Bank &
11/19/2013 Trust Company,              $5,222,000.00                             $3,133,200.00                                            5,222         $600.00     ($2,088,800.00)              $136,833.05                                  $275,104.50
           Atlanta, GA8
1/6/2014                                                                                            ($25,000.00)
12/5/2008     Midwest Banc                                 $824,288.89                                                        $0.00
              Holdings, Inc.,
                                      $84,784,000.00                                                                                                                                                                         4,282,020        $824,288.89
5/14/2010     Melrose Park,                                                                                                                                        ($84,784,000.00)
              IL22,27,97
2/13/2009 Midwest Regional                                 $763,294.14                                                        $0.00
                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




           Bancorp, Inc.,                $700,000.00                                                                                                                                                                                           $28,294.14
11/10/2009 Festus, MO8,11,14                                                       $700,000.00                                              700       $1,000.00                                   $35,000.00

2/6/2009      MidWestOne                                $18,933,333.33                                                        $0.00
              Financial Group,
7/6/2011                              $16,000,000.00                            $16,000,000.00                                           16,000       $1,000.00                                                 $23.99                      $1,933,333.33
              Inc., Iowa City,
7/27/2011     IA11                                                                                                                                                                              $1,000,000.00
                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                             403
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                          (CONTINUED)                                                                                                                                                                     404
                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                                                                  Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
2/20/2009    Mid-Wisconsin                                $12,844,226.31                                                        $0.00
             Financial
                                     $10,000,000.00                                                                                                                                                                                              $2,344,226.31
4/26/2013    Services, Inc.,                                                      $10,000,000.00                                            10,000       $1,000.00                                    $500,000.00
             Medford, WI8,11,14
4/3/2009     Millennium                                     $4,296,561.73                                                       $0.00
             Bancorp, Inc.,            $7,260,000.00                                                                                                                                                                                             $1,392,561.73
8/14/2012    Edwards, CO8                                                          $2,904,000.00                                             7,260         $400.00     ($4,356,000.00)

1/9/2009   Mission                                          $5,875,583.89                                                       $0.00
           Community
                                       $5,116,000.00                                                                                                                                                                  $7.63                        $759,583.89
12/28/2011 Bancorp, San   Luis                                                     $5,116,000.00                                             5,116       $1,000.00
           Obispo, CA9,11
12/23/2008 Mission Valley                                   $5,956,041.66                                                       $0.00
           Bancorp, Sun                $5,500,000.00                                                                                                                                                                                               $456,041.66
8/20/2010 Valley, CA9,11,36                                                        $5,500,000.00                                             5,500       $1,000.00

12/19/2008 Monadnock                                        $2,339,348.60                                                       $0.00
           Bancorp, Inc.,
                                       $1,834,000.00                                                                                                                                                                                               $413,348.60
12/28/2012 Peterborough,                                                           $1,834,000.00                                             1,834       $1,000.00                                     $92,000.00
           NH11,8,14
2/6/2009   Monarch                                          $4,808,121.00                                                       $0.00
           Community
                                       $6,785,000.00                                                                                                                                                                  $2.82                        $262,919.00
11/15/2013 Bancorp, Inc.,98                                                        $4,545,202.00                                          2,272,601          $2.00     ($2,239,798.00)
           Coldwater, MI
                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




12/19/2008 Monarch Financial                              $15,703,166.66                                                        $0.00
           Holdings, Inc.,
12/23/2009                           $14,700,000.00                               $14,700,000.00                                            14,700       $1,000.00                                                   $11.72                        $743,166.66
           Chesapeake,
             12,16
2/10/2010 VA                                                                                                                                                                                          $260,000.00
3/13/2009    Moneytree                                    $11,291,481.00                                                        $0.00
             Corporation,
                                       $9,516,000.00                                                                                                                                                                                             $1,299,481.00
9/15/2011    Lenoir City,                                                          $9,516,000.00                                             9,516       $1,000.00                                    $476,000.00
             TN8,14,45
1/30/2009    Monument                                       $5,623,958.50                                                       $0.00
             Bank, Bethesda,           $4,734,000.00                                                                                                                                                                                               $652,958.50
8/11/2011    MD8,14,44                                                             $4,734,000.00                                             4,734       $1,000.00                                    $237,000.00

10/28/2008                                             $11,268,055,555.11                                                       $0.00
             Morgan Stanley,
6/17/2009                         $10,000,000,000.00                          $10,000,000,000.00                                         10,000,000      $1,000.00                                                   $32.33                    $318,055,555.11
             New York, NY11
8/12/2009                                                                                                                                                                                          $950,000,000.00
1/16/2009    Morrill                                      $15,429,122.22                                                        $0.00
             Bancshares, Inc.,       $13,000,000.00                                                                                                                                                                                              $1,779,122.22
7/20/2011    Merriam, KS8,11,14                                                   $13,000,000.00                                            13,000       $1,000.00                                    $650,000.00

1/23/2009                                                   $7,803,377.38                                                       $0.00
             Moscow
4/25/2012    Bancshares, Inc.,         $6,216,000.00                               $1,100,000.00                                             1,100       $1,000.00                                                                               $1,276,377.38
             Moscow, TN8,11,14
12/5/2012                                                                          $5,116,000.00                                             5,116       $1,000.00                                    $311,000.00
9/25/2009                                                   $4,069,975.55                                                       $0.00
             Mountain Valley
7/22/2013    Bancshares, Inc.,         $3,300,000.00                               $3,267,000.00                                             3,300         $990.00        ($33,000.00)                $140,034.65                                  $687,940.90
             Cleveland, GA8,14
9/12/2013                                                                                             ($25,000.00)
3/27/2009  MS Financial,                                    $9,206,289.90                                                       $0.00
           Inc., Kingwood,             $7,723,000.00                                                                                                                                                                                             $1,097,289.90
10/19/2011 TX8,11,14                                                               $7,723,000.00                                             7,723       $1,000.00                                    $386,000.00

12/23/2008                                                $37,608,789.00                                                        $0.00
             MutualFirst
8/25/2011    Financial, Inc.,        $32,382,000.00                               $32,382,000.00                                            32,382       $1,000.00                                                   $19.08                      $4,326,595.00
             Muncie, IN45
9/28/2011                                                                                                                                                                                             $900,194.00
3/27/2009    Naples Bancorp,                                 $956,066.67                                                        $0.00
                                       $4,000,000.00                                                                                                                                                                                               $356,066.67
7/12/2012    Inc., Naples, FL8                                                       $600,000.00                                             4,000         $150.00     ($3,400,000.00)
11/21/2008                                                $81,249,317.20                                                        $0.00
             Nara Bancorp,
6/27/2012    Inc. Los Angeles,       $67,000,000.00                               $67,000,000.00                                            67,000       $1,000.00                                                               $342,609.88
             CA11,59
8/8/2012                                                                                                                                                                                             $2,189,317.20
2/27/2009                                                 $21,471,087.90                                                        $0.00
2/19/2013    National                                                              $2,438,182.50                                             3,250         $750.20       ($811,817.50)                $342,841.95
             Bancshares, Inc.,       $24,664,000.00                                                                                                                                                                                              $2,307,492.00
2/20/2013    Bettendorf, IA8,14                                                   $16,064,996.94                                            21,414         $750.20     ($5,349,003.06)                $502,606.30
3/26/2013                                                                                            ($185,031.79)
                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)
                                                                                                                                         Number     Average Price                                                     Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                     as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/12/2008 National Penn                               $167,958,333.33                                                        $0.00
           Bancshares,
3/16/2011                           $150,000,000.00                            $150,000,000.00                                           150,000       $1,000.00                                                        $10.58                    $16,958,333.33
           Inc., Boyertown,
              11,16
4/13/2011 PA                                                                                                                                                                                            $1,000,000.00
12/11/2009 Nationwide                                    $2,276,190.00                                                        $0.00
           Bankshares,
                                      $2,000,000.00                                                                                                                                                                                                   $176,190.00
12/29/2010 Inc., West Point,                                                     $2,000,000.00                                          2,000,000          $1.00                                         $100,000.00
           NE11,14,15
6/26/2009    NC Bancorp,                                 $2,613,714.23                                                        $0.00
             Inc/Metropolitan
                                      $6,880,000.00
6/28/2013    Bank Group, Inc.,                                                   $2,281,458.05                                             6,880         $331.60     ($4,598,541.95)
             Chicago, IL8,42
             NCAL Bancorp,
12/19/2008                           $10,000,000.00      $1,311,027.78                                               $10,000,000.00                                                                                      $1.00                      $1,311,027.78
             Los Angeles, CA8
6/19/2009    NEMO                                        $3,199,347.39                                                        $0.00
             Bancshares
                                      $2,330,000.00                                                                                                                                                                                                   $752,347.39
4/24/2013    Inc., Madison,                                                      $2,330,000.00                                          2,330,000          $1.00                                         $117,000.00
             MO11,14,15
1/16/2009    New Hampshire                                                                                                    $0.00
             Thrift Bancshares,
8/25/2011                            $10,000,000.00     $12,041,266.67          $10,000,000.00                                            10,000       $1,000.00                                                        $15.22                      $1,304,166.67
             Inc., Newport,
2/15/2012    NH44                                                                                                                                                                                        $737,100.00
1/9/2009     New York Private                          $346,794,005.83                                                        $0.00
             Bank & Trust
                                    $267,274,000.00                                                                                                                                                                                               $66,156,005.83
7/24/2013    Corporation, New                                                  $267,274,000.00                                           267,274       $1,000.00                                       $13,364,000.00
             York, NY8,11,14
12/12/2008                                              $70,087,060.35                                                        $0.00
4/26/2013                                                                        $2,709,121.50                                              2,763        $980.50        ($53,878.50)
             NewBridge
4/29/2013    Bancorp,                $52,372,000.00                             $48,641,624.50                                            49,609         $980.50       ($967,375.50)                                     $8.06                    $11,471,039.16
             Greensboro, NC
5/15/2013                                                                                                                                                                                               $7,778,782.65
5/31/2013                                                                                          ($513,507.46)
12/23/2008 Nicolet                                      $17,904,842.66                                                        $0.00
           Bankshares,
                                     $14,964,000.00                                                                                                                                                                                                 $2,192,842.66
9/1/2011   Inc., Green Bay,                                                     $14,964,000.00                                            14,964       $1,000.00                                         $748,000.00
           WI8,14,44
1/9/2009                                                $12,294,583.33                                                        $0.00
           North Central
12/14/2011 Bancshares, Inc.,         $10,200,000.00                             $10,200,000.00                                            10,200       $1,000.00                                                                                    $1,494,583.33
           Fort Dodge, IA11
1/11/2012                                                                                                                                                                                                $600,000.00
12/12/2008                                               $5,159,181.33                                                        $0.00
           Northeast
11/28/2012 Bancorp,                   $4,227,000.00                              $4,227,000.00                                             4,227       $1,000.00                                                         $9.57                        $837,181.33
           Lewiston, ME11
12/28/2012                                                                                                                                                                                                $95,000.00
5/15/2009                             $1,341,000.00      $2,987,782.33                                                        $0.00
           Northern State
12/18/2009 Bank, Closter,             $1,230,000.00                                                                                                                                                                                                   $349,782.33
           NJ8,11,14,18
3/28/2012                                                                        $2,571,000.00                                             2,571       $1,000.00                                          $67,000.00
2/20/2009    Northern                                    $6,442,172.50                                                        $0.00
             States Financial
                                     $17,211,000.00                                                                                                                                                                      $0.60         584,084        $418,322.50
4/30/2014    Corporation,                                                        $6,023,850.00                                         20,079,500          $0.30    ($11,187,150.00)
             Waukegan, IL109
11/14/2008                                            $1,709,623,333.35                                                       $0.00
             Northern Trust
6/17/2009    Corporation,         $1,576,000,000.00                          $1,576,000,000.00                                          1,576,000      $1,000.00                                                        $64.21                    $46,623,333.35
             Chicago, IL11
8/26/2009                                                                                                                                                                                              $87,000,000.00
1/30/2009    Northway                                   $11,930,624.67                                                        $0.00
             Financial, Inc.,        $10,000,000.00                                                                                                                                                                     $19.20                      $1,430,624.67
9/15/2011    Berlin, NH8,14,44                                                  $10,000,000.00                                            10,000       $1,000.00                                         $500,000.00

2/13/2009                                               $11,891,847.50                                                        $0.00
             Northwest
3/8/2013                                                                         $2,000,000.00                                              2,000      $1,032.10                          $64,220.00
                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




             Bancorporation,
                                     $10,500,000.00                                                                                                                                                                                                   $575,429.50
3/11/2013    Inc., Spokane,                                                      $8,500,000.00                                              8,500      $1,032.10                         $272,935.00     $587,634.55
             WA8,14
4/9/2013                                                                                           ($108,371.55)
2/13/2009    Northwest                                   $2,380,393.00                                                        $0.00
             Commercial
                                      $1,992,000.00                                                                                                                                                                                                   $288,393.00
1/9/2013     Bank, Lakewood,                                                     $1,992,000.00                                             1,992       $1,000.00                                         $100,000.00
             WA11,8,14
                                                                                                                                                                                                                                                                     405




                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)                                                                                                                                                                          406
                                                                                                                                        Number     Average Price                                                      Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                      as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/30/2009                                                $8,592,336.00                                                        $0.00
           Oak Ridge
10/31/2012 Financial                                                             $7,095,550.00                                            7,700         $921.50       ($604,450.00)
                                       $7,700,000.00                                                                                                                                                                     $7.05         163,830      $1,444,854.00
1/11/2013 Services, Inc.,                                                                           ($70,955.50)
           Oak Ridge, NC
2/6/2013                                                                                                                                                                                                 $122,887.50
12/5/2008                                               $15,871,250.00                                                        $0.00
             Oak Valley
8/11/2011    Bancorp,                 $13,500,000.00                            $13,500,000.00                                           13,500       $1,000.00                                                          $9.87                      $1,811,250.00
             Oakdale, CA45
9/28/2011                                                                                                                                                                                                $560,000.00
1/16/2009                                               $40,521,918.61                                                        $0.00
           OceanFirst
12/30/2009 Financial Corp.,           $38,263,000.00                            $38,263,000.00                                           38,263       $1,000.00                                                         $16.56                      $1,828,121.61
           Toms River, NJ12,16
2/3/2010                                                                                                                                                                                                 $430,797.00
1/30/2009    Ojai Community                              $2,654,758.89                                                        $0.00
                                       $2,080,000.00                                                                                                                                                                     $5.65                        $470,758.89
9/25/2013    Bank, Ojai, CA8                                                     $2,080,000.00                                            2,080       $1,000.00                                          $104,000.00
12/5/2008                                                $7,438,888.89                                                        $0.00
             Old Line
7/15/2009    Bancshares, Inc.,         $7,000,000.00                             $7,000,000.00                                            7,000       $1,000.00                                                         $15.76                        $213,888.89
             Bowie, MD11
9/2/2009                                                                                                                                                                                                 $225,000.00
                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




12/12/2008                                             $102,713,888.89                                                        $0.00
             Old National
3/31/2009    Bancorp,                $100,000,000.00                           $100,000,000.00                                          100,000       $1,000.00                                                         $14.28                      $1,513,888.89
             Evansville, IN11
5/8/2009                                                                                                                                                                                                $1,200,000.00
1/16/2009                                               $31,423,238.49                                                        $0.00
3/11/2013                                                                       $24,684,870.00                                           70,028         $352.50    ($45,343,130.00)
3/26/2013    Old Second                                                            $452,424.00                                            1,200         $377.00       ($747,576.00)
             Bancorp, Inc.,           $73,000,000.00                                                                                                                                                                     $4.97                      $5,769,027.78
3/27/2013    Aurora, IL                                                            $668,079.44                                            1,772         $377.00     ($1,103,920.56)
4/9/2013                                                                                           ($258,053.73)
6/11/2013                                                                                                                                                                                                $106,891.00
4/17/2009                                                $3,403,603.15                                                        $0.00
7/19/2013    Omega Capital                                                       $1,239,000.00                                            1,239       $1,142.90                          $177,053.10
             Corp., Lakewood,          $2,816,000.00                                                                                                                                                                                                   $50,310.50
7/22/2013    CO8,14                                                              $1,577,000.00                                            1,577       $1,142.90                          $225,353.30     $159,886.25
9/12/2013                                                                                           ($25,000.00)
5/8/2009     One Georgia                                          $0.00                                                       $0.00
             Bank, Atlanta,            $5,500,000.00
7/15/2011    GA8,51,97                                                                                                                                              ($5,500,000.00)

             OneUnited Bank,
12/19/2008                            $12,063,000.00        $93,823.33                                               $12,063,000.00                                                                                                                    $93,823.33
             Boston, MA8,9
             OneFinancial
6/5/2009     Corporation, Little      $17,300,000.00     $3,782,990.59                                               $17,300,000.00                                                                                                                 $3,782,990.59
             Rock, AR15,17
4/24/2009                                                $4,116,801.92                                                        $0.00
10/18/2013 Oregon Bancorp,                                                         $100,000.00                                              100       $1,000.00                                            $9,459.13
                          8            $3,216,000.00                                                                                                                                                                    $10.99                        $787,354.72
10/21/2013 Inc., Salem, OR                                                       $3,116,000.00                                            3,116       $1,000.00                                          $128,988.07
1/6/2014                                                                                            ($25,000.00)
5/1/2009     OSB Financial                               $7,662,314.53                                                        $0.00
             Services, Inc.,           $6,100,000.00                                                                                                                                                                                                $1,257,314.53
10/5/2011    Orange, TX11,14,15                                                  $6,100,000.00                                         6,100,000          $1.00                                          $305,000.00

11/21/2008                                             $168,483,804.20                                                        $0.00
             Pacific Capital
2/23/2011    Bancorp, Santa          $180,634,000.00                                     $14.75                                               1          $29.50             ($10.28)                                                                $2,107,396.67
             Barbara, CA11,35
11/30/2012                                                                     $165,983,272.00                                         3,608,332         $46.00    ($14,650,702.97)                      $393,120.78
12/19/2008 Pacific City                                 $21,003,597.96                                                        $0.00
           Financial
11/19/2013                            $16,200,000.00                            $16,200,000.00                                           16,200       $1,215.20                         $3,485,754.00   $1,156,636.50                                 $358,065.00
           Corporation, Los
1/6/2014   Angeles, CA8                                                                            ($196,857.54)
12/23/2008 Pacific Coast                                $13,821,963.89                                                        $0.00
           Bankers’
           Bancshares,                $11,600,000.00                                                                                                                                                                                                $1,641,963.89
7/28/2011 San Francisco,                                                        $11,600,000.00                                           11,600       $1,000.00                                          $580,000.00
           CA8,14,45
                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                      (CONTINUED)
                                                                                                                                      Number     Average Price                                                      Stock Price       Current
Transaction                                                              Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                      as of      Outstanding Dividend/Interest
Date        Institution          Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/16/2009    Pacific Coast                                $18,087.94                                                        $0.00
             National Bancorp,
                                     $4,120,000.00                                                                                                                                                                                                   $18,087.94
2/11/2010    San Clemente,                                                                                                                                        ($4,120,000.00)
             CA8,26
12/23/2008                                             $2,991,670.80                                                        $0.00
             Pacific Commerce
2/10/2014    Bank, Los               $4,060,000.00                             $2,519,960.80                                            4,060         $620.70     ($1,540,039.20)                      $109,487.50     $5.10                        $387,222.50
             Angeles, CA8
3/19/2014                                                                                         ($25,000.00)
12/12/2008 Pacific                                     $7,937,744.97                                                        $0.00
           International
                                     $6,500,000.00                                                                                                                                                                    $15.95          18,393
2/15/2013  Bancorp, Seattle,                                                   $6,500,000.00                                            6,500       $1,000.00
           WA85
3/6/2009                                              $22,020,064.10                                                        $0.00
8/7/2012     Park                                                              $1,676,654.00                                            2,296         $730.20       ($619,346.00)                       $88,059.01
             Bancorporation,
8/9/2012                            $23,200,000.00                             $4,048,506.00                                            5,544         $730.20     ($1,495,494.00)                      $482,779.69                                $4,351,643.00
             Inc., Madison,
8/10/2012    WI8,14                                                           $11,216,640.00                                           15,360         $730.20     ($4,143,360.00)                      $325,200.40
9/11/2012                                                                                        ($169,418.00)
12/23/2008                                           $119,536,844.44                                                        $0.00
             Park National
4/25/2012    Corporation,          $100,000,000.00                           $100,000,000.00                                          100,000       $1,000.00                                                         $77.20                    $16,694,444.44
             Newark, OH11
5/2/2012                                                                                                                                                                                              $2,842,400.00
1/30/2009                                             $16,365,554.76                                                        $0.00
11/28/2012                                                                       $394,072.28                                              548         $719.10       ($153,927.72)
             Parke Bancorp,
11/29/2012                          $16,288,000.00                            $11,318,791.40                                           15,740         $719.10     ($4,421,208.60)                                     $11.64         438,906      $3,119,531.72
             Inc., Sewell, NJ
1/11/2013                                                                                        ($117,128.64)
6/12/2013                                                                                                                                                                                             $1,650,288.00
12/23/2008 Parkvale Financial                         $36,570,413.89                                                        $0.00
           Corpoation/F.N.B.
                                    $31,762,000.00                                                                                                                                                                                   342,564
1/3/2012   Corporation,                                                       $31,762,000.00                                           31,762       $1,000.00
           Monroeville, PA60
2/6/2009   Pascack Bancorp,                            $4,497,312.67                                                        $0.00
           Inc. (Pascack
           Community                 $3,756,000.00                                                                                                                                                                                                  $553,312.67
10/19/2011 Bank), Westwood,                                                    $3,756,000.00                                            3,756       $1,000.00                                          $188,000.00
           NJ8,11,21
           Patapsco
12/19/2008 Bancorp, Inc.,            $6,000,000.00       $377,866.67                                                $6,000,000.00                                                                                      $2.75                        $377,866.67
           Dundalk, MD8
9/11/2009                                              $7,976,328.84                                                        $0.00
             Pathfinder
9/1/2011     Bancorp, Inc.,          $6,771,000.00                             $6,771,000.00                                            6,771       $1,000.00                                                         $14.51                        $667,695.84
             Oswego, NY44
2/1/2012                                                                                                                                                                                               $537,633.00
3/27/2009                                              $4,628,862.77                                                        $0.00
             Pathway Bancorp,
6/24/2013                            $3,727,000.00                             $3,727,000.00                                            3,727       $1,167.00                          $622,446.27     $226,565.00                                   $77,851.50
             Cairo, NE8,14
7/26/2013                                                                                         ($25,000.00)
12/19/2008                                            $34,138,915.14                                                        $0.00
             Patriot
4/11/2014    Bancshares, Inc.,      $26,038,000.00                            $12,000,000.00                                           12,000       $1,142.00                         $1,704,360.00   $1,046,297.22                               $2,704,135.78
             Houston, TX8
4/14/2014                                                                     $14,038,000.00                                           14,038       $1,142.00                         $1,993,817.14    $652,305.00
4/17/2009                                              $4,692,022.77                                                        $0.00
3/7/2012                                                                         $250,000.00                                              250       $1,000.00
             Patterson
8/22/2012    Bancshares,                                                         $250,000.00                                              250       $1,000.00
                                     $3,690,000.00                                                                                                                                                                                                  $817,022.77
12/5/2012    Inc, Patterson,                                                     $250,000.00                                              250       $1,000.00
             LA8,11,14
5/8/2013                                                                         $500,000.00                                              500       $1,000.00
6/5/2013                                                                       $2,440,000.00                                            2,440       $1,000.00                                          $185,000.00
                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




1/9/2009                                              $32,075,739.67                                                        $0.00
1/6/2010     Peapack-                                                          $7,172,000.00                                            7,172       $1,000.00
             Gladstone
3/2/2011     Financial              $28,685,000.00                             $7,172,000.00                                            7,172       $1,000.00                                                         $21.21                      $3,280,739.67
             Corporation,
1/11/2012    Gladstone, NJ11                                                  $14,341,000.00                                           14,341       $1,000.00
4/4/2012                                                                                                                                                                                               $110,000.00
                                                                                                                                                                                                                                                                   407




                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)                                                                                                                                                                          408
                                                                                                                                         Number     Average Price                                                      Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                      as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
4/17/2009     Penn Liberty                               $11,745,689.33                                                        $0.00
              Financial Corp.,          $9,960,000.00                                                                                                                                                                                                $1,287,689.33
9/1/2011      Wayne, PA8,14,44                                                    $9,960,000.00                                            9,960       $1,000.00                                          $498,000.00

1/30/2009                                                $44,926,557.48                                                        $0.00
2/2/2011   Peoples Bancorp                                                       $21,000,000.00                                           21,000       $1,000.00
           Inc., Marietta,             $39,000,000.00                                                                                                                                                                    $26.45                      $4,725,833.33
12/28/2011 OH11                                                                  $18,000,000.00                                           18,000       $1,000.00
2/15/2012                                                                                                                                                                                                $1,200,724.15
2/13/2009     Peoples Bancorp                            $21,325,250.00                                                        $0.00
              (WA), Lynden,            $18,000,000.00                                                                                                                                                                                                $2,425,250.00
8/3/2011      WA8,14,56                                                          $18,000,000.00                                           18,000       $1,000.00                                          $900,000.00

12/23/2008                                               $27,877,966.16                                                        $0.00
              Peoples Bancorp
7/3/2012      of North Carolina,       $25,054,000.00                            $23,384,401.44     ($350,766.02)                         25,054         $933.40     ($1,669,598.56)                                     $16.00                      $4,419,330.74
              Inc., Newton, NC
8/8/2012                                                                                                                                                                                                  $425,000.00
4/24/2009     Peoples                                    $15,362,909.75                                                        $0.00
              Bancorporation,
                                       $12,660,000.00                                                                                                                                                                                                $2,069,909.75
4/24/2012     Inc., Easley,                                                      $12,660,000.00                                           12,660       $1,000.00                                          $633,000.00
              SC8,14
3/20/2009     Peoples                                     $3,809,874.42                                                        $0.00
                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




              Bancshares of TN,
10/31/2012                              $3,900,000.00                             $2,944,500.00                                            3,900         $755.00       ($955,500.00)                      $122,225.00                                  $768,149.42
              Inc, Madisonville,
1/11/2013     TN8,14                                                                                 ($25,000.00)
3/6/2009      PeoplesSouth                               $15,985,994.66                                                        $0.00
              Bancshares, Inc.,        $12,325,000.00                                                                                                                                                                                                $3,044,994.66
9/18/2013     Colquitt, GA8                                                      $12,325,000.00                                           12,325       $1,000.00                                          $616,000.00

9/11/2009     PFSB                                        $1,730,162.66                                                        $0.00
              Bancorporation,
                                        $1,500,000.00                                                                                                                                                                                                  $159,162.66
8/25/2011     Inc., Pigeon Falls,                                                 $1,500,000.00                                            1,500       $1,000.00                                           $71,000.00
              WI8,17,45
2/6/2009      PGB Holdings,                               $3,227,916.67                                                        $0.00
              Inc., Chicago,            $3,000,000.00                                                                                                                                                                                                  $227,916.67
8/13/2010     IL9,11,36                                                           $3,000,000.00                                            3,000       $1,000.00

1/23/2009     Pierce County                                 $207,947.78                                                        $0.00
              Bancorp, Tacoma,          $6,800,000.00                                                                                                                                                                                                  $207,947.78
11/5/2010     WA8,46,97                                                                                                                                              ($6,800,000.00)

              Pinnacle Bank
              Holding Company,
3/6/2009                                $4,389,000.00       $284,999.00                                                $4,389,000.00                                                                                                    267,455        $284,999.00
              Inc., Orange City,
              FL8,69
12/12/2008                                              $111,918,194.45                                                        $0.00
12/28/2011 Pinnacle Financial                                                    $23,750,000.00                                           23,750       $1,000.00
           Partners, Inc.,             $95,000,000.00                                                                                                                                                                    $39.48                    $16,163,194.45
6/20/2012 Nashville, TN11                                                        $71,250,000.00                                           71,250       $1,000.00
7/18/2012                                                                                                                                                                                                 $755,000.00
12/19/2008 Plains Capital                               $105,252,939.77                                                        $0.00
           Corporation,                $87,631,000.00                                                                                                                                                                                              $13,239,939.77
9/27/2011  Dallas, TX8,14,44                                                     $87,631,000.00                                           87,631       $1,000.00                                         $4,382,000.00

7/17/2009                                                 $3,103,618.40                                                        $0.00
4/26/2013     Plato Holdings                                                        $120,000.00                                          120,000           $1.00                              $180.00
              Inc., Saint Paul,         $2,500,000.00                                                                                                                                                                                                  $534,285.93
4/29/2013     MN15,17                                                             $2,380,000.00                                         2,380,000          $1.00                            $3,570.00      $90,582.47
5/31/2013                                                                                            ($25,000.00)
1/30/2009                                                $13,764,140.41                                                        $0.00
4/29/2013     Plumas Bancorp,                                                    $11,949,000.00                                           11,949       $1,091.10                         $1,088,673.39
                                       $11,949,000.00                                                                                                                                                                     $6.80                        $622,343.75
5/22/2013     Quincy, CA                                                                                                                                                                                  $234,500.00
5/31/2013                                                                                           ($130,376.73)
              Popular, Inc., San
12/5/2008                             $935,000,000.00   $271,293,750.00                                              $935,000,000.00                                                                                     $34.18       2,093,284   $258,293,750.00
              Juan, PR20
           Porter Bancorp
11/21/2008                             $35,000,000.00     $4,783,333.33                                               $35,000,000.00                                                                                      $0.98         330,561      $4,783,333.33
           Inc., Louisville, KY
              Prairie Star
4/3/2009      Bancshares, Inc.,         $2,800,000.00       $132,253.00                                                $2,800,000.00                                                                                                                   $132,253.00
              Olathe, KS8
                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)
                                                                                                                                        Number     Average Price                                                       Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                       as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)            Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
5/8/2009     Premier Bancorp,                            $7,444,215.12                                                        $0.00
             Inc., Wilmette,           $6,784,000.00                                                                                                                                                                                                   $660,215.12
8/13/2010    IL9,15,36                                                           $6,784,000.00                                         6,784,000          $1.00

3/20/2009    Premier Bank                                  $467,412.50                                                        $0.00
             Holding Company,
                                       $9,500,000.00                                                                                                                                                                                                   $467,412.50
8/14/2012    Tallahassee,                                                                                                                                           ($9,500,000.00)
             FL8,22,97
10/2/2009                                               $23,052,240.29                                                        $0.00
8/8/2012                                                                         $1,678,618.89                                            1,863         $901.00       ($184,381.11)
             Premier Financial
8/9/2012     Bancorp, Inc.,           $22,252,000.00                             $8,575,102.51                                            9,517         $901.00       ($941,897.49)                                      $16.08         628,588      $3,203,017.93
             Huntington, WV
8/10/2012                                                                        $9,795,998.16                                           10,872         $901.00     ($1,076,001.84)
9/11/2012                                                                                          ($200,497.20)
5/22/2009                                                $8,778,669.11                                                        $0.00
             Premier Financial
7/22/2013    Corp, Dubuque,            $6,349,000.00                             $6,349,000.00                                         6,349,000          $1.24                          $1,507,379.58    $478,590.75                                  $522,262.58
             IA14,15
9/12/2013                                                                                           ($78,563.80)
2/20/2009    Premier Service                             $4,300,522.22                                                        $0.00
             Bank, Riverside,          $4,000,000.00                                                                                                                                                                                                   $100,522.22
1/31/2014    CA8                                                                 $4,000,000.00                                            4,000       $1,000.00                                           $200,000.00

2/13/2009    PremierWest                                $42,446,500.00                                                        $0.00
             Bancorp,                 $41,400,000.00                                                                                                                                                                                                 $1,046,500.00
4/9/2013     Medford, OR80                                                      $41,400,000.00                                           41,400       $1,000.00

11/20/2009                                              $11,077,694.89                                                        $0.00
12/10/2012 Presidio Bank,                                                          $262,635.10                                              310         $847.20        ($47,364.90)                        $83,086.12
           San Francisco,             $10,800,000.00                                                                                                                                                                     $11.85                      $1,740,944.25
12/11/2012 CA8,17                                                                $8,887,232.90                                           10,490         $847.20     ($1,602,767.10)                       $195,295.20
1/11/2013                                                                                           ($91,498.68)
1/23/2009    Princeton National                          $2,271,405.00                                                        $0.00
             Bancorp, Inc.,           $25,083,000.00                                                                                                                                                                      $0.01         155,025      $2,271,405.00
11/2/2012    Princeton, IL75,97                                                                                                                                    ($25,083,000.00)

2/27/2009    Private                   $4,960,000.00    $10,836,280.71                                                        $0.00
             Bancorporation,
12/29/2009                             $3,262,000.00                                                                                                                                                                                                 $2,366,280.71
             Inc., Minneapolis,
6/25/2014    MN8,18                                                              $8,222,000.00                                            8,222       $1,000.00                                           $248,000.00    $29.06
1/30/2009                                              $290,552,132.92                                                        $0.00
             PrivateBancorp,
10/24/2012                           $243,815,000.00                           $243,815,000.00                                          243,815       $1,000.00                                                                                    $45,512,132.92
             Inc., Chicago, IL12
11/14/2012                                                                                                                                                                                               $1,225,000.00
10/2/2009    Providence Bank,                            $4,596,311.80                                                        $0.00
             Rocky Mount,              $4,000,000.00                                                                                                                                                                                                   $421,311.80
9/15/2011    NC8,17,44                                                           $4,000,000.00                                            4,000       $1,000.00                                           $175,000.00

11/14/2008                                             $199,100,113.41                                                        $0.00
             Provident
8/21/2012    Banshares                                                         $151,500,000.00                                          151,500       $1,000.00
             Corp./M&T Bank          $151,500,000.00
3/20/2013    Corporation,                                                                                                                                                                      $71.62
             Baltimore, MD88
3/25/2013                                                                                                                                                                               $19,047,005.12
3/13/2009    Provident                                   $5,639,391.00                                                        $0.00
             Community
                                       $9,266,000.00                                                                                                                                                                      $6.59         178,880        $543,091.00
4/30/2014    Bancshares, Inc.,                                                   $5,096,300.00                                            9,266         $550.00     ($4,169,700.00)
             Rock Hill, SC107
2/27/2009    PSB Financial                              $10,536,802.00                                                        $0.00
             Corporation,              $9,270,000.00                                                                                                                                                                                                   $802,802.00
9/29/2010    Many, LA8,11,14                                                     $9,270,000.00                                            9,270       $1,000.00                                           $464,000.00

1/16/2009    Puget Sound                                 $5,355,156.75                                                        $0.00
             Bank, Bellevue,           $4,500,000.00                                                                                                                                                                     $13.72                        $630,156.75
8/11/2011    WA8,14,44                                                           $4,500,000.00                                            4,500       $1,000.00                                           $225,000.00

1/16/2009                                                                                                                     $0.00
             Pulaski Financial
7/3/2012     Corp, Creve              $32,538,000.00    $35,195,847.13          $28,893,744.00     ($433,406.16)                         32,538         $888.00     ($3,644,256.00)                                      $11.31                      $5,635,509.29
             Coeur, MO
                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




8/8/2012                                                                                                                                                                                                 $1,100,000.00
2/13/2009                                                                                                                     $0.00
             QCR Holdings,
9/15/2011                             $38,237,000.00    $44,286,567.33          $38,237,000.00                                           38,237       $1,000.00                                                          $17.25                      $4,949,567.33
             Inc., Moline, IL44
11/16/2011                                                                                                                                                                                               $1,100,000.00
10/30/2009 Randolph Bank &                               $7,190,593.33                                                        $0.00
           Trust Company,              $6,229,000.00                                                                                                                                                                                                   $650,593.33
                                                                                                                                                                                                                                                                      409




9/30/2013  Asheboro, NC8                                                         $6,229,000.00                                            6,229       $1,000.00                                           $311,000.00

                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)                                                                                                                                                                          410
                                                                                                                                         Number     Average Price                                                     Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                     as of      Outstanding Dividend/Interest
Date        Institution           Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
6/19/2009                                                $9,139,863.61                                                        $0.00
             RCB Financial
9/25/2013    Corporation,             $8,900,000.00                              $8,073,279.00                                             8,900         $907.10       ($826,721.00)                     $253,383.25                                  $893,934.15
             Rome, GA8,17
10/29/2013                                                                                          ($80,732.79)
1/16/2009    Redwood Capital                             $4,510,626.39                                                        $0.00
             Bancorp, Eureka,         $3,800,000.00                                                                                                                                                                      $9.25                        $520,626.39
7/21/2011    CA8,14,44                                                           $3,800,000.00                                             3,800       $1,000.00                                         $190,000.00

1/9/2009     Redwood Financial                           $3,570,810.92                                                        $0.00
             Inc., Redwood            $2,995,000.00                                                                                                                                                                     $28.00                        $425,810.92
8/18/2011    Falls, MN8,14,44                                                    $2,995,000.00                                             2,995       $1,000.00                                         $150,000.00

             Regent Bancorp,
3/6/2009                              $9,982,000.00        $784,281.50                                                $9,982,000.00                                                                                                                   $784,281.50
             Inc., Davie, FL8
2/27/2009    Regent Capital                              $3,135,328.00                                                        $0.00
             Corporation,             $2,655,000.00                                                                                                                                                                                                   $347,328.00
7/21/2011    Nowata, OK8,14,44                                                   $2,655,000.00                                             2,655       $1,000.00                                         $133,000.00

10/23/2009 Regents                                      $14,594,338.99                                                        $0.00
           Bancshares,
                                     $12,700,000.00                                                                                                                                                                                                 $1,513,338.99
                  Vancouver,
1/26/2012 Inc.,8,17,62                                                          $12,700,000.00                                            12,700       $1,000.00                                         $381,000.00
           WA
2/13/2009                                                                                                                     $0.00
                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




11/8/2012                                                                          $246,975.00                                               267         $925.00        ($20,025.00)
             Regional
11/9/2012    Bankshares, Inc.,        $1,500,000.00      $1,718,159.50           $1,140,525.00                                             1,233         $925.00        ($92,475.00)                      $50,000.00                                  $305,659.50
             Hartsville, SC8,14
1/11/2013                                                                                           ($13,875.00)
3/26/2013                                                                                           ($11,125.00)
11/14/2008                                            $4,138,055,555.55                                                       $0.00
             Regions Financial
4/4/2012     Corporation,         $3,500,000,000.00                          $3,500,000,000.00                                          3,500,000      $1,000.00                                                        $10.62                   $593,055,555.55
             Birmingham, AL11
5/2/2012                                                                                                                                                                                               $45,000,000.00
2/13/2009                                               $45,820,950.80                                                        $0.00
             Reliance
9/25/2013    Bancshares, Inc.,       $40,000,000.00                             $40,000,000.00                                            40,000       $1,004.90                         $196,000.00    $2,199,799.80    $2.00                      $3,827,111.00
             Frontenac, MO8
10/29/2013                                                                                         ($401,960.00)
2/27/2009    Ridgestone                                  $9,630,106.93                                                        $0.00
             Financial
2/20/2013                            $10,900,000.00                              $8,966,340.00                                            10,900         $822.60     ($1,933,660.00)                     $476,206.83                                  $277,223.50
             Services, Inc.,
3/26/2013    Brookfield, WI8,14                                                                     ($89,663.40)
             Rising Sun
1/9/2009     Bancorp, Rising          $5,983,000.00        $195,637.00                                                $5,983,000.00                                                                                                                   $195,637.00
             Sun, MD8
6/12/2009    River Valley                               $19,928,275.00                                                        $0.00
             Bancorporation,
6/6/2012                             $15,000,000.00                             $10,500,000.00                                         10,500,000          $1.00                                                        $22.37                      $4,178,275.00
             Inc., Wausau,
5/15/2013    WI11,14,15                                                          $4,500,000.00                                          4,500,000          $1.00                                         $750,000.00
5/15/2009    Riverside                                   $1,622,708.57                                                        $0.00
             Bancshares, Inc.,        $1,100,000.00                                                                                                                                                                                                   $467,708.57
5/14/2014    Little Rock, AR15                                                   $1,100,000.00                                          1,100,000          $1.00                                          $55,000.00

1/30/2009    Rogers                                        $738,021.00                                                        $0.00
             Bancshares,
                                     $25,000,000.00                                                                                                                                                                                                   $738,021.00
7/5/2013     Inc., Little Rock,                                                                                                                                     ($25,000,000.00)
             AR8,95,97
             Royal Bancshares
2/20/2009    of Pennsylvania,        $30,407,000.00        $358,971.00                                               $30,407,000.00                                                                                      $1.75       1,104,370        $358,971.00
             Inc., Narberth, PA
1/16/2009                                              $124,916,099.34                                                        $0.00
             S&T Bancorp,
12/7/2011                           $108,676,000.00                            $108,676,000.00                                           108,676       $1,000.00                                                        $24.85                    $15,712,738.34
             Indiana, PA11
6/11/2013                                                                                                                                                                                                $527,361.00
           Saigon
12/23/2008 National Bank,             $1,549,000.00               $0.00                                               $1,549,000.00                                                                                      $0.27                               $0.00
           Westminster, CA8
3/13/2009                                               $10,100,960.44                                                        $0.00
             Salisbury
8/25/2011    Bancorp, Inc.,           $8,816,000.00                              $8,816,000.00                                             8,816       $1,000.00                                                        $30.01                      $1,079,960.44
             Lakeville, CT44
11/2/2011                                                                                                                                                                                                $205,000.00
                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)
                                                                                                                                          Number     Average Price                                                      Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital    of Shares       of Shares   (Realized Loss)/                                      as of      Outstanding Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/5/2008                                                $95,137,868.33                                                        $0.00
7/21/2010  Sandy Spring                                                          $41,547,000.00                                            41,547       $1,000.00
           Bancorp, Inc.,              $83,094,000.00                                                                                                                                                                     $24.91                      $7,593,868.33
12/15/2010 Olney, MD11,44                                                        $41,547,000.00                                            41,547       $1,000.00
2/23/2011                                                                                                                                                                                                 $4,450,000.00
2/13/2009                                                 $2,697,208.51                                                        $0.00
             Santa Clara Valley
3/8/2013     Bank, N.A., Santa          $2,900,000.00                             $2,465,029.00                                             2,900         $850.00       ($434,971.00)                       $98,251.45     $4.77                        $158,928.06
             Paula, CA8,14
4/9/2013                                                                                             ($25,000.00)
12/19/2008 Santa Lucia                                    $3,131,111.11                                                        $0.00
           Bancorp,                     $4,000,000.00                                                                                                                                                                      $7.63                        $331,111.11
10/21/2011 Atascadero, CA                                                         $2,800,000.00                                             4,000         $700.00     ($1,200,000.00)

3/27/2009    SBT Bancorp,                                 $4,717,144.78                                                        $0.00
             Inc., Simsbury,            $4,000,000.00                                                                                                                                                                                                   $517,144.78
8/11/2011    CT8,14,44                                                            $4,000,000.00                                             4,000       $1,000.00                                          $200,000.00

1/16/2009                                                $67,294,638.84                                                        $0.00
             SCBT Financial
5/20/2009    Corporation,              $64,779,000.00                            $64,779,000.00                                            64,779       $1,000.00                                                         $61.00                      $1,115,638.84
             Columbia, SC11
6/24/2009                                                                                                                                                                                                 $1,400,000.00
12/19/2008                                               $49,045,470.38                                                        $0.00
             Seacoast Banking
4/3/2012     Corporation of            $50,000,000.00                            $41,020,000.00     ($615,300.00)                            2,000     $20,510.00     ($8,980,000.00)                                     $10.87                      $8,585,770.38
             Florida, Stuart, FL
5/30/2012                                                                                                                                                                                                   $55,000.00
12/23/2008 Seacoast                                       $2,153,780.00                                                        $0.00
           Commerce Bank,
                                        $1,800,000.00                                                                                                                                                                     $10.20                        $263,780.00
9/1/2011   Chula Vista,                                                           $1,800,000.00                                             1,800       $1,000.00                                           $90,000.00
           CA8,14,44
2/13/2009                                                 $1,983,756.24                                                        $0.00
12/10/2012 Security                                                                 $174,537.72                                               252         $692.60        ($77,462.28)
           Bancshares of
12/11/2012 Pulaski County,              $2,152,000.00                             $1,315,959.00                                             1,900         $692.60       ($584,041.00)                       $69,186.80                                  $449,072.72
           Inc., Waynesville,
1/11/2013 MO8,14                                                                                     ($14,904.97)
3/26/2013                                                                                            ($10,095.03)
1/9/2009     Security Business                            $6,888,017.86                                                        $0.00
             Bancorp, San               $5,803,000.00                                                                                                                                                                                                   $795,017.86
7/14/2011    Diego, CA8,14,44                                                     $5,803,000.00                                             5,803       $1,000.00                                          $290,000.00

1/9/2009     Security California                          $8,152,698.33                                                        $0.00
             Bancorp,                   $6,815,000.00                                                                                                                                                                     $11.10                        $996,698.33
9/15/2011    Riverside, CA8,14,44                                                 $6,815,000.00                                             6,815       $1,000.00                                          $341,000.00

6/26/2009    Security Capital                            $19,063,111.00                                                        $0.00
             Corporation,
                                       $17,388,000.00                                                                                                                                                                                                 $1,153,111.00
9/29/2010    Batesville,                                                         $17,388,000.00                                            17,388       $1,000.00                                          $522,000.00
             MS8,11,14,36
12/19/2008                                               $19,650,000.00                                                        $0.00
             Security Federal
9/29/2010    Corporation,              $18,000,000.00                            $18,000,000.00                                            18,000       $1,000.00                                                         $15.94                      $1,600,000.00
             Aiken, SC11,36
7/31/2013                                                                                                                                                                                                   $50,000.00
2/20/2009    Security State                              $14,888,679.86                                                        $0.00
             Bancshares,
                                       $12,500,000.00                                                                                                                                                                                                 $1,763,679.86
9/22/2011    Inc., Charleston,                                                   $12,500,000.00                                            12,500       $1,000.00                                          $625,000.00
             MO8,14,44
5/1/2009     Security State                              $14,543,635.13                                                        $0.00
             Bank Holding-
6/24/2013    Company,                  $10,750,000.00                            $10,750,000.00                                         10,750,000          $1.17                         $1,784,607.50    $720,368.55                                $1,414,005.16
             Jamestown,
7/26/2013    ND14,15                                                                                ($125,346.08)

11/21/2008                                               $26,915,463.85                                                        $0.00
             Severn Bancorp,
9/25/2013    Inc., Annapolis,          $23,393,000.00                            $23,367,267.70                                            23,393         $998.90        ($25,732.30)                                      $4.64         556,976      $3,781,868.83
             MD
10/29/2013                                                                                          ($233,672.68)
1/9/2009                                                 $25,358,333.33                                                        $0.00
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




             Shore
4/15/2009    Bancshares, Inc.,         $25,000,000.00                            $25,000,000.00                                            25,000       $1,000.00                                                          $9.01         172,970        $333,333.33
             Easton, MD11
11/16/2011                                                                                                                                                                                                  $25,000.00
6/26/2009 Signature                                       $1,994,587.59                                                        $0.00
           Bancshares, Inc.,            $1,700,000.00                                                                                                                                                                                                   $209,587.59
12/15/2010 Dallas, TX11,14,15                                                     $1,700,000.00                                          1,700,000          $1.00                                           $85,000.00

                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                       411
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)                                                                                                                                                                             412
                                                                                                                                         Number     Average Price                                                        Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital    of Shares       of Shares    (Realized Loss)/                                       as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed            (Write-off)           Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/12/2008                                             $132,967,606.41                                                        $0.00
             Signature Bank,
3/31/2009                            $120,000,000.00                           $120,000,000.00                                           120,000       $1,000.00                                                           $126.18                     $1,816,666.67
             New York, NY11
3/16/2010                                                                                                                                                                                                 $11,150,939.74
1/16/2009    Somerset                                    $7,816,685.55                                                        $0.00
             Hills Bancorp,
5/20/2009                              $7,414,000.00                             $7,414,000.00                                             7,414       $1,000.00                                                           $10.80                        $127,685.55
             Bernardsville,
6/24/2009    NJ11                                                                                                                                                                                           $275,000.00
2/20/2009    Sonoma Valley                                 $347,164.00                                                        $0.00
             Bancorp,                  $8,653,000.00                                                                                                                                                                                                     $347,164.00
8/20/2010    Sonoma, CA8,32,97                                                                                                                                        ($8,653,000.00)

1/9/2009     Sound Banking                               $3,575,224.44                                                        $0.00
             Company,
11/13/2012                             $3,070,000.00                             $2,832,412.70                                             3,070         $922.60        ($237,587.30)                       $124,412.34     $7.40                        $643,399.40
             Morehead City,
1/11/2013    NC8,14                                                                                 ($25,000.00)
12/5/2008    South Financial                           $146,965,329.86                                                        $0.00
             Group, Inc.,            $347,000,000.00                                                                                                                                                                                                 $16,386,111.11
9/30/2010    Greenville, SC                                                    $130,179,218.75                                           130,179       $1,000.00    ($216,820,781.25)                       $400,000.00

7/17/2009                                               $13,109,014.25                                                        $0.00
             SouthCrest
3/8/2013     Financial Group,                                                    $1,814,620.00                                             2,000         $907.30        ($185,380.00)
                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                      $12,900,000.00                                                                                                                                                                        $5.25                        $933,494.05
3/11/2013    Inc., Fayetteville,                                                 $9,889,679.00                                            10,900         $907.30      ($1,010,321.00)                       $588,264.19
             GA8,14
4/9/2013                                                                                           ($117,042.99)
1/16/2009    Southern                                   $11,855,555.56                                                        $0.00
             Bancorp, Inc.,
                                      $11,000,000.00                                                                                                                                                                                                     $855,555.56
8/6/2010     Arkadelphia,                                                       $11,000,000.00                                            11,000       $1,000.00
             AR9,11,36
12/5/2008    Southern                                   $51,088,046.14                                                        $0.00
             Community
             Financial Corp.,         $42,750,000.00                                                                                                                                                                       $23.61                      $8,338,046.14
10/1/2012    Winston-Salem,                                                     $42,750,000.00                                            42,750       $1,000.00
             NC
2/27/2009                                               $19,401,361.89                                                        $0.00
             Southern First
7/3/2012     Bancshares, Inc.,        $17,299,000.00                            $15,638,296.00     ($234,574.44)                          17,299         $904.00      ($1,660,704.00)                                      $13.46                      $2,897,640.33
             Greenville, SC
7/25/2012                                                                                                                                                                                                  $1,100,000.00
5/15/2009    Southern Heritage                           $5,718,111.14                                                        $0.00
             Bancshares,
                                       $4,862,000.00                                                                                                                                                                                                     $613,111.14
9/8/2011     Inc., Cleveland,                                                    $4,862,000.00                                             4,862       $1,000.00                                            $243,000.00
             TN8,14,45
1/23/2009    Southern Illinois                           $5,955,472.22                                                        $0.00
             Bancorp, Inc.,            $5,000,000.00                                                                                                                                                                                                     $705,472.22
8/25/2011    Carmi, IL8,14,44                                                    $5,000,000.00                                             5,000       $1,000.00                                            $250,000.00

12/5/2008    Southern Missouri                          $10,804,763.89                                                        $0.00
             Bancorp, Inc.,            $9,550,000.00                                                                                                                                                                       $35.69         114,326      $1,254,763.89
7/21/2011    Poplar Bluff, MO44                                                  $9,550,000.00                                             9,550       $1,000.00

             SouthFirst
6/12/2009    Bancshares, Inc.,         $2,760,000.00       $364,796.34                                                $2,760,000.00                                                                                         $3.15                        $364,796.34
             Sylacauga, AL8
12/5/2008                                               $85,247,569.91                                                        $0.00
             Southwest
8/8/2012     Bancorp, Inc.,           $70,000,000.00                            $70,000,000.00                                            70,000       $1,000.00                                                           $17.06                    $12,960,372.91
             Stillwater, OK11
5/29/2013                                                                                                                                                                                                  $2,287,197.00
3/13/2009    Sovereign                                  $21,632,668.61                                                        $0.00
             Bancshares, Inc.,        $18,215,000.00                                                                                                                                                                                                   $2,506,668.61
9/22/2011    Dallas, TX8,14,44                                                  $18,215,000.00                                            18,215       $1,000.00                                            $911,000.00

3/27/2009                                               $11,803,691.75                                                        $0.00
             Spirit BankCorp,
10/21/2013                            $30,000,000.00                             $9,000,000.00                                            30,000         $300.00     ($21,000,000.00)                       $631,941.75                                $2,261,750.00
             Inc., Bristow, OK8
1/6/2014                                                                                            ($90,000.00)
             St. Johns
3/13/2009    Bancshares, Inc.,         $3,000,000.00       $845,658.00                                                $3,000,000.00                                                                                                                      $845,658.00
             St. Louis, MO8
4/24/2009    Standard                                   $75,757,163.03                                                        $0.00
             Bancshares, Inc.,
                                      $60,000,000.00                                                                                                                                                                                                 $12,757,163.03
2/22/2013    Hickory Hills,                                                     $60,000,000.00                                         12,903,226      $1,432.56                          $3,000,000.00
             IL8,14,74
                                                                                                                                                                                                                                               Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)
                                                                                                                                            Number     Average Price                                                Stock Price       Current
Transaction                                                                 Capital Repayment/                        Remaining Capital    of Shares       of Shares    (Realized Loss)/                               as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount    Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed            (Write-off)   Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/5/2008  State Bancorp,                                $42,414,352.50                                                          $0.00
           Inc./Valley
                                      $36,842,000.00
12/14/2011 National Bancorp,                                                     $36,842,000.00                                              36,842       $1,000.00
           Jericho, NY11,61
9/4/2009     State Bank of                                $2,030,299.18                                                          $0.00
             Bartley,Bartley,          $1,697,000.00                                                                                                                                                                                                $282,299.18
9/22/2011    NE15,17,44                                                           $1,697,000.00                                            1,697,000          $1.00                                     $51,000.00

1/16/2009                                                $58,008,472.23                                                          $0.00
             State Bankshares,
8/12/2009                             $50,000,000.00                             $12,500,000.00                                              12,500       $1,000.00                                                                               $5,508,472.23
             Inc., Fargo, ND8,11
6/29/2011                                                                        $37,500,000.00                                              37,500       $1,000.00                                   $2,500,000.00
2/13/2009    State Capital                               $17,080,708.67                                                          $0.00
             Corporation,
                                      $15,000,000.00                                                                                                                                                                                              $1,330,708.67
9/29/2010    Greenwood,                                                          $15,000,000.00                                              15,000       $1,000.00                                    $750,000.00
             MS8,11,36
10/28/2008                                             $2,123,611,111.12                                                         $0.00
             State Street
6/17/2009    Corporation,          $2,000,000,000.00                          $2,000,000,000.00                                              20,000     $100,000.00                                                   $67.26                    $63,611,111.12
             Boston, MA12,16
7/8/2009                                                                                                                                                                                             $60,000,000.00
6/26/2009    Stearns Financial                           $31,495,442.29                                                          $0.00
             Services, Inc., St.      $24,900,000.00                                                                                                                                                                                              $5,350,442.29
1/18/2012    Cloud, MN11,14,15                                                   $24,900,000.00                                           24,900,000          $1.00                                   $1,245,000.00

9/25/2009    Steele Street                               $13,078,672.60                                                          $0.00
             Bank Corporation,        $11,019,000.00                                                                                                                                                                                              $1,728,672.60
9/1/2011     Denver, CO15,17,45                                                  $11,019,000.00                                           11,019,000          $1.00                                    $331,000.00

12/19/2008                                               $37,191,875.00                                                          $0.00
           StellarOne
4/13/2011  Corporation,                                                           $7,500,000.00                                                7,500      $1,000.00
                                      $30,000,000.00                                                                                                                                                                  $25.65                      $4,271,875.00
12/28/2011 Charlottesville,                                                      $22,500,000.00                                              22,500       $1,000.00
           VA11
12/18/2013                                                                                                                                                                                            $2,920,000.00
12/23/2008                                               $47,869,108.33                                                          $0.00
             Sterling Bancorp,
4/27/2011                             $42,000,000.00                             $42,000,000.00                                              42,000       $1,000.00                                                   $12.00                      $4,923,333.33
             New York, NY11
5/18/2011                                                                                                                                                                                              $945,775.00
12/12/2008                                              $130,542,485.91                                                          $0.00
             Sterling
5/5/2009     Bancshares, Inc.,       $125,198,000.00                            $125,198,000.00                                             125,198       $1,000.00                                                                               $2,486,571.39
             Houston, TX11
6/15/2010                                                                                                                                                                                             $2,857,914.52
12/5/2008                                               $121,757,209.63                                                          $0.00
             Sterling Financial
8/20/2012    Corporation,            $303,000,000.00                            $114,772,740.00     ($1,434,659.25)                        5,738,637         $20.00    ($188,227,260.00)                              $17.92                      $7,594,128.88
             Spokane, WA31
9/19/2012                                                                                                                                                                                              $825,000.00
1/30/2009  Stewardship                                   $11,400,453.22                                                          $0.00
           Financial
9/1/2011   Corporation,               $10,000,000.00                             $10,000,000.00                                              10,000       $1,000.00                                                    $4.50                      $1,293,055.22
           Midland Park,
10/26/2011 NJ44                                                                                                                                                                                        $107,398.00

2/6/2009     Stockmens                                   $18,101,553.84                                                          $0.00
             Financial
1/12/2011    Corporation,             $15,568,000.00                              $4,000,000.00                                               4,000       $1,000.00                                                                               $1,755,553.84
             Rapid City,
3/16/2011    SD8,11,14                                                           $11,568,000.00                                              11,568       $1,000.00                                    $778,000.00

1/23/2009                                                 $2,652,816.96                                                          $0.00
             Stonebridge
3/26/2013    Financial Corp.,                                                     $1,796,209.03                                              10,351         $173.50      ($8,554,790.97)               $130,704.17
                                      $10,973,000.00                                                                                                                                                                                                $634,609.11
3/27/2013    West Chester,                                                          $107,935.66                                                 622         $173.50        ($514,064.34)                  $8,358.99
             PA8,14
4/9/2013                                                                                               ($25,000.00)
             Suburban Illinois
6/19/2009    Bancorp, Inc.,           $15,000,000.00      $2,083,520.25                                                 $15,000,000.00                                                                                                            $2,083,520.25
             Elmhurst, IL15
12/19/2008                                                $9,930,625.00                                                          $0.00
             Summit State
                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




8/4/2011     Bank, Santa Rosa,         $8,500,000.00                              $8,500,000.00                                               8,500       $1,000.00                                                   $13.16                      $1,115,625.00
             CA44
9/14/2011                                                                                                                                                                                              $315,000.00
1/9/2009                                                 $92,513,970.83                                                          $0.00
             Sun Bancorp, Inc.,
4/8/2009                              $89,310,000.00                             $89,310,000.00                                              89,310       $1,000.00                                                    $4.01                      $1,103,970.83
             Vineland, NJ11
5/27/2009                                                                                                                                                                                             $2,100,000.00
                                                                                                                                                                                                                                                                   413




                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)                                                                                                                                                                           414
                                                                                                                                            Number     Average Price                                                    Stock Price       Current
Transaction                                                                 Capital Repayment/                        Remaining Capital    of Shares       of Shares   (Realized Loss)/                                    as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount    Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)        Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
11/14/2008                         $3,500,000,000.00   $5,448,052,772.51                                                         $0.00
12/31/2008 SunTrust Banks,         $1,350,000,000.00
                            11                                                                                                                                                                                            $40.06                   $567,986,111.11
3/30/2011 Inc., Atlanta, GA                                                   $4,850,000,000.00                                              48,500     $100,000.00
9/28/2011                                                                                                                                                                                                $30,066,661.40
12/5/2008    Superior Bancorp                             $4,983,333.33                                                          $0.00
             Inc., Birmingham,        $69,000,000.00                                                                                                                                                                                   1,923,792      $4,983,333.33
4/15/2011    AL24,49,97                                                                                                                                                ($69,000,000.00)

1/9/2009   Surrey Bancorp,                                $2,314,972.22                                                          $0.00
           Mount Airy,                 $2,000,000.00                                                                                                                                                                      $12.00                        $214,972.22
12/29/2010 NC11,8,14                                                              $2,000,000.00                                               2,000       $1,000.00                                        $100,000.00

12/12/2008                                              $328,991,401.58                                                          $0.00
4/21/2010  Susquehanna                                                          $200,000,000.00                                             200,000       $1,000.00
           Bancshares, Inc,          $300,000,000.00                                                                                                                                                                      $10.56                    $23,722,222.22
12/22/2010 Lititz, PA11                                                         $100,000,000.00                                             100,000       $1,000.00
1/19/2011                                                                                                                                                                                                 $5,269,179.36
4/10/2009    SV Financial, Inc.,                          $4,721,382.89                                                          $0.00
                                       $4,000,000.00                                                                                                                                                                                                    $521,382.89
8/31/2011    Sterling, IL8,11,14                                                  $4,000,000.00                                               4,000       $1,000.00                                        $200,000.00
12/12/2008                                              $253,929,027.78                                                          $0.00
                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




           SVB Financial
12/23/2009 Group, Santa              $235,000,000.00                            $235,000,000.00                                             235,000       $1,000.00                                                       $116.62                   $12,109,027.78
           Clara, CA12,16
6/16/2010                                                                                                                                                                                                 $6,820,000.00
5/8/2009     Sword Financial                             $17,019,233.91                                                          $0.00
             Corporation,             $13,644,000.00                                                                                                                                                                                                  $2,693,233.91
9/15/2011    Horicon, WI14,15,44                                                 $13,644,000.00                                           13,644,000          $1.00                                        $682,000.00

12/19/2008 Synovus Financial                           $1,190,614,526.39                                                         $0.00
           Corp., Columbus,          $967,870,000.00                                                                                                                                                                      $24.38      15,510,737   $222,744,526.39
7/26/2013 GA11                                                                  $967,870,000.00                                             967,870       $1,000.00

1/16/2009    Syringa Bancorp,                               $253,122.22                                                          $0.00
                                       $8,000,000.00                                                                                                                                                                       $0.01                        $253,122.22
1/31/2014    Boise, ID8,103                                                                                                                                             ($8,000,000.00)
11/21/2008                                              $120,845,170.80                                                          $0.00
             Taylor Capital
6/19/2012    Group, Rosemont,        $104,823,000.00                             $93,659,350.50     ($1,404,890.26)                         104,823         $893.50    ($11,163,649.50)                                   $21.38                    $18,751,437.56
             IL
7/18/2012                                                                                                                                                                                                 $9,839,273.00
8/28/2009    TCB Corporation,                            $11,611,381.34                                                          $0.00
             Greenwood,                $9,720,000.00                                                                                                                                                                                                  $1,599,381.34
9/8/2011     SC15,17,45                                                           $9,720,000.00                                            9,720,000          $1.00                                        $292,000.00

1/16/2009  TCB Holding                                      $690,832.08                                                          $0.00
           Company, Texas
           Community Bank,            $11,730,000.00                                                                                                                                                                                                    $690,832.08
12/13/2013 The Woodlands,                                                                                                                                              ($11,730,000.00)
           TX8,97,100
11/14/2008                                              $378,547,699.45                                                          $0.00
             TCF Financial
4/22/2009    Corporation,            $361,172,000.00                            $361,172,000.00                                             361,172       $1,000.00                                                       $16.37                      $7,925,718.89
             Wayzata, MN11
12/21/2009                                                                                                                                                                                                $9,449,980.56
12/23/2008 TCNB Financial                                 $2,384,611.11                                                          $0.00
           Corp., Dayton,              $2,000,000.00                                                                                                                                                                                                    $284,611.11
8/3/2011   OH8,11,14                                                              $2,000,000.00                                               2,000       $1,000.00                                        $100,000.00

12/19/2008 Tennessee                                      $3,233,333.33                                                          $0.00
           Commerce
                                      $30,000,000.00                                                                                                                                                                                     461,538      $3,233,333.33
1/27/2012 Bancorp, Inc.,                                                                                                                                               ($30,000,000.00)
           Franklin, TN63,97
12/23/2008                             $3,000,000.00      $3,331,713.17                                                          $0.00                                                                                                                  $146,241.67
             Tennessee
4/26/2013    Valley Financial                                                       $298,000.00                                                 298       $1,022.10                          $6,588.78      $19,218.87
4/29/2013    Holdings, Inc.,                                                      $2,702,000.00                                               2,702       $1,022.10                         $59,741.22     $124,922.63
             Oak Ridge, TN8,14
5/31/2013                                                                                              ($25,000.00)
1/16/2009                                                $82,777,816.21                                                          $0.00
             Texas Capital
5/13/2009    Bancshares, Inc.,        $75,000,000.00                             $75,000,000.00                                              75,000       $1,000.00                                                       $53.95                      $1,218,750.00
             Dallas, TX11
3/17/2010                                                                                                                                                                                                 $6,559,066.21
                                                                                                                                                                                                                                              Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                         (CONTINUED)
                                                                                                                                         Number     Average Price                                                Stock Price       Current
Transaction                                                                 Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/9/2009     Texas National                               $4,475,307.67                                                        $0.00
             Bancorporation,
                                       $3,981,000.00                                                                                                                                                                                             $295,307.67
5/19/2010    Jacksonville,                                                        $3,981,000.00                                            3,981       $1,000.00                                    $199,000.00
             TX8,11,14
8/7/2009     The ANB                                     $23,234,499.98                                                        $0.00
             Corporation,             $20,000,000.00                                                                                                                                                                                           $2,234,499.98
8/25/2011    Terrell, TX8,14,44                                                  $20,000,000.00                                           20,000       $1,000.00                                   $1,000,000.00

12/12/2008                                               $52,787,673.44                                                        $0.00
             The Bancorp,
3/10/2010    Inc., Wilmington,        $45,220,000.00                             $45,220,000.00                                           45,220       $1,000.00                                                   $11.91                      $2,813,688.89
             DE12,16
9/8/2010                                                                                                                                                                                           $4,753,984.55
2/6/2009     The Bank of                                  $1,912,684.00                                                        $0.00
             Currituck,                $4,021,000.00                                                                                                                                                                                             $169,834.00
12/3/2010    Moyock, NC8                                                          $1,742,850.00                                            4,021         $433.40     ($2,278,150.00)

2/13/2009                                                $40,091,342.55                                                        $0.00
           The Bank of
12/22/2010 Kentucky Financial                                                    $17,000,000.00                                           17,000       $1,000.00
           Corporation,               $34,000,000.00                                                                                                                                                               $34.62         276,078      $3,940,694.00
11/23/2011 Crestview Hills,                                                      $17,000,000.00                                           17,000       $1,000.00
           KY11
5/29/2013                                                                                                                                                                                          $2,150,648.55
1/16/2009                                                $18,023,831.85                                                        $0.00
12/10/2012 The Baraboo                                                            $1,956,900.00                                            3,000         $652.30     ($1,043,100.00)                $403,161.92
           Bancorporation,            $20,749,000.00                                                                                                                                                                $2.05                      $3,766,126.61
12/11/2012 Baraboo, WI8,14                                                       $11,577,672.70                                           17,749         $652.30     ($6,171,327.30)                $455,316.35
1/11/2013                                                                                           ($135,345.73)
12/19/2008 The Connecticut                                $6,902,866.33                                                        $0.00
           Bank and Trust
                                       $5,448,000.00                                                                                                                                                               $23.22                        $662,083.33
4/19/2012 Company,                                                                $5,448,000.00                                            5,448       $1,000.00                                    $792,783.00
           Hartford, CT
12/19/2008 The Elmira                                    $10,309,575.00                                                        $0.00
           Savings Bank,               $9,090,000.00                                                                                                                                                               $24.50         116,538      $1,219,575.00
8/25/2011  FSB, Elmira, NY44                                                      $9,090,000.00                                            9,090       $1,000.00

1/9/2009                                                 $29,332,986.11                                                        $0.00
             The First
8/24/2011    Bancorp, Inc.,                                                      $12,500,000.00                                           12,500       $1,000.00
                                      $25,000,000.00                                                                                                                                                               $17.25         225,904      $4,332,986.11
3/27/2013    Damariscotta,                                                        $2,500,000.00                                            2,500       $1,000.00
             ME11
5/8/2013                                                                         $10,000,000.00                                           10,000       $1,000.00
2/6/2009     The First                                    $5,411,805.56                                                        $0.00
             Bancshares,
                                       $5,000,000.00                                                                                                                                                                               54,705        $411,805.56
9/29/2010    Inc., Hattiesburg,                                                   $5,000,000.00                                            5,000       $1,000.00
             MS11,36
2/27/2009    The First State                                $813,086.56                                                        $0.00
             Bank of Mobeetie,           $731,000.00                                                                                                                                                                                              $45,086.56
4/14/2010    Mobeetie, TX8,11,14                                                    $731,000.00                                              731       $1,000.00                                     $37,000.00

2/6/2009   The Freeport                                     $379,458.89                                                        $0.00
           State Bank,                   $301,000.00                                                                                                                                                                                              $63,458.89
12/19/2012 Harper, KS8,11,14                                                        $301,000.00                                              301       $1,000.00                                     $15,000.00

6/26/2009    The Hartford                              $4,236,125,671.00                                                       $0.00
             Financial Services
3/31/2010                          $3,400,000,000.00                          $3,400,000,000.00                                         3,400,000      $1,000.00                                                                            $129,861,111.11
             Group, Inc.
9/27/2010    Hartford CT11                                                                                                                                                                       $706,264,559.89
5/22/2009    The Landrum                                 $17,580,291.55                                                        $0.00
             Company,
                                      $15,000,000.00                                                                                                                                                                                           $1,830,291.55
8/18/2011    Columbia,                                                           $15,000,000.00                                           15,000       $1,000.00                                    $750,000.00
             MO8,14,44
12/23/2008                                                $9,232,652.17                                                        $0.00
           The Little Bank,
10/31/2012 Incorporated,               $7,500,000.00                              $7,359,000.00                                            7,500         $981.20       ($141,000.00)                $371,250.00                                $1,575,992.17
           Kinston, NC8,14
1/11/2013                                                                                            ($73,590.00)
12/31/2008 The PNC Financial                           $8,320,638,950.83                                                       $0.00
           Services Group
2/10/2010                          $7,579,200,000.00                          $7,579,200,000.00                                           75,792     $100,000.00                                                   $89.05                   $421,066,666.67
           Inc., Pittsburgh,
                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




5/5/2010   PA11                                                                                                                                                                                  $320,372,284.16
2/20/2009    The Private Bank                             $6,474,752.14                                                        $0.00
             of California, Los        $5,450,000.00                                                                                                                                                                                             $751,752.14
9/1/2011     Angeles, CA8,14,44                                                   $5,450,000.00                                            5,450       $1,000.00                                    $273,000.00

                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                415
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)                                                                                                                                                                  416
                                                                                                                                        Number     Average Price                                              Stock Price       Current
Transaction                                                                Capital Repayment/                      Remaining Capital   of Shares       of Shares   (Realized Loss)/                              as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 6/30/2014       Warrants Paid to Treasury
1/9/2009                                                                                                                      $0.00
             The
3/8/2013     Queensborough                                                         $244,225.00                                              250         $976.90         ($5,775.00)                $4,806.45
                                      $12,000,000.00    $13,065,246.00                                                                                                                                                                        $882,900.00
3/11/2013    Company,                                                           $11,478,575.00                                           11,750         $976.90       ($271,425.00)              $571,967.55
             Louisville, GA8,14
4/9/2013                                                                                           ($117,228.00)
2/27/2009  The Victory                   $541,000.00     $2,322,183.20                                                        $0.00
           Bancorp, Inc.,
12/11/2009                             $1,505,000.00                                                                                                                                                                                          $215,183.20
           Limerick,
             8,18,21,44
9/22/2011 PA                                                                     $2,046,000.00                                            2,046       $1,000.00                                   $61,000.00
1/23/2009    Three Shores                                $6,449,130.64                                                        $0.00
             Bancorporation,
11/8/2012    Inc. (Seaside                                                       $1,165,528.32                                            1,312         $888.40       ($146,471.68)
                                       $5,677,000.00                                                                                                                                                                                        $1,174,058.48
11/9/2012    National Bank &                                                     $3,877,691.40                                            4,365         $888.40       ($487,308.60)              $282,284.64
             Trust), Orlando,
1/11/2013    FL8,21                                                                                 ($50,432.20)

12/5/2008    TIB Financial                              $13,444,359.59                                                        $0.00
                                      $37,000,000.00                                                                                                                                                            $23.61                      $1,284,722.22
9/30/2010    Corp, Naples, FL                                                   $12,119,637.37                                           12,120       $1,000.00    ($24,880,362.63)               $40,000.00
           Tidelands
           Bancshares, Inc,
12/19/2008                            $14,448,000.00     $1,195,973.33                                               $14,448,000.00                                                                                            571,821      $1,195,973.33
           Mount Pleasant,
                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




           SC
4/17/2009 Tifton Banking                                   $223,208.00                                                        $0.00
           Company, Tifton,            $3,800,000.00                                                                                                                                                                                          $223,208.00
11/12/2010 GA8,47,97                                                                                                                                                ($3,800,000.00)

12/23/2008                                              $18,857,818.52                                                        $0.00
11/8/2012                                                                        $3,290,437.50                                            3,815         $862.50       ($524,562.50)
11/9/2012  Timberland                                                            $1,580,962.50                                            1,833         $862.50       ($252,037.50)
           Bancorp, Inc.,             $16,641,000.00                                                                                                                                                            $10.54                      $3,346,628.65
11/13/2012 Hoquiam, WA                                                           $9,481,462.50                                           10,993         $862.50     ($1,511,537.50)
1/11/2013                                                                                          ($143,528.63)
6/11/2013                                                                                                                                                                                       $1,301,856.00
4/3/2009     Titonka                                     $2,569,490.36                                                        $0.00
             Bancshares, Inc,          $2,117,000.00                                                                                                                                                                                          $346,490.36
4/4/2012     Titonka, IA8,11,14                                                  $2,117,000.00                                            2,117       $1,000.00                                  $106,000.00

2/6/2009     Todd Bancshares,                            $5,210,672.22                                                        $0.00
             Inc., Hopkinsville,       $4,000,000.00                                                                                                                                                                                        $1,010,672.22
9/25/2013    KY8                                                                 $4,000,000.00                                            4,000       $1,000.00                                  $200,000.00

12/12/2008                                              $88,577,166.67                                                        $0.00
             TowneBank,
9/22/2011                             $76,458,000.00                            $76,458,000.00                                           76,458       $1,000.00                                                 $15.71                    $10,619,166.67
             Portsmouth, VA45
5/15/2013                                                                                                                                                                                       $1,500,000.00
1/16/2009                                                  $842,415.03                                                        $0.00
             Treaty Oak
2/15/2011    Bancorp, Inc.,            $3,268,000.00                               $500,000.00                                            3,118         $155.47     ($2,618,000.00)                              $0.30       3,098,341        $192,415.03
             Austin, TX8
12/21/2012                                                                         $150,000.00                                          150,000           $1.00
3/27/2009    Triad Bancorp,                              $4,386,324.64                                                        $0.00
             Inc., Frontenac,          $3,700,000.00                                                                                                                                                                                          $501,324.64
9/22/2011    MO8,14,44                                                           $3,700,000.00                                            3,700       $1,000.00                                  $185,000.00

12/19/2008 Tri-County                                   $18,653,115.75                                                        $0.00
           Financial
                                      $15,540,000.00                                                                                                                                                                                        $2,336,115.75
9/22/2011 Corporation,8,14,44                                                   $15,540,000.00                                           15,540       $1,000.00                                  $777,000.00
           Waldorf, MD
3/27/2009                                               $34,644,476.74                                                        $0.00
8/7/2012                                                                         $2,639,379.50                                            3,518         $750.20       ($878,620.50)              $163,062.90
             Trinity Capital
8/9/2012     Corporation , Los        $35,539,000.00                             $7,038,845.50                                            9,382         $750.20     ($2,343,154.50)             $1,300,776.05                               $6,592,186.06
             Alamos, NM8,14
8/10/2012                                                                       $16,984,909.75                                           22,639         $750.20     ($5,654,090.25)              $191,948.33
9/11/2012                                                                                          ($266,631.35)
4/3/2009     Tri-State Bank                              $2,985,215.11                                                        $0.00
             of Memphis,               $2,795,000.00                                                                                                                                                                                          $190,215.11
8/13/2010    Memphis, TN8,9,11                                                   $2,795,000.00                                            2,795       $1,000.00

2/27/2009    TriState Capital                           $28,642,402.33                                                        $0.00
             Holdings, Inc.,          $23,000,000.00                                                                                                                                                                                        $4,492,402.33
9/26/2012    Pittsburgh, PA11,8                                                 $23,000,000.00                                           23,000       $1,000.00                                 $1,150,000.00

                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                           (CONTINUED)
                                                                                                                                              Number     Average Price                                                 Stock Price       Current
Transaction                                                                   Capital Repayment/                        Remaining Capital    of Shares       of Shares    (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed            (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
4/3/2009                                 $2,765,000.00      $6,496,417.16                                                          $0.00
12/22/2009 TriSummit Bank,               $4,237,000.00
           Kingsport,                                                                                                                                                                                                                                $1,172,766.41
11/29/2012 TN8,14,18                                                                $5,251,500.00                                               7,002         $750.00      ($1,750,500.00)                $124,665.75
1/11/2013                                                                                                ($52,515.00)
11/21/2008                                                $236,287,500.00                                                          $0.00
             Trustmark
12/9/2009    Corporation,              $215,000,000.00                            $215,000,000.00                                             215,000       $1,000.00                                                    $24.69                    $11,287,500.00
             Jackson, MS11
12/30/2009                                                                                                                                                                                              $10,000,000.00
5/29/2009    Two Rivers                                    $14,075,133.27                                                          $0.00
             Financial Group,           $12,000,000.00                                                                                                                                                                   $22.98                      $1,475,133.27
9/1/2011     Burlington, IA8,14,44                                                 $12,000,000.00                                              12,000       $1,000.00                                     $600,000.00

11/14/2008                                               $6,933,220,416.67                                                         $0.00
             U.S. Bancorp,
6/17/2009                            $6,599,000,000.00                          $6,599,000,000.00                                            6,599,000      $1,000.00                                                    $43.32                   $195,220,416.67
             Minneapolis, MN11
7/15/2009                                                                                                                                                                                              $139,000,000.00
             U.S. Century
8/7/2009                                $50,236,000.00        $745,311.72                                                 $50,236,000.00                                                                                                               $745,311.72
             Bank, Miami, FL8
1/30/2009    UBT Bancshares,                               $10,634,911.78                                                          $0.00
             Inc., Marysville,           $8,950,000.00                                                                                                                                                                                               $1,234,911.78
8/11/2011    KS8,14,44                                                              $8,950,000.00                                               8,950       $1,000.00                                     $450,000.00

11/14/2008 UCBH Holdings,                                   $7,509,920.07                                                          $0.00
           Inc., San                   $298,737,000.00                                                                                                                                                                                7,847,732      $7,509,920.07
11/6/2009 Francisco, CA22,97                                                                                                                                             ($298,737,000.00)

11/14/2008                                                $232,156,554.58                                                          $0.00
             Umpqua Holdings
2/17/2010    Corp., Portland,          $214,181,000.00                            $214,181,000.00                                             214,181       $1,000.00                                                    $17.92                    $13,475,554.58
             OR12,16
3/31/2010                                                                                                                                                                                                $4,500,000.00
5/1/2009     Union Bank &                $3,194,000.00      $7,031,291.65                                                          $0.00
             Trust Company,
12/18/2009                               $2,997,000.00                                                                                                                                                                                                 $680,291.65
             Oxford,
9/22/2011    NC8,14,18,44,45                                                        $6,191,000.00                                               6,191       $1,000.00                                     $160,000.00
12/29/2009 Union Financial                                  $2,639,873.33                                                          $0.00
           Corporation,
7/25/2012                                $2,179,000.00                                $600,000.00                                                 600       $1,000.00                                                                                  $395,873.33
           Albuquerque,
              8,11,17
10/2/2013 NM                                                                        $1,579,000.00                                               1,579       $1,000.00                                      $65,000.00
12/19/2008 Union First Market                              $62,145,972.22                                                          $0.00
           Bankshares
11/18/2009 Corporation,                 $59,000,000.00                             $59,000,000.00                                              59,000       $1,000.00                                                    $25.65                      $5,239,859.35
           Bowling Green,
12/23/2009 VA12,16,25                                                                                                                                                                                     $450,000.00

             United American
2/20/2009    Bank, San Mateo,            $8,700,000.00               $0.00                                                 $8,700,000.00                                                                                                                      $0.00
             CA8
1/16/2009                                                  $20,315,924.72                                                          $0.00
             United Bancorp,
6/19/2012    Inc., Tecumseh,            $20,600,000.00                             $17,005,300.00      ($255,079.50)                           20,600         $825.50      ($3,594,700.00)                                $8.14                      $3,527,704.22
             MI
7/18/2012                                                                                                                                                                                                  $38,000.00
12/23/2008 United                                          $11,172,638.89                                                          $0.00
           Bancorporation
                                        $10,300,000.00                                                                                                                                                                                  108,264        $872,638.89
9/3/2010   of Alabama, Inc.,                                                       $10,300,000.00                                              10,300       $1,000.00
           Atmore, AL11,36
5/22/2009    United Bank                                   $18,882,079.62                                                          $0.00
             Corporation,
                                        $14,400,000.00                                                                                                                                                                                               $3,762,079.62
7/3/2012     Barnesville,                                                          $14,400,000.00                                           14,400,000          $1.00                                     $720,000.00
             GA11,14,15
12/5/2008                                                 $210,367,527.00                                                          $0.00
3/26/2013                                                                           $1,516,900.00                                               1,576         $962.50         ($59,100.00)
3/27/2013    United Community                                                      $12,587,575.00                                              13,078         $962.50        ($490,425.00)
             Banks, Inc.,              $180,000,000.00                                                                                                                                                                   $16.37                    $38,843,350.00
3/28/2013    Blairsville, GA                                                      $159,145,525.00                                             165,346         $962.50      ($6,200,475.00)
                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




4/9/2013                                                                                              ($1,732,500.00)
6/10/2013                                                                                                                                                                                                    $6,677.00
1/16/2009  United Financial                                 $6,649,963.92                                                          $0.00
           Banking
12/15/2010                               $5,658,000.00                              $3,000,000.00                                               3,000       $1,000.00                                                    $18.46                        $708,963.92
           Companies, Inc.,
                      8,11,44
9/15/2011 Vienna, VA                                                                $2,658,000.00                                               2,658       $1,000.00                                     $283,000.00
                                                                                                                                                                                                                                                                      417




                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                        (CONTINUED)                                                                                                                                                                   418
                                                                                                                                        Number     Average Price                                               Stock Price       Current
Transaction                                                                Capital Repayment/                     Remaining Capital    of Shares       of Shares   (Realized Loss)/                               as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 6/30/2014       Warrants Paid to Treasury
12/5/2008                                               $28,013,814.50                                                       $0.00
5/15/2013    Unity Bancorp,                                                     $10,324,000.00                                           10,324       $1,000.00
                                      $20,649,000.00                                                                                                                                                              $9.28                      $4,657,500.50
7/3/2013     Inc., Clinton, NJ11                                                $10,325,000.00                                           10,325       $1,000.00
8/28/2013                                                                                                                                                                                        $2,707,314.00
5/22/2009                                               $12,066,668.65                                                       $0.00
8/8/2013     Universal                                                             $237,527.50                                              250         $950.10        ($12,472.50)
             Bancorp,                  $9,900,000.00                                                                                                                                                                                         $2,278,066.92
8/12/2013    Bloomfield, IN8                                                     $9,168,561.50                                            9,650         $950.10       ($481,438.50)               $476,573.62
9/12/2013                                                                                          ($94,060.89)
6/19/2009    University                                 $12,948,886.40                                                       $0.00
             Financial Corp,
                                      $11,926,000.00                                                                                                                                                                                         $1,022,886.40
7/30/2010    Inc., St. Paul,                                                    $11,926,000.00                                        11,926,000          $1.00
             MN9,11,15
             US Metro Bank,
2/6/2009     Garden Grove,             $2,861,000.00       $432,678.00                                               $2,861,000.00                                                                                $1.40                        $432,678.00
             CA8
12/23/2008                                              $12,916,040.83                                                       $0.00
             Uwharrie Capital
4/3/2013     Corp, Albemarle,         $10,000,000.00                             $7,742,000.00                                             7,742      $1,000.00                                                   $2.95                      $2,416,040.83
             NC8,11
                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




10/16/2013                                                                       $2,258,000.00                                             2,258      $1,000.00                                   $500,000.00
1/30/2009    Valley Commerce                             $9,403,400.50                                                       $0.00
             Bancorp, Visalia,         $7,700,000.00                                                                                                                                                             $14.90                      $1,318,400.50
3/21/2012    CA8,11,14                                                           $7,700,000.00                                            7,700       $1,000.00                                   $385,000.00

1/9/2009                                                 $2,947,090.75                                                       $0.00
           Valley Community
10/21/2013 Bank, Pleasanton,           $5,500,000.00                             $2,296,800.00                                            5,500         $417.60     ($3,203,200.00)                $45,815.25     $3.05                        $629,475.50
           CA8
1/6/2014                                                                                           ($25,000.00)
12/12/2008                                              $21,311,670.48                                                       $0.00
11/14/2012                                                                       $1,600,000.00                                            1,600       $1,000.00
2/20/2013                                                                        $1,600,000.00                                             1,600      $1,000.00
             Valley Financial
5/15/2013    Corporation,             $16,019,000.00                             $1,600,000.00                                             1,600      $1,000.00                                                                              $3,744,778.90
             Roanoke, VA11
8/14/2013                                                                        $1,600,000.00                                             1,600      $1,000.00
10/16/2013                                                                       $9,619,000.00                                             9,619      $1,000.00
11/13/2013                                                                                                                                                                                       $1,547,891.58
12/18/2009 Valley Financial                              $1,489,774.73                                                       $0.00
           Group, Ltd.,
                                       $1,300,000.00                                                                                                                                                                            488,847        $124,774.73
9/22/2011 1st State Bank,                                                        $1,300,000.00                                            1,300       $1,000.00                                    $65,000.00
           Saginaw, MI8,14,44
11/14/2008                                             $318,400,781.94                                                       $0.00
6/3/2009                                                                        $75,000,000.00                                           75,000       $1,000.00
             Valley National
9/23/2009    Bancorp, Wayne,         $300,000,000.00                           $125,000,000.00                                          125,000       $1,000.00                                                   $9.91                    $18,551,519.17
             NJ11
12/23/2009                                                                     $100,000,000.00                                          100,000       $1,000.00
5/24/2010                                                                                                                                                                                        $5,421,615.27
6/26/2009    Veritex Holdings,                           $3,503,795.81                                                       $0.00
             Inc. (Fidelity
             Resources                 $3,000,000.00                                                                                                                                                                                           $353,795.81
8/25/2011    Company), Dallas,                                                   $3,000,000.00                                            3,000       $1,000.00                                   $150,000.00
             TX8,41,44
5/1/2009     Village Bank and                            $6,933,870.05                                                       $0.00
             Trust Financial
11/19/2013                            $14,738,000.00                             $5,672,361.44                                           14,738         $384.90     ($9,065,638.56)                               $1.38         499,029      $1,318,232.22
             Corp, Midlothian,
1/6/2014     VA                                                                                    ($56,723.61)
12/12/2008 Virginia                                    $118,453,138.89                                                       $0.00
           Commerce
12/11/2012                            $71,000,000.00                            $71,000,000.00                                           71,000       $1,000.00                                                  $32.33                    $14,190,138.89
           Bancorp,
                       11
1/31/2014 Arlington, VA                                                                                                                                                                         $33,263,000.00
6/12/2009                                                $3,694,442.50                                                       $0.00
8/8/2013     Virginia Company                                                      $325,353.86                                              533         $610.40       ($207,646.14)
             Bank, Newport             $4,700,000.00                                                                                                                                                                                           $786,987.25
8/12/2013    News, VA8,17                                                        $2,543,620.14                                            4,167         $610.40     ($1,623,379.86)                $63,481.25
9/12/2013                                                                                          ($25,000.00)
                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                           (CONTINUED)
                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                   Capital Repayment/                     Remaining Capital   of Shares       of Shares   (Realized Loss)/                                as of      Outstanding Dividend/Interest
Date        Institution            Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 6/30/2014       Warrants Paid to Treasury
4/24/2009     Vision Bank                                    $1,898,258.59                                                      $0.00
              - Texas,
12/28/2012                              $1,500,000.00                                 $787,500.00                                             788       $1,000.00                                                                                 $323,258.59
              Richardson,
7/10/2013     TX8,11,14                                                               $712,500.00                                             713       $1,000.00                                     $75,000.00
12/19/2008 VIST Financial                                  $30,710,646.33                                                       $0.00
           Corp.,                     $25,000,000.00                                                                                                                                                                $48.18                      $4,520,833.33
8/1/2012   Wyomissing, PA                                                          $25,000,000.00                                          25,000       $1,000.00                                   $1,189,813.00

1/30/2009     W.T.B. Financial                            $131,236,874.33                                                       $0.00
              Corporation,           $110,000,000.00                                                                                                                                                                                           $15,736,874.33
9/15/2011     Spokane, WA8,14,45                                                  $110,000,000.00                                         110,000       $1,000.00                                   $5,500,000.00

12/11/2009                                                 $14,731,826.23                                                       $0.00
              Wachusett
4/4/2012      Financial                                                             $3,000,000.00                                           3,000       $1,000.00
                                      $12,000,000.00                                                                                                                                                                                            $2,253,826.23
1/30/2013     Services, Inc.,                                                       $4,000,000.00                                           4,000       $1,000.00
              Clinton, MA8,11,17
4/23/2014                                                                           $5,000,000.00                                           5,000       $1,000.00                                    $478,000.00
12/19/2008                                                 $23,592,311.11                                                       $0.00
           Wainwright Bank
11/24/2009 & Trust Company,           $22,000,000.00                               $22,000,000.00                                          22,000       $1,000.00                                                                               $1,023,611.11
           Boston, MA11
12/16/2009                                                                                                                                                                                           $568,700.00
1/16/2009     Washington                                   $30,628,344.45                                                       $0.00
              Banking
1/12/2011                             $26,380,000.00                               $26,380,000.00                                          26,380       $1,000.00                                                   $17.20                      $2,623,344.45
              Company, Oak
3/2/2011      Harbor, WA11,16                                                                                                                                                                       $1,625,000.00
11/14/2008                                                $220,749,985.18                                                       $0.00
              Washington
5/27/2009     Federal, Inc.,         $200,000,000.00                              $200,000,000.00                                         200,000       $1,000.00                                                   $22.32                      $5,361,111.11
              Seattle, WA11
3/15/2010                                                                                                                                                                                          $15,388,874.07
1/30/2009                               $6,633,000.00      $15,317,317.86                                                       $0.00
           WashingtonFirst
10/30/2009 Bankshares, Inc.,            $6,842,000.00                                                                                                                                                                                           $1,510,317.86
           Reston, VA8,18,21,44
8/4/2011                                                                           $13,475,000.00                                          13,475       $1,000.00                                    $332,000.00
6/26/2009                                                    $6,398,893.44                                                      $0.00
2/6/2013                                                                            $4,831,002.80                                           5,212         $926.90       ($380,997.20)                 $18,644.66
              Waukesha
2/7/2013      Bankshares, Inc.,         $5,625,000.00                                  $92,690.00                                             100         $926.90         ($7,310.00)                $147,194.69                                $1,071,379.72
              Waukesha, WI8,17
2/8/2013                                                                              $290,119.70                                             313         $926.90        ($22,880.30)
3/26/2013                                                                                             ($52,138.13)
11/21/2008                                                $457,333,286.51                                                       $0.00
3/3/2010                                                                          $100,000,000.00                                         100,000       $1,000.00
           Webster Financial
10/13/2010 Corporation,              $400,000,000.00                              $100,000,000.00                                         100,000       $1,000.00                                                   $31.54                     $36,944,444.45
           Waterbury, CT11
12/29/2010                                                                        $200,000,000.00                                         200,000       $1,000.00
6/8/2011                                                                                                                                                                                           $20,388,842.06
10/28/2008                                              $27,281,347,113.95                                                      $0.00
           Wells Fargo &
12/23/2009 Co. Minneapolis,        $25,000,000,000.00                          $25,000,000,000.00                                          25,000    $1,000,000.00                                                  $52.56                   $1,440,972,222.22
           MN11
5/26/2010                                                                                                                                                                                         $840,374,891.73
12/5/2008                                                  $78,804,166.67                                                       $0.00
              WesBanco, Inc.,
9/9/2009                              $75,000,000.00                               $75,000,000.00                                          75,000       $1,000.00                                                   $31.04         100,448      $4,242,500.00
              Wheeling, WV11
12/23/2009                                                                                                                                                                                           $950,000.00
12/31/2008 West                                            $41,195,000.00                                                       $0.00
           Bancorporation,
6/29/2011                             $36,000,000.00                               $36,000,000.00                                          36,000       $1,000.00                                                   $15.23                      $4,495,000.00
           Inc., West Des
                      11
8/31/2011 Moines, IA                                                                                                                                                                                 $700,000.00
2/13/2009                                                  $87,360,236.61                                                       $0.00
9/2/2009   Westamerica                                                             $41,863,000.00                                          41,863       $1,000.00
           Bancorporation,            $83,726,000.00                                                                                                                                                                $52.28         246,698      $2,755,980.61
11/18/2009 San Rafael, CA11                                                        $41,863,000.00                                          41,863       $1,000.00
                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




11/21/2011                                                                                                                                                                                           $878,256.00
                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                 419
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                                 (CONTINUED)                                                                                                                                                                               420
                                                                                                                                                 Number     Average Price                                                            Stock Price       Current
Transaction                                                                         Capital Repayment/                      Remaining Capital   of Shares       of Shares       (Realized Loss)/                                        as of      Outstanding Dividend/Interest
Date        Institution                Investment Amount        Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed               (Write-off)         Gain4       Warrant Sales 6/30/2014       Warrants Paid to Treasury
11/21/2008                                                      $160,365,000.00                                                        $0.00
               Western Alliance
9/27/2011      Bancorporation,            $140,000,000.00                               $140,000,000.00                                          140,000       $1,000.00                                                               $23.80                    $19,950,000.00
               Las Vegas, NV44
11/23/2011                                                                                                                                                                                                              $415,000.00
               Western
               Community
12/23/2008                                  $7,290,000.00           $554,083.00                                                $7,290,000.00                                                                                                                        $554,083.00
               Bancshares, Inc.,
               Palm Desert, CA8
12/23/2008                                  $6,855,000.00         $13,053,910.87                                                       $0.00
12/29/2009 Western Illinois                 $4,567,000.00
           Bancshares
11/8/2012                                                                                 $1,050,524.72                                            1,117         $940.38            ($66,475.28)                                                                  $2,102,189.13
           Inc., Monmouth,
             8,14,18
11/9/2012 IL                                                                              $9,673,015.37                                           10,305         $939.53           ($631,984.63)                        $335,417.06
1/11/2013                                                                                                   ($107,235.41)
5/15/2009  Western Reserve                                         $5,842,197.92                                                       $0.00
           Bancorp, Inc,                    $4,700,000.00                                                                                                                                                                               $7.46                       $907,197.92
11/30/2012 Medina, OH8,11,78                                                              $4,700,000.00                                            4,700       $1,000.00                                                $235,000.00

               White River
               Bancshares
2/20/2009                                  $16,800,000.00          $1,589,583.00                                              $16,800,000.00                                                                                                                      $1,589,583.00
               Company,
               Fayetteville, AR8
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




12/19/2008 Whitney Holding                                      $343,733,333.33                                                        $0.00
           Corporation, New               $300,000,000.00                                                                                                                                                                                                        $36,833,333.33
6/3/2011   Orleans, LA                                                                  $300,000,000.00                                          300,000       $1,000.00                                              $6,900,000.00

12/12/2008 Wilmington Trust                                     $369,920,833.33                                                        $0.00
           Corporation,                   $330,000,000.00                                                                                                                                                                                              95,383
5/13/2011 Wilmington, DE11                                                              $330,000,000.00                                          330,000       $1,000.00

12/12/2008                                                        $68,809,170.52                                                       $0.00
               Wilshire Bancorp,
4/3/2012       Inc., Los Angeles,          $62,158,000.00                                $58,646,694.58     ($879,700.42)                         62,158         $943.50         ($3,511,305.42)                                       $10.27                    $10,282,176.36
               CA
6/20/2012                                                                                                                                                                                                               $760,000.00
12/19/2008                                                      $300,704,730.81                                                        $0.00
           Wintrust Financial
12/22/2010 Corporation, Lake              $250,000,000.00                               $250,000,000.00                                          250,000       $1,000.00                                                               $46.00                    $25,104,166.66
           Forest, IL11
2/14/2011                                                                                                                                                                                                            $25,600,564.15
5/15/2009      Worthington                                         $2,780,391.21                                                       $0.00
               Financial
6/24/2013                                   $2,720,000.00                                 $2,343,851.20                                            2,720         $861.70           ($376,148.80)                         $90,940.00                                 $370,600.00
               Holdings, Inc.,
7/26/2013      Huntsville, AL8,14                                                                            ($24,999.99)
1/23/2009                                                         $57,640,856.64                                                       $0.00
               WSFS Financial
4/3/2012                                   $52,625,000.00                                $48,157,663.75     ($722,364.96)                         52,625         $915.10         ($4,467,336.25)                                       $73.67                     $8,405,557.85
               Corporation
9/12/2012                                                                                                                                                                                                             $1,800,000.00
                                                                                                                                                                                                                                                   128,663.33
1/16/2009                                  $36,000,000.00         $52,383,419.85                                                       $0.00

7/24/2009      Yadkin Valley               $13,312,000.00                                                                                                                                                                                              91,178
               Financial
                                                                                                                                                                                                                                       $18.84                     $8,820,922.69
9/18/2012      Corporation,                                                              $44,149,056.00     ($662,235.84)                         49,312         $893.00         ($5,162,944.00)
               Elkin, NC
6/10/2013                                                                                                                                                                                                                $55,677.00
6/11/2013                                                                                                                                                                                                                $20,000.00
4/24/2009      York Traditions                                     $5,705,022.14                                                       $0.00
               Bank , York,                 $4,871,000.00                                                                                                                                                                                                           $590,022.14
7/14/2011      PA8,14,45                                                                  $4,871,000.00                                            4,871       $1,000.00                                                $244,000.00

11/14/2008                                                     $1,661,027,529.62                                                       $0.00
               Zions
3/28/2012      Bancorporation,                                                          $700,000,000.00                                          700,000       $1,000.00
                                        $1,400,000,000.00                                                                                                                                                                              $29.47                   $253,361,111.11
9/26/2012      Salt Lake City,                                                          $700,000,000.00                                          700,000       $1,000.00
               UT11
12/5/2012                                                                                                                                                                                                             $7,666,418.51
      Totals                        $204,894,726,320.00     $225,256,841,880.61 $198,324,098,313.86 ($36,237,564.74) $1,686,697,601.88                                      ($4,883,930,404.26) $6,897,842,268.84 $7,962,104,900.51
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                                              (CONTINUED)
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numeric notes were taken verbatim from Treasury’s 6/30/2013 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 6/30/2014.

Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014.
*Investment Status Definition Key
Full investment outstanding: Treasury’s full investment is still outstanding
Redeemed – institution has repaid Treasury’s investment
Sold – by auction, an offering, or through a restructuring
Exited bankruptcy/receivership - Treasury has no outstanding investment
Currently not collectible - investment is currently not collectible; therefore there is no outstanding investment and a corresponding (Realized Loss)/(Write-off)
In full – all of Treasury’s investment amount
In part – part of the investment is no longer held by Treasury, but some remains
Warrants outstanding – Treasury’s warrant to purchase additional stock is still outstanding, including any exercised warrants
Warrants not outstanding – Treasury has disposed of its warrant to purchase additional stock through various means as described in the Warrant Report (such as sale back to company and auctions) or Treasury did not receive a warrant to purchase additional stock

1
 	       All pricing is at par.
2
 	       Total Cash Back includes net capital repayments, interest and dividends, warrant proceeds, and other income (less expenses).
3
 	       Capital Repayments includes gross capital repayments, gross auction proceeds, exchanges into CDCI, and SBLF fundings.
4
 	       Includes: (i) placement fees in private auctions of a CPP issuer’s securities where Treasury pays placement fees to the placement agents in an amount equal to a minimum of $50,000 (per issuer) or 1.00% of gross aggregate proceeds for each security and (ii) unreimbursed underwriting fees in public offerings. Placement
         fees in private auctions are paid approximately one month after settlement.
5
 	       Net proceeds from sales and auctions can be calculated by adding the “Amount” and “(Fee)” columns under the “Capital Repayment/Disposition/Auction” plus any amount in the “Gain” column. Note that “(Fee)” is a negative number.
6
 	       This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this
         transaction under the CPP was funded on 1/9/2009.
7
 	       The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and $122,365,216.
         Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
8
 	       Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
9
 	       To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
10
  	      Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
11
  	      Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
12
  	      Redemption pursuant to a qualified equity offering.
13
  	      This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
14
  	      The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
15
  	      Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
16
  	      In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
17
  	      This institution participated in the expansion of CPP for small banks.
18
  	      This institution received an additional investment through the expansion of CPP for small banks.
19
  	      Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate
         Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series
         M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
20
  	      On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
21
  	      This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
22
  	      As of the date of this report, this institution is in bankruptcy proceedings.
23
  	      On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to
         holders of CVRs were not met.
24
     	   On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
25
     	   On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate
         equivalent to those of Treasury’s original investment.
26
     	   On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
27
     	   On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
         Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
28
     	   On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
29
     	   On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid
         dividends. On 7/26/2013, Treasury entered into a securities purchase agreement with Independent pursuant to which Treasury agreed to sell to Independent the MCP and the warrant issued by Independent, subject to the conditions specified in such agreement. On 8/30/2013, Treasury completed the sale of the MCP and
         warrant to Independent pursuant to the terms of such agreement.
30
     	   Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On
         April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion
         of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on
         completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period
         ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain parameters up to
         1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury commenced an underwritten public
         offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during those periods.
31
     	   On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since
         Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
32
     	   On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
33
     	   On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
34
     	   On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid dividends.
         On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on the MCP at the time of the
         conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
35
     	   On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount
         of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of Pacific Capital.
         Following a reverse stock split effective 12/28/2010, Treasury held 3,608,332 shares of Pacific Capital common stock. Effective 11/30/2012, Pacific Capital merged with and into UnionBanCal Corporation and each outstanding share of common stock of the Company was converted into the right to receive $46.00 per
         share in cash, and Treasury received $165,983,272 in respect of its common stock and $393,121 in respect of its warrant.
36
     	   This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
37
     	   At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
38
     	   On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010. Since
         Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
39
     	   Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the closing of the sale
         also occurred on 1/28/2011.
40
     	   On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
41
                                                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




     	   As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement
         among Treasury, the acquired company and the acquiror entered into on 3/23/2011.

                                                                                                                                                                                                                                                                                                                             Continued
                                                                                                                                                                                                                                                                                                                                            421
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                                          (CONTINUED)                                                                                                                                                                                                                               422
42
  	 As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of preferred stock
    in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 3/30/2011. Exercised
    warrants were also exchanged at the time of the agreement.
43
  	 On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-held M&I
    Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.
44
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
45
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
46
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
47
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
48
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
49
  	 On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
50
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
51
  	 On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
53
  	 On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United entered into on
    8/12/2011.
54
  	 As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously unpaid
    dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
55
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
56
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
57
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	 As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement among
    Treasury, CFC and CFB entered into on 11/15/2011.
59
  	 As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among Treasury, Center
    Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
60
  	 On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury for a like
    F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
61
  	 As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the
                                                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




    acquiror entered into on 1/1/2012.
62
  	 On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the exercise of
    warrants) that had been issued to Treasury by Regents.
63
  	 On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
64
  	 On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
65
  	 On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a capital plan.
66
  	 On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
67
  	 As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the acquiror,
    pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
68
  	 On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
69
  	 On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
70
  	 On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
71
  	 On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	 On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus accrued and
    unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012.
73
  	 On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware.
74
  	 On 2/22/2013, Treasury completed the exchange of its Standard Bancshares, Inc. preferred stock for common stock, pursuant to an exchange agreement, dated as of 11/5/2012, with Standard Bancshares, Inc., and immediately sold the resulting Standard Bancshares, Inc. common stock, pursuant to securities
    purchase agreements, each dated as of 11/5/2012, with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC.
75
  	 On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
76
  	 On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.
77
  	 In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 1/1/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the Fidelity warrant
    held by Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.
78
  	 On 11/30/12, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid dividends
    thereon.
79
  	 On 2/20/2013, Treasury sold its CPP preferred stock and warrant issued by First Sound Bank (“First Sound”) back to First Sound for an aggregate purchase price of $3,700,000, pursuant to the terms of the agreement between Treasury and First Sound entered into on 11/30/2012.
80
  	 On 4/9/2013, Treasury sold its CPP preferred stock and warrant issued by PremierWest Bancorp (“PremierWest”) pursuant to an agreement with PremierWest and Starbuck Bancshares, Inc. (“Starbuck”) entered into on 12/11/2012.
81
  	 In connection with the merger of Community Financial Corporation (“Community Financial”) and City Holding Company (“City Holding”) effective 1/9/13, Treasury (i) sold to City Holding all of the preferred stock that had been issued by Community Financial to Treasury for a purchase price of $12,643,000 plus accrued
    dividends and (ii) exchanged the Community Financial warrant held by Treasury for a like City Holding warrant, pursuant to the terms of an agreement among Treasury and City Holding entered into on 1/9/2013.
82
  	 On 1/29/2013, Treasury executed a placement agency agreement pursuant to which Treasury agreed to sell 9,950 shares of Coastal Banking Company, Inc. Preferred stock at $815.00 per share (less a placement agent fee) for net proceeds of $8,028,157.50. On 2/6/2013, the placement agent notified Coastal
    Banking Company, Inc. that, pursuant to the placement agency agreement, it was terminating the transaction and, therefore, Treasury did not receive any proceeds or pay any fees in connection with the transaction.
83
  	 On 2/15/2013, Treasury sold its CPP preferred stock and warrant issued by BancTrust Financial Group, Inc. (“BancTrust”) pursuant to an agreement with BancTrust and Trustmark Corporation (“Trustmark”) entered into on 2/11/2013.
84
  	 On 8/14/2013, Treasury sold its CPP preferred stock issued by Florida Bank Group, Inc. (“FBG”) back to FBG for an aggregate purchase price of $8,000,000, pursuant to the terms of the agreement between Treasury and FBG entered into on 2/12/2013.
85
  	 On 2/15/2013, pursuant to the terms of the merger of Pacific International Bancorp, Inc. (“Pacific International”) with BBCN Bancorp, Inc. (“BBCN”), Treasury received $7,474,619.97 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock that had been issued to
    Treasury by Pacific International. Treasury exchanged its Pacific International warrant for an equivalent warrant issued by BBCN.
86
  	 On 4/12/2013, Treasury completed (i) the sale of its CPP preferred in Citizens Republic Bancorp, Inc. (Citizens Republic) to FirstMerit Corporation (FirstMerit) and (ii) the exchange of its warrant in Citizens Republic for a warrant issued by FirstMerit, pursuant to a securities purchase agreement, dated as of 2/19/2013,
    among Treasury, FirstMerit and Citizens Republic.
87
  	 On 4/11/2013, Treasury completed the exchange of its First Security Group, Inc. (FSGI) preferred stock for common stock, pursuant to an exchange agreement, dated as of 2/25/2013, between Treasury and FSGI, and sold the resulting FSGI common stock, pursuant to securities purchase agreements, each dated as of
    4/9/2013, between Treasury and the purchasers party thereto.
88
  	 On 3/19/2013, Treasury exercised its warrant on a cashless basis and received (i) 186,589 shares of common stock and (ii) $71.62 in cash in lieu of fractional shares. Treasury sold such shares of common stock on 3/19/2013.
89
  	 As a result of the acquisition of ECB Bancorp, Inc. by Crescent Financial Bancshares, Inc., the preferred stock and warrant issued by ECB Bancorp, Inc. were exchanged for a like amount of securities of Crescent Financial Bancshares, Inc., pursuant to the terms of an agreement among Treasury, ECB Bancorp, Inc., and
    Crescent Financial Bancshares, Inc. entered into on 4/1/2013.
90
  	 As a result of the merger of Annapolis Bancorp, Inc. into F.N.B. Corporation, the warrant issued by Annapolis Bancorp, Inc. was exchanged for a like warrant issued by F.N.B. Corporation, pursuant to the terms of an agreement among Treasury, Annapolis Bancorp, Inc., and F.N.B. Corporation entered into on 4/6/2013.
91
  	 On 4/5/2013, Gold Canyon Bank, Gold Canyon, Arizona was closed by the Arizona Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
92
  	 On 4/9/2013, Indiana Bank Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Southern District of Indiana.
93
  	 On 7/17/13, Treasury entered into a securities purchase agreement with Central Virginia Bankshares, Inc. (CVB) and C&F Financial Corporation (C&F) pursuant to which Treasury agreed to sell to C&F the CPP preferred stock and warrant issued by CVB, subject to the conditions specified in such agreement. The sale was
    completed on 10/1/2013.
94
  	 On 8/12/2013, Anchor BanCorp Wisconsin Inc. ( “Anchor”) filed a voluntary petition for Chapter 11 protection in the U.S. Bankruptcy Court for the Western District of Wisconsin to implement a “pre-packaged” Plan of Reorganization in order to facilitate the restructuring of Anchor. On 9/27/2013, the Plan of Reorganization
    became effective in accordance with its terms, pursuant to which (i) Treasury’s preferred stock was exchanged for 60,000,000 shares of common stock (the “Common Stock”) and (ii) Treasury’s warrant was cancelled. On 9/27/2013, Treasury sold the Common Stock to purchasers pursuant to securities purchase
    agreements entered into on 9/19/2013.
95
  	 On 7/5/2013, Rogers Bancshares, Inc. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Eastern District of Arkansas.
96
  	 On 8/22/2013, Treasury exchanged its preferred stock in Broadway Financial Corporation for 10,146 shares of common stock equivalent representing (i) 50% of the liquidation preference of the preferred stock, plus (ii) 100% of previously accrued and unpaid dividends on the preferred stock ($2,646,000). The common
    stock equivalent will be converted to common stock upon the receipt of certain shareholder approvals.
97
  	 This institution has entered into bankruptcy or receivership. For a full list of institutions that have entered bankruptcy or receivership and Treasury’s remaining investments, reference appendices B and C in the section titled “Capital Purchase Program Institutions” in the most recent report to congress found on Treasury’s
    website: www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.aspx.

                                                                                                                                                                                                                                                                                                                             Continued
CPP TRANSACTIONS DETAIL, AS OF 6/30/2014                                                         (CONTINUED)
98
  	 On 10/30/2013, Treasury entered into an agreement with Monarch Community Bancorp, Inc. (Monarch) to exchange Treasury’s CPP warrant and $6,785,000 of preferred stock for common stock. The exchange was subject to the fulfillment by Monarch of certain conditions, including the satisfactory completion of a
     capital plan. On 11/15/2013, the exchange of the CPP warrant and preferred stock for common stock was completed and Treasury sold such common stock to purchasers pursuant to securities purchase agreements dated as of 11/15/2013.
99
  	 On 12/5/2013, Treasury’s 10,146 shares of common stock equivalent in Broadway Financial converted to 10,146,000 shares of common stock.
100
   	 On 12/13/2013, Texas Community Bank, National Association, The Woodlands, Texas, the banking subsidiary of TCB Holding Company, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
101
   	 As a result of a reincorporation merger of Community Bankers Trust Corporation, a Delaware corporation (CBTC Delaware) into Community Bankers Trust Corporation, a Virginia corporation (CBTC Virginia), the outstanding preferred stock and warrant issued by CBTC Delaware were exchanged for a like amount of
     securities issued by CBTC Virginia, pursuant to the terms of an agreement among Treasury, CBTC Delaware and CBTC Virginia entered into on 1/1/2014.
102
   	 On 10/15/13, Treasury entered into a securities purchase agreement with First-Citizens Bank & Trust Company (FCBTC) and 1st Financial Services Corporation (FFSC) pursuant to which Treasury agreed to sell to FCBTC the CPP preferred stock and warrant issued by FFSC, subject to the conditions specified in such
     agreement. The sale was completed on 12/31/2013.
103
   	 On 1/31/2014, Syringa Bank, Boise, Idaho, the banking subsidiary of Syringa Bancorp, was closed by the Idaho Department of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
104
   	 On 4/1/2014, pursuant to the terms of the merger of Alaska Pacific Bancshares, Inc. with Northrim Bancorp, Inc., Treasury received $2,370,908.26 for the warrants that had been issued to Treasury by Alaska Pacific Bancshares, Inc.
105
   	 On 4/18/2014, Treasury entered into an agreement with Bank of the Carolinas Corporation (“BCAR”) pursuant to which Treasury agreed to sell its CPP preferred stock and warrant back to BCAR at a discount subject to the satisfaction of the conditions specified in the agreement.
106
   	 On 4/24/2014, Treasury sold all of its preferred stock issued by Bankers’ Bank of the West Bancorp, Inc. (BBW) to private investors for total proceeds of $13.5million, pursuant to securities purchase agreements dated as of April 21, 2014. BBW paid all accrued and unpaid dividends on the preferred stock as of April 24,
     2014.
107
   	 On 4/25/2014, Treasury entered into a securities purchase agreement with Provident Community Bankshares, Inc. (PCBS) and Park Sterling Corporation (Park Sterling) pursuant to which Treasury agreed to sell to Park Sterling the CPP preferred stock and warrant issued by PCBS, subject to the conditions specified in
     such agreement. The sale was completed on 4/30/2014.
108
   	 On 4/24/2014, Idaho Bancorp filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Idaho.
109
   	 On 4/30/2014, Treasury completed the exchange of its Northern States Financial Corporation preferred stock for common stock, pursuant to an exchange agreement, dated as of 4/29/2014, with Northern States Financial Corporation, and immediately sold the resulting Northern States Financial Corporation common
     stock, pursuant to securities purchase agreements, each dated as of 4/29/2014, with Blue Pine Financial Opportunities Fund II, LP, EJF Sidecar Fund, Series LLC, Endeavour Regional Bank Opportunities Fund L.P., Endeavour Regional Bank Opportunities Fund II L.P., Hot Creek Investors, L.P.,JCSD Partners, LP, and PRB
     Investors, LP.
110
   	 On 5/23/2014 Treasury completed the sale of its CommunityOne Bancorp common stock in an underwritten public offering.
111
   	 On 5/30/2014, Treasury entered into a securities purchase agreement with Highlands Independent Bancshares, Inc. (“Highlands”) and HCBF Holding Company, Inc. (“HCBF”) pursuant to which Treasury agreed to sell to HCBF the CPP preferred stock issued by Highlands, subject to the conditions specified in such
     agreement.
112
   	 On 6/30/2014, BCB Holding Company, Inc. (the “Institution”) repurchased their preferred and warrant preferred shares from Treasury and funds were wired from the Institution to the Bank of New York Mellon (BNYM) for the benefit of Treasury. The repurchase was finalized after the close of business on 6/30/2014 and
     the funds were subsequently transferred from BNYM to Treasury on 7/1/2014.
	
Sources: Treasury, Transactions Report, 6/30/2014; Dividends and Interest Report, 7/10/2014; Treasury, response SIGTARP data call, 7/11/2014; Bloomberg, LP, accessed 7/1/2014.	




TABLE D.2
CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 6/30/2014
     Note   Date                                   Pricing Mechanism6                       Number of Shares                                 Proceeds7
      1     4/26/2010 - 5/26/2010                                   $4.12                        1,500,000,000                          $6,182,493,158
      2     5/26/2010 - 6/30/2010                                   $3.90                        1,108,971,857                          $4,322,726,825
      3     7/23/2010 - 9/30/2010                                   $3.91                        1,500,000,000                          $5,863,489,587
      4     10/19/2010 - 12/6/2010                                  $4.26                        1,165,928,228                          $4,967,921,811
      5     12/6/2010                                               $4.35                        2,417,407,607                         $10,515,723,090
                                                                                               Total Proceeds:                       $31,852,354,471
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes taken verbatim from 6/30/2014 Transactions Report.

1
 	 On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
   the sale). Completion of the sale under this authority occurred on 5/26/2010.
2
 	 On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
   the sale). Completion of the sale under this authority occurred on 6/30/2010.
3
 	 On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of
   the sale). Completion of the sale under this authority occured on 9/30/2010.
4
 	 On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of
   the sale), which plan was terminated on 12/6/2010.
5
 	 On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
   fulfillment of certain closing conditions.
6
 	 The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
   period.
7
 	 Amount represents the gross proceeds to Treasury.

Source: Treasury, Transactions Report, 6/30/2014.
                                                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                                                                       423
TABLE D.3                                                                                                                                                                                                                                                                                 424
CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2014
                                                      Seller                                                                                          Purchase Details                                                                Disposition Details
        Purchase                                                                                                                            Amount                                                   Pricing                                        Remaining    Dividend/Interest Paid
Note    Date        Name of Institution                                                    City       State   Investment Description      from CPP    Additional Investment   Investment Amount   Mechanism          Date        Amount     Investment Amount               to Treasury
        9/24/2010   Alternatives Federal Credit Union, Ithaca, NY                         Ithaca       NY     Subordinated Debentures           $0                       $0          $2,234,000          Par                                                                 $162,710
        9/17/2010   American Bancorp of Illinois, Inc., Oak Brook, IL                   Oak Brook      IL     Subordinated Debentures           $0                       $0          $5,457,000          Par                                                                 $619,339
  6     9/24/2010   Atlantic City Federal Credit Union, Lander, WY                       Lander        WY     Subordinated Debentures           $0                       $0          $2,500,000          Par    9/26/20126    $2,500,000                    $0               $100,278
        9/24/2010   Bainbridge Bancshares, Inc., Bainbridge, GA                         Bainbridge     GA     Preferred Stock                   $0                       $0          $3,372,000          Par                                                                 $245,594
  8     9/29/2010   Bancorp of Okolona, Inc., Okolona, MS                                Okolona       MS     Subordinated Debentures           $0                       $0          $3,297,000          Par    3/13/20136    $3,297,000                    $0               $250,975
 1, 2   9/29/2010   BancPlus Corporation, Ridgeland, MS                                 Ridgeland      MS     Preferred Stock           $50,400,000           $30,514,000           $80,914,000          Par                                                                $5,870,760
                                                                                        Palisades
        9/29/2010   BankAsiana, Palisades Park, NJ                                                     NJ     Preferred Stock                   $0                       $0          $5,250,000          Par    10/1/20136    $5,250,000                    $0               $315,583
                                                                                          Park
        9/29/2010   Bethex Federal Credit Union, Bronx, NY                                Bronx        NY     Subordinated Debentures           $0                       $0           $502,000           Par                                                                   $36,423
        9/29/2010   Border Federal Credit Union, Del Rio, TX                             Del Rio       TX     Subordinated Debentures           $0                       $0          $3,260,000          Par                                                                 $236,531
  6     9/24/2010   Brewery Credit Union, Milwaukee, WI                                 Milwaukee      WI     Subordinated Debentures           $0                       $0          $1,096,000          Par    10/3/20126    $1,096,000                    $0                 $44,388
        9/30/2010   Brooklyn Cooperative Federal Credit Union, Brooklyn, NY              Brooklyn      NY     Subordinated Debentures           $0                       $0           $300,000           Par                                                                   $21,750
        9/24/2010   Buffalo Cooperative Federal Credit Union, Buffalo, NY                Buffalo       NY     Subordinated Debentures           $0                       $0           $145,000           Par                                                                   $10,561
        9/24/2010   Butte Federal Credit Union, Biggs, CA                                 Biggs        CA     Subordinated Debentures           $0                       $0          $1,000,000          Par                                                                   $72,833
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




  6     9/29/2010   Carter Federal Credit Union, Springhill, LA                         Springhill     LA     Subordinated Debentures           $0                       $0          $6,300,000          Par     2/6/20136    $2,500,000            $3,800,000               $393,350
 1, 3   8/27/2010   Carver Bancorp, Inc, New York, NY                                   New York       NY     Common Stock              $18,980,000                      $0         $18,980,000          Par                                                                 $446,507
        9/17/2010   CFBanc Corporation, Washington, DC                                 Washington      DC     Preferred Stock                   $0                       $0          $5,781,000          Par                                                                 $423,298
  1     8/13/2010                                                                                             Preferred Stock            $7,462,000                      $0                 $0           Par
                    Citizens Bancshares Corporation, Atlanta, GA                         Atlanta       GA                                                                                                                                                                    $881,119
 2a     9/17/2010                                                                                             Preferred Stock                   $0              $4,379,000          $11,841,000          Par
  1     9/29/2010   Community Bancshares of Mississippi, Inc., Brandon, MS               Brandon       MS     Preferred Stock           $54,600,000                      $0         $54,600,000          Par                                                                $3,961,533
 1, 2   9/29/2010   Community Bank of the Bay, Oakland, CA                               Oakland       CA     Preferred Stock            $1,747,000             $2,313,000           $4,060,000          Par                                                                 $274,276
        9/24/2010   Community First Guam Federal Credit Union, Hagatna, GU               Hagatna       GU     Subordinated Debentures           $0                       $0          $2,650,000          Par                                                                 $193,008
        9/29/2010   Community Plus Federal Credit Union, Rantoul, IL                     Rantoul       IL     Subordinated Debentures           $0                       $0           $450,000           Par                                                                   $32,650
        9/24/2010   Cooperative Center Federal Credit Union, Berkeley, CA                Berkeley      CA     Subordinated Debentures           $0                       $0          $2,799,000          Par                                                                 $203,861
        9/29/2010   D.C. Federal Credit Union, Washington, DC                          Washington      DC     Subordinated Debentures           $0                       $0          $1,522,000          Par                                                                 $110,430
        9/29/2010   East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT    Bridgeport     CT     Subordinated Debentures           $0                       $0             $7,000           Par                                                                      $508
        9/29/2010   Episcopal Community Federal Credit Union, Los Angeles, CA          Los Angeles     CA     Subordinated Debentures           $0                       $0           $100,000           Par                                                                    $7,256
        9/24/2010   Fairfax County Federal Credit Union, Fairfax, VA                      Fairfax      VA     Subordinated Debentures           $0                       $0          $8,044,000          Par                                                                 $585,871
        9/29/2010   Faith Based Federal Credit Union, Oceanside, CA                     Oceanside      CA     Subordinated Debentures           $0                       $0            $30,000           Par                                                                    $2,177
        9/29/2010   Fidelis Federal Credit Union, New York, NY                          New York       NY     Subordinated Debentures           $0                       $0            $14,000           Par                                                                    $1,016
  1     8/13/2010   First American International Corp., Brooklyn, NY                     Brooklyn      NY     Preferred Stock           $17,000,000                      $0         $17,000,000          Par                                                                $1,292,976
 1, 7   9/24/2010   First Choice Bank, Cerritos, CA                                      Cerritos      CA     Preferred Stock            $5,146,000                      $0          $5,146,000          Par     5/1/20137    $5,146,000                    $0               $267,878
  1     9/17/2010   First Eagle Bancshares, Inc., Hanover Park, IL                     Hanover Park    IL     Subordinated Debentures    $7,875,000                      $0          $7,875,000          Par                                                                 $893,769
        9/29/2010   First Legacy Community Credit Union, Charlotte, NC                  Charlotte      NC     Subordinated Debentures           $0                       $0          $1,000,000          Par     4/2/20146    $1,000,000                    $0                 $70,167
  1     9/29/2010   First M&F Corporation, Kosciusko, MS                                Kosciusko      MS     Preferred Stock           $30,000,000                      $0         $30,000,000          Par    8/30/20137   $30,000,000                    $0              $1,751,667
  1     9/29/2010   First Vernon Bancshares, Inc., Vernon, AL                            Vernon        AL     Preferred Stock            $6,245,000                      $0          $6,245,000          Par                                                                 $463,339
  6     9/29/2010   Freedom First Federal Credit Union, Roanoke, VA                      Roanoke       VA     Subordinated Debentures           $0                       $0          $9,278,000          Par    6/12/20136    $9,278,000                    $0               $501,527
  6     9/24/2010   Gateway Community Federal Credit Union, Missoula, MT                 Missoula      MT     Subordinated Debentures           $0                       $0          $1,657,000          Par   10/17/20126    $1,657,000                    $0                 $68,397
        9/17/2010   Genesee Co-op Federal Credit Union, Rochester, NY                   Rochester      NY     Subordinated Debentures           $0                       $0           $300,000           Par                                                                   $21,967
  6     9/29/2010   Greater Kinston Credit Union, Kinston, NC                            Kinston       NC     Subordinated Debentures           $0                       $0           $350,000           Par    4/10/20126     $350,000                     $0                 $10,714
  1     7/30/2010   Guaranty Capital Corporation, Belzoni, MS                            Belzoni       MS     Subordinated Debentures   $14,000,000                      $0         $14,000,000          Par                                                                $1,645,583
        9/29/2010   Hill District Federal Credit Union, Pittsburgh, PA                  Pittsburgh     PA     Subordinated Debentures           $0                       $0           $100,000           Par                                                                    $7,256
        9/17/2010   Hope Federal Credit Union, Jackson, MS                               Jackson       MS     Subordinated Debentures           $0                       $0          $4,520,000          Par                                                                 $330,964
 1, 2   9/10/2010   IBC Bancorp, Inc., Chicago, IL                                       Chicago       IL     Subordinated Debentures    $4,205,000             $3,881,000           $8,086,000          Par                                                                 $922,590
  1     9/3/2010    IBW Financial Corporation, Washington, DC                          Washington      DC     Preferred Stock            $6,000,000                      $0          $6,000,000          Par                                                                 $444,000
        9/29/2010   Independent Employers Group Federal Credit Union, Hilo, HI             Hilo        HI     Subordinated Debentures           $0                       $0           $698,000           Par                                                                   $50,644
        9/3/2010    Kilmichael Bancorp, Inc., Kilmichael, MS                            Kilmichael     MS     Subordinated Debentures           $0                       $0          $3,154,000          Par                                                                 $361,764
  1     9/29/2010   Lafayette Bancorp, Inc., Oxford, MS                                   Oxford       MS     Preferred Stock            $4,551,000                      $0          $4,551,000          Par                                                                 $330,200
        9/24/2010   Liberty County Teachers Federal Credit Union, Liberty, TX            Liberty       TX     Subordinated Debentures           $0                       $0           $435,000           Par     4/2/20146      $87,000               $348,000                 $31,475
                                                                                                                                                                                                                                                                              Continued
CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2014                                                                    (CONTINUED)
                                                         Seller                                                                                                        Purchase Details                                                                                       Disposition Details
           Purchase                                                                                                                                        Amount                                                             Pricing                                                       Remaining         Dividend/Interest Paid
Note       Date        Name of Institution                                                           City        State   Investment Description          from CPP      Additional Investment      Investment Amount        Mechanism               Date                Amount       Investment Amount                    to Treasury
    1, 2   9/24/2010   Liberty Financial Services, Inc., New Orleans, LA                         New Orleans      LA     Preferred Stock               $5,645,000                 $5,689,000              $11,334,000               Par                                                                                     $825,493
           9/24/2010   Lower East Side People’s Federal Credit Union, New York, NY                New York        NY     Subordinated Debentures                 $0                        $0                $898,000               Par                                                                                       $65,404
     1     8/20/2010   M&F Bancorp, Inc., Durham, NC                                               Durham         NC     Preferred Stock              $11,735,000                          $0             $11,735,000               Par                                                                                     $876,865
     1     8/20/2010                                                                                                     Preferred Stock               $5,500,000                          $0                       $0              Par
                       Mission Valley Bancorp, Sun Valley, CA                                     Sun Valley      CA                                                                                                                                                                                                        $763,194
     2a    9/24/2010                                                                                                     Preferred Stock                         $0               $4,836,000              $10,336,000               Par
           9/24/2010   Neighborhood Trust Federal Credit Union, New York, NY                      New York        NY     Subordinated Debentures                 $0                        $0                $283,000               Par                                                                                       $20,613
           9/29/2010   North Side Community Federal Credit Union, Chicago, IL                      Chicago         IL    Subordinated Debentures                 $0                        $0                $325,000               Par                                                                                       $23,581
           9/24/2010   Northeast Community Federal Credit Union, San Francisco, CA              San Francisco     CA     Subordinated Debentures                 $0                        $0                $350,000               Par                                                                                       $25,492
           9/29/2010   Opportunities Credit Union, Burlington, VT                                 Burlington      VT     Subordinated Debentures                 $0                        $0              $1,091,000               Par                                                                                       $79,158
     1     8/13/2010   PGB Holdings, Inc., Chicago, IL                                             Chicago         IL    Preferred Stock               $3,000,000                          $0              $3,000,000               Par                                                                                     $231,292
           9/24/2010   Phenix Pride Federal Credit Union, Phenix City, AL                         Phenix City     AL     Subordinated Debentures                 $0                        $0                $153,000               Par                                                                                       $11,144
    1, 4   8/13/2010   Premier Bancorp, Inc., Wilmette, IL                                         Wilmette        IL    Subordinated Debentures       $6,784,000                          $0              $6,784,000               Par     1/29/20134                 $79,900                         $0                           $0
           9/24/2010   Prince Kuhio Federal Credit Union, Honolulu, HI                             Honolulu        HI    Subordinated Debentures                 $0                        $0                $273,000               Par                                                                                       $19,884
    1, 7   9/29/2010   PSB Financial Corporation, Many, LA                                          Many          LA     Preferred Stock               $9,734,000                          $0              $9,734,000               Par    12/28/20127              $9,734,000                         $0                   $437,489
           9/24/2010   Pyramid Federal Credit Union, Tucson, AZ                                     Tucson        AZ     Subordinated Debentures                 $0                        $0              $2,500,000               Par                                                                                     $182,083
           9/29/2010   Renaissance Community Development Credit Union, Somerset, NJ               Somerset        NJ     Subordinated Debentures                 $0                        $0                 $31,000               Par                                                                                        $2,249
           9/24/2010   Santa Cruz Community Credit Union, Santa Cruz, CA                          Santa Cruz      CA     Subordinated Debentures                 $0                        $0              $2,828,000               Par                                                                                     $205,973
     1     9/29/2010   Security Capital Corporation, Batesville, MS                               Batesville      MS     Preferred Stock              $17,910,000                          $0             $17,910,000               Par                                                                                   $1,299,470
    1, 2   9/29/2010   Security Federal Corporation, Aiken, SC                                      Aiken         SC     Preferred Stock              $18,000,000                 $4,000,000              $22,000,000               Par                                                                                   $1,596,222
           9/29/2010   Shreveport Federal Credit Union, Shreveport, LA                            Shreveport      LA     Subordinated Debentures                 $0                        $0              $2,646,000               Par                                                                                     $191,982
    1, 2   8/6/2010    Southern Bancorp, Inc., Arkadelphia, AR                                   Arkadelphia      AR     Preferred Stock              $11,000,000               $22,800,000               $33,800,000               Par                                                                                   $2,551,900
           9/29/2010   Southern Chautauqua Federal Credit Union, Lakewood, NY                     Lakewood        NY     Subordinated Debentures                 $0                        $0              $1,709,000               Par                                                                                     $123,997
           9/29/2010   Southside Credit Union, San Antonio, TX                                   San Antonio      TX     Subordinated Debentures                 $0                        $0              $1,100,000               Par    10/30/20136              $1,100,000                         $0                     $67,894
     1     9/29/2010   State Capital Corporation, Greenwood, MS                                  Greenwood        MS     Preferred Stock              $15,750,000                          $0             $15,750,000               Par                                                                                   $1,142,750
    1, 2   9/29/2010   The First Bancshares, Inc., Hattiesburg, MS                               Hattiesburg      MS     Preferred Stock               $5,000,000               $12,123,000               $17,123,000               Par                                                                                   $1,242,369
           9/29/2010   The Magnolia State Corporation, Bay Springs, MS                           Bay Springs      MS     Subordinated Debentures                 $0                        $0              $7,922,000               Par                                                                                     $890,917
                       Thurston Union of Low-Income People (TULIP) Cooperative Credit Union,
           9/24/2010                                                                               Olympia        WA     Subordinated Debentures                 $0                        $0                 $75,000               Par                                                                                        $5,463
                       Olympia, WA
           9/24/2010   Tongass Federal Credit Union, Ketchikan, AK                                Ketchikan       AK     Subordinated Debentures                 $0                        $0              $1,600,000               Par                                                                                     $116,533
     1     8/13/2010   Tri-State Bank of Memphis, Memphis, TN                                      Memphis        TN     Preferred Stock               $2,795,000                          $0              $2,795,000               Par                                                                                     $209,936
           9/24/2010   Tulane-Loyola Federal Credit Union, New Orleans, LA                       New Orleans      LA     Subordinated Debentures                 $0                        $0                $424,000               Par                                                                                       $30,881
           9/24/2010   Union Baptist Church Federal Credit Union, Fort Wayne, IN                  Fort Wayne       IN    Subordinated Debentures                 $0                        $0                 $10,000               Par                                                                                          $728
           9/29/2010   Union Settlement Federal Credit Union, New York, NY                        New York        NY     Subordinated Debentures                 $0                        $0                $295,000               Par                                                                                       $21,404
     1     9/3/2010    United Bancorporation of Alabama, Inc., Atmore, AL                          Atmore         AL     Preferred Stock              $10,300,000                          $0             $10,300,000               Par                                                                                     $762,200
                       UNITEHERE Federal Credit Union, (Workers United Federal Credit
     6     9/29/2010                                                                              New York        NY     Subordinated Debentures                 $0                        $0                 $57,000               Par     3/20/20136                 $57,000                         $0                      $2,822
                       Union), New York, NY
    1, 2   7/30/2010   University Financial Corp, Inc., St. Paul, MN                               St. Paul       MN     Subordinated Debentures      $11,926,000               $10,189,000               $22,115,000               Par    11/28/20126            $22,115,000                          $0                 $1,595,843
     6     9/24/2010   UNO Federal Credit Union, New Orleans, LA                                 New Orleans      LA     Subordinated Debentures                 $0                        $0                $743,000               Par      9/4/20136                $743,000                         $0                     $43,754
           9/29/2010   Vigo County Federal Credit Union, Terre Haute, IN                         Terre Haute       IN    Subordinated Debentures                 $0                        $0              $1,229,000               Par                                                                                       $89,171
           9/24/2010   Virginia Community Capital, Inc., Christiansburg, VA                     Christiansburg    VA     Subordinated Debentures                 $0                        $0              $1,915,000               Par                                                                                     $139,476
                                                                                                                                                                      Total Purchase Amount            $570,073,000                         Total Capital Repayment Amount                 $95,989,900
                                                                                                                                                                               TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                  $467,379,000
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes are taken verbatim from Treasury’s 6/30/2014 Transactions Report.

1
 	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
 	 Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
  	 Treasury made an additional investment in this institution after the time it entered the CDCI program.
3
 	 On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously unpaid dividends were paid on the
                                                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




    date of the exchange.
4
 	 On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver. On 1/29/2013, UST received $79,900 representing the total
    amount of distributions paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
5
 	 Repayment pursuant to Section 5 of the CDCI Certificate of Designation.
6
 	 Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.
7
 	 Repayment pursuant to Section 5 of the CDCI Exchange Agreement.
8
 	 Repayment pursuant to Section 6.11 of the CDCI Securities Purchase Agreement.
9
 	 Repayment pursuant to Section 5.11 of the CDCI Exchange Agreement.
                                                                                                                                                                                                                                                                                                                                         425




Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014.
TABLE D.4                                                                                                                                                                                                                                                                                          426
AIFP TRANSACTION DETAIL, AS OF 6/30/2014
                                                                                                                                                 Treasury Investment After Exchange/Transfer/
                                          Initial Investment                                       Exchange/Transfer/Other Details               Other                                                                               Payment or Disposition1
                                                                                                                                                                                                                                                                    Remaining
                                                                                                                                                                                                                                                Remaining          Investment         Dividend/
                          Transaction                                                                                                                                                    Amount/                                      Amount/ Investment             Amount/    Interest Paid to
              Date        Type        Seller        Description             Amount Note     Date         Type                     Amount Note Obligor          Note Description          Equity %         Date          Type          Proceeds Description           Equity %         Treasurya
                                                    Preferred                                            Exchange for
                                                    Stock w/                                             convertible                                                 Convertible
              12/29/2008 Purchase     GMAC                           $5,000,000,000         12/30/2009                    $5,000,000,000                       21,
                                                    Exercised                                            preferred                               GMAC (Ally)          Preferred    $5,937,500,000 11/20/2013     Disposition38   $5,925,000,000         N/A               $0
                                                                                                                                                               22
                                                    Warrants                                             stock                                                           Stock

                                                                                                         Partial
                                                    Convertible
                                                                                                         conversion
                                                    Preferred
                                                                                                         of preferred                                                                                                  Partial                    Common
              5/21/2009   Purchase    GMAC          Stock w/         $7,500,000,000   22    12/30/2009                    $3,000,000,000                                                             1/23/2014                   $3,023,750,000                          37%
                                                                                                         stock for                                                                                               Disposition40                      Stock
                                                    Exercised
                                                                                                         common
                                                    Warrants                                                                                                   3,
GMAC                                                                                                     stock
                                                                                                                                                               26,     Common
(Ally),                                                                                                                                          GMAC (Ally)                               63.5%                                                                                $3,679,893,757
                                                                                                         Partial                                               32,       Stock                                         Partial                    Common
Detroit, MI                                         Convertible                                                                                                                                      4/15/2014                   $2,375,000,000                          17%
                                                                                                         conversion                                            38                                                Disposition41                      Stock
                                                    Preferred
                                                                                      22,                of preferred
              12/30/2009 Purchase     GMAC          Stock w/         $1,250,000,000         12/30/2010                    $5,500,000,000    26
                                                                                      26                 stock for                                                                                                     Partial                    Common
                                                    Exercised                                                                                                                                        5/14/2014                    $181,141,750                           16%
                                                                                                         common                                                                                                  Disposition42                      Stock
                                                    Warrants
                                                                                                         stock
                                                    Trust                                                Exchange for
                                                    Preferred                                            amended and                                                      Trust
                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




              12/30/2009 Purchase     GMAC          Securities       $2,540,000,000         3/1/2011     restated Trust   $2,667,000,000    27   GMAC (Ally)    27    Preferred    $2,667,000,000     3/2/2011   Disposition28   $2,667,000,000         N/A               $0
                                                    w/ Exercised                                         Preferred                                                    Securities
                                                    Warrants                                             Securities
                                                                                                         Exchange
                                      General
                                                    Debt                                                 for equity
              12/29/2008 Purchase     Motors                          $884,024,131    2     5/29/2009                     $884,024,131      3
                                                    Obligation                                           interest in
                                      Corporation
                                                                                                         GMAC
                                                                                                         Exchange
                                                    Debt
                                      General                                                            for preferred
                                                    Obligation
              12/31/2008 Purchase     Motors                        $13,400,000,000         7/10/2009    and common       $13,400,000,000   7
                                                    w/ Additional
                                      Corporation                                                        stock in New
                                                    Note
                                                                                                         GM
                                                                                                         Exchange
                                                    Debt
                                      General                                                            for preferred                           General       10,
                                                    Obligation                                                                                                         Preferred
              4/22/2009   Purchase    Motors                         $2,000,000,000   4     7/10/2009    and common       $2,000,000,000    7    Motors        11,                 $2,100,000,000 12/15/2010      Repayment      $2,139,406,778         N/A               $0
                                                    w/ Additional                                                                                                         Stock
                                      Corporation                                                        stock in New                            Company       24
                                                    Note
                                                                                                         GM
                                                                                                                                                                                                                       Partial                    Common
                                                                                                                                                                                                    11/18/2010                 $11,743,303,903                         36.9%
                                                                                                                                                                                                                 Disposition25                      Stock
                                                                                                                                                                                                                       Partial                    Common
                                                                                                                                                                                                    11/26/2010                   $1,761,495,577                       32.04%
                                                                                                                                                                                                                 Disposition25                      Stock
                                                                                                                                                                                                                       Partial                    Common
                                                                                                                                                                                                    12/21/2012                   $5,500,000,000                       21.97%
                                                                                                                                                                                                                 Disposition33                      Stock
General
Motorsb,c                                                                                                Exchange                                                                                                      Partial                    Common                         $756,714,508
                                                    Debt                                                                                                                                             4/11/2013                   $1,637,839,844                       17.69%
Detroit, MI                           General                                                            for preferred                           General       10,                                               Disposition34                      Stock
                                                    Obligation                                                                                                         Common
              5/20/2009   Purchase    Motors                         $4,000,000,000   5     7/10/2009    and common       $4,000,000,000    7    Motors        11,                         60.8%
                                                    w/ Additional                                                                                                        Stock                                         Partial                    Common
                                      Corporation                                                        stock in New                            Company       25                                    6/12/2013                   $1,031,700,000                       13.80%
                                                    Note                                                                                                                                                         Disposition35                      Stock
                                                                                                         GM
                                                                                                                                                                                                                       Partial                    Common
                                                                                                                                                                                                     9/13/2013                   $3,822,724,832                        7.32%
                                                                                                                                                                                                                 Disposition36                      Stock
                                                                                                                                                                                                                       Partial                    Common
                                                                                                                                                                                                    11/20/2013                   $2,563,441,956                        2.24%
                                                                                                                                                                                                                 Disposition37                      Stock
                                                                                                                                                                                                                       Partial                    Common
                                                                                                                                                                                                     12/9/2013                   $1,208,249,982                        0.00%
                                                                                                                                                                                                                 Disposition39                      Stock
                                                                                                                                                                                                                      Partial                          Debt
                                                                                                                                                                                                     7/10/2009                    $360,624,198                 $6,711,864,407
                                                                                                                                                                                                                  Repayment                       Obligation
                                                                                                                                                                                                                      Partial                          Debt
                                                                                                         Exchange                                                                                   12/18/2009                   $1,000,000,000                $5,711,864,407
                                                    Debt                                                                                         General                                                          Repayment                       Obligation
                                      General                                                            for preferred
                                                    Obligation                                                                                   Motors        11,         Debt
              5/27/2009   Purchase    Motors                          $360,624,198    6     7/10/2009    and common       $360,624,198      7                                      $7,072,488,605                     Partial                          Debt
                                                    w/ Additional                                                                                Holdings      12     Obligation                     1/21/2010                     $35,084,421                 $5,676,779,986
                                      Corporation                                                        stock in New                                                                                             Repayment                       Obligation
                                                    Note                                                                                         LLC
                                                                                                         GM
                                                                                                                                                                                                                      Partial                          Debt
                                                                                                                                                                                                     3/31/2010                   $1,000,000,000                $4,676,779,986
                                                                                                                                                                                                                  Repayment                       Obligation
                                                                                                                                                                                                     4/20/2010    Repayment      $4,676,779,986         N/A               $0
                                                                                                                                                                                                                                                                        Continued on next page
AIFP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                                                            Treasury Investment After Exchange/Transfer/
                                         Initial Investment                                      Exchange/Transfer/Other Details            Other                                                                            Payment or Disposition1
                                                                                                                                                                                                                                                            Remaining
                                                                                                                                                                                                                                        Remaining          Investment         Dividend/
                         Transaction                                                                                                                                              Amount/                                     Amount/ Investment             Amount/    Interest Paid to
             Date        Type        Seller        Description             Amount Note    Date        Type                    Amount Note Obligor         Note Description        Equity %         Date         Type          Proceeds Description           Equity %         Treasurya
                                                                                                      Exchange
                                                   Debt
                                     General                                                          for preferred
                                                   Obligation
             6/3/2009    Purchase    Motors                        $30,100,000,000   8    7/10/2009   and common      $22,041,706,310   9
                                                   w/ Additional
                                     Corporation                                                      stock in New
                                                   Note
                                                                                                      GM
                                                                                                      Transfer of
                                                                                          7/10/2009   debt to New     $7,072,488,605    9
                                                                                                      GM
                                                                                                                                            Motors                                                                                         Right to
                                                                                                      Debt left at                                                    Debt                                     Partial
                                                                                          7/10/2009                   $985,805,085      9   Liquidation    29                 $985,805,085    3/31/2011                    $50,000,000      recover              N/A
                                                                                                      Old GM                                                     Obligation                                Repayment
                                                                                                                                            Company                                                                                       proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                               4/5/2011                    $45,000,000      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                               5/3/2011                    $15,887,795      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                             12/16/2011                       $144,444      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                             12/23/2011                    $18,890,294      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                              1/11/2012                     $6,713,489      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                             10/23/2012                       $435,097      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                              5/22/2013                    $10,048,968      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                              9/20/2013                    $11,832,877      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                             12/27/2013                       $410,705      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                               Partial
                                                                                                                                                                                               1/9/2014                       $470,269      recover              N/A
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                               Debt
                                                   Debt
                                                                                                                                                                                                                                          Obligation
                                     Chrysler      Obligation                                                                                                                                                  Partial
             1/16/2009   Purchase                                   $1,500,000,000   13                                                                                                       3/17/2009                     $3,499,055            w/   $1,496,500,945
                                     FinCo         w/ Additional                                                                                                                                           Repayment
                                                                                                                                                                                                                                          Additional
                                                   Note
                                                                                                                                                                                                                                               Note
                                                                                                                                                                                                                                               Debt
                                                                                                                                                                                                                                          Obligation
                                                                                                                                                                                                               Partial
                                                                                                                                                                                              4/17/2009                    $31,810,122            w/   $1,464,690,823
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          Additional
                                                                                                                                                                                                                                               Note
Chrysler                                                                                                                                                                                                                                       Debt
FinCo,                                                                                                                                                                                                                                    Obligation
                                                                                                                                                                                                               Partial                                                      $7,405,894
Farmington                                                                                                                                                                                    5/18/2009                    $51,136,084            w/   $1,413,554,739
Hills, MI                                                                                                                                                                                                  Repayment
                                                                                                                                                                                                                                          Additional
                                                                                                                                                                                                                                               Note
                                                                                                                                                                                                                                               Debt
                                                                                                                                                                                                                                          Obligation
                                                                                                                                                                                                               Partial
                                                                                                                                                                                              6/17/2009                    $44,357,710            w/   $1,369,197,029
                                                                                                                                                                                                           Repayment
                                                                                                                                                                                                                                          Additional
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                                                                                                                                               Note
                                                                                                                                                                                                                                          Additional
                                                                                                                                                                                              7/14/2009    Repayment     $1,369,197,029                           $0
                                                                                                                                                                                                                                               Note
                                                                                                                                                                                              7/14/2009   Repayment*       $15,000,000          N/A               $0
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                           427
AIFP TRANSACTION DETAIL, AS OF 6/30/2014                                                    (CONTINUED)                                                                                                                                                                                                               428
                                                                                                                                                           Treasury Investment After Exchange/Transfer/
                                             Initial Investment                                            Exchange/Transfer/Other Details                 Other                                                                                     Payment or Disposition1
                                                                                                                                                                                                                                                                                      Remaining
                                                                                                                                                                                                                                                                Remaining            Investment          Dividend/
                          Transaction                                                                                                                                                                Amount/                                          Amount/ Investment               Amount/     Interest Paid to
            Date          Type        Seller            Description              Amount Note      Date          Type                      Amount Note Obligor            Note Description            Equity %           Date            Type          Proceeds Description             Equity %          Treasurya
                                                        Debt                                                                                                                           Debt
                                                                                                                Transfer of
                                         Chrysler       Obligation                                                                                         Chrysler               obligation
            1/2/2009      Purchase                                      $4,000,000,000           6/10/2009      debt to New     $500,000,000          19                  20                   $3,500,000,000     5/14/2010                      $1,900,000,000          N/A                  $0
                                         Holding        w/ Additional                                                                                      Holding             w/ additional                                     Termination
                                                                                                                Chrysler
                                                        Note                                                                                                                           note                                              and
                                                        Debt                                                                                                                                                                      settlement
                                         Chrysler       Obligation                                                                                                                                                                payment20
            4/29/2009     Purchase                                                    $0    14
                                         Holding        w/ Additional
                                                        Note
                                                        Debt
                                         Chrysler       Obligation
            4/29/2009     Purchase                                        $280,130,642      15                                                                                                                    7/10/2009      Repayment        $280,130,642           N/A                  $0
                                         Holding        w/ Additional
                                                        Note
                                                        Debt                                                    Completion                                 Old Carco               Right to                                         Proceeds                         Right to
                                                        Obligation                                              of bankruptcy
            5/1/2009      Purchase       Old Chrysler                   $1,888,153,580      16   4/30/2010                      ($1,888,153,580)      23   Liquidation    23        recover                N/A    5/10/2010      from sale of      $30,544,528        recover                N/A
                                                        w/ Additional                                           proceeding;                                Trust                  proceeds                                          collateral                      proceeds
                                                        Note                                                    transfer of
                                                        Debt                                                    collateral
                                                                                                                security to                                                                                                         Proceeds                         Right to
                                                        Obligation
            5/20/2009     Purchase       Old Chrysler                                 $0    17                  liquidation                                                                                        9/9/2010      from sale of       $9,666,784        recover                N/A
                                                        w/ Additional
                                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                trust                                                                                                               collateral                      proceeds
                                                        Note

Chrysler,                                                                                                                                                                                                                           Proceeds                         Right to
Auburn                                                                                                                                                                                                           12/29/2010      from sale of       $7,844,409        recover                N/A $1,171,263,942
Hills, MI                                                                                                                                                                                                                           collateral                      proceeds
                                                                                                                                                                                                                                    Proceeds                         Right to
                                                                                                                                                                                                                  4/30/2012      from sale of       $9,302,185        recover                N/A
                                                                                                                                                                                                                                    collateral                      proceeds
                                                        Debt                                                                                                                           Debt
                                                        Obligation                                                                                                                obligation
                                                                                                                Issuance of
                                         New            w/ Additional                                                                                      Chrysler      19,   w/ additional                                    Repayment -
            5/27/2009     Purchase                                      $6,642,000,000      18   6/10/2009      equity in New   $0                                                             $7,142,000,000     5/24/2011                      $5,076,460,000
                                         Chrysler       Note, Zero                                                                                         Group LLC     31     note & zero                                        Principal
                                                                                                                Chrysler
                                                        Coupon Note,                                                                                                                coupon
                                                        Equity                                                                                                                         note
                                                                                                                                                                                                                                 Termination
                                                                                                                                                                                                                  5/24/2011      of undrawn      $2,065,540,000          N/A                  $0
                                                                                                                                                                                                                                    facility31
                                                                                                                                                                                                                                Repayment*
                                                                                                                                                                                                                  5/24/2011      - Additional     $288,000,000
                                                                                                                                                                                                                                        Note
                                                                                                                                                                                                                              Repayment*
                                                                                                                                                                                                                  5/24/2011 - Zero Coupon         $100,000,000
                                                                                                                                                                                                                                     Note
                                                                                                                                                           Chrysler               Common
                                                                                                                                                                          30                              6.6%    7/21/2011       Disposition     $560,000,000           N/A                  $0
                                                                                                                                                           Group LLC                equity
                                                                                                                                                                                                                                          Additional Proceeds*                    $403,000,000
                                  Total Initial Investment Amount $81,344,932,551                                                                                                                                                                Total Payments                 $62,186,325,712
                                                                                                                                                                                                                            Total Treasury Investment Amount                    $13,604,913,259
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014, Transactions Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	 Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See
   transactions marked by orange line in the table above and footnote 22.)
4
 	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of debt
   assumed by the new GM, as explained in footnote 10.
7
 	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
 	 Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had
   been disbursed by Treasury.
                                                                                                                                                                                                                                                                                            Continued on next page
AIFP TRANSACTION DETAIL, AS OF 6/30/2014                                                           (CONTINUED)
9
 	 On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the
    terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
  	 In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
  	 Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors
    Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
  	 Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
  	 The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
  	 This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
  	 The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
  	 This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
    6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
  	 This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
    terminated.
18
  	 This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to
    $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler.
    When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
  	 Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
  	 Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement
    payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
  	 Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
  	 Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
  	 On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
    transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
  	 On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common
    stock. The repurchase was completed on 12/15/2010.
25
  	 On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On
    11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting
    agreement total $13,504,799,480.
26
  	 On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
  	 On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement,
    Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
  	 On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not
    include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
  	 On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
    transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
  	 In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically
    increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On
    7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
  	 On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
  	 On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33
  	 On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.
34
  	 On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the
    sale).Completion of the sale under this authority occurred on April 11, 2013.
35
  	 On 6/12/2013, Treasury sold 30,000,000 shares of GM common stock in a registered public offering at $34.41 per share for net proceeds to Treasury of $ 1,031,700,000.
36
  	 Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the
    period ending on September 13, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred on September 13, 2013.
37
  	 On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon
    completion of the sale). Completion of the sale under this authority occurred on November 20, 2013.
38
  	 On November 20, 2013, Ally completed a private placement of an aggregate of 216,667 shares of its common stock for an aggregate price of approximately $1.3 billion and the repurchase of all outstanding shares of its Fixed Rate Cumulative Mandatorily Convertible Preferred Stock, Series F-2, held by Treasury,
    including payment for the elimination or relinquishment of any right to receive additional shares of common stock to be issued (the “Share Adjustment Right”). Ally paid to Treasury a total of approximately $5.93 billion for the repurchase of the Series F-2 Preferred Stock and the elimination of the Share Adjustment
    Right. As a result of the private placement, Treasury’s common stock ownership stake was diluted from 73.8 percent to 63.45 percent. Treasury continues to own 981,971 shares of common stock in Ally.
39
  	 On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common stock, from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the sale
    under this authority occurred on December 9, 2013.
40
  	 On January 23, 2014, Treasury sold 410,000 shares of Ally common stock in a private offering at $7,375 per share for gross proceeds of $3,023,750,000.
41
  	 On April 15, 2014, Treasury sold 95,000,000 shares of Ally common stock in an IPO at $25.00 per share for net proceeds of $2,375,000,000.
42
  	 On 5/14/2014, the underwriters partially exercised their option to purchase an additional 7,245,670 shares of Ally common stock from Treasury at $25.00 resulting in additional proceeds of $181,141,750.

a
    	 For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
    	 According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
    	 This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014.
                                                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                                                                   429
TABLE D.5                                                                                                                                                                                                                                                                                                     430
ASSP TRANSACTION DETAIL, AS OF 6/30/2014
                        Seller                                                                                                      Adjustment Details                                               Repayment4
                                                                                                                                                                                                                                               Remaining                                        Dividend/
                                                      Transaction Investment                         Investment        Pricing       Adjustment            Adjustment     Adjusted Investment                                                 Investment                                  Interest Paid to
Note    Date            Institution Name              Type        Description                           Amount      Mechanism              Date               Amount      Amount                     Date                   Type              Description                    Amount              Treasury
                                                                                                                                                                                                                           Partial      Debt Obligation w/
                                                                                                                                                                                                     11/20/2009                                                       $140,000,000
                                                                                                                                                                                                                       repayment           Additional Note

                        GM Supplier Receivables LLC                Debt Obligation w/                                                 7/8/20093      ($1,000,000,000)     $2,500,000,000                                   Partial      Debt Obligation w/
    1   4/9/2009                                      Purchase                                  $3,500,000,000               N/A                                                                     2/11/2010                                                        $100,000,000             $9,087,808
                        Wilmington, DE                             Additional Note                                                                                                                                     repayment           Additional Note
                                                                                                                                                                                                     3/4/2010         Repayment5           Additional Note              $50,000,000
                                                                                                                                                                          $290,000,000               4/5/2010           Payment6                     None               $56,541,893

                        Chrysler Receivables SPV LLC               Debt Obligation w/                                                 7/8/20093        ($500,000,000)     $1,000,000,000             3/9/2010         Repayment5           Additional Note            $123,076,735
    2   4/9/2009                                     Purchase                                   $1,500,000,000               N/A                                                                                                                                                               $5,787,176
                        Wilmington, DE                             Additional Note                                                                                        $123,076,735               4/7/2010           Payment7                     None               $44,533,054
        Initial Total              $5,000,000,000                                                                                  Adjusted Total      $413,076,735                                                                    Total Repayments              $413,076,735
                                                                                                        Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014, Transactions Report.

1
 	 The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but
   was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
 	 The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made
   effective as of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
                                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




 	 Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
 	 Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
 	 All outstanding principal drawn under the credit agreement was repaid.
6
 	 Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the
   loan, all of which have been repaid.
7
 	 Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan,
   all of which have been repaid.

Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014.




TABLE D.6
AIFP GENERAL MOTORS COMPANY COMMON STOCK DISPOSITION DETAIL, AS OF 6/30/2014
Date                                            Pricing Mechanism1                      Number of Shares                           Proceeds2
1/18/2013 – 4/17/20133                          $28.049                                 58,392,078                                 $1,637,839,844
5/6/2013 – 9/13/20134                           $34.646                                 110,336,510                                $3,822,724,832
9/26/2013 – 11/20/20135                         $36.509                                 70,214,460                                 $2,563,441,956
11/21/2013 – 12/9/20136                         $38.823                                 31,122,206                                 $1,208,249,982
                                                                                                               Total Proceeds:                                             $9,232,256,614
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014, Transactions Report.

1
 	 The price set forth is the weighted average price for all sales of General Motors Company common stock made by Treasury over the course of the corresponding period.
2
 	 Amount represents the gross proceeds to Treasury.
3
 	 On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to
   58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred
   on April 11, 2013.
4
 	 Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its
   sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the period ending on September 13, 2013 (or upon completion of
   the sale). Completion of the sale under this authority occurred on September 13, 2013.	
5
 	 On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up
   to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon completion of the sale). Completion of the sale under this authority
   occurred on November 20, 2013.
6
 	 On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common
   stock, from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the sale under this authority occurred on December 9, 2013.

Source: Treasury, Transactions Report, 6/30/2014.
TABLE D.7
TIP TRANSACTION DETAIL, AS OF 6/30/2014
                                                                                                                                                                                 Treasury Investment
                                                                                                                                                                                 Remaining After Capital
                        Seller                                                                                                           Capital Repayment Details               Repayment                 Final Disposition                                        Market and Warrant Data
                                                                                                                                             Capital                  Capital Remaining      Remaining           Final          Final                      Final                  Outstanding             Dividends/
                        Institution            Transaction                                            Investment         Pricing          Repayment                Repayment Capital         Capital       Disposition          Disposition          Disposition      Stock           Warrant        Interest Paid to
 Note   Date            Name                   Type           Investment Description                     Amount       Mechanism                Date2                  Amount Amount          Description        Date3           Description           Proceeds        Price            Shares               Treasury
                        Citigroup Inc.,                       Trust Preferred Securities w/
    1   12/31/2008                             Purchase                                        $20,000,000,000                 Par        12/23/2009        $20,000,000,000      $0          Warrants       1/25/2011       A   Warrants          $190,386,428       $47.60                         $1,568,888,889
                        New York, NY                          Warrants
                        Bank of America
        1/16/2009       Corporation,           Purchase       Preferred Stock w/ Warrants      $20,000,000,000                 Par         12/9/2009        $20,000,000,000      $0          Warrants        3/3/2010       A   Warrants        $1,236,804,513       $17.20                         $1,435,555,556
                        Charlotte, NC
                                                              Total Investment                $40,000,000,000        TOTAL CAPITAL REPAYMENT $40,000,000,000                                                       Total Warrant Proceeds $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014 Transactions Report.

1
 	 Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014; Bloomberg LP, accessed 7/1/2014.




TABLE D.8
AGP TRANSACTION DETAIL, AS OF 6/30/2014
                       Initial Investment                                                         Premium                                       Exchange/Transfer/Other Details                                                  Payment or Disposition                         Market and Warrant Data
                                                                                                                                                                                                                                      Remaining                    Remaining Outstanding                    Dividends/
                        Institution       Transaction                                                                                                                                                         Payment                  Premium                      Premium Warrant      Stock           Interest Paid
Note            Date    Name              Type        Description     Guarantee Limit Description             Amount            Date               Type Description                Amount           Date         Type Payment Amount Description                     Amount Shares       Price             to Treasury
                                                                                                                                        Exchange                                                                  Partial
                                                                                                                                                             Trust                                                                                      Trust
                                                                                                                                         preferred                                                          cancellation
                                                                                                                                                       Preferred                                                                                  Preferred
                                                                                                                          6/9/20092 stock for trust                         $4,034,000,000   12/23/20093        for early   ($1,800,000,000)                  $2,234,000,000                  $47.60    $642,832,268
                                                                                                                                                    Securities w/                                                                              Securities w/
                                                                                                                                         preferred                                                           termination
                                                                                                                                                       Warrants                                                                                   Warrants
                                                                                                                                        securities                                                         of guarantee
                        Citigroup                                                     Preferred
                                                        Master                                                                               Exchange                                         9/30/20105     Disposition     $2,246,000,000       Warrants                 $—
1        1/16/2009      Inc., New         Guarantee                    $5,000,000,000 Stock w/       $4,034,000,000
                                                        Agreement                                                                                 trust
                        York, NY                                                      Warrants                                                                      Trust
                                                                                                                                             preferred
                                                                                                                                                              Preferred
                                                                                                                        9/29/20104           securities                     $2,246,000,000                      Warrant
                                                                                                                                                           Securities w/                      1/25/2011                          $67,197,045          None                 $—
                                                                                                                                              for trust                                                         Auction
                                                                                                                                                              Warrants
                                                                                                                                             preferred
                                                                                                                                             securities
                        Citigroup
                                                        Termination
3       12/23/2009      Inc., New         Termination                 ($5,000,000,000)
                                                        Agreement
                        York, NY
                                                                                                                                                 Trust
                                                                                                                                             preferred
                                                                                                                                                                  Trust
                                                                                                                                     6       securities
                                                                                                                       12/28/2012                             Preferred      $800,000,000
                                                                                                                                              received
                                                                                                                                                              Securities
                                                                                                                                              from the
                                                                                                                                                  FDIC
                                                                                                                                             Exchange
                                                                                                                                                   Trust
                                                                                                                                     7       preferred     Subordinated
                                                                                                                          2/4/2013                                           $894,000,000      2/8/20138     Disposition        $894,000,000          None                 $—
                                                                                                                                          securities for           Note
                                                                                                                                          subordinated
                                                                                                                                                    note
                                                                                                                                                                                                        Total Proceeds $3,207,197,045
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014 Transactions Report.

1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
 	 Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
 	 On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion
   of the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the
   FDIC’s Temporary Liquidity Guarantee Program.
4
                                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




 	 On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of
   exchange, Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6
 	 12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to $800
   million and approximately $183 million in dividend and interest payments from those securities.
7
 	 On 2/4/2013, Treasury exchanged $800 million in Citigroup Capital XXXII Trust Preferred Securities (TRuPS) for $894 million in Citigroup subordinated notes pursuant to an agreement between Citigroup and Treasury executed on 2/4/2013. Accrued interest on the TRuPS was received at the time of the
   exchange.
8
 	 On 2/8/2013, Treasury completed the sale of its Citigroup subordinated notes for $894 million plus accrued interest, pursuant to an underwriting agreement executed on 2/8/2012.
                                                                                                                                                                                                                                                                                                                         431




Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014; Bloomberg LP, accessed 7/1/2014.
TABLE D.9                                                                                                                                                                                                                                                                                                    432
TALF TRANSACTION DETAIL, AS OF 6/30/2014
                       Seller                                                                                                  Adjusted Investment                                                Repayment5
                                                    Transaction      Investment                 Investment     Pricing                                                     Final Investment                                                                                        Dividends/Interest Paid
Note    Date           Institution                  Type             Description                   Amount      Mechanism       Date                             Amount     Amount                 Date              Description                                        Amount                  to Treasury
                                                                                                                                           2
                                                                                                                               7/19/2010               $4,300,000,000                             2/6/2013          Principal Repayment                          $100,000,000
                                                                                                                               6/28/20123              $1,400,000,000                             2/6/2013          Contingent Interest Proceeds                 $212,829,610
                                                                                                                                                                                                  3/6/2013          Contingent Interest Proceeds                  $97,594,053
                                                                                                                                                                                                  4/4/2013          Contingent Interest Proceeds                   $6,069,968
                                                                                                                                                                                                  5/6/2013          Contingent Interest Proceeds                   $4,419,259
                                                                                                                                                                                                  6/6/2013          Contingent Interest Proceeds                  $96,496,772
                                                                                                                                                                                                  7/5/2013          Contingent Interest Proceeds                  $11,799,670
                                                                                                                                                                                                  8/6/2013          Contingent Interest Proceeds                  $66,072,965
                                                                     Debt Obligation                                                                                                              9/6/2013          Contingent Interest Proceeds                  $74,797,684
1       3/3/2009       TALF LLC, Wilmington, DE     Purchase         w/ Additional        $20,000,000,000      N/A                         4                               $100,000,000                                                                                                        $13,407,761
                                                                                                                               1/15/2013                 $100,000,000
                                                                     Note                                                                                                                         10/4/2013         Contingent Interest Proceeds                   $1,114,074
                                                                                                                                                                                                  11/6/2013         Contingent Interest Proceeds                     $933,181
                                                                                                                                                                                                  12/5/2013         Contingent Interest Proceeds                   $1,102,424
                                                                                                                                                                                                  1/7/2014          Contingent Interest Proceeds                   $1,026,569
                                                                                                                                                                                                  2/6/2014          Contingent Interest Proceeds                   $1,107,574
                                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                                                                                                  3/6/2014          Contingent Interest Proceeds                   $1,225,983
                                                                                                                                                                                                  4/4/2014          Contingent Interest Proceeds                  $11,597,602
                                                                                                                                                                                                  5/6/2014          Contingent Interest Proceeds                   $1,055,556
                                                                                                                                                                                                  6/5/2014          Contingent Interest Proceeds                   $1,343,150
                                                                                                                                               Total Investment Amount         $100,000,000                             Total Repayment Amount5                $690,586,094
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014, Transactions Report, and Treasury’s 7/10/2014, Dividends and Interest Report.

1
 	 The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
2
 	 On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to $4,300,000,000.
3
 	 On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.
4
 	 On 1/15/2013, Treasury, the FRBNY and TALF LLC entered into an amendment that stated that, due to the fact that the accumulated fees collected through TALF exceed the total principal amount of TALF loans outstanding, Treasury’s commitment of TARP funds to provide credit protection is no longer
   necessary.
5
 	 Repayment amounts do not include accrued interest proceeds received on 2/6/2013, which are reflected on the Dividends & Interest Report.

Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014.
TABLE D.10
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2014
                    Seller              Purchase Details                                                         Exchange/Transfer Details
                                                                                                                                                                                                                                                                                              Dividends/
                    Name of             Transaction      Investment                 Investment   Pricing                                                                                                                            Pricing                        Outstanding Warrant   Interest Paid to
Note Date           Institution         Type             Description                   Amount    Mechanism       Date                                       Transaction Type        Investment Description                Amount    Mechanism       Stock Price                 Shares          Treasury
                                                         Preferred Stock
                                                                                                                                                                                    Preferred Stock w/ Warrants
1      11/25/2008   AIG, New York, NY   Purchase         w/ Warrants           $40,000,000,000   Par             4/17/2009                                  Exchange                                              $40,000,000,000   Par                   $54.58                    —                $—
                                                                                                                                                                                    (Series E)1
                                                         (Series D)
                                                         Preferred Stock                                         See table below for exchange/
2, 3   4/17/2009    AIG, New York, NY   Purchase         w/ Warrants           $29,835,000,000   Par2            transfer details in connection with the                                                                                                  $54.58                    —     $641,275,676
                                                         (Series F)                                              recapitalization conducted on 1/14/2011.
                                                             Initial Total    $69,835,000,000
                                                                                                                                                            Final Disposition
                                                                                                                                                                                                   Transaction
                                                                                                                                                            Date                    Investment     Type                 Proceeds
                                                                                                                                                                                    Warrants
                                                                                                                                                            3/1/2013                               Repurchase        $25,150,923
                                                                                                                                                                                    (Series D)
                                                                                                                                                                                    Warrants
                                                                                                                                                            3/1/2013                               Repurchase             $5,768
                                                                                                                                                                                    (Series F)
                                                                                                                                                                                        Total Warrant Proceeds       $25,156,691


                                      Recapitalization                                                                 Treasury Holdings Post-Recapitalization                                                                        Final Disposition
                                                                                                                                                                                                                                                                     Remaining Recap
                    Investment          Transaction                          Pricing                                                                                                               Transaction                                         Pricing     Investment Amount,
Note Date           Description         Type                                 Mechanism           Investment Description                                     Amount/ Shares          Date           Type                                Proceeds8    Mechanism      Shares, or Equity %
                                        Exchange                             Par                 Preferred Stock (Series G)                                 $2,000,000,000          5/27/2011      Cancellation                              $—             N/A                  $—10
                                                                                                                                                                                    2/14/2011      Payment                          $185,726,192             Par
                                                                                                                                                                                    3/8/2011       Payment                      $5,511,067,614               Par
                                                                                                                                                                                    3/15/2011      Payment                           $55,833,333             Par
                                                                                                                                                                                    8/17/2011      Payment                           $97,008,351             Par
                                                                                                                                                                                    8/18/2011      Payment                      $2,153,520,000               Par
                                                                                                                                                                                7
                                                                                                 AIA Preferred Units                                        $16,916,603,568                                                                                                       $—8
                                                                                                                                                                                    9/2/2011       Payment                           $55,885,302             Par

                    Preferred Stock     Exchange                             N/A                                                                                                    11/1/2011      Payment                          $971,506,765             Par
4      1/14/2011
                    (Series F)                                                                                                                                                      3/8/2012       Payment                      $5,576,121,382               Par
                                                                                                                                                                                    3/15/2012      Payment                      $1,521,632,096               Par
                                                                                                                                                                                    3/22/2012      Payment                      $1,493,250,339               Par
                                                                                                                                                                                    2/14/2011      Payment                      $2,009,932,072               Par
                                                                                                 ALICO Junior Preferred Interests                           $3,375,328,4327         3/8/2011       Payment                      $1,383,888,037               Par                  $—8
                                                                                                                                                                                    3/15/2012      Payment                           $44,941,843             Par

                                                                                                                                                                                                   Partial                                                              1,455,037,9629
                                        Exchange                                                                                                            167,623,733             5/24/2011                                   $5,800,000,000              N/A
                                                                                                                                                                                                   Disposition                                                                    77%

                                                                                                                                                                                                   Partial                                                             1,248,141,41011
                                                                                                                                                                                    3/8/2012                                    $6,000,000,008              N/A
                                                                                                                                                                                                   Disposition                                                                    70%

                                                                                                                                                                                                   Partial                                                             1,084,206,98412
                    Preferred Stock                                                                                                                                                 5/6/2012                                    $4,999,999,993              N/A
5      1/14/2011                        Exchange                                                                                                            924,546,133                            Disposition                                                                    63%
                    (Series E)
                                                                                                                                                                                                   Partial                                                             1,059,616,82112
                                                                                                                                                                                    5/7/2012                                        $749,999,972            N/A
                                                                                                                                                                                                   Disposition                                                                    61%

                                                                                                                                                                                                   Partial                                                               895,682,39513
                                                                                                                                                                                    8/3/2012                                    $4,999,999,993              N/A
                                                                                                                                                                                                   Disposition                                                                    55%
                                                                             N/A                 Common Stock
                                                                                                                                                                                                   Partial                                                               871,092,23113
                                                                                                                                                                                    8/6/2012                                        $750,000,002            N/A
                                                                                                                                                                                                   Disposition                                                                    53%

                                                                                                                                                                                                   Partial                                                               317,246,07814
                    Common Stock                                                                                                                                                    9/10/2012                                  $17,999,999,973              N/A
6      1/14/2011                        Transfer                                                                                                            562,868,096                            Disposition                                                                    22%
                    (non-TARP)
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                                                                                                   Partial                                                               234,169,15614
                                                                                                                                                                                    9/11/2012                                   $2,699,999,965              N/A
                                                                                                                                                                                                   Disposition                                                                    16%

                                                                                                                                                                                                   Final                                                                 234,169,15615
                                                                                                                                                                                    12/14/2012                                  $7,610,497,570              N/A
                                                                                                                                                                                                   Disposition                                                                     0%
                                                                                                                                                                                                          Total               $72,670,810,802
                                                                                                                                                                                                                                                                                                            433
                                                                                                                                                                                                                                                                                                                                434
Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from the Treasury’s 6/30/2014, Transactions Report, and Treasury’s 7/10/2014, Dividends and Interest Report.

1
 	 On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
    Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	 This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4
 	 On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests
    and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2,000,000,000.
5
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
 	 On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
    transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.											
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10
  	 On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	 On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12
  	 On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13
  	 On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14
  	 On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15
  	 On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.

    Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014; Bloomberg LP, accessed 7/1/2014.
                                                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014
TABLE D.11
UCSB TRANSACTION DETAIL, AS OF 6/30/2014
Purchase Details1                                                                                                                             Settlement Details                                                           Final Disposition
                                                                                                                                     TBA                                                                       Senior                             Life-to-date
Purchase                                                                                         Purchase Face          Pricing       or      Settlement            Investment                                Security                               Principal     Current Face            Disposition         Interest Paid to
Date           Investment Description                       Institution Name     CUSIP                Amount3        Mechanism       PMF3     Date                    Amount2,3       TBA or PMF3           Proceeds4       Trade Date            Received1,8         Amount6,8             Amount5,6                 Treasury
3/19/2010      Floating Rate SBA 7a security due 2025       Coastal Securities   83164KYN7           $4,070,000           107.75       —-     3/24/2010            $4,377,249                     —-            $2,184      6/21/2011               $902,633         $3,151,186           $3,457,746                 $169,441
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities   83165ADC5           $7,617,617               109     —-      3/24/2010            $8,279,156                     —-            $4,130     10/19/2011             $1,685,710         $5,891,602           $6,462,972                 $449,518
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities   83165ADE1           $8,030,000          108.875      —-      3/24/2010            $8,716,265                     —-            $4,348      6/21/2011             $2,022,652         $5,964,013           $6,555,383                 $371,355
4/8/2010       Floating Rate SBA 7a security due 2034       Coastal Securities   83165AD84          $23,500,000          110.502      —-      5/28/2010           $26,041,643                     —-           $12,983        6/7/2011            $1,149,633        $22,350,367          $25,039,989               $1,089,741
4/8/2010       Floating Rate SBA 7a security due 2016       Coastal Securities   83164KZH9           $8,900,014             107.5     —-      4/30/2010            $9,598,523                     —-            $4,783        6/7/2011            $2,357,796         $6,542,218           $7,045,774                 $414,561
5/11/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83165AEE0          $10,751,382          106.806      —-      6/30/2010           $11,511,052                     —-            $5,741        6/7/2011              $932,112         $9,819,270          $10,550,917                 $348,599
5/11/2010      Floating Rate SBA 7a security due 2035       Coastal Securities   83164K2Q5          $12,898,996           109.42      —-      6/30/2010           $14,151,229                     —-            $7,057        6/7/2011              $328,604        $12,570,392          $13,886,504                 $479,508
5/11/2010      Floating Rate SBA 7a security due 2033       Coastal Securities   83165AED2           $8,744,333          110.798      —-      6/30/2010            $9,717,173                     —-            $4,844        6/7/2011              $261,145         $8,483,188           $9,482,247                 $368,608
5/25/2010      Floating Rate SBA 7a security due 2029       Coastal Securities   83164K3B7           $8,417,817          110.125      —-      7/30/2010            $9,294,363                     —-            $4,635        6/7/2011              $246,658         $8,171,159           $8,985,818                 $287,624
5/25/2010      Floating Rate SBA 7a security due 2033       Coastal Securities   83165AEK6          $17,119,972          109.553      —-      7/30/2010           $18,801,712                     —-            $9,377      9/20/2011             $2,089,260        $15,030,712          $16,658,561                 $657,863
6/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83165AEQ3          $34,441,059          110.785      —-      8/30/2010           $38,273,995                     —-           $19,077      6/21/2011             $1,784,934        $32,656,125          $36,072,056               $1,286,450
6/17/2010      Floating Rate SBA 7a security due 2034       Coastal Securities   83165AEP5          $28,209,085          112.028      —-      8/30/2010           $31,693,810                     —-           $15,801      9/20/2011             $2,278,652        $25,930,433          $29,142,474               $1,254,222
7/14/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83164K3Y7           $6,004,156          106.625      —-      9/30/2010            $6,416,804                     —-            $3,200      6/21/2011               $348,107         $5,656,049           $6,051,772                 $146,030
7/14/2010      Floating Rate SBA 7a security due 2025       Shay Financial       83164K4J9           $6,860,835          108.505      —-      9/30/2010            $7,462,726                     —-            $3,722     10/19/2011               $339,960         $6,520,875           $7,105,304                 $255,370
7/14/2010      Floating Rate SBA 7a security due 2034       Shay Financial       83165AE42          $13,183,361           111.86      —-      9/30/2010           $14,789,302                     —-            $7,373      6/21/2011               $478,520        $12,704,841          $14,182,379                 $423,725
7/29/2010      Floating Rate SBA 7a security due 2017       Coastal Securities   83164K4E0           $2,598,386          108.438      —-      9/30/2010            $2,826,678                     —-            $1,408      1/24/2012               $694,979         $1,903,407           $2,052,702                 $140,130
7/29/2010      Floating Rate SBA 7a security due 2034       Shay Financial       83164K4M2           $9,719,455           106.75      —-      10/29/2010          $10,394,984                     —-            $5,187      6/21/2011               $188,009         $9,531,446          $10,223,264                 $181,124
8/17/2010      Floating Rate SBA 7a security due 2020       Shay Financial       83165AEZ3           $8,279,048          110.198      —-      9/30/2010            $9,150,989                     —-            $4,561      9/20/2011             $1,853,831         $6,425,217           $7,078,089                 $335,082
8/17/2010      Floating Rate SBA 7a security due 2019       Coastal Securities   83165AFB5           $5,000,000          110.088      —-      10/29/2010           $5,520,652                     —-            $2,752     10/19/2011               $419,457         $4,580,543           $5,029,356                 $213,319
8/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83165AE91          $10,000,000          110.821      —-      10/29/2010          $11,115,031                     —-            $5,541     10/19/2011               $969,461         $9,030,539           $9,994,806                 $433,852
8/31/2010      Floating Rate SBA 7a security due 2020       Shay Financial       83165AEW0           $9,272,482          110.515      —-      9/29/2010           $10,277,319                     —-            $5,123      9/20/2011               $868,636         $8,403,846           $9,230,008                 $386,326
8/31/2010      Floating Rate SBA 7a security due 2024       Shay Financial       83165AFA7          $10,350,000          112.476      —-      10/29/2010          $11,672,766                     —-            $5,820     10/19/2011               $250,445        $10,099,555          $11,314,651                 $425,545
8/31/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83164K5H2           $6,900,000          105.875      —-      11/30/2010           $7,319,688                     —-            $3,652      1/24/2012               $663,200         $6,236,800           $6,556,341                 $209,956
9/14/2010      Floating Rate SBA 7a security due 2020       Shay Financial       83165AFC3           $8,902,230          111.584      —-      10/29/2010           $9,962,039                     —-            $4,966      1/24/2012             $1,398,549         $7,503,681           $8,269,277                 $447,356
9/14/2010      Floating Rate SBA 7a security due 2021       Shay Financial       83165AFK5           $8,050,000          110.759      —-      11/30/2010           $8,940,780                     —-            $4,458      1/24/2012               $996,133         $7,053,867           $7,703,610                 $354,302
9/14/2010      Floating Rate SBA 7a security due 2029       Coastal Securities   83164K5F6           $5,750,000             106.5     —-      11/30/2010           $6,134,172                     —-            $3,061      1/24/2012               $276,276         $5,473,724           $5,764,858                 $156,481
9/14/2010      Floating Rate SBA 7a security due 2026       Coastal Securities   83164K5L3           $5,741,753             110.5     —-      11/30/2010           $6,361,173                     —-            $3,172      1/24/2012             $1,433,872         $4,307,881           $4,693,918                 $239,527
9/28/2010      Floating Rate SBA 7a security due 2035       Coastal Securities   83164K5M1           $3,450,000          110.875      —-      11/30/2010           $3,834,428                     —-            $1,912     10/19/2011                $82,832         $3,367,168           $3,698,411                 $111,165
9/28/2010      Floating Rate SBA 7a security due 2034       Coastal Securities   83165AFT6          $11,482,421          113.838      —-      12/30/2010          $13,109,070                     —-            $6,535      1/24/2012               $889,646        $10,592,775          $11,818,944                 $512,131
9/28/2010      Floating Rate SBA 7a security due 2034       Shay Financial       83165AFM1          $13,402,491             113.9     —-      11/30/2010          $15,308,612                     —-            $7,632     10/19/2011               $438,754        $12,963,737          $14,433,039                 $516,624
9/28/2010      Floating Rate SBA 7a security due 2035       Shay Financial       83165AFQ2          $14,950,000          114.006      —-      12/30/2010          $17,092,069                     —-            $8,521      1/24/2012               $387,839        $14,562,161          $16,383,544                 $681,819
                                                                                                                                                                                       Total Senior
                                                              Total Purchase Face Amount         $332,596,893                  Total Investment Amount*        $368,145,452                Security          $183,555                               Total Disposition Proceeds        $334,924,711               $13,347,352
                                                                                                                                                                                         Proceeds
Notes: Numbers affected by rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014 Transactions Report.

*Subject to adjustment
1
 	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
 	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
 	 If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
   listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
   month’s factor (on or about the 11th business day of each month).
4
 	 In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
   product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
   Master Purchase Agreement.
5
 	 Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
 	 If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
   11th business day of each month).
7
 	 Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8
 	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.
                                                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




Sources: Treasury, Transactions Report, 6/30/2014, Treasury, Dividends and Interest Report, 7/10/2014.
                                                                                                                                                                                                                                                                                                                                  435
TABLE D.12                                                                                                                                                                                                                                                                                                 436
PPIP TRANSACTION DETAIL, AS OF 6/30/2014
                                                                                                                                                                        Final
                                                                                                            Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                    Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                    Paid to
Note Date         Institution      City          State Type        Description         Amount Mechanism        Date         Amount Date               Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds     Treasury
                  UST/TCW                                         Debt
                                                                                                                                                                                                                          Debt Obligation
2,4,              Senior Mortgage                                 Obligation w/
     9/30/2009                     Wilmington     DE Purchase                     $2,222,222,222     Par   1/4/2010    $200,000,000 1/4/2010     $200,000,000   $200,000,000 1/11/2010         $34,000,000   $166,000,000 w/ Contingent
5                 Securities Fund,                                Contingent
                                                                                                                                                                                                                          Proceeds
                  L.P.                                            Proceeds
                                                                                                                                                                                                                                            1/29/2010 Distribution5           $502,302
                                                                                                                                                                                                                            Contingent
                                                                                                                                                                                 1/12/2010    $166,000,000             $—                               Final
                                                                                                                                                                                                                            Proceeds        2/24/2010                              $1,223
                                                                                                                                                                                                                                                        Distribution5                          $342,176
                  UST/TCW
1,4,              Senior Mortgage                                 Membership
     9/30/2009                     Wilmington     DE Purchase                     $1,111,111,111     Par   1/4/2010    $156,250,000 1/4/2010     $156,250,000   $156,250,000                                                                1/29/2010 Distribution5       $20,091,872
5                 Securities Fund,                                Interest                                                                                                                                                  Membership
                  L.P.                                                                                                                                                           1/15/2010    $156,250,000             $—
                                                                                                                                                                                                                            Interest
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                            2/24/2010                             $48,922
                                                                                                                                                                                                                                                        Distribution5
                  Invesco Legacy
                                                                  Membership                                                                                                                                                Membership
1,6   9/30/2009   Securities Master Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010    $1,244,437,500 7/16/2010   $856,000,000   $580,960,000 2/18/2010          $2,444,347   $578,515,653
                                                                  Interest                                                                                                                                                  Interest10
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                  Fund, L.P.
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 1/14/2011     $13,677,726   $448,985,023
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 7/15/2011     $31,061,747   $184,916,192
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 3/14/2012      $3,035,546   $161,386,870
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                  Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)
                                                                                                                                                                      Final
                                                                                                           Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                   Seller                                                     Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                     Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                    Paid to
Note Date        Institution      City          State Type        Description         Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                          3/29/2012 Distribution5        $56,390,209
                                                                                                                                                                                                                                          8/9/2012    Distribution5       $1,056,751
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                        Membership        9/28/2012                             $18,772
                                                                                                                                                                               3/29/2012    $161,386,870             $—                               Distribution5
                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                                      Adjusted
                                                                                                                                                                                                                                          6/4/2013                              $69,399
                                                                                                                                                                                                                                                      Distribution5,13
                                                                                                                                                                                                                                                                  5,14
                                                                                                                                                                                                                                          7/8/2013    Distribution              $64,444
                                                                 Debt
                 Invesco Legacy                                                                                                                                                                                         Debt Obligation
2,6,                                                             Obligation w/
     9/30/2009   Securities Master Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000 2/18/2010         $4,888,718 $1,157,031,282 w/ Contingent
8                                                                Contingent
                 Fund, L.P.                                                                                                                                                                                             Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/15/2010      $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               9/15/2010     $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              11/15/2010    $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2010     $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/14/2010     $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2011     $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                          $99,764,742
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               3/14/2011    $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/14/2011    $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/20/2011     $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011     $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/15/2011     $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/12/2011     $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              10/17/2011     $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2011      $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/17/2012      $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                                                                               2/14/2012      $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                                         437
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)                                                                                                                                                                                                       438
                                                                                                                                                                     Final
                                                                                                          Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                  Seller                                                     Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                        Interest/
                                                                                                                                                                                                                                                                                    Distributions
                                                     Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                    Paid to
Note Date         Institution     City         State Type        Description         Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                         3/29/2012 Distribution5          $3,434,460
                                                                                                                                                                                                                                         8/9/2012    Distribution5             $40,556
                                                                                                                                                                                                                                                   Final
                                                                                                                                                                                                                         Contingent      9/28/2012                                $469
                                                                                                                                                                              3/14/2012    $284,468,750             $—                             Distribution5
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                     Adjusted
                                                                                                                                                                                                                                         6/4/2013                               $1,735
                                                                                                                                                                                                                                                     Distribution5,13
                                                                                                                                                                                                                                         7/8/2013    Distribution5,14           $1,611
                  Wellington
                                                                Debt
                  Management                                                                                                                                                                                           Debt Obligation
                                                                Obligation w/
2,6   10/1/2009   Legacy          Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,524,075,000 7/16/2010 $2,298,974,000 $2,298,974,000 6/26/2012       $125,000,000 $2,173,974,000 w/ Contingent
                                                                Contingent
                  Securities PPIF                                                                                                                                                                                      Proceeds
                                                                Proceeds
                  Master Fund, LP
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              9/17/2012    $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                                                                              12/6/2012    $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             12/21/2012    $630,000,000   $438,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              1/15/2013     $97,494,310   $341,479,690 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                                                         $229,105,784
                                                                                                                                                                                                                         Contingent      4/17/2013 Distribution5,11      $16,195,771
                                                                                                                                                                              1/24/2013    $341,479,690             $—
                                                                                                                                                                                                                         Proceeds        7/11/2013 Distribution5,11            $69,932
                  Wellington
                  Management
                                                                Membership                                                                                                                                               Membership
1,6   10/1/2009   Legacy          Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,262,037,500 7/16/2010 $1,149,487,000 $1,149,487,000 7/16/2012        $62,499,688 $1,086,987,313
                                                                Interest                                                                                                                                                 Interest10
                  Securities PPIF
                  Master Fund, LP
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              9/17/2012    $152,499,238   $934,488,075
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              1/15/2013    $254,581,112   $679,906,963
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              2/13/2013    $436,447,818   $243,459,145
                                                                                                                                                                                                                         Interest10

                                                                                                                                                                                                                         Membership      3/13/2013 Distribution5        $479,509,240
                                                                                                                                                                              3/13/2013    $243,459,145             $—
                                                                                                                                                                                                                         Interest10      7/11/2013 Distribution5,11       $2,802,754
                                                                                                                                                                                                                                                                               Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)
                                                                                                                                                                       Final
                                                                                                            Preliminary Adjusted                                 Investment                                 Investment After Capital
                                                    Seller                                                     Commitment3          Final Commitment Amount7        Amount9    Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                   Repayment          Repayment                                                                                     Paid to
Note Date         Institution      City          State Type        Description         Amount Mechanism       Date          Amount Date              Amount         Amount      Date             Amount          Amount Description       Date         Description           Proceeds     Treasury
                  AllianceBernstein                               Debt
                                                                                                                                                                                                                        Debt Obligation
2,6,              Legacy                                          Obligation w/
     10/2/2009                      Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,300,847,000 $2,128,000,000 5/16/2011       $30,244,575 $2,097,755,425 w/ Contingent
12                Securities Master                               Contingent
                                                                                                                                                                                                                        Proceeds
                  Fund, L.P.                                      Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011         $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                                5/3/2012     $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/14/2012     $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/23/2012    $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2012     $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/25/2012    $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/16/2012     $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/27/2012    $450,000,000   $855,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/14/2012    $272,500,000   $583,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          10/3/2012 Distribution5,11     $12,012,957
                                                                                                                                                                                                                                                                                            $252,376,156
                                                                                                                                                                                                                        Contingent        12/21/2012 Distribution5,11            $16,967
                                                                                                                                                                               8/22/2012    $583,467,339             $—
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                       Distribution
                                                                                                                                                                                                                                          8/13/2013                                ($460)
                                                                                                                                                                                                                                                       Refund
                  AllianceBernstein
                  Legacy                                          Membership                                                                                                                                              Membership
1,6   10/2/2009                     Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,150,423,500 $1,064,141,738 1/15/2010           $44,043 $1,064,097,694
                  Securities Master                               Interest                                                                                                                                                Interest10
                  Fund, L.P.
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               2/14/2011        $712,284 $1,063,385,410
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               3/14/2011      $6,716,327 $1,056,669,083
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               4/14/2011      $7,118,388 $1,049,550,694
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/14/2012     $39,999,800 $1,009,550,894
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               6/14/2012    $287,098,565   $722,452,330
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               7/16/2012     $68,749,656   $653,702,674
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               8/14/2012    $361,248,194   $292,454,480
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          8/30/2012 Distribution5,11     $75,278,664
                                                                                                                                                                                                                                          9/12/2012 Distribution5,11     $79,071,633
                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                                                                                                                                          9/19/2012 Distribution5,11    $106,300,357
                                                                                                                                                                                                                        Membership
                                                                                                                                                                               8/30/2012    $292,454,480             $—                   10/1/2012 Distribution5,11     $25,909,972
                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                          12/21/2012 Distribution5,11        $678,683
                                                                                                                                                                                                                                                       Distribution
                                                                                                                                                                                                                                          8/13/2013                          ($18,405)
                                                                                                                                                                                                                                                       Refund
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                           439
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                                 (CONTINUED)                                                                                                                                                                                                        440
                                                                                                                                                                         Final
                                                                                                             Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                     Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                        Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                    Paid to
Note Date          Institution       City         State Type        Description         Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                   Debt
                                                                                                                                                                                                                           Debt Obligation
                   Blackrock PPIF,                                 Obligation w/
2,6   10/2/2009                      Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,389,960,000 $1,053,000,000 7/31/2012        $175,000,000   $878,000,000 w/ Contingent
                   L.P.                                            Contingent
                                                                                                                                                                                                                           Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/14/2012      $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/31/2012     $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/17/2012      $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/28/2012     $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation                                                   $72,443,278
                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                                                                                 10/15/2012     $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                             11/5/2012 Distribution5,11      $8,289,431
                                                                                                                                                                                                                             Contingent
                                                                                                                                                                                 10/18/2012    $794,459,374             $—                   12/5/2012 Distribution5,11      $1,433,088
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                             12/6/2013 Distribution5,11        $141,894
                   Blackrock PPIF,                                 Membership                                                                                                                                                Membership
1,6   10/2/2009                      Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $694,980,000   $528,184,800 8/14/2012         $90,269,076   $437,915,724
                   L.P.                                            Interest                                                                                                                                                  Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  9/17/2012      $8,833,632   $429,082,092
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 10/15/2012     $10,055,653   $419,026,439
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             11/5/2012 Distribution5,11   $297,511,708
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  11/5/2012    $419,026,439             $—                   12/5/2012 Distribution5,11    $57,378,964
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             12/6/2013 Distribution5,11      $1,609,739
                                                                   Debt
                                                                                                                                                                                                                           Debt Obligation
                   AG GECC PPIF                                    Obligation w/
2,6   10/30/2009                     Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,542,675,000 7/16/2010 $2,486,550,000 $2,234,798,340 2/14/2012        $174,200,000 $2,060,598,340 w/ Contingent
                   Master Fund, L.P.                               Contingent
                                                                                                                                                                                                                           Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  3/14/2012    $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  5/14/2012    $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  7/16/2012     $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                                                                                                                            $283,096,130
                                                                                                                                                                                  8/14/2012    $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/17/2012    $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 10/15/2012    $481,350,000   $806,023,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 11/15/2012    $274,590,324   $531,433,016 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 12/14/2012    $147,534,295   $383,898,721 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                   Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                                              (CONTINUED)
                                                                                                                                                                                     Final
                                                                                                                          Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                           Seller                                                            Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                        Interest/
                                                                                                                                                                                                                                                                                                    Distributions
                                                            Transaction Investment                Commitment   Pricing                                                                   Repayment           Repayment                                                                                    Paid to
Note Date          Institution          City          State Type        Description                  Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                                              1/15/2013    $182,823,491   $201,075,230 w/ Contingent
                                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                         4/19/2013 Distribution5,11    $17,118,005
                                                                                                                                                                                                                                         Contingent
                                                                                                                                                                                              2/14/2013    $201,075,230             $—                   4/25/2013 Distribution5,11      $1,052,497
                                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                         5/29/2013 Distribution5,11      $1,230,643
                   AG GECC PPIF                                                    Membership                                                                                                                                            Membership
1,6   10/30/2009                      Wilmington DE Purchase                                    $1,111,111,111      Par 3/22/2010   $1,271,337,500 7/16/2010 $1,243,275,000 $1,117,399,170 2/14/2012        $87,099,565 $1,030,299,606
                   Master Fund, L.P.                                               Interest                                                                                                                                              Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                              3/14/2012     $99,462,003   $930,837,603
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                              5/14/2012     $74,999,625   $855,837,978
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                              7/16/2012     $18,749,906   $837,088,072
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                              8/14/2012     $68,399,658   $768,688,414
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                              9/17/2012    $124,999,375   $643,689,039
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             10/15/2012    $240,673,797   $403,015,242
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             11/15/2012     $45,764,825   $357,250,417
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             12/14/2012     $24,588,926   $332,661,491
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                              1/15/2013     $30,470,429   $302,191,061
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                              2/14/2013    $295,328,636     $6,862,425
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                         2/21/2013 Distribution5,11   $184,431,858
                                                                                                                                                                                                                                                         2/27/2013 Distribution5,11    $20,999,895

                                                                                                                                                                                                                                       Membership        3/14/2013 Distribution5,11   $156,174,219
                                                                                                                                                                                              2/21/2013      $6,862,425             $—
                                                                                                                                                                                                                                       Interest10        4/19/2013 Distribution5,11   $105,620,441
                                                                                                                                                                                                                                                         4/25/2013 Distribution5,11    $42,099,442
                                                                                                                                                                                                                                                         5/29/2013 Distribution5,11    $49,225,244
                                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                                                        441
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)                                                                                                                                                                                                         442
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                   Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                     Paid to
Note Date         Institution      City         State Type        Description         Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds     Treasury
                  RLJ Western                                    Debt
                                                                                                                                                                                                                         Debt Obligation
                  Asset Public/                                  Obligation w/
2,6   11/4/2009                    Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,241,156,516 $1,241,000,000 5/13/2011         $13,531,530 $1,227,468,470 w/ Contingent
                  Private Master                                 Contingent
                                                                                                                                                                                                                         Proceeds
                  Fund, L.P.                                     Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                7/31/2012    $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                 8/9/2012    $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/14/2012     $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/23/2012    $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                                                                                8/29/2012    $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/17/2012     $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11       $6,789,287
                                                                                                                                                                                                                                           11/2/2012 Distribution5,11        $3,718,769
                                                                                                                                                                                                                         Contingent                                                         $161,505,775
                                                                                                                                                                                9/21/2012    $161,866,170             $—                   12/21/2012 Distribution5,11            $13,750
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                           12/11/2013                              $1,884
                                                                                                                                                                                                                                                        Distribution5,11
                  RLJ Western
                  Asset Public/                                  Membership                                                                                                                                                Membership
1,6   11/4/2009                    Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $620,578,258   $620,578,258 3/14/2011          $1,202,957   $619,375,301
                  Private Master                                 Interest                                                                                                                                                  Interest10
                  Fund, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                4/14/2011      $3,521,835   $615,853,465
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                8/14/2012    $104,959,251   $510,894,215
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/17/2012     $72,640,245   $438,253,970
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/28/2012    $180,999,095   $257,254,875
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               10/15/2012    $134,999,325   $122,255,550
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11     $147,464,888
                                                                                                                                                                                                                                           11/2/2012 Distribution5,11      $148,749,256
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               10/19/2012    $122,255,550             $—                   12/21/2012 Distribution5,11        $549,997
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                           12/11/2013                             $75,372
                                                                                                                                                                                                                                                        Distribution5,11
                                                                                                                                                                                                                                                                                  Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                   Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                     Paid to
Note Date          Institution     City         State Type        Description         Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds     Treasury
                 Marathon Legacy
                                                                 Debt
                 Securities                                                                                                                                                                                              Debt Obligation
                                                                 Obligation w/
2,6   11/25/2009 Public-Private    Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010   $949,100,000   $949,000,000 9/17/2012        $149,000,000   $800,000,000 w/ Contingent
                                                                 Contingent
                 Investment                                                                                                                                                                                              Proceeds
                                                                 Proceeds
                 Partnership, L.P.
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/15/2012    $119,575,516   $680,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/20/2012    $195,000,000   $485,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               12/14/2012     $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                1/15/2013     $62,456,214   $375,212,503 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11        $7,143,340
                                                                                                                                                                                                                                           5/16/2013 Distribution5,11         $963,411
                                                                                                                                                                                                                           Contingent
                                                                                                                                                                                1/24/2013    $375,212,503             $—                   7/11/2013 Distribution5,11         $750,004
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11      $100,001
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11        $142,168
                                                                                                                                                                                                                                                                                            $77,496,170
                 Marathon Legacy
                 Securities
                                                                 Membership                                                                                                                                              Membership
1,6   11/25/2009 Public-Private    Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $474,550,000   $474,550,000 9/17/2012         $74,499,628   $400,050,373
                                                                 Interest                                                                                                                                                Interest10
                 Investment
                 Partnership, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               11/15/2012     $59,787,459   $340,262,914
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               12/14/2012     $40,459,092   $299,803,821
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/15/2013     $10,409,317   $289,394,504
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/30/2013    $219,998,900    $69,395,604
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                2/25/2013     $39,026,406    $30,369,198
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           3/25/2013 Distribution5,11      $164,629,827
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11       $71,462,104

                                                                                                                                                                                                                           Membership      5/16/2013 Distribution5,11       $38,536,072
                                                                                                                                                                                3/25/2013     $30,369,198             $—
                                                                                                                                                                                                                           Interest10      7/11/2013 Distribution5,11       $29,999,850
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11     $3,999,980
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11       $5,707,723
                                                                 Debt
                                                                                                                                                                                                                         Debt Obligation
                   Oaktree PPIP                                  Obligation w/
2,6   12/18/2009                   Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,321,568,200 $1,111,000,000 7/15/2011         $79,000,000 $1,032,000,000 w/ Contingent
                   Fund, L.P.                                    Contingent
                                                                                                                                                                                                                         Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                3/14/2012     $78,775,901   $953,224,099 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/17/2012     $44,224,144   $908,999,956 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                                                                               10/15/2012     $64,994,269   $844,005,687 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/15/2012    $223,080,187   $620,925,500 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                           443
                                                                                                                                                                                                                                                                                                        444
PPIP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)
                                                                                                                                                                      Final
                                                                                                        Preliminary Adjusted                                    Investment                                  Investment After Capital
                                                Seller                                                     Commitment3             Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                     Distributions
                                                   Transaction Investment       Commitment   Pricing                                                                      Repayment           Repayment                                                                                    Paid to
Note Date         Institution   City         State Type        Description         Amount Mechanism       Date          Amount Date                 Amount         Amount      Date              Amount         Amount Description        Date         Description          Proceeds     Treasury
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2012    $111,080,608   $509,844,892 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/15/2013     $89,099,906   $420,744,985 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/12/2013    $109,610,516   $311,134,469 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          5/28/2013 Distribution5,11        $444,393
                                                                                                                                                                                                                                          6/3/2013     Distribution5,11    $1,960,289
                                                                                                                                                                                                                                          6/14/2013 Distribution5,11       $1,375,007
                                                                                                                                                                                                                        Contingent        6/24/2013 Distribution5,11        $700,004
                                                                                                                                                                               5/14/2013    $311,134,469             $—
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          6/26/2013 Distribution5,11        $293,751
                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                                                                                                                                          7/9/2013     Distribution5,11    $1,024,380
                                                                                                                                                                                                                                                       Final
                                                                                                                                                                                                                                          12/12/2013                            $13,475
                                                                                                                                                                                                                                                       Distribution5,11
                 Oaktree PPIP                                  Membership                                                                                                                                               Membership
1,6   12/18/2009                Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,160,784,100     $555,904,633 7/15/2011         $39,499,803   $516,404,830
                 Fund, L.P.                                    Interest                                                                                                                                                 Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               3/14/2012     $39,387,753   $477,017,077
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               9/17/2012     $22,111,961   $454,905,116                                                                   $66,648,417
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              10/15/2012     $32,496,972   $422,408,144
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              11/15/2012    $111,539,536   $310,868,608
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              12/14/2012     $55,540,026   $255,328,581
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               1/15/2013     $14,849,910   $240,478,671
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               4/12/2013     $18,268,328   $222,210,343
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/14/2013     $70,605,973   $151,604,370
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/28/2013    $119,769,362    $31,835,008
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          6/3/2013     Distribution5,11   $46,575,750
                                                                                                                                                                                                                                          6/14/2013 Distribution5,11      $54,999,725
                                                                                                                                                                                                                                          6/24/2013 Distribution5,11      $27,999,860
                                                                                                                                                                                                                        Membership
                                                                                                                                                                                6/3/2013     $31,835,008             $—                   6/26/2013 Distribution5,11      $11,749,941
                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                          7/9/2013     Distribution5,11   $40,974,795
                                                                                                                                                                                                                                                       Final
                                                                                                                                                                                                                                          12/12/2013                        $539,009
                                                                                                                                                                                                                                                       Distribution5,11
                                                                                                                                                                                                                                                                     5
                                   Initial Investment Amount                 $30,000,000,000             Final Investment Amount           $21,856,403,574    Total Capital Repayment $18,625,147,938                                              Total Proceeds $2,643,315,922
   Notes: Numbers may not total due to rounding. Data as of 6/30/2014. Numbered notes were taken verbatim from Treasury’s 6/30/2014, Transactions Report.

   1
    	       The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
   2
    	        The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
   3
    	       Adjusted to show Treasury’s maximum obligations to a fund.
   4
    	       On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
   5
    	       Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds
            (reported on the Dividends & Interest report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
   6
    	       Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after
            adjustment for the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
   7
    	       Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
   8
    	       On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
   9
    	       Cumulative capital drawn at end of the Investment Period.
   10
     	      The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
   11
     	      Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
   12
     	      On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.
   13
     	      On, 6/5/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury that is the result of adjustments made to positions previously held by the Invesco Legacy Securities Master Fund, L.P. “Partnership”, of which The U.S. Department of the Treasury is a Limited Partner. The adjusted distribution was
            made 18 months after the Final Distribution on 9/28/2012.
   14
        	   On 7/8/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury arising from the Settlement Agreement between Jefferies LLC and Invesco Advisers, Inc. dated as of 3/20/2013.

   Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Dividends and Interest Report, 7/10/2014.




TABLE D.13
HAMP TRANSACTION DETAIL, AS OF 6/30/2014
                                                                                                                                          Adjustment
                      Servicer Modifying Borrowers’ Loans                                                                                     Details                                                                                                                                          TARP Incentive Payments
                                                                                          Cap of Incentive
                                                                                      Payments on Behalf
                                                                                      of Borrowers and to                                                                                                                                                                                      Lenders/                                       Total TARP
                                                 Transaction      Investment         Servicers & Lenders/       Pricing                   Adjustment        Cap Adjustment                                                                                              Borrower’s             Investors               Servicers                Incentive
Date                  Name of Institution        Type             Description             Investors (Cap)*      Mechanism        Note           Date               Amount           Adjusted Cap      Reason for Adjustment                                             Incentives            Incentives              Incentives               Payments
                                                                                                                                            3/3/2013                $130,000            $130,000      Transfer of cap due to servicing transfer
                                                                                                                                            3/3/2013                                    $129,999      Updated due to quarterly assessment and reallocation
                                                                                                                                         12/16/2013                  $30,000            $159,999      Transfer of cap due to servicing transfer

                                                                  Financial                                                              12/23/2013                      ($96)          $159,903      Updated due to quarterly assessment and reallocation
                      21st Mortgage
                                                                  Instrument for
3/3/2013              Corporation,               Purchase                                                 $0    N/A                3       1/16/2014                $180,000            $339,903      Transfer of cap due to servicing transfer                          $170,637              $588,936                $180,618                 $940,191
                                                                  Home Loan
                      Knoxville, TN
                                                                  Modifications                                                             3/3/2014                     ($20)          $339,883      Updated due to quarterly assessment and reallocation
                                                                                                                                            4/4/2014            $10,000,000          $10,339,883      Transfer of cap due to servicing transfer
                                                                                                                                            6/6/2014                $190,000         $10,529,883      Transfer of cap due to servicing transfer
                                                                                                                                            6/6/2014                 ($3,148)        $10,526,735      Updated due to quarterly assessment and reallocation
                                                                  Financial                                                                 9/9/2010                 $45,056            $145,056      Updated portfolio data from servicer
                      AgFirst Farm Credit                         Instrument for
9/9/2010                                         Purchase                                          $100,000     N/A                                                                                                                                                              $0                    $0                     $0                       $0
                      Bank, Columbia, SC                          Home Loan
                                                                  Modifications                                                             3/3/2011              ($145,056)                    $0    Termination of SPA

                                                                                                                                                                                                      Updated portfolio data from servicer/additional
                                                                                                                                             10/2/2/9                $60,000            $310,000
                                                                                                                                                                                                      program initial cap
                                                                                                                                                                                                      Updated portfolio data from servicer/additional
                                                                                                                                         12/30/2009                 ($80,000)           $230,000
                                                                                                                                                                                                      program initial cap
                                                                                                                                            3/3/2010                $280,000            $510,000      Updated portfolio data from servicer
                                                                                                                                           7/14/2010              ($410,000)            $100,000      Updated portfolio data from servicer
                                                                  Financial                                                                 9/9/2010                 $45,056            $145,056      Updated portfolio data from servicer
                      Allstate Mortgage Loans
                                                                  Instrument for
9/9/2009              & Investments, Inc.,       Purchase                                          $250,000     N/A                         6/6/2011                      ($1)          $145,055      Updated due to quarterly assessment and reallocation                  $6,742              $11,185                   $8,036                 $25,963
                                                                  Home Loan
                      Ocala, FL
                                                                  Modifications                                                             6/6/2012                      ($1)          $145,054      Updated due to quarterly assessment and reallocation
                                                                                                                                            9/9/2012                      ($2)          $145,052      Updated due to quarterly assessment and reallocation
                                                                                                                                            3/3/2013                      ($1)          $145,051      Updated due to quarterly assessment and reallocation
                                                                                                                                         12/23/2013                    ($232)           $144,819      Updated due to quarterly assessment and reallocation
                                                                                                                                            3/3/2014                      ($8)          $144,811      Updated due to quarterly assessment and reallocation
                                                                                                                                            6/6/2014                     ($96)          $144,715      Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                                                                                            445
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)                                                                                                                                                                                          446
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                    Financial
            Amarillo National Bank,                 Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                             Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Amarillo, TX                            Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $70,000     $1,660,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        ($290,000)     $1,370,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($570,000)       $800,000    Updated portfolio data from servicer
                                                    Financial
            American Eagle Federal
                                                    Instrument for                                               9/30/2010           $70,334       $870,334    Updated portfolio data from servicer
12/9/2009   Credit Union, East        Purchase                                 $1,590,000    N/A                                                                                                                             $0           $0                 $0                      $0
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                    Home Loan
            Hartford, CT                                                                                          1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                 1/25/2012        ($870,319)             $0    Termination of SPA
                                                    Financial                                                    9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
            American Finance
                                                    Instrument for
9/24/2010   House LARIBA,             Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                    Home Loan
            Pasadena, CA                                                                                          2/2/2011        ($145,056)             $0    Termination of SPA
                                                    Modifications
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                    Financial
            American Financial                                                                                   9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Instrument for
9/30/2010   Resources Inc.,           Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                    Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
            Parsippany, NJ
                                                    Modifications
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 10/2/2009         $960,000      $5,350,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       ($3,090,000)    $2,260,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $230,000      $2,490,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        $5,310,000     $7,800,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010         $323,114      $8,123,114    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($12)    $8,123,102    Updated due to quarterly assessment and reallocation
                                                                                                                 3/16/2011         $600,000      $8,723,102    Transfer of cap due to servicing transfer
                                                    Financial
            AMS Servicing, LLC,                     Instrument for                                               3/30/2011              ($16)    $8,723,086    Updated due to quarterly assessment and reallocation
9/23/2009                             Purchase                                 $4,390,000    N/A                                                                                                                        $36,866    $174,536           $103,775                $315,177
            Buffalo, NY                             Home Loan
                                                                                                                 4/13/2011         $200,000      $8,923,086    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 5/13/2011         $100,000      $9,023,086    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011             ($153)    $9,022,933    Updated due to quarterly assessment and reallocation
                                                                                                                 9/15/2011         $100,000      $9,122,933    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $100,000      $9,222,933    Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012        $1,100,000    $10,322,933    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012         $650,000     $10,972,933    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($136)   $10,972,797    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012             ($347)   $10,972,450    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                10/16/2012         $250,000     $11,222,450    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012          $30,000     $11,252,450    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012         ($10,000)    $11,242,450    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012              ($59)   $11,242,391    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013          $20,000     $11,262,391    Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013         $290,000     $11,552,391    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013          $10,000     $11,562,391    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013            ($220)    $11,562,171    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013         ($60,000)    $11,502,171    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013          $50,000     $11,552,171    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013          $10,000     $11,562,171    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($79)   $11,562,092    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013         ($90,000)    $11,472,092    Transfer of cap due to servicing transfer
                                                                                                                 9/16/2013         $310,000     $11,782,092    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($28)   $11,782,064    Updated due to quarterly assessment and reallocation
                                                                                                                10/15/2013         $230,000     $12,012,064    Transfer of cap due to servicing transfer
                                                                                                                11/14/2013         $120,000     $12,132,064    Transfer of cap due to servicing transfer
                                                                                                                12/16/2013         $460,000     $12,592,064    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013         ($49,413)    $12,542,651    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2014          $40,000     $12,582,651    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014        ($260,000)    $12,322,651    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014           ($1,697)   $12,320,954    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2014         $100,000     $12,420,954    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2014          $30,000     $12,450,954    Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014         ($20,009)    $12,430,945    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 5/26/2010          $30,000         $40,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010         $250,111        $290,111    Updated portfolio data from servicer
                                                                                                                 6/29/2011          $59,889        $350,000    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($2)      $349,998    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    9/27/2012               ($5)      $349,993    Updated due to quarterly assessment and reallocation
            Aurora Financial Group,                 Instrument for
5/21/2010                             Purchase                                    $10,000    N/A                                                                                                                        $24,689           $0           $27,844                 $52,533
            Inc., Marlton, NJ                       Home Loan                                                   12/27/2012               ($1)      $349,992    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/25/2013               ($3)      $349,989    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($1)      $349,988    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013            ($759)       $349,229    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014              ($27)      $349,202    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014            ($315)       $348,887    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                           447
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                             448
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                               6/17/2009    ($338,450,000)    $459,550,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($11,860,000)   $447,690,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $21,330,000    $469,020,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010        $9,150,000    $478,170,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($76,870,000)   $401,300,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                                9/1/2010          $400,000    $401,700,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       ($8,454,269)   $393,245,731   Updated portfolio data from servicer
                                                                                                                1/6/2011             ($342)   $393,245,389   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011             ($374)   $393,245,015   Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011       $18,000,000    $411,245,015   Transfer of cap due to servicing transfer

                                                  Financial                                                    6/29/2011           ($3,273)   $411,241,742   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




            Aurora Loan Services,                 Instrument for                                              10/14/2011        ($200,000)    $411,041,742   Transfer of cap due to servicing transfer
5/1/2009                            Purchase                              $798,000,000     N/A         11                                                                                                           $15,997,418   $41,236,850       $28,629,251             $85,863,519
            LLC, Littleton, CO                    Home Loan
                                                  Modifications                                                3/15/2012          $100,000    $411,141,742   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        ($500,000)    $410,641,742   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($1,768)   $410,639,974   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012          ($90,000)   $410,549,974   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012    ($134,230,000)    $276,319,974   Transfer of cap due to servicing transfer
                                                                                                               8/23/2012    ($166,976,849)    $109,343,125   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                $1    $109,343,126   Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012        ($230,000)    $109,113,126   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013               ($1)   $109,113,125   Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013          ($20,000)   $109,093,125   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013          ($50,000)   $109,043,125   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($15)   $109,043,110   Updated due to quarterly assessment and reallocation
                                                                                                                7/9/2013      ($23,179,591)    $85,863,519   Termination of SPA
                                                                                                               9/30/2010          $765,945      $2,465,945   Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3)     $2,465,942   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($4)     $2,465,938   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($36)     $2,465,902   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($30)     $2,465,872   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($83)     $2,465,789   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($14)     $2,465,775   Updated due to quarterly assessment and reallocation

                                                  Financial                                                    3/25/2013              ($53)     $2,465,722   Updated due to quarterly assessment and reallocation
            Banco Popular de
                                                  Instrument for
9/30/2010   Puerto Rico, San        Purchase                                 $1,700,000    N/A                 6/27/2013              ($20)     $2,465,702   Updated due to quarterly assessment and reallocation      $54,021       $59,463            $34,510                $147,994
                                                  Home Loan
            Juan, PR
                                                  Modifications                                                9/16/2013          $460,000      $2,925,702   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013               ($7)     $2,925,695   Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013          ($12,339)     $2,913,356   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014           $50,000      $2,963,356   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014             ($449)     $2,962,907   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014           $10,000      $2,972,907   Transfer of cap due to servicing transfer
                                                                                                               5/15/2014           $20,000      $2,992,907   Transfer of cap due to servicing transfer
                                                                                                               6/26/2014           ($5,322)     $2,987,585   Updated due to quarterly assessment and reallocation
                                                  Financial
            Bangor Savings Bank,                  Instrument for
9/15/2011                           Purchase                                         $0    N/A          3      9/15/2011          $100,000       $100,000    Transfer of cap due to servicing transfer                      $0             $0                 $0                      $0
            Bangor, ME                            Home Loan
                                                  Modifications
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                                TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                                6/12/2009         $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009      $162,680,000      $967,120,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009      $665,510,000     $1,632,630,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                1/26/2010      $800,390,000     $2,433,020,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010     ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                                7/14/2010     ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2010        $95,300,000    $1,332,200,000
                                                                                                                                                                 program initial cap
                                                   Financial
            Bank of America, N.A.,                 Instrument for                                               9/30/2010      $222,941,084     $1,555,141,084   Updated portfolio data from servicer
4/17/2009                            Purchase                              $798,900,000     N/A         7, 7                                                                                                              $4,099,062    $17,843,110        $9,075,439             $31,017,611
            Simi Valley, CA                        Home Loan
                                                   Modifications                                                 1/6/2011            ($2,199)   $1,555,138,885   Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011            ($2,548)   $1,555,136,337   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011           ($23,337)   $1,555,113,000   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011         ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011     ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012         ($200,000)    $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012           ($17,893)   $1,432,995,107   Updated due to quarterly assessment and reallocation
                                                                                                                8/10/2012    ($1,401,716,594)     $31,278,513    Termination of SPA
                                                                                                               10/16/2013         ($260,902)      $31,017,611    Termination of SPA
                                                                                                                6/12/2009     $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009     ($717,420,000)    $4,465,420,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009     $2,290,780,000    $6,756,200,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                1/26/2010      $450,100,000     $7,206,300,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010      $905,010,000     $8,111,310,000   Updated portfolio data from servicer
                                                                                                                4/19/2010        $10,280,000    $8,121,590,000   Transfer of cap due to servicing transfer
                                                                                                                6/16/2010      $286,510,000     $8,408,100,000   Transfer of cap due to servicing transfer
                                                                                                                7/14/2010    ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2010      $105,500,000     $6,726,300,000
                                                                                                                                                                 program initial cap
                                                                                                                9/30/2010     ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
            Bank of America, N.A.                  Financial                                                   12/15/2010      $236,000,000     $6,347,772,638   Transfer of cap due to servicing transfer
            (BAC Home Loans                        Instrument for
4/17/2009                            Purchase                            $1,864,000,000     N/A                  1/6/2011            ($8,012)   $6,347,764,626   Updated due to quarterly assessment and reallocation   $329,036,885   $679,619,800      $396,397,538          $1,405,054,223
            Servicing, LP) , Simi                  Home Loan
            Valley, CA                             Modifications
                                                                                                                2/16/2011         $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                                3/16/2011           $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011            ($9,190)   $6,349,655,436   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011           $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011           $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011        ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011           ($82,347)   $6,349,073,089   Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011         ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                8/16/2011        ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011        ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011      $120,600,000     $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                               10/19/2011      $317,956,289     $6,782,629,378   Transfer of cap due to merger/acquisition
                                                                                                               11/16/2011           $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                  449




                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                    (CONTINUED)                                                                                                                                                                                            450
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                      12/15/2011      ($17,600,000)   $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                       2/16/2012       ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                       3/15/2012      ($23,900,000)   $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                       4/16/2012      ($63,800,000)   $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                       5/16/2012           $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                       6/14/2012       ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                       6/28/2012          ($58,550)   $6,667,130,828   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2012       ($6,840,000)   $6,660,290,828   Transfer of cap due to servicing transfer
                                                                                                       8/10/2012    $1,401,716,594    $8,062,007,423   Transfer of cap due to merger/acquisition
                                                                                                       8/16/2012       ($4,780,000)   $8,057,227,423   Transfer of cap due to servicing transfer
                                                                                                       9/27/2012        ($205,946)    $8,057,021,476   Updated due to quarterly assessment and reallocation
                                                                                                      10/16/2012    ($153,220,000)    $7,903,801,476   Transfer of cap due to servicing transfer
                                                                                                      11/15/2012      ($27,300,000)   $7,876,501,476   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                      12/14/2012      ($50,350,000)   $7,826,151,476   Transfer of cap due to servicing transfer
                                                                                                      12/27/2012          ($33,515)   $7,826,117,961   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2013      ($27,000,000)   $7,799,117,961   Transfer of cap due to servicing transfer
                                                                                                       2/14/2013      ($41,830,000)   $7,757,287,961   Transfer of cap due to servicing transfer
                                                                                                       3/14/2013       ($5,900,000)   $7,751,387,961   Transfer of cap due to servicing transfer
                                                                                                       3/25/2013        ($122,604)    $7,751,265,357   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2013       ($1,410,000)   $7,749,855,357   Transfer of cap due to servicing transfer
                                                                                                       5/16/2013        ($940,000)    $7,748,915,357   Transfer of cap due to servicing transfer
                                                                                                       6/14/2013      ($16,950,000)   $7,731,965,357   Transfer of cap due to servicing transfer
                                                                                                       6/27/2013          ($45,103)   $7,731,920,254   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2013      ($25,580,000)   $7,706,340,254   Transfer of cap due to servicing transfer
                                                                                                       8/15/2013       ($6,730,000)   $7,699,610,254   Transfer of cap due to servicing transfer
                                                                                                       9/16/2013    ($290,640,000)    $7,408,970,254   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013          ($15,411)   $7,408,954,843   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013      ($79,200,000)   $7,329,754,843   Transfer of cap due to servicing transfer
                                                                                                      10/16/2013          $260,902    $7,330,015,745   Transfer of cap due to merger/acquisition
                                                                                                      11/14/2013      ($14,600,000)   $7,315,415,745   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013      ($23,220,000)   $7,292,195,745   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013      ($25,226,860)   $7,266,968,885   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2014      ($27,070,000)   $7,239,898,885   Transfer of cap due to servicing transfer
                                                                                                       2/13/2014    ($110,110,000)    $7,129,788,885   Transfer of cap due to servicing transfer
                                                                                                       3/14/2014      ($27,640,000)   $7,102,148,885   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014        ($868,425)    $7,101,280,460   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014      ($17,710,000)   $7,083,570,460   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014      ($30,040,000)   $7,053,530,460   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014       ($9,660,000)   $7,043,870,460   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014      ($10,084,970)   $7,033,785,490   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                          TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010        $4,370,000     $98,030,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010       $23,880,000    $121,910,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($16,610,000)   $105,300,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010        $1,751,033    $107,051,033   Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($77)   $107,050,956   Updated due to quarterly assessment and reallocation
                                                                                                                 3/16/2011       ($9,900,000)    $97,150,956   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($88)    $97,150,868   Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($773)    $97,150,095   Updated due to quarterly assessment and reallocation
                                                                                                                 3/15/2012       ($1,400,000)    $95,750,095   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($277)    $95,749,818   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012             ($549)    $95,749,269   Updated due to quarterly assessment and reallocation
                                                    Financial                                                   12/27/2012              ($65)    $95,749,204   Updated due to quarterly assessment and reallocation
             Bank United,Miami                      Instrument for
10/23/2009                            Purchase                               $93,660,000     N/A                                                                                                                      $8,865,524   $26,837,102       $12,519,840             $48,222,467
             Lakes, FL                              Home Loan                                                    2/14/2013       ($2,670,000)    $93,079,204   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 3/25/2013             ($142)    $93,079,062   Updated due to quarterly assessment and reallocation
                                                                                                                 5/16/2013        ($610,000)     $92,469,062   Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($48)    $92,469,014   Updated due to quarterly assessment and reallocation
                                                                                                                 9/16/2013          ($40,000)    $92,429,014   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($14)    $92,429,000   Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($30,000)    $92,399,000   Transfer of cap due to servicing transfer
                                                                                                                12/16/2013       ($1,190,000)    $91,209,000   Transfer of cap due to servicing transfer
                                                                                                                12/23/2013          ($14,953)    $91,194,047   Updated due to quarterly assessment and reallocation
                                                                                                                 2/13/2014        ($170,000)     $91,024,047   Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014             ($721)    $91,023,326   Updated due to quarterly assessment and reallocation
                                                                                                                 6/16/2014        ($660,000)     $90,363,326   Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014           ($6,982)    $90,356,344   Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 10/2/2009           $90,000       $500,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009        $1,460,000      $1,960,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010          $160,000      $2,120,000   Updated portfolio data from servicer
                                                    Financial
             Bay Federal Credit                     Instrument for                                               7/14/2010        ($120,000)      $2,000,000   Updated portfolio data from servicer
9/16/2009                             Purchase                                  $410,000     N/A                                                                                                                             $0             $0                 $0                      $0
             Union, Capitola, CA                    Home Loan
                                                                                                                 9/30/2010       ($1,419,778)      $580,222    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                  1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                 1/25/2012        ($580,212)             $0    Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $10,000       $240,000
                                                                                                                                                               program initial cap
                                                    Financial                                                    3/26/2010          $440,000       $680,000    Updated portfolio data from servicer
             Bay Gulf Credit Union,                 Instrument for
12/9/2009                             Purchase                                  $230,000     N/A                                                                                                                             $0             $0                 $0                      $0
             Tampa, FL                              Home Loan                                                    7/14/2010          ($80,000)      $600,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                                                                                10/15/2010        ($580,222)             $0    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             451
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                             452
                                                                                                               Adjustment
           Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date       Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009       $23,850,000     $68,110,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $43,590,000    $111,700,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $34,540,000    $146,240,000   Updated portfolio data from servicer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                 5/7/2010        $1,010,000    $147,250,000
                                                                                                                                                              program initial cap
                                                                                                                7/14/2010      ($34,250,000)   $113,000,000   Updated portfolio data from servicer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2010          $600,000    $113,600,000
                                                                                                                                                              program initial cap
                                                                                                                9/30/2010      ($15,252,303)    $98,347,697   Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($70)    $98,347,627   Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011              ($86)    $98,347,541   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011          $400,000     $98,747,541   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                5/13/2011          $100,000     $98,847,541   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011             ($771)    $98,846,770   Updated due to quarterly assessment and reallocation
                                                                                                                9/15/2011          $600,000     $99,446,770   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011      ($18,900,000)    $80,546,770   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012          $900,000     $81,446,770   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012        $2,400,000     $83,846,770   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012        ($100,000)     $83,746,770   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012          $200,000     $83,946,770   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012           $30,000     $83,976,770   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012        $1,810,000     $85,786,770   Transfer of cap due to servicing transfer
                                                   Financial
           Bayview Loan Servicing,                 Instrument for                                               6/28/2012             ($508)    $85,786,262   Updated due to quarterly assessment and reallocation
7/1/2009                             Purchase                               $44,260,000     N/A                                                                                                                      $14,759,962   $31,161,950       $18,556,382             $64,478,294
           LLC, Coral Gables, FL                   Home Loan
                                                   Modifications                                                7/16/2012        $2,660,000     $88,446,262   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012           ($1,249)    $88,445,013   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012          $160,000     $88,605,013   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012        $6,970,000     $95,575,013   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012       $13,590,000    $109,165,013   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012             ($298)   $109,164,715   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013           $90,000    $109,254,715   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013        $3,250,000    $112,504,715   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013          $830,000    $113,334,715   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013           ($1,023)   $113,333,692   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013        $1,490,000    $114,823,692   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013          $660,000    $115,483,692   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013        $7,470,000    $122,953,692   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013             ($308)   $122,953,384   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013       $21,430,000    $144,383,384   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013       $11,730,000    $156,113,384   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($91)   $156,113,293   Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013        $5,430,000    $161,543,293   Transfer of cap due to servicing transfer
                                                                                                               11/14/2013       $20,900,000    $182,443,293   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013          $260,000    $182,703,293   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013        ($131,553)    $182,571,740   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014        $1,070,000    $183,641,740   Transfer of cap due to servicing transfer
                                                                                                                2/13/2014        $2,570,000    $186,211,740   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
            Servicer Modifying Borrowers’ Loans                                                                       Details                                                                                                         TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution         Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                   3/14/2014        $1,530,000    $187,741,740   Transfer of cap due to servicing transfer
                                                                                                                   3/26/2014           ($1,050)   $187,740,690   Updated due to quarterly assessment and reallocation
                                                                                                                   4/16/2014        $5,270,000    $193,010,690   Transfer of cap due to servicing transfer
                                                                                                                   5/15/2014         $500,000     $193,510,690   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2014        $2,600,000    $196,110,690   Transfer of cap due to servicing transfer
                                                                                                                   6/26/2014       $18,557,651    $214,668,341   Updated due to quarterly assessment and reallocation
                                                      Financial
            BMO Harris Bank, NA,                      Instrument for
5/15/2014                               Purchase                                         $0    N/A          3      5/15/2014           $30,000        $30,000    Transfer of cap due to servicing transfer                     $0           $0                  $0                      $0
            Chicago, IL                               Home Loan
                                                      Modifications
                                                                                                                   9/30/2010        $1,040,667      $1,740,667   Updated portfolio data from servicer

                                                      Financial                                                     1/6/2011               ($2)     $1,740,665   Updated due to quarterly assessment and reallocation
            Bramble Savings Bank,                     Instrument for
8/20/2010                               Purchase                                  $700,000     N/A                 3/30/2011               ($3)     $1,740,662   Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
            Cincinanati, OH                           Home Loan
                                                      Modifications                                                6/29/2011              ($28)     $1,740,634   Updated due to quarterly assessment and reallocation
                                                                                                                   8/10/2011       ($1,740,634)            $0    Termination of SPA
                                                                                                                   7/16/2013           $10,000        $10,000    Transfer of cap due to servicing transfer

                                                      Financial                                                   12/16/2013           $30,000        $40,000    Transfer of cap due to servicing transfer
            Bridgelock Capital dba
                                                      Instrument for
7/16/2013   Peak Loan Servicing,        Purchase                                         $0    N/A          3      4/16/2014           $30,000        $70,000    Transfer of cap due to servicing transfer                     $0           $0                  $0                      $0
                                                      Home Loan
            Woodland Hills, CA
                                                      Modifications                                                6/16/2014           $40,000       $110,000    Transfer of cap due to servicing transfer
                                                                                                                   6/26/2014              ($21)      $109,979    Updated due to quarterly assessment and reallocation
                                                                                                                   9/15/2010        $1,000,000      $1,000,000   Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010         $450,556       $1,450,556   Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)     $1,450,554   Updated due to quarterly assessment and reallocation
                                                                                                                   2/16/2011        $3,000,000      $4,450,554   Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       $10,200,000     $14,650,554   Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011              ($24)    $14,650,530   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011             ($227)    $14,650,303   Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2011       $12,000,000     $26,650,303   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011        $4,100,000     $30,750,303   Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $900,000      $31,650,303   Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012         $300,000      $31,950,303   Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012             ($266)    $31,950,037   Updated due to quarterly assessment and reallocation
                                                      Financial
            Caliber Home Loans,                                                                                    9/27/2012             ($689)    $31,949,348   Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/15/2010   Inc (Vericrest Financial,   Purchase                                         $0    N/A          3                                                                                                            $968,652    $2,619,046        $1,967,206              $5,554,903
                                                      Home Loan                                                   11/15/2012         $720,000      $32,669,348   Transfer of cap due to servicing transfer
            Inc.), Oklahoma City, OK
                                                      Modifications
                                                                                                                  12/27/2012             ($114)    $32,669,234   Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013        $8,020,000     $40,689,234   Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013             ($591)    $40,688,643   Updated due to quarterly assessment and reallocation
                                                                                                                   5/16/2013          ($40,000)    $40,648,643   Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013             ($223)    $40,648,420   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013              ($80)    $40,648,340   Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013        ($135,776)     $40,512,564   Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2014       ($1,130,000)    $39,382,564   Transfer of cap due to servicing transfer
                                                                                                                   2/13/2014       ($2,500,000)    $36,882,564   Transfer of cap due to servicing transfer
                                                                                                                   3/14/2014           $90,000     $36,972,564   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                   3/26/2014           ($4,697)    $36,967,867   Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014          ($55,442)    $36,912,425   Updated due to quarterly assessment and reallocation
                                                                                                                   3/14/2014         $210,000        $210,000    Transfer of cap due to servicing transfer
                                                      Financial
            California Housing                                                                                     3/26/2014              ($20)      $209,980    Updated due to quarterly assessment and reallocation
                                                      Instrument for
3/14/2014   Finance Agency,             Purchase                                         $0    N/A          3                                                                                                                  $0           $0                  $0                      $0
                                                      Home Loan                                                    6/16/2014           $10,000       $219,980    Transfer of cap due to servicing transfer
            Sacramento, CA
                                                      Modifications
                                                                                                                                                                                                                                                                                              453




                                                                                                                   6/26/2014             ($258)      $219,722    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                             454
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                   Financial
            Capital International                                                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                   Instrument for
9/30/2010   Financial, Inc., Coral   Purchase                                  $100,000     N/A                                                                                                                              $0             $0                 $0                      $0
                                                   Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
            Gables, FL
                                                   Modifications
                                                                                                               12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                6/17/2009      ($63,980,000)   $131,020,000   Updated portfolio data from servicer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009       $90,990,000    $222,010,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $57,980,000    $279,990,000
                                                                                                                                                              program initial cap
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                3/26/2010       $74,520,000    $354,510,000   Updated portfolio data from servicer
                                                                                                                7/14/2010      ($75,610,000)   $278,900,000   Updated portfolio data from servicer
                                                                                                                8/13/2010        $1,100,000    $280,000,000   Transfer of cap due to servicing transfer
                                                                                                                9/30/2010        $3,763,685    $283,763,685   Updated portfolio data from servicer
                                                                                                               12/15/2010          $300,000    $284,063,685   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011             ($325)   $284,063,360   Updated due to quarterly assessment and reallocation
                                                                                                                1/13/2011        $2,400,000    $286,463,360   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011             ($384)   $286,462,976   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011           ($3,592)   $286,459,384   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011        $1,800,000    $288,259,384   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011          $100,000    $288,359,384   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011        $1,000,000    $289,359,384   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012        $1,100,000    $290,459,384   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012          $100,000    $290,559,384   Transfer of cap due to servicing transfer
                                                   Financial
            Carrington Mortgage                                                                                 5/16/2012          $850,000    $291,409,384   Transfer of cap due to servicing transfer
                                                   Instrument for
4/27/2009   Services, LLC, Santa     Purchase                              $195,000,000     N/A                                                                                                                      $12,018,557   $31,097,969       $20,745,332             $63,861,858
                                                   Home Loan
            Ana, CA                                                                                             6/14/2012        $2,240,000    $293,649,384   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                6/28/2012           ($2,520)   $293,646,864   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012        $1,690,000    $295,336,864   Transfer of cap due to servicing transfer
                                                                                                                8/16/2012          ($30,000)   $295,306,864   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012           ($6,632)   $295,300,232   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012        $2,880,000    $298,180,232   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012        $1,500,000    $299,680,232   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012        $2,040,000    $301,720,232   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012           ($1,103)   $301,719,129   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013          ($10,000)   $301,709,129   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013        $4,960,000    $306,669,129   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013          ($30,000)   $306,639,129   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013           ($4,179)   $306,634,950   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013          ($70,000)   $306,564,950   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013        $1,570,000    $308,134,950   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013       ($1,880,000)   $306,254,950   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013           ($1,522)   $306,253,428   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          $270,000    $306,523,428   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013        $5,370,000    $311,893,428   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                  9/27/2013             ($525)   $311,892,903   Updated due to quarterly assessment and reallocation
                                                                                                                 10/15/2013        ($240,000)    $311,652,903   Transfer of cap due to servicing transfer
                                                                                                                 11/14/2013        $2,000,000    $313,652,903   Transfer of cap due to servicing transfer
                                                                                                                 12/16/2013        $1,370,000    $315,022,903   Transfer of cap due to servicing transfer
                                                                                                                 12/23/2013        ($873,891)    $314,149,012   Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2014          $120,000    $314,269,012   Transfer of cap due to servicing transfer
                                                                                                                  2/13/2014          $280,000    $314,549,012   Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014           $50,000    $314,599,012   Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014          ($30,084)   $314,568,928   Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2014        $2,660,000    $317,228,928   Transfer of cap due to servicing transfer
                                                                                                                  5/15/2014        ($430,000)    $316,798,928   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2014        ($130,000)    $316,668,928   Transfer of cap due to servicing transfer
                                                                                                                  6/26/2014        ($351,513)    $316,317,415   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009       $13,070,000     $29,590,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009     $145,510,000     $175,100,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010    ($116,950,000)     $58,150,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($23,350,000)    $34,800,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010        $7,846,346     $42,646,346   Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($46)    $42,646,300   Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011              ($55)    $42,646,245   Updated due to quarterly assessment and reallocation
                                                     Financial
            CCO Mortgage, a                                                                                       6/29/2011             ($452)    $42,645,793   Updated due to quarterly assessment and reallocation
                                                     Instrument for
6/17/2009   division of RBS Citizens   Purchase                               $16,520,000     N/A                                                                                                                      $2,529,841   $5,869,195        $3,949,172             $12,348,209
                                                     Home Loan
            NA, Glen Allen, VA                                                                                    6/28/2012             ($309)    $42,645,484   Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012             ($807)    $42,644,677   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($131)    $42,644,546   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013             ($475)    $42,644,071   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013             ($175)    $42,643,896   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($62)    $42,643,834   Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($97,446)    $42,546,388   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($3,201)    $42,543,187   Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014          ($35,874)    $42,507,313   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             455
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                                 456
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               10/2/2009           $280,000       $1,530,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009         ($750,000)         $780,000
                                                                                                                                                                program initial cap
                                                                                                               3/26/2010           $120,000         $900,000    Updated portfolio data from servicer
                                                                                                               7/14/2010         ($300,000)         $600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010           $270,334         $870,334    Updated portfolio data from servicer
                                                                                                                1/6/2011                ($1)        $870,333    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011                ($1)        $870,332    Updated due to quarterly assessment and reallocation
            Central Florida                       Financial
            Educators Federal                     Instrument for                                               6/29/2011                ($5)        $870,327    Updated due to quarterly assessment and reallocation
9/9/2009                            Purchase                                 $1,250,000    N/A                                                                                                                           $138,924       $222,130           $257,289                $618,343
            Credit Union, Lake                    Home Loan
                                                                                                               6/28/2012            $21,717         $892,044    Updated due to quarterly assessment and reallocation
            Mary, FL                              Modifications
                                                                                                               9/27/2012           $190,077       $1,082,121    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012            $35,966       $1,118,087    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                               3/25/2013            $59,464       $1,177,551    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013            $35,438       $1,212,989    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013            $26,926       $1,239,915    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013            $87,045       $1,326,960    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014            $31,204       $1,358,164    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014            $68,259       $1,426,423    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               10/2/2009            $10,000          $40,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009           $120,000         $160,000
                                                  Financial                                                                                                     program initial cap
            Central Jersey
                                                  Instrument for
9/23/2009   Federal Credit Union,   Purchase                                    $30,000    N/A                 3/26/2010            $10,000         $170,000    Updated portfolio data from servicer                           $0              $0                 $0                      $0
                                                  Home Loan
            Woodbridge, NJ
                                                  Modifications                                                7/14/2010           ($70,000)        $100,000    Updated portfolio data from servicer
                                                                                                               9/30/2010            $45,056         $145,056    Updated portfolio data from servicer
                                                                                                              10/29/2010         ($145,056)               $0    Termination of SPA

                                                  Financial                                                    9/30/2010           $856,056       $2,756,056    Updated portfolio data from servicer
            Centrue Bank,                         Instrument for
9/24/2010                           Purchase                                 $1,900,000    N/A                  1/6/2011                ($4)      $2,756,052    Updated due to quarterly assessment and reallocation           $0              $0                 $0                      $0
            Ottawa, IL                            Home Loan
                                                  Modifications                                                 3/9/2011        ($2,756,052)              $0    Termination of SPA
                                                  Financial
            Chase Home Finance,                   Instrument for
4/13/2009                           Purchase                            $3,552,000,000     N/A          1      7/31/2009    ($3,552,000,000)              $0    Termination of SPA                                             $0              $0                 $0                      $0
            LLC, Iselin, NJ                       Home Loan
                                                  Modifications
                                                  Financial                                                    6/14/2013            $10,000          $10,000    Transfer of cap due to servicing transfer
            Cheviot Savings Bank,                 Instrument for
6/14/2013                           Purchase                                         $0    N/A          3                                                                                                                  $1,000          $1,330            $1,000                  $3,330
            Cincinnati, OH                        Home Loan
                                                  Modifications                                                6/27/2013             $1,344          $11,344    Updated due to quarterly assessment and reallocation

                                                                                                               6/12/2009     ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $1,010,180,000    $2,089,600,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     ($105,410,000)    $1,984,190,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               3/26/2010     ($199,300,000)    $1,784,890,000
                                                  Financial                                                                                                     program initial cap
            CitiMortgage, Inc.,                   Instrument for                                               4/19/2010         ($230,000)    $1,784,660,000   Transfer of cap due to servicing transfer
4/13/2009                           Purchase                            $2,071,000,000     N/A                                                                                                                         $76,576,707   $256,012,600      $117,673,164           $450,262,472
            O’Fallon, MO                          Home Loan
                                                  Modifications                                                5/14/2010        ($3,000,000)   $1,781,660,000   Transfer of cap due to servicing transfer
                                                                                                               6/16/2010      ($12,280,000)    $1,769,380,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010     ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                               7/16/2010        ($7,110,000)   $1,004,590,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        ($6,300,000)    $998,290,000    Transfer of cap due to servicing transfer
                                                                                                               9/15/2010        ($8,300,000)    $989,990,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                       Updated portfolio data from servicer/additional
                                                                                                       9/30/2010       $32,400,000    $1,022,390,000
                                                                                                                                                       program initial cap
                                                                                                       9/30/2010     $101,287,484     $1,123,677,484   Updated portfolio data from servicer
                                                                                                      10/15/2010       ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                      11/16/2010       ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                        1/6/2011             ($981)   $1,119,076,503   Updated due to quarterly assessment and reallocation
                                                                                                       1/13/2011      ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                       2/16/2011       ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                       3/16/2011      ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                       3/30/2011           ($1,031)   $1,073,475,472   Updated due to quarterly assessment and reallocation
                                                                                                       4/13/2011          $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                       5/13/2011       ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                       6/16/2011        ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                       6/29/2011           ($9,131)   $1,065,966,341   Updated due to quarterly assessment and reallocation
                                                                                                       7/14/2011      ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                       8/16/2011       ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                       9/15/2011          $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                      10/14/2011       $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                      11/16/2011       ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                      12/15/2011       ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                       1/13/2012        ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                       2/16/2012       ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                       3/15/2012       ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                       4/16/2012        ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                       5/16/2012        ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                       6/14/2012       ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                       6/28/2012           ($5,498)   $1,050,340,843   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2012    ($298,960,000)     $751,380,843    Transfer of cap due to servicing transfer
                                                                                                       7/27/2012     $263,550,000     $1,014,930,843   Transfer of cap due to servicing transfer
                                                                                                       8/16/2012           $30,000    $1,014,960,843   Transfer of cap due to servicing transfer
                                                                                                       9/27/2012          ($12,722)   $1,014,948,121   Updated due to quarterly assessment and reallocation
                                                                                                      10/16/2012       ($4,020,000)   $1,010,928,121   Transfer of cap due to servicing transfer
                                                                                                      11/15/2012       ($1,460,000)   $1,009,468,121   Transfer of cap due to servicing transfer
                                                                                                      12/14/2012       ($6,000,000)   $1,003,468,121   Transfer of cap due to servicing transfer
                                                                                                      12/27/2012           ($1,916)   $1,003,466,205   Updated due to quarterly assessment and reallocation
                                                                                                       2/14/2013       ($8,450,000)    $995,016,205    Transfer of cap due to servicing transfer
                                                                                                       3/14/2013       ($1,890,000)    $993,126,205    Transfer of cap due to servicing transfer
                                                                                                       3/25/2013           ($6,606)    $993,119,599    Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2013       ($3,490,000)    $989,629,599    Transfer of cap due to servicing transfer
                                                                                                       6/14/2013       ($3,630,000)    $985,999,599    Transfer of cap due to servicing transfer
                                                                                                       6/27/2013           ($2,161)    $985,997,438    Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2013      ($26,880,000)    $959,117,438    Transfer of cap due to servicing transfer
                                                                                                       9/16/2013      ($12,160,000)    $946,957,438    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                       9/27/2013             ($610)    $946,956,828    Updated due to quarterly assessment and reallocation
                                                                                                      11/14/2013      ($38,950,000)    $908,006,828    Transfer of cap due to servicing transfer
                                                                                                      12/16/2013       ($8,600,000)    $899,406,828    Transfer of cap due to servicing transfer
                                                                                                      12/23/2013        ($769,699)     $898,637,129    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   457
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)                                                                                                                                                                                          458
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                   1/16/2014       ($5,360,000)   $893,277,129   Transfer of cap due to servicing transfer
                                                                                                                   2/13/2014       ($7,680,000)   $885,597,129   Transfer of cap due to servicing transfer
                                                                                                                   3/14/2014       ($2,950,000)   $882,647,129   Transfer of cap due to servicing transfer
                                                                                                                   3/26/2014          ($21,827)   $882,625,302   Updated due to quarterly assessment and reallocation
                                                                                                                   4/16/2014          ($60,000)   $882,565,302   Transfer of cap due to servicing transfer
                                                                                                                   5/15/2014          ($30,000)   $882,535,302   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2014        ($330,000)    $882,205,302   Transfer of cap due to servicing transfer
                                                                                                                   6/26/2014        ($195,762)    $882,009,540   Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/30/2010         $360,445       $1,160,445   Updated portfolio data from servicer
             Citizens Community                       Instrument for
9/24/2010                               Purchase                                  $800,000     N/A                  1/6/2011               ($2)     $1,160,443   Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Bank, Freeburg, IL                       Home Loan
                                                      Modifications                                                3/23/2011       ($1,160,443)            $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $30,000       $650,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                   3/26/2010        ($580,000)        $70,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        $1,430,000      $1,500,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010           $95,612      $1,595,612   Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)     $1,595,610   Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($3)     $1,595,607   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($24)     $1,595,583   Updated due to quarterly assessment and reallocation
                                                      Financial                                                    6/28/2012              ($16)     $1,595,567   Updated due to quarterly assessment and reallocation
             Citizens First National                  Instrument for
12/16/2009                              Purchase                                  $620,000     N/A                                                                                                                        $27,230     $67,847            $46,730                $141,806
             Bank, Spring Valley, IL                  Home Loan                                                    9/27/2012              ($45)     $1,595,522   Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  12/27/2012               ($8)     $1,595,514   Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($30)     $1,595,484   Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($11)     $1,595,473   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($4)     $1,595,469   Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($6,733)     $1,588,736   Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014             ($237)     $1,588,499   Updated due to quarterly assessment and reallocation
                                                                                                                   5/15/2014          ($90,000)     $1,498,499   Transfer of cap due to servicing transfer
                                                                                                                   6/26/2014           ($2,840)     $1,495,659   Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2009          ($10,000)       $20,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009         $590,000        $610,000
                                                      Financial                                                                                                  program initial cap
             Citizens First Wholesale
                                                      Instrument for
6/26/2009    Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010        ($580,000)        $30,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
                                                      Home Loan
             The Villages, FL
                                                      Modifications                                                7/14/2010           $70,000       $100,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                   2/17/2011        ($145,056)             $0    Termination of SPA

                                                      Financial                                                    5/15/2014         $160,000        $160,000    Transfer of cap due to servicing transfer
             Columbia Bank, Fair                      Instrument for
5/15/2014                               Purchase                                         $0    N/A          3                                                                                                              $1,000       $4,348            $1,000                  $6,348
             Lawn. NJ                                 Home Loan
                                                      Modifications                                                6/26/2014              ($72)      $159,928    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $10,000       $390,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $520,000        $910,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($810,000)       $100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                    Financial                                                    6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Community Bank &
                                                    Instrument for
12/4/2009   Trust Company, Clarks     Purchase                                  $380,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                    Home Loan                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Summit, PA
                                                    Modifications
                                                                                                                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010         $901,112      $2,901,112    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($4)    $2,901,108    Updated due to quarterly assessment and reallocation
                                                    Financial
            Community Credit                                                                                     3/30/2011               ($5)    $2,901,103    Updated due to quarterly assessment and reallocation
                                                    Instrument for
9/30/2010   Union of Florida,         Purchase                                 $2,000,000    N/A          6                                                                                                              $3,000       $4,632            $5,000                 $12,632
                                                    Home Loan                                                    6/29/2011              ($48)    $2,901,055    Updated due to quarterly assessment and reallocation
            Rockledge, FL
                                                    Modifications
                                                                                                                 6/28/2012              ($36)    $2,901,019    Updated due to quarterly assessment and reallocation
                                                                                                                 9/14/2012       ($2,888,387)       $12,632    Termination of SPA
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                    Financial
            CU Mortgage Services,                   Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                             Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Inc., New Brighton, MN                  Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 10/2/2009         $950,000      $5,300,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009        $5,700,000    $11,000,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $740,000     $11,740,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($1,440,000)   $10,300,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010       ($6,673,610)    $3,626,390    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($5)    $3,626,385    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($6)    $3,626,379    Updated due to quarterly assessment and reallocation
                                                    Financial
            CUC Mortgage                            Instrument for                                               6/29/2011              ($52)    $3,626,327    Updated due to quarterly assessment and reallocation
9/9/2009                              Purchase                                 $4,350,000    N/A                                                                                                                        $65,313    $165,690           $102,417                $333,420
            Corporation, Albany, NY                 Home Loan
                                                                                                                 6/28/2012              ($38)    $3,626,289    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 9/27/2012             ($107)    $3,626,182    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($18)    $3,626,164    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($69)    $3,626,095    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013              ($26)    $3,626,069    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($9)    $3,626,060    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($15,739)    $3,610,321    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($554)    $3,609,767    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                 6/26/2014           ($6,538)    $3,603,229    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           459
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)                                                                                                                                                                                              460
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                            TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                      Financial
             Desjardins Bank N.A.                     Instrument for
12/16/2013                              Purchase                                         $0    N/A          3     12/16/2013           $30,000          $30,000    Transfer of cap due to servicing transfer                 $1,000         $2,321            $1,000                  $4,321
             Hallandale Beach, FL                     Home Loan
                                                      Modifications

                                                      Financial                                                    3/26/2010       $12,190,000      $15,240,000    Updated portfolio data from servicer
             Digital Federal Credit                   Instrument for
1/15/2010                               Purchase                                 $3,050,000    N/A                                                                                                                               $0             $0                 $0                      $0
             Union, Marlborough, MA                   Home Loan
                                                      Modifications                                                5/14/2010      ($15,240,000)              $0    Termination of SPA

                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $10,000          $80,000
                                                                                                                                                                   program initial cap
                                                                                                                   3/26/2010           $10,000          $90,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010           $10,000         $100,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010           $45,056         $145,056    Updated portfolio data from servicer
                                                      Financial
             DuPage Credit Union,                     Instrument for                                               6/29/2011               ($1)        $145,055    Updated due to quarterly assessment and reallocation
10/30/2009                              Purchase                                    $70,000    N/A                                                                                                                           $8,542       $31,451            $15,442                 $55,436
             Naperville, IL                           Home Loan
                                                      Modifications                                                9/27/2012               ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                   3/25/2013               ($1)        $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013             ($145)        $144,908    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014               ($5)        $144,903    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014              ($59)        $144,844    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2010           $90,000         $150,000    Updated portfolio data from servicer
                                                      Financial
             Eaton National Bank                                                                                   7/14/2010           $50,000         $200,000    Updated portfolio data from servicer
                                                      Instrument for
12/23/2009   & Trust Company,           Purchase                                    $60,000    N/A                                                                                                                               $0             $0                 $0                      $0
                                                      Home Loan                                                    9/30/2010          ($54,944)        $145,056    Updated portfolio data from servicer
             Eaton, OH
                                                      Modifications
                                                                                                                   5/20/2011        ($145,056)               $0    Termination of SPA
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                   9/30/2009          ($10,000)    $707,370,000
                                                                                                                                                                   program initial cap
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009     $502,430,000     $1,209,800,000
                                                                                                                                                                   program initial cap
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                   3/26/2010    ($134,560,000)    $1,075,240,000
                                                                                                                                                                   program initial cap
                                                                                                                   7/14/2010    ($392,140,000)     $683,100,000    Updated portfolio data from servicer
                                                                                                                   7/16/2010        ($630,000)     $682,470,000    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                   9/30/2010       $13,100,000     $695,570,000
                                                                                                                                                                   program initial cap
                                                      Financial                                                    9/30/2010       ($8,006,457)    $687,563,543    Updated portfolio data from servicer
             EMC Mortgage
                                                      Instrument for
7/31/2009    Corporation, Lewisville,   Purchase                              $707,380,000     N/A          8     10/15/2010        ($100,000)     $687,463,543    Transfer of cap due to servicing transfer              $7,569,459   $11,592,937       $16,279,383             $35,441,779
                                                      Home Loan
             TX
                                                      Modifications
                                                                                                                  12/15/2010       ($4,400,000)    $683,063,543    Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011             ($802)    $683,062,741    Updated due to quarterly assessment and reallocation
                                                                                                                   2/16/2011        ($900,000)     $682,162,741    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011             ($925)    $678,161,816    Updated due to quarterly assessment and reallocation
                                                                                                                   5/13/2011    ($122,900,000)     $555,261,816    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011           ($8,728)    $555,253,088    Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2011        ($600,000)     $554,653,088    Transfer of cap due to servicing transfer
                                                                                                                  10/19/2011    ($519,211,309)      $35,441,779    Termination of SPA
                                                      Financial
             Everbank, Jacksonville,                  Instrument for
7/16/2013                               Purchase                                         $0    N/A          3      7/16/2013           $60,000          $60,000    Transfer of cap due to servicing transfer                     $0             $0                 $0                      $0
             FL                                       Home Loan
                                                      Modifications
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                  TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                     Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                    Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount    Adjusted Cap   Reason for Adjustment                             Incentives   Incentives        Incentives               Payments
                                                                                                                                                            Updated portfolio data from servicer/additional
                                                                                                               9/30/2009         ($90,000)       $80,000
                                                                                                                                                            program initial cap
                                                                                                                                                            Updated portfolio data from servicer/additional
                                                                                                              12/30/2009          $50,000       $130,000
                                                  Financial                                                                                                 program initial cap
            Farmers State Bank,                   Instrument for
7/17/2009                          Purchase                                   $170,000     N/A                 3/26/2010         $100,000       $230,000    Updated portfolio data from servicer                     $0           $0                 $0                      $0
            West Salem, OH                        Home Loan
                                                  Modifications                                                7/14/2010        ($130,000)      $100,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
                                                                                                               5/20/2011        ($145,056)            $0    Termination of SPA
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                   461
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                           (CONTINUED)                                                                                                                                                                                           462
                                                                                                             Adjustment
           Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                  Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date       Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                              9/30/2010        $5,168,169     $8,268,169    Updated portfolio data from servicer
                                                                                                               1/6/2011              ($12)    $8,268,157    Updated due to quarterly assessment and reallocation
                                                                                                              3/30/2011              ($15)    $8,268,142    Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011         $400,000      $8,668,142    Transfer of cap due to servicing transfer
                                                                                                              6/29/2011            ($143)     $8,667,999    Updated due to quarterly assessment and reallocation
                                                                                                              9/15/2011         $700,000      $9,367,999    Transfer of cap due to servicing transfer
                                                                                                             10/14/2011         $100,000      $9,467,999    Transfer of cap due to servicing transfer
                                                                                                             11/16/2011         $200,000      $9,667,999    Transfer of cap due to servicing transfer
                                                                                                             12/15/2011        $1,700,000    $11,367,999    Transfer of cap due to servicing transfer
                                                                                                              4/16/2012        $1,600,000    $12,967,999    Transfer of cap due to servicing transfer
                                                                                                              5/16/2012          $40,000     $13,007,999    Transfer of cap due to servicing transfer
                                                                                                              6/14/2012        ($210,000)    $12,797,999    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012            ($105)    $12,797,894    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                              7/16/2012          $50,000     $12,847,894    Transfer of cap due to servicing transfer
                                                                                                              8/16/2012          $90,000     $12,937,894    Transfer of cap due to servicing transfer
                                                                                                              9/27/2012            ($294)    $12,937,600    Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012        $1,810,000    $14,747,600    Transfer of cap due to servicing transfer
                                                                                                             12/27/2012              ($61)   $14,747,539    Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013          $30,000     $14,777,539    Transfer of cap due to servicing transfer
                                                                                                              2/14/2013        ($590,000)    $14,187,539    Transfer of cap due to servicing transfer
                                                 Financial
           Fay Servicing, LLC,                   Instrument for                                               3/14/2013         ($80,000)    $14,107,539    Transfer of cap due to servicing transfer
9/3/2010                          Purchase                                  $3,100,000    N/A                                                                                                                      $1,896,965   $4,175,428        $1,812,829              $7,885,222
           Chicago, IL                           Home Loan                                                    3/25/2013            ($214)    $14,107,325    Updated due to quarterly assessment and reallocation
                                                 Modifications
                                                                                                              4/16/2013         $200,000     $14,307,325    Transfer of cap due to servicing transfer
                                                                                                              5/16/2013        $3,710,000    $18,017,325    Transfer of cap due to servicing transfer
                                                                                                              6/14/2013        $1,760,000    $19,777,325    Transfer of cap due to servicing transfer
                                                                                                              6/27/2013              ($86)   $19,777,239    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2013        $6,650,000    $26,427,239    Transfer of cap due to servicing transfer
                                                                                                              8/15/2013          $20,000     $26,447,239    Transfer of cap due to servicing transfer
                                                                                                              9/16/2013        $4,840,000    $31,287,239    Transfer of cap due to servicing transfer
                                                                                                              9/27/2013              ($54)   $31,287,185    Updated due to quarterly assessment and reallocation
                                                                                                             10/15/2013         $720,000     $32,007,185    Transfer of cap due to servicing transfer
                                                                                                             11/14/2013        $1,040,000    $33,047,185    Transfer of cap due to servicing transfer
                                                                                                             12/16/2013         $140,000     $33,187,185    Transfer of cap due to servicing transfer
                                                                                                             12/23/2013         ($84,376)    $33,102,809    Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2014        $8,350,000    $41,452,809    Transfer of cap due to servicing transfer
                                                                                                              2/13/2014        $5,890,000    $47,342,809    Transfer of cap due to servicing transfer
                                                                                                              3/14/2014        $5,720,000    $53,062,809    Transfer of cap due to servicing transfer
                                                                                                              3/26/2014           ($4,045)   $53,058,764    Updated due to quarterly assessment and reallocation
                                                                                                              4/16/2014          $70,000     $53,128,764    Transfer of cap due to servicing transfer
                                                                                                              5/15/2014         $640,000     $53,768,764    Transfer of cap due to servicing transfer
                                                                                                              6/16/2014       $15,780,000    $69,548,764    Transfer of cap due to servicing transfer
                                                                                                              6/26/2014         ($69,560)    $69,479,204    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 5/13/2011         $500,000        $500,000    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $100,000        $600,000    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011         $200,000        $799,991    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $100,000        $899,991    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        $2,500,000     $3,399,991    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012        $1,510,000     $4,909,991    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012         $450,000      $5,359,991    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($66)    $5,359,925    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012         $250,000      $5,609,925    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012          $90,000      $5,699,925    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012            ($191)     $5,699,734    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012         $140,000      $5,839,734    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012          $70,000      $5,909,734    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012          $40,000      $5,949,734    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012              ($34)    $5,949,700    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013          $40,000      $5,989,700    Transfer of cap due to servicing transfer
                                                    Financial
            FCI Lender Services,                    Instrument for                                               2/14/2013          $50,000      $6,039,700    Transfer of cap due to servicing transfer
5/13/2011                             Purchase                                         $0    N/A          3                                                                                                             $34,992     $80,488            $37,612                $153,093
            Inc., Anaheim Hills, CA                 Home Loan                                                    3/14/2013         $360,000      $6,399,700    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 3/25/2013            ($135)     $6,399,565    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013         ($10,000)     $6,389,565    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013          $40,000      $6,429,565    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013         $200,000      $6,629,565    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($53)    $6,629,512    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013          $20,000      $6,649,512    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($19)    $6,649,493    Updated due to quarterly assessment and reallocation
                                                                                                                10/15/2013         $260,000      $6,909,493    Transfer of cap due to servicing transfer
                                                                                                                11/14/2013          $30,000      $6,939,493    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013         ($33,755)     $6,905,738    Updated due to quarterly assessment and reallocation
                                                                                                                 2/13/2014         $110,000      $7,015,738    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014         $640,000      $7,655,738    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014           ($1,305)    $7,654,433    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2014         $120,000      $7,774,433    Transfer of cap due to servicing transfer
                                                                                                                 5/15/2014          $40,000      $7,814,433    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2014         $110,000      $7,924,433    Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014         ($15,838)     $7,908,595    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                           463
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                           464
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010         $140,000      $3,080,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $6,300,000     $9,380,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,980,000)    $7,400,000    Updated portfolio data from servicer
                                                                                                                9/30/2010       ($6,384,611)    $1,015,389    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)    $1,015,388    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($2)    $1,015,386    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($16)    $1,015,370    Updated due to quarterly assessment and reallocation
                                                   Financial
            Fidelity Homestead
                                                   Instrument for                                               6/28/2012              ($12)    $1,015,358    Updated due to quarterly assessment and reallocation
12/9/2009   Savings Bank, New        Purchase                                 $2,940,000    N/A                                                                                                                             $0           $0             $8,400                  $8,400
                                                   Home Loan
            Orleans, LA                                                                                         9/27/2012              ($32)    $1,015,326    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/27/2012               ($5)    $1,015,321    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($21)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($8)    $1,015,292    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                9/27/2013               ($3)    $1,015,289    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($4,716)    $1,010,573    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($165)    $1,010,408    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($1,944)    $1,008,464    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009       ($1,530,000)    $4,930,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009         $680,000      $5,610,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $2,460,000     $8,070,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($2,470,000)    $5,600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $2,523,114     $8,123,114    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($2)    $8,123,112    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    3/30/2011               ($2)    $8,123,110    Updated due to quarterly assessment and reallocation
            FIRST BANK, St.                        Instrument for
7/29/2009                            Purchase                                 $6,460,000    N/A                 6/29/2011              ($15)    $8,123,095    Updated due to quarterly assessment and reallocation   $1,093,064   $2,194,006        $1,537,229              $4,824,299
            Louis, MO                              Home Loan
                                                   Modifications                                                6/28/2012               ($3)    $8,123,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($5)    $8,123,087    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($1)    $8,123,086    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($5)    $8,123,081    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($1)    $8,123,080    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($474)    $8,122,606    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($18)    $8,122,588    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($35)    $8,122,553    Updated due to quarterly assessment and reallocation
                                                   Financial
            First Citizens Bank
                                                   Instrument for
5/15/2014   & Trust Company,         Purchase                                         $0    N/A          3      5/15/2014           $10,000        $10,000    Transfer of cap due to servicing transfer                     $0           $0                  $0                      $0
                                                   Home Loan
            Hendersonville, NC
                                                   Modifications
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                   Financial
            First Federal Bank of                  Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                            Purchase                                  $100,000     N/A                                                                                                                             $0           $0                  $0                      $0
            Florida, Lake City, FL                 Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                     Financial                                                   12/30/2009        $2,020,000     $2,790,000
             First Federal Savings                                                                                                                              program initial cap
                                                     Instrument for
6/19/2009    and Loan, Port Angeles,   Purchase                                  $770,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan                                                    3/26/2010       $11,370,000    $14,160,000    Updated portfolio data from servicer
             WA
                                                     Modifications
                                                                                                                  5/26/2010      ($14,160,000)            $0    Termination of SPA
             First Federal Savings                   Financial                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010          $160,000     $3,620,000
             and Loan Association of                 Instrument for                                                                                             program initial cap
12/16/2009                             Purchase                                 $3,460,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Lakewood, Lakewood,                     Home Loan
             OH                                      Modifications                                                4/21/2010       ($3,620,000)            $0    Termination of SPA

                                                                                                                  9/30/2010        $7,014,337    $11,314,337    Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($17)   $11,314,320    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011              ($20)   $11,314,300    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011             ($192)   $11,314,108    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012             ($144)   $11,313,964    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/27/2012             ($396)   $11,313,568    Updated due to quarterly assessment and reallocation
             First Financial Bank,                   Instrument for
8/27/2010                              Purchase                                 $4,300,000    N/A                12/27/2012              ($67)   $11,313,501    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             N.A., Terre Haute, ID                   Home Loan
                                                     Modifications                                                3/25/2013             ($253)   $11,313,248    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($95)   $11,313,153    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($34)   $11,313,119    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($57,776)   $11,255,343    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($2,031)   $11,253,312    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014          ($23,972)   $11,229,340    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $50,000     $1,330,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010        $1,020,000     $2,350,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($950,000)     $1,400,000    Updated portfolio data from servicer
                                                     Financial                                                    9/30/2010           $50,556     $1,450,556    Updated portfolio data from servicer
             First Keystone Bank,                    Instrument for
11/25/2009                             Purchase                                 $1,280,000    N/A          6                                                                                                              $2,776       $3,423            $8,718                 $14,917
             Media, PA                               Home Loan                                                     1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                  6/16/2011        ($100,000)     $1,350,552    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011              ($21)    $1,350,531    Updated due to quarterly assessment and reallocation
                                                                                                                  7/22/2011       ($1,335,614)       $14,917    Termination of SPA
                                                     Financial
             First Mortgage
                                                     Instrument for
6/16/2014    Company, LLC,             Purchase                                         $0    N/A          3      6/16/2014           $20,000        $20,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                     Home Loan
             Oklahoma City, OK
                                                     Modifications
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                     Financial
             First Mortgage                                                                                       9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010    Corporation, Diamond      Purchase                                  $100,000     N/A                                                                                                                         $2,917           $0            $3,000                  $5,917
                                                     Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
             Bar, CA
                                                     Modifications
                                                                                                                 12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2010          $150,000       $290,000    Updated portfolio data from servicer
                                                     Financial
             First National Bank                                                                                  7/14/2010           $10,000       $300,000    Updated portfolio data from servicer
                                                     Instrument for
1/13/2010    of Grant Park, Grant      Purchase                                  $140,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan                                                    9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
             Park, IL
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                     Modifications
                                                                                                                  1/26/2011        ($290,111)             $0    Termination of SPA

                                                     Financial                                                    9/30/2010          $180,222       $580,222    Updated portfolio data from servicer
             First Safety Bank,                      Instrument for
9/30/2010                              Purchase                                  $400,000     N/A                  1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Cincinnati, OH                          Home Loan
                                                     Modifications                                                3/23/2011        ($580,221)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            465
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)                                                                                                                                                                                          466
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  9/30/2010          $360,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($14)    $1,160,409    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/27/2012              ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
            Flagstar Capital Markets                 Instrument for
9/30/2010                              Purchase                                  $800,000     N/A                12/27/2012               ($6)    $1,160,366    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Corporation, Troy, MI                    Home Loan
                                                     Modifications                                                3/25/2013              ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($192)    $1,154,675    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014           ($2,267)    $1,152,408    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                  2/13/2014          $150,000       $150,000    Transfer of cap due to servicing transfer
                                                     Financial
            Florida Community                        Instrument for                                               3/26/2014               ($2)      $149,998    Updated due to quarterly assessment and reallocation
2/13/2014                              Purchase                                         $0    N/A          3                                                                                                              $3,750       $3,520            $4,000                 $11,270
            Bank, NA, Weston, FL                     Home Loan                                                    4/16/2014           $20,000       $169,998    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  6/26/2014              ($37)      $169,961    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009        $6,010,000    $33,520,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009      ($19,750,000)   $13,770,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010       ($4,780,000)    $8,990,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($2,390,000)    $6,600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010        $2,973,670     $9,573,670    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)    $9,573,667    Updated due to quarterly assessment and reallocation
                                                                                                                  2/16/2011       ($1,800,000)    $7,773,667    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011               ($6)    $7,773,661    Updated due to quarterly assessment and reallocation
            Franklin Credit                          Financial                                                    6/29/2011              ($61)    $7,773,600    Updated due to quarterly assessment and reallocation
            Management                               Instrument for
9/11/2009                              Purchase                               $27,510,000     N/A                10/14/2011        ($100,000)     $7,673,600    Transfer of cap due to servicing transfer               $342,388    $656,251           $743,024              $1,741,662
            Corporation, Jersey                      Home Loan
            City, NJ                                 Modifications                                                6/28/2012              ($58)    $7,673,542    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($164)    $7,673,378    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012              ($29)    $7,673,349    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013             ($110)    $7,673,239    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($42)    $7,673,197    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($15)    $7,673,182    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($25,724)    $7,647,458    Updated due to quarterly assessment and reallocation
                                                                                                                  3/14/2014           $40,000     $7,687,458    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014             ($913)    $7,686,545    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014          ($10,778)    $7,675,767    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               9/30/2010         $765,945      $2,465,945    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                  Financial
            Franklin Savings,                     Instrument for                                               9/27/2012              ($83)    $2,465,784    Updated due to quarterly assessment and reallocation
9/30/2010                           Purchase                                 $1,700,000    N/A          6                                                                                                              $1,750       $3,865            $4,000                  $9,615
            Cincinnati, OH                        Home Loan                                                   12/27/2012              ($14)    $2,465,770    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               3/25/2013              ($53)    $2,465,717    Updated due to quarterly assessment and reallocation
                                                                                                               6/14/2013          ($10,000)    $2,455,717    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($20)    $2,455,697    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($7)    $2,455,690    Updated due to quarterly assessment and reallocation
                                                                                                              10/24/2013       ($2,446,075)        $9,615    Termination of SPA
                                                                                                               3/26/2010         $480,000        $740,000    Updated portfolio data from servicer
                                                                                                               7/14/2010        ($140,000)       $600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                  Financial
            Fresno County Federal                                                                               1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                  Instrument for
1/13/2010   Credit Union, Fresno,   Purchase                                  $260,000     N/A          6                                                                                                              $3,833     $13,204             $7,917                 $24,954
                                                  Home Loan                                                    3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
            CA
                                                  Modifications
                                                                                                               6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                7/6/2012        ($555,252)        $24,954    Termination of SPA
                                                                                                               9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                               6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                  Financial
            Gateway Mortgage                      Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                           Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Group, LLC, Tulsa, OK                 Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                              12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
            GFA Federal Credit                    Instrument for
9/30/2010                           Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Union, Gardner, MA                    Home Loan
                                                  Modifications                                                3/23/2011        ($145,056)             $0    Termination of SPA

                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                         467
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment

                                                                                                                                                                                                                                                                                                 468
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                10/2/2009            $60,000         $290,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009           ($10,000)        $280,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010           $130,000         $410,000    Updated portfolio data from servicer
                                                                                                                7/14/2010         ($110,000)         $300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            ($9,889)        $290,111    Updated portfolio data from servicer
                                                                                                                6/29/2011                ($3)        $290,108    Updated due to quarterly assessment and reallocation
                                                   Financial
             Glass City Federal                                                                                 6/28/2012                ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                   Instrument for
9/23/2009    Credit Union, Maumee,   Purchase                                  $230,000     N/A                                                                                                                             $4,000          $2,474            $6,000                 $12,474
                                                   Home Loan
             OH                                                                                                 9/27/2012                ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/27/2012                ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                ($4)        $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                ($2)        $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                ($1)        $290,091    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013              ($979)        $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($34)        $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                6/26/2014              ($406)        $288,672    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                   Financial                                                    1/22/2010            $20,000         $390,000
                                                                                                                                                                 program initial cap
             Glenview State Bank,                  Instrument for
12/11/2009                           Purchase                                  $370,000     N/A                                                                                                                                 $0              $0                 $0                      $0
             Glenview,IL                           Home Loan                                                    3/26/2010         $1,250,000       $1,640,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                5/26/2010        ($1,640,000)              $0    Termination of SPA
                                                                                                                6/12/2009      $384,650,000     $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009     $2,537,240,000    $3,554,890,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009    ($1,679,520,000)   $1,875,370,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010      $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                                                                                5/14/2010         $1,880,000    $2,067,430,000   Transfer of cap due to servicing transfer
                                                                                                                7/14/2010     ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
                                                                                                                8/13/2010        ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2010      $119,200,000     $1,301,400,000
                                                                                                                                                                 program initial cap
                                                                                                                9/30/2010      $216,998,139     $1,518,398,139   Updated portfolio data from servicer
                                                                                                               12/15/2010         ($500,000)    $1,517,898,139   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011            ($1,734)   $1,517,896,405   Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011         ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                   Financial
                                                                                                                3/30/2011            ($2,024)   $1,517,794,381   Updated due to quarterly assessment and reallocation
             GMAC Mortgage, Inc.,                  Instrument for
4/13/2009                            Purchase                              $633,000,000     N/A                                                                                                                         $61,347,020   $148,502,817       $95,205,543           $305,055,380
             Ft. Washington, PA                    Home Loan                                                    4/13/2011         ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                5/13/2011      ($17,900,000)    $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011           ($18,457)   $1,499,075,924   Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011         ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                8/16/2011         $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011           $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011         ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011         $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012        ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012         ($400,000)    $1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012         ($100,000)    $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012         ($800,000)    $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012         ($990,000)    $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012           ($12,463)   $1,500,173,461   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                          TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 8/16/2012           $10,000    $1,500,183,461   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012          ($33,210)   $1,500,150,251   Updated due to quarterly assessment and reallocation
                                                                                                                11/15/2012       ($1,200,000)   $1,498,950,251   Transfer of cap due to servicing transfer
                                                                                                                12/14/2012           $40,000    $1,498,990,251   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012           ($5,432)   $1,498,984,819   Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013           $60,000    $1,499,044,819   Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013          ($30,000)   $1,499,014,819   Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013          ($80,000)   $1,498,934,819   Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013          ($19,838)   $1,498,914,981   Updated due to quarterly assessment and reallocation
                                                                                                                 6/14/2013           $30,000    $1,498,944,981   Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013           ($7,105)   $1,498,937,876   Updated due to quarterly assessment and reallocation
                                                                                                                 9/16/2013      ($66,500,000)   $1,432,437,876   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013           ($2,430)   $1,432,435,446   Updated due to quarterly assessment and reallocation
                                                                                                                10/15/2013    ($197,220,000)    $1,235,215,446   Transfer of cap due to servicing transfer
                                                                                                                11/14/2013          ($30,000)   $1,235,185,446   Transfer of cap due to servicing transfer
                                                                                                                12/16/2013       ($2,230,000)   $1,232,955,446   Transfer of cap due to servicing transfer
                                                                                                                12/23/2013       ($3,902,818)   $1,229,052,628   Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2014       ($9,350,000)   $1,219,702,628   Transfer of cap due to servicing transfer
                                                                                                                 2/13/2014      ($36,560,000)   $1,183,142,628   Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014      ($17,170,000)   $1,165,972,628   Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014        ($136,207)    $1,165,836,421   Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2014      ($20,570,000)   $1,145,266,421   Transfer of cap due to servicing transfer
                                                                                                                 5/15/2014        ($260,000)    $1,145,006,421   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2014        ($400,000)    $1,144,606,421   Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014       ($1,585,532)   $1,143,020,889   Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $10,000         $180,000
                                                                                                                                                                 program initial cap
                                                    Financial                                                    3/26/2010           $30,000         $210,000    Updated portfolio data from servicer
             Golden Plains Credit                   Instrument for
12/16/2009                            Purchase                                  $170,000     N/A                                                                                                                               $0           $0                 $0                      $0
             Union, Garden City, KS                 Home Loan                                                    7/14/2010          ($10,000)        $200,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010           $90,111         $290,111    Updated portfolio data from servicer
                                                                                                                 2/17/2011        ($290,111)               $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $20,000         $360,000
                                                                                                                                                                 program initial cap
                                                                                                                 3/26/2010        ($320,000)          $40,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010          $760,000         $800,000    Updated portfolio data from servicer
                                                    Financial
             Grafton Suburban
                                                    Instrument for                                               9/30/2010          ($74,722)        $725,278    Updated portfolio data from servicer
12/23/2009   Credit Union, North      Purchase                                  $340,000     N/A                                                                                                                               $0           $0                 $0                      $0
                                                    Home Loan
             Grafton, MA                                                                                          1/6/2011               ($1)        $725,277    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/30/2011               ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($11)        $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                 1/25/2012        ($725,265)               $0    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             469
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)                                                                                                                                                                                            470
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                          TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009        $1,030,000      $1,600,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($880,000)       $720,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($320,000)       $400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $180,222       $580,222    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                      Financial
             Great Lakes Credit                       Instrument for                                               6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
10/14/2009                              Purchase                                  $570,000     N/A                                                                                                                        $12,833       $22,138            $17,700                 $52,671
             Union, North Chicago, IL                 Home Loan
                                                      Modifications                                                9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                   9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($2,438)      $577,732    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($86)      $577,646    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014             ($925)      $576,721    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2010        $8,680,000      $9,450,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($8,750,000)      $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $170,334       $870,334    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($8)      $870,324    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    6/28/2012               ($4)      $870,320    Updated due to quarterly assessment and reallocation
             Greater Nevada
                                                      Instrument for
1/13/2010    Mortgage Services,         Purchase                                  $770,000     N/A                 9/27/2012              ($10)      $870,310    Updated due to quarterly assessment and reallocation     $88,345      $176,024           $113,519                $377,888
                                                      Home Loan
             Carson City, NV
                                                      Modifications                                               12/27/2012               ($2)      $870,308    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($7)      $870,301    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($2)      $870,299    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $870,298    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($1,504)      $868,794    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($43)      $868,751    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014             ($491)      $868,260    Updated due to quarterly assessment and reallocation
                                                                                                                   6/17/2009      ($64,990,000)    $91,010,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2009     $130,780,000     $221,790,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009    ($116,750,000)    $105,040,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010       $13,080,000    $118,120,000   Updated portfolio data from servicer

                                                      Financial                                                    7/14/2010      ($24,220,000)    $93,900,000   Updated portfolio data from servicer
             Green Tree Servicing                     Instrument for
4/24/2009                               Purchase                              $156,000,000     N/A                 7/16/2010          $210,000     $94,110,000   Transfer of cap due to servicing transfer              $4,433,305   $30,014,244        $9,848,424             $44,295,974
             LLC, Saint Paul, MN                      Home Loan
                                                      Modifications                                                8/13/2010        $2,200,000     $96,310,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/10/2010       $34,600,000    $130,910,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2010        $5,600,000    $136,510,000
                                                                                                                                                                 program initial cap
                                                                                                                   9/30/2010       $10,185,090    $146,695,090   Updated portfolio data from servicer
                                                                                                                  10/15/2010          $400,000    $147,095,090   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                        TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                        1/6/2011             ($213)   $147,094,877   Updated due to quarterly assessment and reallocation
                                                                                                       3/30/2011             ($250)   $147,094,627   Updated due to quarterly assessment and reallocation
                                                                                                       5/13/2011        $1,200,000    $148,294,627   Transfer of cap due to servicing transfer
                                                                                                       6/16/2011         $100,000     $148,394,627   Transfer of cap due to servicing transfer
                                                                                                       6/29/2011           ($2,302)   $148,392,325   Updated due to quarterly assessment and reallocation
                                                                                                       7/14/2011        $1,900,000    $150,292,325   Transfer of cap due to servicing transfer
                                                                                                       9/15/2011         $200,000     $150,492,325   Transfer of cap due to servicing transfer
                                                                                                      10/14/2011         $200,000     $150,692,325   Transfer of cap due to servicing transfer
                                                                                                      11/16/2011         $400,000     $151,092,325   Transfer of cap due to servicing transfer
                                                                                                       2/16/2012         $900,000     $151,992,325   Transfer of cap due to servicing transfer
                                                                                                       3/15/2012         $100,000     $152,092,325   Transfer of cap due to servicing transfer
                                                                                                       5/16/2012        $3,260,000    $155,352,325   Transfer of cap due to servicing transfer
                                                                                                       6/14/2012         $920,000     $156,272,325   Transfer of cap due to servicing transfer
                                                                                                       6/28/2012           ($1,622)   $156,270,703   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2012         $110,000     $156,380,703   Transfer of cap due to servicing transfer
                                                                                                       8/16/2012        $5,120,000    $161,500,703   Transfer of cap due to servicing transfer
                                                                                                       9/27/2012           ($4,509)   $161,496,194   Updated due to quarterly assessment and reallocation
                                                                                                      10/16/2012        $8,810,000    $170,306,194   Transfer of cap due to servicing transfer
                                                                                                      11/15/2012        $2,910,000    $173,216,194   Transfer of cap due to servicing transfer
                                                                                                      12/27/2012             ($802)   $173,215,392   Updated due to quarterly assessment and reallocation
                                                                                                       2/14/2013       $10,210,000    $183,425,392   Transfer of cap due to servicing transfer
                                                                                                       3/25/2013           ($3,023)   $183,422,369   Updated due to quarterly assessment and reallocation
                                                                                                       5/16/2013         $140,000     $183,562,369   Transfer of cap due to servicing transfer
                                                                                                       6/27/2013           ($1,077)   $183,561,292   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2013        $7,210,000    $190,771,292   Transfer of cap due to servicing transfer
                                                                                                       8/15/2013        $6,730,000    $197,501,292   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013             ($388)   $197,500,904   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013        $3,610,000    $201,110,904   Transfer of cap due to servicing transfer
                                                                                                      11/14/2013        ($320,000)    $200,790,904   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013       $21,280,000    $222,070,904   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013        ($710,351)    $221,360,553   Updated due to quarterly assessment and reallocation
                                                                                                       2/13/2014        $1,700,000    $223,060,553   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014          ($22,400)   $223,038,153   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014        $2,280,000    $225,318,153   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014       $12,810,000    $238,128,153   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014       ($2,000,000)   $236,128,153   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014        ($262,535)    $235,865,618   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                 471
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                          472
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                7/14/2011         $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         $900,000      $1,100,000    Transfer of cap due to servicing transfer
                                                                                                                1/13/2012         $100,000      $1,200,000    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($9)    $1,199,991    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012           $20,000     $1,219,991    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($26)    $1,219,965    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012           $50,000     $1,269,965    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           $10,000     $1,279,965    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($5)    $1,279,960    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013         $130,000      $1,409,960    Transfer of cap due to servicing transfer

                                                   Financial                                                    2/14/2013         $120,000      $1,529,960    Transfer of cap due to servicing transfer
             Gregory Funding, LLC,                 Instrument for
7/14/2011                            Purchase                                         $0    N/A          3      3/25/2013              ($20)    $1,529,940    Updated due to quarterly assessment and reallocation     $85,060    $194,153            $85,552                $364,766
             Beaverton, OR                         Home Loan
                                                   Modifications                                                5/16/2013           $80,000     $1,609,940    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                6/14/2013         $420,000      $2,029,940    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($10)    $2,029,930    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($4)    $2,029,926    Updated due to quarterly assessment and reallocation
                                                                                                               11/14/2013         $120,000      $2,149,926    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013           ($7,685)    $2,142,241    Updated due to quarterly assessment and reallocation
                                                                                                                3/14/2014           $10,000     $2,152,241    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($274)    $2,151,967    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014         $240,000      $2,391,967    Transfer of cap due to servicing transfer
                                                                                                                6/16/2014           $30,000     $2,421,967    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014           ($3,396)    $2,418,571    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                   Financial
             Guaranty Bank, Saint                  Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                            Purchase                                  $100,000     N/A                                                                                                                           $917           $0            $1,000                  $1,917
             Paul, MN                              Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                   Financial
             Harleysville National
                                                   Instrument for
10/28/2009   Bank & Trust Company,   Purchase                                 $1,070,000    N/A                 4/21/2010       ($1,070,000)            $0    Termination of SPA                                            $0           $0                 $0                      $0
                                                   Home Loan
             Harleysville, PA
                                                   Modifications
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                   Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                  Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives                 Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $30,000       $660,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $800,000      $1,460,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($360,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010           $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($2)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
                                                    Financial
             Hartford Savings Bank,                 Instrument for                                               6/28/2012              ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
12/11/2009                            Purchase                                  $630,000     N/A                                                                                                                             $0           $0                   $0                      $0
             Hartford, WI                           Home Loan
                                                    Modifications                                                9/27/2012              ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($192)    $1,154,675    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014           ($2,267)    $1,152,408    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    5/15/2014           $90,000        $90,000    Transfer of cap due to servicing transfer
             Heartland Bank &
                                                    Instrument for
5/15/2014    Trust Company,           Purchase                                         $0    N/A          3                                                                                                              $1,813       $3,402                 $813                 $6,028
                                                    Home Loan
             Bloomington, IL                                                                                     6/26/2014           $20,556       $110,556    Updated due to quarterly assessment and reallocation
                                                    Modifications

                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $80,000     $1,750,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $330,000      $2,080,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($1,080,000)    $1,000,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010         $160,445      $1,160,445    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($1)    $1,160,444    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($2)    $1,160,442    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($16)    $1,160,426    Updated due to quarterly assessment and reallocation
                                                    Financial
             Hillsdale County
                                                    Instrument for                                               6/28/2012              ($12)    $1,160,414    Updated due to quarterly assessment and reallocation
11/18/2009   National Bank,           Purchase                                 $1,670,000    N/A                                                                                                                        $35,719     $45,832            $57,400                  $138,951
                                                    Home Loan
             Hillsdale, MI                                                                                       9/27/2012              ($33)    $1,160,381    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/27/2012               ($6)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($21)    $1,160,354    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($8)    $1,160,346    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($3)    $1,160,343    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($4,797)    $1,155,546    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($169)    $1,155,377    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014           ($1,996)    $1,153,381    Updated due to quarterly assessment and reallocation
                                                    Financial
             Home Financing Center,                 Instrument for
11/25/2009                            Purchase                                  $230,000     N/A                 4/21/2010        ($230,000)             $0    Termination of SPA                                            $0           $0                  $0                       $0
             Inc, Coral Gables, FL                  Home Loan
                                                    Modifications
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             473
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                           474
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               6/12/2009     $128,300,000     $447,300,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       $46,730,000    $494,030,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $145,820,000     $639,850,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010      ($17,440,000)   $622,410,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($73,010,000)   $549,400,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $6,700,000    $556,100,000
                                                  Financial                                                                                                  program initial cap
            Home Loan Services,                   Instrument for                                               9/30/2010      ($77,126,410)   $478,973,590   Updated portfolio data from servicer
4/20/2009                          Purchase                               $319,000,000     N/A          7                                                                                                            $169,858    $2,440,768        $3,698,607              $6,309,233
            Inc., Pittsburgh, PA                  Home Loan
                                                  Modifications                                               12/15/2010    ($314,900,000)    $164,073,590   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($233)   $164,073,357   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011       ($1,900,000)   $162,173,357   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        ($400,000)    $161,773,357   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                               3/30/2011             ($278)   $161,773,079   Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011        ($400,000)    $161,373,079   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($2,625)   $161,370,454   Updated due to quarterly assessment and reallocation
                                                                                                              10/19/2011    ($155,061,221)      $6,309,233   Termination of SPA
                                                                                                               2/14/2013          $510,000       $510,000    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013               ($9)      $509,991    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013          $200,000       $709,991    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013           $40,000       $749,991    Transfer of cap due to servicing transfer
                                                  Financial
            Home Servicing, LLC,                  Instrument for                                               6/27/2013               ($4)      $749,987    Updated due to quarterly assessment and reallocation
2/14/2013                          Purchase                                          $0    N/A          3                                                                                                              $7,867      $18,014             $8,784                 $34,665
            Baton Rouge, LA                       Home Loan                                                    7/16/2013        ($120,000)       $629,987    Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                               9/27/2013               ($2)      $629,985    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($2,620)      $627,365    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($92)      $627,273    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014           ($1,088)      $626,185    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009    ($121,190,000)    $552,810,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009      ($36,290,000)   $516,520,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010     $199,320,000     $715,840,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010    ($189,040,000)    $526,800,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010       $38,626,728    $565,426,728   Updated portfolio data from servicer
                                                                                                                10/15/2010    ($170,800,000)    $394,626,728   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010      ($22,200,000)   $372,426,728   Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011             ($549)   $372,426,179   Updated due to quarterly assessment and reallocation
                                                                                                                 2/16/2011        ($900,000)    $371,526,179   Transfer of cap due to servicing transfer
                                                    Financial                                                    3/30/2011             ($653)   $371,525,526   Updated due to quarterly assessment and reallocation
             HomEq Servicing, North                 Instrument for
8/5/2009                              Purchase                              $674,000,000     N/A         13      6/29/2011           ($6,168)   $371,519,358   Updated due to quarterly assessment and reallocation          $0    $3,036,319        $5,272,500              $8,308,819
             Highlands, CA                          Home Loan
                                                    Modifications                                                6/28/2012           ($4,634)   $371,514,724   Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012        ($430,000)    $371,084,724   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012          ($12,728)   $371,071,996   Updated due to quarterly assessment and reallocation
                                                                                                                12/14/2012          ($20,000)   $371,051,996   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012           ($2,148)   $371,049,848   Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013           ($8,137)   $371,041,711   Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013           ($3,071)   $371,038,640   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013           ($1,101)   $371,037,539   Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($10,000)   $371,027,539   Transfer of cap due to servicing transfer
                                                                                                                12/23/2013       ($1,858,220)   $369,169,319   Updated due to quarterly assessment and reallocation
                                                                                                                 2/27/2014    ($360,860,500)      $8,308,819   Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $20,000       $330,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010          $820,000      $1,150,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($350,000)       $800,000    Updated portfolio data from servicer
                                                    Financial                                                    9/30/2010           $70,334       $870,334    Updated portfolio data from servicer
             HomeStar Bank &
                                                    Instrument for
12/11/2009   Financial Services,      Purchase                                  $310,000     N/A          6                                                                                                              $1,917       $5,573             $5,833                 $13,323
                                                    Home Loan                                                     1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
             Manteno, IL
                                                    Modifications
                                                                                                                 3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($10)      $870,309    Updated due to quarterly assessment and reallocation
                                                                                                                  7/6/2012        ($856,986)        $13,323    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                            475
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                                476
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($53,670,000)   $1,218,820,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $250,450,000     $1,469,270,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010     $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                               9/30/2010        $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                              10/15/2010          $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                              11/16/2010        ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,173)   $1,305,989,335   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011        ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,400)   $1,305,487,935   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                               6/29/2011          ($12,883)   $1,308,575,052   Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011       ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011       ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($8,378)   $1,306,356,674   Updated due to quarterly assessment and reallocation
            Homeward Residential,                 Financial                                                    7/16/2012        ($470,000)    $1,305,886,674   Transfer of cap due to servicing transfer
            Inc. (American Home                   Instrument for
7/22/2009                           Purchase                            $1,272,490,000     N/A         14      8/16/2012          ($80,000)   $1,305,806,674   Transfer of cap due to servicing transfer              $51,759,482   $133,893,684       $94,837,607           $280,490,773
            Mortgage Servicing,                   Home Loan
            Inc), Coppell, TX                     Modifications                                                9/27/2012          ($22,494)   $1,305,784,180   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        ($260,000)    $1,305,524,180   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012          ($30,000)   $1,305,494,180   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012          ($50,000)   $1,305,444,180   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($3,676)   $1,305,440,504   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013          ($80,000)   $1,305,360,504   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013           $20,000    $1,305,380,504   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013      ($84,160,000)   $1,221,220,504   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013          ($12,821)   $1,221,207,683   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013    ($621,110,000)     $600,097,683    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013      ($19,120,000)    $580,977,683    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($1,947)    $580,975,736    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013      ($14,870,000)    $566,105,736    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($655)    $566,105,081    Updated due to quarterly assessment and reallocation
                                                                                                              12/16/2013           $20,000     $566,125,081    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($1,110,189)    $565,014,892    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014          ($39,031)    $564,975,861    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014          ($10,000)    $564,965,861    Transfer of cap due to servicing transfer
                                                                                                               5/28/2014    ($284,475,088)     $280,490,773    Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009         $130,000        $690,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009        $1,040,000     $1,730,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010       ($1,680,000)       $50,000    Updated portfolio data from servicer
                                                                                                                   5/12/2010        $1,260,000     $1,310,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,110,000)      $200,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2010         $100,000        $300,000
                                                                                                                                                                 program initial cap

                                                      Financial                                                    9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
             Horicon Bank, Horicon,                   Instrument for                                               6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
9/2/2009                                Purchase                                  $560,000     N/A                                                                                                                         $8,265     $20,914            $12,170                 $41,349
             WI                                       Home Loan
                                                      Modifications                                                6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012               ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013             ($979)      $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($34)      $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014             ($406)      $288,672    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $30,000       $730,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        $1,740,000     $2,470,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,870,000)      $600,000    Updated portfolio data from servicer
                                                      Financial                                                    9/30/2010         $850,556      $1,450,556    Updated portfolio data from servicer
             Horizon Bank, NA,                        Instrument for
12/16/2009                              Purchase                                  $700,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Michigan City, IN                        Home Loan                                                     1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                                                                                   9/21/2012       ($1,450,512)            $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010         $200,000      $4,430,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010       ($1,470,000)    $2,960,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,560,000)    $1,400,000    Updated portfolio data from servicer
                                                      Financial
                                                      Instrument for                                               9/30/2010        $5,852,780     $7,252,780    Updated portfolio data from servicer
12/23/2009   Iberiabank, Sarasota, FL   Purchase                                 $4,230,000    N/A          6                                                                                                                  $0     $10,502            $15,000                 $25,502
                                                      Home Loan
                                                      Modifications                                                 1/6/2011              ($11)    $7,252,769    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011              ($13)    $7,252,756    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011        ($300,000)     $6,952,756    Transfer of cap due to servicing transfer
                                                                                                                    6/3/2011       ($6,927,254)       $25,502    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             477
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)                                                                                                                                                                                          478
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2009          ($10,000)      $860,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009          $250,000     $1,110,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010          ($10,000)    $1,100,000    Updated portfolio data from servicer
             IBM Southeast                            Financial                                                    7/14/2010        ($400,000)       $700,000    Updated portfolio data from servicer
             Employees’ Federal                       Instrument for
7/10/2009                               Purchase                                  $870,000     N/A          6      9/30/2010          $170,334       $870,334    Updated portfolio data from servicer                      $9,000     $23,589            $16,000                 $48,589
             Credit Union, Delray                     Home Loan
             Beach , FL                               Modifications                                                 1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012               ($9)      $870,311    Updated due to quarterly assessment and reallocation
                                                                                                                   9/14/2012        ($821,722)        $48,589    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $40,000       $800,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                   3/26/2010        ($760,000)        $40,000    Updated portfolio data from servicer
                                                                                                                   5/12/2010        $2,630,000     $2,670,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($770,000)     $1,900,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $565,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                      Financial                                                    6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
             IC Federal Credit Union,                 Instrument for
10/23/2009                              Purchase                                  $760,000     N/A                                                                                                                        $25,333     $48,576            $38,200                $112,109
             Fitchburg, MA                            Home Loan                                                    6/28/2012              ($29)    $2,465,868    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   9/27/2012              ($80)    $2,465,788    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($14)    $2,465,774    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($52)    $2,465,722    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($19)    $2,465,703    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($7)    $2,465,696    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013          ($11,558)    $2,454,138    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014             ($410)    $2,453,728    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014           ($4,837)    $2,448,891    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010          $440,000     $9,870,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010       $14,480,000    $24,350,000    Updated portfolio data from servicer
                                                                                                                   5/26/2010      ($24,200,000)      $150,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010          $150,000       $300,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
                                                                                                                   6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                      Financial
             Idaho Housing and
                                                      Instrument for                                               6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation
12/4/2009    Finance Association,       Purchase                                 $9,430,000    N/A                                                                                                                        $25,000     $28,556            $32,025                 $85,581
                                                      Home Loan
             Boise, ID                                                                                             9/27/2012               ($6)      $290,100    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  12/27/2012               ($1)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($3)      $290,096    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($1)      $290,095    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013             ($747)      $289,348    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($26)      $289,322    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014             ($314)      $289,008    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 3/26/2010        ($730,000)       $230,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010          $370,000       $600,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $200,000       $800,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010        ($364,833)       $435,167    Updated portfolio data from servicer
                                                                                                                11/16/2010          $100,000       $535,167    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011               ($1)      $535,166    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)      $535,165    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    6/29/2011               ($7)      $535,158    Updated due to quarterly assessment and reallocation
            iServe Residential
                                                    Instrument for
1/29/2010   Lending, LLC, San         Purchase                                  $960,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                    Home Loan                                                    6/28/2012               ($6)      $535,152    Updated due to quarterly assessment and reallocation
            Diego, CA
                                                    Modifications
                                                                                                                 9/27/2012              ($15)      $535,137    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($3)      $535,134    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($10)      $535,124    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($4)      $535,120    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($1)      $535,119    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($2,242)      $532,877    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014              ($79)      $532,798    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014             ($930)      $531,868    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 5/26/2010          $120,000    $28,160,000
                                                                                                                                                               program initial cap
                                                                                                                 7/14/2010      ($12,660,000)   $15,500,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $100,000    $15,600,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010       ($3,125,218)   $12,474,782    Updated portfolio data from servicer
                                                                                                                11/16/2010          $800,000    $13,274,782    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011              ($20)   $13,274,762    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($24)   $13,274,738    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($221)   $13,274,517    Updated due to quarterly assessment and reallocation
                                                    Financial
            iServe Servicing, Inc.,                 Instrument for                                               6/28/2012             ($169)   $13,274,348    Updated due to quarterly assessment and reallocation
3/5/2010                              Purchase                               $28,040,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Irving, TX                              Home Loan
                                                                                                                 9/27/2012             ($465)   $13,273,883    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/27/2012              ($78)   $13,273,805    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($297)   $13,273,508    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013             ($112)   $13,273,396    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013          ($10,000)   $13,263,396    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($40)   $13,263,356    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($60,000)   $13,203,356    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($67,516)   $13,135,840    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($2,373)   $13,133,467    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014          ($28,014)   $13,105,453    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                           479
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                                  480
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                                TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               9/30/2010           $135,167         $435,167    Updated portfolio data from servicer
                                                                                                                1/6/2011                ($1)        $435,166    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011                ($1)        $435,165    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011                ($6)        $435,159    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012                ($4)        $435,155    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    9/27/2012               ($12)        $435,143    Updated due to quarterly assessment and reallocation
            James B. Nutter &
                                                  Instrument for
9/24/2010   Company, Kansas         Purchase                                  $300,000     N/A                12/27/2012                ($2)        $435,141    Updated due to quarterly assessment and reallocation       $12,047              $0           $13,323                 $25,370
                                                  Home Loan
            City, MO
                                                  Modifications                                                3/25/2013                ($8)        $435,133    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                ($3)        $435,130    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013                ($1)        $435,129    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013            ($1,727)        $433,402    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014               ($61)        $433,341    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014              ($716)        $432,625    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($14,850,000)    $2,684,870,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $1,178,180,000    $3,863,050,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               3/26/2010     $1,006,580,000    $4,869,630,000
                                                                                                                                                                program initial cap
                                                                                                               7/14/2010    ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $72,400,000    $3,007,800,000
                                                                                                                                                                program initial cap
                                                                                                               9/30/2010      $215,625,536     $3,223,425,536   Updated portfolio data from servicer
                                                                                                                1/6/2011            ($3,636)   $3,223,421,900   Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011         ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($3,999)   $3,223,317,901   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011         ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011      $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($34,606)   $3,345,783,295   Updated due to quarterly assessment and reallocation
                                                  Financial                                                    7/14/2011           $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
            JP Morgan Chase Bank,                 Instrument for
7/31/2009                           Purchase                            $2,699,720,000     N/A                 8/16/2011         ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer              $321,048,776   $874,221,867      $418,223,436          $1,613,494,080
            NA, Lewisville, TX                    Home Loan
                                                  Modifications
                                                                                                               9/15/2011         ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011           $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                              10/19/2011      $519,211,309     $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         ($100,000)    $3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012         ($100,000)    $3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012     ($126,080,000)    $3,736,214,604   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($16,192)   $3,734,578,412   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        ($2,300,000)   $3,732,278,412   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012           ($20,000)   $3,732,258,412   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($37,341)   $3,732,221,071   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        ($1,130,000)   $3,731,091,071   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        ($3,770,000)   $3,727,321,071   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012         ($180,000)    $3,727,141,071   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               12/27/2012           ($4,535)   $3,727,136,536   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013          ($60,000)   $3,727,076,536   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013        ($520,000)    $3,726,556,536   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013          ($90,000)   $3,726,466,536   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013          ($14,310)   $3,726,452,226   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013        ($110,000)    $3,726,342,226   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013        ($120,000)    $3,726,222,226   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013          ($50,000)   $3,726,172,226   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013           ($3,778)   $3,726,168,448   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013    ($103,240,000)    $3,622,928,448   Transfer of cap due to servicing transfer
                                                                                                                8/15/2013          ($20,000)   $3,622,908,448   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013      ($99,960,000)   $3,522,948,448   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013             ($724)   $3,522,947,724   Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013      ($77,990,000)   $3,444,957,724   Transfer of cap due to servicing transfer
                                                                                                               11/14/2013      ($15,610,000)   $3,429,347,724   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013          ($50,000)   $3,429,297,724   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013        ($840,396)    $3,428,457,328   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014       ($5,790,000)   $3,422,667,328   Transfer of cap due to servicing transfer
                                                                                                                2/13/2014      ($52,670,000)   $3,369,997,328   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014       ($3,730,000)   $3,366,267,328   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014          ($21,412)   $3,366,245,916   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014      ($14,000,000)   $3,352,245,916   Transfer of cap due to servicing transfer
                                                                                                                5/15/2014      ($18,970,000)   $3,333,275,916   Transfer of cap due to servicing transfer
                                                                                                                6/16/2014      ($30,170,000)   $3,303,105,916   Transfer of cap due to servicing transfer
                                                                                                                6/26/2014        ($101,752)    $3,303,004,164   Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012           $30,000          $30,000    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           $70,000         $100,000    Transfer of cap due to servicing transfer
                                                                                                                1/16/2013          ($10,000)         $90,000    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013          ($10,000)         $80,000    Transfer of cap due to servicing transfer
                                                                                                                4/16/2013          ($10,000)         $70,000    Transfer of cap due to servicing transfer
                                                   Financial
             Kondaur Capital                                                                                    5/16/2013          $130,000         $200,000    Transfer of cap due to servicing transfer
                                                   Instrument for
11/15/2012   Corporation, Orange,   Purchase                                          $0    N/A          3                                                                                                                    $0         $242           $10,000                 $10,242
                                                   Home Loan                                                    6/14/2013          ($50,000)        $150,000    Transfer of cap due to servicing transfer
             CA
                                                   Modifications
                                                                                                                7/16/2013          ($20,000)        $130,000    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013             ($155)        $129,845    Updated due to quarterly assessment and reallocation
                                                                                                                3/14/2014        $2,240,000       $2,369,845    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($373)      $2,369,472    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($4,497)      $2,364,975    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                            481
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)                                                                                                                                                                                         482
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                       TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                          Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                         Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount    Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009         $180,000       $600,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        ($350,000)      $250,000
                                                                                                                                                               program initial cap
                                                                                                                  3/26/2010          $20,000       $270,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010         ($70,000)      $200,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010          $90,111       $290,111    Updated portfolio data from servicer
                                                                                                                  6/29/2011              ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                     Financial
            Lake City Bank,                          Instrument for                                               6/28/2012              ($2)      $290,106    Updated due to quarterly assessment and reallocation
8/5/2009                               Purchase                                  $420,000     N/A                                                                                                                       $10,879     $10,457            $23,196                 $44,532
            Warsaw, IN                               Home Loan
                                                                                                                  9/27/2012              ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                 12/27/2012              ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                  9/27/2013              ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013            ($979)      $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($34)      $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014            ($406)      $288,672    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009         $150,000       $250,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009         $130,000       $380,000
                                                                                                                                                               program initial cap
                                                                                                                  3/26/2010          $50,000       $430,000    Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010         ($30,000)      $400,000    Updated portfolio data from servicer
            Lake National Bank,                      Instrument for
7/10/2009                              Purchase                                  $100,000     N/A          6      9/30/2010          $35,167       $435,167    Updated portfolio data from servicer                      $3,000       $3,651            $4,000                 $10,651
            Mentor, OH                               Home Loan
                                                     Modifications                                                 1/6/2011              ($1)      $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011              ($1)      $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($6)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                                                                                  8/23/2012        ($424,504)       $10,651    Termination of SPA
                                                     Financial
            Land/Home Financial
                                                     Instrument for
6/16/2014   Services, Inc., Concord,   Purchase                                         $0    N/A          3      6/16/2014          $40,000        $40,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                     Home Loan
            CA
                                                     Modifications
                                                                                                                  1/16/2014         $100,000       $100,000    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014          $10,000       $110,000    Transfer of cap due to servicing transfer
                                                     Financial
            LenderLive Network,                      Instrument for                                               3/26/2014              ($2)      $109,998    Updated due to quarterly assessment and reallocation
1/16/2014                              Purchase                                         $0    N/A          3                                                                                                                 $0           $0                 $0                      $0
            Inc, Glendale, CO                        Home Loan                                                    5/15/2014          $20,000       $129,998    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  6/16/2014          $80,000       $209,998    Transfer of cap due to servicing transfer
                                                                                                                  6/26/2014            ($236)      $209,762    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                9/30/2010         $450,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($17)    $1,450,512    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    9/27/2012              ($48)    $1,450,464    Updated due to quarterly assessment and reallocation
            Liberty Bank and Trust                 Instrument for
9/30/2010                            Purchase                                 $1,000,000    N/A                12/27/2012               ($8)    $1,450,456    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Co, New Orleans, LA                    Home Loan
                                                   Modifications                                                3/25/2013              ($30)    $1,450,426    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($11)    $1,450,415    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($4)    $1,450,411    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($6,958)    $1,443,453    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014            ($245)     $1,443,208    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($2,887)    $1,440,321    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                          483
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                               484
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                             TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                9/30/2009     $313,050,000     $1,087,950,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               12/30/2009     $275,370,000     $1,363,320,000
                                                                                                                                                                program initial cap
                                                                                                                3/26/2010     $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                                7/14/2010    ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                                8/13/2010        ($700,000)    $1,166,800,000   Transfer of cap due to servicing transfer
                                                                                                                9/15/2010       ($1,000,000)   $1,165,800,000   Transfer of cap due to servicing transfer
                                                                                                                9/30/2010    ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                               10/15/2010        ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                               12/15/2010         $800,000     $1,050,782,764   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011           ($1,286)   $1,050,781,478   Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011        $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                3/30/2011           ($1,470)   $1,059,580,008   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011       ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011        ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011        ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                   Financial                                                    6/29/2011          ($13,097)   $1,055,266,911   Updated due to quarterly assessment and reallocation
            Litton Loan Servicing,                 Instrument for
8/12/2009                            Purchase                              $774,900,000     N/A         12      7/14/2011        ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer              $13,441,220   $35,353,126       $27,530,414             $76,324,760
            LP, Houston, TX                        Home Loan
                                                   Modifications                                                9/15/2011       ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011        ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011        ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011       ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012    ($194,800,000)     $853,966,911    Transfer of cap due to servicing transfer
                                                                                                                2/16/2012        ($400,000)     $853,566,911    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012           ($9,728)    $853,557,183    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012       ($7,990,000)    $845,567,183    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012          ($26,467)    $845,540,716    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012           ($4,466)    $845,536,250    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013          ($16,922)    $845,519,328    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013           ($6,386)    $845,512,942    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013           ($2,289)    $845,510,653    Updated due to quarterly assessment and reallocation
                                                                                                               12/16/2013          ($60,000)    $845,450,653    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013       ($3,864,503)    $841,586,150    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014          ($30,000)    $841,556,150    Transfer of cap due to servicing transfer
                                                                                                                1/31/2014    ($765,231,390)      $76,324,760    Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               1/22/2010          $40,000        $740,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010          $50,000        $790,000    Updated portfolio data from servicer
                                                                                                               7/14/2010        $1,310,000     $2,100,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          $75,834      $2,175,834    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3)    $2,175,831    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($4)    $2,175,827    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($35)    $2,175,792    Updated due to quarterly assessment and reallocation
                                                  Financial
            Los Alamos National                   Instrument for                                               6/28/2012              ($26)    $2,175,766    Updated due to quarterly assessment and reallocation
11/6/2009                           Purchase                                  $700,000     N/A                                                                                                                        $38,698     $43,326            $56,278                $138,301
            Bank, Los Alamos, NM                  Home Loan
                                                  Modifications                                                9/27/2012              ($70)    $2,175,696    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($12)    $2,175,684    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($45)    $2,175,639    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013              ($17)    $2,175,622    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($6)    $2,175,616    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($9,932)    $2,165,684    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014            ($346)     $2,165,338    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014           ($4,087)    $2,161,251    Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2010         $315,389      $1,015,389    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($1)    $1,015,388    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($1)    $1,015,387    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($11)    $1,015,376    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($11)    $1,015,365    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($30)    $1,015,335    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($5)    $1,015,330    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    3/25/2013              ($20)    $1,015,310    Updated due to quarterly assessment and reallocation
                                                  Instrument for
9/30/2010   M&T Bank, Buffalo, NY   Purchase                                  $700,000     N/A                 6/27/2013               ($7)    $1,015,303    Updated due to quarterly assessment and reallocation    $167,084       $1,332          $168,848                $337,265
                                                  Home Loan
                                                  Modifications                                                9/27/2013               ($3)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($4,381)    $1,010,919    Updated due to quarterly assessment and reallocation
                                                                                                               2/13/2014        $1,280,000     $2,290,919    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014         $125,146      $2,416,065    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014          $20,000      $2,436,065    Transfer of cap due to servicing transfer
                                                                                                               5/15/2014          $80,000      $2,516,065    Transfer of cap due to servicing transfer
                                                                                                               6/16/2014         $140,000      $2,656,065    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014         $230,716      $2,886,781    Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2010         $630,778      $2,030,778    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3)    $2,030,775    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($3)    $2,030,772    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($33)    $2,030,739    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($25)    $2,030,714    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    9/27/2012              ($68)    $2,030,646    Updated due to quarterly assessment and reallocation
            Magna Bank,                           Instrument for
9/30/2010                           Purchase                                 $1,400,000    N/A                12/27/2012              ($11)    $2,030,635    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Germantown, TN                        Home Loan
                                                  Modifications                                                3/25/2013              ($44)    $2,030,591    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013              ($16)    $2,030,575    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                               9/27/2013               ($6)    $2,030,569    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($9,947)    $2,020,622    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014            ($350)     $2,020,272    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014           ($4,127)    $2,016,145    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         485
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                          486
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                   Financial                                                    9/30/2010          $225,278       $725,278    Updated portfolio data from servicer
             Mainstreet Credit                     Instrument for
9/30/2010                            Purchase                                  $500,000     N/A                  1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Union, Lexena, KS                     Home Loan
                                                   Modifications                                                 3/9/2011        ($725,277)             $0    Termination of SPA
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010          $950,000    $21,310,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010      ($17,880,000)    $3,430,000    Updated portfolio data from servicer
                                                                                                                6/16/2010        $1,030,000     $4,460,000    Transfer of cap due to servicing transfer
                                                                                                                7/14/2010       ($1,160,000)    $3,300,000    Updated portfolio data from servicer
                                                                                                                8/13/2010          $800,000     $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2010          $200,000     $4,300,000
                                                                                                                                                              program initial cap
                                                                                                                9/30/2010        $1,357,168     $5,657,168    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)    $5,657,167    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                3/16/2011        $5,700,000    $11,357,167    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011               ($6)   $11,357,161    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011        $7,300,000    $18,657,161    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011          $300,000    $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011          $900,000    $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011             ($154)   $19,857,007    Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011          $100,000    $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                8/16/2011          $300,000    $20,257,007    Transfer of cap due to servicing transfer
                                                                                                                1/13/2012       ($1,500,000)   $18,757,007    Transfer of cap due to servicing transfer
                                                   Financial                                                    2/16/2012       ($2,100,000)   $16,657,007    Transfer of cap due to servicing transfer
             Marix Servicing, LLC,                 Instrument for
11/25/2009                           Purchase                               $20,360,000     N/A                 4/16/2012       ($1,300,000)   $15,357,007    Transfer of cap due to servicing transfer               $352,196    $970,197           $839,633              $2,162,025
             Phoenix, AZ                           Home Loan
                                                   Modifications                                                6/14/2012       ($8,350,000)    $7,007,007    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($38)    $7,006,969    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012          ($90,000)    $6,916,969    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012             ($103)    $6,916,866    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012       ($1,020,000)    $5,896,866    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012          $170,000     $6,066,866    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012              ($15)    $6,066,851    Updated due to quarterly assessment and reallocation
                                                                                                                2/14/2013        ($100,000)     $5,966,851    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013        ($490,000)     $5,476,851    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($61)    $5,476,790    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013          ($10,000)    $5,466,790    Transfer of cap due to servicing transfer
                                                                                                                5/16/2013          ($30,000)    $5,436,790    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013          ($10,000)    $5,426,790    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($23)    $5,426,767    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          ($20,000)    $5,406,767    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013               ($8)    $5,406,759    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($13,934)    $5,392,825    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($490)    $5,392,335    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($5,781)    $5,386,554    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                  9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                     Financial
             Marsh Associates, Inc.,                 Instrument for                                               6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                  $100,000     N/A                                                                                                                         $9,688           $0            $10,649                 $20,337
             Charlotte, NC                           Home Loan                                                    9/27/2012               ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013               ($1)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 10/15/2013         ($60,000)        $85,052    Transfer of cap due to servicing transfer
                                                     Financial
             Members Mortgage
                                                     Instrument for
10/28/2009   Company, Inc, Woburn,     Purchase                                  $510,000     N/A                 4/21/2010        ($510,000)             $0    Termination of SPA                                            $0           $0                  $0                      $0
                                                     Home Loan
             MA
                                                     Modifications
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009          $70,000        $350,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009         $620,000        $970,000
                                                                                                                                                                program initial cap
                                                     Financial
             Metropolitan National                   Instrument for                                               3/26/2010         $100,000       $1,070,000   Updated portfolio data from servicer
9/11/2009                              Purchase                                  $280,000     N/A                                                                                                                             $0           $0                  $0                      $0
             Bank, Little Rock, AR                   Home Loan
                                                                                                                  7/14/2010        ($670,000)       $400,000    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  9/30/2010          $35,167        $435,167    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)      $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                  1/26/2011        ($435,166)             $0    Termination of SPA
                                                                                                                  9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
             Mid America Mortgage,                   Financial
             Inc. (Schmidt Mortgage                  Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                  $100,000     N/A                                                                                                                             $0           $0                  $0                      $0
             Company), Rocky                         Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
             River, OH                               Modifications
                                                                                                                 12/23/2013            ($232)       $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010       $49,915,806     $93,415,806   Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($125)     $93,415,681   Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011            ($139)     $93,415,542   Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011           ($1,223)    $93,414,319   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012            ($797)     $93,413,522   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012     $294,540,000     $387,953,522   Transfer of cap due to servicing transfer

                                                     Financial                                                    7/27/2012    ($263,550,000)    $124,403,522   Transfer of cap due to servicing transfer
             Midland Mortgage
                                                     Instrument for
9/30/2010    Company, Oklahoma         Purchase                               $43,500,000     N/A                 9/27/2012           ($3,170)   $124,400,352   Updated due to quarterly assessment and reallocation   $8,013,744   $1,722,496        $9,271,018             $19,007,258
                                                     Home Loan
             City, OK
                                                     Modifications                                               12/27/2012            ($507)    $124,399,845   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013           ($1,729)   $124,398,116   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013            ($593)    $124,397,523   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013            ($199)    $124,397,324   Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013        ($280,061)    $124,117,263   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($8,934)   $124,108,329   Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014         ($95,352)    $124,012,977   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             487
                                                                                                                                                                                                                                                                                           488
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                7/14/2010          $300,000       $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                   Financial
            Midwest Bank and Trust                 Instrument for                                                1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
4/14/2010                            Purchase                                  $300,000     N/A                                                                                                                             $0           $0                  $0                      $0
            Co., Elmwood Park, IL                  Home Loan                                                    3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011        ($580,212)             $0    Termination of SPA
                                                                                                                9/30/2010          $180,222       $580,222    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




            Midwest Community                      Instrument for
9/15/2010                            Purchase                                  $400,000     N/A                12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation      $1,000       $1,818             $2,000                  $4,818
            Bank, Freeport, IL                     Home Loan
                                                   Modifications                                                3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,474)      $577,696    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($87)      $577,609    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($1,027)      $576,582    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009        ($490,000)       $370,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $6,750,000     $7,120,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       ($6,340,000)      $780,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($180,000)       $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010          $125,278       $725,278    Updated portfolio data from servicer
                                                   Financial
            Mission Federal Credit                 Instrument for                                               3/30/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
7/22/2009                            Purchase                                  $860,000     N/A                                                                                                                        $83,598     $206,907           $114,781                $405,286
            Union, San Diego, CA                   Home Loan
                                                                                                                6/29/2011               ($4)      $725,273    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/28/2012               ($1)      $725,272    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($1)      $725,271    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013           $47,663       $772,934    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($149)      $772,785    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($5)      $772,780    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($64)      $772,716    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009       $18,530,000    $42,010,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $24,510,000    $66,520,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $18,360,000    $84,880,000    Updated portfolio data from servicer
                                                   Financial
            MorEquity, Inc.,                       Instrument for                                               7/14/2010      ($22,580,000)   $62,300,000    Updated portfolio data from servicer
7/17/2009                            Purchase                               $23,480,000     N/A          5                                                                                                            $345,841    $2,305,003        $1,977,321              $4,628,165
            Evansville, IN                         Home Loan
                                                                                                                9/30/2010       ($8,194,261)   $54,105,739    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                 1/6/2011              ($37)   $54,105,702    Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011      ($29,400,000)   $24,705,702    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($34)   $24,705,668    Updated due to quarterly assessment and reallocation
                                                                                                                5/26/2011      ($20,077,503)    $4,628,165    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009        $1,780,000     $5,990,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009        $2,840,000     $8,830,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $2,800,000    $11,630,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($5,730,000)    $5,900,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010        $2,658,280     $8,558,280    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($12)    $8,558,268    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($14)    $8,558,254    Updated due to quarterly assessment and reallocation
                                                    Financial
             Mortgage Center, LLC,                  Instrument for                                               6/29/2011             ($129)    $8,558,125    Updated due to quarterly assessment and reallocation
7/22/2009                             Purchase                                 $4,210,000    N/A                                                                                                                       $193,355    $306,335           $326,139                $825,830
             Southfield, MI                         Home Loan
                                                                                                                 6/28/2012              ($94)    $8,558,031    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 9/27/2012             ($256)    $8,557,775    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($43)    $8,557,732    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($162)    $8,557,570    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013              ($60)    $8,557,510    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013              ($21)    $8,557,489    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($35,751)    $8,521,738    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($1,246)    $8,520,492    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014          ($14,660)    $8,505,832    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       ($2,900,000)    $1,960,000
                                                                                                                                                               program initial cap
                                                    Financial                                                    3/26/2010       ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing                      Instrument for
10/14/2009                            Purchase                                 $4,860,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Corporation, Tulsa, OK                 Home Loan                                                    7/14/2010        ($260,000)       $100,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  3/9/2011        ($145,056)             $0    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                           489
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                              490
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                            TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $315,170,000     $610,150,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $90,280,000    $700,430,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010      ($18,690,000)   $681,740,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($272,640,000)    $409,100,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010       $80,600,000    $489,700,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $71,230,004    $560,930,004   Updated portfolio data from servicer
                                                                                                                1/6/2011             ($828)   $560,929,176   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011          $200,000    $561,129,176   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        ($100,000)    $561,029,176   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($981)   $561,028,195   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011       ($2,300,000)   $558,728,195   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                               5/13/2011        ($200,000)    $558,528,195   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($200,000)    $558,328,195   Transfer of cap due to servicing transfer
                                                  Financial
                                                                                                               6/29/2011           ($9,197)   $558,318,998   Updated due to quarterly assessment and reallocation
            National City Bank,                   Instrument for
6/26/2009                          Purchase                               $294,980,000     N/A                                                                                                                       $4,353,236    $11,881,685        $6,580,513             $22,815,434
            Miamisburg, OH                        Home Loan                                                   10/14/2011          $300,000    $558,618,998   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                              11/16/2011        ($300,000)    $558,318,998   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012          $200,000    $558,518,998   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($100,000)    $558,418,998   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $200,000    $558,618,998   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012          ($10,000)   $558,608,998   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($6,771)   $558,602,227   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012          ($18,467)   $558,583,760   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012           ($3,105)   $558,580,655   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013          ($11,713)   $558,568,942   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013           ($4,393)   $558,564,549   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013           ($1,565)   $558,562,984   Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013       ($2,622,925)   $555,940,059   Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2014        $7,680,000    $563,620,059   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014          ($92,836)   $563,527,223   Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014       ($1,090,169)   $562,437,054   Updated due to quarterly assessment and reallocation
                                                                                                               6/12/2009       $16,140,000    $117,140,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $134,560,000     $251,700,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $80,250,000    $331,950,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $67,250,000    $399,200,000   Updated portfolio data from servicer
                                                  Financial
            Nationstar Mortgage                   Instrument for                                               7/14/2010      ($85,900,000)   $313,300,000   Updated portfolio data from servicer
5/28/2009                          Purchase                               $101,000,000     N/A                                                                                                                      $58,443,754   $152,940,909       $80,304,302           $291,688,966
            LLC, Lewisville, TX                   Home Loan
                                                  Modifications                                                8/13/2010          $100,000    $313,400,000   Transfer of cap due to servicing transfer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $2,900,000    $316,300,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $33,801,486    $350,101,486   Updated portfolio data from servicer
                                                                                                              11/16/2010          $700,000    $350,801,486   Transfer of cap due to servicing transfer
                                                                                                              12/15/2010        $1,700,000    $352,501,486   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                        1/6/2011             ($363)    $352,501,123    Updated due to quarterly assessment and reallocation
                                                                                                       2/16/2011         $900,000      $353,401,123    Transfer of cap due to servicing transfer
                                                                                                       3/16/2011       $29,800,000     $383,201,123    Transfer of cap due to servicing transfer
                                                                                                       3/30/2011             ($428)    $383,200,695    Updated due to quarterly assessment and reallocation
                                                                                                       5/26/2011       $20,077,503     $403,278,198    Transfer of cap due to servicing transfer
                                                                                                       6/29/2011           ($4,248)    $403,273,950    Updated due to quarterly assessment and reallocation
                                                                                                      11/16/2011         $100,000      $403,373,950    Transfer of cap due to servicing transfer
                                                                                                       3/15/2012        ($100,000)     $403,273,950    Transfer of cap due to servicing transfer
                                                                                                       5/16/2012           $90,000     $403,363,950    Transfer of cap due to servicing transfer
                                                                                                       6/14/2012       ($2,380,000)    $400,983,950    Transfer of cap due to servicing transfer
                                                                                                       6/28/2012           ($2,957)    $400,980,993    Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2012       ($2,580,000)    $398,400,993    Transfer of cap due to servicing transfer
                                                                                                       8/16/2012     $131,450,000      $529,850,993    Transfer of cap due to servicing transfer
                                                                                                       8/23/2012     $166,976,849      $696,827,842    Transfer of cap due to servicing transfer
                                                                                                       9/27/2012          ($12,806)    $696,815,036    Updated due to quarterly assessment and reallocation
                                                                                                      11/15/2012         $160,000      $696,975,036    Transfer of cap due to servicing transfer
                                                                                                      12/14/2012           $50,000     $697,025,036    Transfer of cap due to servicing transfer
                                                                                                      12/27/2012           ($1,882)    $697,023,154    Updated due to quarterly assessment and reallocation
                                                                                                       2/14/2013          ($10,000)    $697,013,154    Transfer of cap due to servicing transfer
                                                                                                       3/14/2013        ($280,000)     $696,733,154    Transfer of cap due to servicing transfer
                                                                                                       3/25/2013           ($6,437)    $696,726,717    Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2013           $30,000     $696,756,717    Transfer of cap due to servicing transfer
                                                                                                       5/16/2013       ($1,510,000)    $695,246,717    Transfer of cap due to servicing transfer
                                                                                                       6/14/2013       ($1,070,000)    $694,176,717    Transfer of cap due to servicing transfer
                                                                                                       6/27/2013           ($2,099)    $694,174,618    Updated due to quarterly assessment and reallocation
                                                                                                        7/9/2013       $23,179,591     $717,354,209    Transfer of cap due to servicing transfer
                                                                                                       7/16/2013         $490,000      $717,844,209    Transfer of cap due to servicing transfer
                                                                                                       9/16/2013     $289,070,000     $1,006,914,209   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013           ($1,118)   $1,006,913,091   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013       $63,440,000    $1,070,353,091   Transfer of cap due to servicing transfer
                                                                                                      11/14/2013        $5,060,000    $1,075,413,091   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013        $3,210,000    $1,078,623,091   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013       ($1,697,251)   $1,076,925,840   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2014        ($100,000)    $1,076,825,840   Transfer of cap due to servicing transfer
                                                                                                       2/13/2014       $32,370,000    $1,109,195,840   Transfer of cap due to servicing transfer
                                                                                                       3/14/2014          ($20,000)   $1,109,175,840   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014          ($47,177)   $1,109,128,663   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014         $370,000     $1,109,498,663   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014       $41,040,000    $1,150,538,663   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014         $120,000     $1,150,658,663   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014        ($496,816)    $1,150,161,847   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                   491
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)                                                                                                                                                                                           492
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                    Financial                                                   12/16/2013           $10,000        $10,000    Transfer of cap due to servicing transfer
             Nationwide Advantage
                                                    Instrument for
12/16/2013   Mortgage Company,        Purchase                                         $0    N/A          3                                                                                                                  $0           $0                  $0                      $0
                                                    Home Loan
             Des Moines, IA                                                                                      5/15/2014           $10,000        $20,000    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 7/14/2010      ($44,880,000)   $15,900,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010        $1,071,505    $16,971,505    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($23)   $16,971,482    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($26)   $16,971,456    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($238)   $16,971,218    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012             ($145)   $16,971,073    Updated due to quarterly assessment and reallocation
                                                    Financial
             Navy Federal Credit                    Instrument for                                               9/27/2012             ($374)   $16,970,699    Updated due to quarterly assessment and reallocation
3/10/2010                             Purchase                               $60,780,000     N/A                                                                                                                       $759,918    $1,869,978        $1,388,422              $4,018,318
             Union, Vienna, VA                      Home Loan                                                   12/27/2012              ($58)   $16,970,641    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/25/2013             ($199)   $16,970,442    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013              ($68)   $16,970,374    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                 9/27/2013              ($22)   $16,970,352    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($36,317)   $16,934,035    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($1,230)   $16,932,805    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014          ($13,708)   $16,919,097    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011          $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000       $300,000    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011          $300,000       $600,000    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2011          $200,000       $799,991    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012               ($7)      $799,984    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    9/27/2012              ($19)      $799,965    Updated due to quarterly assessment and reallocation
             New York Community
                                                    Instrument for
4/13/2011    Bank (AmTrust Bank),     Purchase                                         $0    N/A          3     12/27/2012               ($3)      $799,962    Updated due to quarterly assessment and reallocation     $13,344      $34,310            $22,004                 $69,658
                                                    Home Loan
             Cleveland, OH
                                                    Modifications                                                3/25/2013              ($12)      $799,950    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($5)      $799,945    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013          $150,000       $949,945    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013               ($2)      $949,943    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($3,454)      $946,489    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($121)      $946,368    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014           ($1,433)      $944,935    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009          $290,000       $430,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009          $210,000       $640,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010          $170,000       $810,000    Updated portfolio data from servicer
                                                    Financial                                                    7/14/2010          ($10,000)      $800,000    Updated portfolio data from servicer
             Oakland Municipal
                                                    Instrument for
8/5/2009     Credit Union, Oakland,   Purchase                                  $140,000     N/A          6      9/30/2010          ($74,722)      $725,278    Updated portfolio data from servicer                          $0       $3,568             $6,500                 $10,068
                                                    Home Loan
             CA
                                                    Modifications                                                 1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011        ($200,000)       $525,276    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($7)      $525,269    Updated due to quarterly assessment and reallocation
                                                                                                                 7/22/2011        ($515,201)        $10,068    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009    ($105,620,000)     $553,380,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $102,580,000      $655,960,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $277,640,000      $933,600,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010       $46,860,000     $980,460,000    Updated portfolio data from servicer
                                                                                                               6/16/2010     $156,050,000     $1,136,510,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010    ($191,610,000)     $944,900,000    Updated portfolio data from servicer
                                                                                                               7/16/2010       $23,710,000     $968,610,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/15/2010         $100,000      $968,710,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010        $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                              10/15/2010     $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,020)   $1,143,251,720   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011         $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,114)   $1,144,150,606   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011         ($10,044)    $1,144,140,562   Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011        ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012     $194,800,000     $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012         $400,000     $1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012         $100,000     $1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012     $123,530,000     $1,462,870,562   Transfer of cap due to servicing transfer
                                                  Financial
            Ocwen Loan Servicing                                                                               6/14/2012     $354,290,000     $1,817,160,562   Transfer of cap due to servicing transfer
                                                  Instrument for
4/16/2009   LLC, West Palm         Purchase                               $659,000,000     N/A                                                                                                                        $201,371,005   $713,810,932      $275,171,975          $1,190,353,913
                                                  Home Loan                                                    6/28/2012           ($6,308)   $1,817,154,254   Updated due to quarterly assessment and reallocation
            Beach, FL
                                                  Modifications
                                                                                                               7/16/2012       $10,080,000    $1,827,234,254   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012        $8,390,000    $1,835,624,254   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($10,733)    $1,835,613,521   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       $14,560,000    $1,850,173,521   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012       $13,240,000    $1,863,413,521   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $2,080,000    $1,865,493,521   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($1,015)   $1,865,492,506   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013         $410,000     $1,865,902,506   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013         $960,000     $1,866,862,506   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013       $83,880,000    $1,950,742,506   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($1,877)   $1,950,740,629   Updated due to quarterly assessment and reallocation
                                                                                                                4/9/2013     $157,237,929     $2,107,978,558   Transfer of cap due to servicing transfer
                                                                                                               4/16/2013     $620,860,000     $2,728,838,558   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       $18,970,000    $2,747,808,558   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        ($190,000)    $2,747,618,558   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($2,817)   $2,747,615,741   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013       $14,710,000    $2,762,325,741   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       $66,170,000    $2,828,495,741   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013            ($276)    $2,828,495,465   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013     $267,580,000     $3,096,075,465   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                              11/14/2013        $4,290,000    $3,100,365,465   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                493
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                                494
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                              12/16/2013     $280,370,000     $3,380,735,465   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       $49,286,732    $3,430,022,197   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014       $51,180,000    $3,481,202,197   Transfer of cap due to servicing transfer
                                                                                                               1/31/2014     $765,231,390     $4,246,433,587   Transfer of cap due to merger/acquisition
                                                                                                               2/13/2014       $38,900,000    $4,285,333,587   Transfer of cap due to servicing transfer
                                                                                                               2/27/2014     $360,860,500     $4,646,194,086   Transfer of cap due to merger/acquisition
                                                                                                               3/14/2014       $25,080,000    $4,671,274,086   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014        ($167,651)    $4,671,106,435   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014       $11,980,000    $4,683,086,435   Transfer of cap due to servicing transfer
                                                                                                               5/15/2014          $130,000    $4,683,216,435   Transfer of cap due to servicing transfer
                                                                                                               5/28/2014     $284,475,088     $4,967,691,523   Transfer of cap due to merger/acquisition
                                                                                                               6/16/2014          $690,000    $4,968,381,523   Transfer of cap due to servicing transfer
                                                                                                               6/26/2014       ($2,284,678)   $4,966,096,845   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               10/2/2009     $145,800,000      $814,240,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009    $1,355,930,000    $2,170,170,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010     $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $5,500,000    $1,888,000,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010      ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
                                                                                                                1/6/2011           ($2,282)   $1,836,256,555   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011           ($2,674)   $1,836,253,881   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011          ($24,616)   $1,836,229,265   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012          ($15,481)   $1,836,213,784   Updated due to quarterly assessment and reallocation

                                                  Financial                                                    9/27/2012          ($40,606)   $1,836,173,178   Updated due to quarterly assessment and reallocation
            OneWest Bank,                         Instrument for                                              12/27/2012           ($6,688)   $1,836,166,490   Updated due to quarterly assessment and reallocation
8/28/2009                          Purchase                               $668,440,000     N/A                                                                                                                        $62,344,015   $210,824,093       $86,735,741           $359,903,849
            Pasadena, CA                          Home Loan
                                                  Modifications                                                3/25/2013          ($24,811)   $1,836,141,679   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013           ($9,058)   $1,836,132,621   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013           ($3,154)   $1,836,129,467   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        ($500,000)    $1,835,629,467   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013       ($4,440,000)   $1,831,189,467   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013    ($277,680,000)    $1,553,509,467   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($5,188,787)   $1,548,320,680   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014      ($25,750,000)   $1,522,570,680   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014          ($10,000)   $1,522,560,680   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014       ($6,240,000)   $1,516,320,680   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014        ($181,765)    $1,516,138,915   Updated due to quarterly assessment and reallocation
                                                                                                               6/16/2014          ($30,000)   $1,516,108,915   Transfer of cap due to servicing transfer
                                                                                                               6/26/2014       ($2,139,762)   $1,513,969,153   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009          $460,000     $2,530,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $2,730,000     $5,260,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $13,280,000    $18,540,000    Updated portfolio data from servicer
                                                                                                                7/14/2010      ($13,540,000)    $5,000,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $1,817,613     $6,817,613    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($10)    $6,817,603    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011              ($12)    $6,817,591    Updated due to quarterly assessment and reallocation
                                                   Financial
             ORNL Federal Credit                   Instrument for                                               6/29/2011             ($115)    $6,817,476    Updated due to quarterly assessment and reallocation
9/11/2009                           Purchase                                  $2,070,000    N/A                                                                                                                        $20,392     $35,964            $46,324                $102,680
             Union, Oak Ridge, TN                  Home Loan
                                                                                                                6/28/2012              ($86)    $6,817,390    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                9/27/2012             ($236)    $6,817,154    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($40)    $6,817,114    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013             ($149)    $6,816,965    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($56)    $6,816,909    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013              ($20)    $6,816,889    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($33,979)    $6,782,910    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($1,192)    $6,781,718    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014          ($14,049)    $6,767,669    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $40,000       $800,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          $140,000       $940,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($140,000)       $800,000    Updated portfolio data from servicer
                                                   Financial                                                    9/30/2010           $70,334       $870,334    Updated portfolio data from servicer
             Park View Federal
                                                   Instrument for
12/16/2009   Savings Bank, Solon,   Purchase                                   $760,000     N/A          6                                                                                                             $11,000     $23,937            $19,000                 $53,937
                                                   Home Loan                                                     1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
             OH
                                                   Modifications
                                                                                                                3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($10)      $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                9/14/2012        ($816,373)        $53,937    Termination of SPA
                                                                                                                9/30/2010        $2,181,334     $3,481,334    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($5)    $3,481,329    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($6)    $3,481,323    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($58)    $3,481,265    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($43)    $3,481,222    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    9/27/2012             ($119)    $3,481,103    Updated due to quarterly assessment and reallocation
             Pathfinder Bank,                      Instrument for
8/25/2010                           Purchase                                  $1,300,000    N/A                12/27/2012              ($20)    $3,481,083    Updated due to quarterly assessment and reallocation      $7,417       $9,369           $16,507                 $33,293
             Oswego, NY                            Home Loan
                                                   Modifications                                                3/25/2013              ($76)    $3,481,007    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($29)    $3,480,978    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013              ($10)    $3,480,968    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($17,421)    $3,463,547    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($612)    $3,462,935    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($7,228)    $3,455,707    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                          495
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                            496
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       ($1,200,000)    $5,010,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $30,800,000    $35,810,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $23,200,000    $59,010,000    Updated portfolio data from servicer
                                                                                                               6/16/2010        $2,710,000    $61,720,000    Transfer of cap due to servicing transfer
                                                                                                               7/14/2010      ($18,020,000)   $43,700,000    Updated portfolio data from servicer
                                                                                                               7/16/2010        $6,680,000    $50,380,000    Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        $2,600,000    $52,980,000    Transfer of cap due to servicing transfer
                                                                                                               9/15/2010        ($100,000)    $52,880,000    Transfer of cap due to servicing transfer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010          $200,000    $53,080,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       ($1,423,197)   $51,656,803    Updated portfolio data from servicer
                                                                                                              11/16/2010        $1,400,000    $53,056,803    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                              12/15/2010        ($100,000)    $52,956,803    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($72)   $52,956,731    Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011        $4,100,000    $57,056,731    Transfer of cap due to servicing transfer
                                                                                                               2/16/2011        ($100,000)    $56,956,731    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        $4,000,000    $60,956,731    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($94)   $60,956,637    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($100,000)    $60,856,637    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011        $5,800,000    $66,656,637    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011          $600,000    $67,256,637    Transfer of cap due to servicing transfer
                                                  Financial
            PennyMac Loan                                                                                      6/29/2011             ($812)   $67,255,825    Updated due to quarterly assessment and reallocation
                                                  Instrument for
8/12/2009   Services, LLC,         Purchase                                  $6,210,000    N/A                                                                                                                      $7,413,845   $22,169,348        $9,546,385             $39,129,578
                                                  Home Loan                                                    7/14/2011        $2,500,000    $69,755,825    Transfer of cap due to servicing transfer
            Calasbasa, CA
                                                  Modifications
                                                                                                               9/15/2011        $2,800,000    $72,555,825    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011          $300,000    $72,855,825    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011          $900,000    $73,755,825    Transfer of cap due to servicing transfer
                                                                                                              12/15/2011          $800,000    $74,555,825    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012          $200,000    $74,755,825    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        $1,900,000    $76,655,825    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012          $200,000    $76,855,825    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $1,340,000    $78,195,825    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($340)   $78,195,485    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,930,000    $81,125,485    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012          $890,000    $82,015,485    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012             ($974)   $82,014,511    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $1,800,000    $83,814,511    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $3,860,000    $87,674,511    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($154)   $87,674,357    Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013        $2,980,000    $90,654,357    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($506)   $90,653,851    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013        $2,160,000    $92,813,851    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        $2,440,000    $95,253,851    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($128)   $95,253,723    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($7)   $95,253,716    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        $4,450,000    $99,703,716    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                         TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                  12/23/2013       $15,826,215    $115,529,931   Updated due to quarterly assessment and reallocation
                                                                                                                   2/13/2014        $5,130,000    $120,659,931   Transfer of cap due to servicing transfer
                                                                                                                   3/14/2014       ($2,390,000)   $118,269,931   Transfer of cap due to servicing transfer
                                                                                                                   3/26/2014        $2,017,426    $120,287,357   Updated due to quarterly assessment and reallocation
                                                                                                                   5/15/2014          ($10,000)   $120,277,357   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2014        $2,360,000    $122,637,357   Transfer of cap due to servicing transfer
                                                                                                                   6/26/2014        $5,959,201    $128,596,558   Updated due to quarterly assessment and reallocation
                                                                                                                   9/15/2011        $1,300,000      $1,300,000   Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012              ($15)     $1,299,985   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($42)     $1,299,943   Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012          $140,000      $1,439,943   Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012               ($8)     $1,439,935   Updated due to quarterly assessment and reallocation
                                                      Financial
             PHH Mortgage                                                                                          3/25/2013              ($30)     $1,439,905   Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/15/2011    Corporation, Mt.           Purchase                                         $0    N/A          3                                                                                                             $43,222      $67,127            $47,278                $157,627
                                                      Home Loan                                                    6/27/2013              ($11)     $1,439,894   Updated due to quarterly assessment and reallocation
             Laurel, NJ
                                                      Modifications
                                                                                                                   7/16/2013        $5,850,000      $7,289,894   Transfer of cap due to servicing transfer
                                                                                                                   9/27/2013              ($20)     $7,289,874   Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013          ($34,545)     $7,255,329   Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014           ($1,216)     $7,254,113   Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014          ($14,371)     $7,239,742   Updated due to quarterly assessment and reallocation
                                                      Financial
             Plaza Home Mortgage,                     Instrument for
11/14/2013                              Purchase                                         $0    N/A          3     11/14/2013           $10,000        $10,000    Transfer of cap due to servicing transfer                 $4,000           $0             $3,000                  $7,000
             Inc, San Diego, CA                       Home Loan
                                                      Modifications
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2009      ($36,240,000)    $18,230,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009       $19,280,000     $37,510,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        $2,470,000     $39,980,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($17,180,000)    $22,800,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2010       $35,500,000     $58,300,000
                                                                                                                                                                 program initial cap
                                                                                                                   9/30/2010       $23,076,191     $81,376,191   Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($123)    $81,376,068   Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011             ($147)    $81,375,921   Updated due to quarterly assessment and reallocation

                                                      Financial                                                    5/13/2011        ($100,000)     $81,275,921   Transfer of cap due to servicing transfer
             PNC Bank, National
                                                      Instrument for                                               6/29/2011           ($1,382)    $81,274,539   Updated due to quarterly assessment and reallocation
7/17/2009    Association, Pittsburgh,   Purchase                               $54,470,000     N/A                                                                                                                       $182,104    $1,110,782          $549,000              $1,841,887
                                                      Home Loan
             PA
                                                      Modifications                                               10/14/2011        ($300,000)     $80,974,539   Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012           ($1,003)    $80,973,536   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012           ($2,745)    $80,970,791   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($460)    $80,970,331   Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013           ($1,740)    $80,968,591   Updated due to quarterly assessment and reallocation
                                                                                                                    4/9/2013           $60,000     $81,028,591   Transfer of cap due to merger/acquisition
                                                                                                                   6/27/2013             ($656)    $81,027,935   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013             ($234)    $81,027,701   Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013        ($394,926)     $80,632,775   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                   3/26/2014          ($13,845)    $80,618,930   Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014        ($162,401)     $80,456,529   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              497
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                          498
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                   Financial
             PrimeWest Mortgage
                                                   Instrument for
3/15/2012    Corporation, Lubbock,   Purchase                                         $0    N/A          3      3/15/2012         $100,000        $100,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                   Home Loan
             TX
                                                   Modifications
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009          ($60,000)    $1,030,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,260,000     $2,290,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $2,070,000     $4,360,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($3,960,000)      $400,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                   Financial
             Purdue Employees                                                                                   6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                   Instrument for
7/29/2009    Federal Credit Union,   Purchase                                 $1,090,000    N/A                                                                                                                         $3,000       $2,452            $4,000                  $9,452
                                                   Home Loan
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




             West Lafayette, IN                                                                                 6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,474)      $577,696    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($87)      $577,609    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($1,027)      $576,582    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2010          ($10,000)       $10,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           $90,000       $100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                   Financial
             QLending, Inc., Coral                 Instrument for                                               6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
11/18/2009                           Purchase                                    $20,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Gables, FL                            Home Loan                                                    9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010          $890,000    $19,850,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $3,840,000    $23,690,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($2,890,000)   $20,800,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010        $9,661,676    $30,461,676    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($46)   $30,461,630    Updated due to quarterly assessment and reallocation
                                                                                                                 1/13/2011        $1,600,000    $32,061,630    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011        $1,400,000    $33,461,630    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($58)   $33,461,572    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011          $100,000    $33,561,572    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000    $33,661,572    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011          $800,000    $34,461,572    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011             ($559)   $34,461,013    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011          $300,000    $34,761,013    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011          $200,000    $34,961,013    Transfer of cap due to servicing transfer
                                                    Financial
             Quantum Servicing                      Instrument for                                               9/15/2011          $100,000    $35,061,013    Transfer of cap due to servicing transfer
11/18/2009                            Purchase                               $18,960,000     N/A          6                                                                                                            $133,393    $332,061           $179,984                $645,439
             Corporation, Tampa, FL                 Home Loan
                                                    Modifications                                                1/13/2012          $100,000    $35,161,013    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012          $330,000    $35,491,013    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($428)   $35,490,585    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012           ($1,184)   $35,489,401    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012       ($1,910,000)   $33,579,401    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012        ($980,000)    $32,599,401    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012             ($187)   $32,599,214    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($707)   $32,598,507    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013        ($240,000)    $32,358,507    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013             ($268)   $32,358,239    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013           $10,000    $32,368,239    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($96)   $32,368,143    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($20,000)   $32,348,143    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013        ($162,518)    $32,185,625    Updated due to quarterly assessment and reallocation
                                                                                                                 2/27/2014      ($31,540,186)      $645,439    Termination of SPA
                                                                                                                12/14/2012           $10,000        $10,000    Transfer of cap due to servicing transfer
                                                    Financial
             Quicken Loans Inc,                     Instrument for                                               8/15/2013           $10,000        $20,000    Transfer of cap due to servicing transfer
12/14/2012                            Purchase                                         $0    N/A          3                                                                                                              $6,000           $0            $5,000                 $11,000
             Detroit, MI                            Home Loan                                                    3/14/2014           $30,000        $50,000    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 5/15/2014           $10,000        $60,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  1/6/2011           $34,944       $180,000    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    3/30/2011           $40,000       $220,000    Updated due to quarterly assessment and reallocation
             RBC Bank (USA),                        Instrument for
9/1/2010                              Purchase                                  $100,000     N/A          9      6/29/2011           $50,000       $270,000    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Raleigh, NC                            Home Loan
                                                    Modifications                                                3/15/2012        ($200,000)        $70,000    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012          ($10,000)       $60,000    Transfer of cap due to servicing transfer
                                                                                                                  4/9/2013          ($60,000)            $0    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                           499
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                           500
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       ($1,860,000)   $17,540,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $27,920,000    $45,460,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       ($1,390,000)   $44,070,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($13,870,000)   $30,200,000    Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010          $400,000    $30,600,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010          $586,954    $31,186,954    Updated portfolio data from servicer
                                                                                                                1/6/2011              ($34)   $31,186,920    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011              ($37)   $31,186,883    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011          $100,000    $31,286,883    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($329)   $31,286,554    Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011       ($1,900,000)   $29,386,554    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                              11/16/2011        $2,800,000    $32,186,554    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          $420,000    $32,606,554    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $8,060,000    $40,666,554    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($313)   $40,666,241    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,160,000    $42,826,241    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012             ($911)   $42,825,330    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $5,690,000    $48,515,330    Transfer of cap due to servicing transfer

                                                  Financial                                                   11/15/2012           $20,000    $48,535,330    Transfer of cap due to servicing transfer
            Residential Credit
                                                  Instrument for                                              12/27/2012             ($178)   $48,535,152    Updated due to quarterly assessment and reallocation
6/12/2009   Solutions, Inc., Fort   Purchase                               $19,400,000     N/A                                                                                                                      $2,514,738   $6,726,714        $3,306,614             $12,548,065
                                                  Home Loan
            Worth, TX
                                                  Modifications                                                2/14/2013        $3,190,000    $51,725,152    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        ($260,000)    $51,465,152    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($713)   $51,464,439    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013        $1,330,000    $52,794,439    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013          $100,000    $52,894,439    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           $20,000    $52,914,439    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($264)   $52,914,175    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013        $6,080,000    $58,994,175    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       ($2,130,000)   $56,864,175    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($101)   $56,864,074    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        $6,910,000    $63,774,074    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013       ($1,050,000)   $62,724,074    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($173,584)    $62,550,490    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $1,310,000    $63,860,490    Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       ($2,210,000)   $61,650,490    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014       ($1,390,000)   $60,260,490    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($5,632)   $60,254,858    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014        ($220,000)    $60,034,858    Transfer of cap due to servicing transfer
                                                                                                               5/15/2014          $940,000    $60,974,858    Transfer of cap due to servicing transfer
                                                                                                               6/16/2014        ($640,000)    $60,334,858    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014          ($63,739)   $60,271,119    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               6/14/2012          $940,000       $940,000    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012          $205,242     $1,145,242    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012               ($3)    $1,145,239    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($1)    $1,145,238    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013           $10,000     $1,155,238    Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $8,690,000     $9,845,238    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        $1,390,000    $11,235,238    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($219)   $11,235,019    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013          $620,000    $11,855,019    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013          $990,000    $12,845,019    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($96)   $12,844,923    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    7/16/2013        $5,780,000    $18,624,923    Transfer of cap due to servicing transfer
            Resurgent Capital
                                                  Instrument for
6/14/2012   Solutions L.P.,        Purchase                                          $0    N/A          3      9/27/2013              ($50)   $18,624,873    Updated due to quarterly assessment and reallocation    $592,909    $1,367,544          $682,741              $2,643,193
                                                  Home Loan
            Greenville, SC
                                                  Modifications                                               10/15/2013          $880,000    $19,504,873    Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        $6,610,000    $26,114,873    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013           $20,000    $26,134,873    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($118,329)    $26,016,544    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $1,770,000    $27,786,544    Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       $23,920,000    $51,706,544    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014        $1,460,000    $53,166,544    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($7,186)   $53,159,358    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014        $2,370,000    $55,529,358    Transfer of cap due to servicing transfer
                                                                                                               5/15/2014        $1,990,000    $57,519,358    Transfer of cap due to servicing transfer
                                                                                                               6/16/2014        $1,720,000    $59,239,358    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014          ($96,715)   $59,142,643    Updated due to quarterly assessment and reallocation
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($11,300,000)   $45,700,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009      ($42,210,000)    $3,490,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $65,640,000    $69,130,000    Updated portfolio data from servicer
                                                                                                                4/9/2010      ($14,470,000)   $54,660,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($8,860,000)   $45,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010       ($4,459,154)   $41,340,846    Updated portfolio data from servicer
                                                                                                              12/15/2010       ($4,300,000)   $37,040,846    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($51)   $37,040,795    Updated due to quarterly assessment and reallocation
                                                  Financial
            RG Mortgage                                                                                        3/30/2011              ($65)   $37,040,730    Updated due to quarterly assessment and reallocation
                                                  Instrument for
6/17/2009   Corporation, San       Purchase                                $57,000,000     N/A                                                                                                                       $164,853     $227,582           $401,334                $793,769
                                                  Home Loan
            Juan, PR                                                                                           6/29/2011             ($616)   $37,040,114    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               6/28/2012             ($462)   $37,039,652    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012           ($1,270)   $37,038,382    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012             ($214)   $37,038,168    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013             ($812)   $37,037,356    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013             ($306)   $37,037,050    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013             ($110)   $37,036,940    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                              12/23/2013        ($185,423)    $36,851,517    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014           ($6,518)   $36,844,999    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014          ($77,004)   $36,767,995    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          501
                                                                                                                                                                                                                                                                                          502
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                3/26/2010         $610,000        $850,000    Updated portfolio data from servicer

                                                   Financial                                                    7/14/2010          $50,000        $900,000    Updated portfolio data from servicer
            Roebling Bank,                         Instrument for
1/13/2010                            Purchase                                  $240,000     N/A                 9/30/2010         ($29,666)       $870,334    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Roebling, NJ                           Home Loan
                                                   Modifications                                                 1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                                3/23/2011        ($870,333)             $0    Termination of SPA
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009         $130,000        $700,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        ($310,000)       $390,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $2,110,000     $2,500,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        $8,300,000    $10,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $5,301,172    $16,101,172    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($22)   $16,101,150    Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011        ($400,000)    $15,701,150    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                3/30/2011              ($25)   $15,701,125    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011            ($232)    $15,700,893    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012            ($174)    $15,700,719    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012            ($479)    $15,700,240    Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012        ($350,000)    $15,350,240    Transfer of cap due to servicing transfer
                                                   Financial                                                   12/27/2012              ($82)   $15,350,158    Updated due to quarterly assessment and reallocation
            RoundPoint Mortgage
                                                   Instrument for
8/28/2009   Servicing Corporation,   Purchase                                  $570,000     N/A                 3/25/2013            ($308)    $15,349,850    Updated due to quarterly assessment and reallocation    $296,620    $708,640           $529,323              $1,534,583
                                                   Home Loan
            Charlotte , NC
                                                   Modifications                                                4/16/2013          $80,000     $15,429,850    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013          $20,000     $15,449,850    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013            ($108)    $15,449,742    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          $30,000     $15,479,742    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013         $640,000     $16,119,742    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($40)   $16,119,702    Updated due to quarterly assessment and reallocation
                                                                                                               12/16/2013         $190,000     $16,309,702    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013         ($67,286)    $16,242,416    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014         $520,000     $16,762,416    Transfer of cap due to servicing transfer
                                                                                                                2/13/2014          $10,000     $16,772,416    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014         ($30,000)    $16,742,416    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($2,463)   $16,739,953    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014         ($20,000)    $16,719,953    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014         ($28,873)    $16,691,080    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               12/15/2011         $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                                4/16/2012         $600,000        $800,000    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($3)      $799,997    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012         $110,000        $909,997    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($13)      $909,984    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012        $1,270,000     $2,179,984    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012         $230,000      $2,409,984    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($5)    $2,409,979    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013         $990,000      $3,399,979    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013         $600,000      $3,999,979    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013        $1,980,000     $5,979,979    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($77)    $5,979,902    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013         $340,000      $6,319,902    Transfer of cap due to servicing transfer

                                                   Financial                                                    5/16/2013        $1,520,000     $7,839,902    Transfer of cap due to servicing transfer
             Rushmore Loan
                                                   Instrument for
12/15/2011   Management Services    Purchase                                          $0    N/A          3      6/14/2013        $2,740,000    $10,579,902    Transfer of cap due to servicing transfer              $1,451,420   $3,763,009          $875,694              $6,090,123
                                                   Home Loan
             LLC, Irvine, CA
                                                   Modifications                                                6/27/2013              ($53)   $10,579,849    Updated due to quarterly assessment and reallocation
                                                                                                                9/16/2013        $2,570,000    $13,149,849    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($26)   $13,149,823    Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013          $10,000     $13,159,823    Transfer of cap due to servicing transfer
                                                                                                               11/14/2013       $19,140,000    $32,299,823    Transfer of cap due to servicing transfer
                                                                                                               12/16/2013        $1,330,000    $33,629,823    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013         ($60,644)    $33,569,179    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014          $10,000     $33,579,179    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014          $50,000     $33,629,179    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($2,090)   $33,627,089    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014        $4,440,000    $38,067,089    Transfer of cap due to servicing transfer
                                                                                                                5/15/2014          $60,000     $38,127,089    Transfer of cap due to servicing transfer
                                                                                                                6/16/2014         $380,000     $38,507,089    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014         ($35,305)    $38,471,784    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                           503
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                 (CONTINUED)                                                                                                                                                                                               504
                                                                                                                   Adjustment
            Servicer Modifying Borrowers’ Loans                                                                        Details                                                                                                             TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution          Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                    6/17/2009     $225,040,000      $632,040,000    Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer/additional
                                                                                                                    9/30/2009     $254,380,000      $886,420,000
                                                                                                                                                                    program initial cap
                                                                                                                                                                    Updated portfolio data from servicer/additional
                                                                                                                   12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                                    program initial cap
                                                                                                                    3/26/2010      ($57,720,000)   $1,184,410,000   Updated portfolio data from servicer
                                                                                                                    6/16/2010    ($156,050,000)    $1,028,360,000   Transfer of cap due to servicing transfer
                                                                                                                    7/14/2010    ($513,660,000)     $514,700,000    Updated portfolio data from servicer
                                                                                                                    7/16/2010      ($22,980,000)    $491,720,000    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2010        $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated portfolio data from servicer/additional
                                                                                                                    9/30/2010        $9,800,000     $503,320,000
                                                                                                                                                                    program initial cap
                                                                                                                    9/30/2010     $116,222,668      $619,542,668    Updated portfolio data from servicer
                                                                                                                   10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                   12/15/2010        $8,900,000     $628,542,668    Transfer of cap due to servicing transfer
                                                                                                                     1/6/2011             ($556)    $628,542,112    Updated due to quarterly assessment and reallocation
                                                                                                                    1/13/2011        $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011          $700,000     $631,542,112    Transfer of cap due to servicing transfer
                                                                                                                    3/30/2011             ($654)    $631,541,458    Updated due to quarterly assessment and reallocation
                                                                                                                    4/13/2011        $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
                                                       Financial
                                                                                                                    6/29/2011           ($6,144)    $633,635,314    Updated due to quarterly assessment and reallocation
            Saxon Mortgage                             Instrument for
4/13/2009                                Purchase                              $407,000,000     N/A         10                                                                                                             $19,655,075   $41,738,413       $39,413,598           $100,807,086
            Services, Inc., Irving, TX                 Home Loan                                                    7/14/2011          $200,000     $633,835,314    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                    8/16/2011        ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012        ($100,000)     $650,435,314    Transfer of cap due to servicing transfer
                                                                                                                    3/15/2012          $100,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012      ($17,500,000)    $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012        ($760,000)     $632,275,314    Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012    ($354,290,000)     $277,985,314    Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012           ($1,831)    $277,983,483    Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2012      ($10,120,000)    $267,863,483    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2012          ($10,000)    $267,853,483    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2012           ($4,701)    $267,848,782    Updated due to quarterly assessment and reallocation
                                                                                                                   10/16/2012       ($9,220,000)    $258,628,782    Transfer of cap due to servicing transfer
                                                                                                                   11/15/2012          ($30,000)    $258,598,782    Transfer of cap due to servicing transfer
                                                                                                                   12/14/2012           $60,000     $258,658,782    Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012             ($788)    $258,657,994    Updated due to quarterly assessment and reallocation
                                                                                                                    1/16/2013        ($610,000)     $258,047,994    Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013           ($2,979)    $258,045,015    Updated due to quarterly assessment and reallocation
                                                                                                                     4/9/2013    ($157,237,929)     $100,807,086    Termination of SPA
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009          $90,000        $480,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009         $940,000      $1,420,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($980,000)       $440,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)       $300,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010        $1,150,556     $1,450,556    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                      Financial
             Schools Financial Credit                 Instrument for                                               6/29/2011              ($22)    $1,450,530    Updated due to quarterly assessment and reallocation
9/23/2009                               Purchase                                  $390,000     N/A                                                                                                                        $26,667     $63,189            $38,500                $128,356
             Union, Sacramento, CA                    Home Loan
                                                                                                                   6/28/2012              ($16)    $1,450,514    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   9/27/2012              ($44)    $1,450,470    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($7)    $1,450,463    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($28)    $1,450,435    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($11)    $1,450,424    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($4)    $1,450,420    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($6,411)    $1,444,009    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($225)     $1,443,784    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014           ($2,661)    $1,441,123    Updated due to quarterly assessment and reallocation
                                                                                                                  12/15/2010        $4,300,000     $4,300,000    Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011               ($4)    $4,299,996    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($5)    $4,299,991    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($23)    $4,299,968    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($63)    $4,299,905    Updated due to quarterly assessment and reallocation
                                                      Financial
             Scotiabank de Puerto                     Instrument for                                              12/27/2012              ($11)    $4,299,894    Updated due to quarterly assessment and reallocation
12/15/2010                              Purchase                                         $0    N/A          3                                                                                                            $515,949    $724,751           $418,009              $1,658,709
             Rico, San Juan, PR                       Home Loan                                                    3/25/2013              ($41)    $4,299,853    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   6/27/2013              ($16)    $4,299,837    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($6)    $4,299,831    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($9,679)    $4,290,152    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($344)     $4,289,808    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014           ($4,087)    $4,285,721    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009         $100,000        $540,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009          $20,000        $560,000
                                                                                                                                                                 program initial cap
                                                      Financial
                                                      Instrument for                                               3/26/2010        ($290,000)       $270,000    Updated portfolio data from servicer
9/25/2009    SEFCU, Albany, NY          Purchase                                  $440,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                      Home Loan
                                                                                                                   7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010         ($54,944)       $145,056    Updated portfolio data from servicer
                                                                                                                   6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                   4/11/2012        ($145,055)             $0    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             505
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                                506
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009     $284,590,000      $660,590,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $121,910,000      $782,500,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $131,340,000      $913,840,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010    ($355,530,000)     $558,310,000    Updated portfolio data from servicer
                                                                                                               7/14/2010     $128,690,000      $687,000,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $4,000,000     $691,000,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010       $59,807,784     $750,807,784    Updated portfolio data from servicer
                                                                                                              11/16/2010        ($700,000)     $750,107,784    Transfer of cap due to servicing transfer
                                                                                                              12/15/2010       $64,400,000     $814,507,784    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($639)    $814,507,145    Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011       ($2,300,000)    $812,207,145    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                               2/16/2011         $100,000      $812,307,145    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        $3,600,000     $815,907,145    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($735)    $815,906,410    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($100,000)     $815,806,410    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011         $400,000      $816,206,410    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($100,000)     $816,106,410    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($6,805)    $816,099,605    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011        ($100,000)     $815,999,605    Transfer of cap due to servicing transfer
                                                  Financial
            Select Portfolio                                                                                   9/15/2011        ($200,000)     $815,799,605    Transfer of cap due to servicing transfer
                                                  Instrument for
4/13/2009   Servicing, Inc., Salt   Purchase                              $376,000,000     N/A                                                                                                                        $94,974,156   $194,657,468      $124,863,766           $414,495,390
                                                  Home Loan                                                   10/14/2011        ($100,000)     $815,699,605    Transfer of cap due to servicing transfer
            Lake City, UT
                                                  Modifications
                                                                                                              11/16/2011        ($100,000)     $815,599,605    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         $200,000      $815,799,605    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012       $24,800,000     $840,599,605    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        $1,900,000     $842,499,605    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012           $80,000     $842,579,605    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $8,710,000     $851,289,605    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($5,176)    $851,284,429    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,430,000     $853,714,429    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012        $2,310,000     $856,024,429    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($13,961)    $856,010,468    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012     $126,940,000      $982,950,468    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        $9,990,000     $992,940,468    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012       $10,650,000    $1,003,590,468   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($2,663)   $1,003,587,805   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013       $18,650,000    $1,022,237,805   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013       $10,290,000    $1,032,527,805   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        $4,320,000    $1,036,847,805   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013          ($10,116)   $1,036,837,689   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013         $840,000     $1,037,677,689   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013        $1,330,000    $1,039,007,689   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        $3,620,000    $1,042,627,689   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                       6/27/2013           ($3,564)   $1,042,624,125   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2013     $105,080,000     $1,147,704,125   Transfer of cap due to servicing transfer
                                                                                                       8/15/2013           $10,000    $1,147,714,125   Transfer of cap due to servicing transfer
                                                                                                       9/16/2013       $98,610,000    $1,246,324,125   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013           ($1,541)   $1,246,322,584   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013        $1,280,000    $1,247,602,584   Transfer of cap due to servicing transfer
                                                                                                      11/14/2013       $15,130,000    $1,262,732,584   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013        $6,290,000    $1,269,022,584   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013       ($2,481,777)   $1,266,540,807   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2014        $1,580,000    $1,268,120,807   Transfer of cap due to servicing transfer
                                                                                                       2/13/2014       $75,350,000    $1,343,470,807   Transfer of cap due to servicing transfer
                                                                                                       3/14/2014       $16,900,000    $1,360,370,807   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014          ($85,696)   $1,360,285,111   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014       $12,470,000    $1,372,755,111   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014       $20,960,000    $1,393,715,111   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014       $14,220,000    $1,407,935,111   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014       ($1,023,387)   $1,406,911,724   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                   507
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                          508
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               6/16/2010        $3,680,000     $3,680,000    Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        $3,300,000     $6,980,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010        $3,043,831    $10,023,831    Updated portfolio data from servicer
                                                                                                              10/15/2010        $1,400,000    $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($17)   $11,423,814    Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011        $2,100,000    $13,523,814    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($24)   $13,523,790    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $2,900,000    $16,423,790    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($200,000)    $16,223,790    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011            ($273)    $16,223,517    Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011         $100,000     $16,323,517    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        $1,100,000    $17,423,517    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         $200,000     $17,623,517    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                               5/16/2012          $10,000     $17,633,517    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($300,000)    $17,333,517    Transfer of cap due to servicing transfer
                                                  Financial
            Selene Finance LP,                    Instrument for                                               6/28/2012            ($218)    $17,333,299    Updated due to quarterly assessment and reallocation
6/16/2010                          Purchase                                          $0    N/A          3                                                                                                             $87,504    $240,117           $105,600                $433,221
            Houston, TX                           Home Loan                                                    7/16/2012          $40,000     $17,373,299    Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                               8/16/2012         $480,000     $17,853,299    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012            ($600)    $17,852,699    Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012          $70,000     $17,922,699    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012            ($102)    $17,922,597    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2013          $90,000     $18,012,597    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013            ($384)    $18,012,213    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013         ($30,000)    $17,982,213    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013            ($146)    $17,982,067    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013         $170,000     $18,152,067    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($52)   $18,152,015    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013         ($88,613)    $18,063,402    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2014          $10,000     $18,073,402    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($3,125)   $18,070,277    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014          $30,000     $18,100,277    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014         ($36,971)    $18,063,306    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009      ($25,510,000)    $4,220,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009          $520,000     $4,740,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $4,330,000     $9,070,000    Updated portfolio data from servicer
                                                                                                                 4/19/2010          $230,000     $9,300,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 5/19/2010          $850,000    $10,150,000
                                                                                                                                                               program initial cap
                                                                                                                 7/14/2010        ($850,000)     $9,300,000    Updated portfolio data from servicer
                                                                                                                 9/15/2010          $100,000     $9,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $100,000     $9,500,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010       $16,755,064    $26,255,064    Updated portfolio data from servicer
                                                                                                                10/15/2010          $100,000    $26,355,064    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010          $100,000    $26,455,064    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011              ($40)   $26,455,024    Updated due to quarterly assessment and reallocation
                                                                                                                 1/13/2011          $300,000    $26,755,024    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011          $100,000    $26,855,024    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011        $2,200,000    $29,055,024    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($52)   $29,054,972    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011        $1,500,000    $30,554,972    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011        $1,000,000    $31,554,972    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011          $100,000    $31,654,972    Transfer of cap due to servicing transfer
                                                    Financial                                                    6/29/2011             ($534)   $31,654,438    Updated due to quarterly assessment and reallocation
            Servis One, Inc., dba
                                                    Instrument for
8/12/2009   BSI Financial Services,   Purchase                               $29,730,000     N/A                 8/16/2011          $700,000    $32,354,438    Transfer of cap due to servicing transfer              $1,760,870   $3,505,012        $1,497,293              $6,763,175
                                                    Home Loan
            Inc., Titusville, PA
                                                    Modifications
                                                                                                                 9/15/2011        ($600,000)    $31,754,438    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        $4,000,000    $35,754,438    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011          $600,000    $36,354,438    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011          $200,000    $36,554,438    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012          $100,000    $36,654,438    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        $1,300,000    $37,954,438    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        $1,100,000    $39,054,438    Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012          $800,000    $39,854,438    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012       ($1,080,000)   $38,774,438    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012        $1,560,000    $40,334,438    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($465)   $40,333,973    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012           $70,000    $40,403,973    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012           ($1,272)   $40,402,701    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012        $2,100,000    $42,502,701    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012        $1,340,000    $43,842,701    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012        $1,160,000    $45,002,701    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012             ($239)   $45,002,462    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013          $210,000    $45,212,462    Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013        $1,790,000    $47,002,462    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                 3/14/2013        $1,920,000    $48,922,462    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013             ($960)   $48,921,502    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013          $410,000    $49,331,502    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            509
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)                                                                                                                                                                                          510
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                5/16/2013          ($60,000)   $49,271,502    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013        $1,620,000    $50,891,502    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013             ($359)   $50,891,143    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013        $2,030,000    $52,921,143    Transfer of cap due to servicing transfer
                                                                                                                8/15/2013           $10,000    $52,931,143    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013        $2,600,000    $55,531,143    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013             ($135)   $55,531,008    Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013         $270,000     $55,801,008    Transfer of cap due to servicing transfer
                                                                                                               11/14/2013           $30,000    $55,831,008    Transfer of cap due to servicing transfer
                                                                                                               12/16/2013        $9,960,000    $65,791,008    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013        ($239,727)    $65,551,281    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014        $2,090,000    $67,641,281    Transfer of cap due to servicing transfer
                                                                                                                2/13/2014        $2,450,000    $70,091,281    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                3/14/2014        ($130,000)    $69,961,281    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($8,837)   $69,952,444    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014           $60,000    $70,012,444    Transfer of cap due to servicing transfer
                                                                                                                5/15/2014        ($460,000)    $69,552,444    Transfer of cap due to servicing transfer
                                                                                                                6/16/2014         $920,000     $70,472,444    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014        ($103,723)    $70,368,721    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009         $890,000      $2,300,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,260,000     $3,560,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          ($20,000)    $3,540,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($240,000)     $3,300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $471,446      $3,771,446    Updated portfolio data from servicer
                                                   Financial                                                     1/6/2011               ($3)    $3,771,443    Updated due to quarterly assessment and reallocation
                                                   Instrument for
7/17/2009   ShoreBank, Chicago, IL   Purchase                                 $1,410,000    N/A          6      3/30/2011               ($4)    $3,771,439    Updated due to quarterly assessment and reallocation     $49,915    $153,906           $143,165                $346,986
                                                   Home Loan
                                                   Modifications                                                4/13/2011       ($1,100,000)    $2,671,439    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011              ($38)    $2,671,401    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($29)    $2,671,372    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($79)    $2,671,293    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($13)    $2,671,280    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($50)    $2,671,230    Updated due to quarterly assessment and reallocation
                                                                                                                 4/9/2013       ($2,324,244)      $346,986    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $90,000      $1,970,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $1,110,000      $3,080,000   Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,180,000)     $1,900,000   Updated portfolio data from servicer
                                                                                                                9/30/2010          $275,834      $2,175,834   Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($2)     $2,175,832   Updated due to quarterly assessment and reallocation
                                                   Financial                                                    3/30/2011               ($3)     $2,175,829   Updated due to quarterly assessment and reallocation
             Silver State Schools
                                                   Instrument for
12/9/2009    Credit Union, Las      Purchase                                  $1,880,000    N/A          6                                                                                                              $40,356      $176,299            $69,189                $285,844
                                                   Home Loan                                                    6/29/2011              ($26)     $2,175,803   Updated due to quarterly assessment and reallocation
             Vegas, NV
                                                   Modifications
                                                                                                                6/28/2012              ($21)     $2,175,782   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($57)     $2,175,725   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($10)     $2,175,715   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($37)     $2,175,678   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($15)     $2,175,663   Updated due to quarterly assessment and reallocation
                                                                                                                 7/9/2013       ($1,889,819)      $285,844    Termination of SPA
                                                   Financial                                                   10/15/2013           $60,000        $60,000    Transfer of cap due to servicing transfer
             SN Servicing
                                                   Instrument for
10/15/2013   Corporation, Baton     Purchase                                          $0    N/A          3                                                                                                               $4,119             $0            $4,746                  $8,865
                                                   Home Loan                                                   12/16/2013           $10,000        $70,000    Transfer of cap due to servicing transfer
             Rouge, LA
                                                   Modifications
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $20,000       $460,000
                                                                                                                                                              program initial cap
                                                   Financial
             Sound Community                       Instrument for                                               3/26/2010        $1,430,000      $1,890,000   Updated portfolio data from servicer
12/16/2009                          Purchase                                   $440,000     N/A                                                                                                                              $0             $0                 $0                      $0
             Bank, Seattle, WA                     Home Loan
                                                   Modifications                                                7/14/2010        ($390,000)      $1,500,000   Updated portfolio data from servicer
                                                                                                                 9/8/2010       ($1,500,000)            $0    Termination of SPA
                                                                                                                3/26/2010      ($51,240,000)    $12,910,000   Updated portfolio data from servicer
                                                                                                                5/14/2010        $3,000,000     $15,910,000   Transfer of cap due to servicing transfer
                                                                                                                6/16/2010        $4,860,000     $20,770,000   Transfer of cap due to servicing transfer
                                                                                                                7/14/2010        $3,630,000     $24,400,000   Updated portfolio data from servicer
                                                                                                                7/16/2010          $330,000     $24,730,000   Transfer of cap due to servicing transfer
                                                                                                                8/13/2010          $700,000     $25,430,000   Transfer of cap due to servicing transfer
                                                                                                                9/15/2010          $200,000     $25,630,000   Transfer of cap due to servicing transfer
                                                                                                                9/30/2010       ($1,695,826)    $23,934,174   Updated portfolio data from servicer
                                                                                                               11/16/2010          $200,000     $24,134,174   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011              ($32)    $24,134,142   Updated due to quarterly assessment and reallocation
                                                                                                                1/13/2011        $1,500,000     $25,634,142   Transfer of cap due to servicing transfer

                                                   Financial                                                    3/16/2011        $7,100,000     $32,734,142   Transfer of cap due to servicing transfer
             Specialized Loan
                                                   Instrument for
1/13/2010    Servicing LLC,         Purchase                                $64,150,000     N/A                 3/30/2011              ($36)    $32,734,106   Updated due to quarterly assessment and reallocation   $10,479,408   $19,288,816       $14,528,862             $44,297,086
                                                   Home Loan
             Highlands Ranch, CO
                                                   Modifications                                                4/13/2011        $1,000,000     $33,734,106   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011          $100,000     $33,834,106   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011          $300,000     $34,134,106   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011             ($332)    $34,133,774   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011          $100,000     $34,233,774   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011          $300,000     $34,533,774   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011          $300,000     $34,833,774   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011       ($1,700,000)    $33,133,774   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012        $1,600,000     $34,733,774   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014




                                                                                                                2/16/2012          $100,000     $34,833,774   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012          $100,000     $34,933,774   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012       $77,600,000    $112,533,774   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             511
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)                                                                                                                                                                                          512
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  5/16/2012           $40,000    $112,573,774   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012        ($350,000)    $112,223,774   Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012           ($1,058)   $112,222,716   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012        $4,430,000    $116,652,716   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012       ($1,280,000)   $115,372,716   Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012           ($3,061)   $115,369,655   Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012        $5,600,000    $120,969,655   Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012          $880,000    $121,849,655   Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012       $24,180,000    $146,029,655   Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012             ($663)   $146,028,992   Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2013        $2,410,000    $148,438,992   Transfer of cap due to servicing transfer
                                                                                                                  2/14/2013        $6,650,000    $155,088,992   Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013       ($1,450,000)   $153,638,992   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                  3/25/2013           ($2,584)   $153,636,408   Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013        ($750,000)    $152,886,408   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2013       ($1,250,000)   $151,636,408   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013        $3,670,000    $155,306,408   Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013             ($985)   $155,305,423   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2013       ($3,720,000)   $151,585,423   Transfer of cap due to servicing transfer
                                                                                                                  9/16/2013        ($180,000)    $151,405,423   Transfer of cap due to servicing transfer
                                                                                                                  9/27/2013             ($346)   $151,405,077   Updated due to quarterly assessment and reallocation
                                                                                                                 10/15/2013          $860,000    $152,265,077   Transfer of cap due to servicing transfer
                                                                                                                 11/14/2013        ($410,000)    $151,855,077   Transfer of cap due to servicing transfer
                                                                                                                 12/16/2013      ($10,160,000)   $141,695,077   Transfer of cap due to servicing transfer
                                                                                                                 12/23/2013        ($381,129)    $141,313,948   Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2014        $8,200,000    $149,513,948   Transfer of cap due to servicing transfer
                                                                                                                  2/13/2014       $21,910,000    $171,423,948   Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014          $300,000    $171,723,948   Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014          ($10,851)   $171,713,097   Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2014        $4,470,000    $176,183,097   Transfer of cap due to servicing transfer
                                                                                                                  5/15/2014      ($28,460,000)   $147,723,097   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2014        $4,680,000    $152,403,097   Transfer of cap due to servicing transfer
                                                                                                                  6/26/2014          ($57,511)   $152,345,586   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $10,000       $370,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $850,000      $1,220,000   Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010        ($120,000)      $1,100,000   Updated portfolio data from servicer
            Spirit of Alaska Federal
                                                     Instrument for
12/9/2009   Credit Union, Fairbanks,   Purchase                                  $360,000     N/A                                                               Updated portfolio data from servicer/additional               $0           $0                 $0                      $0
                                                     Home Loan                                                    9/30/2010          $100,000      $1,200,000
            AK                                                                                                                                                  program initial cap
                                                     Modifications
                                                                                                                  9/30/2010          $105,500      $1,305,500   Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)     $1,305,498   Updated due to quarterly assessment and reallocation
                                                                                                                  2/17/2011       ($1,305,498)            $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009           $70,000       $370,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        $2,680,000     $3,050,000
                                                     Financial                                                                                                  program initial cap
             Stanford Federal Credit                 Instrument for
8/28/2009                              Purchase                                  $300,000     N/A                 3/26/2010         $350,000      $3,400,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Union, Palo Alto, CA                    Home Loan
                                                     Modifications                                                7/14/2010       ($1,900,000)    $1,500,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010       ($1,209,889)      $290,111    Updated portfolio data from servicer
                                                                                                                  3/23/2011        ($290,111)             $0    Termination of SPA
                                                                                                                 12/15/2010        $5,000,000     $5,000,000    Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011               ($7)    $4,999,993    Updated due to quarterly assessment and reallocation
                                                                                                                  2/16/2011         $500,000      $5,499,993    Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011         $100,000      $5,599,993    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011               ($9)    $5,599,984    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($85)    $5,599,899    Updated due to quarterly assessment and reallocation
                                                                                                                 11/16/2011       ($2,500,000)    $3,099,899    Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012         $200,000      $3,299,899    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012              ($40)    $3,299,859    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($100)    $3,299,759    Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012         $170,000      $3,469,759    Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012          ($30,000)    $3,439,759    Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012          ($80,000)    $3,359,759    Transfer of cap due to servicing transfer
                                                     Financial
             Statebridge Company,                    Instrument for                                              12/27/2012              ($17)    $3,359,742    Updated due to quarterly assessment and reallocation
12/15/2010                             Purchase                                         $0    N/A          3                                                                                                             $27,521    $100,193            $31,902                $159,616
             LLC, Denver, CO                         Home Loan                                                    1/16/2013           $50,000     $3,409,742    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  2/14/2013        $1,240,000     $4,649,742    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013           $90,000     $4,739,742    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013              ($90)    $4,739,652    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013          ($10,000)    $4,729,652    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013              ($34)    $4,729,618    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($13)    $4,729,605    Updated due to quarterly assessment and reallocation
                                                                                                                 11/14/2013           $60,000     $4,789,605    Transfer of cap due to servicing transfer
                                                                                                                 12/23/2013          ($21,773)    $4,767,832    Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2014          ($20,000)    $4,747,832    Transfer of cap due to servicing transfer
                                                                                                                  2/13/2014           $60,000     $4,807,832    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014          ($30,000)    $4,777,832    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014             ($770)    $4,777,062    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014           ($8,978)    $4,768,084    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                            513
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)                                                                                                                                                                                          514
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010         $100,000      $2,350,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        ($740,000)     $1,610,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($710,000)       $900,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010         $550,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($1)    $1,450,555    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    6/29/2011              ($11)    $1,450,543    Updated due to quarterly assessment and reallocation
            Sterling Savings Bank,                  Instrument for
12/9/2009                             Purchase                                 $2,250,000    N/A                                                                                                                       $212,944    $446,320           $335,883                $995,148
            Spokane, WA                             Home Loan                                                    9/27/2012           $30,907     $1,481,450    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/27/2012           $58,688     $1,540,138    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013         $235,175      $1,775,313    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013           $84,191     $1,859,504    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013           $13,786     $1,873,290    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                12/23/2013              ($35)    $1,873,255    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           $12,095     $1,885,350    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014         $122,307      $2,007,657    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                    Financial
            Stockman Bank of                        Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                             Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Montana, Miles City, MT                 Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010        $1,585,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
            Suburban Mortgage                       Financial
            Company of New                          Instrument for                                               3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
8/4/2010                              Purchase                                  $880,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Mexico, Albuquerque,                    Home Loan                                                    6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
            NM                                      Modifications
                                                                                                                 6/28/2012              ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                                                                                 8/10/2012       ($2,465,867)            $0    Termination of SPA
                                                    Financial
            Sun West Mortgage
                                                    Instrument for
1/13/2012   Company, Inc, Cerritos,   Purchase                                         $0    N/A          3      1/13/2012         $100,000        $100,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                    Home Loan
            CA
                                                    Modifications
                                                                                                                 4/13/2011         $100,000        $100,000    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013         $120,000        $220,000    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013               ($1)      $219,999    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013           $10,000       $229,999    Transfer of cap due to servicing transfer

                                                    Financial                                                   12/23/2013             ($670)      $229,329    Updated due to quarterly assessment and reallocation
            SunTrust Mortgage,                      Instrument for
4/13/2011                             Purchase                                         $0    N/A          3      1/16/2014           $20,000       $249,329    Transfer of cap due to servicing transfer                $35,167       $1,517           $20,517                 $57,200
            Inc., Richmond, VA                      Home Loan
                                                    Modifications                                                2/13/2014           $90,000       $339,329    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014           $50,000       $389,329    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014              ($38)      $389,291    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2014           $60,000       $449,291    Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014             ($486)      $448,805    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $2,180,000     $2,250,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        ($720,000)     $1,530,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($430,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)    $1,160,444    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($12)    $1,160,431    Updated due to quarterly assessment and reallocation
                                                   Financial
             Technology Credit                     Instrument for                                               6/28/2012               ($9)    $1,160,422    Updated due to quarterly assessment and reallocation
6/26/2009                            Purchase                                    $70,000    N/A                                                                                                                        $59,000     $207,831            $76,817                $343,647
             Union, San Jose, CA                   Home Loan
                                                   Modifications                                                9/27/2012              ($23)    $1,160,399    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($4)    $1,160,395    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($13)    $1,160,382    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($5)    $1,160,377    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($2)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,729)    $1,157,646    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($101)    $1,157,545    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($1,195)    $1,156,350    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2010          ($20,000)       $90,000    Updated portfolio data from servicer
                                                   Financial
             Tempe Schools Credit                  Instrument for                                               7/14/2010           $10,000       $100,000    Updated portfolio data from servicer
12/23/2009                           Purchase                                  $110,000     N/A                                                                                                                             $0           $0                  $0                      $0
             Union, Tempe, AZ                      Home Loan                                                    9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                12/8/2010        ($145,056)             $0    Termination of SPA
                                                   Financial                                                    4/21/2010        ($150,000)             $0    Termination of SPA
             The Bryn Mawr Trust                   Instrument for
12/11/2009                           Purchase                                  $150,000     N/A          3                                                                                                             $11,197      $15,714             $8,436                 $35,347
             Co., Bryn Mawr, PA                    Home Loan                                                    6/16/2011         $100,000        $100,000    Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010         $290,000      $6,450,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010           $40,000     $6,490,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($2,890,000)    $3,600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $606,612      $4,206,612    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($4)    $4,206,608    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($4)    $4,206,604    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($35)    $4,206,569    Updated due to quarterly assessment and reallocation
                                                   Financial
             The Golden 1 Credit                   Instrument for                                               6/28/2012               ($9)    $4,206,560    Updated due to quarterly assessment and reallocation
12/9/2009                            Purchase                                 $6,160,000    N/A                                                                                                                       $379,884    $1,104,888          $614,545              $2,099,317
             Union, Sacramento, CA                 Home Loan
                                                   Modifications                                                9/27/2012              ($14)    $4,206,546    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($2)    $4,206,544    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($8)    $4,206,536    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($4)    $4,206,532    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)    $4,206,531    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,412)    $4,204,119    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($84)    $4,204,035    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014             ($302)    $4,203,733    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                           515
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                               (CONTINUED)                                                                                                                                                                                             516
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009       $24,920,000    $139,140,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009       $49,410,000    $188,550,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010       $41,830,000    $230,380,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($85,780,000)   $144,600,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010       $36,574,444    $181,174,444   Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($160)   $181,174,284   Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011             ($172)   $181,174,112   Updated due to quarterly assessment and reallocation
                                                     Financial
            U.S. Bank National                                                                                    6/29/2011           ($1,431)   $181,172,681   Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/9/2009    Association,               Purchase                              $114,220,000     N/A                                                                                                                      $15,199,880   $34,523,115       $24,300,673             $74,023,668
                                                     Home Loan
            Owensboro, KY                                                                                         6/28/2012             ($746)   $181,171,935   Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012           ($1,926)   $181,170,009   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($308)   $181,169,701   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                  3/25/2013           ($1,135)   $181,168,566   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013             ($418)   $181,168,148   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013             ($139)   $181,168,009   Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013        ($212,077)    $180,955,932   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($6,391)   $180,949,541   Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014          ($71,209)   $180,878,332   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2010          $160,000       $700,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($8)      $725,257    Updated due to quarterly assessment and reallocation
                                                     Financial
                                                     Instrument for                                               9/27/2012              ($22)      $725,235    Updated due to quarterly assessment and reallocation
1/29/2010   United Bank, Griffin, GA   Purchase                                  $540,000     N/A                                                                                                                          $2,917         $2,652            $6,600                 $12,169
                                                     Home Loan                                                   12/27/2012               ($4)      $725,231    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013              ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($2)      $725,210    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($3,221)      $721,989    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($113)      $721,876    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014           ($1,337)      $720,539    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $20,000       $430,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010         $400,000        $830,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($430,000)       $400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($5)      $580,215    Updated due to quarterly assessment and reallocation
                                                      Financial
             United Bank Mortgage
                                                      Instrument for                                               6/28/2012               ($4)      $580,211    Updated due to quarterly assessment and reallocation
10/21/2009   Corporation, Grand         Purchase                                  $410,000     N/A                                                                                                                        $46,193     $82,063            $61,707                $189,962
                                                      Home Loan
             Rapids, MI                                                                                            9/27/2012              ($11)      $580,200    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  12/27/2012               ($2)      $580,198    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($7)      $580,191    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($2)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $580,188    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($1,471)      $578,717    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($52)      $578,665    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014             ($613)      $578,052    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/30/2010         $270,334        $870,334    Updated portfolio data from servicer
             University First Federal
                                                      Instrument for
9/30/2010    Credit Union, Salt Lake    Purchase                                  $600,000     N/A                  1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                      Home Loan
             City, UT
                                                      Modifications                                                2/17/2011        ($870,333)             $0    Termination of SPA
                                                                                                                   4/13/2011        $1,000,000     $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011         $233,268      $1,233,268    Updated due to quarterly assessment and reallocation
                                                                                                                  11/16/2011         $100,000      $1,333,268    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012               ($3)    $1,333,265    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($10)    $1,333,255    Updated due to quarterly assessment and reallocation
                                                      Financial
             Urban Partnership Bank,                  Instrument for                                              12/27/2012               ($2)    $1,333,253    Updated due to quarterly assessment and reallocation
4/13/2011                               Purchase                                         $0    N/A          3                                                                                                            $161,664    $334,190           $135,919                $631,774
             Chicago, IL                              Home Loan                                                    3/25/2013               ($7)    $1,333,246    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   6/27/2013               ($3)    $1,333,243    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)    $1,333,242    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($1,744)    $1,331,498    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($62)    $1,331,436    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014             ($735)    $1,330,701    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    7/14/2010        $4,440,000     $5,500,000    Updated portfolio data from servicer
             Urban Trust Bank, Lake                   Instrument for
3/3/2010                                Purchase                                 $1,060,000    N/A          3      9/24/2010       ($5,500,000)            $0    Termination of SPA                                        -$2,000     -$4,283            -$3,000                 -$9,283
             Mary, FL                                 Home Loan
                                                      Modifications                                               12/16/2013           $40,000        $40,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             517
                                                                                                                                                                                                                                                                                           518
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
           Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date       Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 10/2/2009        $1,310,000     $7,310,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       ($3,390,000)    $3,920,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $410,000      $4,330,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($730,000)     $3,600,000    Updated portfolio data from servicer
                                                                                                                 9/15/2010        $4,700,000     $8,300,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010         $117,764      $8,417,764    Updated portfolio data from servicer
                                                                                                                11/16/2010         $800,000      $9,217,764    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010        $2,700,000    $11,917,764    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011              ($17)   $11,917,747    Updated due to quarterly assessment and reallocation
                                                                                                                 1/13/2011         $700,000     $12,617,747    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011        $1,800,000    $14,417,747    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($19)   $14,417,728    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                 4/13/2011         $300,000     $14,717,728    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011             ($189)   $14,717,539    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2011         $300,000     $15,017,539    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $100,000     $15,117,539    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011         $100,000     $15,217,539    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($147)   $15,217,392    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    7/16/2012          ($10,000)   $15,207,392    Transfer of cap due to servicing transfer
           Vantium Capital, Inc.dba
                                                    Instrument for
9/2/2009   Acqura Loan Services,      Purchase                                 $6,000,000    N/A          4      9/27/2012             ($413)   $15,206,979    Updated due to quarterly assessment and reallocation    $240,972    $490,128           $392,136              $1,123,236
                                                    Home Loan
           Plano, TX
                                                    Modifications                                               11/15/2012          ($40,000)   $15,166,979    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012              ($71)   $15,166,908    Updated due to quarterly assessment and reallocation
                                                                                                                 2/14/2013        ($770,000)    $14,396,908    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013          ($20,000)   $14,376,908    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013             ($256)   $14,376,652    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013        ($620,000)    $13,756,652    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013           $40,000    $13,796,652    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013           $10,000    $13,806,652    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($95)   $13,806,557    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013        ($290,000)    $13,516,557    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($34)   $13,516,523    Updated due to quarterly assessment and reallocation
                                                                                                                12/16/2013           $40,000    $13,556,523    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013          ($57,271)   $13,499,252    Updated due to quarterly assessment and reallocation
                                                                                                                 2/13/2014          ($90,000)   $13,409,252    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014          ($40,000)   $13,369,252    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014           ($1,989)   $13,367,263    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2014           $80,000    $13,447,263    Transfer of cap due to servicing transfer
                                                                                                                 5/15/2014        ($230,000)    $13,217,263    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2014         $100,000     $13,317,263    Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014          ($23,438)   $13,293,825    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                1/22/2010            $30,000         $630,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010           $400,000       $1,030,000    Updated portfolio data from servicer
                                                   Financial
             Verity Credit Union,                  Instrument for                                               7/14/2010         ($330,000)         $700,000    Updated portfolio data from servicer
12/11/2009                          Purchase                                   $600,000     N/A                                                                                                                                $0           $0                 $0                      $0
             Seattle, WA                           Home Loan
                                                   Modifications                                                9/30/2010            $25,278         $725,278    Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($1)        $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                2/17/2011         ($725,277)               $0    Termination of SPA

                                                   Financial                                                    5/16/2013            $50,000          $50,000    Transfer of cap due to servicing transfer
             ViewPoint Bank,                       Instrument for
5/16/2013                           Purchase                                          $0    N/A          3                                                                                                                     $0       $1,113                 $0                 $1,113
             Plano, TX                             Home Loan
                                                   Modifications                                               12/16/2013            $10,000          $60,000    Transfer of cap due to servicing transfer

                                                                                                                7/14/2010           $400,000         $700,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            $25,278         $725,278    Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($1)        $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011                ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($11)        $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                ($8)        $725,257    Updated due to quarterly assessment and reallocation
                                                   Financial
             VIST Financial Corp,                  Instrument for                                               9/27/2012               ($22)        $725,235    Updated due to quarterly assessment and reallocation
3/10/2010                           Purchase                                   $300,000     N/A                                                                                                                                $0           $0                 $0                      $0
             Wyomissing, PA                        Home Loan                                                   12/27/2012                ($4)        $725,231    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/25/2013               ($14)        $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                ($5)        $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                ($2)        $725,210    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013            ($3,221)        $721,989    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($113)        $721,876    Updated due to quarterly assessment and reallocation
                                                                                                                4/23/2014         ($721,876)               $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009      ($37,700,000)      $47,320,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $26,160,000      $73,480,000
                                                   Financial                                                                                                     program initial cap
             Wachovia Bank, N.A.,                  Instrument for
7/29/2009                           Purchase                                $85,020,000     N/A                 3/26/2010         $9,820,000      $83,300,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Charlotte, NC                         Home Loan
                                                   Modifications                                                7/14/2010      ($46,200,000)      $37,100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010      ($28,686,775)       $8,413,225    Updated portfolio data from servicer
                                                                                                                12/3/2010        ($8,413,225)              $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009      $723,880,000     $1,357,890,000
                                                                                                                                                                 program initial cap
                                                   Financial
             Wachovia Mortgage,                    Instrument for                                                                                                Updated portfolio data from servicer/additional
7/1/2009                            Purchase                               $634,010,000     N/A          2     12/30/2009      $692,640,000     $2,050,530,000                                                                 $0     $76,890           $162,000                $238,890
             FSB, Des Moines, IA                   Home Loan                                                                                                     program initial cap
                                                   Modifications                                                2/17/2010    ($2,050,236,344)        $293,656    Transfer of cap due to merger/acquisition
                                                                                                                3/12/2010           ($54,767)        $238,890    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                             519
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                            (CONTINUED)                                                                                                                                                                                                  520
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                                TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               7/14/2010         ($150,000)       $6,400,000    Updated portfolio data from servicer
                                                                                                               9/15/2010         $1,600,000       $8,000,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010        ($4,352,173)      $3,647,827    Updated portfolio data from servicer
                                                                                                                1/6/2011                ($5)      $3,647,822    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011                ($6)      $3,647,816    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($3,000,000)        $647,816    Transfer of cap due to servicing transfer

                                                  Financial                                                    6/29/2011                ($9)        $647,807    Updated due to quarterly assessment and reallocation
            Wealthbridge Mortgage                 Instrument for
4/14/2010                           Purchase                                 $6,550,000    N/A                 6/28/2012                ($7)        $647,800    Updated due to quarterly assessment and reallocation            $0              $0                 $0                      $0
            Corp, Beaverton, OR                   Home Loan
                                                  Modifications                                                9/27/2012               ($19)        $647,781    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012                ($3)        $647,778    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013               ($12)        $647,766    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                ($5)        $647,761    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013                ($2)        $647,759    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                              12/23/2013            ($2,822)        $644,937    Updated due to quarterly assessment and reallocation
                                                                                                               2/27/2014         ($644,937)               $0    Termination of SPA
                                                                                                               6/17/2009     ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009        $65,070,000    $2,475,080,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $1,213,310,000    $3,688,390,000
                                                                                                                                                                program initial cap
                                                                                                               2/17/2010     $2,050,236,344    $5,738,626,344   Transfer of cap due to merger/acquisition
                                                                                                               3/12/2010            $54,767    $5,738,681,110   Transfer of cap due to merger/acquisition
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               3/19/2010      $668,108,890     $6,406,790,000
                                                                                                                                                                program initial cap
                                                                                                               3/26/2010      $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
                                                                                                               9/30/2010     ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2010      $344,000,000     $5,108,351,172
                                                                                                                                                                program initial cap
                                                                                                               12/3/2010         $8,413,225    $5,116,764,397   Transfer of cap due to merger/acquisition
                                                  Financial                                                   12/15/2010        $22,200,000    $5,138,964,397   Transfer of cap due to servicing transfer
            Wells Fargo Bank, NA,                 Instrument for
4/13/2009                           Purchase                            $2,873,000,000     N/A                  1/6/2011            ($6,312)   $5,138,958,085   Updated due to quarterly assessment and reallocation   $271,682,596   $709,778,414      $378,493,710          $1,359,954,720
            Des Moines, IA                        Home Loan
                                                  Modifications
                                                                                                               1/13/2011         ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011         ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($7,171)   $5,138,750,914   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011           $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011         ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($63,856)   $5,128,387,058   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011        ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                               8/16/2011        ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011         $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011           $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011         ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         ($300,000)    $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                       2/16/2012        ($200,000)    $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                       3/15/2012       ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                       4/16/2012        ($800,000)    $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                       5/16/2012        ($610,000)    $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                       6/14/2012       ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                       6/28/2012          ($39,923)   $5,121,197,135   Updated due to quarterly assessment and reallocation
                                                                                                       8/16/2012        ($120,000)    $5,121,077,135   Transfer of cap due to servicing transfer
                                                                                                       9/27/2012        ($104,111)    $5,120,973,024   Updated due to quarterly assessment and reallocation
                                                                                                      10/16/2012       ($1,590,000)   $5,119,383,024   Transfer of cap due to servicing transfer
                                                                                                      11/15/2012       ($2,910,000)   $5,116,473,024   Transfer of cap due to servicing transfer
                                                                                                      12/14/2012       ($1,150,000)   $5,115,323,024   Transfer of cap due to servicing transfer
                                                                                                      12/27/2012          ($16,392)   $5,115,306,632   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2013       ($3,350,000)   $5,111,956,632   Transfer of cap due to servicing transfer
                                                                                                       2/14/2013        ($820,000)    $5,111,136,632   Transfer of cap due to servicing transfer
                                                                                                       3/14/2013        ($270,000)    $5,110,866,632   Transfer of cap due to servicing transfer
                                                                                                       3/25/2013          ($58,709)   $5,110,807,923   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2013          ($40,000)   $5,110,767,923   Transfer of cap due to servicing transfer
                                                                                                       5/16/2013       ($5,320,000)   $5,105,447,923   Transfer of cap due to servicing transfer
                                                                                                       6/14/2013       ($1,260,000)   $5,104,187,923   Transfer of cap due to servicing transfer
                                                                                                       6/27/2013          ($20,596)   $5,104,167,327   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2013       ($1,200,000)   $5,102,967,327   Transfer of cap due to servicing transfer
                                                                                                       8/15/2013          ($30,000)   $5,102,937,327   Transfer of cap due to servicing transfer
                                                                                                       9/16/2013      ($10,760,000)   $5,092,177,327   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013           ($6,701)   $5,092,170,626   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013        ($780,000)    $5,091,390,626   Transfer of cap due to servicing transfer
                                                                                                      11/14/2013          ($60,000)   $5,091,330,626   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013        ($860,000)    $5,090,470,626   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013      ($10,569,304)   $5,079,901,322   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2014       ($1,990,000)   $5,077,911,322   Transfer of cap due to servicing transfer
                                                                                                       2/13/2014        ($170,000)    $5,077,741,322   Transfer of cap due to servicing transfer
                                                                                                       3/14/2014          ($80,000)   $5,077,661,322   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014        ($358,566)    $5,077,302,756   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014       ($4,560,000)   $5,072,742,756   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014        ($560,000)    $5,072,182,756   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014        ($240,000)    $5,071,942,756   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014       ($4,070,420)   $5,067,872,336   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                   521
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                              (CONTINUED)                                                                                                                                                                                          522
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009          $330,000       $870,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       $16,490,000     $17,360,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010      ($14,260,000)     $3,100,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($1,800,000)     $1,300,000   Updated portfolio data from servicer
                                                                                                                 7/30/2010        $1,500,000      $2,800,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010        $1,551,668      $4,351,668   Updated portfolio data from servicer
                                                    Financial
            Wescom Central Credit                   Instrument for                                                1/6/2011               ($2)     $4,351,666   Updated due to quarterly assessment and reallocation
6/19/2009                             Purchase                                  $540,000     N/A         3, 6                                                                                                          $262,033    $792,169           $312,225              $1,366,427
            Union, Anaheim, CA                      Home Loan
                                                                                                                 3/30/2011               ($2)     $4,351,664   Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 5/13/2011       ($1,800,000)     $2,551,664   Transfer of cap due to servicing transfer
                                                                                                                  6/3/2011       ($1,872,787)      $678,877    Termination of SPA
                                                                                                                 6/14/2012          $990,000      $1,668,877   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




                                                                                                                 9/27/2012          $372,177      $2,041,054   Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013             ($192)     $2,040,862   Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)     $2,040,854   Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014             ($102)     $2,040,752   Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011          $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011           $17,687       $217,687    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    9/27/2012               ($1)      $217,686    Updated due to quarterly assessment and reallocation
            Western Federal Credit                  Instrument for
4/13/2011                             Purchase                                         $0    N/A          3      3/25/2013               ($1)      $217,685    Updated due to quarterly assessment and reallocation     $19,333     $52,807            $22,917                 $95,057
            Union, Hawthorne, CA                    Home Loan
                                                    Modifications                                               12/23/2013             ($290)      $217,395    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014              ($10)      $217,385    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014             ($121)      $217,264    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                    Financial
            Weststar Mortgage,                      Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
9/30/2010                             Purchase                                               N/A                                                                                                                             $0           $0                 $0                      $0
            Inc., Woodbridge, VA                    Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                 6/12/2009       $87,130,000    $453,130,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009    ($249,670,000)    $203,460,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009     $119,700,000     $323,160,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010       $52,270,000    $375,430,000   Updated portfolio data from servicer
                                                                                                                 4/19/2010      ($10,280,000)   $365,150,000   Transfer of cap due to servicing transfer
                                                                                                                 5/14/2010       ($1,880,000)   $363,270,000   Transfer of cap due to servicing transfer
                                                    Financial
            Wilshire Credit                                                                                      6/16/2010    ($286,510,000)     $76,760,000   Transfer of cap due to servicing transfer
                                                    Instrument for
4/20/2009   Corporation, Beaverton,   Purchase                              $366,000,000     N/A          7                                                                                                                  $0    $490,394         $1,167,000              $1,657,394
                                                    Home Loan
            OR                                                                                                   7/14/2010       $19,540,000     $96,300,000   Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 7/16/2010        ($210,000)     $96,090,000   Transfer of cap due to servicing transfer
                                                                                                                 8/13/2010        ($100,000)     $95,990,000   Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010       $68,565,782    $164,555,782   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($247)   $164,555,535   Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011             ($294)   $164,555,241   Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011           ($2,779)   $164,552,462   Updated due to quarterly assessment and reallocation
                                                                                                                10/19/2011    ($162,895,068)      $1,657,394   Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2014                                                               (CONTINUED)
                                                                                                                                        Adjustment
                      Servicer Modifying Borrowers’ Loans                                                                                   Details                                                                                                                                      TARP Incentive Payments
                                                                                         Cap of Incentive
                                                                                     Payments on Behalf
                                                                                     of Borrowers and to                                                                                                                                                                                  Lenders/                                     Total TARP
                                                 Transaction      Investment        Servicers & Lenders/       Pricing                  Adjustment        Cap Adjustment                                                                                           Borrower’s             Investors              Servicers               Incentive
Date                  Name of Institution        Type             Description            Investors (Cap)*      Mechanism       Note           Date               Amount          Adjusted Cap     Reason for Adjustment                                            Incentives            Incentives             Incentives              Payments
                                                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                                         10/2/2009                $60,000            $300,000
                                                                                                                                                                                                  program initial cap
                                                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                                        12/30/2009               $350,000            $650,000
                                                                                                                                                                                                  program initial cap
                                                                                                                                         3/26/2010             $1,360,000          $2,010,000     Updated portfolio data from servicer
                                                                                                                                         7/14/2010            ($1,810,000)           $200,000     Updated portfolio data from servicer
                                                                                                                                         9/30/2010               $235,167            $435,167     Updated portfolio data from servicer
                                                                                                                                          1/6/2011                     ($1)          $435,166     Updated due to quarterly assessment and reallocation
                                                                  Financial                                                              6/29/2011                     ($4)          $435,162     Updated due to quarterly assessment and reallocation
                      Yadkin Valley Bank,                         Instrument for
9/23/2009                                        Purchase                                         $240,000     N/A                       6/28/2012                     ($3)          $435,159     Updated due to quarterly assessment and reallocation               $29,523               $33,364                $48,373                $111,260
                      Elkin, NC                                   Home Loan
                                                                  Modifications                                                          9/27/2012                     ($7)          $435,152     Updated due to quarterly assessment and reallocation
                                                                                                                                        12/27/2012                     ($1)          $435,151     Updated due to quarterly assessment and reallocation
                                                                                                                                         3/25/2013                     ($5)          $435,146     Updated due to quarterly assessment and reallocation
                                                                                                                                         6/27/2013                     ($2)          $435,144     Updated due to quarterly assessment and reallocation
                                                                                                                                         9/27/2013                     ($1)          $435,143     Updated due to quarterly assessment and reallocation
                                                                                                                                        12/23/2013                 ($1,174)          $433,969     Updated due to quarterly assessment and reallocation
                                                                                                                                         3/26/2014                    ($43)          $433,926     Updated due to quarterly assessment and reallocation
                                                                                                                                         6/26/2014                   ($507)          $433,419     Updated due to quarterly assessment and reallocation
                                                                Total Initial Cap       $23,831,570,000                    Total CAP Adjustments         $5,999,886,867                                                                                     $1,694,173,356       $4,482,976,406         $2,352,280,540           $8,529,430,302
                                                                                                                                          Total Cap    $29,831,456,867
Notes: Numbers may be affected by rounding. Data as of 6/30/2014. Numbered notes are taken verbatim from Treasury’s 6/26/2014 Transactions Report-Housing Programs.

1
 	       On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
2
 	       Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.
3
 	       This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
4
 	       On 8/27/10, an amendment was executed to reflect a change in the legal name of the institution.
5
 	       MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 2/1/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.
6
 	       The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.
7
 	       Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
8
 	       In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.
9
 	       RBC Bank (USA) was merged with PNC Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to RBC Bank (USA) prior to such merger.
10
     	   On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and transferring the subservicing relationships to third-party servicers. The remaining Adjusted Cap stated above represents the amount previously paid to Saxon Mortgage Services, Inc. prior to ceasing servicing
         operations.
11
  	      As of July 3, 2012, Aurora Loan Services LLC has discontinued its servicing function and sold all remaining servicing rights to Nationstar Mortgage. The remaining Adjusted Cap stated above represents the amount previously paid to Aurora Loan Services LLC, prior to ceasing servicing operations.
12
  	      Effective September 1, 2011, Litton Loan Servicing LP was acquired by Ocwen Financial Corporation. The remaining Adjusted Cap stated above represents the amount previously paid to Litton prior to such acquistion.
13
  	      In May 2010, U.S. mortgage servicing business HomEq was sold to Ocwen Loan Servicing. The remaining Adjusted Cap stated above represents the amount previously paid to HomEq prior to such sale.
14
  	      In December 2012, Ocwen Financial Corporation completed the acquisition of Homeward Residential, Inc. The remaining Adjusted Cap stated above represents the amount previously paid to Homeward prior to such acquisition.

* The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and individual
   servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.

Source: Treasury, Transactions Report-Housing Programs, 6/26/2014.
                                                                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                                                                                     523
TABLE D.14                                                                                                                                                                                                                                              524
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2014
                   Seller
                                                                                              Transaction
Note   Date        Name of Institution                                                        Type          Investment Description                 Initial Investment Amount   Additional Investment Amount   Investment Amount1   Pricing Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program              $102,800,000                              —                          N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                         —                     $34,056,581          $194,026,240   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $57,169,659                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $699,600,000                              —                          N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                         —                    $476,257,070        $1,975,334,096   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $799,477,026                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $418,000,000                              —                          N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                         —                    $238,864,755        $1,057,839,136   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $400,974,381                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $125,100,000                              —                          N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                                              $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $142,666,006                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $154,500,000                              —                          N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                         —                    $128,461,559          $498,605,738   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $215,644,179                         N/A
                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JULY 30, 2014




       8/3/2010                                                                                             Financial Instrument for HHF Program              $159,000,000                              —                          N/A
2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                         —                    $120,874,221          $482,781,786   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $202,907,565                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $172,000,000                              —                          N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                         —                    $148,728,864          $570,395,099   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $249,666,235                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $88,000,000                              —                          N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                         —                     $49,294,215          $220,042,786   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $82,748,571                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $43,000,000                              —                          N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                         —                     $13,570,770           $79,351,573   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $22,780,803                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $138,000,000                              —                          N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                         —                     $58,772,347          $295,431,547   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $98,659,200                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $60,672,471                              —                          N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                                              $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $101,848,874                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $55,588,050                              —                          N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                                              $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $93,313,825                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $38,036,950                              —                          N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                                              $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $63,851,373                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $126,650,987                              —                          N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                                              $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $212,604,832                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $82,762,859                              —                          N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                                              $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $138,931,280                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $166,352,726                              —                          N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                                              $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $279,250,831                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $112,200,637                              —                          N/A
                   New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                                              $300,548,144
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $188,347,507                         N/A
                                                                                                                                                                                                                                            Continued
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2014                                                                                               (CONTINUED)
                         Seller
                                                                                                         Transaction
Note    Date             Name of Institution                                                             Type             Investment Description                           Initial Investment Amount    Additional Investment Amount                Investment Amount1        Pricing Mechanism
        9/23/2010                                                                                                         Financial Instrument for HHF Program                           $7,726,678                                    —                                      N/A
                         District of Columbia Housing Finance Agency, Washington, DC                     Purchase                                                                                                                                            $20,697,198
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                                     —                        $12,970,520                                       N/A
        9/23/2010                                                                                                         Financial Instrument for HHF Program                         $81,128,260                                     —                                      N/A
                         Tennessee Housing Development Agency, Nashville, TN                             Purchase                                                                                                                                           $217,315,593
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                                     —                      $136,187,333                                        N/A
                                                                                                                                                                                                              Total Investment Amount                   $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2014. Numbered notes are taken verbatim from Treasury’s 6/26/2014 Transactions Report-Housing Programs.

1
	 The purchase will be incrementally funded up to the investment amount.
2
	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 6/26/2014.




TABLE D.15
FHA SHORT REFINANCE PROGRAM, AS OF 6/30/2014
Note              Date              Seller Name                            Transaction Type           Investment Description                 Initial Investment Amount          Investment Adjustments                             Investment Amount       Pricing Mechanism
1                 9/3/2010                                                                                                                              $8,117,000,000                                 ­—                              $1,025,000,000      N/A
                                    Citigroup, Inc., New York, NY          Purchase                   Facility Purchase Agreement
2                 3/4/2013                                                                                                                                             —               ($7,092,000,000)                                                    N/A
                                                                                                                                                                               Total Investment Amount                                $1,025,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2014. Numbered notes are taken verbatim from Treasury’s 6/26/2014 Transactions Report-Housing Programs.

1
 	 On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the “L/C”). Treasury
   will increase availability under the L/C incrementally in proportion to the mortgages refinanced under the FHA Short Refinance program during the eligibility period. After that time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility
   Agreement, Treasury could incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.
2
 	 On March 4, 2013, the U.S. Department of the Treasury and Citibank, N.A. entered into Amendment No. 1 to the L/C Facility Agreement, which reduced the maximum amount of the L/C from $8 billion to $1 billion; extends by two years the period of time Treasury has to increase the
   L/C to cover new loans that are entered into the program; and modified the fee structure paid to Citibank, N.A. Based on this new fee structure and the lower L/C, Treasury expects that the fees incurred for the availability and usage of the L/C will not exceed $25 million.

Source: Treasury, Transactions Report-Housing Programs, 6/26/2014.
                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JULY 30, 2014
                                                                                                                                                                                                                                                                                                  525
526              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I JULY 30, 2014




 DEBT AGREEMENTS, EQUITY AGREEMENTS, AND
 DIVIDEND/INTEREST PAYMENTS
 TABLE E.1
  DEBT AGREEMENTS, AS OF 6/30/2014
  TARP                              Date of               Cost                Description of                                                                                         Term of
  Program        Company            Agreement             Assigned            Investment                 Investment Information                        Interest/Dividends            Agreement
                                                                                                         Each QFI may issue senior
                                                                              Senior                     securities with an aggregate                  7.7% for first 5
                                                                              Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                              Securities                 risk-weighted assets, but not to              thereafter
  CPP –          Originally                                                                              exceed $25 billion.
                                    1/14/2009a            $0.5 billion
  S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                              Subordinated               to purchase an amount equal
                                                                              Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                              that are exercised         purchased on the date of
                                                                              immediately                investment.
                                                                                                         Each QCU may issue CDCI
                                                                                                         Senior Securities with an
  CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                            2% for first 8 years,                    CDCI – Credit
  Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                            9% thereafter                            Unions
  Unions                                                                      Unions                     assets and not more than 50%
                                                                                                         of the capital and surplus of the
                                                                                                         QCU.
                                                                                                         Each QFI may issue CDCI Senior
                                                                                                         Securities with an aggregate
                                                                                                         principal amount equal to not
                                                                                                         more than 5% of (i), if the QFI is a
                                                                                                         Certified Entity the risk-weighted
                                                                                                         assets of the QFI, or (ii), if the            3.1% for first 8
  CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                         QFI is not a Certified Entity, the            years, 13.8%
  S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                         sum of the RWAs of each of the                thereafter
                                                                                                         Certified Entities, in each case
                                                                                                         less the aggregate capital or,
                                                                                                         as the case may be, principal
                                                                                                         amount of any outstanding TARP
                                                                                                         assistance of the QFI.
                                                                                                                                                                                     The debt
                                                                                                                                                                                     obligation for
                                                                                                                                                                                     each fund
                                                                              Debt Obligation
                                                                                                         Each of the loans will be funded                                            matures at
                                    9/30/2009                                 with Contingent
  PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                    and later                                 Interest
                                                                                                         the fund manager.                                                           of the
                                                                              Promissory Note
                                                                                                                                                                                     dissolution of
                                                                                                                                                                                     the fund or
                                                                                                                                                                                     10 years.
  Notes: Numbers may be affected due to rounding.
  a
    Announcement date of CPP S-Corporation Term Sheet.

  Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
  12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
  Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
  Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
  Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
                                          DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I JULY 30, 2014                 527




TABLE E.2
 EQUITY AGREEMENTS, AS OF 6/30/2014
 TARP                        Date of           Cost           Description                                                              Term of
 Program    Company          Agreement         Assigned       of Investment      Investment Information            Dividends           Agreement
                                                              Senior             1–3% of risk-weighted assets,     5% for first
                                                              Preferred          not to exceed $25 billion for     5 years, 9%         Perpetual
                                                              Equity             each QFI                          thereafter
 CPP –      Originally       10/14/2008a       $200.1
 Public     286 QFIs         and later         billion        Common
                                                              Stock              15% of senior preferred
                                                                                                                   —                   Up to 10 years
                                                              Purchase           amount
                                                              Warrants
                                                                                 1–3% of risk-weighted assets,     5% for first
                                                              Preferred
                                                                                 not to exceed $25 billion for     5 years, 9%         Perpetual
                                                              Equity
                                                                                 each QFI                          thereafter

 CPP –      Originally       11/17/2008b                      Preferred
                                               $4 billion     Stock
 Private    369 QFIs         and later
                                                              Purchase
                                                                                 5% of preferred amount            9%                  Perpetual
                                                              Warrants that
                                                              are exercised
                                                              immediately
                                                              Preferred
                                                                                 5% of risk-weighted assets        2% for first
                                               $780.2         Equity for
 CDCI       All                                                                  for banks and bank holding        eight years, 9%     Perpetual
                                               million        banks & thrift
                                                                                 companies.                        thereafter
                                                              institutions
                                                                                                                                       8 years with the
                                                              Membership         Each membership interest will
                             9/30/2009                                                                                                 possibility of
 PPIP       All                                $10 billion    interest in a      be funded upon demand from        —
                             and later                                                                                                 extension for 2
                                                              partnership        the fund manager.
                                                                                                                                       additional years
                                                              Mandatorily                                                              Converts to
                                                              Convertible                                                              common equity
                                                                                 $5 billion                        9%
                                                              Preferred                                                                interest after 7
                                                              Stock                                                                    years
            Ally Financial
 AIFP       Inc. (formerly   12/29/2008        $5 billion     Preferred
            GMAC)                                             Stock                                                                    Converts to
                                                              Purchase                                                                 common equity
                                                                                 5% of original preferred amount   9%
                                                              Warrants that                                                            interest after 7
                                                              are exercised                                                            years
                                                              immediately
                                                              Mandatorily                                                              Converts to
                                                              Convertible                                                              common equity
                                                                                 $4.5 billion                      9%
                                                              Preferred                                                                interest after 7
                                                              Stockc                                                                   years
                                                              Preferred
            Ally Financial
                                                              Stock                                                                    Converts to
 AIFP       Inc. (formerly   5/21/2009         $7.5 billion
                                                              Purchase                                                                 common equity
            GMAC)                                                                5% of original preferred amount   9%
                                                              Warrants that                                                            interest after 7
                                                              are exercised                                                            years
                                                              immediately
                                                              Common
                                                                                 $3 billion                        —                   Perpetual
                                                              Equity Interestd
                                                                                                                                  Continued on next page
528              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I JULY 30, 2014




  EQUITY AGREEMENTS, AS OF 6/30/2014                                    (CONTINUED)

  TARP                                    Date of                  Cost                Description                                                                                   Term of
  Program           Company               Agreement                Assigned            of Investment          Investment Information                       Dividends                 Agreement
                                                                                                              This equity interest was
                                                                                                              obtained by exchanging a
                    Ally Financial
                                                                                       Common                 prior debt obligation with
  AIFP              Inc. (formerly        5/29/2009                $0.9 billion                                                                            —                         Perpetual
                                                                                       Equity Interest        General Motors. See “Debt
                    GMAC)
                                                                                                              Agreements” table for more
                                                                                                              information.
                                                                                       Trust Preferred
                                                                                                              $2.5 billion                                 8%
                                                                                       Securities
                    Ally Financial                                                     Trust Preferred                                                                               Redeemable upon
  AIFP              Inc. (formerly        12/30/2009               $2.5 billion        purchase                                                                                      the repayment of
                    GMAC)                                                              warrants that          5% of trust preferred amount                 —                         the debenture
                                                                                       are exercised
                                                                                       immediately
                                                                                       Mandatorily
                                                                                       Convertible
                                                                                                              $1.3 billion                                 9%
                                                                                       Preferred
                                                                                       Stock                                                                                         Converts to
                    Ally Financial
                                                                                       Preferred                                                                                     common equity
  AIFP              Inc. (formerly        12/30/2009               $1.3 billion
                                                                                       Stock                                                                                         interest after 7
                    GMAC)
                                                                                       Purchase                                                                                      years
                                                                                                              5% of preferred amount                       —
                                                                                       Warrants that
                                                                                       are exercised
                                                                                       immediately

                    Ally Financial
                                                                                       Common
  AIFP              Inc. (formerly        12/30/2009               $5.5 billion                               $5.5 billion                                 —                         Perpetual
                                                                                       Equity Interestd
                    GMAC)

  Notes: Numbers may be affected due to rounding.
  a
    Announcement date of CPP Public Term Sheet.
  b
     Announcement date of CPP Private Term Sheet.
  c
    On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
  d
    On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
     from 56% to 74% due to this conversion.

  Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
  Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of January
  15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase
  Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred
  Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report,
  3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of
  CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010;
  Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts
  Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement
  for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC, Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy
  Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009; Treasury, Transactions Report, 6/30/2014.
                                                           DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I JULY 30, 2014                                                 529




TABLE E.3
 DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 6/30/2014
                                                 Dividends                             Interest                   Distributionsa                    Other Incomeb                                    Total
CPP   c
                                       $11,977,244,469                        $118,789,493                                      $—              $14,812,104,901                    $26,908,138,863
CDCI                                           28,907,911                         11,959,175                                      —                                  —                     40,867,086
SSFI   d
                                             641,275,676                                       —                                  —                   609,367,994                      1,250,643,670
TIP                                       3,004,444,444                                        —                                  —                 1,427,190,941                      4,431,635,385
AGP                                          642,429,968                              402,300                                     —                 3,483,197,045                      4,126,029,313
TALF                                                        —                     13,407,761                                      —                   590,586,094                        603,993,855
PPIP                                                        —                   319,904,451                        922,874,176                      2,643,315,922                      3,886,094,550
UCSB                                                        —                     13,347,352                                      —                     29,201,849                         42,549,201
AIFP  e
                                          3,949,941,426                      1,665,336,675                                        —                 1,443,774,157                      7,059,052,258
ASSP                                                        —                     14,874,984                                      —                   101,074,947                        115,949,931
Total                                $20,244,243,893                      $2,158,022,191                        $922,874,176                  $25,139,813,850                    $48,464,954,111

Notes: Numbers may not total due to rounding.
a
  Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
b
   Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
    Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
   Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.
Sources: Treasury, Transactions Report, 6/30/2014; Treasury, Section 105(a) Report, 7/10/2014; Treasury, Dividends and Interest Report, 7/10/2014; Treasury, response to SIGTARP data call,
7/8/2014.
                                                                                                                                                                                                                                         530
HAMP MODIFICATION STATISTICS
TABLE F.1

 ANNUAL AND CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY, AS OF 6/30/2014
                                                                                             Trials           Trials Converted to               Permanents
                        Trials Started                        Trials Cancelled                                                                                             Permanents Paid Off               Permanents Active
                                                                                             Active               Permanent                     Redefaulted
                           Annual      Cumulative            Annual      Cumulative           Annual            Annual      Cumulative        Annual    Cumulative         Annual        Cumulative         Annual         Cumulative
 TARP      2009          392,129            392,129          23,720            23,720       344,776             23,633              23,633       129              129               2                 2       23,502            23,502
           2010          275,989            668,118        302,610            326,330         74,893          243,262              266,895    29,015          29,144             233               235      214,014           237,516
           2011          170,075            838,193          16,798           343,128         42,916          185,254              452,149    59,080          88,224             659               894      125,515           363,031
           2012          114,227            952,420           6,062           349,190         36,336          114,745              566,894    58,860        147,084            1,498             2,392        54,388          417,419
           2013            90,938        1,043,358            2,209           351,399         26,642            98,423             665,317    49,413        196,497            3,521             5,913        45,488          462,907
           2014            25,887        1,069,245               934          352,333         18,107            33,488             698,805    20,601        217,098            2,160             8,073        10,727          473,634
            Total     1,069,245                            352,333                                            698,805                        217,098                           8,073                        473,634
 GSE       2009          510,491            510,491          24,731            24,731       442,455             43,305              43,305       339              339               3                 3       42,963            42,963
           2010          287,839            798,330        383,448            408,179         77,396          269,450              312,755    27,730          28,069             569               572      241,151           284,114
                                                                                                                                                                                                                                         APPENDIX F I HAMP MODIFICATION STATISTICS I JULY 30, 2014




           2011          138,072            936,402          10,654           418,833         36,391          168,423              481,178    51,287          79,356           1,442             2,014      115,694           399,808
           2012            81,478        1,017,880            4,814           423,647         25,775            87,280             568,458    49,229        128,585            5,271             7,285        32,780          432,588
                                                                                                                                                                                                                       a
           2013            35,719        1,053,599            4,446           428,093         13,551            43,497             611,955    33,990        162,575          10,592            17,877        (1,085)          431,503
           2014            12,097        1,065,696            1,338           429,431          9,084            15,226             627,181    12,828        175,403            4,304           22,181        (1,906)a         429,597
            Total     1,065,696                            429,431                                            627,181                        175,403                         22,181                         429,597
 Total     2009          902,620            902,620          48,451            48,451       787,231             66,938              66,938       468              468               5                 5       66,465            66,465
           2010          563,828         1,466,448         686,058            734,509       152,289           512,712              579,650    56,745          57,213             802               807      455,165           521,630
           2011          308,147         1,774,595           27,452           761,961         79,307          353,677              933,327   110,367        167,580            2,101             2,908      241,209           762,839
           2012          195,705         1,970,300           10,876           772,837         62,111          202,025         1,135,352      108,089        275,669            6,769             9,677        87,168          850,007
           2013          126,657         2,096,957            6,655           779,492         40,193          141,920         1,277,272       83,403        359,072          14,113            23,790         44,403          894,410
           2014            37,984        2,134,941            2,272           781,764         27,191            48,714        1,325,986       33,429        392,501            6,464           30,254          8,821          903,231
           Total     2,134,941                            781,764                                         1,325,986                          392,501                        30,254                         903,231
 Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; December 31, 2013; and June 30, 2014.
 a
   This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

 Sources: Treasury, responses to SIGTARP data calls, 7/24/2014, 4/25/2014, 1/23/2014, 10/23/2013, 10/21/2013, 7/19/2013, 2/28/2013, 1/22/2013, 1/20/2012, and 1/21/2011; Fannie Mae, response to SIGTARP data call 7/24/2014,
 4/24/2014, 1/23/2014, 10/21/2013; SIGTARP Quarterly Report to Congress, 1/29/2014; SIGTARP Quarterly Report to Congress, 1/30/2013; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/26/2011;
 SIGTARP Quarterly Report to Congress, 1/30/2010.
APPENDIX TABLE F.2
HAMP PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES, ANNUAL, AS OF 5/31/2014
               HAMP Permanent Modifications Started in 2009               HAMP Permanent Modifications Started in 2010               HAMP Permanent Modifications Started in 2011                HAMP Permanent Modifications Started in 2012               HAMP Permanent Modifications Started in 2013              HAMP Permanent Modifications Started in 2014

                        Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta
                       Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications
                                with                                                       with                                                       with                                                       with                                                       with                                                       with
          Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled
  Year of  Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median
Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase

  2014        33,754       29,338    3.0%    1.0%    $864      $94                         0                0       0       0                         0                0       0       0                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2015        33,754       27,010    4.0%    1.0%    $956      $94      305,650      249,524    3.0%     1.0%   $885      $94                         0                0       0       0                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2016        33,749       23,370    4.9%    0.8%   $1,028     $84      305,608      228,189    4.0%     1.0%   $976      $95      234,593      181,590    3.0%     1.0%   $906      $95                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2017        33,741        6,930    4.9%    0.0%   $1,030      $4      305,520      197,700    5.0%     0.8% $1,040      $70      234,515      163,026    4.0%     1.0%   $997      $97      156,723      120,385    3.0%     1.0%    $838     $88                          0       0               0        0                         0      0                0       0

  2018                                                                  305,386       73,040    5.0%     0.1% $1,043       $7      234,371      130,737    4.6%     0.6% $1,042      $52      156,623      106,441    3.7%     0.7%    $898     $58       129,950      107,026    3.0%    1.0%    $802     $83

  2019                                                                                                                             234,111           15    4.6%     0.2% $1,043      $24      156,450            52   3.7%     0.5%    $898     $49       129,804       96,276    3.8%    0.8%    $865     $61        41,582      35,594    3.0%     1.0%   $796      $82

  2020                                                                                                                                                                                        156,152             1   3.7%     0.5%    $899     $31       129,602       43,076    3.8%    0.4%    $879     $29        41,499      32,464    4.0%     1.0%   $879      $85

  2021                                                                                                                                                                                                                                                    129,320       42,972    3.8%    0.4%    $880     $30        41,387      29,013    4.4%     0.4%   $906      $30

  2022                                                                                                                                                                                                                                                                                                                41,282            9   4.4%     0.3%   $907      $24


Notes:
a
  Analysis of HAMP permanent modifications with scheduled payment increases excludes 69,575 HAMP permanent modifications with incomplete records.

Source: SIGTARP analysis of Treasury HAMP data.
                                                                                                                                                                                                                                                                                                                                                                             HAMP MODIFICATION STATISTICS I APPENDIX F I JULY 30, 2014
                                                                                                                                                                                                                                                                                                                                                                             531
532              APPENDIX G I CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | JULY 30, 2014




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 5: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix I: “Key Oversight Reports
      5(a)(5)      where information requested was refused or              GAO, and SIGTARP.                           and Testimony”
                   not provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of         Provide statistical tables showing          Section 1: “The Office of the SIGTARP”
      Section
                   audit reports and the total dollar value of             dollar value of questioned costs from
      5(a)(8)                                                                                                          Section 5: “SIGTARP Recommendations”
                   questioned costs...”                                    SIGTARP audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                                   PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX H I JULY 30, 2014   533




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of new and              GAO3
ongoing public audits by the agencies listed below, as of      Ongoing Audits
June 30, 2014. See Appendix I: “Key Oversight Reports          •	 	We are issuing another report on Ally Bank in August 2014.
and Testimony” for a listing of published reports. Italic          After that we will be issuing a report on HAMP in October
style indicates narrative taken verbatim from the agencies’        2014 and a financial audit in November 2014.
responses to SIGTARP’s data call.
•	 	U.S. Department of Treasury Office of Inspector General    FDIC OIG4
    (“Treasury OIG”)                                           Ongoing Audits
•	 Federal Reserve Board Office of Inspector General           •	 None
    (“Federal Reserve OIG”)
•	 Government Accountability Office (“GAO”)                    Endnotes
                                                               1
                                                                 Treasury OIG, response to SIGTARP data call, 6/30/2014.
•	 Federal Deposit Insurance Corporation Office of Inspector   2
                                                                 Federal Reserve OIG, response to SIGTARP data call, 7/3/2014.
    General (“FDIC OIG”)                                       3
                                                                 GAO, response to SIGTARP data call, 7/14/2014.
                                                               4
                                                                 FDIC OIG, response to SIGTARP data call, 7/1/2014.

Treasury OIG1
Ongoing Audits
•	 None

Federal Reserve OIG2
Ongoing Audits
•	 None
534          APPENDIX I I KEY OVERSIGHT REPORTS AND TESTIMONY I JULY 30, 2014




      KEY OVERSIGHT REPORTS AND TESTIMONY
      This list reflects TARP-related reports and testimony published in the quarter ended June 30, 2014.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (TREASURY)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances
      effectively; promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial
      systems. Treasury advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved
      governance in financial institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 3/19/2014 – 6/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-14%20
      Transactions%20Report%20as%20of%206-30-14_INVESTMENT.pdf, accessed 7/3/2014. (released weekly)

      Treasury, Daily TARP Update, 4/1/2014 – 7/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20
      -%2007.01.2014.pdf, accessed 7/3/2014.

      Treasury, TARP Monthly 105(a) Report, 4/10/2014 – 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%20
      2014%20Monthly%20Report%20to%20Congress.pdf, accessed 7/11/2014.

      Treasury, Dividends and Interest Report, 4/10/2014 – 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%20
      2014%20Dividends%20Interest%20Report.pdf, accessed 7/11/2014. (released monthly)

      Treasury, Making Home Affordable Program Performance Report, 4/4/2014 – 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/May%202014%20MHA%20Report%20Final.pdf, accessed 7/11/2014. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 4/4/2014 – 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/MSA%20Data%20May%202014.pdf, accessed 7/11/2014. (released monthly)


      GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
      ROLES AND MISSION

      GAO is tasked with performing ongoing oversight of TARP’s performance, including:

      •	   evaluating the characteristics of asset purchases and the disposition of assets acquired
      •	   assessing TARP’s efficiency in using the funds
      •	   evaluating compliance with applicable laws and regulations
      •	   assessing the efficiency of contracting procedures
      •	   auditing TARP’s annual financial statements and internal controls
      •	   submitting reports to Congress at least every 60 days.


      OVERSIGHT REPORTS

      GAO, “Community Development Capital Intiative: Status of the Program and Financial Health of Remaining Participants,” GAO-14-579, June 6, 2014,
      www.gao.gov/assets/670/663892.pdf, accessed 7/14/2014.

      GAO, “Troubled Asset Relief Program: Status of the Wind Down of the Capital Purchase Program,” GAO-14-388, April 7, 2014, www.gao.gov/
      assets/670/662340.pdf, accessed 7/11/2014.
                                                                                                 KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX I I JULY 30, 2014                  535




SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Banks and Credit Unions in TARP’s CDCI Program Face Challenges,” 4/30/2014, www.sigtarp.gov/Audit Reports/SIGTARP_CDCI_Report.pdf,
accessed 7/11/2014.

SIGTARP, “Quarterly Report to Congress,” 4/30/2014, www.sigtarp.gov/Quarterly%20Reports/April_30_2014_Report_to_Congress.pdf, accessed
7/11/2014.

RECORDED TESTIMONY

SIGTARP, “Testimony Submitted to the U.S. Senate Committee on Homeland Security and Governmental Affairs Subcommittee on Financial Contracting
and Oversight,” 4/9/2014, www.sigtarp.gov/Testimony/SIGTARP_testimony_Oversight_of_Small_Agencies_4_9_2014.pdf, accessed 7/22/2014.

SIGTARP, “Testimony Submitted to the U.S. Senate Banking, Housing, and Urban Affairs Committee Subcommittee on Securities, Insurance, and
Investment,” 6/18/2014, www.sigtarp.gov/Testimony/SIGTARP_testimony_high_frequency_trading_June_18_2014.pdf, accessed 7/22/2014.

SIGTARP, “Testimony Submitted to the U.S. Senate Banking, Housing and Urban Affairs Committee Subcommittee on Financial Institutions and Consumer
Protection,” 7/16/2014, www.sigtarp.gov/Testimony/SIGTARP_testimony_TBTF_and_SIFI_regulation_July_16_2014.pdf, accessed 7/22/2014.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 7/11/2014; GAO, www.gao.gov, accessed 7/11/2014; SIGTARP, www.sigtarp.gov, accessed 7/11/2014; GAO, response to SIGTARP data call,
7/14/2014.
536           APPENDIX J I PEER REVIEW RESULTS I JULY 30, 2014




      PEER REVIEW RESULTS
      Peer Review of SIGTARP’s Audit Division                          Peer Review of SIGTARP’s Investigations Division
      In September 2012, SIGTARP’s Audit Division passed               In August 2012, SIGTARP’s Investigations Division passed
      its mandated external peer review with the highest rating        its mandated external peer review with the highest rating
      possible, a peer review rating of pass. Government Auditing      possible, a peer review rating of compliance with the quality
      Standards requires Federal Offices of Inspector General          standards established by CIGIE and the applicable Attorney
      that perform audits or attestations in accordance with           General guidelines.
      generally accepted government auditing standards to have an          The Department of Education Office of Inspector
      appropriate system of quality control and to undergo external    General (“DE OIG”) conducted a comprehensive peer review
      peer reviews at least once every three years. The SIGTARP        of the SIGTARP Investigations Division’s system of internal
      Audit Division began operating in early 2009, and this was its   safeguards and management procedures.
      first peer review.                                                   On August 29, 2012, the DE OIG’s report concluded that
          The Railroad Retirement Board Office of Inspector            SIGTARP’s system of internal safeguards and management
      General (“RRB OIG”) conducted a comprehensive peer               procedures for its investigative functions in effect for the
      review of the SIGTARP Audit Division’s system of quality         period ending May 2012 was in compliance with the quality
      control in accordance with Government Auditing Standards         standards established by CIGIE and the applicable Attorney
      and guidelines established by the Council of the Inspectors      General guidelines. These safeguards and procedures provide
      General on Integrity and Efficiency (“CIGIE”). On                reasonable assurance of conforming with professional
      September 4, 2012, the RRB OIG issued its System Review          standards in the planning, execution, and reporting of
      Report on the operations of SIGTARP’s Audit Division. The        SIGTARP’s investigations
      report noted that “the system of quality control for SIGTARP         The report is available on SIGTARP’s website at
      in effect for the year ended March 31, 2012, has been            www.SIGTARP.gov, under “Audit and Other Reports.”
      suitably designed and complied with to provide SIGTARP
      with reasonable assurance of performing and reporting in         SIGTARP’s Peer Review of the Tennessee
      conformity with applicable professional standards in all         Valley Authority Office of the Inspector General
      material respects.”                                              Audit Organization
          The report is available on SIGTARP’s website at              On March 31, 2014, SIGTARP’s Audit and Evaluation
      www.SIGTARP.gov, under “Audit and Other Reports.”                Division completed an external quality control review of
                                                                       the audit operations of the Tennessee Valley Authority’s
                                                                       Office of the Inspector General (“TVA OIG”) and issued a
                                                                       final report. The TVA OIG received a peer review rating of
                                                                       pass – the highest rating possible. There are no outstanding
                                                                       recommendations.
                                                                           The report is available on the TVA OIG website at
                                                                       www.oig.tva.gov/peer-review.html.
   ORGANIZATIONAL CHART
                                                                                                              Special Inspector General
                                                                                                                 Christy L. Romero
                                                                                                                                                                                                             EEO Program
                                                                                                                                                                                                               Manager
                                                                                                                                                                                                        Raymond Campbell
                                                                                                                          Deputy Special
                                                                                                                        Inspector General
                                                                                                                           Peggy Ellen




                                                                    Senior Policy Advisor             Chief of Staff                                Deputy SIG – LEAD
                                                                         Brian Sano                       Vacant                                     Roderick Fillinger




                                                                                                  Deputy Chief of Staff                           Assistant Deputy SIG –
                                                                                                                                                          LEAD
                                                                                                     Charles Jones
                                                                                                                                                        Lori Wagner

                                                                                                                                                                                              Director of                     Director of
                                                                                                                                                                                            Communications                 Legislative Affairs
                                                                                                                                                                                              Troy Gravitt                 Joseph Cwiklinski




                        Deputy SIG – Investigations                     Deputy SIG –                                       Deputy SIG –                                                                            Deputy SIG – Operations
                                                                         Reporting                                     Audit and Evaluations
                               Scott Rebein                                                                                                                                                                                  Cathy Alix
                                                                           Vacant                                         Bruce Gimbel




                          Assistant Deputy SIG –                      Managing Editor                              Assistant Deputy SIG –
                              Investigations                                                                        Audit and Evaluations
                                                                           Vacant
                            Charles Gregorski                                                                                 Vacant




         Chief                 Investigative          HQ Operations
     Investigative              Operations
       Counsel                                                                                                                              Director of Policy &           ADSIG – Support               ADSIG – CFO                      ADSIG – CIO   ADSIG – HR
                                                          Hotline                                                                              Administration                 Services
    Kevin Gerrity                                                                                                                                                                                      Edward Thomas                  Sangeeta Saraf    Sally Ruble
                                                                                                                                               Judith Grady                 Lynn Perkoski                 (Acting)

                                                      Cyber Forensics
    Assistant Chief
     Investigative
       Counsel                                                                                 Director                      Director                      Director
      Rae Oliver                                                                            Leslye Burgess                 Craig Meklir                     Vacant


     Investigative
       Counsel                                                                          Auditors & Analysts            Auditors & Analysts           Auditors & Analysts
                                                                                                                                                                                                                                                                      ORGANIZATIONAL CHART I APPENDIX K I JULY 30, 2014




Note: SIGTARP Organizational chart as of 7/17/2014.
                                                                                                                                                                                                                                                                      537
388      APPENDIX L I INDICATORS OF INTERCONNECTEDNESS I JULY 30, 2014




      INDICATORS OF INTERCONNECTEDNESS
      This appendix provides information collected from publicly available data submitted by JPMorgan (JPM), Bank of
      America (BAC), Citigroup (C), Wells Fargo (WF), Goldman Sachs (GS), and Morgan Stanley (MS) to the Federal
      Reserve (in quarterly Consolidated Financial Statements known as “FR Y-9C” reports), indicating how the banks remain
      interconnected to each in 2013, as they were in 2008.

           TABLE L.1
            TOTAL ASSETS       (000’s)

                                 2008                2009                2010             2011             2012             2013
            BAC        $1,822,068,028      $2,231,472,659     $2,268,347,377    $2,136,577,907    $2,212,004,452   $2,104,995,000
            C          $1,938,470,000      $1,862,392,000     $1,913,902,000    $1,873,878,000    $1,864,660,000   $1,880,382,000
            JPM        $2,175,052,000      $2,031,989,000     $2,117,605,000    $2,265,792,000    $2,359,141,000   $2,415,689,000
            GS                       N/A    $849,262,000        $911,330,000       $923,718,000    $938,770,000     $911,595,000
            MS                       N/A    $770,941,000        $807,698,000       $749,898,000    $780,960,000     $832,702,000
            WF         $1,309,639,000      $1,243,646,000     $1,258,128,000    $1,313,867,000    $1,422,968,000   $1,527,015,000


           TABLE L.2
            TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES (AS A PERCENTAGE
            OF TOTAL ASSETS)
                             2008            2009           2010           2011          2012          2013
            BAC             27.1%           25.7%           27.2%          24.4%         26.1%        24.5%
            C               28.3%           31.5%           31.3%          29.7%         32.7%        30.4%
            JPM             32.6%           37.8%           37.9%          35.4%         34.7%        29.1%
            GS                 N/A          38.9%           38.3%          39.5%         44.8%        37.3%
            MS                 N/A          38.9%           38.8%          37.3%         37.1%        38.7%
            WF              15.8%           17.3%           17.8%          22.9%         20.6%        20.7%
                                            INDICATORS OF INTERCONNECTEDNESS I APPENDIX L I JULY 30, 2014   389




TABLE L.3
 BANK OF AMERICA (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE
 SECURITIES)
                           2008    2009      2010           2011            2012                2013
 U.S. Treasuries            5.3%    6.7%    11.7%          12.4%           13.3%                 8.4%
 U.S. Govt Agency
                            1.1%    1.7%     2.6%            1.4%           1.1%                 1.1%
 Obligations
 Municipal obligations      3.7%    3.8%     3.3%            3.0%           2.2%                 2.7%
 Mortgage-backed
                           53.5%   45.6%    45.9%          44.3%           47.6%               45.6%
 securities (MBS)
 Asset-backed securities
 (ABS) and other debt      13.8%   17.0%    15.6%          19.7%           17.2%               17.7%
 securities
 Structured financial
                            N/A     1.0%     0.7%            0.5%           0.6%                 1.0%
 products
 Investments in equity
                            4.1%    2.4%     3.7%            0.7%           1.0%                 0.8%
 securities/funds
 Loans                      0.5%    1.0%     0.7%            0.7%           0.8%                 1.6%
 Other trading assets       5.1%    7.5%     5.8%            5.1%           7.9%               12.8%
 Derivatives with
                           13.0%   13.3%    10.2%          12.2%            8.3%                 8.4%
 positive fair value


 CITIGROUP (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES)
                           2008    2009      2010           2011            2012                2013
 U.S. Treasuries            2.0%    9.5%    13.1%          12.3%           13.6%               14.5%
 U.S. Govt Agency
                            4.4%    5.0%     7.8%            6.5%           4.8%                 3.4%
 Obligations
 Municipal obligations      4.3%    3.9%     3.5%            3.5%           3.6%                 3.9%
 Mortgage-backed
                           14.7%   11.1%     9.9%          14.7%           14.8%               14.0%
 securities (MBS)
 Asset-backed securities
 (ABS) and other debt      38.1%   43.6%    44.0%          39.8%           39.1%               39.0%
 securities
 Structured financial
                            N/A     2.0%     1.4%            1.2%           1.4%                 1.6%
 products
 Investments in equity
                            1.1%    1.0%     1.0%            1.5%           0.8%                 0.7%
 securities/funds
 Loans                      3.9%    3.0%     2.7%            2.7%           2.1%                 2.2%
 Other trading assets      11.1%   10.9%     7.0%            6.5%          10.8%               11.5%
 Derivatives with
                           20.3%    9.8%     9.6%          11.2%            9.0%                 9.2%
 positive fair value
                                                                                   Continued on next page
390   APPENDIX L I INDICATORS OF INTERCONNECTEDNESS I JULY 30, 2014




             JPMORGAN (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES)
                                              2008            2009    2010    2011                 2012        2013
             U.S. Treasuries                   3.2%            2.1%    2.2%    2.4%                 3.2%        6.1%
             U.S. Govt Agency
                                               2.7%            4.8%    2.0%    1.1%                 1.0%        0.6%
             Obligations
             Municipal obligations             2.3%            1.8%    3.2%    4.1%                 4.9%        5.3%
             Mortgage-backed
                                              27.6%          30.5%    28.6%   28.3%               26.0%        24.7%
             securities (MBS)
             Asset-backed securities
             (ABS) and other debt             23.5%          31.0%    27.8%   28.5%               30.6%        26.9%
             securities
             Structured financial
                                                N/A            2.5%    2.5%    3.9%                 3.7%        4.2%
             products
             Investments in equity
                                               0.4%            0.4%    0.3%    0.3%                 0.3%        0.4%
             securities/funds
             Loans                             4.5%            4.1%    4.3%    4.2%                 5.1%        4.4%
             Other trading assets             12.9%          12.3%    19.1%   15.9%               16.1%        18.1%
             Derivatives with
                                              22.9%          10.4%    10.0%   11.2%                 9.1%        9.3%
             positive fair value


             GOLDMAN SACHS (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE
             SECURITIES)
                                              2009            2010    2011    2012                 2013
             U.S. Treasuries                   9.8%          10.4%    10.2%   12.7%               12.8%
             U.S. Govt Agency
                                               3.0%            3.4%    2.3%    2.5%                 1.4%
             Obligations
             Municipal obligations             0.8%            0.8%    0.8%    0.7%                 0.4%
             Mortgage-backed
                                              14.4%          16.7%    17.9%   14.7%               14.2%
             securities (MBS)
             Asset-backed securities
             (ABS) and other debt             22.7%          22.2%    22.4%   21.6%               19.0%
             securities
             Structured financial
                                               0.5%            0.6%    0.7%    0.9%                 0.8%
             products
             Investments in equity
                                               0.1%            0.1%    0.1%    0.1%                 0.0%
             securities/funds
             Loans                             7.3%            6.1%    3.7%    4.1%                 2.8%
             Other trading assets             24.4%          25.3%    20.5%   26.4%               31.7%
             Derivatives with
                                              17.0%          14.3%    21.4%   16.3%               16.8%
             positive fair value
                                                                                      Continued on next page
                                           INDICATORS OF INTERCONNECTEDNESS I APPENDIX L I JULY 30, 2014   391




MORGAN STANLEY (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-
SALE SECURITIES)
                          2009    2010     2011            2012            2013
U.S. Treasuries            5.1%   12.2%    18.6%          13.5%           17.5%
U.S. Govt Agency
                           7.8%    3.8%     2.1%            1.7%           1.4%
Obligations
Municipal obligations      1.3%    1.1%     0.8%            0.5%           0.5%
Mortgage-backed
                          11.0%   11.1%    13.8%          15.7%           11.7%
securities (MBS)
Asset-backed securities
(ABS) and other debt      22.8%   25.6%    21.5%          24.4%           17.9%
securities
Structured financial
                           1.0%    1.3%     1.0%            0.9%           1.0%
products
Investments in equity
                           0.0%    0.0%     0.0%            0.0%           0.0%
securities/funds
Loans                      8.3%    4.6%     2.8%            3.0%           2.8%
Other trading assets      26.3%   24.1%    22.6%          28.1%           37.3%
Derivatives with
                          16.4%   16.2%    16.7%          12.2%            9.9%
positive fair value


WELLS FARGO (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES)
                          2008    2009     2010            2011            2012           2013
U.S. Treasuries            1.5%    1.2%     1.1%            1.4%           2.0%            2.8%
U.S. Govt Agency
                           2.1%    1.9%     1.7%            3.2%           3.4%            3.0%
Obligations
Municipal obligations      7.5%    6.7%     9.2%          11.7%           13.8%           14.1%
Mortgage-backed
                          48.8%   58.5%    55.7%          55.8%           50.1%           51.8%
securities (MBS)
Asset-backed securities
(ABS) and other debt      20.2%   17.4%    17.8%          15.4%           15.9%           12.0%
securities
Structured financial
                           N/A     1.9%     2.7%            3.2%           5.0%            6.8%
products
Investments in equity
                           1.5%    2.6%     2.3%            1.1%           1.0%            1.3%
securities/funds
Loans                      0.0%    0.0%     0.0%            0.0%           0.3%            0.8%
Other trading assets       1.7%    1.5%     2.1%            1.5%           2.3%            2.9%
Derivatives with
                          16.7%    8.3%     7.3%            6.6%           6.3%            4.6%
positive fair value
392   APPENDIX L I INDICATORS OF INTERCONNECTEDNESS I JULY 30, 2014




                   TABLE L.4
                     LEVEL 3 ASSETS (AS A PERCENTAGE OF TOTAL ASSETS)
                                      2009            2010              2011        2012          2013
                     BAC              4.6%            3.5%               2.4%        1.7%          1.5%
                     C                5.3%            3.7%               3.3%        2.6%          2.4%
                     JPM              6.3%            5.2%               5.0%        4.2%          2.9%
                     GS               6.4%            5.5%               5.9%        5.4%          4.7%
                     MS               7.0%            5.2%               5.9%        3.5%          2.8%
                     WF               4.2%            3.8%               4.1%        3.6%          2.4%


                   TABLE L.5
                     OTHER BORROWED MONEY & SUBORDINATED NOTES (AS A PERCENTAGE OF
                     TOTAL LIABILITIES)
                                      2008            2009              2010        2011          2012          2013
                     BAC             25.9%           25.4%              25.0%       21.4%        15.6%         15.8%
                     C               27.1%           25.4%              26.3%       22.3%        17.4%         16.7%
                     JPM             22.5%           20.3%              21.5%       19.0%        18.3%         18.3%
                     GS                 N/A          31.7%              31.0%       30.2%        28.0%         27.4%
                     MS                 N/A          27.3%              27.8%       30.6%        26.4%         22.3%
                     WF              29.7%           19.4%              15.6%       12.4%        11.8%         12.6%


                   TABLE L.6
                     DERIVATIVE LIABILITIES (AS A PERCENTAGE OF TOTAL LIABILITIES)
                                      2008            2009              2010        2011          2012          2013
                     BAC              1.9%            2.4%               2.8%        2.9%          2.2%         1.9%
                     C                6.5%            3.7%               3.8%        3.3%          3.1%         2.8%
                     JPM              6.1%            3.2%               3.6%        3.6%          3.3%         2.6%
                     GS                 N/A           7.2%               6.5%        6.9%          5.8%         6.0%
                     MS                 N/A           5.3%               6.4%        6.8%          5.1%         4.4%
                     WF               1.2%            0.6%               0.7%        1.1%          0.9%         0.7%


                   TABLE L.7
                     CREDIT DERIVATIVES SOLD           (000’s)

                                          2008                   2009             2010             2011             2012             2013
                     BAC       $1,006,236,780       $2,821,869,619       $2,155,961,270   $1,903,782,269   $1,600,314,843   $1,328,787,000
                     C         $1,443,280,000       $1,214,053,000       $1,223,116,000   $1,394,528,000   $1,346,494,000   $1,143,364,000
                     JPM       $4,103,167,000       $3,029,919,000       $2,753,017,000   $2,919,203,000   $3,020,949,000   $2,699,334,000
                     GS                       N/A   $2,543,085,000       $2,043,256,000   $1,955,543,000   $1,756,464,000   $1,430,452,000
                     MS                       N/A   $2,451,228,000       $2,298,977,000   $2,438,076,000   $1,897,846,000   $1,404,830,000
                     WF          $137,587,000         $78,943,000           $47,699,000     $38,403,000      $26,455,000      $19,501,000
                                                                           INDICATORS OF INTERCONNECTEDNESS I APPENDIX L I JULY 30, 2014   393




TABLE L.8
 CREDIT DERIVATIVES BOUGHT           (000’s)

                     2008               2009              2010              2011               2012                2013
 BAC        $1,032,450,488     $2,822,223,387    $2,210,741,037    $1,962,281,508    $1,602,961,340     $1,343,184,000
 C          $1,590,212,000     $1,332,962,000    $1,322,693,000    $1,512,890,000    $1,434,289,000     $1,215,062,000
 JPM        $4,284,712,000     $3,045,871,000    $2,719,430,000    $2,854,593,000    $2,960,388,000     $2,685,774,000
 GS                      N/A   $2,707,296,000    $2,189,890,000    $2,076,820,000    $1,859,326,000     $1,515,954,000
 MS                      N/A   $2,522,527,000    $2,349,313,000    $2,466,804,000    $1,910,438,000     $1,400,374,000
 WF          $148,872,000        $89,078,000        $45,172,000      $36,281,000       $29,037,000         $23,314,000


TABLE L.9
 CDS OUTSTANDING FOR WHICH THE BANK IS A REFERENCE ENTITY (GROSS NOTIONAL)
                      2008                2009              2010              2011                2012                 2013
 BAC        $47,382,335,241 $80,584,780,730 $80,116,124,572 $75,337,027,056 $67,214,865,010 $47,161,213,131
 C          $56,173,951,442 $50,871,497,690 $55,089,485,168 $57,668,600,580 $53,818,546,881 $41,105,047,300
 JPM        $55,467,913,454 $85,731,390,984 $79,917,503,397 $76,669,564,815 $63,990,736,895 $46,913,114,337
 GS         $75,513,965,425 $57,673,954,316 $64,066,178,720 $68,083,770,395 $68,331,382,353 $48,530,599,696
 MS         $79,435,245,395 $67,178,795,260 $68,305,392,620 $73,998,133,711 $66,981,031,118 $49,697,595,797
 WF         $41,673,810,528 $62,794,078,256 $61,537,861,634 $58,471,158,974 $48,000,354,342 $34,093,844,843



TABLE L.10
 COMMERCIAL PAPER (AS A PERCENTAGE OF TOTAL LIABILITIES)
                 2008            2009           2010        2011           2012           2013
 BAC              2.3%           0.7%            1.0%        0.0%           0.0%           0.0%
 C                1.6%           0.6%            1.4%        1.3%           0.7%           1.1%
 JPM              1.9%           2.2%            1.8%        2.5%           3.4%           3.3%
 GS                N/A           0.2%            0.2%        0.2%           0.1%           0.1%
 MS                N/A           0.1%            0.1%        0.1%           0.0%           0.0%
 WF               0.2%           0.1%            0.5%        0.3%           0.3%           0.4%


TABLE L.11
 REPOS (AS A PERCENTAGE OF TOTAL LIABILITIES)
                 2008            2009           2010        2011           2012           2013
 BAC             11.7%          12.5%           12.0%       11.3%         14.8%          10.6%
 C               11.1%           9.7%           10.8%       11.7%         12.6%          12.1%
 JPM              9.0%          13.6%           14.1%       10.2%         11.1%            8.2%
 GS                N/A          18.5%           20.8%       20.1%         21.5%          22.0%
 MS                N/A          25.9%           23.8%       19.9%         22.4%          23.4%
 WF               1.7%           2.2%            3.1%        2.4%           2.6%           2.6%
394   APPENDIX L I INDICATORS OF INTERCONNECTEDNESS I JULY 30, 2014




                   TABLE L.12
                     REVERSE REPOS (AS A PERCENTAGE OF TOTAL ASSETS)
                                      2008           2009             2010    2011    2012    2013
                     BAC              4.5%            9.1%            10.1%   10.5%   10.6%    9.6%
                     C                9.5%           12.0%            12.9%   14.7%   14.0%   13.7%
                     JPM             14.9%           15.5%            16.3%   16.7%   17.6%   14.9%
                     GS                 N/A          39.8%            40.3%   39.1%   30.6%   37.1%
                     MS                 N/A          40.3%            35.5%   34.3%   32.8%   29.8%
                     WF               0.6%            0.6%             1.9%    1.8%    2.7%    1.9%
SIGTARP
SIG-QR-14-03

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
